U. S. Department of Justice
Office of the Inspector General




A Review of the FBI's 1Uantlli.ngof
Intelligence Information Re1ade:d to the
September 11 Attacks (Novennl~er2004)




                      Released Piublicly June 2006


                                     Office (ofAthe Inspector General
                                      NOTE



This report is an unclassified version of the full report that the Office of the
Inspector General (OIG) completed in 2004 and provided to the Federal Bureau
of Investigation (FBI), the Department of Justice, the Congress, the Central
Intelligence Agency, the National Security Agency, and the National
Commission on Terrorist Attacks Upon the United States. The OIG’s full report
is classified at the Top Secret/SCI level.

At the request of members of Congress, after issuing the full report the OIG
created an unclassified version of the report. However, because the unclassified
version included information about the FBI’s investigation of Zacarias
Moussaoui, and because of Moussaoui’s trial in the United States District Court
for the Eastern District of Virginia and the rules of that Court, the OIG could not
release the unclassified version of the report without the Court’s permission
until the trial was completed.

In June 2005, the Court gave the OIG permission to release the sections of the
unclassified report that did not discuss Moussaoui. Therefore, at that time the
OIG released publicly a version of the unclassified report that did not contain
Chapter 4 (the OIG’s review of the Mousssaoui matter), as well as other
references to Moussaoui throughout the report.

The Moussaoui case concluded on May 4, 2006, when the Court sentenced
Moussaoui to life in prison. The OIG then prepared this document, an
unclassified version of the full report that includes the information related to
Moussaoui.

On June 19, 2006, the OIG is releasing this full version of the unclassified
report, which includes the Moussaoui chapter and other references to Moussaoui
throughout the report, as well as the other chapters that previously were released
publicly.
                                   TABLE OF CONTENTS

TABLE OF CONTENTS............................................................................... i
CHAPTER ONE: INTRODUCTION ........................................................1
I.     Introduction ................................................................................................1

II.    OIG investigation .......................................................................................4

III.   Organization of the OIG report ..................................................................4

CHAPTER TWO: BACKGROUND .........................................................7
I.     Introduction ................................................................................................7
       A. Introduction to international terrorism ...............................................7
       B. The FBI’s role in protecting against international terrorism..............8

II.    The FBI’s organizational structure with respect to international
       terrorism....................................................................................................12
       A. Counterterrorism Program................................................................12
            1. Organization of the Counterterrorism Division........................14
            2. Management of counterterrorism cases at FBI Headquarters ..15
       B. Field offices and counterterrorism investigations ............................19
       C. The Department’s Office of Intelligence Policy and Review ..........20

III.   The wall between intelligence and criminal terrorism investigations......21
       A. Introduction.......................................................................................21
           1. The “primary purpose” standard...............................................22
           2. Institutional divide between criminal and intelligence
                investigations ............................................................................25
           3. The Ames case and concerns about the primary purpose
                standard .....................................................................................25
           4. The 1995 Procedures ................................................................27
           5. Additional restrictions on sharing intelligence information.....30
           6. Reports evaluating the impact of the 1995 Procedures ............32
       B. FISA Court’s concern about accuracy of FISA applications ...........36
           1. Errors in FISA applications ......................................................36
           2. FISA Court’s new requirements regarding the wall.................37


                                                         i
          3. Additional FISA errors and DOJ OPR’s investigation............ 39
       C. Deputy Attorney General Thompson’s August 2001
          memorandum ................................................................................... 40
       D. The impact of the wall ..................................................................... 41
       E. Changes to the wall after September 11, 2001 ................................ 42

IV.    The process for obtaining a FISA warrant .............................................. 44
       A. Legal requirements for a FISA warrant ........................................... 45
           1. Agent of a foreign power ......................................................... 45
           2. The application filed with the FISA Court .............................. 47
       B. Assembling an application for submission to the FISA Court ........ 48
           1. Investigation and LHM prepared by field office ..................... 49
           2. Role of SSAs and IOSs at FBI Headquarters .......................... 49
           3. Role of NSLU attorneys........................................................... 51
           4. Role of OIPR attorneys ............................................................ 52
           5. Expedited FISA warrants......................................................... 52

CHAPTER THREE: THE FBI’S HANDLING OF THE
   PHOENIX ELECTRONIC COMMUNICATION AND
   OTHER INFORMATION RELATING TO USE OF
   AIRPLANES IN TERRORISTS ATTACKS ............................... 55
I.     Introduction.............................................................................................. 55

II.    The Phoenix EC ....................................................................................... 56
       A. Background ...................................................................................... 56
           1. Assigning leads in the FBI ....................................................... 56
       B. The Phoenix EC ............................................................................... 60
           1. Information on individuals....................................................... 60
           2. Recommendations in the Phoenix EC ..................................... 64
           3. Addressees on the Phoenix EC ................................................ 65
       C. Williams’ theory .............................................................................. 66
       D. FBI Headquarters’ handling of the Phoenix EC.............................. 68
           1. Assignment to the RFU............................................................ 69
           2. Assignment to the UBLU......................................................... 71
       E. The New York Division’s handling of the EC ................................ 77

III.   OIG analysis ............................................................................................ 80
       A. Systemic problems ........................................................................... 80


                                                        ii
             1.
              Ineffective system for assigning and managing work ..............81
             2.
              Lack of adequate strategic analytical capabilities ....................83
             3.
              Resources and training for analysts ..........................................87
             4.
              Poor information flow and information sharing .......................88
             5.
              General complaints about the difficulties of working in
              ITOS..........................................................................................91
      B. Individual performance.....................................................................93
         1. Kenneth Williams .....................................................................93
         2. FBI Headquarters......................................................................93
         3. Lynn ..........................................................................................95
         4. Jay .............................................................................................95
         5. FBI management.......................................................................96
      C. Other pieces of intelligence concerning airplanes as weapons ........96
      D. Conclusion ........................................................................................99

CHAPTER FOUR: THE FBI’S INVESTIGATION OF
   ZACARIAS MOUSSAOUI ............................................................ 101
I.    Introduction ........................................................................................... 101

II.   Statement of facts related to the FBI’s Moussaoui investigation.......... 103
      A. Moussaoui’s background............................................................... 103
      B. The FBI receives information about Moussaoui ........................... 105
      C. The Minneapolis FBI’s investigation ............................................ 107
           1. The Minneapolis FBI opens an intelligence investigation .... 107
           2. Initial checks for information ................................................ 108
           3. The investigation continues ................................................... 108
           4. The decision to arrest Moussaoui .......................................... 109
           5. Moussaoui’s arrest ................................................................. 111
           6. Search of hotel room and Al-Attas’ possessions ................... 112
           7. Interview of Al-Attas ............................................................. 113
           8. Interview of Moussaoui ......................................................... 115
           9. Minneapolis FBI’s consultation with Minneapolis
               United States Attorney’s Office............................................. 116
           10. Al-Attas’ arrest ...................................................................... 118
      D. Expedited deportation order .......................................................... 119
      E. Discussion regarding search warrant............................................. 120
           1. Henry’s 26-page EC............................................................... 120



                                                      iii
      2.Assignment of Moussaoui investigation at FBI
        Headquarters .......................................................................... 123
   3. Prior relationship between the Minneapolis FBI and RFU ... 124
   4. Gary seeks advice from ASAC Charles................................. 127
   5. Henry discusses with Don pursuing criminal warrant........... 128
   6. CDC Rowley’s recommendation ........................................... 130
F. The FISA request ........................................................................... 132
   1. Minneapolis seeks to expedite the FISA process .................. 133
   2. The RFU’s assessment of the Minneapolis FBI’s FISA
        request .................................................................................... 133
   3. Additional information related to Moussaoui........................ 134
   4. Consultations with NSLU attorney Howard.......................... 136
   5. French information about Moussaoui .................................... 140
   6. Martin advises Minneapolis FBI that French information
        is not sufficient to connect Moussaoui to a foreign power.... 141
   7. Robin’s research to link Moussaoui to recognized foreign
        power or terrorist organization............................................... 144
   8. Martin and Robin consult with NSLU attorney Tim ............. 146
   9. Martin tells Minneapolis its FISA request was not an
        emergency .............................................................................. 148
   10. Martin seeks information from FAA ..................................... 149
   11. Minneapolis FBI seeks assistance from the CIA and
        London Legat ......................................................................... 150
   12. Minneapolis prepares emergency FISA request .................... 152
   13. Dispute between Minneapolis and Martin ............................. 153
   14. Minneapolis contacts RFU Unit Chief................................... 155
   15. Martin and Robin’s consultation with NSLU attorney
        Susan ...................................................................................... 158
   16. Martin’s edits to Minneapolis’ FISA request ........................ 161
   17. Consultation with NSLU chief Spike Bowman..................... 164
   18. Additional information about Al-Attas and Moussaoui ........ 166
   19. Failure to reconsider seeking a criminal warrant................... 168
   20. Additional French information received about Moussaoui ... 169
G. Deportation plans ........................................................................... 171
H. Dissemination of information about Moussaoui ........................... 174
I. September 11 attacks ..................................................................... 177
J. Information received from British authorities on
   September 12 and 13...................................................................... 180


                                              iv
       K. Moussaoui’s indictment................................................................. 180

III.   OIG Analysis ......................................................................................... 181
       A. No intentional misconduct............................................................. 181
       B. Probable cause was not clear ......................................................... 181
       C. Problems in the FBI’s handling of the Moussaoui investigation .. 184
           1. Initial evaluation of the request for a FISA warrant.............. 184
           2. Failure to reconsider criminal warrant................................... 191
           3. Conservatism with respect to FISA ....................................... 192
       D. Assessment of probable cause ....................................................... 200
       E. Conflict between Minneapolis and FBI Headquarters .................. 201
       F. Problems with legal review of FISA request................................. 203
       G. The Phoenix EC............................................................................. 207
       H. Edits to Minneapolis FBI’s FISA request ..................................... 209
       I. Inadequate dissemination of threat information ............................ 211
       J. Inadequate training ........................................................................ 213

IV.    Individual performance ......................................................................... 214
       A. RFU................................................................................................ 214
            1. Don......................................................................................... 214
            2. Martin..................................................................................... 215
            3. Robin...................................................................................... 217
       B. NSLU attorneys ............................................................................. 218
       C. Minneapolis FBI employees.......................................................... 218

V.     Conclusion ............................................................................................. 220

CHAPTER FIVE: TWO SEPTEMBER 11 HIJACKERS:
   KHALID AL-MIHDHAR AND NAWAF AL-HAZMI .......... 223
I.     Introduction ........................................................................................... 223

II.    Background............................................................................................ 225
       A. OIG investigation .......................................................................... 225
       B. Background on the CIA................................................................. 227
           1. CIA authority and mission..................................................... 227
           2. Organization of the CIA ........................................................ 228
           3. The CIA’s collection and internal dissemination of
               information............................................................................. 230
           4. Passing of intelligence information by the CIA to the FBI ... 230

                                                       v
       C.    FBI detailees to the CIA Counterterrorist Center .......................... 231
             1. FBI Headquarters detailees .................................................... 231
             2. Washington Field Office detailees......................................... 232
             3. New York Field Office detailee............................................. 233

III.   Factual chronology regarding Hazmi and Mihdhar............................... 233
       A. Identification in January 2000 of Hazmi and Mihdhar as
           al Qaeda operatives ........................................................................ 234
           1. Background ............................................................................ 237
           2. NSA provides intelligence regarding planned travel by
                 al Qaeda operatives to Malaysia ............................................ 238
           3. Mihdhar’s travel and discovery of his U.S. visa.................... 239
           4. CIR is drafted to pass Mihdhar’s visa information to
                 the FBI.................................................................................... 239
           5. Mihdhar in Dubai ................................................................... 242
           6. CIA cable stating that Mihdhar’s visa and passport
                 information had been passed to FBI ...................................... 242
           7. The Malaysia meetings and surveillance of Mihdhar............ 243
           8. OIG findings regarding FBI’s knowledge about
                 Mihdhar and the Malaysia meetings...................................... 249
       B. Hazmi and Mihdhar in San Diego ................................................. 256
           1. Introduction............................................................................ 256
           2. Hazmi and Mihdhar’s association with Bayoumi.................. 257
           3. Hazmi and Mihdhar’s communications................................. 259
           4. Hazmi and Mihdhar’s association with an FBI asset
                 beginning in May 2000 .......................................................... 260
           5. OIG conclusion ...................................................................... 262
       C. Mihdhar’s association with Khallad, the purported
           mastermind of the Cole attack ....................................................... 262
           1. Background ............................................................................ 263
           2. Source’s identification of Khallad ......................................... 264
           3. OIG conclusions regarding whether the FBI was aware of
                 the source’s identification of Khallad in the Kuala Lumpur
                 photograph ............................................................................. 276
       D. FBI and CIA discussions about the Cole investigation in
           May and June 2001 ........................................................................ 278
           1. Background ............................................................................ 279
           2. Discussions in May 2001 ....................................................... 281
           3. June 11, 2001, meeting .......................................................... 287

                                                      vi
            4. OIG conclusions on May and June discussions .................... 295
      E.    The FBI’s efforts to locate Mihdhar in August and
            September 2001 ............................................................................. 297
            1. Continuing review of the Malaysia meetings in July and
                August 2001........................................................................... 297
            2. Discovery of Mihdhar’s entry into the United States ............ 300
            3. The FBI’s intelligence investigation on Mihdhar.................. 303
            4. The New York Field Office’s investigation .......................... 309
            5. OIG conclusions on the intelligence investigation ................ 312
      F.    Summary of the five opportunities for the FBI to learn about
            Mihdhar and Hazmi ....................................................................... 313

IV.   OIG’s analysis of the FBI’s handling of the intelligence information
      concerning Hazmi and Mihdhar ............................................................ 315
      A. Systemic impediments that hindered the sharing of information
          between the CIA and the FBI ........................................................ 316
          1. Use of detailees ...................................................................... 316
          2. FBI employees’ lack of understanding of CIA reporting
               process.................................................................................... 323
          3. Inadequate procedures for documenting receipt of CIA
               information............................................................................. 325
          4. Lack of appropriate infrastructure in FBI field offices ......... 327
          5. OIG conclusion on impediments to information sharing ...... 330
      B. The actions of the San Diego FBI ................................................. 330
          1. The San Diego FBI’s preliminary investigation of
               Bayoumi................................................................................. 331
          2. The FBI’s handling of the informational asset ...................... 335
          3. San Diego FBI’s failure to prioritize counterterrorism
               investigations ......................................................................... 341
      C. Events in the spring and summer of 2001 ..................................... 343
          1. Restrictions on the flow of information within the FBI ........ 343
          2. Problems at the June 11 meeting ........................................... 345
          3. The FBI’s investigation in August 2001 to find Mihdhar
               and Hazmi .............................................................................. 349
      D. Individual performance.................................................................. 355
          1. Dwight.................................................................................... 355
          2. Malcolm ................................................................................. 356
          3. Stan ........................................................................................ 357
          4. Max ........................................................................................ 357

                                                    vii
             5.     Donna ..................................................................................... 358
             6.     Rob ......................................................................................... 359
             7.     Richard ................................................................................... 360
             8.     Mary ....................................................................................... 360

V.    OIG conclusions .................................................................................... 361

CHAPTER SIX: RECOMMENDATIONS AND CONCLUSIONS ............ 363

I.    Recommendations.................................................................................. 364
      A. Recommendations related to the FBI’s analytical program .......... 364
      B. Recommendations related to the FISA process ............................. 366
      C. Recommendations related to the FBI’s interactions with the
          Intelligence Community ................................................................ 369
      D. Other recommendations................................................................. 373

II.   Conclusions............................................................................................ 376




                                                      viii
                                 CHAPTER ONE
                                INTRODUCTION
I.       Introduction
       On September 11, 2001, 19 terrorists hijacked 4 commercial airplanes as
part of a coordinated terrorist attack against the United States. Two of the
planes crashed into the World Trade Center Towers in New York City and one
hit the Pentagon near Washington, D.C. The fourth plane crashed in a field in
southwestern Pennsylvania. More than 3,000 persons were killed in these
terrorist attacks.
       On February 14, 2002, the House of Representatives Permanent Select
Committee on Intelligence and the Senate Select Committee on Intelligence
began a joint inquiry to address questions related to the September 11 attacks,
such as “what the Intelligence Community knew prior to September 11 about
the scope and nature of any possible terrorist attacks… what was done with
that information” and “how and to what degree the elements of the Intelligence
Community have interacted with each other, as well as with other parts of the
federal, state, and local governments, with respect to identifying, tracking,
assessing, and coping with international terrorist threats.” 1 This review
became known as the Joint Intelligence Committee Inquiry or “the JICI
review.”
      One of the key questions arising after the attacks was what information
the Federal Bureau of Investigation (FBI) knew before September 11 that was
potentially related to the terrorist attacks. On May 21, 2002, Coleen Rowley,
the Chief Division Counsel in the FBI’s Minneapolis Field Office, 2 wrote a 13-
page letter to FBI Director Robert Mueller in which she raised concerns about
how the FBI had handled certain information in its possession before the
attacks. Among other things, Rowley discussed the FBI’s investigation of

     1
      The U.S. “Intelligence Community” is composed of 14 agencies responsible for
collecting intelligence information on behalf of the government and includes the Federal
Bureau of Investigation and the Central Intelligence Agency (CIA).
     2
     The CDC provides legal counsel and advice to field office management, supervisors,
and agents on administrative and operational matters.



                                             1
Zacarias Moussaoui, a French citizen who had been arrested in Minneapolis on
August 16, 2001. The Minneapolis FBI Field Office had received a telephone
call from a representative of a flight school reporting suspicions about
Moussaoui, who was taking flying lessons at the school near Minneapolis.
Acting on this information, FBI and Immigration and Naturalization Service
(INS) agents in Minneapolis investigated Moussaoui for possible connections
to terrorism and discovered that he was in violation of his immigration status.
As a result, on August 16, 2001, Moussaoui was taken into custody on
immigration charges.
      The Minneapolis FBI became concerned that Moussaoui was training to
possibly commit a terrorist act using a commercial airplane. It therefore
attempted to investigate his potential links to terrorism. To pursue this
investigation, the Minneapolis FBI sought a warrant to search Moussaoui’s
computer and other belongings. However, FBI Headquarters did not believe
that a sufficient predicate existed to obtain the search warrant, either a criminal
warrant or a Foreign Intelligence Surveillance Act (FISA) warrant. Moussaoui,
who was in custody at the time of the September 11 attacks, later was indicted
and charged as a co-conspirator in the September 11 attacks.
       In her May 21, 2002, letter to the FBI Director, Rowley criticized the FBI
Headquarters managers who were involved with the Moussaoui investigation
prior to September 11. FBI Director Mueller subsequently referred Rowley’s
letter to the Inspector General and asked the Office of the Inspector General
(OIG) to review the FBI’s handling of the Moussaoui investigation. In
addition, the Director asked the OIG to review the issues in an Electronic
Communication (EC) written by an FBI Special Agent in Phoenix (known as
the Phoenix EC), as well as “any other matters relating to the FBI’s handling of
information and/or intelligence before September 11, 2001 that might relate in
some manner to the September 11, 2001 attacks.”
      The Phoenix EC was a memorandum sent by an agent in the FBI’s
Phoenix office in July 2001 to FBI Headquarters and to the FBI’s New York
Field Office. 3 The Phoenix EC outlined the agent’s theory that there was a

    3
     This document has commonly been referred to as “the Phoenix memo” or “the
Phoenix EC.” Throughout this report, we use the term “Phoenix EC” to refer to this
document.



                                            2
coordinated effort by Usama Bin Laden to send students to the United States to
attend civil aviation universities and colleges for the purpose of obtaining jobs
in the civil aviation industry to conduct terrorist activity. The EC also
recommended that FBI Headquarters instruct field offices to obtain student
identification information from civil aviation schools, request the Department
of State to provide visa information about foreign students attending U.S. civil
aviation schools, and seek information from other intelligence agencies that
might relate to his theory. At the time of the September 11 attacks, little action
had been taken in response to the Phoenix EC.
       The OIG agreed to conduct a review in response to the FBI Director’s
request. In conducting our review, OIG investigators also learned that prior to
the September 11 attacks the Intelligence Community had acquired a
significant amount of intelligence about two of the hijackers – Nawaf al Hazmi
and Khalid al Mihdhar. 4 Well before September 11, 2001, the Intelligence
Community had discovered that Hazmi and Mihdhar had met with other al
Qaeda operatives in Malaysia in January 2000. The CIA also had discovered
that Mihdhar possessed a valid U.S visa and that Hazmi had traveled to the
United States in January 2000. The FBI contended, however, that it was not
informed of Mihdhar’s U.S. visa and Hazmi’s travel to the United States until
August 2001, just before the September 11 attacks. At that time, the FBI had
initiated an investigation to locate Mihdhar and Hazmi, but the FBI was not
close to finding them at the time of the September 11 attacks. The OIG also
learned that Hazmi and Mihdhar had resided in the San Diego area in 2000,
where they interacted with a former subject of an FBI investigation and lived
as boarders in the home of an FBI source. The OIG therefore decided to
include in its review an investigation of the intelligence information available
to the FBI about Hazmi and Mihdhar before September 11 and the FBI’s
handling of that intelligence information.
      In December 2002, the JICI released its final report entitled, “Joint
Inquiry into Intelligence Community Activities before and after the Terrorist
Attacks of September 11, 2001.” One of the report’s recommendations was for
the Inspectors General at the Department of Justice (DOJ), CIA, Department of

    4
       Mihdhar, Hazmi, and three others hijacked and crashed American Airlines Flight 77
into the Pentagon.



                                            3
Defense, and Department of State to determine whether and to what extent
personnel at those agencies should be held accountable for any acts or
omissions with regard to the identification, prevention, and disruption of the
September 11 terrorist attacks.

II. OIG investigation
      The OIG’s review focused on the FBI’s handling of the Phoenix EC, the
Moussaoui investigation, and the intelligence information about Mihdhar and
Hazmi. To review these issues, the OIG assembled a team of four attorneys,
three special agents, and two auditors. The team conducted 225 interviews of
personnel from the DOJ, FBI, CIA, and other agencies. For example, we
interviewed FBI personnel from FBI Headquarters; from FBI field offices in
Minneapolis, San Diego, New York, Phoenix, and Oklahoma; and from FBI
offices overseas. We also interviewed employees from the CIA, the INS, the
National Security Agency (NSA), and the Federal Aviation Administration
(FAA). We reviewed over 14,000 pages of documents we obtained from the
FBI, the CIA, the NSA, and JICI.
      Our review of the FBI’s handling of the Hazmi and Mihdhar matter
required us to obtain a significant amount of information from the CIA
regarding its interactions with the FBI on that matter. To conduct our review,
we thus had to rely on the cooperation of the CIA in providing us access to
CIA witnesses and documents. We were able to obtain CIA documents and
interviewed CIA witnesses, but we did not have the same access to the CIA
that we had to DOJ information and employees. We also note that the CIA
OIG is conducting its own inquiry of the CIA’s actions with regard to the
Mihdhar and Hazmi matter.

III. Organization of the OIG report
      This report is organized into six chapters. Chapter One contains this
introduction. Chapter Two provides general background on the issues
discussed in this report. For example, it contains descriptions of key
terminology, the FBI’s organizational structure, the so-called “wall” that
separated intelligence and criminal investigations in the FBI and the DOJ, the
process for obtaining a FISA warrant, and other legal background issues related
to how the FBI investigated terrorism and intelligence cases before September
11, 2001. Because the background chapter contains basic terminology and


                                        4
concepts, those with more extensive knowledge of these issues may not need to
read this chapter in full.
       Chapter Three evaluates the FBI’s handling of the Phoenix EC. As an
initial matter, we provide background on how “leads” were assigned in the FBI
before September 11, 2001, and we summarize the contents of the Phoenix EC.
We then describe in detail how the Phoenix EC was handled within the FBI
before September 11. In the analysis section of Chapter Three, we examine
problems in how the Phoenix EC was handled, first focusing on the systemic
problems that affected the way the FBI treated the EC and then discussing the
performance of the individuals involved with the EC. At the end of the chapter
we discuss several other pieces of information in the possession of the FBI
before September 11 that also noted connections of potential terrorists to the
aviation industry or the use of airplanes.
       Chapter Four examines the FBI’s investigation of Moussaoui, including
allegations raised by Rowley. In this chapter, we describe in detail the facts
regarding the FBI’s investigation of Moussaoui, the interactions between the
Minneapolis FBI and FBI Headquarters on the investigation, the request to
seek a criminal warrant or a FISA warrant to search Moussaoui’s belongings,
and the plans to deport Moussaoui. We then provide our analysis of these
actions. This analysis discusses systemic problems that this case revealed, and
it also assesses the performance of the FBI employees who were involved in
the Moussaoui investigation.
      In Chapter Five, we examine the FBI’s handling of intelligence
information concerning Hazmi and Mihdhar. We found that, beginning in late
1999 and continuing through September 11, 2001, the FBI had at least five
opportunities to learn of intelligence information about Mihdhar and Hazmi
which could have led it to focus on them before the September 11 attacks. In
this chapter, we describe each of these five opportunities in detail. We
describe the intelligence information regarding Hazmi and Mihdhar that
existed at the time, whether the information was made available to the FBI, and
what additional information about Hazmi and Mihdhar the FBI could have
developed on its own. In the analysis section of this chapter, we evaluate the
problems that impeded the FBI’s handling of the information about Hazmi and
Mihdhar before September 11, and we also address the performance of the
individuals involved in the Hazmi and Mihdhar case.


                                       5
     In Chapter Six, we set forth our recommendations for systemic
improvements in the FBI and we summarize our conclusions.
       The OIG completed a 421-page classified version of this report in July
2004. At that time, the OIG provided the report, which was classified at the
TOP SECRET/SCI level, to the National Commission on Terrorist Attacks
Upon the United States (9/11 Commission). The 9/11 Commission used
certain information from our report in its final report. In July 2004, we also
provided our classified report to certain congressional committees with
oversight of the Department of Justice, including the House of Representatives
and Senate Committees on the Judiciary, the Senate Select Committee on
Intelligence, and the House Permanent Select Committee on Intelligence.
      At the request of the Senate Judiciary Committee, the OIG has created
this 370-page unclassified version of the report. To do so, we worked with the
FBI, the CIA, and the NSA to delete classified information from our full report.
However, the substance of the report has not changed, and we believe that this
unclassified version fairly summarizes the findings of the full report.




                                       6
                                     CHAPTER TWO
                                     BACKGROUND
I.       Introduction
      This chapter provides a description of key terminology, the FBI’s
organizational structure, and legal background related to an examination of
how the FBI investigated international terrorism matters before the
September 11 terrorist attacks. 5 It also provides a basic overview of the legal
issues and policies that affected how the FBI typically handled terrorism
investigations before September 11, 2001. 6

         A. Introduction to international terrorism
      The FBI defines terrorism as the unlawful use or threatened use of
violence committed against persons or property to intimidate or coerce a
government, the civilian population, or any segment thereof, in furtherance of
political or social objectives. When such violent acts are carried out by a group
or individual based and operating entirely within the United States without
foreign direction, they are considered acts of domestic terrorism, such as the
April 1995 bombing of the Alfred P. Murrah federal building in Oklahoma
City, Oklahoma. When such acts are committed by an individual or group
based or operating outside of the United States, they are considered acts of
international terrorism, such as the September 11, 2001, attacks on the World
Trade Center and the Pentagon. See the FBI’s National Foreign Intelligence
Program Manual, Section 2-1.1.
      According to the FBI, there are three main categories of international
terrorist threats to U.S. interests: formal, structured terrorist organizations; 7

     5
         A list of acronyms used in this report is attached in the Appendix.
     6
       Those who have such knowledge may not need to read this chapter and can go directly
to the chapters of the report detailing our investigation of the FBI’s handling of specific
matters, beginning with Chapter Three’s discussion of the Phoenix EC.
     7
      Formal, structured terrorist organizations are those with their own personnel,
infrastructures, financial arrangements, and training facilities. Such groups include al
Qaeda, the Palestinian Hamas, the Irish Republican Army, the Egyptian Al-Gama Al-
(continued)

                                                 7
state sponsors of international terrorism 8 ; and loosely affiliated Islamic
extremists. 9 According to Dale Watson, the former Executive Assistant
Director for Counterterrorism, the trend in international terrorism has been a
shift away from state sponsors of terrorism and formalized terrorist
organizations towards loosely affiliated religious extremists who claim Islam
as their faith.
      Among these Islamic extremists is Usama Bin Laden, who heads the al
Qaeda transnational terrorist network. Al Qaeda leaders were harbored in
Afghanistan by the Taliban regime from 1996 until the U.S. military operations
there in 2001. In addition to the September 11 attacks, al Qaeda was
responsible for the bombing of the U.S.S. Cole in Yemen on October 12, 2000,
the bombings of the U.S. Embassies in Kenya and Tanzania in August 1998,
and numerous other terrorist attacks.

        B.   The FBI’s role in protecting against international terrorism
      A critical part of the effort to prevent terrorism is the collection of timely
and accurate intelligence information about the activities, capabilities, plans
and intentions of terrorist organizations. The U.S. “Intelligence Community”
is composed of 14 U.S. agencies responsible for collecting intelligence
information on behalf of the government. 10

(continued)
Islamiyya, and the Lebanese Hizbollah. Hizbollah, for example, carried out numerous
attacks on Americans overseas, including the October 1983 vehicle bombing of the U.S.
Marine barracks in Lebanon and the June 1996 bombing of Khobar Towers in Saudi Arabia.
    8
      According to the FBI, as of 2001 the primary state sponsors of terrorism were Iran,
Iraq, Sudan, and Libya.
    9
      This is sometimes referred to as the “Islamic Jihad Movement” or the “International
Jihad Movement.”
    10
        These 14 agencies are: the CIA, FBI, Defense Intelligence Agency (DIA), National
Security Agency (NSA), U.S. Army Intelligence, U.S. Navy Intelligence, U.S. Air Force
Intelligence, U.S. Marine Corps Intelligence, National Geospatial Agency (NGA), National
Reconnaissance Office (NRO), Department of the Treasury, Department of Energy,
Department of State, and the Coast Guard. The Director of Central Intelligence (the DCI)
oversees the Intelligence Community and also serves as the principal advisor to the
President for intelligence matters and as the Director of the CIA.



                                             8
       The National Security Act of 1947 created the Central Intelligence
Agency (CIA) and established it as the United States’ lead intelligence agency.
The CIA engages primarily in the collection of foreign intelligence
information, which is information relating to the capabilities, intentions, and
activities of foreign governments or organizations, including information about
their international terrorist activities. The Act prohibits the CIA from
exercising any “police, subpoena, law enforcement powers, or internal security
functions.”
      The FBI is the nation’s lead agency for the collection of “foreign
counterintelligence information.” 11 According to the Attorney General
Guidelines in place at the time, which were called the Attorney General
Guidelines for Foreign Counterintelligence (FCI) Investigations, FCI is
information relating to espionage and other intelligence activities, sabotage, or
assassinations conducted by, for, or on behalf of foreign governments or
organizations, as well as information relating to international terrorist
activities. Intelligence investigations include investigations of individuals who
are international terrorists, groups or organizations that are engaged in
espionage; or groups or organizations that are engaged in international
terrorism.
       The FBI can initiate an intelligence investigation even if a crime has not
been committed. For example, the FBI may investigate and collect intelligence
information about an individual who is believed to be an international terrorist
or a spy without showing that the individual has participated in any terrorist act
or actually committed espionage. Intelligence investigations are
distinguishable from criminal investigations, such as bank robbery or drug
trafficking investigations, which attempt to determine who committed a crime
and to have those individuals criminally prosecuted. Prevention of future
terrorist acts rather than prosecution after the fact is the primary goal of the
intelligence investigations with respect to international terrorism matters.



    11
        The authority for the FBI’s broad mission to act as the nation’s lead domestic
intelligence agency is set forth most clearly in Presidential Executive Order 12333,
implemented on December 4, 1981.



                                              9
      International terrorism could be investigated as both an intelligence
investigation and as a criminal investigation. When a criminal act, such as the
bombing of a building, was determined to be an act of international terrorism,
the FBI could open a criminal investigation and investigate the crime, as it did
other criminal cases, with the goal of prosecuting the terrorist. 12 At the same
time, the FBI could open an intelligence investigation of an individual or a
group to investigate the person’s contacts, the group’s other members, the
intentions of the individual or the group, or whether any future terrorist act was
planned. 13
      One significant difference between an intelligence investigation and a
criminal investigation is the legal framework that applies when a physical
search or electronic surveillance is initiated. 14 In a criminal investigation that
implicates the privacy interests protected by the Fourth Amendment, the
general rule is that searches may not be conducted without a warrant issued by
a magistrate upon a finding that probable cause exists that evidence of a crime
will be uncovered. 15 When the FBI seeks to conduct electronic surveillance in
a criminal investigation, the FBI must obtain a warrant by complying with the
requirements of Title III of the Omnibus Crime Control and Safe Streets Act of
1968, 18 U.S.C. §§ 2510-2522 (Title III). When a physical search is sought in

    12
        The FBI has been assigned “lead agency responsibilities” by the Attorney General to
investigate “all crimes for which it has primary or concurrent jurisdiction and which involve
terrorist activities or acts in preparation of terrorist activities within the statutory jurisdiction
of the United States.” National Security Directive 207, issued in 1986, specifically assigned
responsibility to the FBI for response to terrorist attacks, stating: “The Lead Agency will
normally be designated as follows: The Department of Justice for terrorist incidents that
take place within U.S. territory. Unless otherwise specified by the Attorney General, the
FBI will be the Lead Agency within the Department of Justice for operational response to
such incidents.”
    13
        After the attacks of September 11, 2001, the FBI significantly changed how it
investigates international terrorism cases. We discuss those changes throughout this report.
    14
       Electronic surveillance includes wiretapping of telephones, installing microphones in
a house or building, and intercepting computer usage. Electronic surveillance is considered
a particular kind of search.
    15
          There are several exceptions to the warrant requirement that are not material to this
report.



                                                 10
a criminal investigation, the FBI also must comply with the requirements of
Rule 41 of the Federal Rules of Criminal Procedure.
       With respect to an intelligence investigation, however, criminal search
warrants issued by a magistrate are not required. The courts have long
recognized the Executive Branch’s claim of inherent constitutional power to
conduct warrantless surveillance to protect national security. 16 However,
because such authority was abused, Congress created procedures and judicial
oversight of the Executive Branch’s exercise of this authority with the passage
of the Foreign Intelligence Surveillance Act of 1978 (FISA). 17 50 U.S.C.
§1801 et seq. FISA requires the FBI to obtain an order from the Foreign
Intelligence Surveillance Court (FISA Court) upon a showing of probable
cause to believe that the subject of the surveillance is a foreign government or
organization engaging in clandestine intelligence activities or international
terrorism, or is an individual engaging in clandestine intelligence activities or
international terrorism on behalf of a foreign government or organization. 18 In
addition, prior to September 11, 2001, the government had to submit a
certification to the FISA Court that “the purpose” of the surveillance or search
was collection of “foreign intelligence information.” 19 50 U.S.C.
§ 1804(a)(7)(E).

    16
       The U.S. Constitution, Article II, Section 1, clause 7, supplies the President’s
constitutional mandate to “preserve, protect and defend the Constitution of the United
States.”
    17
      Among the most notable examples of the Executive Branch’s abuse of this authority
was action taken in relation to the Watergate scandal.
    18
       Prior to September 11, 2001, the FISA Court consisted of seven federal district court
judges designated by the Chief Justice of the Supreme Court, at least one of whom was a
member of the federal district court in Washington, D.C. After September 11, 2001, the
number of FISA Court judges was increased to 11. The government presents applications
for a court order authorizing electronic surveillance or a physical search to the judges in in
camera, ex parte proceedings. FISA also created the Foreign Intelligence Surveillance
Court of Review, which has jurisdiction to review the denial of FISA applications by the
FISA Court.
    19
       The FISA statute provides that the FBI must show that “the target of the electronic
surveillance is a foreign power or an agent of a foreign power.” 50 U.S.C. § 1804(a). These
terms and requirements are discussed in more detail in Section IV, A below.



                                              11
II. The FBI’s organizational structure with respect to international
    terrorism
     The FBI’s Counterterrorism Program is responsible for supervising and
handling FBI terrorism matters. Before September 11, 2001, the
Counterterrorism Program was housed in the Counterterrorism Division at FBI
Headquarters. 20 International terrorism and domestic terrorism were
subprograms within the Counterterrorism Program.

     A. Counterterrorism Program
      Although the FBI has had primary responsibility since 1986 for
investigating and preventing acts of terrorism committed in the United States,
the FBI developed its formal Counterterrorism Program in the 1990s. For
much of the 1990s, terrorism matters were overseen at FBI Headquarters by
about 50 employees in the counterterrorism section within the FBI’s National
Security Division (later called the Counterintelligence Division). The National
Security Division also managed the FBI’s Foreign Counterintelligence
Program. According to Dale Watson, former Executive Assistant Director for
Counterterrorism, in the early 1990s counterterrorism was considered a “low-
priority program” in the FBI.
       According to Watson’s testimony before the Senate Select Committee on
Intelligence and the House Permanent Select Committee on Intelligence on
September 26, 2002, the first attack on the World Trade Center in February
1993 and the April 1995 bombing of the Alfred P. Murrah Federal Building in
Oklahoma City, Oklahoma, were “confirmation” that terrorist acts could be
committed on U.S. soil. Watson testified that the World Trade Center bombing
in 1993 was a “wake-up call” and that prior to this attack and the Oklahoma
City bombing “terrorism was perceived as an overseas problem.”
      In addition to the FBI’s counterterrorism efforts, the CIA has for years
focused on international terrorism in general and Usama Bin Laden in
particular. In 1986, the CIA established a Counterterrorist Center (CTC) at

    20
      The FBI has reorganized its Counterterrorism Program several times since
September 11, 2001. We provide in this section of the report the description of the
organization and positions that existed immediately prior to the September 11 attacks.



                                             12
CIA Headquarters after a task force concluded that U.S. government agencies
had not aggressively operated to disrupt terrorist activities. The CTC’s stated
mission is to preempt, disrupt, and defeat terrorists by implementing a
comprehensive counterterrorist operations program to collect intelligence on
and minimize the capabilities of international terrorist groups and state
sponsors of terrorism. The CTC attempts to exploit source intelligence to
produce in-depth analyses on potential terrorist threats and coordinate the
Intelligence Community’s counterterrorist activities.
       CIA Director George Tenet testified before Congress that Usama Bin
Laden came to the attention of the CIA as “an emerging terrorist threat” during
his stay in Sudan from 1991 to 1996. As early as 1993, the CIA began to
propose action to reduce his organization’s capabilities. Tenet stated that the
Intelligence Community was taking action to stop Bin Laden by 1996, when he
left Sudan and moved to Afghanistan.
      In 1996, the CIA established a special unit, which we call the Bin Laden
Unit, to obtain more actionable intelligence on Bin Laden and his
organization. 21 This effort was the beginning of an exchange program between
the FBI and the CIA in which senior personnel moved temporarily between the
two agencies.
     Around the same time, in April 1996 the FBI created its own
Counterterrorism Center at FBI Headquarters. As part of the Counterterrorism
Center, the FBI established an exchange of working-level personnel and
managers with several government agencies, including the CIA, Immigration
and Naturalization Service (INS), the Federal Aviation Administration (FAA),
and others.
      In May 1998, a task force of FBI officials created a 5-year strategic plan
for the FBI, based on a 3-tier system, setting investigative priorities that would
affect the allocation of FBI resources. Tier 1 included crimes or intelligence
problems that threatened national or economic security. Counterterrorism was

    21
       The Bin Laden Unit was housed organizationally within the CTC during the time
period most relevant to this report. Around September 11, 2001, approximately 40-50
employees worked in the Bin Laden Unit. We discuss the Bin Laden Unit in more detail in
Chapter Five.



                                          13
designated a Tier 1 priority. Tier 2 involved criminal enterprises or those
offenses that adversely affected public integrity, and Tier 3 included crimes
that affected individuals or property.
     In November 1999, the FBI took the Counterterrorism Program out of the
National Security Division and created a separate Counterterrorism Division.

           1.    Organization of the Counterterrorism Division
      The major components of the FBI’s Counterterrorism Division prior to
September 11, 2001, were the International Terrorism Operations Section
(ITOS), the Domestic Terrorism Operations Section (DTOS), the National
Infrastructure Protection Center (NIPC), and the National Domestic
Preparedness Office (NDPO). 22
      The issues in this report focus primarily on ITOS, which was responsible
for overseeing the FBI’s international terrorism investigations, both criminal
and intelligence investigations. The mission of the ITOS was twofold: to
prevent terrorist acts before they occurred, and if they occurred to mount an
effective investigative response with the goal of prosecuting those responsible.
     Prior to September 11, 2001, approximately 90 employees worked in
ITOS at FBI Headquarters. ITOS was led by Section Chief Michael Rolince
during the time relevant to this report.
ITOS was divided into several units. One of those units handled Bin Laden-
related investigations, and was called the Usama Bin Laden Unit or the UBLU.
Cases that could not be linked to a specific group and that involved radical

    22
       The NIPC, created in February 1998, was originally called the Computer
Investigation and Infrastructure Threat Center. The NIPC’s mission was to serve as the U.S.
government’s focal point for threat assessment, warning, investigation, and response for
threats or attacks against the nation’s critical infrastructures. These infrastructures include
telecommunications, energy, banking and finance, water systems, government operations,
and emergency services. The NDPO was created in October 1998 to coordinate all federal
efforts to assist state and local law enforcement agencies with the planning, training, and
equipment needs necessary to respond to a conventional or non-conventional weapons of
mass destruction incident. The NIPC has since been moved to the Department of Homeland
Security. The responsibilities for the NDPO were moved to the Federal Emergency
Management Agency before September 11, 2001.



                                              14
extremist allegations were assigned to Radical Fundamentalist Unit or the
RFU. Before September 11, it had approximately ten employees.

           2.    Management of counterterrorism cases at FBI Headquarters
       FBI Headquarters was more closely involved in overseeing
counterterrorism investigations compared to criminal cases such as bank
robberies or white collar crime. In counterterrorism cases, FBI Headquarters
was responsible for, among other things, ensuring that intelligence information
received from outside agencies was provided to the relevant field offices and
assisting field offices in preparing the paperwork necessary to apply for a FISA
order. For this reason, we discuss the duties of the relevant personnel at FBI
Headquarters with respect to counterterrorism investigations.

                 a.    Supervisory Special Agents and Intelligence Operations
                       Specialists
      Each of the five units within ITOS was staffed by several Supervisory
Special Agents (SSA), each of whom worked closely with Intelligence
Operations Specialists (IOS). The SSAs were FBI agents who had several
years of experience in the field and had been promoted to a supervisory
headquarters position. These SSAs generally worked in ITOS for
approximately two years before becoming supervisors in a field office or
elsewhere in FBI Headquarters. ITOS SSAs typically had at least some
experience in terrorism matters prior to coming to ITOS.
      IOSs were non-agent, professional employees. 23 Some had advanced
degrees in terrorism or terrorism-related fields. Others had no formal training
in analytical work but advanced to their IOS positions from clerical positions
within the FBI. Most IOSs were long-term employees who were expected to
have institutional knowledge about terrorism matters, such as the history of a
particular terrorist organization or the principal participants in a terrorist
organization.



    23
        In October 2003, the FBI reclassified all FBI analysts under one position title –
Intelligence Analyst. IOSs now are called “Operations Specialists.”



                                              15
      The responsibilities of each SSA and IOS depended on the unit in which
they worked. Some SSAs and IOSs oversaw all FBI investigations relating to a
particular terrorist group or a particular target. Other SSAs and IOSs were
responsible for overseeing terrorism investigations conducted in a particular
region of the country.
      SSAs and IOSs were the first point of contact for agents and supervisors
in the field conducting counterterrorism investigations when approval, advice,
or information was needed. For example, if a field office’s investigation
revealed connections between the subject of the investigation and a known
leader of a terrorist organization, the IOS was supposed to provide the field
office with the FBI’s information on the leader of the terrorist organization. In
addition, SSAs and IOSs assisted field offices by assembling the necessary
documentation to obtain court orders authorizing electronic surveillance
pursuant to FISA. This is discussed further in Section IV, B below.
       SSAs and IOSs also were responsible for collecting and disseminating
intelligence and threat information. They received information from various
FBI field offices and from other intelligence agencies that needed to be
analyzed and disseminated to the field. SSAs and IOSs also acted as liaisons
with other intelligence agencies. They also received information from these
agencies in response to name check requests or traces on telephone numbers as
well as intelligence and threat information.
      With respect to threat information, SSAs and IOSs worked with FBI field
offices or Legal Attaché (Legat) offices to assess the threat and take any action
necessary to prevent terrorist acts from occurring. 24 For example, an IOS
would conduct research on the names associated with the threats, arrange for
translators to translate any intercepts from electronic surveillance, request
information from other agencies about the persons associated with the threats,
and prepare communications to the field office and Legat to ensure that


    24
        Prior to September 11, 2001, the FBI had 44 Legat offices around the world. Legat
offices assist the FBI in its mission from outside of the United States by, for example,
coordinating with other government agencies to facilitate the extradition of terrorists wanted
for killing Americans. As of June 2004, the FBI had 45 Legat offices and four Legat sub-
offices.



                                             16
updated information was provided to the necessary persons involved in the
investigation.

               b.   Intelligence Research Specialists and analysis within the
                    Counterterrorism Division
      Prior to September 11, 2001, Intelligence Research Specialists (IRSs)
also were a part of the FBI’s Counterterrorism Program, although they were
housed in a separate division of the FBI from the SSAs and IOSs. Both IRSs
and IOSs performed an important function in the intelligence arena called
“analysis.”
      Analysis is the method by which pieces of intelligence information are
evaluated, integrated, and organized to indicate pattern and meaning. As
information is received, it must be examined in-depth and connected to other
pieces of information to be most useful.
      Analysis generally is considered to be either tactical or strategic. Tactical
analysis, which also is called operational analysis, directly supports
investigations or attempts to resolve specific threats. It normally must be acted
upon quickly to make a difference with respect to an investigation or a threat.
An example of tactical analysis is the review of the telephone records of
several subjects to determine who might be connected to whom in a certain
investigation or across several investigations. Another example of tactical
analysis is a review of case files to determine whether similar, suspicious
circumstances in two unrelated police reports exist in other cases and are
somehow connected to each other or to criminal or terrorist activity.
      In contrast to tactical analysis, strategic analysis provides a broader view
of patterns of activity, either within or across terrorism programs. Strategic
analysis involves drawing conclusions from the available intelligence
information and making predictions about terrorist activity. It is not simply
descriptive but proactive in nature. A typical product of strategic analysis is a
report that includes program history, shifts in terrorist activity, and conclusions
about how the FBI should respond.
     The FBI has acknowledged that prior to September 11, 2001, its
Counterterrorism Division was primarily geared toward conducting tactical




                                        17
analysis in support of operational matters rather than strategic analysis. 25
Tactical analysis generally was handled by IOSs within the operational units.
      Prior to September 11, strategic analysis for the Counterterrorism
Division was performed by IRSs. Like IOSs, IRSs were non-agent,
professional employees who were expected to be subject matter experts about a
particular terrorism group, program, or target. All IRSs at the FBI had college
degrees, and some had advanced degrees. Like IOSs, IRSs were expected to be
long-term FBI employees who possessed the “institutional knowledge” about a
particular program or target. 26
      During the time period relevant to our review, IRSs who worked
counterterrorism matters were assigned to the Investigative Services Division
(ISD), a division separate from the Counterterrorism Division that contained all
IRSs in the FBI. IRSs were grouped in units and reported to a unit chief, who
reported to a section chief. The IRSs who were assigned to the FBI’s
Counterterrorism Program typically worked with the same SSAs and IOSs
assigned to a particular terrorist group or target. For example, an IRS who was
assigned to Bin Laden matters typically worked with IOSs and SSAs in the
UBLU in ITOS.
     As we discuss in detail in Chapter Three, the number of FBI IRSs
decreased significantly before September 11, 2001, and the relatively few IRSs
were often used to perform functions other than strategic analysis.
       Many FBI analysts and supervisors noted to the OIG that the resources
devoted to the Counterterrorism Program and analysis were inadequate, and
that the amount of work in the Counterterrorism Program was overwhelming.
They also stated that they were hampered significantly by inadequate
technology. We discuss these issues in further detail in Chapter Three of the
report on the handling of the Phoenix EC. However, these difficult conditions
in the Counterterrorism Program apply equally to the issues in the other
chapters in our report.


    25
      In Chapter Three, we discuss in more detail the FBI’s lack of strategic analysis
capabilities prior to September 11, 2001.
    26
         IRSs now are called “All Source Analysts.”



                                             18
     B.    Field offices and counterterrorism investigations
      Prior to September 11, 2001, FBI counterterrorism investigations,
whether intelligence or criminal, were opened and led by the FBI’s 56 field
offices. In many field offices, counterterrorism investigations were handled by
a squad that focused on terrorism cases only. In the New York Field Office
and other large offices, several squads were devoted solely to international
terrorism matters. In smaller field offices, international terrorism and domestic
terrorism investigations often were assigned to the same squad. FBI agents
generally developed specialties within the terrorism field such as a particular
terrorist organization. Each squad was led by an SSA who reported to an
Assistant Special Agent in Charge (ASAC) who, in turn, reported to the
Special Agent in Charge (SAC). 27
      As stated above, field offices opened international terrorism
investigations as either a criminal investigation or an intelligence investigation.
Attorney General Guidelines delineated the information or allegations that
were necessary to open a criminal investigation or an intelligence
investigation. 28
      For both criminal and intelligence cases, the Attorney General Guidelines
set forth the criteria for opening two levels of investigations – a “preliminary
inquiry” (PI) and a “full investigation” (also called a full field investigation or
FFI). The Guidelines also specified what investigative techniques could be
employed in preliminary inquiries or full investigations. Both sets of the


    27
      In larger field offices such as New York, several SACs report to an Assistant Director
in Charge (ADIC).
    28
       Separate Attorney General Guidelines regulate the FBI’s conduct in criminal
investigations, intelligence investigations, and the handling of informants, among other
issues. The Attorney General Guidelines that addressed criminal investigations were called
“The Attorney General’s Guidelines on General Crimes, Racketeering Enterprise and
Domestic Security/Terrorism Investigations” (hereinafter “criminal AG Guidelines”). The
Attorney General Guidelines in effect at the time that addressed intelligence investigations
were labeled “Attorney General Guidelines for FBI Foreign Intelligence Collection and
Foreign Counterintelligence Investigations” (hereinafter “FCI AG Guidelines”). Revised
criminal Attorney General Guidelines were issued on May 30, 2002, and new FCI
Guidelines were issued on October 31, 2003.



                                             19
Guidelines provided that preliminary inquiries were conducted to determine
whether a basis existed for a full investigation. However, preliminary inquiries
had to be closed when there was insufficient information after a certain period
of time to support opening a full field investigation.
       With respect to intelligence cases, agents could collect information by,
among other methods, questioning sources, finding new sources, checking FBI
and other agency databases, and reviewing intelligence information from other
intelligence agencies. Information was recorded in the form of Electronic
Communications (ECs) that became part of the case file. An EC is the
standard form of communication within the FBI.
      Before September 11, 2001, FBI international terrorism intelligence cases
contained the case identifier number 199. Letter or “alpha” designations were
also used, along with the case identifier, to further identify intelligence
investigations. For example, intelligence investigations related to a particular
terrorist organization were designated as 199N investigations. International
terrorism intelligence investigations often are referred to as “a 199.” A
criminal international terrorism investigation had the FBI case identifier
number 265; these investigations were commonly referred to as “a 265.” 29

     C. The Department’s Office of Intelligence Policy and Review
       As mentioned above, when the FBI conducts intelligence investigations,
a significant tool for uncovering information is the FISA statute. The FBI
obtains an order from the FISA Court authorizing electronic surveillance and
searches with the assistance of Department attorneys in the Office of
Intelligence Policy and Review (OIPR). OIPR is under the direction of the
Counsel for Intelligence Policy. 30




    29
       Currently, the FBI uses only one designation for international terrorism
investigations.
    30
     We discuss in detail the process for obtaining FISA warrants and the role of FBI and
OIPR personnel in this process in Section IV, B.



                                             20
III. The wall between intelligence and criminal terrorism investigations

    A. Introduction
      This section summarizes the creation of the “wall” separating criminal
and intelligence terrorism investigations in the Department of Justice. The wall
began as a separation of intelligence investigators from contact with criminal
prosecutors, and evolved to include a separation of FBI investigators working
on intelligence investigations from investigators working on criminal
investigations.
       As discussed above, FBI terrorism investigations could be opened either
as an intelligence investigation in which information was collected for the
protection of national security, or as a criminal investigation to prevent a
criminal act from occurring or to determine who was responsible for a
completed criminal act. In the course of an intelligence investigation,
information might be developed from searches or electronic surveillance
obtained under FISA. That intelligence information also could be relevant to a
potential or completed criminal act. However, concerns were raised that if
intelligence investigators consulted with prosecutors about the intelligence
information or provided the information to criminal investigators, this
interaction could affect the prosecution by allowing defense counsel to argue
that the government had misused the FISA statute and it also could affect the
intelligence investigation’s ability to obtain or continue FISA searches or
surveillances. As a result, procedural restrictions – a wall – were created to
separate intelligence and criminal investigations. Although information could
be “passed over the wall” – i.e., shared with criminal investigators – this
occurred only subject to defined procedures.
      The wall separating intelligence and criminal investigations affected both
the Moussaoui case and the Hazmi and Mihdhar case. As we discuss in detail
in Chapter Four, in the Moussaoui case FBI Headquarters believed that the
Minneapolis agents should not contact the local U.S. Attorney’s Office to seek
a criminal warrant to search Moussaoui’s possessions because, under the
standards prior to September 11, 2001, contact with the local prosecutor would
undermine any later attempt to obtain a FISA warrant. And as we discuss in
detail in Chapter Five, because of the wall – and beliefs about what the wall
required – an FBI analyst did not share important intelligence information
about Hazmi and Mihdhar with criminal investigators. In addition, also

                                      21
because of the wall, in August 2001 when the New York FBI learned that
Hazmi and Mihdhar were in the United States, criminal investigators were not
allowed to participate in the search for them.
       Because the wall between intelligence and criminal investigations
affected these two cases, we provide in this section a description of how the
wall was created and evolved in response to the 1978 FISA statute. We also
describe the unwritten policy separating criminal and intelligence
investigations in the 1980s and early 1990s, the 1995 Procedures that codified
the wall, the FISA Court procedures in 2000 that required written certification
that the Department had adhered to the wall between criminal and intelligence
investigations, and the changes to the wall after the September 11 attacks.

            1.    The “primary purpose” standard
       The FISA statute, enacted in 1978, authorizes the FISA Court to grant an
application for an order approving electronic surveillance or a search warrant
to obtain foreign intelligence information if there is probable cause to believe
that the target of the surveillance or search warrant is a foreign power or an
agent of a foreign power. 50 U.S.C. § 1805(a)(3). The statute requires that the
government certify when seeking the warrant that “the purpose” of the FISA
search or surveillance is to obtain “foreign intelligence information.” The
statute states that the certification must be made “by the Assistant to the
President for National Security Affairs or an executive branch official or
officials designated by the President from among those executive officers
employed in the area of national security or defense and appointed by the
President with the advice and consent of the Senate.” 50 USC § 1804(a)(7).
Within the Department, the certification is usually signed by the FBI Director.
      While Congress anticipated that evidence of criminal conduct uncovered
during FISA surveillance would be provided to criminal investigators, the
circumstances under which such information could be furnished to criminal
investigators were not provided for in the statute. 31 Defendants in criminal

    31
       The legislative history states that “surveillance to collect positive foreign intelligence
may result in the incidental acquisition of information about crimes; but this is not its
objective.” Further, it states, “Surveillance conducted under [FISA] need not stop once
conclusive evidence of a crime is obtained, but instead may be extended longer where
(continued)

                                               22
cases can challenge the government’s use of information collected under a
FISA warrant by arguing that the government’s purpose in obtaining the
information pursuant to FISA was not for collection of foreign intelligence, but
rather for use in a criminal prosecution. Such a purpose would violate the
Fourth Amendment’s prohibition against warrantless searches, and could result
in evidence obtained under FISA being suppressed in the criminal case.
Alternatively, the FISA Court could reject an application for a FISA warrant
because of concerns that the government’s purpose for seeking the FISA
warrant was for use in a criminal case rather than collecting foreign
intelligence.
       As a result, in interpreting FISA courts applied “the primary purpose”
test. This allowed the use of FISA information in a criminal case provided that
the “primary purpose” of the FISA surveillance or search was to collect foreign
intelligence information rather than to conduct a criminal investigation or
prosecution. The seminal court decision applying this standard to information
collected in intelligence cases was issued in 1980. See United States v. Truong
Dinh Hung, 629 F.2d 908 (4th Cir. 1980). In this case, the Fourth Circuit Court
of Appeals ruled the government did not have to obtain a criminal warrant
when “the object of the search or the surveillance is a foreign power, its agents
or collaborators,” and “the surveillance is conducted ‘primarily’ for foreign
intelligence purposes.” Id. at 915. However, the court ruled that the
government’s primary purpose in conducting an intelligence investigation
could be called into question when prosecutors had begun to assemble a
prosecution and had led or taken on a central role in the investigation.
      Although the Truong decision involved electronic surveillance conducted
before FISA’s enactment in 1978, courts used its reasoning and applied the
primary purpose test in challenges in criminal cases to the use of information
gathered from searches or electronic surveillance conducted pursuant to FISA.
See, e.g., United States v. Johnson, 952 F.2d 565 (1st Cir. 1991), cert. denied,
113 S.Ct. 58 (1992) (“[a]lthough evidence obtained under FISA subsequently
may be used in criminal prosecutions, the investigation of criminal activity


(continued)
protective measures other than the arrest and prosecution are more appropriate.” S. 1566,
95th Congress, 2d Session, Report 95-701, March 14, 1978.



                                            23
cannot be the primary purpose of the surveillance”); United States v. Pelton,
835 F.2d 1067 (4th Cir. 1987), cert. denied, 486 U.S. 1010 (1988).
       In the 1980s, the Department also adopted the “primary purpose”
standard contained in the Truong case. 32 It interpreted the FISA statute as
requiring prosecutors not to have control in intelligence investigations in which
information was being collected pursuant to FISA. The concern was that too
much involvement by prosecutors in the investigation created the risk that a
court would rule that the FISA information could not be used in a criminal case
because the “primary purpose” of the search was not the gathering of foreign
intelligence.
       As a result, during the 1980s and through the mid-1990s, the
Department’s policy was that prosecutors within the Department’s Criminal
Division – not attorneys in the local United States Attorneys’ Offices (USAOs)
– had to be consulted in connection with intelligence investigations in which
federal criminal activity was uncovered, or when legal advice was needed to
avoid investigative steps that might inadvertently jeopardize the option of
prosecution using information obtained from the intelligence investigation.
Criminal Division attorneys were briefed by the FBI about ongoing intelligence
investigations and were expected to provide advice geared toward preserving a
potential criminal case, but they were not allowed to exercise control over the
investigation. The Criminal Division and FBI Headquarters made the policy
decision about when to involve the USAO in the investigation, since consulting
with the USAO was viewed as a bright line signifying the transition from an
intelligence investigation to a criminal investigation. However, during this
time period, no formal written guidelines governed the contacts between the
FBI and the Criminal Division.




    32
       The Foreign Intelligence Surveillance Court of Review later noted that while the
Department adopted this policy in the 1980s, “the exact moment is shrouded in historical
mist.” See In Re Sealed Case, 310 F.3d 717, 727 (2002).



                                            24
         2.   Institutional divide between criminal and intelligence
              investigations
       The effect on FISA warrants or the legal restrictions on sharing
intelligence information was not the only issue regarding sharing intelligence
information with criminal investigators. Agents conducting intelligence
investigations are generally wary about the impact of sharing intelligence
information with prosecutors and criminal investigators. They expressed
concerns about potential harm that disclosure would have on intelligence
sources and methods, and the damage that such disclosure would have on
future collection of intelligence information. Intelligence collection is
dependent upon secrecy; investigators often rely upon clandestine sources or
surveillance techniques that are rendered useless if they are exposed. In
addition, most of the information collected is classified and cannot be made
public. In contrast, criminal investigations are usually intended to result in a
prosecution, which may require the disclosure of information about the source
of evidence relied upon by the government. Thus, intelligence investigators’
need to protect secret sources and methods may be at odds with criminal
investigators’ use of the information derived from those sources and methods.

         3.   The Ames case and concerns about the primary purpose
              standard
       In February 1994, CIA employee Aldrich Ames was arrested on various
espionage charges. The FBI pursued an investigation regarding Ames that
involved several certifications to the FISA Court that the purpose of electronic
surveillance was for intelligence purposes. At the time of the ninth
certification in the Ames case, Richard Scruggs, the new head of OIPR, was
concerned that no guidelines governed the contacts between the Criminal
Division and the FBI that were permitted in intelligence investigations.
Scruggs raised concerns with the Attorney General that the primary purpose
requirement and FISA statute had been violated by the extensive contacts
between the Criminal Division and the FBI in the Ames investigation.
       To address these concerns about coordination between the Criminal
Division and the FBI in intelligence investigations, in 1994 Scruggs proposed
amending the Attorney General’s FCI Guidelines to require that any questions
in intelligence investigations relating to criminal conduct or prosecutions had
to be raised first with OIPR, and that OIPR would decide whether and to what

                                       25
extent to involve the Criminal Division and the USAO in the intelligence
investigation. Scruggs’ proposal also prohibited the FBI from contacting the
Criminal Division or a USAO without permission from OIPR.
       In one memorandum, Scruggs described this separation of criminal and
intelligence investigations as a wall: “The simple legal response to parallel
investigations is a ‘Chinese Wall’ which divides the attorneys as well as the
investigators.” Scruggs’ use of the term “Chinese wall” is the first reference
we found to the term “wall” in connection with separating intelligence and
criminal investigations. In another memorandum discussing his proposal,
Scruggs wrote that the goal of the changes was “not to prevent discussions with
the Criminal Division” but “to regulate them so as to place the Department in
the best possible legal posture should prosecution be undertaken.” In addition,
he wrote that the goal was to develop “a simple mechanism” to maintain the
legal distinction between criminal investigations and intelligence operations.
      Scruggs’ proposal generated considerable controversy within the
Department and the FBI. The Criminal Division and the FBI wrote position
papers opposing the proposal. Although the Criminal Division and the FBI
both agreed that some formal procedures were necessary to guard against
abuses in the use of FISA and to rebut unwarranted claims of abuse, they
argued that allowing OIPR to decide when prosecutors could be consulted was
unnecessary and unduly burdensome, and would deter useful and productive
contacts between investigators and prosecutors.33 The Criminal Division also
argued that it was “imperative” for any procedures to “allow for potential
criminal prosecutions to be protected through early evaluation and guidance”
and advocated continuing the requirement that the Criminal Division had to be
advised any time the FBI uncovered evidence of federal criminal activity in the
course of an intelligence investigation.
     Also in response to Scruggs’ proposal, the Executive Office for National
Security, which was located in the Deputy Attorney General’s Office, sought
an opinion from the Office of Legal Counsel (OLC) whether a search under

    33
        The FBI agreed, however, that the rule preventing contact with a United States
Attorney’s Office without approval from the Criminal Division and OIPR should remain.
The FBI stated that “the requisite sensitivity to these concerns and experience with treading
this fine line will often be absent” in U.S. Attorney’s Offices.



                                             26
FISA could be approved “only when the collection of foreign intelligence
[was] the ‘primary purpose’ of the search or whether it suffic[ed] that the
collection of foreign intelligence [was] one of the purposes.” In a
memorandum that was circulated in draft in mid-January 1995, OLC concluded
that while courts had adhered to – and were likely to continue to adhere to – the
“primary purpose” test with regard to FISA information, the courts had shown
great deference to the government in challenges to evidence gathered through
intelligence searches that was used in criminal prosecutions. OLC opined that
some involvement of prosecutors could be permitted to be involved with the
FISA searches without running an “undue risk” of having evidence suppressed,
but that there were “few bright line rules” for discerning when a “‘primarily’
intelligence search becomes a ‘primarily’ criminal investigation search.” OLC
wrote, “[I]t must be permissible for prosecutors to be involved in the searches
at least to the extent of ensuring that the possible criminal case not be
prejudiced.” At the end of its opinion, OLC recommended that “an appropriate
internal process be set up to insure that FISA certifications are consistent with
the ‘primary purpose’ test.”

         4.   The 1995 Procedures

              a.   Creation of the 1995 Procedures
      In late December 1994, at the direction of Deputy Attorney General
Jamie Gorelick, the Executive Office for National Security convened a
working group to resolve the dispute between OIPR and the FBI and the
Criminal Division concerning contacts between the FBI and the Criminal
Division. The Criminal Division, OIPR, the FBI, OLC, and the Executive
Office for National Security participated in the group. As a result of
discussions within the working group, on February 3, 1995, the Executive
Office for National Security circulated draft procedures for contacts between
the FBI and prosecutors. The draft procedures, “Procedures for Contacts
Between the FBI and the Criminal Division Concerning Foreign Intelligence
and Foreign Counterintelligence Investigations,” were transmitted on April 12,
1995, by the Executive Office for National Security through the Deputy




                                       27
Attorney General to the Attorney General for approval and implementation.34
The Attorney General signed and issued the procedures on July 19, 1995.
These procedures became known as “the 1995 Procedures.”

                 b.    Description of the 1995 Procedures
       In general, the 1995 Procedures rejected OIPR’s original proposal of
giving it the sole authority to decide when FBI agents could consult with
Criminal Division prosecutors on an intelligence investigation. However, the
1995 Procedures gave OIPR formal oversight over contacts between the FBI
and the Criminal Division in intelligence cases, and the procedures formalized
restrictions on the extent that Criminal Division prosecutors could be involved
in intelligence investigations. The procedures applied to intelligence




    34
       At the time these draft procedures were being discussed, the FBI’s New York Field
Office was conducting at least two significant criminal terrorism investigations involving the
World Trade Center bombing in 1993. Indictments had been returned in one of the cases.
During the criminal investigation of these two cases, significant counterintelligence
information was developed relating to foreign powers operating in the United States, and the
FBI initiated a full field counterintelligence investigation. In a memorandum written to the
FBI, the Southern District of New York (SDNY) USAO, OIPR, and the Criminal Division,
and filed with the FISA Court on March 4, 1995, Deputy Attorney General Gorelick
provided instructions for sharing information from these two terrorism investigations in the
FBI’s New York Field Office with intelligence investigators, and for separating the
counterintelligence and criminal investigations. The memorandum stated that the
procedures were designed to prevent the risk of creating an unwarranted appearance that
FISA was being used to avoid the procedural safeguards that applied in criminal
investigations. The memorandum, which acknowledged that the procedures went “beyond
what [was] legally required,” included having an Assistant United States Attorney (AUSA)
not involved in the criminal cases but who was familiar with them act as “the wall” as well
as ensure that information indicative of a crime obtained in the intelligence investigation
was passed to the criminal agents, the USAO, and the Criminal Division. The memorandum
also included several procedures to facilitate coordination and information sharing,
including requiring intelligence investigators who developed information that reasonably
indicated the commission of a crime to notify law enforcement agents and assigning an FBI
agent involved in the criminal investigation to be assigned to the foreign counterintelligence
investigation.



                                             28
investigations both in which a FISA search or surveillance was being
conducted and in which no FISA order had been issued. 35
      The 1995 Procedures formalized the unwritten policy that had existed
since the 1980s requiring the Criminal Division, rather than the local USAO, to
be consulted about intelligence investigations when questions of criminal
activity or criminal prosecution arose. 36 The 1995 Procedures required that the
FBI and OIPR notify the Criminal Division when “facts or circumstances
[were] developed that reasonably indicate[d] that a significant federal crime
[had] been, [was] being, or [might have been] committed.”
     In cases in which FISA surveillance was being conducted, the 1995
Procedures provided that OIPR as well as the Criminal Division had to approve
an FBI field office’s request to take an investigation to the USAO. Guidance

    35
       Part A of the 1995 Procedures applied to investigations in which a FISA order had
been issued, and Part B applied to those investigations in which no FISA order had been
issued.
    36
       However, there was an exception for the USAO in the Southern District of New York
(SDNY). While the 1995 Procedures were being considered in draft, Deputy Attorney
General Gorelick had recommended that they be reviewed by U.S. Attorney for the SDNY
Mary Jo White. White responded that the USAOs should be on equal footing with the
Criminal Division, and she recommended changes to the 1995 Procedures to achieve this,
such as requiring in intelligence cases notification of a crime to both the Criminal Division
and to the USAO. White argued that “[a]s a legal matter, whenever it is permissible for the
Criminal Division to be in contact with the FBI, it is equally permissible for the FBI to be in
touch with the U.S. Attorneys’ Offices.” This suggestion was unanimously rejected by the
FBI, OIPR, the Criminal Division, and the Executive Office for National Security, and the
exception was not included in the 1995 Procedures. However, White continued to press this
issue. In a memorandum faxed to Gorelick on December 27, 1995, White argued that the
Department and the FBI were structured and operating in a way that did not make maximum
legitimate use of all law enforcement and intelligence avenues to prevent terrorism and
prosecute terrorist acts. She asserted that the 1995 Procedures were building “unnecessary
and counterproductive walls that inhibit rather than promote our ultimate objectives” and
that “we must face the reality that the way we are proceeding now is inherently and in
actuality very dangerous.” Eventually, on August 29, 1997, the Attorney General issued a
memorandum creating a special exemption for the SDNY USAO in cases in which no FISA
techniques were being employed. In those cases, the FBI was permitted to notify directly
the SDNY USAO of evidence of a crime, and the USAO then was required to involve the
Criminal Division and OIPR.



                                              29
issued by the FBI Director that accompanied the 1995 Procedures instructed
FBI field offices that any potential contact with prosecutors (either the
Criminal Division or requests to consult with the USAO) had to be coordinated
through FBI Headquarters.
       In cases in which no FISA warrant had been issued, the 1995 Procedures
required that the Criminal Division decide when it was appropriate to involve
the USAO in the intelligence investigation, although notice of the decision had
to be given to OIPR. For example, as discussed in Chapter Four, the FBI
Minneapolis Field Office opened the Moussaoui investigation as an
intelligence investigation, but then wanted to seek a criminal search warrant
from the USAO. Since an intelligence investigation was opened but no FISA
warrant had been issued, the Minneapolis FBI needed permission – which it
was required to obtain through FBI Headquarters – from the Criminal Division
in order to approach the USAO for a criminal search warrant.
      Under the 1995 Procedures, the Criminal Division was responsible for
notifying OIPR of, and giving OIPR an opportunity to participate in, all of the
Criminal Division’s consultations with the FBI concerning intelligence
investigations in which a FISA warrant had been obtained. In intelligence
investigations where no FISA warrant had been obtained, the Criminal
Division had to provide notice to OIPR of its contacts with the FBI. In both
types of cases, the FBI was required to maintain a log of all its contacts with
the Criminal Division.
      The 1995 Procedures provided that in intelligence investigations the
Criminal Division could give advice to the FBI “aimed at preserving the option
of a criminal prosecution,” but could not “instruct the FBI on the operation,
continuation, or expansion of FISA electronic surveillance or physical
searches.” In addition, the FBI and the Criminal Division were required to
ensure that the advice intended to preserve the prosecution did not
“inadvertently result in either the fact or the appearance of the Criminal
Division’s directing or controlling [the investigation] toward law enforcement
objectives.”

         5.   Additional restrictions on sharing intelligence information
     In addition to the wall between FBI intelligence investigators and
criminal prosecutors, a wall within the FBI between criminal investigations and


                                       30
intelligence investigations also was created. Although it is unclear exactly
when this wall within the FBI began, sometime between 1995 and 1997 the
FBI began segregating intelligence investigations from criminal investigations
and restricting the flow of information between agents who conducted
intelligence investigations and agents who conducted criminal investigations.
       As discussed above, in a position paper prepared by OIPR when the
Department was considering the 1995 Procedures, OIPR recommended that the
FBI be required to open separate and parallel criminal and intelligence
investigations, and that the FBI place “a wall” between the two investigations
by staffing the criminal investigation with FBI agents who did not have access
to the intelligence investigation. This wall was intended to ensure that
information from each investigation would be fully admissible in the other.
OIPR proposed certain procedures for sharing information developed in the
intelligence investigation that was relevant to the criminal investigation, a
process that was referred to as “passing information over the wall.”
      The process for passing information from the intelligence investigation to
the criminal investigation was that an FBI employee – usually the SSA of an
international terrorism squad, the Chief Division Counsel of a field office, or
an FBI Headquarters employee – would be permitted to review raw FISA
intercepts or materials seized pursuant to a FISA and act as a screening
mechanism to decide what to “pass” to the criminal investigators or
prosecutors.
      In March 1995, at the direction of the Department, the FBI established
special “wall” procedures for the New York Field Office’s handling of the
criminal and intelligence investigations that arose out of the 1993 World Trade
Center bombing. It is unclear when similar procedures were employed
throughout the FBI. By 1997 OIPR was including a description of the
screening or “wall” procedures in all FISA applications that were filed with the
FISA Court when a criminal investigation was opened. 37 The particular

    37
        Neither OIPR nor the FBI had any written policy requiring the inclusion of such
information in FISA applications until late 2000, after the discovery of several errors in
FISA applications related to information about criminal investigations and wall procedures
related to those criminal investigations. These errors are discussed below in Section III, B
of this chapter.



                                             31
screening mechanism proposed by OIPR and approved by the Attorney
General depended on how far the criminal investigation had developed.38 If the
case had recently been initiated, the SSA was usually the screener. In a case in
which the USAO already was involved, others could be the screener, such as
an attorney in the FBI’s Office of General Counsel, OIPR, or the Attorney
General. According to James Baker, the current OIPR Counsel, 39 in late 1999
the Department proposed the use of the FISA Court as “the wall.” The purpose
of this proposal was to ensure that the FISA Court would approve FISA
applications related to threats involving the Millennium where there was a
substantial nexus with related criminal cases.

           6.    Reports evaluating the impact of the 1995 Procedures
      Although the 1995 Procedures allowed for consultation between the FBI
and the Criminal Division about intelligence investigations, and in some
instances required contact by the FBI with the Criminal Division, the FBI
dramatically reduced its consultations with the Criminal Division after the
1995 Procedures were issued. The FBI came to understand from OIPR that
any consultation with Criminal Division attorneys could result in a FISA
surveillance being terminated or in OIPR not agreeing to pursue a FISA
warrant. As a result, the FBI sought prosecutor input only after it was prepared
to close an intelligence investigation and “go criminal.”
      Three reports – a July 1999 OIG report on the Department’s campaign
finance investigation, a May 2000 Department report on the Wen Ho Lee case,
and a July 2001 General Accounting Office (GAO) report – discussed these
issues and the impact of the 1995 Procedures and the wall.




    38
       According to OIPR Counsel Baker, Attorney General Janet Reno directed the
termination of certain FISA surveillances in 1998 based upon her determination that related
criminal investigative activities called into question the primary purpose of the surveillance
collection.
    39
     Baker joined OIPR in October 1996 and became the Deputy Counsel in 1998. In
May 2001, he was named Acting Counsel, and in January 2002 he became the Counsel.



                                              32
              a.   The OIG’s July 1999 report on the campaign finance
                   investigation
       The first report was the OIG’s July 1999 report entitled “The Handling of
FBI Intelligence Information Related to the Justice Department’s Campaign
Finance Investigation” (the Campaign Finance Report). The OIG report
reviewed allegations that the FBI had failed to disclose certain intelligence
information to Congress, FBI Director Louis Freeh, and Attorney General Janet
Reno. This intelligence information related to the FBI’s Campaign Finance
Task Force, which had been created to investigate allegations of campaign
finance violations during the 1996 presidential campaign. In connection with
this review, the OIG examined issues concerning the implementation of the
1995 Procedures and the sharing of intelligence information with prosecutors
and criminal investigators.
       The OIG report found that the 1995 Procedures were largely
misunderstood and often misapplied, resulting in undue reluctance by
intelligence agents to provide information to criminal investigators and
prosecutors. The report stated that “the tumult that accompanied [the] creation
[of the 1995 Procedures] drastically altered the relationship between [the FBI]
and prosecutors.” The report found that because of OIPR’s criticism of the FBI
during the Ames investigation, FBI agents had become “gun shy” about
conversations with Criminal Division attorneys, and the FBI’s General
Counsel’s Office had recommended that FBI agents take a “cautious approach”
by initially conferring with OIPR attorneys rather than Criminal Division
attorneys. The report also noted that as a result of the FBI’s concerns about
OIPR’s criticisms, the FBI had been “needlessly chilled” from sharing
intelligence information with the Criminal Division. The report stated that the
1995 Procedures were vaguely written and provided ineffective guidance for
the FBI. The report recommended that the Criminal Division, OIPR, and the
FBI resolve conflicting understandings about the 1995 Procedures, and the FBI
issue guidance to disabuse FBI personnel of “unwarranted concerns about
contact with prosecutors.”

              b.   The report of the Attorney General’s Review Team on
                   the Wen Ho Lee investigation
     The second report addressing these issues was prepared by the Attorney
General’s Review Team (AGRT), which the Department established to review

                                      33
the handling of the Wen Ho Lee investigation. 40 A chapter of the final AGRT
report, issued in May 2000, discussed the 1995 Procedures. The AGRT report
found that soon after the 1995 Procedures were implemented, OIPR prevented
the FBI from contacting the Criminal Division in contravention of the
requirements of the procedures. The report stated that FBI and Criminal
Division officials believed that OIPR was discouraging contact by the FBI with
the Criminal Division. Both FBI and Criminal Division officials believed that
such contact would jeopardize existing or future FISA coverage because OIPR
might not present the matter to the FISA Court or the FISA Court would deny
the request if such contact occurred. The report stated, “It is clear from
interviews that the AGRT has conducted that, in any investigation where FISA
is employed or even remotely hoped for (and FISA coverage is always hoped
for), the Criminal Division is considered radioactive by both the FBI and
OIPR.”
      The AGRT report noted that OIPR Counsel Scruggs made it clear to the
FBI that it was not permitted to contact prosecutors in FCI investigations
without the permission of OIPR. The report stated that, as a result, former FBI
Deputy Director Robert Bryant communicated to FBI agents that violating this
rule was a “career stopper.”
      In October 1999, the AGRT made interim recommendations to the
Attorney General. For example, the AGRT recommended that the FBI provide
“regularly scheduled briefings” to the Criminal Division concerning FCI
investigations that had the potential for criminal prosecution.
      In response, in January 2000 Attorney General Reno established the
“Core Group,” which consisted of the FBI’s Assistant Directors for
counterterrorism and counterintelligence, the Principal Associate Deputy
Attorney General, and the Counsel for OIPR. The FBI was supposed to
provide monthly “critical case briefings” to the Core Group, and the Core
Group was supposed to decide if the facts of the cases warranted notification to
the Criminal Division as provided for in the 1995 Procedures. In addition, the

    40
       The team was led by Randy Bellows, an AUSA from the Eastern District of Virginia
who was experienced in FCI cases. The AGRT report, which is entitled “Final Report of the
Attorney General’s Review Team on the Handling of the Los Alamos National Laboratory
Investigation,” is often called “the Bellows report.”



                                           34
Attorney General directed the FBI to provide the Criminal Division with copies
of foreign counterintelligence case memoranda summarizing espionage
investigations of U.S. citizens or lawful permanent residents.
       In October 2000, the Core Group was disbanded because it was believed
that the briefings were duplicative of sensitive case briefings that the FBI
provided to the Attorney General and the Deputy Attorney General on a
quarterly basis. Around the same time a working group that had been formed
months earlier in response to the interim recommendations of the AGRT report
developed two decision memoranda for the Attorney General’s approval, one
in October 2000 and one in December 2000. The memoranda included several
options for addressing the FBI’s lack of notification to the Criminal Division
regarding evidence in intelligence investigations of significant federal crimes
and the lack of coordination with the Criminal Division, and they delineated
the type and extent of advice the Criminal Division could provide the FBI. The
December 2000 memorandum also described a strategy for presenting new
procedures for coordination between intelligence and law enforcement to the
FISA Court, and it discussed the possibility of an appeal to the FISA Court of
Review if the FISA Court rejected the new coordination procedures. Although
the Criminal Division, OIPR, and the FBI reached an agreement on steps to
liberalize information sharing, the components could not agree on what kind of
advice by the Criminal Division to the FBI was permissible. The Attorney
General never issued or signed either memorandum.

              c.   The GAO report
        In the third report, the GAO reviewed the policies, procedures, and
processes for coordinating FBI intelligence investigations where criminal
activity was indicated. In its July 2001 report, the GAO found that the FBI had
little contact with the Criminal Division about intelligence investigations
because of the FBI and OIPR’s concern about the potential for “rejection of the
FISA application or the loss of a FISA renewal” or “suppression of evidence
gathered using FISA tools.” See “FBI Intelligence Investigations:
Coordination within Justice on Counterintelligence Criminal Matters is
Limited,” GAO-01-780, July 2001. The GAO report recommended, among
other things, that the Attorney General establish a policy and guidance
clarifying the expectations regarding the FBI’s notification of the Criminal
Division about potential criminal violations arising in intelligence


                                      35
investigations. According to the GAO report, while there were some
improvements in the coordination between the FBI and the Criminal Division
after the remedial actions in response to the AGRT report were implemented,
coordination impediments remained.

     B.    FISA Court’s concern about accuracy of FISA applications

           1.   Errors in FISA applications
       Around the time of these two reviews on problems of coordinating
criminal and intelligence information, the FISA Court imposed additional
restrictions on the passing of intelligence information to criminal investigators.
The FISA Court took this action after it learned in 2000 and 2001 of errors in
approximately 100 FISA applications that had been filed with the Court. 41
Approximately 75 of the errors were contained in FISA applications relating to
targets with connections to a particular terrorist organization, which we will
call “Terrorist Organization No. 1,” and the other errors were contained in
FISA applications relating to a different terrorist organization, which we will
call “Terrorist Organization No. 2.”
      In the summer of 2000, OIPR first learned of the errors in several FISA
applications related to Terrorist Organization No.1. OIPR verbally notified the
FISA Court of the errors and, together with FBI Headquarters employees,
conducted a review of other FISA applications involving Terrorist
Organization No. 1 that had been submitted since July 1997. In September and
October 2000, OIPR filed two pleadings with the FISA Court advising of
errors in approximately 100 FISA applications related to Terrorist Organization
No. 1.



    41
        As discussed in detail below, FISA applications were submitted by field offices to
FBI Headquarters for preparation of the documentation that would be presented to OIPR for
finalization and submission to the FISA Court. The documentation prepared by FBI
Headquarters and finalized by OIPR often was reviewed or edited by different persons,
including an SSA, IOS, Unit Chief, and a National Security Law Unit attorney. The
documentation included an affidavit signed by the SSA at FBI Headquarters containing the
facts in support of the FISA warrant. The errors arose in these SSA affidavits.



                                            36
       Many of these errors in the FISA applications involved omissions of
information or misrepresentations about criminal investigations on the FISA
targets. In applications where criminal investigations were identified,
inaccurate information was presented in FISA applications about the “wall”
procedures to separate the criminal investigation from the intelligence
investigation. For example, the description of the wall procedures in the
majority of FISA applications involving Terrorist Organization No. 1 stated
that the FBI New York Field Office had separate teams of agents handling the
criminal and intelligence investigations. While different agents were assigned
to the criminal and intelligence investigations, they were not kept separate from
each other. Instead, the criminal agents worked on the intelligence
investigation, and the intelligence agents worked on the criminal investigation.
This meant that, contrary to what had been represented to the FISA Court,
agents working on the criminal investigation had not been restricted from the
information obtained in the intelligence investigation.

           2.   FISA Court’s new requirements regarding the wall
       As a result of the FISA Court’s concerns about the mistakes in the FISA
applications, the FISA Court began requiring in October 2000 anyone who
reviewed FISA-obtained materials or other intelligence acquired based on
FISA-obtained intelligence (called “FISA-derived” intelligence 42 ) to sign a
certification acknowledging that the Court’s approval was required for
dissemination to criminal investigators. The FBI came to understand that this
meant that only intelligence agents were permitted to review without FISA
Court approval all FISA intercepts and materials seized by a FISA warrant, as
well as any CIA and NSA intelligence provided to the FBI based on
information obtained by an FBI FISA search or intercept. 43
    Because FISA-obtained information often was passed from the FBI to the
NSA and the CIA, the Department asked the FISA Court whether the FBI was

    42
      FISA-obtained information was often passed to the NSA and CIA for further use,
which could result in “FISA-derived” information.
    43
       As stated above, in late 1999, the Court had become the screening mechanism or “the
wall” for all investigations involving FISA techniques on al Qaeda in which the FBI wanted
to pass intelligence information to a criminal investigation.



                                           37
also required to obtain the newly required certifications from any NSA or CIA
employees who reviewed the FISA-obtained material. The Court exempted the
NSA and CIA from the certification, but required that the two agencies note on
any intelligence shared with the FBI if it was FISA-derived. According to the
NSA, when made aware of this requirement, it reported to the Department that,
in the interest of providing as much intelligence as quickly as possible to the
FBI, the NSA would place a caveat on all counterterrorism-related intelligence
provided to the FBI. The caveat indicated that if the FBI wanted to pass NSA
intelligence to criminal investigators, it had to involve the NSA General
Counsel’s Office to determine whether the information was in fact FISA-
derived. According to the NSA, the other alternative would have been to slow
the dissemination while the NSA checked whether the intelligence was derived
from a FISA. 44
      The caveat language used by the NSA stated: “Except for information
reflecting a direct threat to life, neither this product nor any information
contained in this product may be disseminated to U.S. criminal investigators or
prosecutors without prior approval of NSA. All subsequent product which
contains information obtained or derived from this product must bear this
caveat. Contact the Office of General Counsel of NSA for guidance
concerning this caveat.” 45

    44
       This was not the first caveat on dissemination of NSA information. In late 1999,
Attorney General Reno authorized a warrantless physical search under authority granted to
the Attorney General by Section 2.5 of Executive Order 12333, unrelated to FISA. The
Attorney General directed that the fruits of the physical search could not be disseminated to
any criminal prosecutors or investigators until copies of the information were provided to
OIPR and the approval of the Attorney General had been obtained. Questions were raised
about dissemination of NSA’s information based upon the fruits of a Section 2.5 search.
The NSA – after working with OIPR to determine what language to use – decided to put a
caveat on all of its Bin Laden related reporting to the FBI indicating that further
dissemination to law enforcement entities could not occur without approval from OIPR.
    45
        In Chapter Five, the chapter about Hazmi and Mihdhar, we discuss the separation of
criminal investigators from intelligence investigators and the requirement that NSA
information be reviewed by the NSA to determine whether it was FISA-derived or otherwise
subject to limited dissemination. We describe how these restrictions affected the FBI’s
ability to share important intelligence information. For example, in early summer 2001 an
FBI Headquarters IOS met with New York criminal agents who were working on the FBI’s
(continued)

                                             38
           3.   Additional FISA errors and DOJ OPR’s investigation
      The Deputy Attorney General’s Office referred to the DOJ Office of
Professional Responsibility (OPR) a memorandum prepared by OIPR
regarding the errors in the approximately 75 Terrorist Organization No. 1-
related FISA applications that had been raised to the FISA Court. In
November 2000, OPR opened an investigation to determine whether any FBI
employees had committed misconduct in connection with these errors.
      In March 2001, OIPR also became aware of an error in a FISA
application related to Terrorist Organization No. 2. The error concerned the
description of the wall procedures in several FBI field offices. This description
also had been used in 14 other applications related to Terrorist Organization
No. 2. After the FISA Court learned of these errors, it stated that it would no
longer accept any FISA application in which the supporting affidavit was
signed by the SSA who had presented that Terrorist Organization No. 2 FISA
application to the Court.
      To address the issue of the accuracy of the information in the FISA
affidavits, FBI ITOS managers began requiring that FISA affidavits contain
certain information, such as the signature of the field office SSA and any
AUSA involved in the case indicating that they had read the affidavit and
agreed with the facts as they were written. In April 2001, the entire FBI
Counterterrorism Division was instructed to comply with these procedures. On
May 18, 2001, the Attorney General issued additional instructions to improve
the accuracy of FISA affidavits, including requiring direct communication
between OIPR attorneys and the field office on whose behalf the FISA
application was being prepared and establishing a FISA training program at the
FBI’s training academy in Quantico, Virginia. In addition, the Attorney

(continued)
Cole investigation. During this meeting, they discussed certain information obtained from
the CIA about Mihdhar. Although the IOS had information from the NSA about Mihdhar,
the IOS did not reveal this information to the FBI criminal agents at the meeting because it
had not yet been approved for dissemination by the NSA. In addition, in August 2001, once
the FBI opened an intelligence investigation to locate Mihdhar, the same IOS and a New
York criminal agent involved in the earlier meeting discussed and disagreed about whether a
criminal agent would be permitted to participate in the intelligence investigation trying to
locate Mihdhar or to participate in any interview with Mihdhar.



                                            39
General asked OPR to expand its investigation to include a review of the errors
made in FISA applications related to Terrorist Organization No. 2.
      OPR’s report, which was issued on May 15, 2003, concluded that “none
of the errors in the [Terrorist Organization No. 1] and [Terrorist Organization
No. 2] related FISA applications were the result of professional misconduct or
poor judgment by the attorneys or agents who prepared or reviewed them.”
The report concluded that “a majority of the errors were the result of systemic
flaws in the process by which those FISA applications were prepared and
reviewed.” These systemic flaws included, among other things, a lack of a
formal training program for attorneys in OIPR or agents at the FBI to learn
about the FISA application process, a lack of policies or rules regarding the
required content of FISA applications, and a lack of resources for handling
FISA applications.

    C. Deputy Attorney General Thompson’s August 2001
       memorandum
      On August 6, 2001, Deputy Attorney General Larry Thompson issued a
memorandum to the Criminal Division, OIPR, and the FBI regarding the
Department’s policies governing intelligence sharing and establishing new
policy. It stated that the 1995 Procedures and the additional 2000 procedures
remained in effect. The memorandum stated that “the purpose of this
memorandum is to restate and clarify certain important requirements imposed
by the 1995 Procedures, and the [January 2000 measures issued in response to
the AGRT report], and to establish certain additional requirements.”
      The memorandum reiterated the requirement that the Criminal Division
had to be notified when there were facts or circumstances “that reasonably
indicate that a significant federal crime has been, is being or may be
committed.” The memorandum emphasized the notification was mandatory
and that the “reasonable indication” standard was “substantially lower than
probable cause.”
      In addition, the memorandum stated that the FBI was required to have
monthly briefings with the Criminal Division on all investigations that met the
notification standards. The memorandum added that the Criminal Division
should identify the investigations about which it needed additional information,
and the FBI was required to provide this information. The memorandum did


                                      40
not address the issue of the type of advice that was permissible by Criminal
Division attorneys to the FBI.

    D. The impact of the wall
      The actions of the Department, including OIPR, the implementation of
the 1995 Procedures, the additional requirements created by the FISA Court,
and the OPR investigation had several effects on the handling of intelligence
and criminal investigations. First, witnesses told the OIG that the concerns of
the FISA Court, the banning of the SSA from the FISA Court, the OPR
investigation, and the additional requirements for sharing information imposed
by the FISA Court contributed to a climate of fear in ITOS at FBI
Headquarters. SSAs and IOSs at FBI Headquarters were concerned about
becoming the subject of an OPR investigation and the effect that any such
investigation would have on their careers.
       They said they were concerned not only about the accuracy of the
information they provided to the Court, but also about ensuring that
intelligence information was kept separate from criminal investigations. A
former ITOS Unit Chief and long-time FBI Headquarters SSA told the OIG
that the certification requirement was referred to as “a contempt letter.” He
explained that FBI employees began fearing that they would lose their jobs if
any intelligence information was shared with criminal investigators.
      Second, the restrictions imposed by the FISA Court – the requirement
that anyone who received intelligence sign the certification and the screening
procedures applicable to both FISA-obtained and FISA-derived material –
created administrative hurdles for the FBI in handling intelligence information.
For example, the new requirements were imposed in December 2000, just two
months after the bombing of the U.S.S. Cole, and during the time the FBI was
actively pursuing its criminal investigation. Given the new requirements, the
FBI employed several IOSs on the Cole investigation just to track all of the
required certifications.
       Consistent with the conclusions of the AGRT report, employees at FBI
Headquarters and in the Minneapolis Field Office who we interviewed told us
that before September 11, 2001, there was a general perception within the FBI
that seeking prosecutor input or taking any criminal investigative step when an
intelligence investigation was open potentially harmed the FBI’s ability to


                                       41
obtain, maintain, or renew a FISA warrant. FBI Headquarters employees
described cases in which OIPR required that electronic surveillance obtained
under FISA be “shut down” and that the FBI “go criminal” because permission
had been requested to approach the USAO or because some other criminal step
had been taken. In addition, FBI attorneys told the OIG that, in their
experience, OIPR would not consider applying for a FISA warrant in a case in
which OIPR determined that there was “too much” criminal activity.
     OIPR Counsel Baker told the OIG that the primary concern of the FISA
Court was the direction and control of the intelligence investigation by
prosecutors, not sharing of intelligence information with law enforcement
agents. Baker stated that the FISA Court had approved FISA applications in
which there was extensive interaction between prosecutors and FBI agents,
provided that OIPR was present during the interactions, there was a separation
between the prosecutors and intelligence investigators, and that the FISA Court
was apprised of the FBI’s intended use of the FISA information.

     E.   Changes to the wall after September 11, 2001
      Shortly after the September 11, 2001, terrorist attacks, the Department
proposed lowering the wall between criminal and intelligence information by
changing the language in the FISA statute from “the purpose” of the
surveillance or search (for the collection of foreign intelligence information) to
only “a purpose.” 46 In October 2001, the Uniting and Strengthening America
by Providing Appropriate Tools Required To Intercept and Obstruct Terrorism
Act (the USA PATRIOT Act or the Patriot Act) was enacted, which changed
the requirement from “the purpose” (for obtaining foreign intelligence) to “a
significant purpose.” Pub. L. No. 107-56, 115 Stat. 272, Section 218. The
Patriot Act also specified that federal officers who conduct electronic
surveillance or searches to obtain foreign intelligence information may consult


    46
       The Department had been considering seeking this change to FISA prior to
September 11. In August 2001, the Office of the Deputy Attorney General asked the Office
of Legal Counsel (OLC) for advice on whether FISA could be amended by Congress to
require that the collection of foreign intelligence information be “a purpose” of a FISA
warrant rather than “the purpose.” That request was under review by OLC on September 11,
2001.



                                          42
with federal law enforcement officers to coordinate their efforts to investigate
and protect against actual or potential attacks, sabotage, or international
terrorism. Id. at Section 504.
      Although the Patriot Act amendments to FISA expressly provided for the
consultation and coordination between prosecutors and FBI intelligence
investigators, in November 2001 the FISA Court issued an order requiring that
the 1995 Procedures, as revised by Attorney General Reno’s January 2000
changes and the August 2001 Thompson memorandum, be applied in all cases
before the FISA Court.
       In March 2002, the Attorney General issued new guidelines on
intelligence sharing procedures that superseded the 1995 Procedures. The
2002 Procedures effectively removed “the wall” between intelligence and
criminal investigations. The 2002 Procedures explained that since the Patriot
Act allowed FISA to be used for a “significant purpose” rather than the
primary purpose of obtaining foreign intelligence, FISA could “be used
primarily for a law enforcement purpose, as long as a significant foreign
intelligence purpose remain[ed].” (Emphasis in original.)
      The 2002 Procedures also directed that the Criminal Division and OIPR
shall have access to – and that the FBI shall provide – all information
developed in full field foreign intelligence and counterintelligence
investigations, particularly information that is necessary to the ability of the
United States to investigate or protect against foreign attack, sabotage,
terrorism, and clandestine intelligence activities; and information that concerns
any crime which has been, is being, or is about to be committed. The 2002
Procedures provided that USAOs should receive information and engage in
consultations to the same extent as that provided for the Criminal Division.
       In addition to these information sharing requirements, the 2002
Procedures provided that intelligence and law enforcement officers may
exchange a “full range of information and advice” concerning foreign
intelligence and foreign counterintelligence investigations, “including
information and advice designed to preserve or enhance the possibility of a
criminal prosecution.” The 2002 Procedures noted that this extensive
coordination was permitted because the Patriot Act provided that such
coordination shall not preclude the government’s certification of a significant
foreign intelligence purpose for the issuance of a warrant by the FISA Court.


                                       43
       The Department immediately tested the new 2002 Procedures with the
FISA Court. In an opinion issued on May 17, 2002, the FISA Court accepted
the information-sharing provisions of the new Procedures. However, the FISA
Court rejected the Department’s position that criminal prosecutors should be
permitted to have a significant role in FISA surveillances and searches from
start to finish. See In Re All Matters Submitted to Foreign Intelligence
Surveillance Court, 218 F.Supp.2d 611 (2002). The Department appealed the
Court’s ruling to the Foreign Intelligence Surveillance Court of Review, the
appellate court for the FISA Court. This was the first appeal ever to the FISA
Court of Review.
       The Court of Review rejected the FISA Court’s findings, as well as the
1995 Procedures and the “primary purpose standard” that had been applied
before the Patriot Act revision. See In Re Sealed Case, 310 F.3d 717 (2002).
The Court of Review concluded that the restrictions of the wall imposed by the
Department and the FISA Court were never required by FISA or the
Constitution. 47 The Court ruled that FISA permitted the use of intelligence in
criminal investigations, and that coordination between criminal prosecutors and
intelligence investigators was necessary for the protection of national security.
The Court concluded that while the FBI had to certify that the purpose of the
FISA surveillance was to obtain foreign intelligence information, FISA did not
preclude or limit the use of intelligence information in a criminal prosecution.
The Court wrote, “[E]ffective counterintelligence, we have learned, requires
the wholehearted cooperation of all the government’s personnel who can be
brought to the task.” Id. at 743.

IV. The process for obtaining a FISA warrant
      In this section, we describe the legal and procedural requirements for
obtaining a FISA warrant prior to September 11, 2001, focusing on the
requirement for a warrant to conduct a physical search like the warrant that the



    47
        The Court of Review noted, “We certainly understand the 1995 Justice Department’s
effort to avoid difficulty with the FISA court, or other courts; and we have no basis to
criticize any organization of the Justice Department that an Attorney General desires.” Id. at
727 n. 14.



                                             44
FBI’s Minneapolis Field Office sought in the Moussaoui investigation, which
we discuss in detail in Chapter Four.

     A. Legal requirements for a FISA warrant
       As noted above, FISA allows the FBI to conduct electronic surveillance
and physical searches in connection with counterespionage and
counterterrorism investigations. Rather than showing that the subject of the
surveillance or the physical search is potentially connected to a crime, the FBI
must show that there is probable cause to believe that the subject of the
surveillance or search is an “agent” of a “foreign power.” With respect to a
warrant for a physical search, the FBI also must show that there is probable
cause to believe that the property to be searched is owned, used, possessed by,
or in transit to or from an “agent of a foreign power” or “a foreign power.”
50 U.S.C. § 1824(a)(3).

          1.   Agent of a foreign power
      “Foreign power” as defined in the FISA statute has several meanings,
most of which pertain to the governance of a foreign nation, such as “a foreign
government or any component thereof, whether or not recognized by the
United States” and “an entity that is directed and controlled by a foreign
government or governments.” 50 U.S.C. § 1801(a)(1) & (2). The definition
most applicable in the Moussaoui investigation is “a group engaged in
international terrorism or activities in preparation therefor.” 50 U.S.C.
§ 1801(a)(4). With respect to terrorism, before September 11, 2001, foreign
powers that were used in requests for FISA warrants to the FISA Court
included foreign governments as well as terrorist organizations not controlled
by any foreign government, such as al Qaeda and Hizbollah.
      Whether a terrorist organization qualified as a “foreign power” under the
FISA statute depended upon the intelligence developed about the group and its
activities, and whether the FISA Court was convinced that the government had
proven that the entity existed and was engaged in international terrorist
activities. In practice, once the FBI developed the necessary intelligence about
the existence of a terrorist organization, a particular subject was used as a “test
subject” for pleading to the FISA Court that the organization was a foreign
power. Although not dispositive, FISA applications might reference the fact



                                        45
that the State Department had designated an entity as a “foreign terrorist
organization” (FTO). 48
      An “agent” of a foreign power also has several definitions in the statute.
An agent can be a person who has an official connection to a foreign power,
such as an employee of a foreign government or an official member of a
terrorist organization. With respect to terrorism, an agent can be anyone who
engages in international terrorism (or in activities that are in preparation for
international terrorism) “for or on behalf of a foreign power.” 50 U.S.C.
§ 1801(b)(2)(C).
      Aside from stating that a person must be acting “for or on behalf of” a
foreign power, the FISA statute does not further define when a person is an
“agent.” The legislative history of FISA states that there must be “a nexus
between the individual and the foreign power that suggests that the person is
likely to do the bidding of the foreign power,” and that there must be a
“knowing connection” between the individual and the foreign power. H.R.
7308, 95th Congress, 2d Session, Report 95-1283, Pt. 1, p. 49, 44
(June 8, 1978). The legislative history also states that more than evidence of
“mere sympathy for, identity of interest with, or vocal support for the goals” of
a terrorist organization is required to establish agency between the group and
the potential subject. Id. at p. 42. The Attorney General’s FCI Guidelines in
effect in 2001 stated in the definition section that determining whether an
individual is acting “for or on behalf of a foreign power” is based on the extent



    48
       FTOs are foreign entities that are designated as terrorist organizations by the
Secretary of State in accordance with the Antiterrorism and Effective Death Penalty Act,
signed into law in April 1996. The criteria for this designation include: that the entity is a
foreign organization, that the organization is engaged in terrorist activity, and that the
organization’s terrorist activity must threaten the security of U.S. nationals or the national
security of the United States. FTO designations expire automatically after two years but
may be redesignated. It is unlawful for anyone to assist an FTO, representatives and
members of FTOs are not admissible into the United States, and U.S. financial institutions
that become aware of possession of funds of an FTO must report this information to the
government. The first 30 FTO designations were made in October 1997. As of March
2004, 37 FTOs were on the State Department list, including al Qaeda, Ansar al-Islam, and
the Revolutionary Armed Forces of Columbia.



                                              46
to which the foreign power is involved in controlling, leading, financially
supporting, assigning or disciplining the individual.

            2.    The application filed with the FISA Court
      To obtain an order from the FISA Court authorizing either electronic
surveillance or a physical search, the FBI – through DOJ OIPR – submits to the
FISA Court an application containing three documents. The first document,
labeled “application,” is a court pleading that contains the government’s
specific request for a FISA warrant and includes the required approval by the
Attorney General or the Deputy Attorney General. See 50 U.S.C. § 1804(a)
(electronic surveillance) and § 1823(a) (physical search). The second
document is a certification by the FBI Director or other Executive Branch
official that the information sought is foreign intelligence information and that
the information cannot reasonably be obtained by normal investigative
techniques. At the time of the Moussaoui investigation, as discussed above,
the certification also had to contain a statement that the purpose of the search
or surveillance was to obtain foreign intelligence information. 49 See 50
U.S.C. § 1804(a)(7) (electronic surveillance) and § 1823(a)(7) (physical
search).
       The third required document is an affidavit signed by an SSA from FBI
Headquarters, which satisfies the FISA statute’s requirement that the
application be made “by a Federal officer in writing upon oath or affirmation.”
50 U.S.C. § 1804(a) (electronic surveillance) and § 1823(a) (physical search).
The affidavit must contain “a statement of the facts and circumstances relied
upon by the applicant to justify his belief” that the foreign power identified in
the application is in fact a foreign power and that there are sufficient
connections between the foreign power and the individual targeted to establish
that the individual is acting as an agent of the foreign power. Id. With respect
to a physical search, the affidavit also must show that the property to be
searched contains foreign intelligence information, and the property to be


    49
       As previously discussed, the Patriot Act amended this section of the FISA statute to
require that the certification state that “a significant purpose” of the surveillance or search is
to obtain foreign intelligence information.



                                               47
searched is owned, used, possessed by, or is in transit to or from a foreign
power or an agent of a foreign power. 50 U.S.C. § 1823(a)(4). 50
      The FISA statute also provides that in order for a judge to issue an order
approving the FISA application, the judge must find that “on the basis of the
facts submitted by the applicant there is probable cause to believe that the
target of the electronic surveillance is a foreign power or an agent of a foreign
power.” 50 U.S.C. § 1805(3).

     B.    Assembling an application for submission to the FISA Court
      Prior to September 11, 2001, the FISA application process involved
several layers of review and approval at FBI Headquarters and at OIPR before
presentation to the FISA Court. The process began when the field office
submitted an EC or letterhead memorandum (LHM) to FBI Headquarters
setting forth the supporting evidence for the FISA warrant. 51 An SSA and IOS
in FBI Headquarters worked with the field office in reviewing, editing, and
finalizing the LHM. An NSLU attorney reviewed, edited, and approved the
LHM, then obtained several ITOS management approvals before sending the
request to OIPR for consideration. Using the information provided in the
LHM, an OIPR attorney drafted the FISA application and other required
documents, which were reviewed in draft by the OIPR attorney’s supervisor.
The documentation drafted by OIPR was provided to the SSA, IOS, and NSLU
attorney for their review before being finalized by the OIPR attorney and filed
with the FISA Court. This process normally took several months to complete,
although we were told a FISA warrant could be obtained in a matter of several
hours or a few days if needed.
      We describe below in more detail each step in the process, with special
attention to the role of each person involved in the process.




    50
      OIPR also submits to the FISA Court a draft order or orders for the FISA judge’s
completion and signature.
    51
       An LHM is a memorandum on FBI letterhead stationery that is used to communicate
to the Attorney General, other Department officials, or persons or agencies outside the FBI.



                                             48
           1.   Investigation and LHM prepared by field office
       An application for a FISA warrant normally originated from the
investigative work conducted by a field office. During the investigation, the
field office typically developed information about the subject of the
investigation by checking FBI indices and files, reviewing publicly available
records, and inquiring with domestic and foreign law enforcement and
intelligence agencies – such as the CIA and NSA – about the subject. In
addition, the field office could conduct other investigative activities. The field
office also could obtain the subject’s records of telephone calls, computer
transactions, and financial information through National Security Letters
(NSLs). 52 This phase of collecting information can last anywhere from several
days to several months.
      If a field office wanted to obtain a FISA warrant and thought it had
sufficient information to support a FISA warrant, the field office prepared an
LHM setting forth as specifically as possible the supporting information. The
LHM was sent to the appropriate unit at FBI Headquarters, where it was
assigned to a particular SSA for handling.

           2.   Role of SSAs and IOSs at FBI Headquarters
      At the time of the Moussaoui investigation in August 2001, once the
LHM was received in FBI Headquarters by the appropriate SSA, that SSA was
responsible for ensuring that the FISA request was adequately supported and
complete before it was presented to OIPR. To do this, the SSA – working in
conjunction with the assigned IOS – reviewed the documentation to assess
whether it contained sufficient information for a FISA or whether there were
questions that would have to be answered before the request could be


    52
       NSLs are issued in intelligence investigations to obtain telephone and electronic
communications records from telephone companies and internet service providers (pursuant
to the Electronic Communications Privacy Act, or ECPA, 18 U.S.C. § 2709), records from
financial institutions (pursuant to the Right to Financial Privacy Act, 12 U.S.C.
§ 3414(a)(5)), and information from credit bureaus (pursuant to the Fair Credit Reporting
Act, 15 U.S.C. §§ 1681u and 1681v). They do not require approval of a court before
issuance by the FBI. Prior to September 11, the process for issuing NSLs could take several
months. We discuss this issue in Chapter Four of the report.



                                            49
completed. The SSA also assessed whether the appropriate foreign power was
being pled and whether there was sufficient information connecting the subject
to the foreign power.
     The SSA and the IOS communicated with the field office directly about
any problems or for additional information. In problematic cases, the SSA
would consult with an NSLU attorney for advice and suggestions.
      The SSA and the IOS used the documentation submitted by the field
office and often edited the document. In some instances, the FISA request was
completely rewritten, and in other instances few changes were made.
      With respect to the information supporting the existence of the foreign
power, the SSA or IOS typically inserted language used in other FISA
applications involving the same foreign power. If the SSA or IOS acquired
additional information to support the application, such as information
indicating connections between the subject and the foreign power, that
information was also included in the LHM.
      At the time of the Moussaoui investigation, the SSA would normally
review the edited version of the LHM with the field office to ensure the factual
accuracy of the LHM. 53 Once the field office and the SSA agreed on the final
version of the LHM, the SSA sought review and approval by an NSLU
attorney and finally obtained the appropriate signatures within FBI
Headquarters management, such as the signatures of the Unit and Section
Chiefs. This editing process could last from several days to several months.




    53
       Such consultations with the field office about edits arose primarily because of the
problems the FBI had encountered with the FISA Court in the fall of 2000 and spring of
2001 over inaccuracies in the affidavits signed by SSAs and filed with the FISA Court. In
March 2001, the FBI adopted procedures requiring the SSA at FBI Headquarters handling a
FISA request to review OIPR’s draft affidavit with the field office to ensure the factual
accuracy of the affidavit before it was filed with the FISA Court. Because of these
requirements and other concerns about the accuracy of the affidavits, SSAs spent more time
than they had in the past discussing drafts of FISA documents with field offices.



                                            50
          3.    Role of NSLU attorneys
      At the time of the Moussaoui investigation in August 2001, two attorneys
in the National Security Law Unit (NSLU) of the FBI’s Office of the General
Counsel were assigned full-time to counterterrorism matters. 54 No attorney
was assigned responsibility for a particular FISA request from beginning to
end.
       The two NSLU attorneys assigned to counterterrorism matters had two
functions with respect to FISA requests submitted by field offices. First, they
functioned in an advisory capacity. The SSA would consult with an NSLU
attorney if a question or problem arose or if the SSA needed legal advice.
NSLU attorneys also were consulted when there was a disagreement between
the field office and FBI Headquarters about a particular issue, such as whether
there was sufficient support for a FISA warrant. SSAs often discussed with
NSLU attorneys whether the threshold of probable cause had been met for
supporting that a subject was an agent of a foreign power. The former head of
the NSLU told the OIG, however, that in “slam dunk” cases, FBI Headquarters
would deal directly with OIPR without consulting an NSLU attorney.
      The second function of NSLU attorneys with respect to FISA requests
was to review the LHM once it was finalized and to advise whether they
believed OIPR would accept the LHM as having sufficient evidence to obtain a
FISA warrant. If the NSLU attorney did not believe that the LHM contained
sufficient evidence, the NSLU attorney would advise the SSA what additional
information was needed and make suggestions about how the additional
information could be acquired. Once the LHM was finalized and approved by
the NSLU attorney, the signatures of the Unit Chief and the Section Chief were
obtained, and the LHM was sent to OIPR.
       The NSLU attorney and the SSA also could make recommendations to
the field office about how to acquire any additional information that was
needed. If the field office provided additional information to support the FISA
request, the LHM was revised and the FISA request was reviewed again. This
process would continue until the NSLU attorney was satisfied that the

    54
       Other NSLU attorneys primarily worked counterintelligence matters, although some
of them assisted with counterterrorism matters when necessary.



                                          51
standards for obtaining the FISA warrant were met. This step in the process
also could last from several days to several months.

         4.   Role of OIPR attorneys
      Once the SSA obtained the necessary FBI Headquarters approvals, the
LHM and its supporting documents were provided to OIPR for preparation of
the required pleadings. An OIPR attorney would review the LHM and
determine whether there was sufficient evidence to obtain a FISA warrant. The
OIPR attorney would consult with the FBI Headquarters SSA about any
questions and would sometimes prepare a list of questions for the SSA to
answer in writing. The SSA often consulted with the field office to obtain the
information requested by the OIPR attorney and sometimes asked the field
office to conduct additional investigation. This process also could take
anywhere from several days to several months.
      Once the OIPR attorney was satisfied that there was sufficient evidence
to support the FISA application, an OIPR attorney prepared the draft pleadings.
A supervisory attorney in OIPR would review the draft pleadings and make
recommendations and revisions. The final draft was provided to the SSA and
the NSLU attorney for review. After finalizing the pleadings and obtaining the
signatures of the FBI Headquarters SSA who signed the affidavit, the Attorney
General, and the FBI Director, the OIPR attorney filed the pleadings with the
FISA Court, along with a draft order for the judge’s signature. The FISA Court
would then schedule a hearing, which was attended by the OIPR attorney and
the SSA.
      If the FISA Court approved the warrant, it issued an order authorizing the
surveillance or search. Orders authorizing surveillance were for a specific
period, beginning and ending on a certain day and time. The order was
transmitted to the field office responsible for conducting the surveillance or
search.

         5.   Expedited FISA warrants
     In the Moussaoui investigation, the Minneapolis Field Office requested
an “emergency FISA,” which was a FISA that could be obtained in an




                                      52
expedited manner. 55 The SSAs and NSLU attorneys we interviewed told us
that what rose to the level of “expedited” depended on what the field office and
ITOS management deemed to be an immediate priority. According to these
witnesses, in the summer of 2001 expedited FISA requests normally involved
reports of a suspected imminent attack or other imminent danger.
      Although the normal processing time for a FISA application was several
weeks or months, FBI Headquarters working with an NSLU attorney and OIPR
could prepare an expedited FISA application for presentation to the FISA
Court in a matter of several hours or days, depending on the circumstances
giving rise to the expedited request.




    55
       Although expedited FISA requests were commonly referred to as “emergency
FISAs,” the statute provided for an “emergency FISA” that was different from an expedited
FISA. The statute stated that an emergency FISA allowed the Attorney General - without
prior approval of the FISA Court - to authorize the execution of a search warrant or
electronic surveillance if the Attorney General determined that “an emergency situation
exists” and there was a “the factual basis for issuance of an order” in accordance with the
statute. See 50 U.S.C. § 1805(e) (electronic surveillance) & § 1824(e) (physical search
warrant). The government was required to present an application to the FISA Court with
respect to any such warrantless search or electronic surveillance within 24 hours of the
execution of the search or surveillance. 50 U.S.C. § 1805(e) (electronic surveillance) &
§ 1824(e) (physical search warrant). This type of emergency FISA rarely was used before
September 11, 2001.



                                            53
54
                    CHAPTER THREE
     THE FBI’S HANDLING OF THE PHOENIX ELECTRONIC
       COMMUNICATION AND OTHER INFORMATION
      RELATING TO USE OF AIRPLANES IN TERRORISTS
                        ATTACKS
I.     Introduction
       In this chapter of the report, we examine allegations that the FBI failed to
act prior to September 11, 2001, on intelligence information that warned of
potential terrorists training in aviation-related fields of study in the United
States. The focus of these allegations concerned an Electronic Communication
(EC) dated July 10, 2001, that was written by Kenneth Williams, a special
agent in the FBI’s Phoenix Division. In his EC, Williams wrote that he
believed that there was a coordinated effort by Usama Bin Laden to send
students to the United States to attend civil aviation universities and colleges.
He suggested that the purpose of these students would be to one day work in
the civil aviation industry around the world to conduct terrorist activity against
civil aviation targets. Williams wrote that he was providing the information in
the EC for analysis and comments. Williams addressed the EC to several
people in FBI Headquarters and in the FBI’s New York Division. 56
      After September 11, 2001, the FBI has acknowledged several problems
in how the Phoenix EC was handled. The FBI stated that the information
raised in the EC should have been analyzed by the FBI, but that such analysis
did not occur before September 11. In addition, the FBI acknowledged that the
Phoenix EC should have been disseminated to other intelligence agencies and
to the FBI’s field offices for their consideration, but it was not disseminated
before September 11. 57


      56
           A redacted copy of this document is attached in the Appendix.
      57
       Director Mueller’s written statement for his October 17, 2002, testimony before the
Joint Intelligence Committee Inquiry (JICI) stated: “We have heard, and we acknowledge,
the valid criticisms, many of which have been reiterated by this Committee. For example,
the Phoenix memo should have been disseminated to all field offices and to our sister
agencies.” Former ITOS Section Chief Michael Rolince testified before Congress that the
(continued)

                                                55
       In this chapter we analyze the FBI’s handling of the Phoenix EC. We
first provide background on how leads were communicated and assigned in the
FBI before September 11, 2001. We then summarize the contents of the EC.
Next, we describe in detail how the Phoenix EC was handled within the FBI
before September 11. In the analysis section, we examine problems in how the
Phoenix EC was handled, first focusing on the systemic problems that affected
the way the FBI treated the EC and then on the performance of the individuals
involved with the EC. Finally, at the end of the chapter we discuss several
other pieces of information in the possession of the FBI before September 11
that also noted connections of potential terrorists to flight schools or the use of
airplanes.

II. The Phoenix EC

     A. Background
     In this section, we first provide the key terminology and a description of
FBI processes that are relevant to the handling of the Phoenix EC.

          1.    Assigning leads in the FBI
       When an FBI field office needs assistance or information from another
office or from FBI Headquarters, it “sets a lead” for the assistance. Leads are
initially written out in ECs, hard copies of which are mailed to the appropriate
offices. In addition, when the EC is “uploaded” to the FBI’s Automated Case
Support (ACS) system, leads associated with the EC are “set” electronically in
ACS system. We describe both processes below.

                a.   The manual process
       The specific action requested in an EC is stated in the lead section, which
is at the end of the document. In the “To:” section of the EC, the author
specifies the offices to which the EC is addressed. In the “Attention:” section,



(continued)
Phoenix EC should have been provided to the personnel assigned to FBI Headquarters from
other agencies, such as the INS, the CIA, the FAA, and others, for their assessment.



                                          56
the author specifies the persons who the author believes should receive a copy
of the EC.
      ECs have a line marked “Precedence.” There are three options on the
precedence line: “Immediate,” “Priority,” and “Routine.” The FBI’s
investigative manual states that “immediate” precedence should be used “when
the addressee(s) must take prompt action or have an urgent need for the
information.” The manual states that “priority” precedence should be used
when information is needed within 24 hours, and “routine” precedence should
be used when information is needed within the normal course of business. The
time frame for responding to “routine” requests is not specified.
      The office preparing an EC that sets a lead normally sends a hard copy of
the EC to the offices with leads mentioned in the EC. The paper EC is
normally sent through “Bureau mail,” which is the FBI’s interoffice mail
delivery system.
       The distribution of the hard copy EC in the receiving office varies from
office to office. In most offices, the EC is routed to an administrative
employee assigned to the substantive program that is the subject of the EC,
such as the squad secretary for the counterterrorism squad if counterterrorism
is discussed in the EC. The administrative employee decides who should
receive the hard copy EC, whether copies will be made, and for whom. All
individuals listed on the attention line of a hardcopy EC do not necessarily
receive a copy of the EC through the manual distribution process.

              b.   The electronic process
      Leads contained in ECs also are set electronically in ACS when the EC is
completed and is “uploaded” to ACS. The office requesting the lead can enter
in ACS a deadline for handling the lead. If no deadline is set, the default
deadline in ACS for action is 60 days.
      ACS contains an “electronic routing table” for each office that receives
leads electronically through ACS. FBI offices set up the electronic routing
table to assign leads to a particular person’s “lead bucket” based on the case
number provided in the “Case ID #” field of the EC. For example, a field
office may program its electronic routing table to direct all leads associated
with cases having international terrorism identifiers to the secretary for the
international terrorism squad. The secretary would then be responsible for


                                       57
checking the “lead bucket” and determining to whom to assign the lead
electronically.
      FBI employees are responsible for checking ACS periodically and
accessing their lead bucket to see if any leads have been assigned to them.
ACS does not notify users when leads are assigned to them. Only persons who
are assigned a lead will see a notification of an EC associated with the lead
when they check their lead buckets. All other persons listed on the attention
line of the EC must search ACS for their names by conducting text searches
and other kinds of searches to determine if there are any ECs containing their
names.
      In ACS, leads may be “reassigned” or may be “closed.” When leads are
closed, the person closing the lead fills in the field labeled “disposition” to
indicate what action was taken with respect to the lead. However, ACS does
not require this field to be completed in order to close the lead.

               c.   Persons responsible for assigning leads
      At FBI Headquarters, the Radical Fundamentalist Unit (RFU) and the
Usama Bin Laden Unit (UBLU) were the two units in the International
Terrorism Operations Section (ITOS) involved in the handling of the Phoenix
EC. Within the RFU and UBLU, Intelligence Assistants, called IAs, were
responsible for many duties, including distributing hard copy ECs to the
appropriate persons in the units, assigning leads in ACS, conducting name
checks in ACS, and preparing ECs. In addition, before September 11, 2001, an
IA assigned to an administrative unit in ITOS was responsible as a collateral
duty for assigning leads that had been routed to ITOS’ general lead bucket in
ACS. During the time period relevant to our investigation, this IA could assign
leads from ACS directly to analysts in the section, called Intelligence
Operations Specialists (IOSs). The IA also could route ECs directly to IOSs
without any supervisor’s input or knowledge.
      IAs within the RFU and the UBLU normally determined to whom to
assign a lead based on the case identifier, which is one of the required fields on
an EC. For example, 199M matters, called “IT-Other,” were investigations
related to terrorist groups that were not associated with one of the FBI’s 17
other specific case identifiers. 199M or IT-Other matters normally were



                                        58
assigned to the RFU. The case identifier associated with the Phoenix EC was
199M, which fell under the RFU.
      Within a particular unit, the specific case number would also be used to
determine whether an IOS or Supervisory Special Agent (SSA) was working
on the designated case and therefore would be responsible for the lead.

                d.    “Read and clear”
      A common type of lead is a “read and clear” lead. According to FBI
procedures, “read and clear” leads are for informational purposes and do not
require any action, other than “clearing” the lead in ACS by closing the lead.
Witnesses told the OIG that setting a “read and clear” lead is similar to sending
a “cc:” copy of a document to someone to read for their information.

                e.    Persons responsible for conducting analysis in the FBI
       As discussed in Chapter Two, analysis of counterterrorism information
normally was conducted in two places in the FBI. Operational or case-related
analysis was performed primarily by IOSs who worked in ITOS, located in the
Counterterrorism Division. Broader, strategic analysis was performed by
Intelligence Research Specialists (IRSs) who at the time worked in the FBI’s
Investigative Services Division (ISD), a separate division from the
Counterterrorism Division. 58
      As discussed in more detail below, the Phoenix EC was addressed to
several SSAs and IOSs in ITOS. It was not addressed to any IRSs or anyone in
the Investigative Services Division.




    58
        ISD was created in November 1999 and housed the FBI’s analytical resources, such
as the IRSs who handled counterintelligence matters, organized crime and white-collar
crime matters, and domestic and international terrorism matters. In addition, ISD included
an Intelligence and Operations Support Section that was responsible for administering the
field’s analytical program and training and automation requirements. ISD was eliminated in
the beginning of 2002.



                                           59
     B.   The Phoenix EC
       Kenneth Williams, the special agent who wrote the Phoenix EC, joined
the FBI in 1990, and was assigned to the Phoenix Division. He worked his
first year and a half on white-collar matters. Since then, he was assigned to
work on international terrorism matters. Williams told the OIG that while
working on international terrorism matters, he spent almost all of his time on a
terrorist organization that was not connected to Al Qaeda or Bin Laden. At
FBI Headquarters, responsibility for this terrorist organization fell under the
jurisdiction of a unit in ITOS other than the Usama Bin Laden Unit (UBLU).
Williams said that he had not had any contact with the UBL unit. At the time
of the EC, Williams reported to an SSA who we call “Bob,” who was
responsible for the Phoenix counterterrorism squad.
     The Phoenix EC was dated July 10, 2001, and was addressed to the
Counterterrorism Division at FBI Headquarters and to the New York Division.
The precedence line on the EC was marked “routine.”
       Williams wrote in the opening paragraph of the EC that its purpose was
to advise FBI Headquarters and the New York Division of his belief that there
was the possibility of a coordinated effort by Bin Laden to send students to the
United States to attend civil aviation universities and colleges. The EC stated
that there was an inordinate number of individuals of investigative interest who
were attending or had attended civil aviation universities and colleges in
Arizona. Williams also wrote that there was reason to believe that a
coordinated effort was under way to establish a cadre of individuals who one
day would be working in civil aviation around the world, and these individuals
would be in a position in the future to conduct terror activity against civil
aviation targets.

          1.    Information on individuals
      As the basis for his concerns, Williams summarized in the EC the results
of four Phoenix intelligence investigations of four subjects who we will call
“Subject No. 1,” “Subject No. 2,” “Subject No. 3,” and “Subject No. 4.” 59 The


    59
       Williams was responsible for the Subject No. 1 investigation, which was summarized
in the EC. The other three investigations were international terrorism intelligence cases
(continued)

                                           60
other persons of investigative interest were described as seven “associates” of
Subject No. 1. The Phoenix Division had opened a “preliminary inquiry” for
an intelligence investigation about each of these persons but had not yet
developed sufficient information to open a full investigation.
      Williams identified the connections of these individuals to aviation as
follows: (1) Subject No. 1 was an aeronautical engineering student at Embry-
Riddle Aeronautical University (ERAU) in Prescott, Arizona; 60 (2) Subject No.
2 took classes at Cochise College, located in Douglas, Arizona, in the late
1990s to obtain an FAA certificate in airframe and power plant operations; 61
and (3) Subject No. 3 and Subject No. 4 were known to associate with a person
we will call Subject No. 5, whose telephone number was associated with a
known supporter of an African Muslim terrorist organization and who
reportedly left the United States in the late 1990s after graduating from
Westwind Aviation in Phoenix, Arizona. 62


(continued)
handled by other agents on Williams’ squad and another squad in the Phoenix Division.
Subject No. 2 also had been the subject of a separate investigation in an FBI field office in
the western part of the United States before he moved to Arizona in the late 1990s. This
field office’s investigation of Subject No. 2 was closed at the time the Phoenix EC was
written.
    60
      Williams stated in the EC that Subject No. 1 was enrolled in aeronautical engineering.
ERAU offers a degree in aerospace engineering with a concentration in aeronautical
engineering. Aeronautical engineering is the study of aircraft design.
    61
       A certificate in airframe and power plant operations allows an individual to become
an aviation maintenance mechanic. The courses for this certificate deal largely with
maintaining aircraft in airworthy condition.
    62
       The Phoenix EC does not state what courses Subject No. 5 took at Westwind
Aviation. The Phoenix EC also does not state whether the FBI had an investigation open on
Subject No. 5 at the time; however, according to Williams, the FBI did not have any
investigation open on Subject No. 5 at the time because he was not in the United States.
Subject No. 5’s name had surfaced in another FBI investigation involving the same African
Muslim terrorist organization that Subject No. 5 was believed to be connected to. After
September 11, Subject No. 5 was arrested on terrorism charges related to the September 11
attacks, but he was released when a court found that the prosecutors lacked any evidence
connecting Subject No. 5 to the events of September 11.



                                              61
       With respect to the seven associates of Subject No. 1, Williams wrote
that three were enrolled in pilot training at ERAU, and three were enrolled in
an aeronautical engineering program at ERAU. For the seventh, Williams had
no record of classes taken. 63
      Williams also reported in the EC the connections of Subject No. 1,
Subject No. 2, Subject No. 3, and Subject No. 4 to Bin Laden and to each
other, which we describe below.
      Subject No. 1: The Subject No. 1 investigation was designated by
Williams as a 199M or “IT-Other” matter. 64 Williams told the OIG that he had
opened the Subject No. 1 case under this designation after obtaining material in
Subject No. 1’s garbage relating to Ibn Khattab, who Williams believed had a
connection to Bin Laden. As discussed in more detail in Chapter Four, Ibn
Khattab was a Jordanian-born, Islamic extremist who was the leader of a large
group of Chechen rebels that had many successes in clashes with Russian
forces. 65
      In summarizing his investigation of Subject No. 1, Williams wrote in the
EC that Subject No. 1 came to the United States in the late 1990s, and that in
April 2000 one of Williams’ sources reported that Subject No. 1 was a
supporter of Bin Laden. In addition, the EC stated that the source told
Williams that Subject No. 1 was involved in the Al-Muhjiroun, 66 a Muslim
fundamentalist organization that Williams described as “dedicated to the
overthrow of Western society” and as “an ardent supporter of [Bin Laden].” As
further support for a connection between these persons and civil aviation,

    63
        We asked Williams to confirm the courses these individuals took. After reviewing
their files, Williams told the OIG that only two of the individuals were enrolled in pilot
training and the other four were enrolled in aeronautical engineering.
    64
      An EC requires a case number field to be completed. Williams used the Subject No. 1
case number in the case number field of the Phoenix EC.
    65
      Chechnya is a republic of the former Soviet Union. Since the collapse of the Soviet
Union in 1991, Chechen separatists – both Islamic and non-Islamic – have sought
independence from Russia.
    66
     We observed several spellings for this organization in FBI documents, including Al-
Muhajiroun and Al-Mouhajiroun.



                                             62
Williams noted that the spiritual leader of the Al-Muhjiroun had issued a
religious degree (or “fatwa”) in February 1998 in which he declared a “jihad”
or “holy war” against the United States and British government, armies,
interests, and airports.” (Emphasis in original.)
      Williams wrote in the EC that he had interviewed Subject No. 1 in the
spring of 2000 and that during these interviews, which were conducted in
Subject No. 1’s apartment, Williams observed photographs on the walls of Bin
Laden, Ibn Khattab, and wounded Muslim separatists from Chechnya.
Williams wrote that Subject No. 1 admitted during these interviews to being
involved in the Al-Muhjiroun, and that he considered the U.S. government and
military forces to be “legitimate military targets of Islam.” Williams noted in
the EC that his investigation of Subject No. 1 was continuing.
      Subject No. 2: Williams reported in the EC that Subject No. 2 was
known to have contact with Bin Laden lieutenant Abu Zubaida. Williams
wrote that Subject No. 2 had moved to Arizona in 1998, but had left the United
States in October 1999. 67
      Williams also wrote that two persons arrested in June 2001 in Bahrain
had admitted to being members of al Qaeda and had been planning an
operation to bomb the U.S. embassy and military forces in Saudi Arabia. At
the time of their arrest, they had in their possession a passport of a man who
was believed to be a relative of Subject No. 2. Williams wrote that the man
who was believed to be a relative of Subject No. 2 previously had entered the
United States in 1998 with this passport and was associated with an address
known to be that of Subject No. 2. Williams wrote that he had not been able to
establish a connection between Subject No. 1 and Subject No. 2. 68
      Subject No. 3 and Subject No. 4: Williams reported in the EC that
investigations of Subject No. 3 and Subject No. 4 had been opened based on

    67
       The FBI field office that had been investigating Subject No. 2 had closed its
investigation of Subject No. 2 at the time the Phoenix EC was written.
    68
      Williams wrote in the EC that Subject No. 1 arrived in the United States in August
1999 and that Subject No. 2 left the United States in October 1999. Williams also wrote that
“Subject No. 2 had departed the U.S. prior to Subject No. 1’s arrival.” Williams told the
OIG that this last statement was in error.



                                             63
information from foreign governments demonstrating that they were both
involved with African Islamic extremist/terror activity and had associated with
individuals who had associated with Ahmed Ressam. Ressam was arrested on
December 14, 1999, attempting to cross the border from Canada into the
United States with chemicals and detonator materials in his car. 69
      Williams wrote that Subject No, 3 and Subject No. 4 were friends with
Subject No. 5, whose telephone number had been associated with a known
supporter of an African Islamic terrorist organization. Williams noted that
Subject No. 3, Subject No. 4, and Subject No. 5 had not been linked to Subject
No. 1 or Subject No. 2. The EC did not state whether the FBI had an
investigation open on Subject No. 5 or provide any further details on him. The
EC reported that Subject No. 5 had left the country in November 1997 after
graduating from Westwind Aviation. The EC did not describe the connections
between the African Islamic terrorist organization and Bin Laden or al Qaeda.

            2.    Recommendations in the Phoenix EC
        The Phoenix EC made four recommendations:
    • “[T]he FBI should accumulate a listing of civil aviation
          universities/colleges around the country”;
    • “FBI field offices with these types of schools in their area should
          establish appropriate liaison” with the schools;
    • “[FBI Headquarters] should discuss this matter with other elements of
          the U.S. intelligence community and task the community for any
          information that supports Phoenix’s suspicions”; and
    • “[FBI Headquarters] should consider seeking the necessary authority to
          obtain visa information from the [Department of State] on individuals
          obtaining visas to attend these types of schools and notify the
          appropriate FBI field office when these individuals are scheduled to
          arrive in their area of responsibility.”




   69
        The Phoenix EC did not state Ressam’s affiliation with Bin Laden or al Qaeda.



                                             64
    In the lead section of the EC, Williams wrote that he was requesting that
FBI Headquarters consider implementing the suggested actions. The New
York Division lead was designated as a “read and clear” lead. At the end of
the EC, Williams wrote that the information was “being provided to receiving
offices for information, analysis and comments.”

           3.   Addressees on the Phoenix EC
      The attention line of the EC contained the names the unit chief of the
RFU, who we call “Don”; an IOS in the RFU who we call “Ellen”; the acting
unit chief of the UBLU, who we call “Rob”; and UBLU IOSs who we call
“Jane,” “Matthew,” and “Frank.” 70 The RFU and the UBLU were the two
units with program responsibility for the two primary organizations discussed
in the EC: Al-Muhjiroun and Bin Laden/al Qaeda.
      The attention line also contained the names of two Special Agents who
worked on two different international terrorism squads in the New York
Division: an agent who worked on the New York FBI’s Bin Laden squad who
we call “Jay”, and an agent who we call “Mark” and who worked on a New
York squad that handled investigations that fell under the RFU.
      Williams told the OIG that his prior experience did not involve Bin
Laden or Al Qaeda and instead centered on another terrorist organization
which was managed by a unit other than the Bin Laden Unit at FBI
Headquarters. He said that he was therefore not familiar with the personnel in
the other units within ITOS, except for one long-time RFU IOS, who we call
Frank. Williams said that he called Frank to obtain the names of the persons
working in the RFU and the UBLU, and that he put in the attention line of the
EC the names he had obtained by calling Frank.
     Frank told the OIG that he recalled talking to Williams about the EC and
recommending several potential points of contact. Frank said that based on his
understanding of what Williams was writing about, several people needed to


    70
        Williams mistakenly identified the IOSs as IRSs in the Phoenix EC. In addition, at
that time Matthew and Frank worked in the RFU, not the UBLU. At the request of the FBI,
we have omitted the true names of most of the agents and the analysts who are discussed in
this report.



                                            65
see the EC because more than one program was involved. He said that because
the New York Field Office was the primary field office that handled the FBI’s
Bin Laden-related investigations, he likely recommended that Williams also
address the EC to a point of contact in New York.
      When asked why he did not recommend including any IRSs on the
attention line, Frank told the OIG that the Investigative Services Division was
“on its last legs” at the time and that there were very few IRSs in the ISD still
working on analysis. He explained that any work of the IRSs would have to be
coordinated through an IOS, so it made sense to route the EC through an IOS
in the first instance.
      Williams also told the OIG that at the time he was familiar by name with
Ellen because, prior to writing the Phoenix EC, he had accessed in ACS an EC
she had written on the Al-Muhjiroun in 1999. Ellen told the OIG that Williams
called her on July 9, 2001, to tell her that he had used her paper in writing his
EC and that he had included her name on the attention line. She said that he
also asked her if she recommended anyone to include on the attention line and
that she gave him the name of Mark, one of the New York Division agents who
had been the case agent for the FBI’s investigation of the Al-Muhjiroun.

     C. Williams’ theory
       Williams told the OIG that in the EC he was putting forth “an
investigative theory” or “hunch” about Bin Laden sending students to attend
civil aviation schools ultimately to conduct terror activity against civil aviation
targets, and he was seeking an analytical product or feedback in response to his
theory. He said that he was basing the theory on his almost ten years of
experience in international terrorism cases and his knowledge that al Qaeda
had a presence in Arizona. He said that he had learned in squad meetings
about Subject No. 2, and he thought it was “unusual” that Subject No. 2 would
come across the world to study aircraft maintenance in the United States.
Williams said that at the time, he also was working the investigation of Subject
No. 1 and he began thinking that he should look to see how many other
investigations were being handled in Arizona that involved individuals with
Islamic militant viewpoints who also were enrolled in civil aviation colleges or
universities. He said that after he did and learned about several others of
interest to the FBI, he decided to put his thoughts and recommendations on
paper.

                                        66
       Williams explained that he was not focused on flight schools, but instead
focused on colleges and universities where individuals could earn degrees in
aviation-related subjects and then obtain jobs in the civil aviation industry in
this country. He also said that he was not contemplating in the EC that there
was a plot to use airplanes as missiles. Rather, he believed that there could be
an effort under way to develop expertise about where to put an explosive
device on an airplane or how to mechanically alter an airplane in order to cause
it to crash. Williams told the OIG that he did not have information of a
specific threat or pending attack, which is why he marked the EC’s precedence
as “routine.”
      Williams told the OIG that he did not know at the time whether Subject
Nos. 3 and 4 discussed in the EC or the African Islamic terrorist organizations
were connected to Bin Laden or al Qaeda. Williams said that he was trying to
“paint a picture of people associated with radical Islam” who were also
associated with aviation. Williams said he wanted FBI Headquarters to look at
his EC and answer the question: “Is there something to this, that all of these
people were involved in aviation?” He stated that he did not expect an
immediate response and believed that it would take at least a couple of months
for FBI Headquarters to review the EC, because he knew that resources for this
kind of analytical project at FBI Headquarters were limited. In addition, he
said that he wanted FBI Headquarters to share his theory with other elements
of the Intelligence Community to see if anybody else had any information to
corroborate his theory. 71


    71
       In the summer of 2003, the OIG received new allegations from a former FBI
confidential informant whose control agent had been Williams. The former informant
alleged that he had informed Williams in October 1996 that he was concerned that a terrorist
could use crop duster airplanes as weapons and that one of the subjects of the Phoenix EC
and other Middle Easterners were attending flight schools in Arizona. The former informant
also said that he believed Williams had written the Phoenix EC because in May 2001 the
informant had raised complaints with the Phoenix FBI about how it handled him as an
informant and why he was closed as an informant in 1999. The former informant also
alleged that a reporter had called Williams in June or July 2001 about the former informant’s
information concerning Middle Eastern matters.
    We reviewed the former informant’s allegations and did not find evidence to support
them. There is no mention in a May 2001 memorandum that describes the FBI interview of
(continued)

                                             67
      Williams stated that he also knew that there were some “inherent legal
issues” with the recommendations in the EC because he believed that concerns
about racial profiling would have to be addressed. Moreover, he said that he
was not aware at the time whether the FBI had the authority to review the visa
information of thousands of people applying to civil aviation universities and
colleges in the United States, as he had recommended in the EC.
      After the Phoenix EC was completed and sent, Williams did not contact
anyone at FBI Headquarters or in New York to discuss its contents or check the
status of the leads in ACS.

     D. FBI Headquarters’ handling of the Phoenix EC
     Although the EC is dated July 10, the Phoenix Division did not upload
the EC into ACS until the afternoon of Friday, July 27, 2001. The Phoenix
FBI also mailed the paper copy to FBI Headquarters around July 27.
      ACS records show that, because of the case designation listed on the
Phoenix EC, the lead for FBI Headquarters was initially routed electronically
through the ITOS electronic routing table to a general ITOS lead bucket that
was handled by an ITOS administrative unit. The lead was not directly routed
to the RFU or the UBLU. 72 An IA in the administrative unit in ITOS was
responsible for checking the ITOS general lead bucket regularly and
electronically assigning these kinds of leads to the appropriate person within
ITOS.

(continued)
the former informant that the former informant claimed he had provided information to
Williams about terrorists using planes as weapons or Middle Easterners in flight schools.
Williams also told us that the former informant never discussed any concerns about terrorists
using airplanes as weapons or concerns about Middle Easterners in flight schools. The
former informant’s informant file contained no information about reports regarding Middle
Easterners and flight schools. In addition, Williams said that he never spoke to the reporter
who the former informant said had called Williams, and that he was not prompted to write
the Phoenix EC because of a phone call from any such reporter.
    72
       At the time, the electronic routing table in ACS for the Counterterrorism Division
was set up to automatically route leads associated with cases with the type of case number
designated on the Phoenix EC to an administrative unit in ITOS rather than to a particular
operational unit.



                                             68
             1.    Assignment to the RFU
      On the morning of Monday, July 30, 2001, the ITOS IA accessed in ACS
the text of the Phoenix EC. ACS shows that on that same day the ITOS IA
assigned the lead in ACS to Ellen, an IOS in the RFU who was listed second
on the attention line of the EC.
      The ITOS IA told the OIG that he did not recall the Phoenix EC or
assigning the lead, but that his practice was to review the text of the lead and
the person or persons listed on the attention line to determine to whom to
assign the lead. The EC indicated that it related to an “IT-Other” matter and
these cases fell under the RFU. The ITOS IA said that he sometimes consulted
with his unit chief if he was unsure to whom to assign the lead, but he said he
did not recall whether he did so in this case.
     Ellen told the OIG that she pulled the Phoenix EC up in ACS, printed a
copy, and read it. 73 She said that, after reading it, she thought that the EC
should be reviewed by the UBLU, not by her unit, because the EC discussed
Bin Laden and al Qaeda, which were the responsibility of the UBLU.
        Ellen therefore discussed the EC with one of the IOSs who worked in the
UBLU, who we call Jane. Ellen said she recalled asking Jane if she should
transfer the lead to Jane, and that Jane stated that she did not have time to look
at it then. Ellen said that Jane asked if she could get back to Ellen in a week.
      Ellen said that she therefore consulted with Jane about a week later. ACS
records show that Jane downloaded the Phoenix EC from ACS on August 7,
2001. According to Ellen, she and Jane discussed the tremendous effort that
they thought would be needed to implement the recommendations in the EC.
Ellen said that they also discussed whether they would be able to implement
the recommendations because they believed that the FBI’s attorneys in the
NSLU would consider it racial profiling to send leads to the field to collect
information about Middle Eastern men who happened to be attending schools
related to civil aviation.
      Ellen said that Jane agreed that Jane should handle the Phoenix EC.
Ellen told the OIG that she remembered Jane saying she wanted to do more

    73
         Ellen told the OIG that she never received a hard copy of the Phoenix EC.



                                              69
research on FBI investigations to determine what other connections might exist
between Bin Laden, al Qaeda, and aviation, and then, depending upon the
results of that research, perhaps disseminate it. Ellen said that Jane also told
her that she also wanted to speak with her supervisor and decide what action to
take on the Phoenix EC.
       Ellen said that, after talking with Jane, she closed the lead in ACS on
August 7, 2001, indicating in ACS that Jane was planning to conduct additional
research before proceeding. ACS shows that Ellen wrote in the “disposition”
field for the lead that the lead was “covered-consulted with UBLU, no action at
this time, will reconvene on this issue.” Ellen said that after she and Jane
discussed the issue, they agreed to “revisit” the issue later once Jane had done
some research and had a better idea of how to proceed. Ellen also said that she
closed the lead rather than asking an IA to reassign the lead to Jane because she
knew that it would take some time for the necessary research to be done, and
that the RFU unit chief – Don– had instructed RFU employees that leads had to
be closed in a timely manner.
      Ellen told the OIG that she thought that the theory presented in the EC
was “interesting,” but that she, like Jane, believed that further research needed
to be conducted before any action was taken on the Phoenix EC. Ellen also
asserted, “It was a theory that certainly needed to be explored more fully before
disseminating it to the [Intelligence Community] as fact or not.” In addition,
Ellen said that she believed that attorneys in the FBI’s National Security Law
Unit (NSLU) would have had to review the Phoenix EC before any action
could be taken on it because the issue of racial profiling was “hot.”
      When we asked Ellen whether she considered referring the Phoenix EC
to the ISD to research and analyze, she stated that the RFU did not have an ISD
analyst assigned to it at the time. Ellen acknowledged that it would have been
possible for the ISD to assign an IRS analyst to do strategic research regarding
the EC, but she believed the EC should first be referred to the UBLU, since the
EC’s focus was al Qaeda and it was the UBLU’s prerogative to decide how to
proceed on it.
      Ellen told the OIG that she did not recall consulting with her supervisor
in the RFU, an SSA who we call “Chris,” about how to handle the Phoenix EC,
or showing it to him. She said that she might have mentioned it in passing to
Chris, but it was common for IOSs to close leads without supervisory input.


                                       70
     Chris was an SSA assigned to the RFU from the summer of 2000 until
September 10, 2001, when he left FBI Headquarters. Chris told the OIG that
he never saw or discussed the Phoenix EC with anyone prior to September 11.
      Don was the unit chief of the RFU at this time. He joined the FBI in
1987 and was assigned to the RFU in May 2001. Don said that he first learned
of the Phoenix EC only after the September 11 attacks. He indicated that
neither Ellen nor anyone else mentioned the EC to him before September 11.
He said that on average he reviewed 30 to 45 ECs a day that were assigned to
the RFU, and because of the vast amount of intelligence data that had to be
analyzed by the seven IOSs in the RFU, the RFU had to rely on their judgment
to accurately prioritize the information. Don stated that if he had seen the
Phoenix EC before September 11, he would have discussed its
recommendations with his UBL counterpart, then forwarded the EC to the
ITOS Section Chief, Michael Rolince, for a decision on the course of action to
take on the EC.

          2.   Assignment to the UBLU

               a.   Jane’s handling of the EC
      As noted above, Ellen reassigned the Phoenix EC to Jane, an IOS in the
UBLU. In addition, the hard copy version of the EC, which Phoenix had
mailed to FBI Headquarters, also was assigned to Jane. According to Jane, on
or about July 30, an IA in the RFU delivered the hard copy of the Phoenix EC
to Jane. Jane provided the OIG with the copy that she received from the IA,
which Jane had initialed to indicate receipt.
      Jane told the OIG that she also recalled discussing the EC with Ellen.
Jane said that after she read the EC, she told Ellen that she agreed that it made
more sense for the UBLU, rather than RFU, to handle it because of the
references to Bin Laden.
      Jane told the OIG that she did not believe that there was a sufficient
“factual predicate” to justify taking any immediate action on the EC, such as
disseminating it to the Intelligence Community. Jane asserted that based on
what was in the EC she did not believe that Subject No. 1 had a strong
connection to Bin Laden. She said that the investigation of Subject No. 1 was
opened as an Islamic Army of the Caucuses/Ibn Khattab matter, and, according


                                        71
to Jane, “Ibn Khattab has never taken operational directions from Usama Bin
Laden.” She said that, according to the EC, the primary evidence of the
connection was that Subject No. 1 was a member of Al-Muhjiroun and had a
picture of Bin Laden on his wall. She stated that she confirmed with Ellen that
while Al-Muhjiroun verbally supported Bin Laden, the FBI had not developed
any evidence that Al-Muhjiroun had provided any operational support to Bin
Laden. 74
      In addition, Jane told the OIG that she recalled concluding that the
factual predicate was weak because many of the individuals who were listed in
the EC as associated with Subject No. 1 were the subjects of only preliminary
inquiries, not full investigations. Jane said that based on what she saw in the
EC and knew about Bin Laden, she did not see the connection between Bin
Laden and Subject No. 1 or the other subjects of the EC. She stated that she
did not feel “comfortable at this stage going forward with the theory that we
think these individuals from these countries are coming here sent by UBL,
when the preponderance of evidence indicates that these people are aligned
with Al-Muhajiroun and Ibn Khattab.” She said that being associated with Ibn
Khattab “did not equate” with being associated with Bin Laden.
      Jane said that the fact that the Phoenix EC reported that a large number of
Middle Eastern men were training in U.S. aviation-related schools did not
strike her as significant because it was well known that Middle Eastern men
have historically trained in U.S. flight schools because they are cheaper and
better than other flight schools around the world. She suggested that before
September 11, even someone of investigative interest training in a U.S. school
in an aviation-related field did not necessarily raise a red flag.
      Jane said that she told Ellen that she needed to do some research before
she took any action on the EC. According to Jane, she initially thought of a
handful of steps she wanted to take based on her knowledge of ongoing cases
within the FBI. Jane said that she wrote a “to do” list on a yellow post-it note
and attached it to her copy of the EC. She said she thought that there were at

    74
      Mark, who had been the case agent in New York on the FBI’s investigation of the Al-
Muhjiroun, told the OIG that the New York Division had closed its case on Al-Muhjiroun
long before September 11 because the FBI was not able to establish that Al-Muhjiron had
engaged in terrorist activities or supported terrorist activities.



                                           72
least four items on the list, but she could not specifically remember all of
them. 75 However, she said she recalled that one of the items on the list was to
review the FBI’s information on Essam Al Ridi, a former personal pilot for Bin
Laden who testified for the government in the trials against the persons
responsible for bombing the U.S. embassies in East Africa in August 1998, to
see if al Qaeda had undertaken any similar initiatives as those discussed in the
Phoenix EC.
      Because the EC included information about Subject No. 2, who had
previously lived and studied in the United States and had ties to suspected
terrorists arrested a few weeks prior, Jane said that she immediately thought of
an issue being researched by an IRS in an FBI field office. We call the IRS
“Lynn.” 76 Lynn had been involved with the field office’s intelligence
investigation of Subject No. 2 when he lived in the area. As noted in the EC,
two al-Qaeda operatives were arrested in Bahrain at the end of June 2001 who
had been planning an operation to bomb the U.S. embassy and military forces
in Saudi Arabia. At the time of their arrest, they were in possession of a
passport containing the name of a person believed to be a relative of Subject
No. 2.
       In June 2001, Jane had asked Lynn to review her field office’s case file
on Subject No. 2 to try to find connections between Subject No. 2 and his
associates in the state where the field office was located and the two al Qaeda
operatives arrested in Bahrain. Jane told the OIG that she was familiar with
this field office’s investigation of Subject No. 2 and several of his associates
who were living in the area. She said that she knew that Subject No. 2 and his
associates had attended civil aviation school in the United States and were
employed by a Saudi airline company, although she did not believe that

    75
       In November 2001, Jane was interviewed about the EC by an OIG Special Agent who
conducted a preliminary review regarding the Phoenix EC. Jane said that she gave the EC
with the post-it note on it to the OIG Special Agent. The Special Agent confirmed that Jane
gave him the EC along with the note, but he was not able to locate the post-it note when he
retrieved the original EC several months later.
    76
       Lynn had been an IRS with the FBI for approximately two years at the time of the
Phoenix EC. She handled all counterterrorism-related analytical work for the FBI field
office in which she was employed.



                                            73
Subject No. 2 was a pilot. She said that she thought that Lynn might be aware
of something in what she was researching about Subject No. 2’s contacts in the
area of the field office that could support the theory in the Phoenix EC.
      As a result of the arrest of the two al Qaeda operatives in Bahrain, Jane
also was dealing with Williams’ supervisor who we call “Bob,” and with
agents in the Phoenix Division other than Williams on Phoenix’s Subject No. 2
investigation, which was closed at the time. She stated that the FBI Phoenix
Division had been asked to follow up on matters in the Subject No. 2
investigation that had been left unfinished, such as documents that had been
collected from several sources but never read or analyzed. In addition, Jane
stated that she had been in contact with the Phoenix Division about locating a
source who previously had been married to a woman who was married to a
family member of Subject No. 2.
      However, Jane told the OIG that she did not have any contact with
Williams about the Phoenix EC and that her only contact with Bob about the
EC was via e-mail. On August 6, 2001, Jane sent an e-mail to Bob asking if he
had any objection to her sending the Phoenix EC to Lynn. Bob replied via e-
mail the same day that he did not have any objection.
      The next day, Jane sent the Phoenix EC to Lynn. In an e-mail message
attached to the EC, Jane stated: “I thought it would be interesting to you
considering some of the stuff you were coming up with in [your field office].
Let me know if anything strikes you.” Jane told the OIG that she wanted to
know if Lynn saw any similar patterns between the associates of Subject No. 2
that she was researching in her area and the individuals discussed in the
Phoenix EC. However, Jane did not assign a lead to Lynn, nor did she call
Lynn about the Phoenix EC either before or after she e-mailed it to her.

               b.   Lynn’s response
     Lynn told the OIG that she received the Phoenix EC and Jane’s e-mail,
and she read them. Lynn stated that she believed that Jane sent her the EC
because Jane was aware of her field office’s earlier investigation of Subject
No. 2 and several of his associates. Lynn said that in these investigations, the
FBI observed some trends, such as that all of the subjects were of Saudi
descent, were employed by Saudi airlines, and were involved with aircraft
maintenance or had pilots’ licenses, and that the Saudi airline company was


                                       74
paying for their training. Lynn said that the investigation also had revealed that
the subjects were calling various gun dealers and gun shops. She said that the
FBI personnel involved in the investigation questioned whether the subjects
were using Saudi airlines to transport weapons, but that nothing further had
developed in the investigations to support this theory and that the field office
investigation was closed. According to Lynn, by the time the name of Subject
No. 2 resurfaced in June 2001 based on the arrest of the two al Qaeda
operatives in Bahrain, he had not been in her area for approximately three
years.
      Lynn said that, although she did not recall speaking with Jane about the
EC, she believed that Jane was passing the EC to her for informational
purposes. Lynn said that she was interested in whether there was any
information in the EC that would inform the work that she was doing on
Subject No. 2 at the time, but that after reading the EC, she concluded that it
did not affect her investigation. She said she considered it good information to
know and that it was a “piece of the puzzle.” She said that based on her work
on the matter of Subject No. 2, she was not aware of any information
supporting Williams’ theory that Middle Easterners were receiving aviation
training for the purpose of conducting terrorist activity. She stated that it was
“no big secret” that Arab nationals received aviation training in the United
States. She said that for these reasons, she did not respond to Jane’s e-mail.

                c.    UBLU
      Jane said that, in addition to sending the EC to Lynn, she talked to the
SSA with whom she worked in the UBLU who we call Rob, and told him
briefly about the EC. Jane told the OIG that she could not recall whether she
provided a copy of the EC to him. 77 She said that she explained to Rob that she
believed that she should do some research before deciding to act on the EC.
According to Jane, Rob concurred with her course of action.




    77
        Jane later informed the OIG that she handed the Phoenix EC to Rob, that he skimmed
the synopsis, and that he listened to her summary of the document and proposed course of
action.



                                           75
      Rob was Jane’s SSA and also the Acting Unit Chief of the UBLU at the
time. Rob, an FBI agent since 1990, had been assigned to the UBLU since
1999. He was the Acting Unit Chief of the UBLU from June 28, 2001, until
September 10, 2001. He told the OIG that he routinely reviewed dozens of
ECs on any given day, and he often relied on the judgment of Jane and other
IOSs concerning intelligence decisions.
       Rob said that he remembered Jane coming to him in the second week of
August 2001 and telling him briefly about the Phoenix EC. He said that he
also recalled her saying that she believed some preliminary research needed to
be done before proceeding. He said that he did not see a copy of the EC, but
based on Jane’s description, concurred with her decision to conduct some
initial research before taking any other steps. Rob said he did not discuss the
Phoenix EC with anyone else.
      According to Jane, she intended to address the Phoenix EC as time
permitted. However, she said that she believed it would take a significant
amount of time to do the research necessary to determine an appropriate
response to the EC. She said that she was not able to return to the EC between
August 7 and September 11 because of her heavy workload at the time. In
addition to the work generated by the al Qaeda operatives arrested in earlier in
the summer in Bahrain, she said that other matters at the time were of a higher
priority than the Phoenix EC, such as another would-be al Qaeda “bomber”
who was arrested in a foreign country, analysis of information received from a
number of sources on the brother of a key Bin Laden lieutenant, and several al
Qaeda-related threats of imminent attack. She stated that the entire UBLU was
flooded with leads and requests concerning Bin Laden and also was handling
“dozens” of leads on a daily basis associated with the attack on the U.S.S. Cole
that had occurred in Yemen in October 2000.
      When we asked Jane why she did not refer the Phoenix EC to the ISD for
analysis, she said she did not recall ever thinking that she should refer the EC
to the analytical unit within the ISD. Jane noted that at the time the Phoenix
EC was sent to FBI Headquarters, no IRS was assigned to the UBLU from the
ISD. The last IRS assigned to the UBLU had arrived in February 2001, but
had transferred in early July 2001 to another unit. The ISD had not replaced
her.




                                       76
      Jane, who had been an IRS for approximately six months before
becoming an IOS, told the OIG that she had planned to conduct the necessary
analysis with respect to the theory presented by Williams because she did not
believe there was anyone in the ISD to do this kind of research and analysis.
When asked if she could have made a request of the ISD for assistance despite
no one being specifically assigned to UBL matters, Jane responded that in
other instances where her unit had asked for research from the ISD, it was not
able to provide the support requested because it lacked adequate personnel to
do so.
     Jane said that she did not recall seeing the Phoenix EC again until after
September 11.
      The two other individuals in the UBLU who were listed on the attention
line of the EC – Frank and Matthew – told the OIG that they did not see the
Phoenix EC before September 11. ACS records also show that they did not
access the Phoenix EC before September 11. ACS records also show that no
other FBI Headquarters employees accessed the Phoenix EC before
September 11.

    E.   The New York Division’s handling of the EC
       The Phoenix EC also was routed by hard copy and through ACS to the
FBI’s New York Division. Williams told the OIG that he sent the EC to the
New York Division because it was the focal point for Bin Laden matters in the
FBI. At the time, the New York Division was working several criminal and
intelligence cases related to Bin Laden’s terrorist activities.
      Williams told the OIG that, by sending the EC to the New York office, he
was seeking the expertise and knowledge of the office, not simply informing it
of his theory. Williams said that he was anticipating an analysis of his theory
from those in the FBI with more expertise and experience with Bin Laden
matters, including the New York Division.
      The “attention” field of the EC contained the names of two New York
FBI agents, who we call Jay and Mark, and the lead was designated as “read
and clear.” As discussed above, within the FBI read and clear leads are
considered for informational purposes and do not require any specific action.




                                       77
       Based on the electronic routing table in ACS, in New York the lead was
initially routed to the Assistant Special Agent in Charge (ASAC) for the New
York FBI’s Counterterrorism Program. The ASAC’s secretary was responsible
for assigning leads routed to the ASAC. On July 30, 2001, she assigned the
lead to a New York international terrorism squad based on the case number.
      According to witnesses we interviewed in New York, the volume of read
and clear leads received each day by the New York office was enormous. 78
Squad secretaries were usually responsible for assigning “read and clear” leads
directed to their squads. Leads were assigned to specific agents based on the
names listed in the “attention” section of the EC, the case number, or the
content of the EC. The Phoenix EC lead, however, was never assigned in ACS
to a particular agent. The secretary of the New York international terrorism
squad that had been assigned the lead closed the lead in March 2002. 79
      The New York office’s hard copy of the Phoenix EC was routed to the
international terrorism squad that handled Bin Laden investigations, where it
was provided to Jay, the first New York agent listed on the EC. Jay had been a
special agent with the FBI since 1976 and had worked on international
terrorism matters since 1984. Since 1996, he was assigned to the squad that
handled Bin Laden-related investigations, working primarily criminal
investigations. 80
      Jay told the OIG that the Phoenix EC was routed to his mail folder by the
squad secretary. He said he recalled reading it in August 2001. He said that he
did not know Williams and never spoke to him either before or after Williams
wrote the EC. Jay said he assumed that Williams listed his name on the EC
because he was one of the agents who worked on the Bin Laden squad in New
York.

    78
      We were told that in 2003 the squad that handled Bin Laden matters received
approximately 3,300 leads.
    79
     We were told that “read and clear” leads often were not closed in ACS for several
months due to the lack of clerical support.
    80
      The Phoenix EC addressed Jay as the SSA of the squad. He was one of two “relief”
supervisors who filled in for the SSA when he was not in the office. At the time, the SSA
was out of the office on extended medical leave.



                                            78
      Jay told the OIG that he did not believe that Williams’ theory was based
in fact. He asserted that a “glaring deficiency” was the implication that Bin
Laden had a support network in Arizona. He asserted that there had been a
terrorist cell that was active in Arizona, but that this was in the 1980s before al
Qaeda existed. He said that based on what was written in the EC about Subject
No. 1’s connections to Bin Laden – that Williams was basing the connection on
what Subject No. 1 had said in two interviews – Jay believed that Subject No.
1’s connection to Bin Laden was “tenuous, at best.” Jay stated that if it had
been his responsibility to address the Phoenix EC, he would have “taken issue”
with it and would have written back that he believed that the theory and
conclusions were “faulty.” He added that the FBI was well aware that Bin
Laden had individuals working for him with pilot training and that Middle
Easterners commonly received flight training in the United States. He said he
was not aware of anything that supported the theory espoused in the EC.
      Jay said that he reviewed the recommendations and saw that the
requested actions in the EC were for FBI Headquarters to address. He said that
he believes he may have discussed the EC with some of his colleagues and that
they agreed that the recommendations were something for FBI Headquarters to
address. Jay told the OIG that he did not contact Williams or anyone else in
Phoenix to discuss the EC.
       Mark, the other agent listed on the attention line on the Phoenix EC, was
assigned to the international terrorism squad that handled cases that were
managed by the RFU. Mark told the OIG that he did not see the Phoenix EC
until after September 11, 2001. ACS records confirm that he did not access the
Phoenix EC until after September 11.
       Except for an analyst and an auditor in New York who reviewed the
Phoenix EC in connection with searches unrelated to the Phoenix EC, and the
secretary who accessed the EC to assign the lead, we found no evidence that
anyone else in New York read the Phoenix EC or did anything with regard to
it. 81


    81
      ACS shows that an auditor and an IRS on a squad not related to Bin Laden cases
accessed the Phoenix EC during this time period. They both said the EC did not relate to
what they were researching, and they did not do anything with it.



                                            79
III. OIG analysis
       This section analyzes the handling of the Phoenix EC by the FBI. We
believe, and the FBI has acknowledged, that the Phoenix EC did not receive
the sufficient or timely analysis that it deserved, and it was not disseminated, as
it should have been, for consideration and input by others in the FBI and the
Intelligence Community.
       While the FBI analysts who reviewed the EC did not give it timely
attention, we do not believe their individual failings were the main source of
the problem with the handling of the EC. Rather, the deficiencies in its
handling were caused in greater part by critical systemic failings in the way
that intelligence information and requests for assistance were handled by the
FBI prior to September 11. In this section, we discuss these systemic problems
before evaluating the actions of the individual employees who came in contact
with the EC.

     A. Systemic problems
       Before discussing the systemic failings evidenced by the handling of the
Phoenix EC, it is important to note what the Phoenix EC was not. It was not an
immediate warning about a terrorist plot, and it did not reveal information
about the September 11 attacks or those who committed the attacks. 82 The EC
itself was worded to convey that Williams was proposing a theory rather than a
warning or a threat. Williams designated it as “routine” because he did not
have any information of a specific threat or pending attack. He said that he
was putting forth “an investigative theory” or “hunch,” and he was seeking an
analytical product or feedback in response to his theory. He did not expect that
to happen immediately.
     Yet, even though it did not contain an immediate warning and was
marked routine, Williams’ information and theory warranted strategic analysis
from the FBI, which it did not receive, and timely distribution, which it did not


    82
       In prepared remarks for congressional testimony on May 8, 2002, former ITOS
Section Chief Michael Rolince noted that “it should be stressed that none of the individuals
identified by Phoenix were connected to the 9/11 attacks, nor did the leads stemming from
that EC uncover the impending attacks.” (Emphasis in original.)



                                             80
receive. While we cannot say that better handling of the Phoenix EC would
have uncovered the September 11 plot, the EC should have been handled
differently.

          1.   Ineffective system for assigning and managing work
      The lead from the Phoenix EC was assigned by an administrative
employee directly to an IOS in the RFU, Ellen, who discussed the matter with
another IOS in the appropriate unit, Jane. They decided that Jane would handle
the Phoenix EC. Thereafter, Ellen closed the lead in ACS and noted that she
and Jane would discuss the matter further in the future. Although Jane briefly
mentioned the Phoenix EC to her supervisor, the IOSs made independent
judgments about what needed to be done to address the requests in the Phoenix
EC and who to notify about it. Jane also decided when she would work on the
Phoenix EC. We found that neither Ellen’s direct supervisor (Chris) nor Jane’s
supervisor (Rob) ever received or reviewed the Phoenix EC. Nor did any other
supervisor in FBI Headquarters. And as of September 11, Jane had not
completed any work on the Phoenix EC.
      We found that the assignment of the lead from the Phoenix EC, the
handling of the Phoenix EC independently by an IOS, and even the closing of
the lead did not violate any FBI policies or practices at the time. In instances
where IOSs received leads or intelligence information directly, they were not
required to seek any supervisory input on the information that they were
handling. Witnesses stated that more significant threat information or leads
related to important cases usually were discussed with the SSAs, but that this
did not occur with every lead or assignment, and it was not required.
      For example, Rob , the acting unit chief of the UBLU at the time, told the
OIG that he often relied on the judgment of IOSs in how they handled their
work. As a result, IOSs regularly handled most intelligence information and
other assignments without supervisory input or knowledge.
      Much also was left to the IOS’s discretion in deciding what was a priority
and which projects to focus on. Don, the unit chief of the RFU, said that at the
time, managers relied on IOSs to exercise their judgment in how to prioritize
their work. The IOSs we interviewed stated that the priorities were determined
by the nature of the work. For example, they said they gave a threat of a
terrorist attack or an emergency FISA request the highest priority. In addition,


                                       81
if information was requested by higher level FBI officials or a Section Chief,
that assignment was given priority. IOSs explained that, because of the crush
of immediate projects, they were operating with a “triage” approach to their
workload in which they dealt with crises or problems as they arose and
thereafter dealt with routine matters. As with how they handled their leads and
other assignments, we found that IOSs consulted with their supervisors about
prioritizing their work only when they deemed it necessary.
       We believe that although the assigning of the lead and handling of the
Phoenix EC was in accord with UBLU and RFU practices at the time, these
practices were significantly flawed. Assigning work directly to IOSs with no
requirement of supervisory input or review resulted in a lack of accountability
for addressing leads and intelligence information. Without supervisory
involvement, IOSs were permitted to determine what was a priority, and even
when and whether work would be completed. As a result, there often was no
check on the decisions being made by IOSs and no way to ensure that work or
intelligence that was deemed of a lesser priority – such as the Phoenix EC –
was ever addressed. This system was one in which important information
could easily “fall through the cracks,” not receive timely attention, or not be
brought to the attention of those inside and outside the FBI who had a reason
and a need to know the information.
      The lack of accountability and supervisory involvement was compounded
by the fact that the FBI’s computer system, ACS, was not set up to ensure that
all addressees on an EC were even made aware of the EC. Only individuals
assigned leads associated with the EC would be notified electronically of the
document’s existence. This meant that when the EC and leads were uploaded,
the EC would not be seen by a supervisor, even if the supervisor was an
addressee on the attention line, unless the supervisor searched ACS for the
document. Nor was there any assurance that the persons listed on the attention
line of the EC would ever receive notification about it. Since FBI employees
did not search ACS on a regular basis for documents that might be addressed to
them, they did not learn about leads or other intelligence information assigned
to them.
      As a result, we found that none of the supervisors listed on the Phoenix
EC saw it before September 11. Important judgments were made about how to
handle the Phoenix EC – which IOS would address the Phoenix EC, closing the
lead instead of reassigning it, sending the EC to only one person for review, not

                                       82
conducting any research on the recommendations suggested in the EC while
other matters were being handled – none of which involved any supervisory
input. This, in our view, is not an appropriate system for handling such
important information.
     The FBI recognized this problem after September 11 and changed the
way it handled such information. Rolince told the OIG that once he became
aware of the Phoenix EC after September 11 and learned how it had been
handled, he instructed that leads in ITOS had to be assigned to supervisors and
could not be assigned only to IOSs.
     In addition to deficiencies in the supervisory process, we also believe that
the FBI’s practice and policies regarding closing of leads were faulty. As
evidenced by the handling of the Phoenix EC, leads could be closed without
any work being done on them, other than reassignment to someone else.
       A contributing factor to the ineffective management of the work
assignments in ITOS was the FBI practice of rotating supervisors through FBI
Headquarters on a relatively short basis. We found that supervisors typically
stay in FBI Headquarters for two years or less, and SSA positions and unit
chief positions often remain unfilled for months at a time. By contrast, IOSs
remain in ITOS on a permanent basis and are therefore relied upon for their
expertise and institutional knowledge about counterterrorism programs,
intelligence on FBI targets, relationships with other intelligence agencies, and
how FBI Headquarters works. As a result, IOSs sometimes manage
themselves. While we believe that many IOSs are capable and dedicated FBI
employees, the turnover of managers in FBI leaves a gap in IOSs’ supervision,
in addition to making it difficult for managers to be effective and
knowledgeable about their subject areas before they are sent to a new
assignment.

          2.   Lack of adequate strategic analytical capabilities
     We believe the Phoenix EC warranted strategic analysis. It never was
subjected to any such analysis before September 11. Ellen and Jane agreed that
Jane would handle the Phoenix EC, but Jane did not refer it to the entity at the
FBI that was assigned to conduct strategic analysis, the ISD. She said she
decided not to refer it to the ISD for analysis and instead keep it for herself to
work on when she had time. She believed that the ISD did not have sufficient


                                       83
capability to perform timely analysis. At the time, the FBI had no IRS in the
ISD specifically assigned to handle matters involving Bin Laden, despite the
importance of that assignment. As we discuss in more detail below, while the
handful of analysts who worked in the ISD were supposed to perform strategic
analytical functions, most of their time was spent assisting on case-related
matters.
       This was a significant failing. A critical component of the work of the
FBI’s Counterterrorism Division is analysis. Although case-related analysis –
also called “tactical” or “operational” analysis – is crucial to bringing criminal
cases to the point of arrest and prosecution and to determining through
intelligence information whether a particular target or group may be planning
an imminent terrorist act, strategic analysis is equally important to the FBI’s
counterterrorism mission. Strategic analysis involves drawing conclusions and
predictions about terrorist organizations and likely methods of attack based on
all sources of information. It is critical to the FBI’s ability to be proactive
instead of reactive as well as to set investigative priorities. It is also critical for
identifying intelligence gaps in information about a terrorist group or target.
      Since September 11, the FBI has acknowledged that it lacked an effective
strategic analysis program for international terrorism prior to September 11. In
congressional testimony, Director Mueller acknowledged the FBI’s analytical
capabilities prior to September 11 were “inadequate.” He stated that the FBI’s
analytical capability “[was] not where it should be.” Since then, the FBI has
focused attention on improving its analytical functions. 83
      Prior to September 11, the FBI’s strategic analytical capabilities were
extremely limited. The FBI did not regularly prepare analytical products that
predicted trends, explained patterns, or identified national security
vulnerabilities with respect to international terrorism. 84

    83
      The OIG is in the process of completing a comprehensive review of FBI’s analyst
program and it is tentatively scheduled to be completed in September 2004.
    84
       A striking example of the FBI’s failing in this regard is documented in a September
2002 OIG audit report which found that the FBI had not performed a comprehensive
national-level assessment of the threat and risk of terrorist attack, despite having promised
Congress that it would do so following a September 1999 General Accounting Office
(GAO) report. As of September 11, 2001, the FBI had developed a draft of a report that was
(continued)

                                             84
      This lack of strategic analytical capability undoubtedly affected how the
Phoenix EC was handled. Instead of being able to send the EC to a unit that
had sufficient expertise and resources to assess the theory laid out by Williams,
Jane kept it to herself, hoping to find the time to turn to it amid the crush of
other duties. She was not able to do so before September 11.
      Part of the problem was that, in the past, the FBI did not adequately value
or support an analytical program. This problem was aptly described by one
CIA official – one of several CIA managers enlisted by the FBI after
September 11 to help turn around the FBI’s analytical program – as “a lack of a
culture of analysis.” The FBI was composed predominantly of agents who
performed criminal investigative work and who did not appreciate the value of
strategic analysis. This was particularly acute in the FBI’s Counterterrorism
Program. As a result, FBI counterterrorism IOSs, SSAs, and managers had a
tendency to rely on their own experience and professional judgment rather than
seeking strategic analysis, and the Counterterrorism Program focused on
immediate, short-term operational priorities rather than strategic analysis.
       Strategic analysis was viewed as a support function rather than its own
discipline. IOSs and agents employed IRSs primarily to conduct research and
analysis projects in support of on-going investigations or prosecutions. While
this research and analysis often involved complex and time-consuming work,
such as reviewing information collected as a result of a FISA warrant or
establishing the connections between targets in a case based on a review of
telephone records, it was normally in furtherance of a specific investigation.
     Furthermore, several IRS employees we interviewed told the OIG that
IRSs often were used to perform the work that IOSs did not like to do, such as
conducting name searches in ACS or performing research on the Internet. A

(continued)
purportedly the threat assessment. The OIG reviewed a draft of the report in May 2002. We
concluded that it was not a threat assessment because it did not describe the nature of the
terrorist threat, identify critical intelligence requirements, or make recommendations to any
level of FBI management. See “A Review of the Federal Bureau of Investigation’s
Counterterrorism Program: Threat Assessment, Strategic Planning, and Resource
Management” (May 2002). In January 2003, the FBI issued an intelligence assessment
entitled “The Terrorist Threat to the U.S. Homeland: An FBI Assessment,” which
responded to the recommendations in our September 2002 audit report.



                                             85
CIA manager detailed to the FBI told the OIG that IRSs were considered
“second class citizens” at the FBI. This view of analysts reduced the ability of
the FBI to conduct the strategic analysis that was needed on projects such as
the Phoenix EC.
      Another example of how the strategic analytical function was subordinate
to the operational function in the FBI’s Counterterrorism Program is evident in
the fact that 5 IRSs were absorbed into an operational unit in late 2000, when
there were fewer than 20 IRSs devoted to international terrorism at the time.
These IRSs were assigned in late 1998 to the UBLU to conduct research and
complete other tasks in support of the investigation and prosecutions stemming
from the embassy bombings in East Africa. These were important assignments
that needed to be done, but they made it more unlikely that strategic analysis,
such as the kind warranted by the Phoenix EC, would be accomplished.
       In addition, the primacy of the operational units was further demonstrated
by the fact that the judgments and conclusions of IRSs set forth in analytical
products could be overruled or blocked from dissemination by the managers in
the operational units or the ITOS section chief. Witnesses told the OIG that
operational personnel were permitted to prevent dissemination of analytical
products. For example, IRSs told the OIG that a proposal for an analytical
report that would have discussed signs that al Qaeda was planning a terrorist
attack was stopped by a New York Field Office supervisor because of concerns
that the information could be subject to discovery in a prosecution.
      Witnesses also told the OIG that operational units’ ability to override the
conclusions of the IRSs was demoralizing to the analytical component. CIA
analysts detailed to the FBI after September 11 to revamp its analytical
program asserted to the OIG that operational personnel, whose expertise is
case-oriented and therefore tactically based, should be involved in checking the
facts presented in the analytical product but should not be able to alter or block
the dissemination of analytical results.
      While there are legitimate tensions between operational and analytical
personnel, the FBI had no process before September 11 for addressing conflicts
that arose out of this tension.




                                       86
           3.    Resources and training for analysts
       The FBI’s strategic analytical function also was under-resourced. This
was demonstrated by the shortage of IRSs and the lack of training offered to
them. We interviewed former IRS managers about the resources of the ISD
prior to September 11. The FBI acknowledged that the number of IRSs
working on counterterrorism matters had dwindled prior to September 11, and
that the few remaining IRSs were not sufficient to address the analytical needs
of the ISD.
      In 1996, the FBI had hired 36 IRSs in an effort to bolster its international
terrorism analytical program. According to witnesses, within a year
approximately half of the IRSs had left the program. By mid-1999, there were
only approximately 15 international terrorism IRSs, and by mid-2000 there
were only 10 IRSs devoted to counterterrorism analysis. 85 Former IRS
managers confirmed to us that only one IRS was assigned to UBL matters in
2001, but she transferred to another unit in July 2001. Thus, in the summer of
2001 when the Phoenix EC was received, no IRS was assigned to work on Bin
Laden matters. Jane pointed to this void as one reason she did not seek
analysis of the Phoenix EC.
      In addition, we found that training for analysts at the FBI was ad hoc and
untimely. While special agents were sent to Quantico to the FBI Training
Academy for a 16-week course, IRSs did not receive equivalent training at
Quantico or elsewhere. IRSs received mostly on-the-job training until they
could attend a CIA or Defense Intelligence Agency course on international
terrorism. For some IRSs, this did not occur until they had been working for a
year or more. In addition, IRSs told us they had to seek training on their own,
and if they changed program areas they also had to find appropriate training in
the new subject matter. 86

    85
       Some IRSs left the FBI, while others transferred to other positions within the FBI.
FBI documents show that 10 IRSs became IOSs in ITOS, 8 moved to other positions within
the FBI, and 13 left the FBI. In addition, as discussed above five of the IRSs who became
IOSs were administratively transferred to the UBLU after working on a task force in support
of the embassy bombings case.
    86
       While this section of the report primarily focuses on resource and training issues for
IRSs, IOSs also were not provided with adequate resources and training.



                                              87
      Counterterrorism IRSs also lacked a clear career path. They usually were
supervised and managed by agents, who were not trained about the IRS
position, mission, or work product. Moreover, CIA managers detailed to the
FBI to improve its strategic analytical capabilities told the OIG that in order for
analysts to be taken seriously, they had to hold positions of authority. As an
example, they stated that in the CIA one of the Deputy Directors was an
analyst. 87 According to another CIA manager, the lack of a career path for
IRSs was a clear indication that IRSs were not valued by the FBI.
      The result of these deficiencies was a weak and underutilized analytical
function, which in our view contributed to the lack of attention that the Phoenix
EC received when it was sent to FBI Headquarters.

           4.   Poor information flow and information sharing
      The FBI also has acknowledged that the Phoenix EC contained
information that should have been disseminated and reviewed by other parts of
the FBI and the Intelligence Community. While the Phoenix EC did not
contain information that constituted an imminent threat or warning of a
terrorist attack, the FBI should have obtained input from within and outside the
FBI to properly analyze Williams’ theory. However, before September 11 the
Phoenix EC was not disseminated widely within or outside of the FBI.
      When Jane received the EC, she decided not to disseminate it
immediately. She believed it lacked sufficient factual support to warrant
immediate dissemination, and she said she decided to conduct some initial
research before deciding whether to invest additional resources on the EC.
Because of her other work, she did not begin the research prior to
September 11.
       Her actions were consistent with the FBI’s policies and procedures at the
time. As noted above, IOSs were permitted to exercise discretion in handling
their assignments, including determining what information to share both within
and outside the FBI, without supervisory approval. The FBI provided them no
guidance or requirements on what type of information should be shared, either

    87
      Within the Counterintelligence Program, the highest position held by an analyst was
Section Chief.



                                           88
inside or outside the FBI. This left to the discretion of the individual analyst
decisions about what to do with intelligence information, such as the Phoenix
EC.
       We believe exercise of such significant discretion resulted in a failure to
share important information such as the Phoenix EC. Fundamental to the
effectiveness of an intelligence operation is its ability to collect and
disseminate information within and outside the agency. Such information is
needed by operational personnel to inform their investigations or other
operational goals. Moreover, in the analytical process, the more information
that is available about a terrorist organization or a target, the better informed
conclusions and predictions about the likely actions of the person or
organization. Information should be reviewed, among other things, to
determine what would be useful in other FBI investigations, what other
personnel or offices within the agency should be provided with the
information, what would be useful for other government agencies, what would
be useful and appropriate to disseminate to foreign governments, and what can
be declassified for use in public alerts.
      But information sharing within and outside the FBI’s Counterterrorism
Program prior to September 11 was piecemeal and ad hoc rather than
systematic. Several of the CIA managers detailed to the FBI told the OIG that
there was no “information flow” within the FBI. The FBI’s process for
disseminating information was to route information primarily to IOSs, who
then used their own judgment and experience to decide what needed to be
disseminated and to whom. As discussed above, IOSs were operating with a
“triage” approach to their workload. They had to identify what information
was the most significant and deal with the crises or problems as they arose. As
a result, information that did not demand immediate attention or did not relate
to a crisis took significant time to be addressed, if it was addressed at all.
      The CIA managers we interviewed asserted that an intelligence agency
must set priorities to identify what its information needs and intelligence gaps
are. They said that once priorities and intelligence gaps are identified,
decisions can be made about what information should be collected and who
should receive the information. They explained that these decisions should
then be communicated throughout the agency as “requirements.”




                                        89
      Several of the CIA managers also noted that the FBI lacked any priorities
or requirements for the dissemination of information once it was collected. For
example, there was no guidance concerning what types of information were
required to be disseminated or included in reports to other intelligence
agencies. Moreover, there were no requirements that certain types of
information be routed to analysts or that analysts be copied on particular kinds
of communications. IOSs simply shared or disseminated the information they
believed needed to be shared based primarily on their prior experience. 88
      IOSs we interviewed told the OIG that they spent a majority of their time
preparing documentation for requests for FISA warrants. They also were
responsible for providing advice and assistance to the field offices in
connection with ongoing investigations and with responding to threats of
terrorist acts. They also had to obtain resources to support investigations, such
as arranging for translators or preparing documentation for re-allocation of
money. They needed to respond to requests to check telephone numbers,
names, and other identifying information about targets of investigations in FBI
and CIA databases. While the IOSs acknowledged that collection and
dissemination of intelligence information was one of their responsibilities, they
stated that as a job function it was not a priority before September 11.
       Several IOSs stated that it was impossible for IOSs to be aware of and
disseminate every piece of information generated by every lead because of the
demands of the other responsibilities of their jobs. As a result, they said that
they had to focus on the most significant information that was generated from
important cases or credible threats. Jane, other IOSs, and special agents told us
that the type of intelligence information that received immediate attention was
that generated from explicit threats of an attack or other terrorist act,
information that a terrorist who was in custody was being brought to the United
States, or intelligence intercepts by another agency that led to a name and
phone number in the United States of a target. Other information was handled
if there was time.


    88
      We also discuss the FBI’s lack of policies and procedures for information sharing in
our December 2003 OIG audit report, “The Federal Bureau of Investigation’s Efforts to
Improve the sharing of Intelligence and Other Information” (December 2003) at 19-20.



                                            90
       By contrast, according to the CIA personnel, the dissemination of
intelligence information requires full-time personnel trained solely for that
purpose. In the CIA, dissemination of intelligence information is handled by
“reports officers” who are professional employees trained in analysis and
information collection and dissemination.
      It also was clear in our review of the Phoenix EC that the FBI’s
procedures for disseminating information internally were cumbersome. At the
FBI, many layers of review were required to distribute an EC to multiple field
offices. Disseminating an EC to all FBI field offices required approval from
several supervisors and managers, including the FBI Director. Several
witnesses stated that the review and approval process normally took several
weeks to complete. The CIA employees detailed to the FBI to improve the
analytical program who we interviewed told the OIG that they found the
process for completing an EC was “difficult” and “hard.”
       We believe that the Phoenix EC should have been shared with the
Intelligence Community or parts of the Intelligence Community for their input
and analysis. While Williams had advanced only a theory, and there needed to
be more analysis of the recommendations before they were adopted, the EC
should have been presented to others in the FBI and the Intelligence
Community for their information and analyses. The fact that it was not
disseminated reflected the longstanding problem within the FBI of information
sharing being ad hoc and piecemeal. Rather than relying on the judgment of
IOSs about what information should be disseminated as they juggle their other
job duties, the FBI should have a system in place to guide, identify, and
prioritize the kinds of information that need to be shared.

         5.   General complaints about the difficulties of working in ITOS
      We also heard consistently from witnesses in ITOS that working there
before September 11 was extremely chaotic and difficult. They complained
that all aspects of their jobs – from putting FISA packages together to
disseminating intelligence to sending out ECs to the field – were hampered by
the lack of resources and poor technology.
      IOSs, agents, and managers uniformly told the OIG that IOSs did not
have sufficient time to handle the workload in ITOS, and that because of the
lack of resources in ITOS and the demands of operational matters in the


                                      91
section, they worked extremely long hours on a regular basis, including nights
and weekends. They described being overwhelmed with work, including
intelligence information that needed to be disseminated. For example, they
said that hundreds of leads could be generated by any one case. They stated
that the demands of a particular case or a particular threat sometimes consumed
all of their time and attention for several days or even weeks. As previously
discussed, they were operating with a “triage” approach to their workload in
which they dealt with crises or priority problems as they arose. We found that
as a result, issues that they considered to be non-priority matters, such as the
Phoenix EC, often were placed on the backburner.
       FBI and CIA witnesses also uniformly complained that the FBI’s
computer system – ACS – impeded the flow of information. As we have
discussed in several other OIG reports, ACS is a very cumbersome and non-
user-friendly system that discourages its use. 89 To disseminate information
within the FBI was not simply a matter of forwarding an electronic document
in a point and click e-mail environment. Rather, an IOS would have to prepare
an EC, which required accessing several different screens in ACS to complete
and then upload the EC. 90 In addition, witnesses complained that ACS
especially hampered the flow of information because it was not a system
designed to “push” information out to the user. Instead, the user had to know
that information existed in order to find it. As discussed above, this resulted in
the Phoenix EC not being reviewed by the appropriate individuals, even when
their names were on the attention line.




    89
       See, e.g., OIG reports entitled, “The Federal Bureau of Investigation’s
Implementation of Information Technology Recommendations,” (September 2003); “FBI’s
Management of Information Technology Investments” (December 2002); “An Investigation
of the Belated Production of Documents in the Oklahoma City Bombing Case” (March
2002); and “The Handling of FBI Intelligence Information Related to the Justice
Department’s Campaign Finance Investigation” (July 1999).
    90
       Also, as stated above, ECs that were addressed to all field offices required several
layers of management approval, which also slowed down the process.



                                              92
    B.   Individual performance
     We now turn to the actions of the individuals who were involved with the
Phoenix EC. While the systemic problems hampered FBI employees in
handling information such as the Phoenix EC, and explained to some extent the
reasons that FBI employees did not adequately respond to it, these systemic
problems do not explain all the deficiencies we found in the handling of the
Phoenix EC. While we do not believe that anyone involved with the Phoenix
EC at FBI Headquarters committed misconduct, we believe that some of them
made errors in judgment with respect to some of their actions on the Phoenix
EC.

         1.   Kenneth Williams
      First, we believe that Williams should be commended for his initiative
and for his attempts to apply broad analytical thinking to his casework. He
prepared the Phoenix EC based on his experience, intuition, and expertise, and
he sought assistance through the proper channels at FBI Headquarters in
pursuing his theory. It was FBI Headquarters’ responsibility – not a field
office’s responsibility – to decide what strategic analysis was needed to address
the issues Williams raised and to ensure that appropriate attention was directed
to the analysis of those issues. Williams deserves praise for, in the midst of
handling cases in the field, discerning a pattern that he thought warranted
review and seeking to bring that to the attention of others in the FBI.

         2.   FBI Headquarters

              a.   Jane
     Jane’s decision not to refer the Phoenix EC to the ISD and instead to
conduct the necessary research herself did not violate any FBI policies and
procedures at the time. Leads could be assigned and handled without
supervisory input, and much was left to IOSs’ discretion and judgment about
how assignments were handled and prioritized.
      However, we question Jane’s decision not to refer the Phoenix EC to the
ISD for analysis. While the FBI’s strategic analytical capabilities were
extremely limited, as we have described above in detail, and no IRS was
specifically assigned to Bin Laden matters, Jane could have, and should have,
referred the Phoenix EC to the ISD for analysis. By all accounts, Jane was

                                       93
hard working and conscientious. But the press of other work prevented her
from addressing the Phoenix EC sufficiently. While she said that she did not
think that the ISD could do what was necessary to analyze the Phoenix EC
because no IRS was specifically assigned to Bin Laden matters, she could have
raised the problem to her supervisor’s attention in an attempt to have resources
assigned to analyze the Phoenix EC. Instead, she kept the Phoenix EC to
herself, hoping to get to it when time allowed. But she did not have time for it.
We believe that, even if she intended to conduct research on it when time
permitted, she should have provided it to members of the Intelligence
Community for their input on the theories and recommendations it advanced.

              b.   Ellen
      Ellen recognized that the Phoenix EC pertained more to the UBLU than
the RFU, and she appropriately discussed it with Jane and had the matter
reassigned to her. She also noted in the disposition field of ACS how the lead
was being handled. Ellen closed the lead, but rather than closing the lead, she
should have reassigned the lead to Jane. While this was not inconsistent with
how leads were handled in ITOS, given the pressure to close leads in the
system, it misrepresented the status of the lead since the necessary research had
not yet been completed.

              c.   Rob
      We believe that Jane’s supervisor – Rob – should have recognized that
the requests in the Phoenix EC were not typical requests for operational
support in the field and should have directed the matter to the ISD. Although
we recognize that the FBI left much to the discretion and judgment of IOSs
about how they handled their work, it was Rob’s responsibility as a supervisor
to ensure that Jane was handling requests appropriately. Jane briefly
mentioned the Phoenix EC to Rob, but said he did not review it, and we do not
believe he sought to ensure that it received adequate attention. We believe that
Rob should have been more actively involved in Jane’s handling of the
Phoenix EC. If he had decided that resources did not exist to address the EC
for several months, we believe that he should have brought the matter to the
attention of his section chief.




                                       94
         3.   Lynn
       Jane sent the EC to Lynn, the IRS who works counterterrorism matters in
a field office that had had an investigation of Subject No. 2, with a note that
read, “I thought it would be interesting to you considering some of the stuff
you were coming up with in [your field office]. Let me know if anything
strikes you.” Jane did not call Lynn to discuss the Phoenix EC prior to sending
Lynn the e-mail, and Lynn was not assigned a lead with respect to the Phoenix
EC. Lynn read the Phoenix EC, but did not respond to Jane’s e-mail, and Jane
did not otherwise contact her about the Phoenix EC.
      As discussed above, Lynn had several years earlier worked on an
investigation in which Subject No. 2 had been central, and Subject No. 2’s
name had resurfaced in June of 2001 when two individuals were detained in
Bahrain who admitted to being al Qaeda operatives and possessed a passport
containing the same last name as Subject No. 2 and a previous address of
Subject No. 2. Lynn told the OIG that after Subject No. 2’s name resurfaced,
at the request of Jane she researched their associates from when they had lived
nearby. Lynn told the OIG that she believed Jane had sent her the Phoenix EC
because Subject No. 2 was mentioned in the EC. Lynn explained that because
the information in the EC about Subject No. 2 did not impact what she was
working on and because she was not aware of any information that supported
Williams’ theory, she did not respond to the e-mail.
       Lynn was not required to respond to the e-mail by any formal FBI policy.
Her actions were consistent with others in the FBI, who did not address an
issue unless a lead was assigned to them. But we believe that Jane’s request
for Lynn to let her know if anything struck her warranted some response, even
if the response was that Lynn had nothing to support the theory espoused in the
Phoenix EC. Instead, Lynn did nothing in response to the e-mail. A response
from Lynn may have caused Jane to take some other step, to seek further input
from someone else, or to alert Phoenix of the status. Instead, Lynn did not
communicate with Jane, and the Phoenix EC languished.

         4.   Jay
     Jay, an agent on the Bin Laden squad in the FBI’s New York Field
Office, received and read the Phoenix EC. He told the OIG that he was not
aware of any information that supported the theory in the EC, and he therefore


                                      95
did not respond to it, either in writing or by contacting anyone in the Phoenix
office. He also stated that he would have “taken issue” with the conclusions if
he had responded. Jay was not required to respond to the Phoenix EC, and he
did not violate any FBI policies and procedures by not responding.
      Yet, although Jay was not required to respond to the lead set for the New
York Field Office in the Phoenix EC, Williams had asked for analysis and
comments on his proposal in the text of the EC. Since Jay told us he felt
strongly that the theory in the Phoenix EC was not supported by the facts, we
believe he should have contacted Williams or someone in FBI Headquarters to
discuss the EC to provide his view, given the expertise of the New York office
on issues involving Bin Laden. But given the disorganization and convoluted
way that leads were assigned, and the prevailing practice not to respond to
leads that were not specifically assigned to an agent, it is not surprising that Jay
did not respond.

          5.   FBI management
      Finally, we believe it important to state that the failings in this case go
well beyond any failings of those individuals who came in contact with the
Phoenix EC. In our view, the failings were caused in much larger part by the
FBI’s inadequate and inefficient system for analyzing intelligence information,
and the lack of attention paid by many levels of FBI managers to strategic
analysis. This was the responsibility of many FBI managers and employees,
from the top down, over many years. We believe that the FBI’s lack of focus
on strategic analysis and its failure to provide sufficient resources and priority
to analysis were problems attributable to the FBI and many FBI senior
managers. While some of the individuals who handled the Phoenix EC did not
do all they should have to address it in a timely way, the larger and more
important failure was the way the FBI handled intelligence analysis for many
years before the September 11 attacks.

     C. Other pieces of intelligence concerning airplanes as weapons
      We also reviewed allegations that the FBI had other pieces of intelligence
information prior to September 11 that indicated connections between persons
of interest to the FBI and airplanes or flight schools.




                                        96
      The FBI provided to the OIG documents relating to possible terrorists
with connections to airplanes and flight schools that the FBI gathered in
response to requests from the Joint Inquiry Committee Staff. The FBI
conducted searches in its computer systems for references to “flight schools,”
“airplanes,” “hijackings” and other related terms in an attempt to collect
information that the Joint Inquiry Committee Staff had indicated it was
interested in reviewing but had not specifically requested. The FBI collected
the documents retrieved in its electronic searches and provided them to the
Joint Inquiry Committee Staff and also to the OIG.
      We reviewed the information provided by the FBI that referenced a
connection between airplanes or flight schools and persons of interest to the
FBI. The information was from as early as 1983, although most of it was from
1998 and 1999. Below we briefly describe four of the pieces of information
that are representative of the kinds of information contained in FBI files about
airplanes and flight schools at the time the Phoenix EC was received at FBI
Headquarters:
     • The FBI received an intelligence report in mid-1999 stating that the
         leadership of a terrorist organization other than Al Qaeda had met and
         planned to use students in the United States to gather intelligence on
         infrastructure facilities and public places frequented by Jews. It was
         also reported that students also would be selected to participate in
         terrorist training camps and would be encouraged to attempt to obtain
         private pilot licenses. The intelligence report noted that it was unclear
         why the students would be asked to obtain pilot licenses. In addition, it
         was reported that these students would be instructed to master at least
         two or more different aircraft. It was reported further that the
         leadership of the terrorist organization viewed this requirement as
         being “particularly important” and were believed to have approved an
         open-ended amount of funding to ensure its success. 91
     • In August 1998, an intelligence agency advised the FBI’s New York
         Division of an alleged plan by unidentified Arabs to fly an explosive


    91
       The FBI later said that in 2002, in connection with the JICI Review, it researched this
issue and concluded that the information reported was likely a fabrication.



                                             97
        laden aircraft from Libya into the World Trade Center. The New York
        Division sent out leads in an attempt to obtain more information about
        the source of the reporting.
    • On May 18, 1998, a Special Agent on the FBI’s Oklahoma City
        Division’s counterterrorism squad prepared an EC documenting his
        contact with an agent from that Division’s surveillance squad, who also
        was the Division’s chief pilot. In the EC, the agent noted that the
        Division pilot had observed “large numbers of Middle Eastern males
        receiving flight training at Oklahoma airports in recent months.” The
        agent also reported that the pilot speculated that light planes would be
        an ideal means of spreading chemical or biological agents.
    • In January 1995, Philippine authorities responded to a small fire and
        several explosions in an apartment in Manila. Inside the apartment,
        authorities discovered bomb-making equipment and terrorist literature.
        The resulting investigation revealed a plot to place explosive devices in
        12 American passenger aircraft. As a result of the FBI’s investigation
        into this matter, Abdul Murad, Wali Shah, and Ramzi Yousef were
        subsequently indicted and convicted in the United States for their
        involvement in the conspiracy. Yousef later was convicted on
        November 13, 1997, for his involvement in the bombing of the World
        Trade Center on February 23, 1993.
        During investigative interviews, Murad described general
        conversations with Yousef in which they discussed the potential use of
        aircraft to commit terrorist acts. According to Murad, he discussed
        with Yousef the ease with which a pilot could conduct a suicide attack
        by crashing an explosive-laden aircraft into a building. Murad
        mentioned CIA Headquarters as a potential target. Murad contended in
        investigative interviews that there was no specific planning in relation
        to any of these acts. Murad also described other general conversations
        with Yousef concerning potential non-aircraft related terrorist acts,
        such as bombing a nuclear facility, utilizing poison gas, and bombing
        the World Trade Center a second time.
      As discussed above, the FBI conducted little strategic analysis before
September 11, and it never attempted to connect any of these disparate pieces
of information. For this reason, these pieces of information and all of the other


                                       98
information in the FBI’s possession that might have been used to analyze the
use of airplanes and civil aviation for terrorist purposes was never considered
systematically or analytically.

    D. Conclusion
       In sum, our examination of the FBI’s handling of the Phoenix EC found
that the individuals who handled it did not violate FBI policies and practices at
the time, but they did not do all they could have, and should have, to respond to
it or the recommendations in it. They should have sought input from others in
the FBI, assured that the EC received the necessary analysis, and also sought
input from the Intelligence Community about the theories and suggestions
contained in it.
       But we believe that their actions were not surprising, given that the
policies and practices under which they operated were extremely flawed. We
found that IOSs were not properly managed and that supervisors should have
been more actively involved in the work assigned to IOSs. In addition, as an
institution, the FBI was focused on its operational priorities at the expense of
conducting strategic analysis. Furthermore, the FBI lacked a systematic
approach to information sharing and lacked adequate tools to facilitate such
information sharing both within and outside the FBI. As a result of these
systemic failures, the FBI did not give the Phoenix EC the consideration that it
deserved.
      We cannot know for certain what the FBI would have concluded prior to
September 11 if the FBI had applied strategic analysis to the theory posed by
the Phoenix EC or what information may have been uncovered in support of
the theory if the Phoenix EC had been shared with the Intelligence Community
or within the FBI. We also cannot know what role, if any, the pieces of other
information described above would have played in the analysis of this question.
What we do know is that the FBI was not adequately analyzing information for
the purpose of drawing conclusions and making predictions. This was a
significant intelligence failure, which hindered the chances of the FBI being
able to detect and prevent the September 11 attacks.




                                       99
100
                          CHAPTER FOUR
                    THE FBI’S INVESTIGATION OF
                      ZACARIAS MOUSSAOUI
I.   Introduction
       This chapter examines the FBI’s investigation of Zacarias Moussaoui. In
August 2001, Moussaoui enrolled in flight training lessons at a school in
Minneapolis, Minnesota. On August 15, 2001, the flight school reported its
suspicions about Moussaoui to the FBI, including that he only wanted to learn
how to take off and land the airplane, that he had no background in aviation,
and that he had paid in cash for the course. The FBI interviewed Moussaoui’s
flight instructor, his roommate, and then Moussaoui. The INS and the FBI
detained Moussaoui for a violation of his immigration status and seized his
belongings, including a computer and personal papers.
      The Minneapolis FBI opened an investigation on Moussaoui, believing
that he was seeking flight training to commit a terrorist act. Over the next
several weeks, the Minneapolis FBI and FBI Headquarters had many
discussions – and disputes – about the investigation. Minneapolis wanted to
obtain a warrant to search Moussaoui’s computer and other belongings that
were seized at the time of Moussaoui’s arrest, either a criminal warrant or
Foreign Intelligence Surveillance Act (FISA) warrant. The Minnesota FBI and
FBI Headquarters differed as to whether a warrant could be obtained and what
the evidence in the Moussaoui case suggested. FBI Headquarters did not
believe sufficient grounds existed for a criminal warrant, and it also concluded
that a FISA warrant could not be obtained because it believed Moussaoui could
not be connected to a foreign power as required under FISA. The Minneapolis
FBI disagreed and became increasingly frustrated with the responses and
guidance it was receiving from FBI Headquarters.
      In late August 2001, after FBI Headquarters concluded that it could not
obtain a FISA warrant, the Minneapolis FBI began plans to deport Moussaoui
to France, which had issued Moussaoui’s passport. They planned to ask the
French authorities to search his belongings if he was deported to France.
However, the September 11 terrorist attacks occurred while the FBI was in the
process of finalizing the deportation plans. On September 11, after the attacks,
the FBI obtained a criminal warrant to search Moussaoui’s possessions. On


                                      101
December 11, 2001, Moussaoui was charged in an indictment alleging that he
was a co-conspirator in the September 11 attacks. He currently is awaiting
trial.
       On May 21, 2002, Coleen Rowley, the Minneapolis FBI’s Chief Division
Counsel (CDC), sent a letter to FBI Director Mueller in which she criticized
FBI Headquarters for the way it had handled the Moussaoui case. Among
other things, her letter disputed the way the FBI was describing its Moussaoui
investigation, and she asserted that FBI Headquarters had prevented the
Minneapolis FBI from seeking a criminal search warrant. In addition, she
alleged that FBI Headquarters inappropriately failed to seek a FISA warrant
even though probable cause for the warrant was “clear.” She also alleged that
FBI Headquarters had intentionally raised “roadblocks” and “undermined” the
Minneapolis FBI’s “desperate” efforts to obtain a FISA warrant. She added
that the Phoenix EC had not been provided to the Minneapolis FBI, and that
the Minneapolis FBI’s assessment of Moussaoui as a potential threat had not
been shared with other intelligence and law enforcement authorities.
     Upon receipt of Rowley’s letter, Director Mueller referred it to the OIG
and asked the OIG to conduct a review of the issues raised in the letter, the
Phoenix EC, and other matters related to the FBI’s handling of intelligence
information that was potentially related to the September 11 attacks.
      In this chapter, we describe in detail the facts regarding the FBI’s
investigation of Moussaoui and the interactions between the Minneapolis FBI
and FBI Headquarters on the request to obtain a warrant to search Moussaoui’s
belongings. 92 We then provide our analysis of these actions. Our analysis
discusses systemic problems that this case revealed, and it also assesses the



    92
       While there are some notes and e-mails relating to the conversations that took place
between FBI Headquarters and the Minneapolis FBI, and within FBI Headquarters, about
the Moussaoui investigation, many conversations were not documented. Witnesses could
not recall the exact content of some of the conversations, the number of conversations,
whether specific topics were discussed, or the dates of conversations. The following
narrative is our best reconstruction of those conversations and events, when they occurred,
and what was said, based on the documentary evidence and the recollections of the
participants.



                                            102
performance of the FBI offices and employees who were involved in the
Moussaoui investigation.
     We show a timeline of the FBI’s investigation of Moussaoui on the next
page of the report.

II. Statement of facts related to the FBI’s Moussaoui investigation

     A. Moussaoui’s background
      Zacarias Moussaoui was born in France on May 30, 1968, and is of
Moroccan descent. Prior to 2001, he lived in the United Kingdom. On
February 23, 2001, he legally entered the United States in Chicago, Illinois,
using a French passport. He entered under the Visa Waiver Program, which
allows citizens of 27 countries, including France, to enter the United States
without a visa for stays of up to 90 days. 93 Moussaoui’s entry was therefore
valid until May 22, 2001.
       In late February 2001 Moussaoui enrolled in a beginner pilot course at
the Airman Flight School in Norman, Oklahoma. He did not complete the
training and stopped taking lessons there in late May 2001. However, he
remained in the United States after dropping out of the course and overstayed
his allowed length of stay.
       On May 23, 2001, Moussaoui e-mailed the Pan Am International Flight
Academy, a private aviation school based in Miami, Florida, which had several
campuses around the country. On August 9, 2001, Moussaoui enrolled in a
flight simulator training course at a Pan Am facility near Minneapolis,
Minnesota. Pan Am’s Minneapolis facility used flight simulators only, and the
training there usually consisted of initial training for newly hired airline pilots
or refresher training for active pilots. Moussaoui’s flight simulator course was
part of a comprehensive training program designed to provide instruction to
licensed pilots on how to fly commercial jets.




    93
      For a description of the Visa Waiver Program, see the OIG report entitled “Follow-up
Report on the Visa Waiver Program” (December 2001).



                                           103
                                                    The FBI’s Moussaoui Investigation

                        8/16
                 After being taken into
                 custody, Moussaoui
                 is interviewed.
                 Minneapolis FBI
                 contacts London
                 and Paris Legat offices                          8/22
                 regarding foreign                          FBI HQ employees
                 information                   8/20         Martin & Robin
                 on Moussaoui.           Minneapolis FBI    consult with
                                         sends request to   NSLU attorney
             8/15                        FBI HQ to seek     Howard.
      Pan Am contacts                    permission to                                     8/27
      FBI regarding                      contact USAO                                Martin & Robin
      Moussaoui; FBI                     regarding                                   consult with NSLU
      opens intelligence                 Moussaoui.                      8/23        attorney Susan.
      investigation.
                                                                                                                                  9/4                            9/11
                                   8/17                         Martin & Robin                           8/30          FBI disseminates                   Terrorists attack
                            Al-Attas is                         consult with                      FBI plans to         teletype to                        the United States.
                            re-interviewed                      NSLU attorney Tim.                deport Moussaoui     Intelligence Community
                            and then arrested.                                                    to France.           regarding Moussaoui.




                8/15 8/16 8/17 8/18 8/19 8/20 8/21 8/22 8/23 8/24 8/25 8/26 8/27 8/28 8/29 8/30 8/31 9/1             9/2   9/3   9/4    9/5   9/6   9/7    9/8   9/9 9/10 9/11 9/12




104
       August 2001                                                                                                                                                                  September 2001
                                          8/18                                                                                                                            9/12
                                   Minneapolis                               8/25                   8/28                                                            Information
               8/16                case agent Henry                 Minneapolis submits       Martin & Robin                                                        regarding
      INS arrests Moussaoui;       discusses pursuing               LHM for FISA              consult with NSLU                                                     Moussaoui
      Computer and other           criminal case                    request to FBI HQ.        chief Bowman.                                                         received
      possessions                  with FBI HQ                                                                                                                      from British.
      held at INS; FBI             employee Frasca
      interviews Al-Attas.         And CDC Rowley.             8/22
                                                        French information
                      8/17                              on Moussaoui
                FBI interviews                          is received.
                Moussaoui again;
                deportation
                order obtained.
     B.    The FBI receives information about Moussaoui
       Moussaoui had completed two days of classroom instruction and one
flight simulator training session to fly a 747-400 airplane (out of a scheduled
four or five sessions) when a manager at the Minneapolis Pan Am flight school
contacted the FBI about him. On August 15, 2001, the Pan Am manager called
the FBI’s Minneapolis Field Office to report that he and his co-workers were
training a student, Moussaoui, who they considered suspicious.
      According to the Pan Am manager, they considered it odd that
Moussaoui said that all he wanted to learn was how to take off and land the
plane, giving the reason that it was “an ego boosting thing.” 94 In addition, the
FBI learned that Moussaoui had no background in aviation and did not have a
private pilot’s license. 95 It was also unusual that Moussaoui had paid $8,000 –
$9,000 in cash for the course. The Pan Am manager reported that Moussaoui
appeared to be of Middle Eastern descent and that he had said he grew up in
France. The manager said that Moussaoui had completed two days of
classroom instruction and was scheduled for four or five sessions in the flight
simulator.
      The FBI agent who took the telephone call was assigned to the
Minneapolis FBI’s international and domestic terrorism squad. Immediately
following the telephone call, the agent discussed the call with the Acting
Supervisory Special Agent (SSA) on the Minneapolis FBI’s international and
domestic terrorism squad, who we call “Gary,” and another agent on the squad
who handled international terrorism investigations. We call this agent
“Henry.”
     Gary had become the Acting SSA of the terrorism squad in late July
2001. Prior to being named the acting supervisor, during his five years as an
FBI special agent Gary had worked for two years on bank robberies and other


    94
       Media reports later incorrectly reported that Moussaoui had stated that he did not
want to learn to take off or land a plane. In fact, according to the FBI, the Pan Am manager
reported that Moussaoui only wanted to learn to take off and land the plane.
    95
       Although Pan Am’s typical students were commercial pilots receiving initial or
refresher training, this was not a prerequisite to taking the training course.



                                            105
violent crime investigations, two years in the unit responsible for investigating
fugitives, and one year as the coordinator of the FBI’s Joint Terrorism Task
Force (JTTF) for the Minneapolis Field Office. 96 Gary also had served as the
relief supervisor for the international and domestic terrorism squad. However,
he had no field experience in terrorism matters and no experience in working
with FISA.
      Henry had joined the FBI as a special agent in January 1999 and had
been assigned to work on international terrorism matters since his arrival at the
Minneapolis office in the spring of 1999. In August 2001, Henry and two other
agents on the squad handled international terrorism and foreign
counterintelligence investigations. By virtue of his assignment on the
counterterrorism squad, Henry also worked on the local JTTF. Prior to joining
the FBI, Henry served as a naval intelligence officer for almost ten years. In
the Navy, he specialized in aviation-related intelligence issues, including a
detail to the Canadian Navy and Air Force, and he was also an intelligence
officer on staff at the navy fighter weapon school commonly referred to as
“Top Gun.” Henry said that he had a private pilot’s license and that he flew for
the FBI as a collateral duty. Henry described himself as having a “working
knowledge” of aviation.
      When Gary was named the Acting SSA of the squad in late July 2001, he
was assigned to report to one of two ASACs in the Minneapolis Field Office
who we call “Roy.” On August 3, 2001, Roy was named the Acting SAC of
the office and remained in that position until December 2001. Roy had no
previous experience in terrorism matters. Gary continued to report directly to
Roy even after he was named Acting SAC.
      In July 2001, an SSA who we call “Charles” became an ASAC in the
Minneapolis FBI office. For three years, he had been the supervisor of the
Minneapolis international and domestic terrorism squad. Prior to becoming the
supervisor, Charles had been an SSA at FBI Headquarters in the domestic
terrorism section, and he had worked both foreign counterintelligence and



    96
      JTTFs combine investigators from the FBI and various federal, state, and local
agencies in FBI field offices throughout the country to combat terrorism.



                                           106
international terrorism matters in the Los Angeles Field Office for six years
before his assignment to FBI Headquarters.
      When Charles became an ASAC in Minneapolis in July 2001, he was no
longer assigned to oversee the counterterrorism programs; that responsibility
was given to Roy. According to Charles, this was done so that Charles would
be seen as an ASAC rather than as the supervisor of the office’s terrorism
programs. When Roy became the Acting SAC, he maintained responsibility
for the counterterrorism and foreign counterintelligence programs. In August
2001, when the Moussaoui matter was reported to the Minneapolis office,
Charles was at a management training class at the FBI Academy in Quantico,
Virginia.

    C. The Minneapolis FBI’s investigation

         1.   The Minneapolis FBI opens an intelligence investigation
      Henry told the OIG that within a half hour of receiving the telephone call
from the Pan Am manager, the Minneapolis FBI filled out the paperwork to
open a full field intelligence investigation of Moussaoui. According to Henry,
the case was opened as an intelligence matter and not a criminal matter
because, based on the telephone call, the FBI did not have information
indicating criminal predication, which Henry said in this case would have been
“something in furtherance of terrorism.” Henry said that, as an initial matter,
the case was a “classic” intelligence investigation.
        Gary assigned the case to Henry and not the agent who had taken the call
from Pan Am, because Henry had international terrorism experience and the
other agent did not. Henry told the OIG that based on his own knowledge of
aviation, he was concerned about Moussaoui. He said he questioned whether it
was normal for a person with no previous experience in aviation to be training
to fly a 747-400 commercial airplane. In addition, Moussaoui’s lack of
aviation experience made Henry suspicious, because Henry knew that the 747-
400 airplane had become very automated since the 1970s, could be flown by as
little as two people, and had user-friendly computer screens rather than the
many dials and gauges that were in the earlier versions of the airplane. Henry
said that because of these suspicions, he asked the agent who had initially taken
the call to call the Pan Am manager back and ask some follow-up questions,
such as how automated a 747-400 airplane was.


                                      107
         2.   Initial checks for information
     Henry also ran name searches in ACS and learned that the name
“Moussaoui” was predominantly Lebanese. Henry did not find any
information in ACS about Zacarias Moussaoui. Henry learned that the last
name “Moussaoui,” which did appear in ACS records in several places, was
most often attached to individuals from Lebanon and the terrorist organization
Hizbollah.
      Henry contacted an SSA in FBI Headquarters who he knew and who we
call “Jack.” He worked in the unit in ITOS that handled cases dealing with
Hizbollah. In addition, Gary notified Jack that the Minneapolis FBI had
opened a full field intelligence investigation on Moussaoui.
      Henry obtained from Pan Am Moussaoui’s passport information and
learned that Moussaoui had entered the U.S. on a French passport from
London, England. Henry sent an e-mail on August 15 to the FBI’s Paris Legat
requesting any available information on Moussaoui from the French
authorities. Henry also requested similar information from the FBI’s London
Legat.
      Also on August 15, at the request of the FBI an INS agent assigned to the
Minneapolis JTTF ascertained from INS records that Moussaoui had stayed
beyond the 90-day time limit allowed by his entry into the United States under
the Visa Waiver Program. The INS agent reported to Henry that Moussaoui
therefore was subject to arrest on immigration charges for overstaying his
permitted time of entry.

         3.   The investigation continues
      On August 16, Henry and two INS agents who worked on the JTTF
began conducting interviews and collecting information about Moussaoui. The
FBI interviewed Moussaoui’s flight instructor at Pan Am, an experienced pilot
and flight instructor for several years. He characterized Moussaoui as unlike
any other student with whom he had ever worked. He told the agents that
Moussaoui seemed to have a genuine interest in aviation but Moussaoui had no
background in any type of sophisticated aircraft systems and had only
approximately 50 hours of flight training in light civil aircraft that did not
resemble a 747-400 plane. The agents also learned that Moussaoui had stated
that he was attending flight school to go on a “joy ride” and that he claimed


                                     108
that he would “love” to fly a simulated flight from London’s Heathrow Airport
to New York’s John F. Kennedy Airport in one of his scheduled simulator
sessions.
       According to the flight instructor, Moussaoui also showed a particular
interest in the “mode control panel” of the flight simulator, which is the
machinery that enables computerized flying. Moussaoui had demonstrated that
he already knew how to use the mode control panel during the one simulator
session that he had completed. Henry told the OIG that he found this
information ominous because of Moussaoui’s statement that he was attending
flight school to go on a “joy ride.” This concerned Henry because, based on
his experience as a pilot, he knew that a joy ride consists of actually flying the
plane, not allowing the computer to do the flying.
      The flight instructor also reported that although he had initially raised the
subject, Moussaoui had seemed extremely interested in the aircraft doors and
their operation and that Moussaoui seemed surprised to learn that the doors
could not be opened during flight because of the air pressurization in the cabin.
      The flight instructor described Moussaoui as amiable but also “extremely
reticent” to discuss his background. The flight instructor said that in a
conversation in which he told Moussaoui about a well-known aviation accident
involving a group of Muslims, the flight instructor asked Moussaoui whether
he was Muslim. After reacting with surprise and caution, Moussaoui stated
that he was not.
      The flight instructor provided the agents with the name of the hotel where
Moussaoui was staying. The flight instructor said that he had seen Moussaoui
in the company of another Middle Eastern male and gave a description of their
vehicle.

          4.   The decision to arrest Moussaoui
       On August 16, the agents learned that Moussaoui’s next scheduled
training session was that evening. Henry asked the INS agents to arrest
Moussaoui in order to prevent him from receiving any further training. Henry
said that he was concerned that if Moussaoui completed the training and was
later arrested and deported, he would be able to use his training in the future.
Henry said that he wanted to arrest Moussaoui because “there were enough
indications that [Moussaoui’s behavior] was sinister.” Henry also noted that


                                       109
Moussaoui had paid for his training in cash, which Henry described as
“unusual,” since most of the students are pilots whose training is paid for by
the airline which employs them. In addition, Henry said that the fact that
Moussaoui was not a typical student, since he was not a new or experienced
pilot and did not even have a pilot’s license, was another factor that made
Henry suspicious of him. These characteristics were inconsistent with students
the Pan Am representatives had dealt with before.
      Henry spoke on the telephone with SSA Jack in FBI Headquarters about
the decision to arrest Moussaoui. According to Henry, Jack suggested that it
would be better to conduct surveillance of Moussaoui and his companion rather
than to immediately arrest Moussaoui. This surveillance would allow Henry to
collect more information about Moussaoui’s connections to others and his
intentions. Henry told Jack, however, that the decision already had been made
to arrest Moussaoui because the Minneapolis FBI was concerned about him
receiving any more flight training.
       Jack told the OIG that, in most cases, conducting surveillance and asking
the CIA to check its records on information already collected, such as the hotel
records, is advisable because it results in obtaining additional information about
the subject. However, Jack said that he also understood the Minneapolis FBI’s
position that it wanted to arrest Moussaoui immediately to prevent him from
receiving additional training.
      After discussing the issue with Jack, Henry called his supervisor, Gary, to
discuss Jack’s position that Moussaoui should be put under surveillance. Gary
told the OIG that he also believed that it was necessary to arrest Moussaoui to
prevent him from receiving further training. In addition, Gary believed that it
was appropriate for the field office to decide to make an arrest, even if FBI
Headquarters disagreed, and he advised Henry to go ahead with the arrest. 97



    97
       We recognize that there were good arguments to be made for either arresting
Moussaoui or for conducting additional surveillance on him. For example, if the agents had
waited to arrest Moussaoui and conducted surveillance, they may have uncovered more
information about his associates and his plans. On the other hand, there are serious risks
involved in trying to surveil an individual – especially a transient one like Moussaoui – who
could slip away and be lost altogether. Further, as Henry noted, if Moussaoui were allowed
(continued)

                                            110
           5.    Moussaoui’s arrest
      At approximately 5:00 p.m. on August 16, Henry and three other agents,
two of who were INS agents, went to Moussaoui’s hotel to arrest him. They
stopped Moussaoui and another man as they were getting into a car outside of
their hotel. Henry and one of the INS agents questioned Moussaoui about his
immigration status. Moussaoui claimed that he was in the country legally and
that he had a paper in his hotel room that would prove this.
      In response to questions about his immigration status, Moussaoui
presented his passport case to the agents. The passport case contained a bank
statement indicating that Moussaoui had deposited $32,000 in cash upon
arriving in the United States. The passport contained a Pakistani visa
indicating that Moussaoui had been in Pakistan for two months – December 9,
2000, to February 7, 2001.
      The agents accompanied Moussaoui into his hotel room where
Moussaoui produced an INS document. The document indicated that
Moussaoui had filed with the INS an application for an extension of stay, but
there was no evidence that any extension had been granted. 98
       Moussaoui’s hotel room was scattered with papers. Henry asked if the
agents could search the room to see if they could find additional documents
that would indicate Moussaoui was in the country legally. Moussaoui refused
this request and refused to allow the agents to search the room or his
possessions.
      Because it was clear at that point that Moussaoui was in the country
illegally, the INS agents arrested him. Incident to the arrest, they searched
Moussaoui and the bag he had been carrying. They found a knife in his pocket,
cash in his money belt, and flight-training materials from Pan Am in the bag.

(continued)
to continue his training and later was deported without any criminal charges, he would have
achieved his goal of obtaining flight training that could be used at a later time.
    98
       In certain circumstances non-immigrant visitors are permitted an extension to stay
beyond the initial period allowed by the INS upon entry into the country. Pursuant to the
requirements of the Visa Waiver Program, however, Moussaoui would not have been
eligible for such an extension.



                                            111
      The other man with Moussaoui at the time of his arrest was Hussein Ali
Hassan Al-Attas (Al-Attas), the owner of the car. The agents detained Al-
Attas, who consented to a search of his car. The agents found in the car
another knife, which Moussaoui admitted was his.
      Henry and one of the INS agents remained at the hotel to conduct an
interview of Al-Attas in the hotel room. The other two agents took Moussaoui
into custody and transported him to the INS District Office for processing.

            6.    Search of hotel room and Al-Attas’ possessions
      According to FBI documents, prior to interviewing Al-Attas the agents
asked for and received his permission to search some bags that were within his
reach in the hotel room. To check for weapons, the agents opened several bags
that Al-Attas told them belonged to Moussaoui. The agents noticed in the bags
a laptop computer, spiral notebooks, numerous aviation study materials, a
cellular telephone, and a small “walkie-talkie” radio. The agents did not search
these items further.
     With the assistance of Al-Attas, the agents collected Moussaoui’s
belongings, including his bags and papers, from the hotel. Moussaoui
subsequently gave verbal permission for the FBI to store his belongings at the
INS District Office, but he refused to allow his belongings to be searched.
      At the hotel, Al-Attas gave the agents permission to search the room and
Al-Attas’ belongings in the room. From the search of Al Attas’ belongings, the
agents obtained telephone numbers, personal address books, credit card and
bank records, and numerous personal documents. The agents found several
sheets of paper written in Arabic, which Al-Attas identified as his will, and a
pamphlet advising how to prepare a will. 99 In addition, the agents found a
partially completed application for a Pakistani visa, padded gloves, shin
guards, binoculars, hiking boots, Power Point 2002 computer software, and a
document indicating that Moussaoui intended to purchase a handheld Global
Positioning System receiver and rent a camcorder.



   99
        The sheets of paper identified by Al-Attas as his will were in a mailing envelope.



                                             112
          7.   Interview of Al-Attas
      Henry and an INS agent interviewed Al-Attas at the hotel. During the
interview, Al-Attas – a 21-year-old Yemeni citizen whose family was living in
Saudi Arabia – stated that he was in the United States on a student visa and had
been an undergraduate student at the University of Oklahoma for several years.
He provided documentation to the agents indicating that he had a valid student
visa that had first been issued in 1995 and that he met the requirements for
residing in the United States with the student visa.
      Al-Attas stated that approximately one month earlier, he had moved into
an apartment near the University of Oklahoma, in Norman, Oklahoma, with an
acquaintance. Unbeknownst to Al-Attas, Moussaoui had just before that
moved into the apartment with the same acquaintance. 100 Al-Attas said that he
had known Moussaoui for six months and had met him through the mosque in
Norman that Al-Attas attended regularly. He said that Moussaoui was studying
aviation in Norman at the time that they first met.
      Al-Attas said that he had accompanied Moussaoui to Minnesota as a
friend and was not enrolled in any flight school. Al-Attas also stated that he
knew Moussaoui only by the name of “Shaqil” and that Moussaoui did not
reveal his last name.
      Al-Attas described Moussaoui as an extremely religious Muslim who had
gained a reputation at the mosque for being too hard-line and outspoken.
According to the EC prepared by Henry about the interview, Al-Attas was
asked if he had ever heard Moussaoui “make a plan to kill those who harm
Muslims and in so doing become a martyr.” Al-Attas responded that he “may
have heard him do so, but that because it is not in his [Al-Attas’] own heart to
carry out acts of this nature, he claimed that he kept himself from actually
hearing and understanding.”
       The Minneapolis agents determined that Moussaoui had traveled to
Pakistan, as well as to Morocco, Saudi Arabia, and Europe. They also obtained
the first and last names of one associate of Moussaoui’s in Oklahoma and the


    100
       The acquaintance was an Indian Muslim. The FBI ran a name check in its computer
records for Ali but found no information on him.



                                         113
first name of another of Moussaoui’s associates in Oklahoma. 101 When Al-
Attas was asked to explain why he and Moussaoui had padded gloves and shin
guards, he responded that Moussaoui had purchased a set of each for them so
that they could train to protect themselves against crime in the United States.
Al-Attas also stated that Moussaoui advocated that “true Muslims must prepare
themselves to fight,” and that at Moussaoui’s urging Al-Attas had begun
martial arts training.
      Henry asked Al-Attas if he would be willing to go on jihad, which Henry
told the OIG he defined for Al-Attas as “holy war.” Al-Attas said he knew
what it meant, and he would be willing to fight, but currently he was studying.
      Al-Attas also stated that Moussaoui believed it is the highest duty of
Muslims to know of the suffering of Muslims in the lands where they are
oppressed, and because the United States is full of unbelievers Muslims should
not reside in the United States.
      In response to questions about his will, Al-Attas said that it was common
for Muslims to write their wills and that he had written his a long time ago.
Al-Attas also was asked why he was in possession of a partially completed visa
application to travel to Pakistan. He responded that he had been asked by his
family to go there to research treatments for liver cancer to assist an uncle
living in Saudi Arabia.
      Al-Attas said that he and Moussaoui planned to travel around the United
States for two weeks after Moussaoui’s training was completed. According to
Henry’s EC, Al-Attas could not explain how he would be able to start his
college classes at the end of the month if he was planning to travel with
Moussaoui.
     Al-Attas was not detained but was asked to come to the INS District
Office the next day for further questioning, which he agreed to do.
      Henry told the OIG that after the Al-Attas interview, he was
unequivocally “convinced . . . a hundred percent that Moussaoui was a bad
actor, was probably a professional Mujahedin and this wasn’t a joyride, that he

    101
       FBI records show that these two names were later checked in ACS, but no
information was found on them.



                                          114
was completely bent on use of this aircraft for destructive purposes.” Henry
also stated that he believed that Al-Attas was “telling us as much as he could
culturally” that Moussaoui was involved in a “plot.”

         8.   Interview of Moussaoui
      After interviewing Al-Attas on August 16, Henry and an INS agent
interviewed Moussaoui that same evening in detention in the INS offices near
Minneapolis. Henry told the OIG he believed that Moussaoui was
“combative” and “deceptive” throughout the interview.
      According to Henry’s later 26-page EC documenting the Minneapolis
FBI’s investigation of Moussaoui (which we discuss in detail in Section E
below), Moussaoui stated he had come to the United States to be a pilot and
had been a student at the Airman Flight School in Norman, Oklahoma. He said
that he had taken the Federal Aviation Administration (FAA) written exam to
become a pilot but had failed it. Moussaoui said the instructors in Oklahoma
told him that he was not cut out to be a pilot. He said that he was determined
to “follow his dream” of flying a “big airplane,” and for pure enjoyment he had
enrolled in the flight simulator training course at Pan Am in Minneapolis. He
said that once he completed the simulator course, he planned to return to his
efforts to obtain a pilot’s license. Moussaoui stated several times during the
interview that it was very important for him to return to finish the flight
simulator training.
      Henry reported that Moussaoui could not identify his source of income.
Moussaoui claimed to have worked as a freelance marketing researcher and at
various other business ventures, one of which involved an Indonesian
telephone card company. According to Henry, however, Moussaoui could not
provide a convincing explanation for the $32,000 in his checking account, and
he was unable to provide an approximate income for the previous year.
      Moussaoui said that he had traveled to Malaysia, Indonesia, and Pakistan
in connection with an Indonesian business, as well as to Morocco, Saudi
Arabia, and all over Europe. When asked why his passport did not reflect entry
or exit stamps for Indonesia or Malaysia, Moussaoui stated that the passport
had been issued recently to replace one that had been ruined in the washing
machine. Moussaoui refused to answer whether he went anywhere else outside
of Pakistan while he was in Pakistan and, according to Henry, became upset


                                      115
that he was being asked about his travels to Pakistan. 102 Moussaoui denied that
he had ever had any weapons training, but Henry believed he was deceptive in
this response.
      Moussaoui was questioned about his religious beliefs. He stated that he
considered himself a religious Muslim and that he followed the Islamic
practice of praying five times per day and helping his fellow Muslim brothers.
When asked about his feelings about the treatment of Palestinians in Israel,
Moussaoui said that it made him sad but denied that it made him angry. When
asked whether he had spoken openly about hurting people in retaliation for
what was happening in Israel, he stated that he needed to think about the
question, and ultimately he refused to answer it.
      When asked what his immediate plans had been after his flight simulator
training, Moussaoui stated that he and Al-Attas had planned to travel to New
York to see the sights and to Denver, Colorado, to do some unspecified
business with United Airlines. He said he then planned to go to Oklahoma and
then return to the United Kingdom.

           9.    Minneapolis FBI’s consultation with Minneapolis United
                 States Attorney’s Office
      During the evening of August 16, after Moussaoui’s arrest, Gary paged
the “duty attorney” at the Minneapolis United States Attorney’s Office
(USAO), who that evening was an Assistant United States Attorney (AUSA)
who we call “Wesley.” Gary left a message for Wesley stating that he needed
to discuss a criminal search warrant. According to Wesley, when he called
Gary back around 8:00 p.m., Gary told him that the FBI no longer needed a
search warrant immediately because the FBI was holding onto his belongings
while he was being detained. Gary told him that he would get back in touch
the next day to discuss the issue further. Wesley told Gary that when he called
back the next day he should talk to the supervisor who was the coordinator for
terrorism matters, an AUSA who we call “Megan.”


    102
        Henry said he knew that persons interested in attending terrorist training camps in
Afghanistan were known to enter Pakistan first and cross the border into Afghanistan, with
no indication on their passports of having traveled to Afghanistan.



                                            116
       Gary told the OIG that he had called the USAO because he was unsure
whether a criminal search warrant could be obtained, since Moussaoui was
arrested by the INS on an immigration violation. According to Gary, he
provided Wesley with a hypothetical with little information, because Gary was
not sure how much information he was permitted to share with the USAO in
light of the fact that the investigation was opened as an intelligence
investigation and not a criminal investigation. Gary said that he asked Wesley
if they were “close” to getting a criminal search warrant, and Wesley told him
that it “sounds close” but that Gary should “freeze the scene” and call Megan
the next day, since Wesley was not familiar with that type of case.
      Wesley told the OIG that, based on what he was told at the time, he had
believed that there was sufficient probable cause to obtain a criminal search
warrant. He added that if the Minneapolis FBI had wanted to obtain the search
warrant that evening, he would have sought the warrant and would not have
needed supervisory approval to do so.
      Following his conversation with Gary, Wesley called Megan on her cell
phone and left her a message about the case. The next day, Wesley drafted a
memorandum to Megan summarizing his conversation with Gary, in which he
wrote, “The FBI would like to search the computer, and likely the other
property. The suspect is being held, and questioned, by INS. [Gary] said that
he will be off today, and that [another Minneapolis FBI agent] or [Henry] will
stop by today to talk with you about the case.”
       Megan told the OIG that Wesley conveyed to her in his message on the
evening of August 16 that the Minneapolis FBI had arrested Moussaoui and
was interested in obtaining a search warrant, but not that night. When the
USAO did not hear back from the Minneapolis FBI, Megan called Henry the
next day, August 17, and left a message for him. According to Megan, Henry
did not return her call until August 20. He told her that according to the
Attorney General Guidelines he could not discuss the case with her without
FBI Headquarters and DOJ approval, since the case had been opened as an
intelligence matter.
     Megan told the OIG that she did not know if probable cause existed
before September 11 to obtain a criminal search warrant in the Moussaoui case.
However, she stated her belief that if the FBI had indicated that it was ready to



                                      117
pursue the search warrant, it would have been the “normal course” for the
USAO to try to obtain the warrant.

           10. Al-Attas’ arrest
       On August 17, the day after Moussaoui’s arrest and Al-Attas’ interview at
the hotel, Al-Attas came to the INS District Office, as requested by the FBI, and
was interviewed again by FBI and INS agents. During this second interview, Al-
Attas stated that Moussaoui had associated with two Pakistani flight instructors
and two flight students in Oklahoma, one from Saudi Arabia and one from
Bahrain. In addition, Al-Attas said that Moussaoui followed the teachings of a
sheikh, whose identity Moussaoui had not revealed to Al-Attas because
Moussaoui believed that Al-Attas would not approve of this sheikh’s views. 103
When asked if the person was Usama Bin Laden, Al-Attas stated that he did not
believe so, and that the only reference Moussaoui had made to Bin Laden was to
comment on his appearance on television. Al-Attas also gave the agents the first
and last names of one associate of Moussaoui’s in Oklahoma and the first name
of another of Moussaoui’s associates in Oklahoma. 104
       During this interview, Al-Attas admitted that he had worked while he was
going to school at the University of Oklahoma. Because this was a violation of
his student visa, the INS arrested Al-Attas and took him into custody.
      Also on August 17, Henry and other agents interviewed Moussaoui
again, and documented the results of the interview.

           11. Second interview of Moussaoui
      On August 17, Henry and other agents interviewed Moussaoui again.
According to Henry’s 26-page EC, which included information about both
interviews, Moussaoui attempted to appear cooperative at the start of the
August 17 interview but became “increasingly angry” as the questions focused
on his source of financial support, his reasons for flight training, and his

    103
        A sheikh is “a venerable old man, a chief” or “the head of an Arab family, or of a
clan or tribe; also, the chief magistrate of an Arab village.”
    104
       FBI records show that these two names were later checked in ACS, but no
information was found on them.



                                            118
religious beliefs. He was asked again to explain the source of his income, and
he offered for the first time that he had received money from friends in the
United Kingdom and from a friend in Germany for whom he could only recall
a first name. Henry wrote that questions about materials in Moussaoui’s laptop
“provoked an extremely strong emotional reaction” in Moussaoui.
      The agents told Moussaoui that they believed that he was an extremist,
“intent on using his past and future aviation training in furtherance of a terrorist
goal.” He was asked to provide the name of his group, the religious scholars
whom they followed, and to describe his plan in detail. Henry reported that
Moussaoui was “visibly surprised” at the question about his membership in a
group and that the FBI was aware of his fundamentalist beliefs. Moussaoui
repeated he was in the United States to enjoy using a simulator for a big plane.
According to Henry’s 26-page EC, Moussaoui then requested an immigration
lawyer, and the questioning was therefore halted.

     D. Expedited deportation order
      After the INS arrested Moussaoui on August 16, it initiated the process
for deporting him. Because he had entered the country under the terms of the
Visa Waiver Program, he was subject to the “expedited removal” process. As
a condition of entering the United States under this program, Moussaoui
waived any right to contest the deportation. For this reason, the deportation
process consisted of paperwork prepared by an INS official, with no hearing
before an immigration judge.
      The deportation order for Moussaoui was signed on August 17, 2001.
Henry told the OIG that he had been informed by the INS agent who had
conducted the interviews with him that persons who had entered the country
under the Visa Waiver Program and overstayed were not entitled to an appeal
and would therefore be deported very quickly. Henry’s supervisor, Gary, said
that he also had been told by INS officials that Moussaoui could only be held
for seven to ten days before he would be deported. As a result, the
Minneapolis FBI believed that Moussaoui’s deportation was imminent.




                                        119
    E.   Discussion regarding search warrant

         1.   Henry’s 26-page EC
      After Moussaoui’s arrest, Henry prepared a 26-page EC that provided a
lengthy description of the facts of the case. The EC set forth the information
obtained from the flight school, the information from the two interviews of
Moussaoui and the two interviews of Al-Attas, and the information obtained
from the items in Moussaoui and Al-Attas’ possession when they were
arrested.
      The EC, which was uploaded into ACS on August 20, included some of
Henry’s assessments of Moussaoui’s and Al-Attas’ behavior. It described
Moussaoui as “extremely evasive” and “extremely agitated” when asked about
his religious beliefs, overseas travel and associates, and the source of his
financial support. Henry also wrote that he believed, based on Moussaoui’s
demeanor, Moussaoui was being deceptive when he denied any weapons
training. Henry also wrote that Al-Attas was being “deceptive in trying to
minimize both his understanding of and involvement in whatever Moussaoui
was planning to do.”
      Henry concluded the EC by stating, “Minneapolis believes that
Moussaoui is an Islamic extremist preparing for some future act in furtherance
of radical fundamentalist goals.” In support of this conclusion, Henry wrote:
           The numerous inconsistencies in his story, his two month
     long trip to Pakistan which ended less than three weeks before
     his coming to the U.S., and his inability to explain his source of
     financial support all give cause to believe he is conspiring to
     commit a terrorist act, especially when this information is
     combined with his extremist views as described by Al-Attas in
     his sworn statement.
            As Moussaoui was in the process of gathering the most
     knowledge and skill possible in order to learn to fly the Boeing
     747-400, Minneapolis believes that his plan involved an aircraft
     of this type. This is especially compelling when considering
     that the 400 series of this aircraft has a smaller flight crew and is
     more automated than other versions, lending itself to simpler
     operation by relative novices. His request of Pan Am that he be


                                       120
     permitted to fly a simulated flight from London’s Heathrow
     Airport to New York’s JFK Airport is suggestive and gives
     Minneapolis reason to believe that he may have been attempting
     to simulate a flight under the conditions which he would operate
     while putting his plan into motion in the future.
       Henry wrote that the Minneapolis FBI believed “Moussaoui, Al-Attas
and others yet unknown [were] conspiring to commit violations of [federal
anti-terrorism statutes].” Quoting from one of the statutes, Henry wrote that
Moussaoui and Al-Attas were “attempting or conspiring to destroy or damage
any structure, conveyance, or other real or personal property within the United
States.” See 18 U.S.C. § 2332b. In addition, Henry wrote that the Minneapolis
FBI believed Moussaoui was engaging in flight training for the purpose of
conspiring to use an airplane in the commission of a terrorist act. In support of
this, Henry noted Moussaoui’s possession of knives and his preparation
through physical training for violent confrontation. Henry wrote that
Moussaoui’s “plan is believed to involve the performance of violence or
incapacitation of individuals on aircraft.” The EC further stated that
Minneapolis considered the matter to be urgent.
      At the conclusion of the EC, Henry wrote, “Minneapolis believes that the
preponderance of information to be gained from future investigation will
concern the specific criminal acts set forth above. However, as there is reason
to believe that Moussaoui and Al-Attas are part of a larger international radical
fundamentalist group, [the intelligence investigation] will remain open and a
[criminal investigation] will be opened.”
       Through the EC, Henry also sent out several leads, including leads to FBI
Headquarters, the Paris and London Legats, and the Oklahoma City Field
Office. In the leads to the London and Paris Legats, Henry requested that they
provide the EC to the British and French governments and report to
Minneapolis any information developed on Moussaoui or any of his associates
“yet unknown.” The lead to the Oklahoma City FBI asked it to fully identify
all of the individuals from that area who had surfaced in the investigation,
including a request to further investigate Al-Attas.
    With respect to the lead to FBI Headquarters, Henry requested that FBI
Headquarters “expeditiously” obtain permission from OIPR for the
Minneapolis FBI to contact the Minneapolis USAO to discuss the merits of


                                      121
prosecution; to seek a criminal search warrant for Moussaoui’s belongings,
residences, and vehicles; and to obtain subpoenas for his telephone and
financial records. 105
    Henry also sent an e-mail to the SSA who we call Jack in FBI
Headquarters on Sunday, August 19, providing an update on the case.
      Henry wrote that both Moussaoui and Al-Attas were in custody on INS
violations. Henry reported that the Minneapolis FBI was planning to open a
criminal investigation on Moussaoui and was seeking permission to contact the
USAO. Henry explained his desire to obtain a criminal search warrant to
search Moussaoui’s possessions from the hotel room, including his laptop
computer, cellular telephone, and other documentary material, and also
Moussaoui’s property in his residence in Norman, Oklahoma. 106 Henry wrote
that he thought that a search of Moussaoui’s things could “reveal detailed
information regarding his plans and associates worldwide. He’s obviously
well-funded and highly motivated.”
     Henry also e-mailed the 26-page EC to Jack the next day, Monday,
August 20. In the e-mail accompanying the EC, Henry again requested that
FBI Headquarters obtain permission to allow Minneapolis to contact the
Minneapolis USAO for a search warrant “as soon as possible.” In the e-mail,
Henry reported that Al-Attas was being released on bail and was returning to
Oklahoma, where he could potentially “destroy incriminating evidence.”
Henry concluded the e-mail by writing, “[p]lease let me know as soon as [the
Department] gives the go-ahead. We’re all counting on you!”107

    105
        As discussed in Chapter Two, the 1995 Procedures provided that when an
intelligence investigation was open and no FISA techniques had yet been employed, an FBI
field office had to obtain permission through FBI Headquarters from the Criminal Division,
not from OIPR, to contact the local USAO.
    106
        According to Henry, the Minneapolis FBI was aware of the requirement that to open
a criminal investigation Minneapolis had to establish a “wall” between the criminal
investigation and the intelligence investigation. He said that the Minneapolis FBI had
planned for Henry to remain the agent for the intelligence investigation and for a different
agent to handle the criminal investigation.
    107
       In addition, in an e-mail dated August 21 to FBI Headquarters, Gary, and another
Minneapolis FBI agent, Henry wrote, “It’s imperative that the [United States Secret Service]
(continued)

                                            122
           2.    Assignment of Moussaoui investigation at FBI Headquarters
      According to Jack, he reviewed Henry’s EC on August 20 and noticed
that Hizbollah was not mentioned. This indicated to Jack that the case did not
belong in his unit. Rather, because of the lack of information about any
particular terrorist group and the extremist view described to Moussaoui in the
EC, Jack believed that the case belonged in the ITOS’ Radical Fundamentalist
Unit (RFU). Cases that could not be linked to a specific group or substantive
unit and involved radical extremist allegations are assigned to the RFU.
      That same day Jack discussed the EC with his Unit Chief, who instructed
him to give the matter to the RFU and walk the EC over to that unit. Jack
therefore gave the 26-page EC to the RFU Unit Chief who we call “Don.” 108
Don told the OIG that at the time there were four SSAs in the RFU. Don
assigned the matter to one of them, an SSA who we call “Martin,” based on the
availability and workload of the staff at the time. An IOS assigned to work
with Martin, who we call “Robin,” also was assigned to the Moussaoui case.
Henry was informed that the investigation had been reassigned to Martin in the
RFU.
      Martin had joined the FBI in 1988 as a special agent and spent his first
three and a half years conducting bank fraud and embezzlement investigations

(continued)
be apprised of this threat potential indicated by the evidence contained in the EC. If
[Moussaoui] seizes an aircraft flying from Heathrow to NYC, it will have the fuel on board
to reach DC.” Henry told the OIG that he believed that the Secret Service, in its role of
protecting the President, needed to be advised of Moussaoui because he posed a threat to the
White House. Henry knew that Moussaoui had received training to fly a 747-400 and if
Moussaoui hijacked an airplane and flew from Heathrow to New York, the airplane would
have enough fuel to be diverted to Washington. According to Henry, he never got a
response to this e-mail.
    108
       As discussed in Chapter Three, Don had been the Unit Chief of the RFU since May
2001. He became an FBI agent in 1987 and spent eight years in the Newark Division.
Between 1990 and 1995, he worked international terrorism matters on the Newark
counterterrorism squad. In 1995, he was promoted to an SSA position in a unit other than
the RFU in ITOS in FBI Headquarters. In 1998, he became the supervisor of a
counterterrorism squad in the Miami Division and remained there until his promotion to the
Unit Chief of RFU in 2001.



                                            123
in Colorado. In February 1992, he entered a language program at the Defense
Language Institute in Monterey, California, to study Arabic for more than two
years. After completing the language course, in September 1994 he became an
agent on the counterterrorism squad of the Washington Field Office, where he
worked exclusively on international terrorism matters, including the bombing
of the Khobar Towers in Saudi Arabia in 1996. In November 1999, Martin
was promoted to be a Supervisory Special Agent in the RFU.
      IOS Robin began working for the FBI in 1976 in a clerical position. In
1980, she was promoted to a paralegal specialist position, where she handled
Freedom of Information Act requests. In 1993, she was promoted to the IOS
position and assigned to a substantive unit in ITOS. In approximately 1994,
the RFU was formed, and Robin was assigned to that newly created unit. In
2001, Robin had responsibility for terrorism matters with a connection to two
African countries.

         3.   Prior relationship between the Minneapolis FBI and RFU
      The Moussaoui matter was not the first time that the Minneapolis FBI
and the RFU worked together. Unfortunately, the earlier matters resulted in
disputes and significant friction between the two offices. We believe this past
history, which we discuss briefly here, affected how the two offices interacted
on the Moussaoui case.
      Several FBI employees told the OIG that the Minneapolis FBI’s
counterterrorism squad had conflicts with the RFU that preceded Martin and
continued after Martin came to the RFU. The RFU Unit Chief who preceded
Don, who we call “Dan,” told the OIG that the SSA who had been the
supervisor of the Minneapolis counterterrorism squad until the first week of
August 2001 – who we call “Charles,” had conflicts with the RFU SSA who
had preceded Martin and that Dan had helped Charles in dealing with those
conflicts. Dan added that the Minneapolis FBI counterterrorism squad had a
reputation for saying “the sky is falling.”
       By contrast, Charles told the OIG that the RFU “raised the bar” for what
was needed for the Minneapolis FBI to accomplish what it wanted. For
example, Charles said that Martin had not supported the Minneapolis FBI’s
recommendation that the FBI seek the designation of a particular organization
as a terrorist organization by the State Department. Charles said that Martin


                                      124
had forwarded to Don an e-mail exchange between Charles and Martin that
arose out of this conflict, and that Don e-mailed Charles to say that he wanted
to discuss the problem. Charles said he spoke to Don about a week after the e-
mail and that Don told him that he did not have a full complement of SSAs in
the unit and that Charles had to deal with the personnel that were in the unit.
      Charles also told the OIG that Martin treated Henry like he was a new
employee. Charles said that, while Henry only had two years of FBI
experience, he had a significant intelligence background based on his work
with the Navy. According to Charles, Martin had “a track history of not giving
[Henry] much respect.”
       Don told the OIG that soon after his arrival as unit chief in June 2001, he
had a telephone conversation with Charles about the prior conflicts between the
Minneapolis FBI and the RFU, including conflicts with the SSA who preceded
Martin, the former unit chief, and Martin. Don stated that Charles told him that
there had been “personality conflicts” and that he did not believe that the RFU
had supported the Minneapolis FBI sufficiently. In particular, Don said
Charles discussed Martin’s lack of support for Minneapolis’ recommendation
that the FBI attempt to have a particular organization designated as a foreign
terrorist organization by the State Department. Don told the OIG that he
advised Charles that he wanted the disputes between the two offices to end and
that if Charles had a problem with the RFU, he should address it with Don.
      Martin told the OIG that he was aware that there had been prior conflicts
between Minneapolis and others in the RFU. He said that his understanding
was that Minneapolis had made some errors in their handling of matters with
other SSAs, such as initiating electronic surveillance before the FISA order had
actually been signed. Martin stated that his problems in his dealings with the
Minneapolis office began when the conflict with Charles arose over the
designation of an organization as a terrorist organization by the State
Department. Martin told the OIG that he did not believe that it was appropriate
to pursue the designation, based on information that he had obtained from the
FBI’s IOS who had responsibility for the particular organization for the FBI
and from the CIA program manager who handled the particular organization
for the CIA. Martin said that Charles believed that Martin was attempting to
undermine his efforts. Martin believed that Charles also had “tak[en] offense”
when he pointed out mistakes that were made by Minneapolis, such as failing
to “minimize” a conversation recorded pursuant to a FISA warrant.

                                       125
      Henry told the OIG that he was “unhappy” that the Moussaoui matter had
been assigned to Martin because of how matters “had gone in the past.” Henry
said that Martin acted with an “abundance of caution” and cited examples in
which he believed that Martin had not acted aggressively enough. For
example, Henry said that Martin refused to allow Minneapolis to pursue a
criminal investigation in an intelligence investigation in which electronic
surveillance under FISA was being conducted. According to Henry, without
the criminal part of the case, the intelligence case could not proceed, and
Minneapolis wanted to continue both the criminal investigative activity and the
electronic surveillance. Henry told the OIG that Martin would not allow it.
According to Henry, Minneapolis was forced to close its investigation, and
another field office later picked up the criminal case.
      With respect to the specific case cited by Henry, Martin stated that during
the FISA renewal process he informed OIPR and the FISA Court of the
criminal direction the case was taking. According to Martin, the Court did not
have a problem with the case at that point. However, OIPR requested a
meeting with ITOS Section Chief Michael Rolince to discuss whether there
was a “primary purpose” problem, and they collectively decided to shut down
the FISA surveillance. This was conveyed to the Minneapolis FBI, which in
turn discontinued surveillance on the target. Martin told the OIG that at no
time did he instruct Minneapolis that the criminal case could not be pursued.
      Robin told the OIG that she believed that part of the problem between
Martin and the Minneapolis FBI was a difference in style. According to Robin,
Minneapolis, and field offices in general, usually wanted things done
immediately. She said, however, that Martin was very “laid back” and that “he
doesn’t get all riled up and stirred up about things. He just – he’s not a spin-
through-the-roof kind of guy. But he gets everything done and it’s not that he
doesn’t do them timely. He just doesn’t get excited about stuff.”
      Former RFU Unit Chief Dan also described the differences between the
Minneapolis FBI and Martin as a “clash of personalities.” He described Martin
as “low key” but “professional,” and said that Charles was “more animated.”
Another IOS in the RFU who worked with the Minneapolis agents and Martin
also described the problems as a “personality conflict.” He described Martin as
“methodical” and said that he had an “even keel” approach. He described the
Minneapolis agents as “aggressive” and said that with every request to FBI


                                      126
Headquarters, their approach was “if this doesn’t happen, the world is going to
end.”

           4.   Gary seeks advice from ASAC Charles
       Gary told the OIG that on August 21 he called ASAC Charles, who was
in training at Quantico, for guidance on how to proceed, and that Charles told
him that he should seek a criminal warrant. Charles said that he gave Gary this
advice since he did not believe the Minneapolis FBI would be able to get a
FISA warrant, not because of the facts in the Moussaoui case but because of
his past experience with the difficulty and significant delays in obtaining FISA
warrants. Charles stated that, in his experience, OIPR only wanted “slam
dunks.”
       Charles told the OIG that, as part of the training he was attending at
Quantico at the time, Deputy Attorney General Larry Thompson had just
recently presented at the training conference a memorandum on the issue of
intelligence sharing dated August 6 and addressed to the Criminal Division, the
FBI, and OIPR. As discussed in Chapter Two, this memorandum reiterated the
requirement of the 1995 Procedures that the Criminal Division be notified
when there was a “reasonable indication” of a “significant federal crime” and
that this notification was “mandatory.” 109 The memorandum also stated that

    109
         As discussed in Chapter Two, the report of the OIG’s Campaign Finance Report and
the report of the Attorney General’s Review Team investigating the Wen Ho Lee matter
concluded that the FBI was not complying with the notification requirement primarily
because of a fear that any contact with the Criminal Division would negatively affect an
existing FISA order or the FBI’s ability to obtain one in the future. In January 2000,
Attorney General Reno established the “Core Group,” which consisted of the FBI’s
Assistant Directors for counterterrorism and counterintelligence, the Principal Deputy
Attorney General, and the Counsel for OIPR. The FBI Assistant Directors were supposed to
provide “critical case briefings” to the Core Group, and they were to decide if the facts of
the case warranted notification to the Criminal Division as provided for in the 1995
Procedures. The Core Group was disbanded in October 2000 and reconstituted in April
2001, but the problem of lack of notification to the Criminal Division remained. In July
2001, the GAO issued its report recommending, among other things, that the Attorney
General establish a policy and guidance clarifying the expectations regarding the FBI’s
notification of the Criminal Division about potential criminal violations arising in
intelligence investigations.



                                            127
the standard for reasonable indication was “substantially lower” than probable
cause, but that it required more than “a mere hunch.” Charles told the OIG that
he explained the new guidelines to Gary and recommended that he bring them
to the attention of FBI Headquarters. Charles told the OIG he believed that by
doing this, FBI Headquarters would be forced to contact the Criminal Division,
and that once this occurred, the Criminal Division would on its own direct the
Minneapolis FBI to contact the USAO about a search warrant. Gary told the
OIG that Charles faxed the memorandum to him and that he discussed
notifying the Criminal Division about Moussaoui with Martin on August 22,
which we discuss below in Section F.
      Gary also said that Charles told him that if he had any problems in
dealing with Martin that he should ask Acting SAC Roy to “go up the chain of
command” in FBI Headquarters, and Charles provided Gary with the names of
upper management, including Assistant Section Chief Steve Jennings, Section
Chief Rolince, and Deputy Assistant Director James Caruso. According to
Gary, Charles suggested that Gary pass these names to Roy because Charles
did not believe that Roy knew who they were. Gary told the OIG that he
provided these names to Roy.
       Charles also recommended that the Minneapolis FBI contact an FBI
employee detailed to the CIA, who we call “Craig,” to request any information
that the CIA had on Moussaoui.

          5.   Henry discusses with Don pursuing criminal warrant
       According to Henry, on approximately August 21, he called RFU Unit
Chief Don to discuss pursuing a criminal investigation of Moussaoui. Henry
told the OIG that Gary had already filled out the paperwork for opening a
criminal terrorism investigation, and Henry was calling Don to let him know
that the paperwork would soon be submitted to FBI Headquarters.
       Henry told the OIG that Don instructed him that he could not pursue the
criminal investigation. Henry stated that Don said to him, “You will not open
it, you will not open a criminal case.” Henry stated that Don asserted that if the
Minneapolis FBI attempted some kind of criminal process from the USAO,
such as a search warrant, and failed, it would not thereafter be able to pursue a
FISA warrant. According to Henry, Don also asserted that probable cause for a
criminal search warrant was “shaky.”


                                       128
       Although Henry believed there was probable cause for a criminal
warrant, he said that as an entry-level agent he was not in a position to argue
with Don, a unit chief at FBI Headquarters, who was in a better position to
judge how the FISA Court would respond to a FISA request that followed a
failed attempt to obtain a criminal search warrant. Henry said that although his
supervisor, Gary, had previously prepared paperwork for opening the criminal
investigation, Henry wrote, “Not opened per instructions of [Unit Chief Don]”
on it after this conversation with Don.
      Don’s recollection of the conversation with Henry about pursuing a
criminal investigation of Moussaoui differed from Henry’s. Don told the OIG
that his recollection was that he talked to the Acting Minneapolis ASAC,
Charles, and that he did not speak to Henry. Charles told the OIG, however,
that he did not speak to Don before September 11. We believe that Don likely
spoke to Henry, not Charles.
      Don told the OIG that, based on his knowledge of the case, he did not
believe there was criminal predication for a criminal search warrant. Don
stated that, in his opinion, Minneapolis had a “belief” that there was the
potential for a criminal charge of conspiracy to hijack, but this was not
supported by sufficient evidence. Don also asserted that since Moussaoui had
been arrested and detained on immigration charges, he could not be involved in
a crime that was about to be committed.
       According to Don, he voiced his opinion to the Minneapolis FBI about
the lack of criminal predication and advised that if obtaining the criminal
warrant failed, the FBI would not be able to pursue the FISA warrant. Don
told the OIG he expressed in the conversation that he did not want Minneapolis
to follow the criminal road prematurely. However, Don asserted that at no
time did he tell the Minneapolis FBI that it could not pursue the matter
criminally.
      Don also stated to the OIG that he advised the Minneapolis FBI to
consult with the Minneapolis CDC about whether probable cause for a criminal
search warrant was present. According to Don, he stated, “You guys need to
go back to your CDC, you need to discuss it with your CDC, and get back to
me and tell me your position.” Don told the OIG that, in his opinion, giving
this kind of advice – whether there was criminal probable cause – was the role



                                      129
of the CDC. He said he wanted the Minneapolis CDC to weigh in before the
Minneapolis FBI made its decision about which way to proceed.
      Henry confirmed to the OIG that Don advised him that he should consult
with his CDC on the matter. After his conversation with Don, Henry met with
Rowley to discuss whether Minneapolis should pursue the criminal
investigation.
      Martin told the OIG that his understanding was that Don explained to the
Minneapolis FBI the problems that could arise when a criminal investigation is
pursued at the same time that a FISA warrant has been issued or is being
sought. Martin said he thought that Don had told the Minneapolis FBI, “You
guys need to be careful. You need to run it through your division counsel if
you want to do a criminal investigation on this guy, because if you do that and
you get turned down by a magistrate or even if you try to get the okay from a
U.S. Attorney’s Office, we have to document that in our request to the FISA
court, and we risk making it look like to the judge that we really want to get a
criminal case, want to prosecute the guy but we didn’t have enough probable
cause to get a criminal search warrant.” Martin told the OIG that it was his
understanding that Minneapolis “listened to [Don] and agreed.”

         6.   CDC Rowley’s recommendation
      According to Rowley, Henry came to her office some time after his
conversation with FBI Headquarters and conferred with her about whether to
seek a criminal search warrant in the Moussaoui case. Rowley said this
occurred on or about August 22. Rowley told the OIG that, until this point, she
had not been actively involved in the Moussaoui investigation, although she
had had a brief discussion with Gary on the night of Moussaoui’s arrest.
      As discussed above, Rowley was the CDC for the Minneapolis FBI. She
had graduated from law school in May 1980 and joined the FBI as a special
agent in January 1981. After working in several FBI offices on, among other
cases, white-collar crime, drug investigations, and applicant background
investigations, Rowley transferred to the Minneapolis FBI office in July 1990.
Rowley said that as the CDC for the Minneapolis FBI, she spent very little of
her time on intelligence matters. She stated that she had attended FBI training
on counterterrorism issues, including FISA, but that she usually was not
involved in the FISA process. She said that agents typically dealt with FBI


                                      130
Headquarters on these matters and that she had only reviewed a couple of FISA
requests.
      Rowley told the OIG that when Henry came to her office around
August 22, he asked her what she thought about the FISA issue in the
Moussaoui case. He related that he had spoken to either Martin or Don
(Rowley did not recall which one), who had suggested that the Minneapolis
FBI would have a better chance of obtaining a warrant if it sought a FISA as
opposed to a criminal search warrant. She said she thought Henry may have
mentioned something about the “smell test.” She said that, after discussing the
matter with Henry, like the RFU she recommended going the FISA route
because of the “smell test.” Rowley explained that she knew that if a FISA
warrant was sought after an unsuccessful attempt to obtain a criminal warrant,
it would give the appearance – or “smell” – that the true purpose for seeking
the FISA was for criminal prosecution and the FISA warrant would be denied.
According to Rowley, Henry’s position was that the Minneapolis FBI should
proceed with the criminal search warrant and not worry about the smell test.
Rowley, however, stated that the smell test was a reality and advised that it had
to be factored into the decision.
     Additionally, Rowley said that while she thought that there was probable
cause for a criminal search warrant, she also believed that the USAO in
Minneapolis required a higher standard than probable cause to seek a search
warrant. 110 Because of the smell test and concerns whether the USAO would

    110
        In her May 21, 2002, letter to the FBI Director, Rowley stated that she had advised
Henry to seek the FISA warrant instead of the criminal warrant because the Minneapolis
USAO “regularly requir[ed] much more than probable cause” and “requir[ed] an excessively
high standard of probable cause.” In the letter, Rowley gave as an example of this the
Minneapolis FBI’s investigation of mailbox pipe bombings during which, she wrote, an
AUSA declined permission to seek a search warrant despite “significant evidence”
supporting the search warrant. We interviewed several attorneys in the Minneapolis USAO,
including the United States Attorney, Thomas Heffelfinger. All the attorneys denied that the
Minneapolis USAO required more than probable cause before seeking search warrants.
They also stated that in cases in which the USAO determined that there was insufficient
evidence to support a search warrant, their practice was to specify the FBI’s options,
including what additional information was needed to support probable cause. With respect
to the mailbox pipe bombings case, Heffelfinger acknowledged that there had been a
disagreement between the USAO and the FBI over whether sufficient evidence existed to
(continued)

                                           131
agree to a criminal search warrant, Rowley said that she recommended the
avenue with the best chance of success, which she believed was seeking a
FISA warrant instead of a criminal warrant.
       Rowley told the OIG that at the time of her discussion with Henry she
had not discussed the Moussaoui matter with any attorneys in the National
Security Law Unit (NSLU) or anyone else in FBI Headquarters. 111 She also
said that she had not reviewed the FISA statute or any other training materials
about FISA warrants. She said her advice was based on her knowledge of the
problems with the smell test, the problems with the Minneapolis USAO, and
“optimizing” the chances of getting a warrant by pursuing the FISA process
first.
      Henry confirmed to us that Rowley recommended that pursuing the FISA
warrant would be the safest route. When we asked Rowley about the nature of
the discussion that she had with Henry about seeking the criminal warrant,
Rowley told the OIG that she was “helping make his decision.” When we
asked Rowley whose decision it was to not seek the criminal warrant – the field
office or Headquarters – she stated:
      I thought it was kind of, I don’t know, kind of a joint thing. I
      thought Headquarters, somebody at Headquarters had also
      recommended we try FISA first, too. But I think maybe
      ultimately it was [Henry]’s decision to try FISA first or our field
      division’s.

     F.    The FISA request
      As a result, the Minneapolis FBI began seeking a FISA warrant, instead
of a criminal warrant, to search Moussaoui’s belongings that were being held
by the INS.


(continued)
obtain a search warrant, but he stated that the FBI declined to pursue the additional
investigative steps suggested by the USAO.
    111
       Rowley’s only contact with anyone at FBI Headquarters about the Moussaoui matter
was in a brief e-mail exchange with an NSLU attorney, which we discuss in Section F, 4, d
below.



                                             132
           1.   Minneapolis seeks to expedite the FISA process
      When Gary first discussed seeking a FISA search warrant for
Moussaoui’s belongings with Martin on August 22, Gary indicated that
Minneapolis wanted to expedite the process. As noted above, Gary told the
OIG that the Minneapolis FBI had been informed by INS officials that the INS
could only hold Moussaoui for seven to ten days before deporting him. Gary
said that he was aware that FISA requests normally took a long time and that
the Minneapolis FBI was concerned about expediting the process to ensure that
the FISA warrant was obtained and executed before Moussaoui’s deportation.
Gary said that he explained to Martin that the INS said it could only hold
Moussaoui for seven to ten days.
      Martin told the OIG that he recalled that the Minneapolis FBI was very
concerned about obtaining the FISA warrant quickly before the INS deported
Moussaoui. Martin said he explained to Gary that a way to expedite the
process would be to seek an emergency FISA. He also explained the process at
FBI Headquarters for obtaining an emergency FISA, including the requirement
for ITOS Section Chief approval. 112
      Gary and Henry began preparing a FISA request while they continued the
investigation of Moussaoui.

           2.   The RFU’s assessment of the Minneapolis FBI’s FISA
                request
     At FBI Headquarters, Martin and Robin began looking into the merits of
the Minneapolis FBI’s FISA request, based on the information about
Moussaoui that the Minneapolis FBI had provided, primarily in the 26-page EC
Henry had sent to FBI Headquarters about the Moussaoui investigation.
      Martin told the OIG that his reaction upon reading the 26-page EC with
respect to obtaining a FISA warrant was that while he believed Moussaoui was
“a dirty bird” and was probably “up to something,” there was no evidence

    112
        As discussed in Chapter Two, although the term “emergency FISA” was used, it
referred to obtaining an expedited FISA warrant and not the statutory emergency FISA that
involves a warrantless search approved by the Attorney General without prior approval of
the FISA Court.



                                           133
linking Moussaoui to a foreign power of any kind. Martin said that based upon
what was in the EC, his opinion was that “there was no way” that a FISA
warrant could be obtained because of the lack of evidence linking Moussaoui
to a foreign power.
      Robin told the OIG that Martin informed her that Minneapolis was
seeking a FISA search warrant and Martin provided her with a copy of the
26-page EC to read. She said that after reading the EC, she also believed that
Moussaoui was “up to something.” However, she said that after reading the
EC she asked Martin, “Where’s the foreign power?” In her view there was no
evidence of a terrorist organization’s involvement with Moussaoui. According
to Robin, Martin agreed with her assessment that the FISA request lacked a
connection to a foreign power.

         3.   Additional information related to Moussaoui
      The Minneapolis FBI continued to collect additional information about
persons associated with Al-Attas in connection with the posting of his bond for
release from the INS detention facility. In an EC written by Henry and dated
August 22, the Minneapolis FBI reported to FBI Headquarters that Al-Attas
had been bonded out of custody on August 20. While he was still in custody,
he made 13 calls to a telephone number registered to a man who had been
identified in an earlier interview by Al-Attas as the imam – or leader,
spokesman, and advisor – of the mosque attended by Al-Attas in Norman,
Oklahoma. We will call this person “Ahmed.” Al-Attas told the Minneapolis
agents that he had called Ahmed to request assistance in raising bond money.
      The Minneapolis FBI conducted name checks for Ahmed in FBI
databases and learned that a person with the same name was the suspect in
several bank robbery investigations in Memphis, Tennessee, but that he had not
been in contact with the FBI since 1999. The Minneapolis FBI sought to
determine if the Ahmed who talked to Al-Attas was the same person as the
bank robbery suspect. The Oklahoma City Field Office informed the
Minneapolis FBI on September 6 that it had determined that the Ahmed who
was the assistant iman of the Norman mosque was not the same Ahmed who
was the bank robbery suspect in Memphis.
       The Minneapolis FBI also determined that two other men were involved
in attempting to post Al-Attas’ bond. The first was a man who we will call


                                     134
“James Smith,” who had gone to the INS offices in Oklahoma City to inquire
about Al-Attas’ bond. Smith was the imam of a local mosque. The
Minneapolis FBI reported that he was the subject of an Oklahoma intelligence
investigation, but it did not state the date, status, or findings of the investigation
on Smith. 113
      In addition to Smith, the Minneapolis FBI learned that an individual, who
we call “Mohammed Mohald,” had gone to the INS District Office near
Minneapolis and paid Al-Attas’ bond on August 20. 114 According to
documents prepared in the case, Mohald had reported to INS officials that he
was and had been Al-Attas’ roommate for some time, and that he knew Attas’
traveling companion – whom he called “Shaqir” – because they attended the
same mosque in Norman, Oklahoma, where they all lived. Mohald advised
that he had been a Muslim since 1970 and had traveled to a Middle Eastern
country in the late 1980s as part of a missionary group. 115 The EC stated that a
search in ACS revealed that Mohald had an extensive criminal history and was
the subject of a New York criminal terrorism-related investigation. The EC did
not state the date, status, or findings of the investigation.
      In the EC, Henry reported suspicions about Mohald and stated that he
believed that Mohald was involved in Moussaoui’s plan to commit a terrorist
act along with Al-Attas. Henry’s suspicions were based on inconsistencies
such as Mohald stating that he was Al-Attas’ roommate, when the Minneapolis
FBI had confirmed that Al-Attas had been living for approximately one month
with Moussaoui and someone else at an address other than the one provided by

    113
         The Oklahoma City Field Office reported in an EC dated August 24 that Al-Attas had
spoken not only to Smith but also to an individual who we will call “Nabu Khalid,” who was
the assistant imam to Smith. The Oklahoma City FBI reported that Smith and Khalid were
the subjects of preliminary inquiries for their suspected involvement in a terrorist cell. This
terrorist cell was not linked to Al Qaeda.
    114
          This individual was American-born but had adopted a Muslim name.
    115
        This particular missionary group is a worldwide Islamic missionary organization
which was founded several decades ago. As discussed below, some members of this
missionary group used the organization as a means and as a cover to recruit individuals to
conduct acts of terrorism and to send them to Middle Eastern countries under the guise of
“religious training.”



                                             135
Mohald. In addition, while Mohald admitted to traveling to a Middle Eastern
country in the late 1980s, ACS records showed that he was issued a visa for
that country in April 1990 under his American name, which suggested that
Mohald withheld information from the FBI about later trips to this Middle
Eastern country. Henry also found Mohald’s explanation that he had flown to
Minneapolis to post Al-Attas’ bond so that Al-Attas could return to teach
children at the mosque in Oklahoma to be “farfetched.” 116
       Around the same time, Henry sent an e-mail to other FBI agents involved
in the investigation asking whether he should consider getting assistance from an
FBI psychological profiler. He wrote, “They probably have a psych profile for
an Islamic Martyr and could tell us if our 747 guys fit.” According to Henry, he
contacted an FBI field profiler in Tampa, Florida, whom Henry had met at a
training session. Henry told the OIG that he contacted this agent because he
knew him and because this agent was an experienced international terrorism
investigator.
       Henry told us that this agent provided good re-interview techniques and
highlighted potential issues based on the information Henry gave him. For
example, the agent called attention to the fact that while Al-Attas was in jail,
“the one call [Al-Attas] made was back to the mosque” and not to any family
member. Henry said that while Al-Attas’ parents lived in Saudi Arabia, Al-
Attas had at least one cousin and possibly two in the United States but did not
call these relatives.

           4.   Consultations with NSLU attorney Howard
     Also on August 22, at FBI Headquarters SSAs Jack and Martin each
independently consulted with an NSLU attorney who we call “Howard” about
the Moussaoui matter. Martin also consulted with three other NSLU attorneys.
We summarize first the role of NSLU attorneys, specifically with respect to
FISA requests, before discussing the consultations between Jack and Howard,
and between Martin and Howard.


    116
        Henry provided the names of Ahmed, Smith, and Mohald and their available
identifying information to the CIA for checks against CIA records. The CIA did not report
any information about these individuals to the FBI.



                                           136
                a.    Role of NSLU attorneys
      The NSLU is part of the FBI’s Office of General Counsel in FBI
Headquarters. The NSLU provided advice to FBI Headquarters and field
offices on counterterrorism and counterintelligence matters. At the time of the
Moussaoui case, two NSLU attorneys – who we call “Susan” and “Tim” –
were assigned to work with ITOS substantive units. Other NSLU attorneys,
including Howard, were consulted by ITOS employees when Susan and Tim
were not available. 117 Marion “Spike” Bowman was the FBI’s Deputy General
Counsel for National Security Affairs and the head of the NSLU.
      As discussed in Chapter Two, attorneys in the NSLU described their role
as giving legal advice to their “client,” the substantive unit in ITOS that was
seeking the advice, but they said it was up to the substantive unit to decide how
to proceed. NSLU attorneys spent a large amount of time handling questions
related to FISA, including requests for warrants, execution of FISA orders, and
dissemination of the information collected pursuant to FISA.
      NSLU attorneys usually were consulted when a question arose whether
there was sufficient information to support the FISA request. However, NSLU
attorneys were not “assigned” to work on a particular FISA request or to work
with specific SSAs. The consultations with NSLU attorneys typically
consisted of oral briefings by the SSA and the IOS who were handling the
particular FISA request. In connection with these consultations, NSLU
attorneys did not normally receive and review the documents prepared by the
field office or initial drafts of the LHM prepared by the SSA and IOS. Tim
told the OIG that SSAs would sometimes come back to the NSLU attorney
with documents to read after an oral briefing when the SSA “was really serious
about something.”
      After questioning the SSA and IOS, and based on the information
provided by the SSA and the IOS, the NSLU attorney typically would provide
verbal guidance about what was needed to support the FISA request. Howard
told the OIG that his role was “steering [the FBI] through the land mines and

    117
       Howard told the OIG that he primarily worked counterintelligence matters but also
handled counterterrorism matters as needed. According to Howard, it was not uncommon
for him to be consulted when Tim and Susan were unavailable.



                                           137
helping them enhance their cases.” Field offices did not normally participate in
these consultations with the NSLU attorneys.
      Both NSLU attorneys and SSAs described the volume of their work as
overwhelming. Tim stressed that the NSLU attorneys relied on the SSAs and
IOSs for their substantive knowledge about the available intelligence on the
FBI’s targets and terrorist organizations, and that given limited staffing NLSU
attorneys normally were unable to conduct independent research on the
substantive issues.

              b.   Jack’s consultation with Howard
      As noted above, the Minneapolis FBI’s first contact with FBI
Headquarters was with SSA Jack. On August 21, Jack made an appointment
with NSLU attorney Howard to discuss the Moussaoui matter the following
morning. Jack said that even though the case was in the process of being
reassigned to Martin in the RFU, Jack kept his appointment with Howard
because he was “curious” and wanted to discuss the Minneapolis FBI’s options
for obtaining authority to search Moussaoui’s laptop and other belongings.
       During the meeting on August 22, Jack orally briefed Howard on the
facts, as reported in Henry’s EC. Jack did not provide Howard with a copy of
the EC. According to Howard’s notes from the meeting, they discussed
whether there was sufficient information to obtain either a criminal search
warrant or a FISA search warrant. With respect to the FISA warrant, Howard
told the OIG that he advised Jack that he did not believe that there was
sufficient information to obtain a FISA warrant, primarily because Minneapolis
lacked the necessary information to articulate a foreign power. Howard’s notes
indicate that he advised Jack that obtaining the FISA warrant also would be
difficult because Moussaoui was already in custody. Howard told the OIG that
at the time, OIPR viewed anyone in custody as a target of criminal
investigation by the FBI, even if the person was being held on administrative
charges, and therefore OIPR would question whether the FBI’s “primary
purpose” was to collect intelligence information.
      With respect to approaching the USAO to obtain a criminal warrant,
Howard’s notes reflect that he did not believe that there was sufficient
information to obtain a criminal search warrant. His notes state that he advised
Jack that a decision needed to be made quickly and that if the Minneapolis FBI


                                      138
decided to pursue the criminal case, then it would be difficult to later pursue
the FISA warrant. Howard told the OIG, however, that whether to pursue the
FISA warrant or the criminal warrant was a “judgment call” for Minneapolis to
make and that he considered the matter to be a “work in progress.”
      Jack confirmed that he received this advice from Howard. He told the
OIG that Howard advised him that he did not see evidence of a foreign power
and that Howard concurred that there was no evidence of a criminal act. Jack
told the OIG that he and Howard were “brainstorming” about the possible ways
to proceed. Howard’s notes indicate that he told Jack that it looked as if
Minneapolis had several “good leads” and that Minneapolis needed to follow
up on those leads.

               c.    Martin’s meeting with Howard
     As noted above, on August 20 the Moussaoui case was transferred from
Joseph to the RFU and assigned to Martin and Robin. On approximately
August 22, Martin and Robin consulted with Howard for legal advice on
Minneapolis’ chances for obtaining a FISA warrant. 118
      Martin said that when he began explaining to Howard the facts of the
Moussaoui matter, Howard said that he was aware of the matter already
because he had recently been consulted by Jack. According to Martin, Howard
pulled out notes from his conversation with Jack and began reading them back
to him and Robin.
      Howard said he remembered having a “brief conversation” with Martin.
Howard said that he recalled that he was on his way to a meeting and did not
have time to discuss the issue in detail at that time. He said that he asked
Martin if the Minneapolis FBI had followed up on specific items, and Martin
indicated that he did not believe so. Howard reiterated the same advice to
Martin as he told Jack – that he did not believe that there was sufficient
evidence to tie Moussaoui to a foreign power and therefore a FISA warrant was
not possible absent further investigation by Minneapolis.


    118
      Martin told the OIG that Tim and Susan, the two NSLU attorneys who usually
worked on ITOS matters full time, must have been unavailable at the time.



                                         139
      Martin told the OIG that he recalled Howard advising him that there was
not sufficient evidence to support a link to a foreign power. Like Jack, Martin
did not provide Howard with a copy of the 26-page EC, although Martin had
the document with him.

              d.   Howard’s e-mail exchange with Rowley
      After his meeting with Martin and Robin, Howard sent an e-mail dated
August 22 to Minneapolis CDC Rowley. In the e-mail, he asked whether she
had been asked for her “assessment of [Minneapolis’] chances of getting a
[criminal] warrant” for Moussaoui’s computer. Howard told the OIG that he
did this because he wanted to make sure that the CDC was “engaged in the
thought process.” He stated that the decision on which type of warrant to seek
was the field office’s decision, and he wanted to make sure that the CDC was
“part of the process.”
      In an e-mail response later the same day, Rowley wrote, “Although I
think there’s a decent chance of being able to get a judge to sign a criminal
search warrant, our USAO seems to have an even higher standard much of the
time, so rather than risk it, I advised that they should try the other route.”
Rowley told the OIG that in retrospect she wished that she had made it clear in
her e-mail that she believed that, in fact, there was sufficient evidence to
support probable cause for a criminal warrant.
      Howard told the OIG that he recalled having the following reaction to
Rowley’s e-mail: “Good Lord, Coleen, we don’t use FISA because we don’t
have probable cause for a criminal warrant. That plays right into the hands of
those people who think FISA is subterfuge.” Howard did not respond to the
e-mail, nor did he and Rowley discuss the matter on the telephone.

         5.   French information about Moussaoui
     Around the same time that Martin consulted with Howard, the
Minneapolis FBI obtained additional information about Moussaoui from the
French government. As noted above, because Moussaoui had entered the
United States with a French passport, Henry had sent a lead to the FBI’s Paris
Legat to obtain any relevant information on Moussaoui from the French
authorities. On August 22, the FBI’s Paris Legat reported to the Minneapolis
FBI and FBI Headquarters that the French government had reported that


                                      140
Moussaoui was purportedly associated with a man who was born in France and
died in 2000 in Chechnya fighting with “the Mujahideen.” We call this person
“Amnay.” 119 The Legat’s EC stated that while in Chechnya, Amnay worked
for Emir Al-Khattab Ibn (Ibn Khattab), the leader of a group of Chechen
rebels. 120 According to the EC, the French authorities, after Amnay’s death,
had interviewed a person who we call “Tufitri” who had known Amnay. 121
That person stated that Amnay was recruited to go to Chechnya by Moussaoui
and that Moussaoui was “the dangerous one.”

           6.   Martin advises Minneapolis FBI that French information is
                not sufficient to connect Moussaoui to a foreign power
       After Martin received and reviewed the French information, he still did
not believe there was sufficient information to identify a foreign power in the
Minneapolis FISA request. Martin discussed the French information with Gary
and stated that it provided little help to Minneapolis in connecting Moussaoui
to a foreign power. Martin explained that Ibn Khattab and the Chechen rebel
group he led were not an identified terrorist organization. Gary’s notes of the
conversation indicate that Martin explained that Minneapolis needed evidence
linking Moussaoui to a “recognized” foreign power.
      Martin told the OIG that by “recognized” he meant a foreign power that
previously had been pled before the FISA Court. Martin told the OIG that he
believed that the Chechen rebels had never previously been pled to the FISA



    119
        We do not use Amnay’s real name because the FBI considers that information to be
classified.
    120
        As discussed in Chapter Three, after the collapse of the Soviet Union in 1991,
Chechen separatists – both Islamic and non-Islamic – have sought independence for
Chechnya from Russia. The Russian army has fought two guerilla wars in Chechnya to
prevent its independence, resulting in tens of thousands of Chechens and Russians killed or
wounded. In many Islamic countries, support for the Chechen cause is widespread. Ibn
Khattab was a Jordanian-born Islamic extremist and leader of a large group of Chechen
rebels that had many successes in clashes with Russian forces. He was killed in April 2002.
    121
        We do not use Tufitri’s real name because the FBI considers that information to be
classified.



                                            141
Court as a foreign power. 122 Rather, Martin described the situation in
Chechnya as dissidents engaged in a “civil war.” He acknowledged, however,
that it may have been possible to develop the intelligence to support the
position that Khattab’s Chechen rebels were a terrorist group. But he said that
he was not aware of any insurgency/rebel group ever being pled as a foreign
power. 123
      In addition, Martin stated that even if the Intelligence Community had
developed the intelligence that Khattab’s Chechen rebels were a terrorist
organization and could therefore constitute a foreign power under FISA, this
could not be completed in a short time, which was what the FBI believed at the
time was necessary in the Moussaoui case. Martin said he therefore advised
the Minneapolis FBI that, to obtain a FISA warrant, it needed to develop
information linking Moussaoui to a recognized or previously-pled, identifiable
foreign power. 124


    122
       We found that at the time FBI Headquarters was operating under a perception that
OIPR was overly conservative in its approach to the FBI’s FISA applications because
OIPR’s standard for probable cause was too high and because OIPR was not interested in
pleading “new” foreign powers – foreign powers that had not previously been pled to the
FISA Court. We discuss this perception of OIPR’s conservatism and how it affected FBI
Headquarters’ handling of the Moussaoui investigation in the analysis section below.
    123
        Martin suggested to the OIG that the reason that groups engaged in a civil war were
not pled as terrorist organizations under FISA was because they were not “hostile” to the
United States or working against U.S. interests. When asked whether it was a requirement
under FISA for a terrorist organization to be hostile to U.S. interests to fulfill the foreign
power requirement, Martin said that he did not know whether this was a legal requirement,
but that he believed that it was assumed in the statute based on the terrorist organizations
that had been pursued by the government.
    124
        Martin told the OIG that at that time he had had only one other case in which he
advised a field office that it was not going to be able to obtain a FISA warrant. He said that
the field office wanted to pursue a FISA warrant targeted at an organization that it believed
to be a terrorist organization that constituted a foreign power. As discussed above, a foreign
power or an agent of a foreign power may be the target of a FISA warrant. Martin said that
this potential target had never before been pled as a foreign power. He said that he
consulted with an NSLU attorney, who informed him of the intelligence information that the
field office would have to establish in order to successfully obtain a FISA warrant with the
organization listed as a foreign power. Martin stated that he informed the field office of this
(continued)

                                             142
      Robin also told the OIG that she did not believe that the French
information was sufficient to connect Moussaoui to a foreign power. She said
that she understood that the Chechen rebels had never been pled as a foreign
power to the FISA Court and that the Intelligence Community had never
developed sufficient intelligence that the conflict in Chechnya was more than a
civil war. In one case she was familiar with, she understood that the FBI had
previously attempted to obtain a FISA warrant using Khattab and the Chechen
rebels as the foreign power but that it was “turned down” by OIPR. 125 She
stated that “building a foreign power” was “not an overnight thing” and would
have required months to collect the required intelligence information, as had
been the case when one particular terrorist group was first put forth as a foreign
power.
      Gary told the OIG that during the conversation between him and Martin
on August 22 about the French information, he raised with Martin the issue of
the mandatory notification of the Criminal Division when there was a
reasonable indication of a crime, as set forth in Deputy Attorney General
Thompson’s August 6 memorandum, which Charles had faxed to Gary.
According to Gary, Martin said that he did not see any evidence of a federal
felony, that the FISA route was easier, and that going the criminal route first
would be relevant to whether they were able to obtain a FISA warrant. Gary’s
notes indicate that Martin stated, “Don’t see federal crime.” Gary told the OIG
he deferred to Martin but faxed him a copy of the Thompson memorandum.



(continued)
advice, and the field office did not insist that the information it had was sufficient for a FISA
warrant.
    125
        Robin was mistaken about that FISA. The FISA request for that target was initially
drafted by an FBI field office for a terrorist organization that was based in Northern Africa.
The target was a well-known leader of a worldwide charitable organization that was known
for providing financing to Muslim causes around the world, including but not limited to Ibn
Khattab. The FISA request was given to an analyst in FBI Headquarters, who was asked to
prepare the FISA request using a different foreign power than the terrorist organization
based in Northern Africa. Several months later, after the field office developed information
linking the target directly to a particular terrorist group leader, the analyst prepared a FISA
request using his group as the foreign power.



                                              143
      Martin told the OIG that he did not remember a specific conversation
with Gary about whether there was probable cause to obtain a search warrant.
However, he said that he recalled a conversation in which he asked Gary,
“What would the crime be?” Martin told the OIG he believed that the
Minneapolis FBI did not have any evidence of a crime and only had “gut
feelings.”

           7.    Robin’s research to link Moussaoui to recognized foreign
                 power or terrorist organization
      Robin conducted additional research on Moussaoui to try to bolster
Moussaoui’s connection to a recognized foreign power. Robin sought to find a
direct link between Moussaoui or any of the other names or organizations that
had surfaced in the investigation and foreign powers that she was aware had
previously been pled to the FISA Court.
      According to Robin, the Moussaoui FISA request was different from the
typical FISA request because the Minneapolis FBI had not conducted a lengthy
investigation on Moussaoui before he was arrested. As a result, Robin said, the
FBI lacked information about Moussaoui that would have been gathered if the
FBI had conducted physical surveillance and trash covers and obtained phone
records and financial records, which was how intelligence investigations
typically proceeded before a FISA warrant was requested. 126 Moreover,
Minneapolis was seeking an emergency FISA warrant, which meant that there
was little time to develop more information to support the FISA request.
     Robin ran the names of Moussaoui, Al-Attas, and the individuals who
had been identified as connected to Al-Attas in ACS and another computer
system that contained intelligence reports from throughout the intelligence


    126
        Financial and telephone records could be obtained, prior to a FISA, through the use
of a National Security Letter (NSL), which did not require approval of a court before
issuance by the FBI. At the time of the Moussaoui investigation, the process for obtaining
NSLs, which involved the signatures of several officials at FBI Headquarters and in the
NSLU, took several months. Delay in obtaining NSLs has long been identified as a
significant problem in counterintelligence and counterterrorism investigations. Under the
Patriot Act, the FBI was given authority to delegate authority for obtaining NSLs to the field
to speed up the process.



                                            144
community. She said she did not find any evidence linking any of these
individuals to a foreign power. She said she also researched the missionary
group that Mohald had said that he had been a part of to determine whether that
organization had any connections to terrorism or had formed the basis for the
connection to a foreign power in any previous FISA application. According to
Robin, it was not until several months after September 11 that individual
members of this missionary group were pled as targets of a FISA application
and were described as facilitators and recruiters for a particular terrorist
organization. 127
      In addition, Robin researched the name Ibn Khattab, the Chechen rebel
leader. Robin said she was not attempting to find information to support using
Khattab and his rebel group as the foreign power because, according to Robin,
there was insufficient intelligence to link his group to anything more than a
civil war. She said that she was aware of a recent FISA application in which
the subject had strong ties to Ibn Khattab, but that the Chechen rebels were not
pled as the foreign power in that case. Robin told the OIG that she researched
Ibn Khattab to determine whether he had close ties to other terrorist groups that
had previously been pled as foreign powers before the FISA Court, but she did
not find any. Robin said that she was aware that the FBI’s Washington Field
Office had an open investigation of Khattab but that it was not an active
investigation.
       One of the documents that Robin retrieved in her search using the name
Ibn Khattab was the Phoenix EC, which we described in Chapter Three of this
report. The author of the EC, Special Agent Kenneth Williams, mentioned Ibn
Khattab when describing his interview of the subject of an FBI investigation
who had a picture of Khattab and a picture of Usama Bin Laden on the wall of
his apartment where the interview was conducted. Williams stated his belief
that there were an “inordinate number” of persons of interest to the FBI who
also were receiving training in aviation-related fields of study and that there


    127
       Even prior to the September 11 attacks, however, there was intelligence information
showing that some members of this missionary group were using the organization as a
means and as a cover to recruit individuals to conduct acts of terrorism and to send them to
two Middle Eastern countries under the guise of “religious training.”



                                            145
was a possibility that Bin Laden was coordinating an effort to train people in
the U.S. in order to conduct terrorist activity in the future. 128
       ACS records show that Robin printed the Phoenix EC on August 22.
Robin told the OIG that her usual practice was to read the documents that she
printed, but she said she did not have a recollection of reading the Phoenix EC
at the time.
       Robin did not provide the EC to anyone else or discuss its contents with
anyone, including Martin or the Minneapolis FBI. Robin told the OIG that
when she read the Phoenix EC after the Joint Intelligence Committee Inquiry
staff informed her that ACS showed that she had printed the EC, she concluded
that nothing in the EC would have bolstered Moussaoui’s connection to a
foreign power for FISA. She also asserted that the Phoenix EC’s reporting of
information about individuals who were of interest to the FBI – that they were
Middle Eastern and were in flight school – was not significant at the time
because there were thousands of Middle Eastern men in U.S. flight schools at
the time.

           8.   Martin and Robin consult with NSLU attorney Tim
     Around August 23, Don directed Martin and Robin to consult with
another NSLU attorney, Tim, about the Moussaoui case. According to Martin,
Don thought that Tim should be consulted because he handled counterterrorism
matters full time and therefore may have had more expertise than Howard.
      Martin orally briefed Tim on the facts of the Moussaoui case but did not
provide him with any of the documentation. None of the participants in the
meeting recalled specifically what facts were discussed. Tim took a few notes
about the conversation in his calendar, and the notes reflect that Tim was told
that Moussaoui was an Arab who was in flight school and who had encouraged
a friend of his to fight for the Muslim cause in Chechnya. Tim said that he did
not recall discussing with Martin and Robin the Chechen rebels as a possible
foreign power. Tim added that it was the role of the SSA and IOS, not the

    128
       The Phoenix EC did not contain any references to Moussaoui, to any of the
individuals who surfaced in the Moussaoui investigation, or to anyone associated with
Oklahoma or Minnesota.



                                           146
NSLU attorney, to identify the foreign power based on their analysis of the
available intelligence. He also suggested that the reason that the Chechen
rebels were not discussed as a foreign power was because, at the time, they
were viewed as participants in a civil war, not as a terrorist organization. Tim
told the OIG that while in theory the Chechen rebels could have been a foreign
power, because “anything could be a foreign power,” it was his understanding
that this did not happen in practice before September 11, 2001. He added that
even if the Chechen rebels were considered a foreign power under FISA, the
FBI still would have had to show that Moussaoui was an agent of that foreign
power.
      Both Martin and Tim told the OIG that Tim’s advice was that the
Minneapolis FBI lacked sufficient evidence of a foreign power to obtain a
FISA warrant. Tim advised Martin that Minneapolis would have to collect
more information supporting Moussaoui’s connection to a foreign power in
order to obtain a FISA warrant.
      Tim told the OIG that Martin’s “attitude” in presenting the case was that
“he didn’t think [Minneapolis] should get the FISA” but that Minneapolis
“wanted one.” According to Tim, he was very busy with another matter at the
time and advised Martin that if the project needed more attention, Martin
would have to see another NSLU attorney.
      Tim told the OIG that he did not read the Phoenix EC until some time
after September 11. With regard to whether it would have had an impact on his
legal advice, Tim stated, “I can’t tell you it would have been enough for a
FISA.” He also stated that the Phoenix EC would not have provided sufficient
information to connect Moussaoui to a foreign power. But Tim said that, if he
had known about the Phoenix EC, he would have taken it to an attorney in
OIPR to discuss the Moussaoui matter in person, which he said was consistent
with how he had acted in the past. He said that while “all Middle Eastern
pilots” trained in the United States, the Phoenix EC would have provided a
theory to attempt to connect Moussaoui to a foreign power under FISA. 129

    129
        We also asked Howard whether he had read the Phoenix EC since September 11 and
if so, whether it would have made a difference to him in his analysis of whether the
Minneapolis FBI had enough information to obtain a FISA warrant. Howard said that he
only recently had read the Phoenix EC, but that if he had seen the Phoenix EC at the time, it
(continued)

                                            147
           9.    Martin tells Minneapolis its FISA request was not an
                 emergency
       On August 24, Martin and Gary discussed the options for the
Minneapolis FBI in pursuing a FISA warrant for Moussaoui. Martin asserted
that the Moussaoui situation did not qualify as an emergency, which required
information that an “imminent act of terrorism” was about to take place, and he
added the FISA request lacked sufficient evidence of a connection to a known
foreign power. 130
      Gary’s notes from the conversation indicate that Martin stated that
Minneapolis could write a Letterhead Memorandum (LHM) for the FISA
request, have its CDC approve it, and that Martin would try to push it “up [the]
food chain” at FBI Headquarters. However, according to Gary’s notes, Martin
advised him that the FISA request could “take a few months” to complete, that
there were “100s of these FISA requests,” and that the FBI had to prioritize
them. 131 The notes also indicate that Martin said that he had showed the FISA

(continued)
would have “made a difference in the pucker factor,” and he would have called Rowley in
Minneapolis and discussed the importance of tracking down the available leads to find out
as much information about Moussaoui as possible. However, Howard said he believed that
the Phoenix EC “would not have made a difference in the probable cause equation as it
applie[d] to Moussaoui.” He explained that the problem with the Moussaoui case was the
lack of a connection to a foreign power and nothing he read in the Phoenix EC contributed
to that issue.
    130
       As discussed in Chapter Two, the SSAs and NSLU attorneys we interviewed told us
that what rose to the level of an expedited FISA request depended on what the field office
and ITOS management deemed to be an immediate priority, but the final decision would be
made by the ITOS Section Chief, Michael Rolince. According to these witnesses, in the
summer of 2001 expedited FISA requests normally involved reports of a suspected
imminent attack or other imminent danger.
    131
         Rolince and others told the OIG that there were always more FISA requests than
ITOS resources and OIPR attorneys to complete all of them and have them heard before the
FISA Court in the amount of time desired by the field office. Rolince stated that he
instituted a policy that only the Section Chief was permitted to determine what constituted a
priority and would be pushed to OIPR. He said that this arose out of the OIPR Counsel
expressing to him that his attorneys were being called by SSAs and analysts making
demands about what cases were priorities and had to be completed for presentation to the
FISA Court. As a result of Rolince’s policy, field office managers would call Rolince to
(continued)

                                            148
request to an NSLU attorney and that office was not supportive of the
application.
       Gary’s notes also indicate that Martin told Gary that “1-1-1/2 years ago
we could have rammed this through.” Martin told the OIG that he did not
remember making this statement but that he believes he was referring to the
months after the bombing of the U.S.S. Cole in Yemen, which took place in
October 2000. Martin said that after an act of terrorism or some other crisis
situation, a significant amount of intelligence information is developed, which
leads to more FISAs being obtained in a shorter amount of time. OIPR
Counsel James Baker told the OIG that around the millennium in late 1999 and
early 2000 the government had a heightened concern about terrorist attacks and
was “aggressive” in its pursuit of FISA warrants, and the FISA Court “went
along with them,” approving a significant number of FISA warrants in less
than a month.
      Gary told the OIG that because he was new to counterterrorism matters,
he relied on the advice that he received from Martin.

           10. Martin seeks information from FAA
       During this same time period, Martin initiated additional requests for
information about Moussaoui. Martin advised the Federal Aviation
Administration (FAA) representative at FBI Headquarters about the Moussaoui
investigation and provided him with a copy of Henry’s 26-page EC. The FAA
employee checked FAA databases for information about Moussaoui and
obtained records indicating that he had registered for a student pilot’s
certificate at the flight school in Norman, Oklahoma. The FAA employee
e-mailed this information to the Minneapolis FBI and the RFU.



(continued)
assert their opinion that their case should be prioritized over others. Rolince explained that
FISA renewals were generally of a higher priority than initiation of FISAs because with
renewal requests the FBI was faced with the likelihood of not being able to renew the FISA
if the previous FISA warrant order lapsed. He also stated that al Qaeda FISA requests were
generally the priority, although there were times when another foreign power was the
priority for a certain period of time because of a specific set of circumstances.



                                             149
      According to the FAA employee, he, Martin, and Robin met with Don
when the Moussaoui matter first came to the RFU, and they discussed what the
FBI could tell the FAA about Moussaoui. The FAA employee stated that they
decided that since Moussaoui and Al-Attas were in custody and no other
individuals were known to be working with them, the Minneapolis FBI would
continue its investigation, but the FBI would not advise the FAA about the
investigation at that point.

         11. Minneapolis FBI seeks assistance from the CIA and London
             Legat
     On August 24, after the Minneapolis FBI was told by Martin that the
French information was not sufficient to link Moussaoui to a foreign power,
the Minneapolis FBI sought assistance from other agencies to connect
Moussaoui to al Qaeda or another foreign power.
       Henry e-mailed an FBI manager detailed to the CIA to ask him to
determine whether the CIA had any information linking Moussaoui to a foreign
power. A CIA counterterrorism employee e-mailed the FBI manager detailed
to the CIA, who forwarded the message to Henry, that Ibn Khattab was “a
close buddy with Bin Laden from their earlier fighting days and that the CIA
employee’s interpretation of the French information was that Moussaoui was a
“recruiter for Khattab.” Henry responded by e-mail to the FBI detailee and
asked him to forward the e-mail to the CIA employee. In this e-mail, Henry
asked the CIA employee if she had any additional information connecting Ibn
Khattab to al Qaeda “other than their past association.” He also wrote, “We’re
trying to close the wiggle room for FBIHQ to claim that there’s no connection
to a foreign power.” Henry did not receive any response from the CIA to his
request for additional information linking Moussaoui to a foreign power.
According to the CIA employee, the CIA had no further information on any
links between Moussaoui and terrorists, and this information was
communicated to the FBI.
      Also on August 24, Henry e-mailed the FBI manager detailed to the CIA,
who we call “Craig,” with names, telephone numbers, and other information
obtained from Al-Attas’ address book. Henry requested that Craig ask the CIA
to run traces on the information. Henry noted in the e-mail that he also was
going to send copies of all of the documents found in Al-Attas’ possession.
Henry wrote that there were many more domestic telephone numbers in the

                                     150
information obtained from Al-Attas, and Henry had included only the foreign
information in the e-mail.
       Also on August 24, the same day that Henry was exchanging e-mails
with the CIA employee about obtaining information to connect Moussaoui to a
foreign power, a CIA manager who was working in ITOS at FBI Headquarters
as a “consultant” on intelligence issues e-mailed Don about the Moussaoui
case. The CIA manager asked whether leads had been sent out to obtain
additional biographical information, including any overseas numbers, and
whether the FBI had obtained photographs and could provide them to the CIA.
Martin responded to the e-mail and provided an update stating that requests for
information and photographs already had been sent to the appropriate foreign
intelligence agencies and to the CIA, and that the Minneapolis FBI had sent
telephone numbers and addresses from Moussaoui’s and Al-Attas’ “pocket
litter” to the CIA. 132 Martin concluded the e-mail by writing, “[p]lease bear in
mind that there is no indication that either of these two had plans for nefarious
activity as was apparently indicated in an earlier communication.” (Emphasis
in original.)
      Also on August 24, Henry e-mailed the FBI’s London ALAT, providing
him with an update on the Moussaoui investigation and asking for assistance in
establishing that Moussaoui was acting on behalf of a foreign power. Although
the London ALAT contacted the British authorities twice in writing, made
several telephone calls, and indicated the urgency of the Moussaoui matter, the
British government did not provide the FBI any information about Moussaoui
until September 12. We discuss the information and the ALAT’s efforts to
obtain this information from the British authorities in Section J below.
     In addition to contacting the CIA and the London Legat directly, Henry
contacted another FBI Headquarters employee who worked on intelligence
matters and who we call “Carol.” In an August 24 e-mail, Henry reported the
CIA employee’s statement that there was an association between Khattab and
Bin Laden. Henry asked Carol for her assistance in establishing a connection
between Moussaoui and a known terrorist organization, such as al Qaeda.


    132
        “Pocket litter” is a term used to describe the contents of the pockets of a person who
is taken into custody and searched.



                                             151
Henry wrote that the RFU had determined that Minneapolis did not have
sufficient evidence of a criminal violation for a criminal search warrant and
that Minneapolis also lacked sufficient evidence to obtain a FISA warrant. He
noted that the RFU had advised Minneapolis that “because Ibn Khatab [sic] has
not yet been established to be a member of a named group, that Moussaoui is
not acting at the direction of a foreign power.” He added, “I disagree, but that
doesn’t matter.” He also e-mailed Carol a copy of his 26-page EC about the
Moussaoui investigation. Henry told the OIG that he did not receive any
information from Carol until September 10, when she sent him an e-mail
inquiring whether he had been able to obtain a warrant.

         12. Minneapolis prepares emergency FISA request
      On the morning of Saturday, August 25, Henry completed the
Minneapolis FBI’s formal FISA request, which consisted of a 6-page LHM,
and e-mailed it to FBI Headquarters. The LHM stated that the Minneapolis
FBI was requesting a FISA search warrant on an emergency basis and that
Minneapolis “wish[ed] to emphasize the urgency of this matter in reminding
recipients that Moussaoui is in INS custody pending deportation.”
      The LHM summarized Henry’s 26-page EC, including the statements
received from the flight school representatives, that Moussaoui was arrested as
an overstay on his visa and that deportation was pending and that he was in
possession of two knives when he was arrested. The LHM also summarized
Al-Attas’ statements about Moussaoui’s radical Islamic fundamentalist beliefs,
including that Moussaoui believed that it was acceptable to kill civilians who
harm Muslims. The LHM noted inconsistencies in Moussaoui’s statements,
such as his unconvincing explanation for the large sums of money in his
possession while he was in the United States and his inability to convincingly
explain the reasons for his recent trip to Pakistan. With respect to information
linking Moussaoui to a foreign power, the LHM contained three paragraphs.
The LHM included the information provided by French authorities. The LHM
also included the statement from the CIA employee that Ibn Khattab was
“known to be an associate of Usama Bin Laden from past shared involvement
in combat.”
     Both Gary and Henry told the OIG that they believed that based on the
information they provided in the LHM, the Minneapolis FBI could support that
Moussaoui was connected to Ibn Khattab and that because Khattab was

                                      152
connected to Usama Bin Laden, al Qaeda could be used as the foreign power in
the FISA application.
      Martin told the OIG, however, that he believed the information provided
by the Minneapolis FBI to support a link between Ibn Khattab and Bin Laden
was not sufficient to support a FISA request. According to Martin, it was
“common knowledge” that there was a “purported” link between Khattab and
Bin Laden. But he said that the most recent intelligence indicated that Khattab
and Bin Laden were not connected.
      Robin told the OIG that she believed that trying to link Moussaoui to al
Qaeda by arguing that Moussaoui was linked to Khattab, and Khattab was
linked to Bin Laden, was “too far removed” to obtain a FISA warrant. She
stated that based on intelligence information, it was known that Khattab and
Bin Laden were “contemporaries” but were not connected to each other. She
said that Khattab was not working for Bin Laden.

         13. Dispute between Minneapolis and Martin
      Around this time, Gary and Henry were becoming increasingly frustrated
with the advice from Martin that they lacked sufficient information linking
Moussaoui to a foreign power. On Monday, August 27, in a telephone call
between Martin and Gary, the tension surfaced.
      According to Gary’s notes of the conversation, Martin told them that
“what you have done is couched it in such a way that people get spun up.”
Gary told the OIG that after Martin made this statement, Gary said “good” and
then stated that Minneapolis was trying to keep Moussaoui from crashing an
airplane into the World Trade Center. Gary’s notes of the conversation
indicate that Gary stated, “We want to make sure he doesn’t get control of an
airplane and crash it into the [World Trade Center] or something like that.”
According to Gary’s notes, Martin responded by stating that Minneapolis did
not have the evidence to support that Moussaoui was a terrorist. Gary’s notes
indicate that Martin also stated, “You have a guy interested in this type of
aircraft. That is it.”
     Martin told the OIG that he did not recall making any statement about
Minneapolis getting “spun up” about the Moussaoui investigation. When
asked whether he spoke with Minneapolis about whether they were
overreacting, Martin stated that he “could have.” Martin told the OIG that he


                                      153
never heard Gary make a statement that he thought that Moussaoui was going
to hijack an airplane and crash it into the World Trade Center. He said that the
first time that he heard that statement was in October 2001 at a meeting in FBI
Headquarters involving several Minneapolis agents and FBI Headquarters
employees to discuss the Moussaoui investigation. He said that during the
meeting Gary made a reference to having made this statement to Martin some
time in August 2001, but that Martin had never before heard Gary make the
statement.
     Gary’s notes also indicate that the Minneapolis FBI asked Martin
whether the FISA request, which had been e-mailed on Saturday, August 25,
had been presented to Section Chief Rolince for approval as an emergency
FISA. Martin stated that it had not been presented to Rolince.
      Gary’s frustration with Martin can be seen in an e-mail Gary sent to
Martin on August 27 after their telephone conversation. In the e-mail, Gary
advised Martin to contact the CIA employee for more information about
Khattab and his connections to Bin Laden in order to support the foreign power
portion of the FISA application. Martin responded in an e-mail on August 28
that FBI Headquarters had the latest information on Ibn Khattab and Chechnya,
“as this program is administered by our unit,” and that the matter had been
discussed with the CIA employee. Martin also wrote, “I need to ask you guys
to do me a favor. In the future, please contact and pass info to me and allow
me to talk with [an FBI detailee to the CIA] and [the CIA]. Things work much
better when our agencies are communicating HQ to HQ.” 133
     Martin’s e-mail was forwarded to Craig, the FBI detailee to the CIA with
whom the Minneapolis FBI had been communicating. Craig responded with an
e-mail to Gary, Martin, and Don, which stated that Craig definitely agreed that

    133
        Martin told the OIG that normally contacts with other agencies are made by the
SSAs at FBI Headquarters. He stated that he was concerned about the Minneapolis FBI
communicating directly with the CIA because it was “not conducive to good information
flow” and that FBI Headquarters needed to be “apprised of what’s going on.” He also
asserted that since FBI Headquarters was responsible for putting the FISA request together,
it was necessary for FBI Headquarters to ensure that it had all of the available information
from outside agencies, and that this was more likely to occur when the agencies were
communicating at the Headquarters level.



                                            154
it was critical for FBI field offices to deal directly with FBI Headquarters in
order to ensure that FBI Headquarters was “in the loop up front.” He added
that in this instance he had been in touch with Don at the initiation of the case
and that Don had asked the CIA to move quickly and without a formal request
for information in the form of a teletype from FBI Headquarters. Craig wrote
that it was for this reason that he had been dealing directly with the
Minneapolis office but also coordinating with FBI Headquarters. Craig also
wrote that the CIA had yet to receive a teletype from the FBI about the matter,
which he described as “the only real, official communication between [the two
agencies].” Craig also noted in a separate paragraph to Gary that FBI
Headquarters “ha[d] a strong handle on the Chechen issue” and that the IOSs at
FBI Headquarters were “well connected” to the CIA if they “require[d]
anything new.”
       Henry told the OIG that he was frustrated with the advice that the
Minneapolis FBI was receiving from FBI Headquarters and that he expressed
this in a conversation with Martin. Henry said he told Martin that he disagreed
with Don’s arguments for not pursuing the criminal warrant. He told the OIG
that he had said to Martin:
            …if you’re not going to advance this the FISA route, or if
      you don’t believe we have enough for a FISA, I shudder to think
      – and that’s all I got out. And [Martin] cut me off and said, you
      will not question the unit chief and you will not question me.
      We’ve been through a lot. We know what’s going on. You will
      not question us. And that could be the mantra for FBI
      supervisors.

          14. Minneapolis contacts RFU Unit Chief
      Because of Gary’s and Henry’s frustrations in dealing with Martin, Gary
told the OIG that he approached Roy, the Minneapolis Acting SAC, and asked
Roy to call Don to “find out what [Martin]’s problem was.” 134 On August 27,


    134
       As discussed above, Roy was named the Acting SAC on August 3, 2001, and
remained in this position until December 2001. Prior to being named the Acting SAC, he
was one of two Minneapolis ASACs.



                                          155
Gary and Roy together placed a call to Don to discuss the Moussaoui FISA
request.
      According to Gary, Don was “immediately defensive” and asked Martin
to join the call. Gary’s notes of the conversation do not indicate that Martin’s
performance was discussed.
      Gary told the OIG, and his notes reflect, that Martin and Don discussed
the lack of a foreign power and stressed that more direct connections were
needed to establish the required link. Gary told the OIG that he recalled asking
“what is the mechanism” to address the Moussaoui situation. He said that he
asked Martin and Don if “they won’t let us go criminal” and if there was
insufficient information for a FISA, “what can we do?”
      Gary’s notes indicate that he was advised that if Moussaoui could not be
connected to a terrorist organization, there was “no mechanism to address on a
case-by-case basis.” Gary’s notes also reflect that the question, “What is being
done to address the loop-hole (if he isn’t part of a known group)?” was asked.
Gary told the OIG that he posed this question. The reply is noted in quotation
marks as “That isn’t something for you to worry about.” 135 Gary told the OIG
that he recalled that Don gave this reply. Don, however, told the OIG that he
did not make this statement.
    Gary’s notes also indicate that either Don or Martin stated that another
NSLU attorney – Susan – would review the matter and would give it a “good


    135
         Because FISA warrants are permitted only for foreign powers or agents of foreign
powers, the “lone wolf” terrorist who is not acting on behalf of any foreign government or
terrorist organization is not covered by the FISA statute. In 2002, a bill was introduced in
the United States Senate to amend FISA’s definition of “foreign power” to include “any
person, other than a United States person, or group that is engaged in international terrorism
or activities in preparation therefor.” The intent of the amendment was to allow a FISA
warrant to be issued after showing that a person is engaging in or preparing to engage in
international terrorism, regardless of whether that person also is an agent of a foreign power.
The bill was referred to the Judiciary Committee, and the Senate Intelligence Committee
held a hearing on the bill on July 31, 2002. There was no written report, and the bill was not
reported to the full Senate. On January 9, 2003, the bill was reintroduced and was approved
by the Judiciary Committee on March 11, 2003. It was approved by the Senate in May
2003. A similar bill has been introduced in the House of Representatives.



                                             156
faith review.” Gary told the OIG that Don gave this assurance. According to
Gary, Don also advised the Minneapolis FBI that it was necessary to attempt to
confirm that the information received from the French related to the same
Moussaoui the INS had in custody.
      Roy told the OIG that he recalled having the telephone call but said he
did not recall the substance of the conversation. He told the OIG, however,
that he recalled that at some point he spoke to Don about Martin and expressed
his belief that Martin was “hindering” the process or trying to “submarine”
Minneapolis’ case.
       Don told the OIG that he recalled speaking on the telephone with Roy
and Gary and discussing the foreign power issue. He said that his response to
the disagreement was to have Susan – another NSLU attorney – weigh in on
the merits of the FISA request. Don asserted that at no time did Roy or anyone
else from Minneapolis raise any concerns to him about how Martin, Robin, or
anyone else at FBI Headquarters was handling the case.
      Martin also told the OIG that he did not recall the specifics of this
telephone conversation. However, with respect to the issue of ensuring the
identity of Moussaoui, he stated that his concern was that the Minneapolis FBI
practice “due diligence” and ensure that the information that the FBI had
received was for the same person. Martin told the OIG that he was aware that
the name “Moussaoui” had resulted in multiple hits in the FBI’s computer
system when the Minneapolis FBI had first checked Moussaoui’s name.
      As a result of this concern, after the telephone conversation with Don and
Martin, Gary directed an agent on the Minneapolis counterterrorism squad to
contact the FBI’s Paris ALAT to obtain information about the number of
persons with the name Zacarias Moussaoui in France by checking the
telephone books for the name Zacarias Moussaoui. In an e-mail later that day
to the Paris ALAT, the Minneapolis agent wrote, “In an effort to demonstrate
the probability, which we believe is low, can you determine just how many
Zacarius [sic] Moussaoui’s [sic] are listed in the white pages in France. [sic]”
The ALAT replied by e-mail that he could check the white pages for Paris but
he might not be able to check the white pages for all of France. He also wrote
that he was meeting with the French authorities the next day and was expecting
them to provide additional information that would “confirm Moussaoui’s
identity.”


                                      157
      On August 30, the ALAT provided additional information obtained from
the French authorities that confirmed Moussaoui’s identity to Minneapolis and
FBI Headquarters. This information is discussed in Section F, 20 below.
      Henry told the OIG that he thought that Martin’s suggestion that the
Minneapolis FBI do more to confirm that Moussaoui was the same Moussaoui
as reported by the French was “another arbitrary roadblock.” He said that he
believed that they should trust the professionalism of the French, although he
also said that he was not aware of the specific information that the French
authorities were relying on to assert that the Moussaoui in custody was the
same Moussaoui as in their report.
      Rolince told the OIG that some time in August 2001, Don stopped briefly
at his office to give him a “heads up” on a case in the Minneapolis Field
Office. Rolince said that the conversation lasted approximately 20 seconds.
Rolince said he did not recall if Don mentioned the name Moussaoui or not.
According to Rolince, Don indicated there was an issue with a FISA and
Rolince might receive a call from FBI management in Minneapolis. Rolince
said Don told him the subject of the investigation was in jail on an immigration
charge and the logical leads had been sent out. Rolince told the OIG he did not
receive any further details from Don about the issue in Minneapolis, but this
type of heads up was not atypical. Rolince stated that he received this type of
brief notification as often as 10-15 times a week from his subordinates about
potential contacts from the field.
     Rolince told the OIG that he never received a telephone call or other
contact from the Minneapolis FBI about the Moussaoui matter. He said that he
did not raise the limited information he received from Don about the
Moussaoui investigation with anyone else in the FBI.

         15. Martin and Robin’s consultation with NSLU attorney Susan
      After the call with Minneapolis on August 27, Martin and Robin met
with NSLU attorney Susan to discuss the Moussaoui FISA request. Martin
told the OIG that he orally briefed Susan about the facts of the case. He did not
provide her with any of the documentation that had been generated, such as the
26-page EC or the 6-page LHM, although he had the documents with him at
the meeting. Martin told the OIG that while he did not recall specifically what
was discussed with Susan, he recalled that she did not believe that there was


                                      158
sufficient evidence of a connection to a foreign power. Martin added that he
recalled informing Susan of the facts that related to the issue of the foreign
power, which was the information received from the French authorities.
      According to Susan, the meeting lasted approximately 45 minutes. She
said she was made aware of a handful of other facts, such as that Moussaoui
was an Arab, was in flight school and had been asking some weird questions,
and had paid cash for flight school.
      Susan told the OIG that Martin and Robin downplayed the Khattab
information to her. She stated, however, that she believed the evidence of a
link between Moussaoui and Khattab was very “tangential” since it was based
on the statement of Tufitri who had no direct knowledge of a connection
between Moussaoui and Khattab. In addition, Susan told the OIG that based
on her experiences in ITOS, the Chechen rebels would not have been accepted
by OIPR as a foreign power. Susan told the OIG that based on the facts that
she was presented, she told Martin and Robin that the FISA request lacked the
necessary connection of Moussaoui to a foreign power.
      Susan told the OIG that attempting to argue that Khattab was part of al
Qaeda was not feasible, because at the time the FBI’s position was that Khattab
did not take direction from Bin Laden but rather was the leader of the rebels in
Chechnya. She said that it was her understanding at the time that the CIA and
the FBI did not agree about Khattab’s role and relationship to Bin Laden. 136
Susan also stated that in her experience it would not have been feasible to get
an emergency FISA through OIPR if a new foreign power that had never been
pled before was presented.
       Susan told the OIG that she asked Martin and Robin whether the FBI had
any information indicating anyone was sending people to the United States for
flight training, but that she was told no. She said that Robin did not mention
the Phoenix EC to her. Martin told the OIG that he did not recall any such



    136
         The FBI IOSs we interviewed told the OIG that the CIA, not the FBI, collected
intelligence information on the Chechen rebels and Khattab. According to the IOS who was
responsible for targets in Chechnya, by the spring of 2001 both the CIA and the FBI took the
position that Khattab did not take direction from Bin Laden.



                                           159
question from Susan. Robin also told the OIG that Susan never brought up the
issue of whether Middle Easterners were training in U.S. flight schools.
      We asked Susan whether she had read the Phoenix EC since
September 11 and whether it would have made a difference to her opinion
about the Moussaoui FISA request. Susan said that she first read the Phoenix
EC several months after September 11. She said that if she had read the
Phoenix EC at the time, she would have been concerned enough about
Moussaoui to bring the matter to an OIPR attorney’s attention. According to
Susan, she sometimes called OIPR attorneys “to bounce things off” them,
rather than sending over a formal FISA request, and would ask them “where do
you think we are?” Susan added that the Moussaoui case still would have had
“the same foreign power issues” but that the Phoenix EC would have
“influenced” her.
      Susan also told the OIG that she had not been aware at the time of her
meeting with Martin and Robin that the Minneapolis FBI had prepared a
lengthy EC about the Moussaoui case. She stated that she thought that the case
“was evolving” as she spoke to Martin and Robin and that she did not realize
that documentation had been prepared. She said she believed that Martin had
received oral briefings from Minneapolis. She said that she first became aware
of Henry’s EC in November 2001. However, she said that if she had read it
before the meeting with Martin and Robin, it would not have changed her
opinion about the Moussaoui FISA request. She said she recalled thinking that
Martin had represented the facts as set forth in the EC. Susan stated that she
probably received an oral briefing because Minneapolis was seeking an
emergency FISA and needed an answer quickly. She said that there was
nothing unusual about receiving an oral briefing in that situation. Susan told
the OIG that she did not know at the time that Martin had already consulted
with Howard and Tim about the same case.
      After the consultation with Susan on August 27, Don instructed Martin to
have the matter reviewed again by the head of NSLU, Spike Bowman, because
of the level of concern raised by the Minneapolis FBI about Moussaoui and the
FISA request. Martin arranged for a meeting with Bowman the next afternoon,
August 28.




                                     160
         16. Martin’s edits to Minneapolis’ FISA request
      Prior to the meeting with Bowman, Martin began reviewing and editing
the Minneapolis FBI’s 6-page LHM, in case the FISA request was approved by
Bowman. Martin e-mailed an edited draft of the LHM to Gary and stated that
he had made some refinements and wanted comments from Minneapolis.
Martin noted that he had removed the paragraph reflecting that a CIA
employee had stated that Khattab was an associate of Bin Laden, but that
Martin would “add the foreign power info re Al-Khattab/UBL later, when we
get an [attorney] to buy this argument.”
      Gary responded with a lengthy e-mail setting forth his concerns about
Martin’s edits. First, Gary expressed concern about the removal of the
statement connecting Khattab to Bin Laden. Gary wrote, “It seems that we are
setting this up for failure if we don’t have the foreign power connection firmly
established for the initial review.” Gary also raised questions about the
following made by Martin:
          • Change from the statement about Moussaoui “preparing himself
            to fight” to a statement that Moussaoui and Al-Attas “train
            together in defensive tactics.” Gary wrote, “During the interview
            neither Al-Attas nor [Moussaoui] used the term ‘defensive
            tactics.’ I think that softens our argument and misrepresents the
            statements of Al-Attas.”
          • Change to the statement “Al-Attas was also asked if he had ever
            heard Moussaoui make a plan to kill those who harm Muslims
            and in so doing become a martyr himself. Al-Attas admitted that
            he may have heard him do so, but that because it is not in his own
            heart to carry out acts of this nature, he claimed that he kept
            himself from actually hearing and understanding.” Martin
            changed this section to read, “Al-Attas was also asked if
            Moussaoui has a plan to kill those who harm Muslims and or to
            martyr himself while conducting an act of terrorism. Al-Attas
            indicated that Moussaoui may have such a plan, but that he does
            not know for certain if this is the case.” Gary acknowledged that
            Martin had changed the statement based on a previous telephone
            conversation with Gary, but Gary wrote “now that I see it in print,



                                      161
            I think we might be misstating Al-Attas’ response” to the
            question.
         • Change from the statement that “Moussaoui was unable to give a
           convincing explanation for his paying $8300 for 747-400
           training” to “Moussaoui would [sic] give an explanation for his
           paying $8,300 in cash for 747-700 flight simulation training.”
           After noting that Martin had left out the “not,” Gary stated that he
           did not think that this statement was accurate because Moussaoui
           gave an explanation “but it was not convincing.”
         • Change from the statement that Moussaoui had no convincing
           explanation for the large sums of money known to have been in
           his possession during his time in the United States” to
           “Moussaoui would not explain the large sums of money known to
           have been in his possession during his time in the United States.”
           Gary noted here again that Moussaoui had offered an explanation
           but that “his explanation fell short.”
         • Change from the statement that “Tufitri stated that Moussaoui
           was ‘the dangerous one’” to Tufitri “described him as being
           dangerous.” Gary pointed out that Tufitri “did not describe him
           as being dangerous in general terms, Tufitri specifically referred
           to him as ‘the dangerous one.’” Gary added, “I think this is
           significant – and it accurately reflects the information as it was
           provided by [the French authorities].
      Martin responded by e-mail to Gary the same day. With regard to Gary’s
concerns about the foreign power information, Martin explained that Robin
would be pulling together the information required for the foreign power
section of the FISA application and that it would be added to the LHM once it
was ready to be sent to OIPR. Martin added, “Don’t worry about this part.”
     Martin also wrote that he would make some of the changes requested by
Gary. For example, with respect to the “would not give an explanation”
comment, Martin changed the text to “did not give a logical explanation.”
With respect to Gary’s concern about Moussaoui’s inability to explain the
source of income, Martin wrote, “I added words to cover your point.”




                                     162
       Martin declined to make some of the other changes requested by Gary
and offered explanations for his edits. With respect to the “defensive tactics”
change, Martin wrote, “We don’t need to provide verbatim answers to
[interview questions]. I think the way I’ve set it out here is accurate.” With
respect to the question put to Al-Attas about whether he had heard Moussaoui
make a plan to kill people who harm Muslims, Martin wrote that he did not
believe how it had been written made sense and that “the way it reads in [my]
draft is fine.” With respect to the “dangerous one” comment, Martin wrote that
what was in the paragraph was adequate.
     At the end of the e-mail, Martin wrote, “I tried to tighten up the language
and make it more concise. There’s not necessarily anything wrong with [the
LHM] – I’m just trying to make an adjustment for our new targeted audience.”
      Gary told the OIG that he believed Martin’s edits “softened” the FBI’s
position. He said that he questioned why Martin had taken out the foreign
power information when it was legally required to obtain the FISA warrant,
and claimed he was given “no real explanation” for why Martin omitted the
foreign power information. Henry told the OIG that he believed that Martin’s
edits appeared to be “dumbing [the LHM] down” and that the edits “would
definitely cause [the FISA request] to fail.”
      In response, Martin told the OIG while he believed that the LHM was
generally well-written, the three paragraphs for the foreign power section of the
LHM were not adequate to establish the foreign power element, and he
intended, along with Robin, to compile a “real” foreign power section when an
NSLU attorney gave approval to move forward with the FISA request. Martin
said that handling the request this way was common and denied that he was
attempting to “torpedo” the case.
       Robin also told the OIG that, as they did with other cases, she and Martin
were preparing to create a new foreign power section for the Moussaoui LHM
that would be comprehensive. She said that Martin’s edits were normal and
that the changes were designed to create “a logical, intelligent package that we
thought would get to court” and to make the LHM less “inflammatory.” She
explained that by “inflammatory” she meant that the Minneapolis LHM was
not focused, but rather used terms that were geared toward getting someone’s
attention without providing any evidentiary support. Robin asserted that
Martin was streamlining the document and adding the “buzzwords” that he


                                      163
knew from experience OIPR would require in order to get the package to the
FISA Court. Robin stated that the RFU wanted FISA requests to get OIPR’s
attention but did not want the RFU to seem like “maniacs.”

          17. Consultation with NSLU chief Spike Bowman
      On the afternoon of August 28, Martin and Robin met with Bowman to
discuss the Moussaoui FISA request. Don told the OIG that he had planned to
attend the meeting but that on his way to Bowman’s office he was called into a
meeting with Section Chief Rolince. No one from Minneapolis was asked to
participate in the meeting.
      Bowman told the OIG that it was “quite unusual” for him to be consulted
about a particular FISA request. He said that it also was unusual for the field
office to be so adamant that it had sufficient evidence to obtain a FISA warrant
and for the Headquarters SSA to be as adamant that the FISA warrant was not
sufficiently supported.
      Martin orally briefed Bowman about the facts of the Moussaoui case but
did not provide him with any of the documentation that he had with him.
Robin told the OIG that she thought that Bowman was very familiar with the
facts because he had been briefed by other attorneys who had been involved in
the matter.
      Martin said that Bowman advised that even if everyone were to agree that
the Chechen rebels could be pled as a foreign power, the Minneapolis FBI
lacked sufficient evidence to establish that Moussaoui was an agent of that
foreign power. Martin told the OIG that Bowman said that Tufitri stating that
Moussaoui told Amnay how to serve Allah by fighting with the Chechen rebels
did not meet the standard of an agent of a foreign power.
      According to Bowman, Martin conveyed the opinion that he did not
believe there was sufficient information for a FISA. Bowman said he was
aware that Moussaoui was a French citizen who had overstayed his visa, that
he was a bad flight school student who paid in cash and who could not
satisfactorily explain how he was being supported in the United States, that he
was asking odd questions about the airplane (such as whether you could open
the doors during flight), that he was more interested in learning how to take off
and land the airplane than flying it, that he was traveling with a friend who did
not seem to share his interest in aviation, and that the French authorities had


                                      164
reported that Tufitri was blaming Moussaoui for recruiting Amnay to fight in
Chechnya on behalf of the rebels there.
       Bowman told the OIG that he did not believe, based upon the facts, that
there was sufficient evidence of a link to a foreign power. He said that he was
aware that the Minneapolis FBI wanted to argue that because there was some
connection between Moussaoui and Khattab and because there was a
relationship between Khattab and Bin Laden, Moussaoui was an agent of al
Qaeda. Bowman said that it was his understanding that it was common
knowledge that Khattab and Bin Laden had “some kind of relationship,” but in
his opinion this was not a close enough link to argue that Moussaoui was an
agent of al Qaeda. Bowman also stated that one Muslim encouraging another
Muslim to fight in a Muslim cause was not sufficient to meet the requirements
of an agent of a foreign power under FISA. 137
       We asked Bowman whether he had read the Phoenix EC and whether it
would have made a difference in his advice. Bowman stated that he read the
Phoenix EC only after September 11, but that he believed for several reasons it
would not have made any difference if he had read it at the time. He asserted
that the Phoenix EC was a routine communication pointing out what a field
office believed was an “anomaly” and that it was not an “alarmist”
communication. In addition, he said that the Phoenix EC did not connect any
of the people referenced in the Moussaoui case with any foreign power. He
said that it did not “associate Moussaoui with anything.”
      After meeting with Bowman, in an e-mail to Gary and Acting SAC Roy,
Martin informed the Minneapolis FBI of Bowman’s opinion that there was
insufficient evidence of a connection to a foreign power. Martin wrote:
      We just left a meeting w/ Spike Bowman, #1 in NSLU. He says
      we have even less than I thought. Apparently, even if we could
      show that the ZM that recruited [the person] in France is the one


    137
        As discussed in Chapter Two, the legislative history of FISA provides that to meet
the definition of an agent of a foreign power, there must be “a nexus between the individual
and the foreign power that suggests that the person is likely to do the bidding of the foreign
power” and that there must be a “knowing connection” between the individual and the
foreign power.



                                             165
      you have locked up in INS detention, we still don’t have a
      connection to a foreign power. We would need intel to indicate
      the guy was actually a part of the group, an integral part of the
      movement or organization, and not just an individual
      [redacted].”
In the e-mail, Martin advised Gary to call him to discuss the next course of
action. Roy responded by e-mail and wrote, “Thanks for your help and
continued support.”
       Gary’s notes indicate that Martin and Gary also spoke on the telephone
after the Bowman meeting and Martin explained that the FBI needed more
information linking Moussaoui to a foreign power. The notes state that Martin
told Gary, “we need [Moussaoui] to be an integral part of a terrorist
organization.” 138 The notes also indicate that Martin conveyed that more
intelligence information was needed on “how he is acting on behalf of a
foreign power.” The notes state: “Bottom Line – You don’t have a foreign
power.” The notes also state that Martin advised Gary to ensure that
Moussaoui was entered on a watch list and that the FBI’s Paris Legat was
contacted about deportation arrangements for Moussaoui (which we discuss
below).

           18. Additional information about Al-Attas and Moussaoui

                 a.   Minneapolis FBI explores use of undercover officer in
                      Moussaoui’s jail cell
     In an e-mail from Gary to Roy on August 29, Gary wrote that he and
Henry were “exploring the feasibility” of inserting an undercover officer who
spoke Arabic in Moussaoui’s jail cell “in an attempt to elicit from Moussaoui


    138
        Bowman told the OIG that Martin accurately conveyed his advice that even
assuming that there was a foreign power to which the FBI could attempt to connect
Moussaoui, the Minneapolis FBI lacked sufficient evidence to establish that Moussaoui was
acting as an agent on behalf of a foreign power. He stated, however, that Martin’s
interpretation of his advice that agency law requires a showing that the target was an
“integral part” of the terrorist organization was not correct. He opined that the agency
standard required a showing that the target was “serving the interest” of the foreign power.



                                            166
the name of (or descriptive information which would identify) the recognized
foreign power with whom he is aligned.” Gary told the OIG that Roy, Charles,
and Rowley all were consulted about this idea, and all of them stated that they
did not see any limitations that would prevent this from occurring. Gary noted
in the e-mail that the Minneapolis FBI did not know yet whether the use of the
undercover officer for the proposed operation had been approved.
      Roy provided the information about using an undercover officer to Don
in an e-mail in which he wrote, “The use of the [undercover officer] is also
exploratory as we do not want to leave any stone unturned prior to
[Moussaoui’s] release.” Don responded in an e-mail and wrote, “Let us look
into this asap. Do NOT go forward with the [undercover officer] until we
weigh in . . ..” Roy replied, “We were only been [sic] exploring the possibility
of the [undercover officer] – we are by no means ready to go forward with it.
The point may be moot because it seems the deportation to France is a more
likely outcome and it may be more timely.”
      Don told the OIG that he discussed the issue with an employee detailed
to ITOS with expertise in this area and that the employee stated that the idea
was “ridiculous” and that it could not be done. Don said that having an
undercover employee involved with something in which information could be
obtained that might be used in a criminal proceeding was problematic since the
undercover officer would not be in a position to testify. According to Don, he
conveyed this information to Roy, and Minneapolis did not pursue this idea
further.

              b.   Translations of recorded conversation between Al-Attas
                   and “Ahmed” and Al-Attas’ will
      With regard to Al Attas, Henry asked an Arabic speaker who was not
employed by the FBI to translate Al-Attas’ will, and to translate and transcribe
the tape of a 9-minute conversation between Al-Attas and the individual we
call “Ahmed,” the imam from Al-Attas’ mosque whom Al-Attas called while
he was in custody. According to an e-mail from Gary to Roy on August 29, the
translation by the translator stated Ahmed had said on the tape, “I heard you
guys wanted to go on Jihad.” Gary’s e-mail also stated that the translator
reported that Al-Attas immediately responded on the tape, “Don’t talk about
that now.” In addition, Gary’s e-mail stated that the translator informed the
Minneapolis FBI that Ahmed became very upset when he heard that

                                      167
Moussaoui was going to be deported. Gary’s e-mail added that, according to
the translator, the translation of the will that Al-Attas had with him stated that
“death is near” and that “those who participate in Jihad can expect to see
God.” 139
      On August 29, Roy transmitted the information from the will to Don by
e-mail, stating, “I obtained some additional information this afternoon and I am
forwarding that to you. Please understand that this is only preliminary and we
realize the interpretation was not done by a certified linguist.” Roy did not ask
that Don do anything in particular with the information.
      Don responded by e-mail, writing, “The ‘will’ is interesting. The Jihad
comment doesn’t concern me by itself in that this word can mean many things
in various muslim [sic] cultures and is frequently taken out of context.” Don
told the OIG that the term “jihad” often was used and had many different
meanings.

           19. Failure to reconsider seeking a criminal warrant
       After Martin conveyed to the Minneapolis FBI that FBI Headquarters
believed that the FISA warrant was not feasible, the Minneapolis FBI and FBI
Headquarters began taking steps to finalize Moussaoui’s deportation. Yet,
neither FBI Headquarters nor the Minneapolis FBI reconsidered the criminal
search warrant issue or trying to contact the Minneapolis U.S. Attorney’s
Office (USAO) about a criminal search warrant, even after the legal decision
was made that insufficient evidence existed to obtain a FISA warrant. Initially,
as noted above, the decision was made not to seek a criminal warrant, in part
because if a criminal warrant was not obtained, this would violate the “smell
test” and jeopardize the chances of obtaining a FISA warrant. Once the FISA


    139
        The will and the tape also were sent to the FBI’s Chicago Field Office for translation
and transcription by an FBI linguist, which was completed around September 6, 2001. The
Chicago translation of the tape was the same as that of the initial translator: “Sheikh do not
talk about it now. Do not talk about it now sheikh.” The Chicago translation said the will
stated that “death has approached” and expressed Al-Attas’ hope that “Allah will award him
with paradise and keep him with the prophets, martyrs and pious.” Henry forwarded these
translations to FBI Headquarters in an e-mail dated September 6, 2001, with a lead that
stated “For information.”



                                            168
warrant was ruled to be unobtainable because of the foreign power
requirement, the smell test was no longer an issue. Yet, no one sought to
attempt to obtain a criminal warrant, or apparently even discussed this issue.
      Don told the OIG that he did not know why he, Martin, or the
Minneapolis agents did not raise the issue again about seeking a criminal
search warrant, once a decision was made not to pursue the FISA warrant. He
suggested that it did not happen because no one thought to raise the matter
again. Don said that looking back on the matter now, he wished that there had
been a discussion about seeking a criminal warrant once the FISA route was
exhausted. Martin told the OIG that if the Minneapolis FBI believed that it had
sufficient evidence to obtain a criminal search warrant, then the Minneapolis
FBI should have raised the issue. He said, however, that he did not believe that
there was sufficient evidence of a crime to obtain a criminal search warrant.
     When Henry was asked why he did not propose seeking a criminal
warrant once the FISA route was exhausted, he responded, “I never thought
about it.” He stated that he “could have done that but it did not occur to
[him].” Gary told the OIG that he did not pursue a criminal search warrant
because FBI Headquarters would not obtain the requisite authorization from
the Department of Justice. Rowley told the OIG that she did not know why a
criminal warrant was not sought once the FISA route was exhausted. She
noted that she did not have a leadership role in the case and she felt that the
people who were involved knew what they were doing.

           20. Additional French information received about Moussaoui
      On August 30, the FBI’s Paris ALAT provided additional French
information to the Minneapolis FBI and FBI Headquarters about Moussaoui.
The ALAT’s report included information from a person who we call “Idir”
who knew Moussaoui. 140 Idir confirmed the relationship between Moussaoui
and Amnay. Upon learning of Amnay’s death, Idir had accused Moussaoui of
causing the death. Idir explained that Moussaoui had become a radical
fundamentalist and that he had brought Amnay to these beliefs. He said that


    140
         We do not use Idir’s real name because the FBI considers that information to be
classified.



                                            169
Moussaoui and Amnay “were inseparable, one was the head and the other was
the armed hand of the same monster.” Amnay states that when Moussaoui had
come to his community, Idir had warned the local Muslim community of the
moral danger Moussaoui posed to young Muslims and that Moussaoui was
“driven from at risk urban areas by his coreligionists for propagating
hismessage of intolerance and hatred.”
      The report from the Paris ALAT also stated that Idir recalled that
Moussaoui had traveled to Kuwait, Turkey, and Afghanistan. Idir said
Moussaoui was a “strategist” who was potentially very dangerous and was
devoted to Wahabbism, the Saudi Arabian sect of the Islamic religion adhered
to by Bin Laden. Idir also described Moussaoui as “extremely cynical” and “a
cold stubborn man, capable of nurturing a plan over several months, or even
years and of committing himself to this task in all elements of his life.” The
date of birth Idir provided for Moussaoui was the same as the one in
Moussaoui’s passport, which had been seized upon his arrest in Minneapolis.
      The Paris ALAT’s report also stated that the ALAT had inquired with the
French authorities about deporting Moussaoui to France and that the French
authorities were interested in pursuing the matter. In the lead portion of the
EC, the Paris ALAT wrote a lead for the Minneapolis FBI that stated, “With
FBIHQ concurrence and assistance, advise Legat Paris of interest in further
exploring the possibility of deporting [Moussaoui] by U.S. law enforcement
escort to France as described in the text of this EC.” The lead for the RFU was
a “read and clear” lead.
      Gary’s notes indicate that Martin brought this new information to Gary’s
attention in a telephone call on August 30. In addition, Martin advised him that
the French government would be able to hold Moussaoui for several days with
his property quarantined. The notes reflect that Martin told Gary that the
French authorities were “very interested in Moussaoui” and that they wanted
him “escorted to France” and his “property quarantined.” Gary’s notes also
indicate that Martin advised Gary that the French terrorism statutes would
allow the French to hold Moussaoui for “several days to determine what he’s
up to.”




                                      170
     G. Deportation plans
       Martin and the Minneapolis FBI coordinated with the INS to finalize
plans for Moussaoui’s deportation. Under the law, Moussaoui could be
deported to either France, his country of citizenship, or England, his country of
last residence. The French advised that they could hold Moussaoui and search
his belongings, and on approximately August 30, it was decided to deport
Moussaoui to France.
      During the deportation planning, the Minneapolis FBI and the FBI Paris
ALAT requested permission from FBI Headquarters for Henry and an INS
agent to accompany Moussaoui to France in order to brief French authorities
and to assist in evaluating the information obtained in the search. Minneapolis
Acting SAC Roy wrote in an August 30 e-mail to Don that the French
authorities were requiring that Moussaoui be accompanied by a law
enforcement officer from the United States and that Moussaoui’s property be
kept separate from him. Roy wrote, “If possible, we would like the
Minneapolis agents to be present while the exploitation of the computer is
conducted so we can act immediately on any information obtained.”
      Don initially was opposed to sending FBI agents to escort Moussaoui.
He sent a reply e-mail to Roy on August 31 stating that he believed that the
deportation of Moussaoui should “remain an INS issue.” (Emphasis in
original.) Don wrote in the e-mail the Minneapolis FBI should ensure that the
FAA was involved and noted that FAA sky marshals were armed.
      Section Chief Rolince told the OIG that he also was initially opposed to
sending a Minneapolis agent with Moussaoui to France. He said that at first he
thought it was unnecessary because, based on his past experience, the agent
would have accompanied Moussaoui in an attempt to obtain information. He
said that he changed his mind when it later was explained to him that the
Minneapolis agent was going to accompany Moussaoui as part of an overall
strategy to ensure that Minneapolis obtained all of the information from the
search and further investigation.
      Roy replied by e-mail to Don a few minutes later and asked whether
Don’s e-mail meant that FBI Headquarters would not support a Minneapolis
agent accompanying Moussaoui to France. Gary also provided additional
information to Don, such as that the French authorities preferred that an FBI
agent accompany Moussaoui to France and that Martin had informed the

                                      171
Minneapolis FBI that FAA sky marshals would not be traveling with
Moussaoui. 141
       Don replied by e-mail three hours later, stating that he could not discuss
the matter at the moment but would call Roy the following week. Don added
that he did not believe that the FBI would be turning over the case to the
French authorities by not sending an FBI agent to escort Moussaoui. He added
that the FBI’s Paris ALAT would be present for the search and had been
involved with the Moussaoui investigation from the beginning.
      On September 4, Don, Martin, and Roy received an e-mail from the Paris
ALAT in which he stated that he wanted to confirm the deportation plans. He
wrote that it was his understanding that the proposal was to send Moussaoui to
Paris with an INS escort and the FBI case agent. The ALAT noted that “[t]his
would fit nicely with what the French have requested” and that the agents
would need to stay in France a couple of days to assist with briefing the French
authorities and to obtain the results of the search by the French authorities.
Martin replied by e-mail that Don “still [held] the position that [Moussaoui]
will be escorted by INS, and that no FBI personnel is needed.” Martin also
wrote that because the case had been opened only two weeks and because the
interviews were well documented, the ALAT and the French authorities should
be able to handle the case without the FBI sending the case agent.
      The Paris ALAT responded by e-mail to Don, providing his opinion on
whether a Minneapolis agent should accompany Moussaoui to France. The
ALAT stated that he did not feel that he was in a position to adequately answer
some questions that could be raised about the FBI’s investigation of
Moussaoui, such as other investigation conducted of which the ALAT was
unaware, and questions about Moussaoui’s personality for purposes of
approaching him in an interview. He wrote that he therefore believed that an
agent from Minneapolis or FBI Headquarters should accompany Moussaoui.
      Don responded to the ALAT’s e-mail the same day. He wrote, “Do we
need to fly FBI agents all over the world to conduct basic investigation. [sic] I
don’t like the idea of [a Minneapolis FBI agent] ‘escorting’ this guy --- This is

    141
       Martin’s e-mail about the FAA stated, “[The FAA] did not indicate a desire to escort
the guy, and indicated the INS escort would suffice.”



                                           172
not that complicated. It may be to [sic] late, but in the future I would like [the
ALAT] to handle such matters.”
      The next day, September 5, Henry e-mailed Martin about a meeting he
had with the INS supervisor who was going to be responsible for sending
Moussaoui to France. Henry explained that the INS supervisor had raised a
number of issues about the deportation of Moussaoui and recommended that
the FBI request that the INS transport Moussaoui on a government aircraft (a
Justice Prisoner Alien Transportation System (JPATS) flight). Martin
responded to this e-mail by stating that he would discuss the issue with the INS
supervisor assigned to the RFU. Martin also forwarded the e-mail to Don.
       Don replied the next day, September 6, writing, “Isn’t a JPATS flight
awful expensive for a guy SUSPECTED of being up to no good??? Again, I’m
of the belief that we consider that a FAA sky marshal(s) be present on the
flight.”
      According to Gary, he repeatedly asked Roy to raise the issue at a higher
level at the FBI regarding Minneapolis agents accompanying Moussaoui to
France. According to Gary, Roy was waiting for a call back from Don, and
because Don had not given Minneapolis a definite “no,” Roy was hesitant to go
up the chain of command.
      According to Roy, he did not hear from Don about the deportation issue.
When Don still had not responded by Monday, September 10, Roy sent another
e-mail to Don asking whether he had given consideration to a Minneapolis FBI
agent escorting Moussaoui.
     Don replied by e-mail a few hours later stating that FBI Headquarters
decided to concur with a Minneapolis agent accompanying Moussaoui to
France.
      Gary also told the OIG that he had suggested at some point that Roy “go
up” the chain of command about Minneapolis’ FISA request, but that Roy did
not. Gary told the OIG that he believed that Roy was “not aggressive enough”
because he did not appeal to anyone in upper management at FBI
Headquarters, but that Roy may have decided to focus on the deportation issue
and “drop” the FISA issue. Gary told the OIG that he believed that part of the
reason that Roy did not contact anyone above Don about the Moussaoui FISA
request was because he was an acting SAC, and also possibly because Roy did


                                       173
not have any international terrorism experience. Gary also said that Gary
himself was “on a learning curve too,” and that if he had more experience, he
would have sought assistance from someone above Don with trying to get FBI
Headquarters to submit the Moussaoui FISA request to OIPR.
      Roy responded to this issue by stating that he did not go above Don
because, before the September 11 attacks, there was no apparent “urgency” to
the Moussaoui matter, and he believed that the Minneapolis FBI had taken the
matter through the appropriate channels, since the head of the NSLU also had
given his opinion on the FISA request. Roy added that shortly after Bowman’s
opinion was received, the deportation plan was in place and that plan was
going to result in Moussaoui’s belongings being searched, which was what
Minneapolis was attempting to achieve.

    H. Dissemination of information about Moussaoui
      On August 28, Don received an e-mail from the FBI detailee to the CIA
who we call Craig, which indicated that the CIA had not yet received a formal
communication from the FBI about the FBI’s requests in the Moussaoui
investigation. Don e-mailed Martin and Robin on August 31 to request that
they prepare a “comprehensive teletype” to the CIA about Moussaoui. Don
wrote that they should pass to the CIA all information, such as biographical
information, pocket litter, and telephone numbers, and formally ask for traces
on all of the information even though the requests already had been made
informally. Don noted that the information needed to be in “formal channels”
and instructed Martin and Robin to include the Minneapolis FBI and
appropriate Legat offices on the teletype so that the offices would know what
FBI Headquarters was doing. Martin replied that he had spoken to Craig about
the lack of a formal request and that Martin had begun preparing a teletype, but
that he had not yet completed it.
       On the same day, in an e-mail from Don to Roy in which Don
recommended that FAA sky marshals be used to escort Moussaoui when he
was deported to France, Don wrote that he “would also suggest that
[Minneapolis] ensure FAA is on board (figuratively and literally). FAA needs
to know that FBI suspects that your subject may have been up to no good
which included his desire to obtain 747 pilot training.” Roy responded in an e-
mail that the Minneapolis FBI was working on an LHM and would disseminate
it to the FAA in Minneapolis as soon as possible.

                                      174
       Henry told the OIG that he began drafting an LHM to the FAA and that
he thought it was important to inform the FAA that Minneapolis believed that
Moussaoui wanted to seize control of an airplane and that he might be released
soon after he was back in France. Henry prepared a 7-page LHM in which he
summarized the FBI’s investigation, including what the FBI had learned from
the flight school employees about Moussaoui and his interest in and ability to
use the mode control panel. Henry noted, “While it is not known if his
physical training and study of martial arts are also connected to this plan, such
preparations are consistent with facilitating the violent takeover of a
commercial aircraft.”
      Henry also included a section at the end of the LHM labeled “threat
assessment” in which he wrote:
           Minneapolis believes that Moussaoui, Al-Attas, and others
     not yet known were engaged in preparing to seize a Boeing
     747-400 in commission of a terrorist act. As Moussaoui denied
     requests for consent to search his belongings and was arrested
     before sufficient evidence of criminal activity was revealed, it is
     not known how far advanced were his plans to do so.
Henry wrote that the French authorities were planning to receive Moussaoui
into custody when he was deported and would search his belongings, but that it
was not known whether he could be detained over the long term. Henry added
that “most significantly” it was unknown whether the French authorities would
be able to retain Moussaoui’s property indefinitely, including the flight
manuals and “materials believed to be contained on his laptop which pertain to
his plan.” Henry wrote that if the materials were returned to Moussaoui and he
was released, “Moussaoui may have the ability to continue with his plan to
utilize a 747-400 for his own ends.” Henry added, “As the details of his plan
are not yet fully known, it cannot be determined if Moussaoui has sufficient
knowledge of the 747-400 to attempt to execute the seizure of such an aircraft
if he becomes free to do so in the future.”
      On September 4, Gary discussed this LHM with Martin. According to
Gary’s notes of the conversation, Martin told him not to provide the LHM to
the FAA because FBI Headquarters was issuing a teletype that day to all
agencies. Martin instructed Gary to provide the local FAA office with a copy
of the teletype once it was received in Minneapolis.


                                      175
      Martin’s 11-page teletype was issued on September 4. It was addressed
to the FBI Minneapolis and Oklahoma City offices, six FBI Legat offices, the
CIA, FAA, Department of State, INS, U.S. Secret Service, and U.S. Customs
Service. The teletype consisted of a summary portion and the details of the
Moussaoui investigation. In the summary portion of the teletype, Martin wrote
that Moussaoui had been detained on a visa waiver overstay violation after he
was brought to the attention of the FBI by instructors at the Minneapolis flight
school, who had become suspicious of him because he was taking flight
simulation training for a 747-400 aircraft. The teletype stated that this training
is normally given to airline pilots, and that Moussaoui had no prior experience
and had paid $8,300 in cash for the course. The teletype included the
information received from the French authorities about Moussaoui, including
that he adhered to radical Islamic fundamentalist beliefs and he had recruited a
person to join the jihad against Russian forces in Chechnya. It also included
the later information received from the French, such as the description of him
as “full of hatred and intolerance and completely devoted to the Wahabite
cause” and that he was “considered to be potentially very dangerous because of
his beliefs and the nature of his character.” The teletype added that Moussaoui
had traveled to Pakistan for two months prior to his arrival in the United States
and that “it is noted that Islamic extremists often use Pakistan as a transit point
en route to receiving training at terrorist camps in Afghanistan.”
      After the summary portion of the teletype, Martin included specifics from
the investigation, most of which were taken from the 26-page EC prepared by
Henry at the initiation of the investigation. Unlike the LHM Henry had
prepared to give to the FAA, however, the teletype did not contain a threat
assessment or any indication that the Minneapolis FBI believed that
Moussaoui, Al-Attas, and others not yet known were engaged in preparing to
seize an airplane in commission of a terrorist act.
       On September 5, Henry and an INS agent provided Martin’s teletype to
the FAA office in Minneapolis and briefed FAA employees on the threat that
the Minneapolis FBI believed Moussaoui posed. Henry told the OIG that
while the teletype contained most of the facts of the investigation, it lacked
conclusions and analysis and had “no statement of opinion as to the threat that
this represents.”
     Martin told the OIG that at the time that he was preparing the teletype, he
was not aware that the Minneapolis FBI was preparing an LHM to provide to

                                       176
the local FAA office. He stated that he discussed to whom to address his
teletype with the IOS at FBI Headquarters who prepared teletypes for the FBI
when it disseminated threat information, and he also discussed the contents of
the teletype with an FAA employee detailed to FBI Headquarters. Martin told
the OIG that he included in the teletype what he believed was supported by the
facts of the investigation. He asserted that Minneapolis had a “gut feeling” that
Moussaoui was “up to no good,” but did not have intelligence information of
an ongoing plot or plan to hijack an airplane.
       Don told the OIG that the FBI used teletypes to disseminate facts
gathered from an investigation and to disseminate information about threats.
He said that Martin’s teletype was a compilation of the facts and did not
“speculate as to what Moussaoui was up to.” Don said that the FBI anticipated
that the recipient agencies would provide the FBI with their reactions to the
teletype or information that was relevant to the teletype.

    I.   September 11 attacks
      On September 10, Henry received an e-mail from Carol, the FBI
Headquarters employee whom he had contacted for more information about
Khattab’s connections to Al Qaeda. She asked whether Henry had ever
received anything that he could use in support of a search warrant for
Moussaoui’s belongings. Henry responded that the RFU had determined that
Minneapolis had insufficient evidence to pursue either a FISA or a criminal
warrant. He noted that Minneapolis “did not pursue this further because [FBI
Headquarters has] directed that this is an INS matter.” He added that he
“strongly disagree[d].” He also wrote that Moussaoui was being deported to
France and that his “big fear” was that Moussaoui would be released following
his deportation. He concluded by thanking Carol for her assistance.
      Carol responded a few minutes later by e-mail in which she wrote,
“Thanks for the update. Very sorry that this matter was handled the way it was,
but you fought the good fight. God Help [sic] us all if the next terrorist
incident involves the same type of plane.”
       On the morning of September 11, at 8:34 a.m. Eastern Standard Time,
Martin sent an e-mail to Gary finalizing plans for Moussaoui’s deportation,
which the FBI believed would occur within several days. Just 12 minutes later,
the first hijacked airplane hit the north tower of the World Trade Center.


                                      177
       After the first airplane hit, Martin tried to call Minneapolis ASAC
Charles but reached Rowley instead. According to Rowley, she told Martin
that it was essential to get a criminal search warrant for Moussaoui’s
belongings. Rowley said that Martin instructed her that Minneapolis should
not take any action without FBI Headquarters approval because it could have
an impact on matters of which she was not aware. In her May 20, 2002, letter
to the FBI Director, Rowley wrote that in this conversation with Martin she had
said “in light of what just happened in New York, it would have to be the
‘hugest coincidence’ at this point if Moussaoui was not involved with the
terrorists.” Rowley wrote that Martin replied “something to the effect that I
had used the right term ‘coincidence’ and that this was probably all just a
coincidence.” Rowley told the OIG that she agreed to follow Martin’s
directive not to immediately seek a criminal warrant, and she was told that FBI
Headquarters would call her back.
      Martin told the OIG that he recalled that there was a lot of confusion
when he spoke to Rowley. Martin said that he did not recall making the
statement about a coincidence to Rowley. He explained to the OIG that he did
not feel comfortable giving legal advice about seeking a criminal warrant, so
he went to the NSLU attorney who we call Tim, who advised that the
Minneapolis FBI should seek the criminal search warrant.
      While Rowley was waiting for a return call from FBI Headquarters,
Minneapolis ASAC Charles was on the telephone with Don. Because Acting
SAC Roy was out of the office, Charles was responsible for the Minneapolis
office and had called FBI Headquarters immediately after the first airplane hit
the World Trade Center. Charles had reached Don and asked him for
permission to seek a criminal search warrant for Moussaoui’s belongings.
According to Charles, Don responded that he still did not believe that there was
enough evidence to support a criminal search warrant. Charles stated that,
during the course of this conversation the Pentagon was hit by another hijacked
airplane, and that Don then told Charles to go to the USAO for a criminal
warrant.
     Don confirmed that he spoke to Charles on the morning of September 11.
He asserted that he immediately told Charles that the Minneapolis FBI could




                                      178
seek a criminal warrant. 142 Don told the OIG that it was a brief conversation
that lasted several seconds at the most.
      Once Don authorized contact between the Minneapolis FBI and the
Minneapolis USAO, Henry and Rowley went to the USAO to obtain a criminal
search warrant for Moussaoui’s belongings. They consulted with several
senior Assistant United States Attorneys, and drafted an affidavit in support of
the search warrant. The affidavit stated that there was probable cause to
believe that the laptop computer and other items seized from Moussaoui would
contain evidence of a violation of 18 U.S.C. § 32 – destruction of aircraft or
aircraft facilities. The affidavit contained much of the information reported in
Henry’s 26-page EC about Moussaoui’s interactions with the flight school and
interviews with the Minneapolis FBI, as well as the information from Al-Attas’
will and from the transcribed conversation of Al-Attas while he was in custody.
The affidavit also included information about the September 11 attacks on the
World Trade Center and the Pentagon. The search warrant was granted that
day.
      The FBI searched Moussaoui’s belongings that were being held at the
INS offices in Minnesota, including the laptop computer, associated computer
software such as diskettes, spiral bound notebooks, clothes, and a cellular
telephone. The return from the search warrant stated that the following items,
among other things, were found: a pair of shin guards; a Northwest Airlines
747 cockpit operating manual; two 747 training videos; seven spiral notebooks
containing handwritten notes about aviation; a Microsoft flight simulator book;
a PowerPoint compact disc; a cell phone; binoculars; headphones; a skullcap; a
cassette recorder; European coins; eyeglasses; disposable razors; and several
documents, including financial records, blank checks, and identification papers
from France.
      Moussaoui’s belongings did not reveal anything that specifically provided
a warning or an indication of an imminent terrorist attack. There were no plans,
correspondence, or names or addresses in his computer or notebooks that linked
him directly to the September 11 terrorist attacks. However, information was


    142
        The 1995 Procedures provided that the FBI could go directly to the USAO without
obtaining permission from the Criminal Division if “exigent circumstances” were present.



                                           179
obtained in the search that, through further traces, was used by the government
to indict Moussaoui for conspiring in the September 11 terrorist plot.

     J.    Information received from British authorities on September 12
           and 13
       On September 11, after the attacks, the London Legat again requested
information about Moussaoui from the British. According to British reports
that the FBI reviewed on September 12 and 13, Moussaoui had attended an al
Qaeda training camp in Afghanistan.
       It is not clear why the information from the British was not provided to
the FBI until after September 11. The FBI’s ALAT in London first contacted
the British authorities by telephone and in a written communication dated
August 21. The ALAT summarized the status of the FBI’s investigation of
Moussaoui, provided a document describing the results of the investigation at
that time, and asked for traces to be conducted on Moussaoui and all of the
individuals listed in his communication and in an enclosed document.
       The ALAT told the OIG that he had had several meetings and telephone
calls with the British authorities in which Moussaoui was discussed. He said
that the British were well aware of the importance of the matter. In addition, he
said that on September 5 he provided the British with the additional information
about Moussaoui that the FBI had received from the French authorities. The
ALAT told the OIG that he did not know why the British authorities failed to
provide the information about Moussaoui sooner. However, he said that 10 to 15
days to respond to a request for information from the FBI was normal.

     K.     Moussaoui’s indictment
      On December 11, 2001, Moussaoui was indicted by a grand jury on six
conspiracy counts directly related to the September 11 attacks. He is still
awaiting trial. 143




    143
        On July 22, 2002, Al-Attas pled guilty to making false statements to federal
investigators. He was sentenced on October 22, 2002, to time served.



                                            180
III. OIG Analysis
      We concluded that there were significant problems in how the FBI
handled the Moussaoui case. In our view, these problems were attributable to
both systemic issues in how the FBI handled intelligence and counterterrorism
issues at the time, as well as to individual failings on the part of some of the
individuals involved in the Moussaoui case.

    A. No intentional misconduct
      At the outset of our analysis, we believe it is important to state that we
did not conclude that any FBI employee committed intentional misconduct, or
that anyone attempted to deliberately “sabotage” the Minneapolis FBI’s request
for a FISA warrant, as Rowley wrote in her letter to FBI Director Mueller. For
example, Rowley argued that Martin edited the initial FISA request submitted
by the Minneapolis FBI and omitted information to “deliberately further
undercut the FISA effort.” Rowley also suggested that as part of the alleged
sabotage, FBI Headquarters personnel failed to make Minneapolis aware of the
Phoenix EC.
      As we discuss below, we believe that Rowley’s letter raised significant
problems in the way the Moussaoui investigation was handled, and we criticize
some of the actions of FBI employees. Her letter also alluded to broader
problems that existed in how the FBI handled intelligence matters and FISA
requests. But contrary to her assertions, we found no evidence, and we do not
believe, that any FBI employee deliberately sabotaged the Moussaoui FISA
request or committed intentional misconduct.

    B.   Probable cause was not clear
      Rowley asserted in her letter that FBI Headquarters inappropriately failed
to seek a FISA warrant even though probable cause for the FISA became clear
when the FBI received the French information that Moussaoui had recruited
someone to fight in Chechnya on behalf of the rebel forces led by Ibn Khattab.
As we discuss below, in our view the standards that the FBI applied towards
FISA requests before September 11 were unduly conservative, and FBI
Headquarters did not fully or appropriately analyze the French information, as
well as other pieces of information regarding Moussaoui, for how it could be
used in the FISA process or in connection with obtaining a criminal warrant.


                                      181
      But according to the prevailing FBI and DOJ practices at the time, it was
not clear that the French information, or other available information, was
sufficient to obtain a warrant from the FISA Court. Prior to September 11,
2001, the Chechen rebels led by Khattab had not been designated by the State
Department as a foreign terrorist organization. FBI managers and attorneys we
interviewed told us that they believed that the Chechen rebels had not been
pleaded as a foreign power before the FISA Court previously. In addition, they
stated that while it may have been theoretically possible to use the Chechen
rebels as a new foreign power in FISA applications to the FISA Court, FBI
Headquarters was operating under the belief that OIPR would not plead a
foreign power in a FISA request that had not previously been pled. In addition,
several FBI witnesses stated that the intelligence at the time suggested that
Khattab and the Chechen rebels were involved only in a civil war and were not
interested in harming U.S. interests, and they believed this assessment would
have caused OIPR not to support using the Chechen rebels as a foreign power
in a FISA application. The FBI witnesses stated that even if the CIA had
evidence that would have supported articulating the Chechen rebels as a
foreign power for a FISA application, “building” a new foreign power for a
FISA application was a process that took several months to complete, and the
Moussaoui FISA warrant was needed more quickly because he was about to be
deported.
       The Minneapolis FBI believed that the foreign power connection was
also established because Moussaoui was connected to Khattab, who was linked
to Usama Bin Laden. Yet, several FBI employees we interviewed stated that
while there was some association between Khattab and Bin Laden, the latest
intelligence information indicated Khattab was not part of the al Qaeda
organization, and that Khattab did not take direction from Bin Laden.
      In an effort to examine whether probable cause was clear with regard to
the Minneapolis FBI’s request for a FISA warrant, we asked James Baker, the
current head of OIPR, to review the documentation in the Moussaoui
investigation and provide us with his assessment as to whether there was a
sufficient connection between Moussaoui and a foreign power to support a




                                     182
FISA warrant. 144 He opined that the case for a FISA warrant was “not a slam
dunk” and that there were “no conclusively damning facts” to establish the
necessary connection to a foreign power. However, he said that, while he
could not say conclusively how he would have responded if he had been asked
to review the Moussaoui matter in August 2001, he thought it might have been
possible to argue that Moussaoui and the other individuals who had surfaced in
the investigation were operating as an al Qaeda cell in the United States.
Alternatively, he said that it was possible to argue that Moussaoui, Al-Attas,
and the other individuals who surfaced in the investigation were their own
small, unnamed foreign power, since the FISA legislative history provides that
a foreign power can be a group as small as two individuals.
      Baker stated that if the request for a FISA warrant had been presented to
OIPR for consideration in August 2001, he would have “asked lots of
questions” about it. He said that he would have been concerned about such a
FISA application because the Minneapolis FBI had at first wanted to go to the
U.S. Attorney’s Office to seek a criminal search warrant, and he believed this
would have raised questions with the FISA Court that the FBI was trying to use
FISA to pursue a criminal investigation. He said that in order to obtain a FISA
warrant, OIPR likely would have recommended a wall between the two
investigations.
      Baker’s analysis confirmed our view that, contrary to Rowley’s
allegations, the Minneapolis FBI did not have a completely clear case for a
FISA warrant in the Moussaoui case that would have been easily approved had
the FBI and OIPR sought one from the FISA Court. Given the standards and
prevailing practices at the time, FBI Headquarters’ assessment that it could not
establish Moussaoui’s connection to a foreign power with OIPR or the FISA
Court was not completely off base, as alleged by the Minneapolis FBI. Nor do
we believe that FBI Headquarters’ failure to seek a FISA warrant was a result
of any intent to “sabotage” the Moussaoui case. But, as we discuss below, we


    144
       As stated previously, Baker joined OIPR in October 1996 and became the Deputy
Counsel in 1998. In May 2001, he was named Acting Counsel, and in January 2002 he
became the Counsel. Before we showed him the documents, Baker had not previously
reviewed the Moussaoui information.



                                         183
believe the FBI Headquarters’ handling of the Moussaoui request and other
FISA requests was unduly conservative and problematic in various ways.

    C. Problems in the FBI’s handling of the Moussaoui investigation
      The handling of the Moussaoui case highlighted that the Department’s
narrow interpretation of the “purpose” requirement under FISA before
September 11, 2001, was a severe impediment to obtaining FISA warrants.
We also question how the FBI examined the interaction between a potential
criminal case and an intelligence case in the context of the Moussaoui
investigation.
      We believe the FBI did not carefully consider its options at the outset of
the Moussaoui investigation, and it inexplicably failed to consider whether it
should seek a criminal warrant once the decision was made that a FISA warrant
should not be sought. Moreover, it did not adequately disseminate, within or
outside the FBI, the information from the Minneapolis FBI about the potential
threat posed by Moussaoui.
      The Department’s interpretation of FISA was conservative prior to
September 11 for a variety of reasons. This conservative interpretation was
exacerbated in the Moussaoui case by the fact that many of the FBI’s decisions
were informed only by what FBI Headquarters or NSLU attorneys sensed
might be the reaction of OIPR or the FISA Court. There was no clear body of
law to guide the FBI, and neither OIPR, the NSLU, nor FBI management made
clear the policies and practices to guide individual FBI employees or
supervisors on FISA applications. Many decisions appear to have been made
based on prior feedback from OIPR, rather than clear guidance. As we discuss
below, this lack of guidance resulted in frequent misunderstandings about the
possibilities under FISA or the appropriate standards to guide decisions
regarding intelligence and criminal investigations.

         1.   Initial evaluation of the request for a FISA warrant

              a.   Prevailing standards
     As discussed in Chapter Two, the FISA statute requires that “the
purpose” of a FISA warrant be to obtain foreign intelligence information.
However, courts and the Department for many years used the standard of
whether the “primary purpose” of the FISA request was to obtain intelligence

                                      184
information. Under this standard, the Department and the FBI analyzed each
case to determine whether the goal of an investigation was to gather
intelligence or to pursue a criminal investigation. In 1995, the Department
developed written procedures, called the “1995 Procedures,” designed to
ensure adherence to this “primary purpose” standard. The impetus for the 1995
Procedures was OIPR’s concern that the lack of procedures had permitted the
FBI and the Criminal Division to work so closely together in the Ames case
that the FISA Court would believe that the purpose of the FISA warrant was to
gather information for the criminal case, rather than the intelligence
investigation.
      The Department’s interpretation of the primary purpose standard, and the
widespread perception within the FBI that the FISA Court and OIPR would not
permit criminal investigative activity when an intelligence investigation was
opened, impeded the Minneapolis FBI’s ability even to consult with
prosecutors to assess whether probable cause existed to obtain a criminal
search warrant. After Moussaoui’s arrest on immigration charges, the
Minneapolis FBI wanted to search Moussaoui’s belongings to determine his
plans and to prevent him from committing a terrorist act. The FBI agents’
objectives were broad – to deter any criminal activities, to protect national
security by whatever means available, and to obtain any intelligence on
Moussaoui’s plans. These objectives could not be easily categorized as either
criminal or intelligence.
       Unfortunately, under the prevailing standards at the time, consultation
and coordination with the prosecutors in the local U.S. Attorney’s Office was
difficult, and it did not occur in the Moussaoui case. The Minneapolis agents
opened the Moussaoui case as an intelligence investigation. As a result, they
could not contact the USAO for guidance and advice on the criminal
investigation or the possibility of obtaining a criminal search warrant without
approval from the Criminal Division and notice to OIPR. Once the FBI’s
intelligence case was opened, FBI Headquarters had to send a memorandum to
the Criminal Division to receive permission to contact the USAO to discuss a
criminal warrant.
      The Minneapolis FBI initially made contact with the USAO, but then did
not pursue any substantive conversations because of these prohibitions.
Conversely, if the Minneapolis FBI had opened the case as a criminal
investigation, or consulted with the USAO or the Criminal Division attorneys

                                      185
about a criminal case, that possibly would have affected its ability to obtain a
FISA warrant because of concerns about the “smell test.” According to OIPR
Counsel Baker, even the fact that that Minneapolis FBI had written in its
26-page EC that it wanted permission to go to the USAO would have been
something that concerned him and may have affected the Moussaoui FISA
request.
       At the initial stages of a terrorism investigation, it is often unclear and
difficult to know how to proceed. In this case, the Minneapolis agents were not
able to seek advice directly from the Minneapolis USAO, which was probably
in the best position to assess whether there was sufficient evidence to obtain a
criminal warrant from the local court. Although Rowley assumed that the
Minneapolis USAO would not have supported the request for a criminal
warrant because she believed it had an unduly high standard of probable cause,
this was only a guess. The Minneapolis USAO disputes her claim and stated
that its normal practice was to work with the FBI to obtain a warrant. Yet,
whether or not this assessment was accurate, the system resulted in uninformed
decisions because it did not allow agents to consult with prosecutors at an early
stage, absent permission from the Criminal Division. 145
       This problem was addressed in October 2001, when the Patriot Act
changed the requirement from “the purpose” (for obtaining foreign
intelligence) to “a significant purpose,” and specifically permitted such
consultations. As a result, direct consultations among the intelligence
investigators and the criminal investigators and prosecutors can occur
immediately. We agree with the statement of former Associate Deputy
Attorney General David Kris, who testified before Congress on September 10,
2002:
           We need all of our best people, intelligence and law
      enforcement alike, working together to neutralize the threat. In
      some cases, the best protection is prosecution – like the recent

    145
         In addition, as discussed in Chapter Two criminal investigations had to be segregated
from intelligence investigations, and information collected in the intelligence investigation
that related to the criminal investigation had to be passed “over the wall” to the agents
handling the criminal investigation. We discuss some of the problems created by this
system in Chapter Five.



                                            186
     prosecution of Robert Hanssen for espionage. In other cases,
     prosecution is a bad idea, and another method – such as
     recruitment – is called for. Sometimes you need to use both
     methods. But we can’t make a rational decision until everyone
     is allowed to sit down together and brainstorm about what to do.
(Emphasis in original.)

               b.   Inadequate evaluation of whether to proceed as a
                    criminal or intelligence matter
       Given the effect that consulting with the USAO had on a potential FISA
application, the options in the Moussaoui case needed to be evaluated carefully
before making the initial decision whether to proceed criminally or as an
intelligence investigation under FISA. This was especially true because the
Moussaoui case was unusual for the FBI. Ordinarily, the FBI spent months
collecting intelligence information in support of a FISA request. However, in
this case the FBI did not have time because Moussaoui was about to be
deported.
       Therefore, it was even more important for the FBI to carefully consider
the evidence before it, the likely outcome of seeking a criminal warrant,
including an assessment of probable cause for a criminal search warrant, and
the potential for obtaining additional information that could connect Moussaoui
to a foreign power under the FISA standards at the time.
       Unfortunately, this careful or thorough analysis did not occur. After
initially opening the Moussaoui matter as an intelligence investigation, the
Minneapolis FBI agents requested FBI Headquarters to seek permission from
the Criminal Division to approach the USAO to discuss a criminal warrant.
Because of its relative inexperience in handling counterterrorism
investigations, the Minneapolis FBI did not appreciate the adverse impact that
seeking a criminal warrant could have on the intelligence investigation.
Therefore, as an initial matter it did not fully consider the issues and outcomes
in pursuing the Moussaoui case as an intelligence investigation or criminal
investigation. By the same token, it did not receive sufficient guidance or
assistance from FBI Headquarters, partly because of the strained relations
between the Minneapolis Field Office and the RFU, which we discuss below.



                                       187
      Another opportunity for a thorough assessment of the case arose when
the Minneapolis case agent, Henry, consulted with RFU Unit Chief Don. Don
advised Henry that he did not believe that there was sufficient information to
obtain a criminal search warrant and that failing to obtain a criminal search
warrant would prevent the Minneapolis FBI from obtaining a FISA search
warrant. Henry’s recollection is that Don directly told him that he could not
open a criminal case. According to Henry, Don also asserted that probable
cause for a criminal search warrant was “shaky.” After his conversation with
Don, Henry wrote on the paperwork that had been previously prepared to open
the criminal case: “Not opened per instructions of [Unit Chief Don].”
      Don told the OIG, on the other hand, that he did not give such a direct
instruction and that at no time did he tell Minneapolis that they could not
pursue the matter criminally. He said that based on his knowledge of the case,
he did not believe there was criminal predication for a criminal search warrant
and that he voiced this opinion to the Minneapolis FBI about the lack of
criminal predication. He said he also advised Minneapolis that if obtaining the
criminal warrant failed, the FBI would not be able to pursue the FISA warrant.
Don said he suggested the case agent consult with the Minneapolis CDC,
Coleen Rowley, about whether she believed that probable cause for a criminal
search warrant was present because he believed that it was the role of the CDC
to make such assessments. According to Don, he stated, “you guys need to go
back to your CDC, you need to discuss it with your CDC, and get back to me
and tell me your position.” As we discuss below, Henry did consult with
Rowley, who said she recommended the avenue with the best chance of
success, which she believed was seeking a FISA warrant instead of a criminal
warrant.
      While it is impossible to be certain of what exactly was said in the
discussion between Don and Henry, or whether FBI Headquarters made clear it
would refuse permission to seek a criminal warrant, it is clear that the decision
on whether to pursue a criminal or intelligence case was made without full
consultation or adequate analysis. Based on this conversation and other
contacts with Martin and Don in the following days, Minneapolis believed that
FBI Headquarters would not support its request to seek a criminal warrant and
that a FISA request was the only viable option available. It therefore pursued
that option. But no one carefully considered at an early stage whether this was
likely to be a viable option under the prevailing FISA standards.


                                      188
      We do not believe that Don’s response to Henry’s initial contact was
adequate. Don should have weighed the possibility of obtaining a criminal
warrant with what would be gained from the intelligence investigation and the
problems in obtaining a FISA warrant. While Don believed that the
Minneapolis FBI lacked sufficient information to warrant pursuing a criminal
investigation and that the intelligence investigation was therefore the only
option available, this judgment was made too quickly and without adequate
consideration of whether the evidence suggested that the FBI was likely ever
going to be able to, under the prevailing view of FISA requirements at the time,
sufficiently connect Moussaoui to a foreign power for a FISA warrant.
      We also believe that Don should have ensured that Henry discussed the
matter fully with RFU SSA Martin and an NSLU attorney, taking into
consideration the potential of the criminal investigation and the potential of the
FISA route, including the problems that would have to be overcome, before
reaching the decision on which route to take. While it was the field office’s
prerogative to decide how to pursue an investigation, the role of FBI
Headquarters was to ensure that these decisions were made with full
information and adequate analysis from the substantive experts in FBI
Headquarters. Yet, this never occurred, partly because of Headquarters’
dismissal of the Minneapolis FBI’s assessment of the threat posed by
Moussaoui, partly because of strained relations between the RFU and the
Minneapolis FBI, and partly because FBI Headquarters approached this case
like other cases, where there was time to investigate further and obtain more
evidence to support the FISA warrant. In this case, however, Moussaoui was
going to be deported quickly, and there was little time to conduct an
investigation to obtain sufficient evidence to link Moussaoui to a recognized
foreign power.
      From our review, early on the RFU appears to have discounted the
concerns of the Minneapolis FBI about Moussaoui. Don and Martin believed
that Minneapolis was overreacting and couching facts in an “inflammatory”
way to get people “spun up” about someone who was only “suspected” of
being a terrorist. The RFU downplayed and undersold the field office’s
concerns about Moussaoui, even writing “that there is no indication that either
[Moussaoui or Al-Attas] had plans for nefarious activity.” In response to the
Minneapolis FBI’s concern that it wanted “to make sure Moussaoui doesn’t get
control of an airplane to crash it into the [World Trade Center] or something


                                       189
like that,” Martin dismissed this possibility, stating “You have a guy interested
in this type of aircraft. That is it.” As we discuss below, we believe that the
RFU did not fully consider with an open mind the evidence against Moussaoui
and examine in a collaborative fashion with Minneapolis how to best pursue its
investigation. Rather, it quickly and inappropriately dismissed Minneapolis’
information as incomplete and its concerns as far-fetched.
       However, it is also important to note that another potential opportunity
for a thorough evaluation of both the criminal and intelligence investigations
arose when Henry consulted with Rowley, the Minneapolis CDC. When
Henry approached Rowley at Don’s suggestion to discuss whether Minneapolis
should seek a criminal warrant or a FISA warrant, Rowley correctly advised
Henry about the existence of the smell test and the adverse effect that seeking a
criminal warrant could have on the intelligence investigation. Her advice –
that Henry instead seek a FISA warrant – was based on her concerns that the
USAO would not approve a request for a criminal warrant because she
believed it used a standard higher than probable cause. Rowley told the OIG
that she gave the advice that she believed would optimize the Minneapolis
FBI’s chances of being able to search Moussaoui’s belongings. She did not,
however, adequately assess or discuss with Henry whether a FISA warrant
would even be feasible in this case, given the need to connect Moussaoui to a
foreign power.
      Rowley acknowledged to the OIG that her experience and knowledge of
FISA were not extensive. 146 We believe that she should have recognized the
need for a more thorough examination of the potential of both the criminal and

    146
        When we questioned Rowley about the basis for her belief that probable cause for a
FISA warrant was “clear” when the information from the French was received, her
responses indicated that she did not fully understand the statutory requirements of FISA.
She believed that sufficient information existed to obtain a FISA warrant because she
believed the French information indicated that there was probable cause to believe that
Moussaoui was engaged in terrorist activities. Rowley failed to consider whether there was
probable cause to believe that Moussaoui was an agent acting for or on behalf of a foreign
power. She further stated her belief that the foreign power connection could be made to Bin
Laden because Moussaoui shared similar philosophy and goals with Bin Laden and was
linked to Khattab, who also held radical Islamic beliefs. These statements revealed a lack of
a full understanding of agency principles under the existing FISA requirements.



                                            190
intelligence options, including the likelihood of obtaining a FISA warrant
within a matter of several days, and at a minimum consulted with an NSLU
attorney.

         2.   Failure to reconsider criminal warrant
      We found it even more troubling that after the FBI Headquarters
conclusion – based upon NSLU advice – that Moussaoui did not have a
sufficient connection to a recognized foreign power for a FISA warrant, no one
reconsidered whether to try to obtain a criminal warrant. As far as we could
determine, neither FBI Headquarters nor the Minneapolis FBI initiated any
discussion about pursuing the criminal warrant after NSLU Unit Chief
Bowman opined that a FISA warrant was not feasible. After the FISA warrant
was ruled out, the “smell test” was no longer a consideration. The FBI could
have consulted with the Minnesota USAO at that point to determine whether it
believed there was sufficient probable cause to obtain a criminal search
warrant. If the Minnesota USAO agreed, one could have been sought. If the
USAO disagreed, this consultation would have had no impact on a FISA
warrant, since one was no longer being sought.
       We asked Don, Henry, Rowley, Gary, and Martin why a criminal warrant
was not considered after the FISA route was exhausted. Don, Henry, and
Rowley told the OIG that they did not know why this was not done. Don said
that looking back on the matter now, he wished it had been discussed. Gary
told the OIG that he did not seek to pursue it again because he believed FBI
Headquarters was not willing to support obtaining the requisite permission to
approach the USAO. Martin told the OIG that because Minneapolis believed
that there was sufficient evidence to support obtaining a criminal warrant, it
was up to the field office to initiate pursuit of the criminal warrant.
     We found it puzzling, and troubling, that no one discussed pursuing this
option. It also showed that the FBI never fully evaluated the potential of the
criminal investigation versus the FISA investigation. Instead, the FBI pursued
the case as an either/or proposition, without evaluating the potential of each
approach.
     We also do not agree with Martin that it was Minneapolis’ responsibility
alone to consider this option. In our view, his position reflects the breakdown
in communication between Headquarters and the field, and also shows a


                                      191
troubling lack of initiative and acceptance of responsibility by FBI
Headquarters. While we cannot say whether a request for a criminal warrant
would have been successful, it should have been reconsidered.

         3.   Conservatism with respect to FISA
      The handling of the Moussaoui case also highlighted the conservatism of
the Department and the FBI at the time with regard to the use of FISA. At the
time of the Moussaoui investigation there was a widespread perception in the
FBI that OIPR was excessively restrictive in its approach to obtaining FISAs.
The perception was that OIPR would not plead “new” foreign powers – foreign
powers that had not previously been pled to the FISA Court – and that OIPR
required more support to go forward than the probable cause that what was
required by the FISA statute. This perception caused the FBI to be less
aggressive in pursuit of FISA warrants that did not fit the standard pattern.
       This perception was discussed in the May 2000 report of the Attorney
General’s Review Team (AGRT) that was established to review the FBI and
the Department’s handling of the Wen Ho Lee FCI investigations and FISA
application. The report stated that in interviews with FBI personnel, “a
consistent theme that has emerged has been the FBI’s substantial frustration
with what it perceives to be OIPR’s general lack of aggressiveness in the
handling of FISA applications.” The AGRT concluded that OIPR was too
conservative in its handling of the Lee FISA application and three factors
suggested that the FBI’s general complaint of undue conservatism had merit.
First, the AGRT found that OIPR had never had a FISA application turned
down by the FISA Court and that “this record suggests the use of ‘PC+’
[probable cause plus], an insistence on a bit more than the law requires.”
Second, the AGRT asserted that while some disputes between agents and
lawyers were to be expected, the fact that the complaints about OIPR came
from all levels within the FBI as well as the frequency and the intensity of the
complaints suggested that this concern was not arising out of the normal
tension between agents and lawyers. Third, the AGRT stated that OIPR
applied too conservative an approach to the Lee application, which suggested it
did so across the board because of the significance of and attention received
within OIPR by the Lee application.
    We heard similar complaints from FBI Headquarters managers and
NSLU attorneys that OIPR was too conservative. FBI employees made two

                                      192
arguments in support of this assertion. First, FBI employees said that OIPR
required more than what FBI employees believed was necessary under FISA to
get a FISA warrant. One former unit chief told the OIG that OIPR’s standard
for probable cause was “too high.” The former head of NSLU told the OIG
that OIPR attorneys often asked for details about the investigation that were not
related to the issue of probable cause. He asserted that, by comparison,
Title III applications were “far cleaner and far more succinct” than the FISA
applications. As an example of OIPR’s conservatism, another NSLU attorney
asserted to the OIG the fact that in FISA applications involving a particular
terrorist organization as the foreign power, OIPR required a substantial number
of pages worth of facts to support the assertion that it was a terrorist
organization, despite the fact that this terrorist organization was designated as a
foreign terrorist organization by the State Department.147
       Second, FBI employees told the OIG that they believed that OIPR was
not aggressive in its use of FISA. They asserted that OIPR was not interested
in pleading “new” foreign powers – foreign powers that had not previously
been pled to the FISA Court. FBI employees told the OIG that with respect to
each potential target, they had to identify which terrorist “box” the target fit
into, and that OIPR was primarily interested in using a particular terrorist
organization as the box and pleading it as the foreign power. FBI personnel
explained to the OIG that while terrorist groups were at one time recognizable
as a collection of individuals belonging to an organization with a well-defined
command structure and could easily be placed in a terrorist “box,” this was no
longer the case by the mid-90s. Instead, terrorists were often Islamic
extremists who were not necessarily affiliated with any specific terrorist group
and who received support from or shared the same goals with several different
groups. To address this change in terrorism, the FBI proposed to OIPR in 1997
and again in 2000 creating a new foreign power – which they called the
“International Jihad Movement” – that would target these kinds of terrorists.
According to FBI employees, the FBI presented its position to OIPR on several
occasions, but OIPR was not receptive to this idea. By the summer of 2001,



    147
       At the request of the FBI, in 2001 this information was eventually revised and
shortened substantially.



                                           193
however, OIPR had agreed to review documentation the FBI compiled in
support of creating the new foreign power.
      James Baker, the Counsel of OIPR, acknowledged that OIPR had this
reputation, but he did not believe that it was accurate. He stated that significant
changes had occurred before September 11, 2001, as well as in the past few
years. He said that at the time of the millennium (year 2000), the threat of
terrorist attacks was high and OIPR was very aggressive in its use of new
theories of probable cause, which the FISA Court approved. He said that OIPR
attorneys – in their oversight role – asked a lot of questions of the FBI and did
not automatically approve FISA applications, causing some frustrations in the
FBI. He also stated that another source for the perception of OIPR within the
FBI was the fact that field offices had no contact with OIPR, and as a result
were not aware of the work that OIPR contributed to bolstering the FISA
package. But he said that the FBI generally brought meritorious cases to OIPR
and that he instructed his staff to be advocates for each application and to “pull
the thing together and see if it can fly.” 148 With respect to the new foreign
power suggested by the FBI, Baker told the OIG that the FBI was requested
repeatedly by OIPR to draft a memorandum setting forth the evidence
supporting the existence of this new foreign power, but the FBI did not present
any documentation to OIPR concerning this theory until after September 11,
2001.
       In our review, it was clear to us that the perceptions about OIPR affected
how aggressively FBI Headquarters handled requests for FISA warrants from
the field. As we discuss below, the FBI was hesitant to plead new foreign
powers or to plead unnamed foreign powers in FISA applications. Most FBI

      148
          The OIPR Deputy Counsel, Margaret Skelly-Nolen, also told the OIG that she
believed that the FBI’s criticism of OIPR had been “unfair.” She stated that OIPR learned
what FISA Court judges would and would not approve based on their comments and
questions in court sessions involving FISA applications. She stated that obtaining FISA
orders in counterterrorism cases was “harder” than in the traditional espionage cases,
although she acknowledged that not all of the attorneys in OIPR were “equally aggressive.”
However, she also described OIPR as “proactive” and the FISA Court as “responsive” to the
needs of the government. She added that the FBI knew “how to press” OIPR when the FBI
really wanted a FISA warrant to go through. She stated that what she tried to do with FISA
requests was determine what was the most accurate and expeditious way to plead the case.



                                           194
employees we interviewed did not even consider the possibility of pleading
unnamed foreign powers, and many did not even know that it was possible. In
addition, an ongoing OPR investigation about errors in FISA applications
increased the caution with which the FBI approached FISA.

              a.   Failure to plead new foreign powers
      As discussed above, the government generally sought FISAs for subjects
that had previously been approved by the FISA Court. As a result, at the time
of the Moussaoui investigation, the FBI did not routinely try to plead “new”
foreign powers or otherwise seek to use the FISA statute creatively. FBI
Headquarters SSAs, IOSs, and NSLU attorneys evaluated cases and gave
advice to the field offices based upon what they thought would get a FISA
package through OIPR and to the FISA Court, not based upon what may have
been legally possible under FISA. They therefore focused on “recognized”
foreign powers – those that had previously been pled to the FISA Court – and
sought evidence of direct links between the target and the foreign power. If the
case fell outside those parameters, the FBI was not usually aggressive or
creative in analyzing the possibilities under FISA. OIPR Counsel Baker
confirmed that prior to September 11 it was far easier to show that someone
was a member of an established group that was engaged in international
terrorism, such as al Quaeda. In reviewing the Moussaoui case, he stated that
although it was theoretically possible to allege a connection between
Moussaoui and the Chechen rebels (because of Moussaoui’s recruitment of
Amnay to go to Chechnya), it would have been far easier to use al Quaeda as
the foreign power if sufficient information could be developed to support such
a connection.
       One NSLU attorney told us that, by the summer of 2001, most of the FBI
concerns were not necessarily about the legal sufficiency of the FISA request,
but rather whether, as a practical matter, information could be presented to
OIPR in such a way to get approval for presentation to the FISA Court.
Several ITOS employees told us that because of the resistance to pleading new
or unnamed foreign powers, a particular terrorist organization therefore was
being used as a generic terrorist group in cases where there were doubts about
ties to a specific group. Several analysts told us that even if the link to this
particular terrorist organization was tangential and the subject appeared to be
more closely aligned with other individuals or to be operating alone, they


                                      195
would still try to link the potential target to this particular terrorist group in
order to obtain FISA Court approval.
      Reflecting this view, Martin and Don advised Minneapolis that a
“recognized foreign power” was required in order to obtain a FISA warrant.
The French information about Moussaoui showed a potential link between
Moussaoui and Khattab’s group of rebels in Chechnya. While Martin, Robin,
and the NSLU attorneys were aware that the Chechen rebels could in theory
constitute a terrorist organization and therefore be a foreign power under FISA,
they did not believe this was a viable option. Their advice to the Minneapolis
FBI that it needed to link Moussaoui to a “recognized foreign power” was
based on their understanding that the Chechen rebels had not been pled to the
FISA Court previously, the belief that the intelligence was lacking to support
pleading that the Chechen rebels were a terrorist organization, and their
concern that it would take months to build a case for a new foreign power.
      FBI employees pointed out that even if they could get a new foreign
power approved by the Department and before the FISA Court, it was still
significantly faster and easier to plead an already accepted foreign power. For
foreign powers that had been pled before the FISA Court, the FBI could use
previously drafted FISA applications, which contained language that already
had been scrutinized and accepted. This approach required using the available
language on the foreign power and filling in the individual facts of a case. It
required less research and time to develop a persuasive package for OIPR and
the FISA Court. In contrast, pleading a new foreign power required making a
persuasive argument that would require several levels of approval from within
the FBI and OIPR. This was a time consuming process, with an uncertain
outcome.
      In the Moussaoui case, the available evidence showed a much more
likely link between Moussaoui and Khattab and the Chechen rebels rather than
a link to al Quaeda. While the FBI’s belief about the likelihood of success with
OIPR and the time it would have taken to plead a new foreign power were
important considerations, this potential option was never explored by FBI
Headquarters. Most important, no one discussed it with OIPR, despite the
Minneapolis FBI’s strong belief that Moussaoui was dangerous and its strong
desire to seek all legitimate means to obtain access to his computer and other
belongings.


                                         196
              b.   Failure to consider pleading unnamed or unknown
                   terrorist groups as a foreign power
       The FBI could have sought to plead that Moussaoui was linked to an
“unnamed” foreign power. The legislative history of FISA states that an
individual cannot be a foreign power, but that “[w]here two or three individuals
are associated with one another, it might be argued that they are an
‘association’ or an ‘entity,’ which, if the proper showing is made could be
considered a ‘foreign power.’” OIPR Counsel Baker told us that based on this
legislative history he believed that a foreign power could be as small as two
people. He also told us that the foreign power does not necessarily need to
have an agreed upon name or need to be widely known.
       No one at the FBI involved in this case considered trying to plead
Moussaoui as an agent of an unnamed, new foreign power. If they had, it
might have been possible to plead Moussaoui as an agent of an unnamed
terrorist group composed of Moussaoui and a group operating in Oklahoma,
such as Al-Attas, the persons who helped Al-Attas get out of jail, and the
persons from whom Moussaoui indicated he received money.
      September 11 provided the impetus for the Department and the FBI to be
far more aggressive in the use of FISA. Based upon OIG interviews and
review of documents, we determined that the Department has shown a great
degree of flexibility in pleading foreign powers since September 11.
      We recognize it is not readily apparent that trying to plead Moussaoui as
an agent of an unnamed foreign power would have succeeded had it been
pursued. But no one at the FBI even considered this option, despite
Minneapolis’ adamant concerns about Moussaoui. Moreover, no one even
consulted with OIPR about this option, or any other option, to see what could
be accomplished to support the Minneapolis FBI’s investigation.

              c.   Ongoing DOJ OPR investigation
     We believe that the FISA Court reprimand of the FBI and an ongoing
DOJ OPR investigation of how FISAs were handled contributed to the FBI’s
conservatism in seeking FISA requests. As discussed in Chapter Two, in
September 2000, OIPR notified the FISA Court of errors in approximately 75




                                      197
FISA applications. 149 In November 2000, the Office of the Deputy Attorney
General referred the matter to DOJ OPR, and DOJ OPR opened an
investigation.
       Beginning in October 2000, the FISA Court began to require all
Department personnel who received FISA information in cases involving the
terrorist group that had been the subject of the majority of the errors to certify
that they understood “that under ‘wall’ procedures FISA information was not
to be shared with criminal prosecutors without the Court’s approval.”
Everyone who reviewed such FISA-derived information was required to sign
the certification stating that they were aware of the FISA Court order and that
the information could not be disseminated to criminal investigators without
prior approval of the Court. After being notified of additional errors in FISA
applications in March 2001, the FISA Court banned one FBI SSA from
appearing before it. DOJ OPR was asked by the Attorney General to expand
its investigation to include a review of these additional errors in FISA
applications.
       We heard differing opinions within the FBI about how the DOJ OPR
investigation affected FBI employees. 150 Martin told us that there was “a big
push for accuracy” with new procedures being implemented and that there
“were concerns that you just never know when an OPR is going to be opened
up on you.” However, he said that the matter did not significantly impact his
work. Don said that ITOS SSAs were upset about the DOJ OPR investigation
and were concerned that the investigation would harm their careers and their
ability to get other jobs within the FBI after their stint in ITOS. But Don


    149
        As discussed in Chapter Two, a significant number of the errors concerned
inaccurate information in FISA applications about the “wall” procedures that had been put
into effect to separate criminal investigations from intelligence investigations.
    150
        In her May 21, 2002, letter to the Director, Rowley wrote: “Our best real guess [for
why Headquarters acted as it did in the Moussaoui matter]. . . is that, in most cases,
avoidance of all ‘unnecessary’ actions/decision by FBIHQ managers (and maybe to some
extent field managers as well) has, in recent years, been seen as the safest FBI career
course.” She said that FBI officials who made decisions or took actions that turned out to be
mistaken saw “their careers plummet and end. This has in turn resulted in a climate of fear
which has chilled aggressive FBI law enforcement action/decisions.”



                                            198
asserted that he did not believe the OPR investigation had “chilled” the efforts
of the FBI. Robin stated that, while the OPR investigation caused FBI
employees to be more careful about accuracy, she did not feel it had created
any timidity in the use of FISA warrants.
       Other ITOS personnel believed that the OPR investigation and the
increased scrutiny by the FISA Court had a bigger impact on FISA
applications. One SSA who formerly was assigned to ITOS told us that, after
the revelation of FISA application errors, there was a climate of fear and
reluctance in ITOS. He stated that in 2000 and early 2001, all ITOS SSAs
were aware that they would be held accountable for any mistakes made in
FISA applications, even mistakes by field offices that the SSAs oversaw. He
added that, because the SSA position in ITOS is temporary, most SSAs are
planning to be promoted to a position in a field office. This would be difficult
if an agent had been disciplined or was under investigation. He said that agents
were concerned that their ability to be promoted would be adversely affected
by any investigation into their actions.
       In addition, OIPR personnel said that the OPR investigation impacted the
FBI’s work on FISAs. The OIPR Deputy Counsel told us that the OPR
investigation caused repercussions that affected the entire process. She said
that the FBI allowed a number of FISAs to expire because agents were
concerned that they would find themselves under investigation or banned by
the FISA Court for errors in applications. She said that she had heard agents
comment that they are “not going to be another [the agent who was banned by
the FISA Court].”
      We believe that the atmosphere in the FBI was affected by the OPR
investigation and the FISA Court ban of the SSA. The added procedural
requirements, concerns about individual liability, and the increased scrutiny of
information in a FISA request likely caused agents to be more careful and
sometimes become apprehensive about pursuing an unusual case or a case
where all the facts were not immediately ascertainable.
      We also believe that this atmosphere affected Martin’s approach to FISA
applications, including the Moussaoui matter. Indeed, in an e-mail on June 12,
2001, Martin cautioned Henry about the rules related to FISA with regard to
minimizing an intercepted conversation in another intelligence case:



                                      199
           While you folks may perceive me as being too critical at
     times, I need to be certain that I am representing facts and issues
     properly to DOJ and the Court. There are a few folks looking
     for scalps these days. I’m only trying to keep yours and mine
     from being removed.

    D. Assessment of probable cause
      FBI Headquarters also did not analyze the facts in their totality and too
readily discounted individual facts when assessing the Minneapolis FBI’s
concerns about Moussaoui. The standard for probable cause is the same for
both FISA warrants and criminal warrants. The Supreme Court defined
probable cause in Illinois v. Gates, 462 U.S. 213, 236-38 (1983), as whether,
given the “totality of the circumstances” there is a “fair probability” that
contraband or evidence of a crime will be found in a particular place. The
Supreme Court emphasized that “only the probability, and not a prima facie
showing, of criminal activity is the standard of probable cause.” This standard
allows for drawing reasonable inferences from the facts and does not require
direct evidence.
      Yet, we found that the RFU and the NSLU tended to view the facts of the
Moussaoui case individually rather than consider the totality of those facts.
They evaluated the Moussaoui investigation for direct evidence of Moussaoui’s
links to a foreign power, particularly al Qaeda. While the perception at FBI
Headquarters may have been that this was what was required by OIPR, FISA
required only “probable cause” that a target was an agent of a foreign power.
      For example, in evaluating Moussaoui’s potential links to al Qaeda,
Martin and Robin focused on the intelligence indicating that Khattab was no
longer believed to be a part of the al Qaeda organization and did not take
direction from Bin Laden. Although Martin and Robin were correct that the
FBI lacked sufficient information to tie Moussaoui directly to al Qaeda, it does
not appear that either of them evaluated the totality of the evidence for facts
that would allow for reasonable inferences that there were sufficient indirect
connections to al Qaeda.
      An example of information that could have been considered in support of
the FISA request was the telephone conversation between Al-Attas and the
Oklahoma imam while Al-Attas was incarcerated. In that conversation the


                                      200
imam stated to Al-Attas, “I heard you guys wanted to go on Jihad.” Al-Attas
immediately responded, “Don’t talk about that now.” Don stated in an e-mail
to Minneapolis: “The Jihad comment doesn’t concern me by itself in that this
word can mean many things in various muslim [sic] cultures and is frequently
taken out of context.” Don told us that he saw the use of the term “jihad” all
the time and there are always questions about what the term really means. Yet,
while the term may be open to interpretation, it is a significant comment that in
context should have been given greater weight in considering whether there
was probable cause to believe Moussaoui was connected to a terrorist group.
Baker told us that “he would have tied bells and whistles” to the jihad comment
in a FISA application.
       Don also discounted Al-Attas’ will. He stated in an e-mail that the will
was “interesting,” but he told the OIG that it is not uncommon for Muslims to
have a will. However, as pointed out in the criminal search warrant obtained
after the September 11 attacks, the will was in a mailing envelope as though it
was ready to be sent to relatives.
      We believe that the RFU failed to appreciate the significance of these
individual facts and failed to analyze their effect on the totality of the
circumstances. Instead, it treated each fact individually and too readily
discounted their significance. The end result of this approach was that all of
the facts were never fully considered in their totality or fully presented to
anyone for a legal sufficiency review – whether by the NSLU or OIPR.

    E.   Conflict between Minneapolis and FBI Headquarters
      Many of the problems that arose in the handling of the Moussaoui case
also were affected by strained relations between the Minneapolis FBI and the
RFU. Prior conflicts with the RFU led the Minneapolis FBI agents to mistrust
the judgment of the RFU, and Martin in particular. The Minneapolis FBI
thought that the RFU was “raising the bar,” was not aggressive, and acted out
of an abundance of caution. The Minneapolis agents also thought that the RFU
did not support the field adequately, undervalued the Moussaoui case, and
undermined their efforts. Minneapolis therefore was skeptical of the advice
from Headquarters and attempted to bypass Headquarters to obtain relevant
assistance and evidence from other agencies.




                                      201
      By the same token, the RFU mistrusted the Minneapolis FBI based on
experience in prior matters and believed that in the Moussaoui case
Minneapolis was proceeding from “gut feelings” rather than evidence. Martin
and others in the RFU did not have faith in the judgment of some Minneapolis
FBI agents, and thought they had a tendency to claim “the sky was falling.”
The RFU also believed that Minneapolis did not adequately understand the law
or the requirements for a FISA warrant.
       This friction – as well as the clash of personalities – resulted in poor
communication and misunderstandings between FBI Headquarters and
Minneapolis. The atmosphere was not conducive to, and did not lead to, the
field and Headquarters carefully considering the best options for proceeding in
the investigation and jointly seeking an appropriate result. Instead, both sides
mistrusted the other and hardened in their positions. As a result, the RFU’s
response to requests from Minneapolis and to new evidence appeared to be
skepticism and a quick reaction that the evidence was not sufficient. This
caused the Minneapolis FBI to believe even more strongly that Headquarters
was undermining its efforts. The communications became increasingly
adversarial and incomplete.
      For example, Martin advised the Minneapolis FBI that, to obtain a FISA
warrant, it needed to connect Moussaoui to a “recognized foreign power.” This
advice was shorthand for a foreign power that had previously been pled to the
FISA Court. The Minneapolis agents, who were not experienced in FISA
matters, did not understand the advice and disagreed with it. This can be seen
in Henry’s e-mail to Gary and the Paris ALAT in which Henry wrote that the
RFU advised that the French information was not sufficient for a FISA warrant
because it did not connect Moussaoui to a “named group.” Henry also wrote,
“I don’t agree. . .who said that a foreign power has to be a named group?” In
an e-mail to the London ALAT and others, Henry wrote, “Help us establish
that [Moussaoui] is acting on behalf of a foreign power (which RFU seems to
think must be a named group or a country).” Had there been better
communication between the two offices, we believe the Minneapolis FBI
agents would have understood better why FBI Headquarters was advising the
Minneapolis FBI that a “recognized foreign power” was needed.




                                      202
     F.   Problems with legal review of FISA request
      We concluded that this case did not receive a sufficient FBI legal review.
While the RFU consulted with several NSLU attorneys about the Moussaoui
case, it consulted a different attorney each time. A single NSLU attorney was
not assigned to the case, and no NSLU attorney ever reviewed all the facts or
the documentation from the field before providing an opinion as to the
sufficiency of the evidence to obtain a FISA warrant.
      In addition, when presenting the case to NSLU attorneys, Martin made
clear that he did not think there was sufficient evidence for a FISA warrant and
orally provided some facts of the case. While oral briefings and consultations
on an ad hoc basis may have been adequate for most FBI FISA requests, it was
not adequate in an unusual case like this one. Here, there were indications that
Moussaoui was connected to terrorist groups, but the connection to a foreign
power was not clear. Moreover, the time frame to obtain a warrant was
compressed because of Moussaoui’s imminent deportation. There also was
vehement disagreement in this case between the field office and FBI
Headquarters about the FISA request. In light of these unusual factors, the
NSLU should have been apprised of all of the facts, the strength of the field’s
belief in the need for a warrant, and the depth of the field’s disagreement with
Headquarters’ position on this case.
      Martin consulted with four NSLU attorneys about the Moussaoui FISA
request. He gave each attorney an oral briefing on what he believed were the
relevant facts as to whether Moussaoui was connected to a foreign power.
Although Martin had the documents provided by the Minneapolis FBI that
described in detail the facts of the Moussaoui investigation, he did not provide
this documentation to any of the attorneys. The attorneys gave verbal advice
based only on Martin’s oral presentation. No one asked whether there was
documentation that had been generated in the case or asked to review any such
documentation, and two told the OIG they did not believe such documentation
existed.
      Although it is impossible to reconstruct Martin’s exact conversations
with the NSLU attorneys, the evidence shows that Martin provided a brief
recitation of the facts that contained less than all of the available information
about Moussaoui. At the start of the briefings Martin also conveyed to the
NSLU attorneys his belief that there was insufficient evidence for a FISA. He


                                       203
did not present the request to NSLU attorneys neutrally or convey the
Minneapolis FBI’s strong concerns that Moussaoui was likely to commit a
terrorist act. Martin undersold the case to the attorneys and conveyed it in a
way that did not fully present the field’s views.
      Martin had identified the issue in the Moussaoui case as the lack of a
foreign power and said he focused on the information that he believed was
relevant to that issue, which according to Martin was the French information
indicating that Moussaoui had some connection to Khattab and his group of
Chechen rebels. Because the FBI’s focus at the time was on establishing direct
links between a potential target and a foreign power, however, Martin
overlooked facts from which reasonable inferences might have been drawn that
Moussaoui was involved with a terrorist group. This included Moussaoui’s
recent travel to Pakistan and Al-Attas’ statements about Moussaoui’s radical
fundamentalist Islamic beliefs. None of this information was provided to the
NSLU attorneys.
       We recognize that at the time it was normal practice for SSAs and IOSs
to give only oral briefings to NSLU attorneys and that they determined what
information needed to be discussed with the NSLU attorney. They were not
required to provide all of the underlying documentation to the NSLU attorneys
with whom they were consulting, and NSLU attorneys were not required to
read all of the underlying documentation before providing advice. But given
the Minneapolis FBI’s urgency to obtain a warrant and the strong disagreement
between Headquarters and the field office over whether a FISA warrant could
be obtained, we believe that Martin should have presented the documentation
to the NSLU attorneys to ensure that Minneapolis’ position was being
presented fairly and completely to the NSLU. The RFU had promised the
Minneapolis FBI that the NSLU would give the Minneapolis request a “good
faith review,” but the RFU did not present all the documentation, or all the
facts, to any NSLU attorney for that review. We also believe that the
Minneapolis FBI should have been asked to participate in the discussions with
the NSLU, partly to ensure that its views were conveyed and also to ensure that
it understood the legal advice that was given.
      NSLU chief Bowman told the OIG that it was unusual for a field office to
be so adamant that there was sufficient information to support a FISA warrant
and for the SSA to be so adamant that there was not. Moreover, the Moussaoui
FISA request was unlike most other FISA requests. In most others, even if the

                                      204
NSLU did not believe that there was sufficient information to support going
forward on the FISA request, the field office could continue to investigate the
subject for months, acquire additional information in support of the FISA
request, and come back to the NSLU for another opinion. Because Moussaoui
was going to be deported shortly, the opinion that there was insufficient
evidence to seek a FISA warrant was, in effect, a denial of the FISA request.
In light of the unusual circumstances of this case, it would have been a better
practice for the NSLU attorneys to inquire about available documentation and
review it before rendering an opinion. In this case, however, a comprehensive
legal review of the documentation in the Moussaoui investigation did not take
place.
      Part of the problem was that the FBI did not assign one NSLU attorney to
be responsible for a case. Both Martin and Don told the OIG that they relied
on the NSLU attorneys to help them apply the relevant legal standards to the
facts collected from the field and elsewhere. Because they sought advice from
several NSLU attorneys in the Moussaoui case, none who felt solely
responsible for the case, no one from the NSLU considered all of the
information available and no one from the NSLU was sufficiently informed to
assess the totality of the facts and circumstances.
      It is impossible to determine for certain whether any of the NSLU
attorneys would have provided a different recommendation concerning the
Moussaoui FISA request if they had read all the documentation, including the
6-page LHM or the 26-page EC. Moreover, we are not suggesting that SSAs
should be required to provide, or that NSLU attorneys should be required to
review, all of the documentation with respect to FISA requests in every case.
But we believe that the circumstances of the Moussaoui FISA request
warranted a full review of all available documentation and a more careful legal
analysis of that information.
       We also found that the advice that was presented to the field was not
complete or accurate. For example, in the meeting between the RFU and
Bowman to assess whether there was sufficient evidence to seek a FISA,
Bowman advised that even if the FBI could establish a foreign power for the
Moussaoui FISA request, the request lacked sufficient evidence to show that
Moussaoui was an agent of that foreign power. After the meeting Martin did
not correctly report to the field what was required to establish such an agency
relationship. While Martin accurately reported Bowman’s advice that there

                                      205
was insufficient evidence to establish that Moussaoui was an agent of a foreign
power, he wrote that the FBI needed evidence to show that Moussaoui was an
“integral part” of a terrorist organization to establish agency. This was not
correct. To show agency, the FBI needed to show that the agent of the terrorist
organization demonstrated more than mere sympathy or vocal support for the
goals of a terrorist organization. The agent must be shown to be working “for
or on behalf of” the terrorist organization. Nothing in the legislative history of
FISA, the Attorney General Guidelines, or the caselaw suggests that the
purported agent would have to be an “integral part” of the terrorist organization
to fulfill the FISA requirement of agency. 151
      The FBI also did not ensure adequate involvement by the CDCs in the
field’s preparation of FISA requests. Field offices were not required to consult
with CDCs about their FISA requests. The role of the CDC in providing
advice on intelligence investigations and FISA applications varied by office,
but we were told by many witnesses that the CDCs in smaller offices were not
generally involved. NSLU attorneys we interviewed also told us that CDCs
generally were not sufficiently knowledgeable about FISA to provide advice
and that they generally deferred to the NSLU. We were also told that it was
not uncommon for the CDCs in the field to avoid intelligence investigations.
       In this case, CDC Rowley acknowledged that she lacked extensive
knowledge about FISA and that she was not in a position to advise the
Minneapolis FBI on the issues surrounding the FISA request. We believe that
the FBI should have ensured that CDCs, at a minimum, had sufficient training
and visibility among agents to assist them in assessing the legal requirements in
intelligence investigations. 152 Such expertise would be helpful to field offices,
especially in cases like Moussaoui where there were problems connecting him
to a foreign power and the field disagreed with the advice it was receiving from
FBI Headquarters.

    151
       Bowman told the OIG that he did not advise Martin that the FBI needed evidence
showing that Moussaoui was an integral part of a terrorist organization and that Martin must
have misunderstood their discussion.
    152
       NSLU attorneys informed us that they had provided training to CDCs at various
conferences and sessions. However, despite this training, CDCs were not as knowledgeable
about FISA law and processes as they needed to be.



                                            206
       Finally, because of the strong disagreement between Minneapolis and
FBI Headquarters on this case, we believe the matter should have been at least
referred to OIPR for its evaluation. While the Minneapolis FBI did not push
for an OIPR review, and FBI Headquarters did not seek it, such a review would
have been an appropriate approach to resolving the dispute in this case. The
role of the NSLU is to provide advice and guidance to the field, but we believe
the NSLU should have consulted with OIPR in this case, particularly because
the field office felt so strongly that Moussaoui posed a danger. As discussed
above, while it is not clear whether OIPR would have, in fact, sought the FISA
warrant given the prevailing standards at the time, OIPR should have at least
been consulted on this matter.

     G. The Phoenix EC
      The FBI’s computer records show that RFU IOS Robin accessed and
printed the Phoenix EC on August 22. She saw it when she searched in ACS
for the term “Ibn Khattab.” Khattab is mentioned in a paragraph of the
Phoenix EC that describes how the author of the EC interviewed the subject of
an investigation who had a picture of Khattab and a picture of Bin Laden on
the wall of his apartment. As described fully in Chapter Three, the EC also
asserted there were “an inordinate number” of persons of interest to the FBI
who were receiving training in aviation-related fields of study and that there
was a possibility that Bin Laden was coordinating an effort to train people in
the United States to conduct terrorist activity in the future.
      Robin told the OIG that she did not specifically recall reading the
Phoenix EC, although she believed that she must have read it because her
practice was to read documents that she printed. She did not bring the Phoenix
EC to anyone else’s attention at FBI Headquarters, such as Martin or attorneys
in the NSLU, or in any field office, including in Minneapolis. 153 She said she
did not know why she did not bring the EC to anyone’s attention. She added
that after reading it some time after September 11, she concluded that she must
have thought there was nothing in the EC that bolstered Moussaoui’s

    153
        As discussed in Chapter Three, although Don and Martin’s names were on the
“attention” line of the Phoenix EC, neither Don nor Martin accessed it in ACS or otherwise
became aware of the Phoenix EC until after September 11.



                                           207
connection to Khattab for the foreign power element of the FISA request. She
also suggested that the reporting of information about individuals who were of
interest to the FBI – that they were Middle Eastern and were in flight school –
was not significant because there were thousands of Middle Eastern men in
U.S. flight schools at the time.
      We discussed the Phoenix EC with the four NSLU attorneys who were
consulted about the Moussaoui matter. All said they had not seen the Phoenix
EC before September 11. All said that the Phoenix EC itself would not have
conclusively led to a FISA warrant, but three of the attorneys said that if they
had seen the Phoenix EC in connection with the Moussaoui case, they would
have responded differently than they did when asked about the adequacy of the
Moussaoui FISA request. When asked about the adequacy of the Moussaoui
FISA request, Howard said that if he had seen the Phoenix EC at the time, it
would have “made a difference in the pucker factor,” and he would have called
CDC Rowley in Minneapolis and discussed the importance of tracking down
the available leads to find out as much information about Moussaoui as
possible. Susan and Tim said that if they had read the Phoenix EC at the time,
they would have been concerned enough about Moussaoui to bring the matter
to an OIPR attorney’s attention. According to Susan, she had even asked
Robin whether the FBI had any information indicating anyone was sending
people to the United States for flight training, but Robin did not mention the
Phoenix EC. 154
      We believe that Robin should have recognized the potential relevance of
the information in the Phoenix EC to the Moussaoui investigation and made
others aware of it. Although the EC did not specifically mention Moussaoui or
anyone else involved in the Moussaoui investigation, the EC discussed the
possibility that persons under investigation by the FBI were terrorists working
for Bin Laden and receiving training in aviation-related fields in the United
States for the purpose of conducting terrorist activity in the future. The


    154
        Contrary to the other three NSLU attorneys, Bowman told the OIG that while
coincidences between Moussaoui and the information in the Phoenix EC were apparent after
September 11, he did not believe that he would have made any such connections or taken
different action if he had read the Phoenix EC at the time of the Moussaoui matter.



                                          208
Minneapolis FBI also suspected Moussaoui of being a terrorist receiving flight
training, and the Phoenix EC was relevant to that theory.
      Robin’s failure to bring the Phoenix EC to anyone’s attention is another
example of how the FBI focused on establishing direct links between targets
and foreign powers, but failed to appreciate how indirect evidence also could
be useful in supporting FISA requests.

    H. Edits to Minneapolis FBI’s FISA request
       Rowley and some of the Minneapolis FBI agents believed that Martin
edited the Minneapolis FISA request to ensure that it would fail. They were
most concerned that Martin had removed the section describing Moussaoui’s
connection to a foreign power. They asserted that Martin softened the
language of the FISA request in other respects, and that FBI Headquarters
should not have made substantive changes to the field’s FISA request because
it altered the meaning and tended to make it less accurate.
      Our review found that Martin edited the request as he did other requests,
and we do not believe he changed the document to intentionally undermine the
Moussaoui FISA request. Moreover, Martin sent all of his proposed changes to
Minneapolis for review. Martin deleted the three paragraphs of information
about Moussaoui’s connections to Khattab and the statement that Khattab was
a close associate of Bin Laden. When Gary raised concerns about this deletion,
Martin responded with an e-mail stating that the foreign power information
would be added back in once an NSLU attorney had approved the use of al
Qaeda as the foreign power.
     Gary also questioned the accuracy of some of the other changes Martin
had made. In some instances, Martin agreed to some of the wording Gary
suggested but kept his own wording in other instances.
      Preparing the FISA request for approval within FBI Headquarters and the
NSLU for eventual submission to OIPR was primarily the responsibility of the
SSA assigned the FISA request. An SSA and an IOS at FBI Headquarters
typically edited the LHM submitted by the field office requesting the FISA
warrant. The extent of the editing depended on the quality of the field office’s
LHM and the judgment of the SSA and IOS who were handling the FISA
request. In some instances, the LHM was completely rewritten and a different



                                      209
foreign power was used. In other cases, the IOS would check the accuracy of
facts as reported by the field office, with no other editing.
       The foreign power section of the LHM was usually several pages long.
The SSA or IOS normally would copy relevant language from other FISA
requests in which the same foreign power had been used. They also would add
information to the LHM when they had uncovered additional information in
their research to support the foreign power element.
       Martin was the SSA responsible for the Moussaoui FISA request and the
SSA who would have had to swear to the affidavit filed with the FISA Court.
Most of the edits made by Martin were stylistic. Moreover, Martin did not hide
any of his edits. He returned the revised draft of the LHM to Gary for his
review and asked for comments. The evidence also showed that Martin was
planning to prepare an entirely new foreign power section that would contain
all of the necessary foreign power information. Martin also responded to
Gary’s concerns about the removal of the foreign power information and the
other edits. Martin made some changes based on Gary’s suggestions and gave
explanations for the edits that he declined to change. We believe these actions
suggest that Martin was not intentionally undermining Minneapolis’ attempts
to obtain a FISA warrant.
      We also concluded that Martin’s edits did not significantly change the
FISA request. For example, the Minneapolis FBI had written, “Moussaoui had
no convincing explanation for the large sums of money known to have been in
his possession,” which Martin changed to “Moussaoui would not explain the
large sums . . . .” After Gary noted in his e-mail that the problem was that the
Minneapolis FBI believed that Moussaoui could have explained that matter but
chose not to, Martin changed the statement to “Moussaoui did not give a
logical explanation for the large sums . . . .”
        However, a few of Martin’s changes were unnecessary and altered the
meaning of the LHM to some extent. For example, Martin changed the
statement that “Al-Attas admitted that Moussaoui . . . is preparing himself to
fight” to “Al-Attas stated that he and Moussaoui [sic] own boxing gloves and




                                      210
train together in defensive tactics.” 155 Gary responded that neither Al-Attas nor
Moussaoui used the term “defensive tactics,” and that the change “soften[ed]
our argument” and misrepresented Al-Attas’ statements. In his response
e-mail, Martin simply wrote that he believed that the way he had it written was
“accurate.”
     Although Gary challenged some of the changes as “softening” the FISA
request, Martin wrote that he believed that the way he had it written was
“accurate.”
      We believe that some of Martin’s edits made Minneapolis’ request slightly less
persuasive had it gone forward to OIPR. However, the edits did not make major
changes and were not indicative of a deliberate attempt to sabotage the Minneapolis
FBI request.

     I.    Inadequate dissemination of threat information
      Although FBI Headquarters disseminated a teletype to the Intelligence
Community about Moussaoui on September 4, the FBI did not include any of
the threat assessment information about Moussaoui that was drafted by the
Minneapolis FBI. We found that the FBI did not have clear guidelines for
what threat information should be disseminated and where it should go. It was
normally left to the discretion of an analyst or agent, without significant
supervisory oversight.
      When the decision was made to deport Moussaoui and the FBI was
considering using FAA sky marshals to accompany him to France, Don
instructed the Minneapolis FBI to get the FAA “up to speed” on the case.
Henry wrote a detailed memorandum providing the facts of the Moussaoui case
and an assessment of the threat that Minneapolis believed he posed. Henry
stated the belief that Moussaoui’s flight training was preparation for some
future terrorist act and that his physical training and study of martial arts were
“consistent with facilitating the violent takeover of a commercial aircraft.”
Henry wrote:


    155
        This was a reference to Al-Attas’ statement that he and Moussaoui were taking
martial arts training.



                                           211
           Minneapolis believes that Moussaoui, Al-Attas, and others
     not yet known were engaged in preparing to seize a Boeing
     747-400 in commission of a terrorist act. As Moussaoui
     [redacted] was arrested before sufficient evidence of criminal
     activity was revealed, it is not known how far advanced were his
     plans to do so. As the details of this plan are not yet fully
     known, it cannot be determined if Moussaoui has sufficient
     knowledge of the 747-400 to attempt to execute the seizure of
     such an aircraft if he becomes free to do so in the future.
     One of the purposes of Henry’s assessment was to ensure that the FAA
was made aware of Moussaoui.
       By contrast, the teletype prepared by the RFU and distributed outside the
FBI did not have any threat assessment. According to Don, the purpose of the
teletype was to provide information to and solicit input from the Intelligence
Community, not to provide a threat assessment. He added that, prior to
September 11, the FBI was a “case driven, fact specific” agency that did not
ordinarily “speculate” or include “hypothetical information” in a teletype to the
Intelligence Community. He stated that since September 11 the FBI has
attempted to provide more analysis in disseminations of this type about
potential threats from individuals or groups. Similarly, Martin told the OIG
that he attempted to include the known facts about Moussaoui in the teletype.
       We concluded that the RFU’s teletype on Moussaoui omitted significant
facts, such as the fact that Moussaoui knew how to operate the 747-400 Mode
Control Panel, the aircraft’s automated feature that allows the aircraft to fly,
navigate, and, in some cases, land in a fully automated manner. Nor did it
contain any assessment of the facts – either Minneapolis’ or the RFU’s –
despite Martin’s acknowledgement that he considered Moussaoui to be “a dirty
bird,” even if he did not believe Moussaoui could be connected to a foreign
power under FISA. The RFU’s teletype was not distributed to all FBI field
offices, an action that may have generated helpful responses, especially in
locations like Phoenix where similar issues had arisen. The teletype also was
not distributed to all agencies in the Intelligence Community.




                                      212
    J.   Inadequate training
      We found that the FBI did not provide adequate training to the SSAs and
the IOSs in ITOS, on either analytical procedures or on building a FISA
package. The IOS and the SSA in this case had not received any specific
training on FISAs or on foreign intelligence generally.
      SSAs came to FBI Headquarters with different backgrounds, and the
level of training given to the agents in intelligence matters varied. Moreover,
the SSAs normally stayed approximately 18 months in ITOS and then moved
back out to the field. While Martin had a background in terrorism
investigations, he had handled FISA applications and renewals with respect to
only two targets while working in the field. He told us that one of the two
cases already had an active FISA order when he was assigned to the case, and
he handled only the renewals. Thus, after initiating only one FISA application
in the field, Martin assumed responsibility in FBI Headquarters for advising the
field on FISA issues and creating FISA packages for OIPR on behalf of
multiple field offices. He received little formal training in this area. In
addition, although the FISAs he handled covered surveillance of different
terrorist groups, he did not receive any additional formal substantive or
process-oriented training prior to assuming his SSA position at FBI
Headquarters.
       We were told that most of the SSAs’ training at FBI Headquarters was
provided informally by the IOSs, who were permanent Headquarters
employees and did not rotate through the units like SSAs. Several ITOS
employees told us that the section could not have run without the IOSs. Prior
to September 11, there were several paths to becoming an IOS. Some IOSs
were promoted from within the FBI from other, sometimes clerical, positions.
The FBI also hired some IOSs from outside the FBI, many of whom had
graduate degrees. From our interviews of the IOSs, we found widely divergent
skill and knowledge levels.
      The IOS in the Moussaoui case, Robin, had no formal analytical training.
She began with the FBI as a clerk in the records branch after graduation from
high school. Her formal training consisted of some courses at Quantico several
years ago, and occasional briefings from NSLU attorneys regarding updates
and changes in the law. This training was not sufficient for the many analytical
challenges they faced. It also clearly was insufficient to have the IOSs do most


                                      213
of the training of incoming SSAs, who are responsible for overseeing,
coordinating, and contributing to all field intelligence investigations.

IV. Individual performance
      As detailed above, numerous systemic problems affected how the FBI
handled the Moussaoui case. We believe that these systemic problems caused
the main deficiencies in the Moussaoui investigation. Placing blame on
individuals alone for the problems in the Moussaoui case would unfairly single
them out for actions that we believe were not inconsistent with the FBI’s
prevailing practices at the time.
      However, some deficiencies by individuals in this case warrant criticism.
Although we believe that no one committed intentional misconduct,
deliberately undermined the case, or violated established FBI or Department
policies or procedures, we believe that some individuals did not do all they
could have, and should have, to help pursue the Minneapolis FBI’s strong
concerns about Moussaoui. By contrast, the actions of some individuals
warrant praise. In this section, we discuss the performance of individuals
involved in the case.

     A. RFU

          1.   Don
      As Chief of the RFU, Don was responsible for ensuring that the
Minneapolis FBI’s requests to obtain a warrant to search Moussaoui’s
possessions received adequate review. Don recognized that the Moussaoui
case was unusual. He directed his staff several times to consult with NSLU
attorneys on the FISA request. He also took the unusual step of seeking a
review of the request from the chief of the NSLU, Bowman.
       Yet, we believe that Don too quickly concluded that there was
insufficient probable cause for a criminal search warrant in the Moussaoui
case, and he never carefully reconsidered that view, despite the additional
evidence that was uncovered. He also never reviewed the entire file or ensured
that the NSLU received all the documentation or the facts, despite the RFU’s
pledge that the NSLU would give it a good faith review. He did not reconsider
whether a criminal warrant could be obtained, even when the FISA request was
no longer considered an option.

                                       214
       However, these shortcomings were not an intentional attempt to sabotage
the case, as Rowley implied. We have no doubt that Don believed there was
insufficient evidence for probable cause. It is also important to recognize that
he had numerous other cases in the unit and responsibilities that demanded his
attention. But the Moussaoui case was unusual, given the circumstances under
which it was presented to FBI Headquarters and the vehemence of the field
office’s concern that Moussaoui was preparing to commit a terrorist act. In
light of that background, Don did not give the matter the careful evaluation this
case deserved. Nor did he address the problem of a suspected terrorist like
Moussaoui who could not be connected to a “recognized” foreign power under
FISA. According to the Minneapolis agents, when they raised questions about
this issue and asked about other options, Don said there were none and that
they should not worry about it. He did not look for solutions in this case,
which was the role of the RFU.
      He also too quickly discounted important facts, such as the statement by
Al-Attas about going on “jihad.” OIPR Counsel Baker suggested that this
comment was significant and he would “have tied bells and whistles” to the
jihad comment in a FISA application. In sum, we believe Don too quickly
discounted the facts and the assessment of the field office in assessing the
possible threat that Moussaoui posed.

         2.   Martin
      By many accounts, Martin was a responsible and conscientious agent. It
is important to note that he assisted with the plans to deport Moussaoui to
France. He consulted with the Legat Offices in both London and Paris to see
which country would best be able to handle a search of Moussaoui’s
belongings upon entry. Martin was informed that French authorities believed
they would be able to search his belongings upon his arrival, and Martin was
supportive of this plan and assisted in coordinating it.
      However, we concluded that Martin’s performance in this case was
lacking in many respects. Although his personality was described as “easy
going” by some, it is clear that he and the Minneapolis agents clashed. The
Minneapolis agents distrusted his advice, and he believed that the Minneapolis
Field Office became “spun up” too easily.




                                      215
       Like Don, Martin quickly viewed the Minneapolis agents as jumping to
conclusions based only on gut feelings. We believe he hardened his position
and did not evaluate the case fully. He was not open-minded or creative in his
approach to obtaining a FISA warrant in this unusual case. Rather, he told the
field what it could not do, but never fully considered solutions to the FISA
problem or even explained the problems to them fully. Despite the fact that the
Minneapolis FBI was extremely concerned that Moussaoui could be involved
in a terrorist act and Martin’s own acknowledgment that he thought Moussaoui
was “a dirty bird,” Martin did not aggressively seek to help Minneapolis
understand the barriers or think creatively about how it could obtain what it
believed it needed.
     It also appeared to us that he viewed the Minneapolis FBI as an
adversary, rather than helping the agents understand the options and guiding
them through the complicated issues of FISA. We also were troubled by
Martin’s response when we asked whether he reconsidered seeking a criminal
warrant after the FISA route was ruled out. He suggested it was Minneapolis’
responsibility alone to consider this option. In our view, this response
demonstrates a lack of initiative and acceptance of some of the responsibility
by Martin.
       We also believe Martin undersold the case when he presented it to the
NSLU attorneys for review, and he did not ensure that the attorneys received
all the facts. He started the briefings by stating his belief that there was not
enough evidence to obtain a warrant, rather than by explaining the case fully
and seeking NSLU guidance. He never gave the NSLU attorneys the
documentation prepared by Minneapolis. He did not ask the field to participate
in the briefing or suggest that the NSLU contact the field directly. Although it
was not the standard practice to involve the field in that way, this was not a
standard case, and we believe the field should have been involved in the
discussions.
       Martin also did not provide complete or accurate legal advice to the field
office. He used shorthand – such as Moussaoui must be tied to a “recognized”
foreign power or Moussaoui must be an “integral” part of a terrorist
organization. This was not correct. This shorthand also did not provide the
field clear guidance on what it needed to obtain a FISA warrant.




                                       216
      Martin’s edits to the field’s FISA request exacerbated the problem.
Although most of his changes were stylistic, other changes softened the
language slightly and appeared to us as unnecessary. We recognize that it was
his job to review and edit a FISA request, where appropriate. But his edits
furthered Minneapolis’ concern that Headquarters was not doing what it could
to obtain a warrant and was instead unnecessarily and unfairly impeding the
field’s efforts.
       Martin also did not ensure that the information presented by the field
about the potential threat from Moussaoui was disseminated. He did not
believe that a threat assessment should be sent without input from the
Intelligence Community, and he disseminated his own teletype rather than
forward the document prepared by Minneapolis that contained a threat
assessment. But his teletype omitted important facts, and he did not provide it
to all agencies in the Intelligence Community.
      In our view, Martin did not adequately handle this unusual case. He did
not work with the Minneapolis agents adequately, educate them on FISA, or
guide them through the complicated FISA process to determine if the FBI
could legitimately accomplish what the field wanted and needed in order to
thoroughly investigate Moussaoui. He did not fully brief the NSLU. He did
not adequately provide the information on the potential threat posed by
Moussaoui within and outside the FBI. He did not adequately consider
alternative options for a criminal warrant after he concluded that there was not
enough evidence for a FISA warrant under the prevailing standards at the time.
Although his conduct did not violate a clear FBI policy, we believe his
performance in this case was significantly lacking.

         3.   Robin
      Robin, the IOS who worked with Martin, is also considered a hard
working and competent employee. The IOS’s role was to support the SSA, and
Robin supported Martin’s requests. However, when she uncovered the
Phoenix EC, she did nothing with it. We believe she should have at least
recognized the relevance of the EC and the potential relationship of its theories
to the Moussaoui case. Several NSLU attorneys told us that had they known
about the Phoenix EC, it might have made a difference in how they addressed
the Moussaoui matter. At the least, they said, it would have caused them to
consult with OIPR about the possibility of obtaining a FISA warrant for

                                      217
Moussaoui. We think Robin should have brought the Phoenix EC to
someone’s attention.

    B.   NSLU attorneys
       Several NSLU attorneys provided advice to the RFU on the Moussaoui
case, based on what they were told about the case. None read the
documentation in the case or learned all the facts. The advice that they gave,
based on what they were told and the prevailing conservative interpretation of
FISA, was not unfounded. We do not believe any of the individual attorneys,
including Bowman, were wrong in their advice or that they violated any
specific policies or practices in place at the time. Yet, we believe that given
the unusual nature of this case – in particular the strong disagreement between
the field and Headquarters about whether probable cause existed to obtain a
FISA warrant – they should have considered alternative approaches, contacted
the Minneapolis FBI for more information, or at least consulted with OIPR to
determine if there were creative approaches to this case.
      Part of the problem was how the NSLU operated – no single attorney was
assigned responsibility for a FISA request. Instead, several attorneys were
consulted at various times, and no one was required to review or understand the
facts and be responsible for providing comprehensive advice on a FISA
request. As a result, the attorneys relied on brief explanations from the RFU
and never reviewed all the documentation. Nor did any attorney consider all
the potential approaches, including whether the field should approach the
USAO after the possibility of a FISA warrant was exhausted. But given this
system, and the facts available to the NSLU, we do not think any of the NSLU
attorneys committed misconduct or provided clearly inappropriate legal advice.

    C. Minneapolis FBI employees
       The Minneapolis agents deserve praise for their relentless efforts and
their accurate instincts in assessing Moussaoui’s actions. They believed that
Moussaoui posed a threat, and they aggressively and tirelessly investigated this
prospect. Their tenacity deserves praise and recognition.
     We also believe that Rowley deserves credit for bringing forward the
important issues relating to how the Moussaoui case was handled. Her
complaints resulted in an important reassessment of how the FBI handled this


                                      218
matter, and some of them raised valid concerns about FBI employees and
operations. However, as we discussed in this chapter, we did not find that all
of her allegations about the FBI or FBI employees to be meritorious.
      Moreover, Rowley’s performance in the Moussaoui investigation itself
was lacking in several regards. As the Minneapolis CDC, she was responsible
for guiding the Minneapolis agents through the complicated interrelationship
between a criminal and an intelligence investigation. At the outset, she
assumed that the USAO would not support a criminal warrant. Contrary to the
implication in her letter, which placed the blame for failing to seek a criminal
warrant solely on FBI Headquarters, she advised the field agents not to seek a
criminal warrant. She did so without fully understanding the requirements of
FISA and the difficulty of connecting Moussaoui to a recognized foreign
power. She never provided guidance or help to the field agents on this critical
issue. She did not consult with the NSLU about what was required under FISA
or whether attempting to seek a criminal warrant was a better avenue. Nor did
she ever reconsider her initial advice that the USAO would not seek a criminal
warrant, even after the FISA route was exhausted. Along with FBI
Headquarters, she should share some of the criticism for the failure to carefully
and creatively assess the options for obtaining a warrant.
      While the Minneapolis agents’ aggressiveness in pursuing the Moussaoui
investigation was commendable, we also believe that the Minneapolis agents
contributed to some of the problems in the handling of the Moussaoui
investigation. Gary and Henry sought to open a criminal investigation after
opening the intelligence investigation without fully considering the
ramifications of doing so or evaluating the potential tools available before
deciding which avenue presented the best option. In addition, they failed to
reconsider pursuing a criminal warrant once the FISA route was exhausted.
Even if they believed that FBI Headquarters would still be unsupportive of a
criminal warrant, there would have been nothing to lose in raising the issue
again, and they could have attempted to bolster their argument for seeking a
criminal warrant with the additional information that had been uncovered in the
case since the matter was initially discussed.
      We also concluded that the Minneapolis FBI management should have
taken more aggressive action to support its field agents. Several FBI
employees commented to us that if the Minneapolis FBI felt strongly about this
case, it should have raised its concerns at a higher level in FBI Headquarters.

                                      219
They said that field office SACs often called the ITOS Section Chief in
Headquarters, or a higher official, when the field office disagreed with the
advice of a unit chief or wanted a further review of the unit chief’s decision.
Section Chief Rolince told the OIG that he routinely received telephone calls
from field office managers about disputes between the field and Headquarters
and that approximately once a week a field manager would come to his office
at Headquarters to discuss a dispute or issue between the field office and
Headquarters.
      Gary even advised the Acting SAC, Roy, to push the issue up the “chain
of command” at Headquarters. Roy talked to Don, but Roy did not push the
issue further. Roy stated to the OIG that he believed that the Minneapolis FBI
was “working things out” and that the Minneapolis FBI had yet to receive
information that caused him to believe it was necessary to push the issue
further. We believe, however, that given the adamant views of the field agents,
he should have raised this issue to a higher level at the FBI. While we are not
certain it would have made a difference, we believe he should have expended
the effort.

V. Conclusion
      In sum, we did not find that any employees committed intentional
misconduct, or violated established FBI policies or practices, or attempted to
deliberately sabotage the Moussaoui case. But the performance of several
individuals involved with the case was lacking. The Minneapolis agents, who
deserve credit for their tenacity and accurate instincts, did not receive sufficient
support, either from their field office management and legal counsel or from
FBI Headquarters.
       We believe that singling out individuals for criticism alone would miss
the main problems demonstrated by the Moussaoui case. Even if FBI
employees pursued this case more aggressively, consulted with OIPR, or
sought a criminal warrant, it is not clear that this approach would have
succeeded in obtaining a search warrant for Moussaoui’s possessions before
September 11. However, this case evidenced systemic problems in how the
FBI handled intelligence cases and provided guidance to the field. The
problems included a narrow and conservative interpretation of the FISA
requirements, inadequate analysis of whether to proceed as a criminal or
intelligence investigation, adversarial relations between FBI Headquarters and

                                        220
the field, and inadequate and disjointed review of potential FISA requests by
the NSLU. In our view, these systemic problems were a more important cause
of the deficiencies we found in the Moussaoui case. In addition the systemic
problems hindered the FBI’s ability to detect and deter terrorism.




                                     221
222
                   CHAPTER FIVE
         TWO SEPTEMBER 11 HIJACKERS: KHALID
           AL-MIHDHAR AND NAWAF AL-HAZMI
I.   Introduction
     In this chapter, we examine the FBI’s handling of intelligence
information concerning two of the September 11 hijackers, Khalid al-Mihdhar
and Nawaf al-Hazmi. Mihdhar, Hazmi, and three other terrorists hijacked and
crashed American Airlines Flight 77 into the Pentagon.
       The FBI has asserted that it learned in late August 2001 that Mihdhar and
Hazmi were al Qaeda operatives and that they had traveled to the United States
in January 2000. In August 2001, the FBI also discovered that Mihdhar had
entered the United States on July 4, 2001, purportedly for a month-long stay.
In late August, the FBI initiated an investigation to determine whether Mihdhar
was still in the country and to find him. The FBI was still searching for him at
the time of the September 11 attacks.
       We examined the information that the Intelligence Community and the
FBI had about Mihdhar and Hazmi prior to September 11. We found no
evidence indicating the FBI or any other member of the Intelligence
Community had specific intelligence regarding the September 11 plot.
However, beginning in late 1999 and continuing through September 11, 2001,
we found five junctures at which the FBI either learned of intelligence
information about Mihdhar and Hazmi, could have learned of additional
intelligence information about them, or could have developed additional
information about their location and terrorist connections. These five junctures
were:
       • In early January 2000, Mihdhar traveled to Kuala Lumpur,
         Malaysia, where he met with other al Qaeda operatives. Intelligence
         information developed by the CIA in early 2000 revealed that
         Mihdhar was a suspected al Qaeda operative, he traveled to
         Malaysia to meet with other al Qaeda operatives, and he had a
         multiple-entry U.S. visa. The CIA also discovered in March 2000
         that Hazmi had traveled to Los Angeles in January 2000.



                                      223
          • In late January 2000, Mihdhar and Hazmi both traveled to Los
            Angeles and then moved to San Diego, where they associated with a
            former subject of an FBI investigation and also lived with a long-
            time FBI asset. 156
          • In late December 2000 and early January 2001, a reliable joint
            FBI/CIA source provided information related to the FBI’s ongoing
            investigation of the attack on the U.S.S. Cole. 157 The source’s
            information linked Hazmi and Mihdhar with the purported
            mastermind of the Cole attack.
          • In the summer of 2001, the CIA and the FBI had various
            interactions regarding the FBI’s investigation of the Cole attack.
            These interactions touched on the participants in the January 2000
            Malaysia meetings and information developed by the CIA about the
            Malaysia meetings.
          • In August 2001, the FBI learned that Mihdhar had entered the
            United States on July 4 and began searching for him in early
            September 2001. It also learned that the purported mastermind of
            the Cole attack had met with Mihdhar and Hazmi in the Malaysia
            meetings. The FBI did not locate him before the September 11
            attacks.
     Yet, despite these ongoing discussions and opportunities for the FBI to
learn about and focus on Mihdhar and Hazmi, including their presence in the
United States, the FBI was not made aware of and did not connect important
details about them until late August 2001, a short time before they participated
in the terrorist attacks. Even in August, the FBI’s search for Mihdhar and
Hazmi was not given any urgency or priority, and was not close to locating
them by the time of the attacks.

   156 Hazmi had also traveled to and attended the January 2000 meetings in Kuala
Lumpur, Malaysia.
    157
        As noted previously, on October 12, 2000, two terrorist operatives in an explosive-
laden boat committed a suicide attack on the U.S.S. Cole naval destroyer during a brief
refueling stop at the port in Aden, Yemen. Seventeen sailors were killed and 39 were
wounded in the attack.



                                            224
      In this chapter, we describe each of these five opportunities in detail. We
set forth the available intelligence information regarding Hazmi and Mihdhar
that existed at the time, whether the information was made available to the FBI,
and what additional information about Hazmi and Mihdhar the FBI could have
developed. In the analysis section of this chapter, we evaluate the problems
that impeded the FBI’s handling of the intelligence information about Hazmi
and Mihdhar before September 11.

II. Background

     A. OIG investigation
      To investigate the issues involving Hazmi and Mihdhar, the OIG asked
for and reviewed all documents the FBI had regarding them before
September 11. The FBI search for these documents included searches of its
Automated Case Support system (ACS), Integrated Intelligence Information
Application (IIIA) system, 158 and CTLink. 159 In addition, searches were
conducted on archived FBI e-mail messages and the FBI Director’s briefing
documents. These searches were initially conducted in response to a request
by the Congressional Joint Intelligence Committee’s Inquiry Staff, which was
conducting its own inquiry into this subject. The OIG also obtained direct
access to ACS so that we could conduct our own searches for relevant
documents. In addition, we reviewed hard copy case and informant files to
search for documents relevant to Mihdhar and Hazmi.
      In addition to reviewing these documents, we conducted more than 70
interviews related to the Mihdhar and Hazmi matter. These included
interviews of FBI IOSs, special agents, attorneys, and supervisors who had
access to some of the relevant information or participated in meetings or


    158
       IIIA is a database designed to capture comprehensive amounts of information from
counterintelligence, international, and domestic terrorism investigations. The system
includes information ranging from biographical data on persons to profiles of terrorist
groups. The FBI describes the system as “conducive to putting together information
regardless of office of origin or case.”
    159
      CTLink is a shared database used for the dissemination of intelligence information
among agencies within the Intelligence Community.



                                           225
operations related to these hijackers. We also interviewed FBI employees
detailed to the CIA and FBI agents who participated in debriefings of
intelligence sources who had relevant information.
      Because much of the information discussed in this chapter of the report
involves the FBI’s interactions with the CIA, we also obtained information
directly from the CIA. The DOJ OIG does not have oversight authority over
CIA operations or personnel, and we therefore did not make assessments of the
performance of CIA personnel. That issue is the responsibility of the CIA
OIG, which is conducting its own inquiry in response to the JICI report. We
had to rely on the cooperation of the CIA in providing access to CIA witnesses
and documents that were relevant to the OIG’s oversight of the FBI.
      We interviewed CIA staff operations officers, analysts, and supervisors,
as well as CIA employees detailed to the FBI, including a CIA employee
detailed to the FBI’s New York Field Office’s Joint Terrorism Task Force. (S)
       Initially, the CIA made available to the OIG for review various
documents that the CIA’s “Director of Central Intelligence (DCI) Review
Group” 160 had identified as being related to our inquiry. The Review Group
had gathered these and other documents during its review of the September 11
attacks and during additional searches conducted at the request of the JICI
staff. We did not have independent access to CIA databases, and therefore we
could not independently verify that all relevant documents had been provided
to us. However, we had several lengthy sessions with members of the Review
Group at which they identified the documents they used to support their
conclusions regarding Hazmi and Mihdhar. The CIA permitted us to review
but not have a copy of these documents.
      In addition, a member of the CIA General Counsel’s staff conducted
additional searches for documents relevant to particular disputed issues. As a
result of that review, copies of additional relevant documents were also made
available for our review.


    160
        The CIA formed the DCI Review Group in late 2001 to assist the CIA in
determining why it had not detected the September 11 plot. The group included former CIA
case officers and CIA OIG personnel.



                                          226
       In response to the JICI report issued in December 2002, the CIA OIG
initiated a review in February 2003 of the CIA actions related to the
September 11 attacks. In July 2003 the CIA OIG review team informed us it
had several more documents that were relevant to our review. These
documents were made available to us to review, and redacted copies of the
documents were provided to us in November 2003. The CIA OIG review team
also provided additional relevant documents and information to us that it found
during the course of its review.
      In February 2004, however, while we were reviewing a list of CIA
documents that had been accessed by FBI employees assigned to the CIA, we
noticed the title of a document that appeared to be relevant to this review and
had not been previously disclosed to us. The CIA OIG had not previously
obtained this document in connection with its review. We obtained this
document, known as a Central Intelligence Report (CIR). This CIR was a draft
document addressed to the FBI containing information about Mihdhar’s travel
and possession of a U.S. visa. As a result of the discovery of this new
document, a critical document that we later determined had not been sent to the
FBI before the September 11 attacks (see Section III, A, 4 below), we had to
re-interview several FBI and CIA employees and obtain additional documents
from the CIA. The belated discovery of this CIA document delayed the
completion of our review.

    B.   Background on the CIA
      In this section of the chapter, we describe background information
relevant to the interactions between the CIA and the FBI and the ways in which
they exchanged intelligence. We begin with a discussion of the CIA’s
authority and mission, organization, forms of communications, and ways in
which the CIA passed intelligence to the FBI. We also discuss the role of the
FBI’s employees who were “detailed” to work at the CIA.

         1.   CIA authority and mission
      As discussed in Chapter Two, the National Security Act of 1947 created
the CIA and established it as the nation’s lead foreign intelligence agency of
the United States. The CIA engages primarily in the clandestine collection of
“foreign intelligence” information – information relating to the capabilities,
intentions, and activities of foreign governments or organizations, including


                                     227
information about their international terrorist activities. The CIA is charged
with evaluating and disseminating the intelligence information it collects.
       The CIA reports directly to the President through the Director of Central
Intelligence (DCI), who is the head of both the CIA and the Intelligence
Community. The DCI is the primary advisor to the President and the National
Security Council on national foreign intelligence matters. George Tenet was
named to that position in 1997.

           2.    Organization of the CIA
      The work of the CIA is conducted primarily through three “directorates”:
the Directorate of Operations, the Directorate of Intelligence, and the
Directorate of Science and Technology. Each is led by a Deputy Director.
Below we briefly describe the relevant structure and positions within each
directorate.

                 a.    Directorate of Operations
       The Directorate of Operations is responsible for the clandestine
collection of foreign intelligence. This takes place in field offices known as
“stations.” 161 Smaller cities may have “bases,” which are sub-offices of the
stations. “Operations officers,” also known as “case officers,” are responsible
for collecting intelligence through contacts with human sources and through
the use of technology. Collection management officers, also known as “reports
officers,” are responsible for taking raw intelligence reported by the operations
officers and removing from it the information that reveals the source, method
of collection, or other sensitive information. The reports officers publish
intelligence information in a form that can be made available to the Intelligence
Community.
    The head of a station or base is usually an operations officer and is
known as a Chief of Station (COS) or Chief of Base (COB). Stations and bases


    161
        The CIA also has field offices within the United States that are part of the National
Resources Division within the Directorate of Operations. They are responsible for the overt
collection of foreign intelligence volunteered by individuals and organizations in the
country.



                                            228
are usually grouped by geographic division and report to the chief of the
geographic division at CIA Headquarters. Within the geographic division at
CIA Headquarters are “staff operations officers,” or “desk officers,” who
provide operational research, advice, and other forms of case management
support to the officers in the field.
      The CIA’s Counterterrorist Center (CTC), which is based in the
Directorate of Operations but which draws on all CIA resources, is charged
with preempting and disrupting international terrorism. The CTC is staffed by
managers, analysts, operations officers, desk officers, and reports officers. The
CTC collects and analyzes strategic intelligence on terrorist groups and state
sponsors of terrorism to ascertain the capabilities, sources of support, and
likely targets of terrorist elements, and to furnish detailed information on
terrorist-related intelligence to the Intelligence Community.
      At the time of the events relevant to our review, the CTC operated a unit
– that we call the “Bin Laden Unit” – that dealt exclusively with issues related
to al Qaeda and Usama Bin Laden. The Bin Laden Unit was later merged into
a larger group in the CTC. Although staffing levels fluctuated, approximately
40-50 people worked within the Bin Laden Unit before September 11, 2001.
The Bin Laden Unit was known as a “virtual station” because it operated from
within CIA Headquarters but collected and operated against a subject, much as
stations in the field focus on a country.

               b.   Directorate of Intelligence
      The Directorate of Intelligence, the analytical branch of the CIA, is
responsible for the production and dissemination of timely, accurate, and
objective intelligence analysis on foreign policy issues. It focuses analysis on
key foreign countries, regional conflicts, and issues such as terrorism and
narcotics trafficking.
      The Directorate of Intelligence is primarily composed of analysts who
concentrate on particular areas of expertise. For example, intelligence analysts
are assigned a particular geographic region to monitor the leadership,
motivations, plans, and intentions of foreign governments in relation to U.S.
national security interests. Additionally, counterterrorism analysts stationed in
the CTC produce a range of long-term intelligence products about terrorist
organizations and provide tactical analytic support to intelligence operations.


                                       229
               c.   Directorate of Science and Technology
     The Directorate of Science and Technology is responsible for creating
and applying technology in support of the intelligence collection mission. It
employs a broad range of professionals, including computer programmers,
engineers, scientists, and linguists.

          3.   The CIA’s collection and internal dissemination of
               information
      Official internal communications between entities within the CIA are
normally conducted by an electronic communication known as a “cable.”
Cables are addressed to the stations, offices, or units within an office from
which some action is expected. Information acceptable for sharing with a
foreign government service is put into a section of a cable called a “tear line.”

          4.   Passing of intelligence information by the CIA to the FBI
      The CIA shares intelligence with the rest of the Intelligence Community
through a communication known as a “TD” (“Telegraphic Dissemination”).
TDs can be sent to other Intelligence Community agencies, including the FBI,
and are available to the Intelligence Community through the Intelink system.
      Another type of intelligence report used by the CIA when conducting
business with other agencies is a CIR, or “Central Intelligence Report.” CIRs
are used for disseminating information to a specific agency or group of
agencies. CIRs to the FBI normally concern something occurring in the United
States, involving a U.S. person or an ongoing FBI investigation.
       In addition to formal methods of communicating by the CIA to the FBI,
much information can be shared with the FBI informally. CIA and FBI
employees who have similar positions and expertise develop relationships and
communicate informally while working together on related matters, either by
secure telephones or in person. In addition, meetings are sometimes held to
discuss a matter or a piece of intelligence that is of value to both agencies.
According to the CIA employees we interviewed, when the CIA passed
intelligence information or other kinds of information verbally or by another
informal mechanism to the FBI, the information exchange normally would be
documented through a TD or a CIR. However, they said that not every
telephone call or conversation was documented.


                                       230
     C. FBI detailees to the CIA Counterterrorist Center
      In 1996, the FBI began detailing employees to work in the CIA’s CTC.
During the time period relevant to this chapter of the report, five FBI
employees were detailed to the CTC’s Usama Bin Laden Unit in four separate
positions. Two of the positions were filled by personnel from the FBI’s
Washington Field Office, and one position each was filled from the FBI’s New
York Field Office and FBI Headquarters. 162

             1.    FBI Headquarters detailees
      One of the FBI detailees assigned to Bin Laden Unit, who we call “Eric,”
held a supervisory position as a deputy chief of the Bin Laden Unit. 163 Eric, an
FBI Headquarters supervisor in the Radical Fundamentalist Unit, was detailed
to the CTC as a branch chief for a particular terrorist group in September 1997.
In March 1999, FBI Headquarters transferred him from that part of the CTC to
the deputy chief position in the Bin Laden Unit. According to Eric, he was told
by FBI Assistant Director Neil Gallagher that there were a lot of problems
between the FBI’s New York Field Office and the Bin Laden Unit and that he
needed to mend the relationship. 164 Eric stated that although he acted as a
liaison between the CIA and the FBI, his primary job was to perform
substantive work related to the Bin Laden Unit’s mission.
      Eric left the Bin Laden Unit in January 2000 and was replaced in July
2000 by an FBI employee who we call “Craig.” 165 By this time, the Bin Laden
Unit had been placed into a newly formed group, which was a much larger


    162
        Other FBI employees were also detailed to the CIA during this time. However, the
FBI detailees to the CTC’s Bin Laden Unit were the only ones relevant to the issues in this
review.
    163
        A CIA employee was the other deputy chief in the Bin Laden Unit. Both the FBI
detailee and the CIA employee reported to the chief of the Bin Laden Unit, a CIA employee.
    164
        Eric told the OIG that when he arrived at Bin Laden Unit, he “walked into a buzz
saw” and there was a great deal of animus from CIA employees toward the FBI detailees.
Eric said this experience was vastly different from his tenure in another CTC section, where
he was readily accepted and integrated into the CIA’s operations.
    165
          No one filled the deputy chief position between January 2000 and July 2000.



                                             231
organization than the Bin Laden Unit. Craig was designated as a deputy chief
in the new, larger group. He described his primary job as being a “referent” for
law enforcement issues. He explained this role as involving coordination
between the FBI and CIA when they wanted to conduct joint interviews or
when the CIA requested assistance with a law enforcement matter.
       Eric and Craig had access via computers on their desks to the CIA’s
internal cables. Eric said that while he was at the CIA, he attempted to read all
incoming Bin Laden Unit cables. However, he said that the amount of cable
traffic was overwhelming and was too much for one individual to read
consistently. In contrast, Craig told the OIG that he did not believe his job was
to read all the cable traffic and that he did not even attempt to do so.

           2.   Washington Field Office detailees
      Another FBI employee detailed to the Bin Laden Unit, an Intelligence
Operations Specialist (IOS) who we call “Mary,” was assigned to CIA
Headquarters from the FBI’s Washington Field Office in April 1998. Although
she was assigned to work on issues of mutual interest to the FBI and the CIA,
such as the East African embassy bombings, 166 she also was assigned to work
on unilateral CTC matters. She said that as a desk officer, she read and
responded to cable traffic that was pertinent to the matters she was assigned.
She nominally reported to a supervisor in the FBI’s Washington Field Office,
but her work was assigned by her CTC supervisors at the Bin Laden Unit. 167
     The Washington Field Office also detailed to the CTC a special agent,
who we call “Dwight.” His performance evaluations were done by the
Washington Field Office, but his assignments came from CTC managers. He
focused on the financial aspects of terrorism and obtained information through
the CTC to help identify and investigate persons who were responsible for



    166
        On August 7, 1998, nearly simultaneous vehicle bombs were detonated at the U.S.
embassies in Nairobi, Kenya, and Dar es Salaam, Tanzania, killing over 200 people and
injuring over 4,000.
    167
      Her position was later transferred from the Washington Field Office to FBI
Headquarters’ Usama Bin Laden Unit.



                                          232
funding terrorism. He had access to CIA cables and reviewed them for
potential leads or other information related to terrorist financing.

          3.   New York Field Office detailee
      An FBI New York Field Office agent from its Bin Laden squad, who we
call “Malcolm,” was also detailed to the CIA’s Bin Laden Unit in early 1999 at
the request of John O’Neill, the New York Field Office Special Agent in
Charge for Counterterrorism at the time. Malcolm replaced another New York
Field Office Bin Laden squad agent who had left the CIA’s Bin Laden Unit in
August 1998. Malcolm told the OIG that he was not given instructions as to
his specific duties at the CIA. He said he understood his job there was to be
the “eyes and ears” of the New York Field Office and “to monitor” New York
Field Office cases. He said his role was to “facilitate inquiries of mutual
interest” and to act as a liaison for FBI offices around the country by following
up on tracing requests and reporting on their status. He stated that he also
spent a significant amount of time coordinating with the CTC in preparation for
and during the trials that arose out of the FBI’s investigations into the East
African Embassy bombings. He told the OIG that he did not review all cables;
he reviewed only the cables that he thought were interesting, generally based
solely on his review of the cable subject line. He said he reported to an SSA in
the New York Field Office, not to anyone at the CIA.

III. Factual chronology regarding Hazmi and Mihdhar
      In this section of the report, we discuss in detail the five junctures before
September 11, 2001, during which the FBI had an opportunity to obtain or
develop information about Mihdhar and Hazmi but did not. We describe in
chronological order the sequence of events regarding these five opportunities,
including the information that the FBI obtained or could have obtained about
Hazmi and Mihdhar.
      Many of the witnesses told the OIG they did not have specific
recollection of the events and conversations related to the Hazmi and Mihdhar
matter. In addition, we found few notes and documents relating to these events
and conversations. The following is our best reconstruction of the events based
on the participants’ recollections and the existing documentary evidence.




                                        233
     We show a timeline of the Hazmi and Mihdhar events described in this
chapter on the next two pages of the report.

    A. Identification in January 2000 of Hazmi and Mihdhar as al
       Qaeda operatives
       This section describes the initial development and dissemination of
intelligence information concerning Hazmi and Mihdhar. This intelligence was
obtained by the NSA in late 1999 and early 2000. The intelligence led to a
surveillance operation in Malaysia in which it was discovered that Mihdhar had
a valid multiple-entry U.S. visa and photographs of Mihdhar meeting with
other al Qaeda operatives were taken.
      There were several ways the FBI could have acquired this information
from the CIA – through a CIR from the CIA to the FBI, informally through
conversations between a CIA employee and FBI Headquarters employees, and
through the FBI employees detailed to the CIA reviewing the CIA cable traffic.
We reviewed whether this information was in fact passed to the FBI by the
CIA, and based on the evidence, concluded that while the CIA passed some of
the information about Mihdhar to the FBI, it did not contemporaneously pass
the information about Mihdhar’s U.S. visa to the FBI. We concluded it was
not disclosed by the CIA until late August 2001, shortly before the September
11 terrorist attacks. We also reviewed whether FBI detailees to the CIA
contemporaneously acquired this information and what action, if any, they took
with respect to this information.




                                     234
      Hazmi and Mihdhar Timeline – Part I




235
                                               Hazmi and Mihdhar Timeline – Part II




             5/1/2000                                                                                                                   6/11/2001
                                                                                                                               FBI HQ analyst meets with
                                                                                                                                                                 9/11/2001
      Beginning in mid-2000,
                                                                                                                               New York FBI agents working    Hazmi and Mihdhar
      CIA and FBI begin
                                                                                                                               on the Cole investigation.     and 17 other
      debriefing joint source.
                                                                                                                               CIA personnel also             terrorists
      Source provided                                                                   1/4/2001                               attend the meeting.            attack the
      significant information                  10/12/2000                   CIA shows joint source                             New York agents are not        United States.
      about Bin Laden and
                                        U.S.S. Cole is attacked             photos from Kuala Lumpur.                          informed of identification
      Al Qaeda.
                                        in Aden, Yemen. Shortly             Source identifies Khallad in photos.               of Khallad in photos.
                                        thereafter, Yemeni officials        FBI ALAT is present for most                                                  8/22/2001
                      6/10/2000         provide FBI with photo of           of meeting with source                                                  CIA personnel inform
                   Mihdhar departs      "Khallad," the purported            but does not become                                                     FBI HQ analyst
                   the United States.   mastermind of the attack.           aware of this identification.                                           of Mihdhar's U.S. visa
                                                                                                                                                    and July 4, 2001,
                                                                                                                                                    entry in New York.




236
                           7/1/2000            10/1/2000                          1/1/2001                         4/1/2001                    7/1/2001


      5/1/2000                                                                                                                                                         9/15/2001
                                                                                                                              5/15/2001
                                                                                                                        Some time in May,                     8/29/2001
                                                                                                                        CIA personnel advise
                 5/31/2000                                             12/16/2000                                                                         FBI New York opens
                                                                                                                        FBI HQ analyst about the
                                                                                                                                                          an intelligence
         Hazmi and Mihdhar                                 CIA shows joint source                                       Malaysian meetings
                                                                                                                                                          investigation
         rent rooms in the                                 the Yemeni photo of Khallad.                                 and provide photos.
                                                                                                                                                          to locate Mihdhar.
         residence of an FBI asset.                        Source identifies him                                        FBI not informed
                                                           as mastermind of Cole attack.                                of Mihdhar's U.S. visa
                                                                                                                        or identification of
                                                                                                                        Khallad in the photos.
      In addition, the CIA learned in March 2000 that Hazmi had boarded a
United Airlines flight in Bangkok, Thailand, bound for Los Angeles,
California, on January 15, 2000. 168 We also reviewed whether the FBI was
informed of this information, and concluded that it did not learn about this
information until August 2001.

           1.    Background
       In late 1999, the Intelligence Community developed significant
intelligence information regarding Hazmi and Mihdhar. At this time, the
Intelligence Community was on high alert because of concerns involving
possible terrorist activity planned in conjunction with the coming of the new
Millennium. In addition to concerns about attacks at New Year’s Eve
celebrations, the Intelligence Community was concerned that a terrorist attack
was planned for January 3, 2000, which in the Islamic calendar is considered a
“night of destiny.” 169 There were additional concerns about potential terrorist
attacks coinciding with the end of Ramadan, around January 6, 2000. 170
      Several of these planned attacks were uncovered in December 1999. For
example, on December 1, 1999, in Jordan, a plot to disrupt New Year activities
with explosives designed to kill thousands of revelers, including U.S. citizens,
was uncovered and thwarted with the arrest of 16 people. On December 14,
1999, Ahmad Ressam was stopped at the United States/Canadian border in
Washington state as he attempted to enter the United States in a vehicle loaded
with explosives. It was determined later that he had intended to detonate the
explosives at the Los Angeles airport.
      To be prepared for possible terrorist activity at the end of 1999, the FBI
activated its Strategic Information Operations Center (SIOC). The SIOC is


    168
        Mihdhar was also on the same flight, but that fact apparently was not known within
the Intelligence Community until much later, in August 2001.
    169
        During the course of the Cole bombing investigation, it was learned that an attack
also had been planned against the U.S.S. The Sullivans in Aden, Yemen, on the same date.
That attack failed because the attack boat sank before reaching its target.
    170
        Ramadan is the ninth month of the Islamic calendar. Ramadan begins when
authorities in Saudi Arabia sight the new moon of the ninth month.



                                            237
located in a secure area within FBI Headquarters and contains several meeting
rooms, conferencing equipment, communications equipment, computers, and
other operational equipment. It allows the FBI to manage major investigations
or other significant operations 24 hours a day, 7 days a week.
      During the Millennium period, the FBI operated its International
Terrorism Operations Section from within the SIOC. In addition, the FBI
detailed field supervisors with counterterrorism experience and other
counterterrorism personnel to the SIOC for around-the-clock monitoring and
response to possible terrorist activities.
       At the CIA, additional personnel were called in to work at the CTC and
planned leave was canceled. In addition, personnel from the CIA and other
Intelligence Community agencies were detailed to work in the FBI’s SIOC.
      During this period, personnel in the FBI’s SIOC prepared two daily
briefings for the FBI Director and his executive staff, one at 7:30 a.m. and the
other at 4:30 p.m. The daily briefings contained summaries of significant
terrorism investigations and the latest intelligence related to counterterrorism.
Accompanying the briefings were daily threat updates prepared each afternoon
for the Director and his executive staff. The briefings and the threat updates
were prepared by various people throughout the course of the day and night in
the SIOC.

           2.   NSA provides intelligence regarding planned travel by al
                Qaeda operatives to Malaysia
      In the midst of the Millennium period concerns in late 1999, the NSA
analyzed communications associated with a suspected terrorist facility in the
Middle East linked to Al Qaeda activities directed against U.S. interests. The
communications indicated that several members of an “operational cadre” were
planning to travel to Kuala Lumpur, Malaysia, in early January 2000. Analysis
of the communications revealed that persons named Nawaf, Khalid and Salem
were involved. In early 2000, the NSA analyzed what appeared to be related
communications concerning a “Khalid.” 171


    171
       The NSA had additional information in its database further identifying “Nawaf” as
Nawaf al-Hazmi, a friend of Khalid. However, the NSA informed the OIG that it was not
(continued)

                                           238
      The NSA’s reporting about these communications was sent, among other
places, to FBI Headquarters, the FBI’s Washington and New York Field
Offices, and the CIA’s CTC. At the FBI, this information appeared in the daily
threat update to the Director on January 4, 2000.

           3.    Mihdhar’s travel and discovery of his U.S. visa
     A CIA desk officer working in the Bin Laden Unit who we call
“Michelle” determined that there were links between these people and Al
Qaeda as well as the 1998 East African embassy bombings. In addition, the
CIA identified “Khalid” as Khalid al-Mihdhar.
      Mihdhar arrived in Kuala Lumpur, Malaysia, on January 5, 2000.
Mihdhar was traveling on a Saudi passport. This passport contained a valid
U.S. visa. Mihdhar’s passport was photocopied and sent to CIA Headquarters.
      Several CIA cables contemporaneously discussed Mihdhar’s travel and
the discovery of his U.S. visa in his Saudi passport. CIA records show that a
CIA employee, who we call “James” 172 and who was detailed to FBI
Headquarters during the Millennium period, accessed one of these cables
approximately two hours after it was disseminated in the morning, and he
accessed another of the cables about eight hours after it was disseminated on
the next morning. James discussed some information about Mihdhar with two
FBI Headquarters employees on the evening of January 5, which we detail in
Section 7 below.

           4.    CIR is drafted to pass Mihdhar’s visa information to the FBI
      Dwight, the special agent detailed to the CIA’s Bin Laden Unit from the
FBI’s Washington Field Office, also read the cables discussing Mihdhar’s U.S.
visa within hours of each cable being disseminated. CIA records also show


(continued)
asked to conduct research on these individuals at that time, and it did not uncover that
information on Hazmi. It was thought at the time that Salem might be Hazmi’s younger
brother, and this was later confirmed.
    172
        The CIA has asked the OIG not to identify the true names of CIA employees for
operational reasons.



                                            239
that Dwight’s immediate supervisor in the Bin Laden Unit opened one of the
cables soon after Dwight.
      Dwight opened one of the cables, which reported that Mihdhar’s visa
application had been verified and that he had listed New York as his intended
destination.
      Around 9:30 a.m. on the same morning, Dwight began drafting in the
CIA’s computer system a CIR addressed to the UBL Unit Chief at FBI
Headquarters and an SSA in the UBL Unit at FBI Headquarters who we call
“Bob.” Dwight’s CIR also was addressed to the FBI’s New York Field Office.
The CIR first described the NSA information that had been received about
Mihdhar, including the planned travel to Kuala Lumpur, Malaysia in early
January. The CIR also discussed the potential links between the suspected
terrorist facility in the Middle East and the 1998 East Africa embassy
bombings. The CIR stated that photographs of Mihdhar had been obtained and
would be sent to the FBI under separate cover. The CIR detailed Mihdhar’s
passport and visa information, including that Mihdhar had listed on his visa
application his intended destination as New York and that he planned to stay
three months. Dwight also wrote that the CTC was requesting “feedback” on
“any intelligence uncovered in FBI’s investigation” resulting from the
information in the CIR.
      Michelle, the Bin Laden Unit desk officer who originally had taken
notice of the information about Mihdhar and his connections to Al Qaeda,
accessed Dwight’s draft CIR less than an hour after Dwight drafted it at
approximately 9:30 a.m. Around 4:00 p.m. on the same day, Michelle added a
note to the CIR in the CIA’s computer system: “pls hold off on CIR for now
per [the CIA Deputy Chief of Bin Laden Unit].”
      CIA records show that the same morning, the CIA Deputy Chief of Bin
Laden Unit, who we will call “John,” also had read the cable indicating that
Mihdhar’s visa was valid and that New York had been listed as his intended
destination. Around 6:30 p.m. on the same day, John again accessed this cable
and then another cable, the same two CIA cables about Hazmi and Mihdhar in




                                     240
the CIA’s computer system that Dwight had used in drafting the CIR. CIA
records do not indicate that John accessed Dwight’s draft CIR. 173
      CIA records show that the CIA employee detailed to FBI Headquarters
who we call James and who discussed the Mihdhar information with two FBI
Headquarters employees, also accessed the draft CIR on the day it was drafted.
In addition, two other FBI detailees accessed the draft CIR: Eric, the other
Deputy Chief of the Bin Laden Unit, accessed it two hours after Dwight began
writing it, and Malcolm, the New York Field Office’s detailee to the Bin Laden
Unit, accessed it two days later.
      CIA records show that as of eight days later the CIR had not been
disseminated to the FBI. In an e-mail to John in mid-January, Dwight had
attached the draft CIR and wrote, “Is this a no go or should I remake it in some
way.” The CIA was unable to locate any response to this e-mail.
       By mid-February, the CIR had not been sent to the FBI and was still in
draft form in the CIA’s computer system. CIA records show that Dwight e-
mailed a CIA contractor who handled computer matters and asked him to
delete several draft cables in the computer system unrelated to this matter, but
to save the draft CIR concerning Mihdhar. The contractor accessed the draft
cable in the system the next day.
      When we interviewed all of the individuals involved with the CIR, they
asserted that they recalled nothing about it. Dwight told the OIG that he did
not recall being aware of the information about Mihdhar, did not recall drafting
the CIR, did not recall whether he drafted the CIR on his own initiative or at
the direction of his supervisor, and did not recall any discussions about the
reasons for delaying completion and dissemination of the CIR. Malcolm said
he did not recall reviewing any of the cable traffic or any information regarding
Hazmi and Mihdhar. Eric told the OIG that he did not recall the CIR.
     The CIA employees also stated that they did not recall the CIR.
Although James, the CIA employee detailed to FBI Headquarters, declined to

    173
         According to John, once CIRs were drafted the CIA’s standard operating procedure
was for the drafter to “coordinate” the CIR in the computer system, which notified the
persons designated by the drafter that there was a CIR that required their attention. He said
that it was not standard operating procedure to access CIRs in draft form.



                                             241
be interviewed by us, he told the CIA OIG that he did not recall the CIR. John
(the Deputy Chief of the Bin Laden Unit) and Michelle, the desk officer who
was following this issue, also stated that they did not recall the CIR, any
discussions about putting it on hold, or why it was not sent.

           5.   Mihdhar in Dubai
      On the same day that Dwight was drafting the CIR, the CIA reported in
an internal cable additional information about Mihdhar. The cable stated that it
appeared that, despite his multiple entry visa, Mihdhar had not yet traveled to
the United States. The cable then stated that it was up to the CTC as to
whether anyone should inquire with the INS to verify whether Mihdhar had
traveled to the United States. 174
     The cable also reported additional information about Mihdhar while he
was in Dubai.
      CIA records reveal that this cable also was read by FBI detailee Dwight.
However, Dwight did not include in the draft CIR the additional information
about the lack of any indication that Mihdhar had traveled to United States or
the additional information about Mihdhar in Dubai. 175

           6.   CIA cable stating that Mihdhar’s visa and passport
                information had been passed to FBI
      Also on the same day that Dwight was preparing the CIR, Michelle, the
Bin Laden Unit desk officer who was following the issue of Mihdhar, prepared
a lengthy cable to several stations summarizing the information that had been
collected at that point on Mihdhar and three other individuals who also were
possibly traveling to Malaysia. The cable began, “After following the various
reports, some much more credible than others, regarding a possible [Bin


    174
       We did not determine whether the CIA actually contacted the INS pursuant to this
suggestion. As we discuss below, we did determine INS records reflect that Mihdhar first
entered the United States on January 15, 2000, and only entered again on July 4, 2001.
    175
       This cable also was read by James, the CIA employee detailed to the FBI’s SIOC.
As detailed below, he later discussed some of its contents with an FBI Headquarters
employee.



                                           242
Laden]-associated threat against U.S. interests in East Asia, we wish to note
that there indeed appears to be a disturbing trend of [Bin Laden] associates
traveling to Malaysia, perhaps not for benign reasons.”
      This cable then summarized the CIA’s information that indicated several
individuals were planning to travel to Malaysia. In the paragraph describing
Mihdhar, Michelle stated that Mihdhar’s travel documents, including a
multiple entry U.S. visa, had been copied and passed “to the FBI for further
investigation.”
      This cable –the fifth CIA cable to discuss Mihdhar’s U.S. visa – did not
state by whom or to whom Mihdhar’s travel documents were passed. It also
did not indicate how they had been passed, or provide any other reference to
the passage of the documents. Because this cable was an internal, operational
cable, it was not forwarded to or copied to the FBI.
      This cable was disseminated to various CIA stations approximately three
hours after Michelle had noted in the cable system that Dwight was directed to
hold off on sending his draft CIR to the FBI “for now per [the CIA Deputy
Chief of the Bin Laden Unit].”
      When we interviewed Michelle, she stated that she had no recollection of
who told her that Mihdhar’s travel documents had been passed to the FBI or
how they had been passed. She said she would not have been the person
responsible for passing the documents. According to Michelle, the language in
the cable stating “[the documents] had been passed” suggested to her that
someone else told her that they had already been passed, but she did not know
who it was. The CIA Deputy Chief of the Bin Laden Unit also said he had no
recollection of this cable, and he did not know whether the information had
been passed to the FBI.
      Neither we nor the CIA OIG was able to locate any other witness who
said they remembered anything about Mihdhar’s travel documents being
passed to the FBI, or any other documents that corroborated the statement that
the documents were in fact passed to the FBI.

         7.   The Malaysia meetings and surveillance of Mihdhar
      After he arrived in Malaysia, Mihdhar was followed and photographed in
various locations meeting with several different people. These events are


                                      243
referred to as “the Malaysia meetings.” CIA employees wrote several cables
contemporaneously about the Malaysia meetings, which we discuss below.

              a.   First cable regarding Mihdhar in Malaysia
      The CIA prepared an internal cable stating that Mihdhar had arrived in
Kuala Lumpur on the evening of January 5. The cable also described his
activities with other Arabs who were unidentified at the time. This cable,
which we refer to as the “first Malaysia meetings cable,” did not contain any
information regarding passports or visas.

              b.   January 5 FBI threat update
      It appears that this first Malaysia meetings cable was provided to the FBI.
Sometime before the daily FBI executive briefing that took place on January 6
at 7:30 a.m., the January 5 threat update information concerning Mihdhar was
edited in the FBI’s SIOC.
       This January 5 threat update reflected an almost verbatim recitation of
portions of the CIA’s first Malaysia meetings cable, including the same
spelling mistake in reference to a particular place in Malaysia, which indicates
that the CIA provided a copy of the first Malaysia meetings cable to the FBI.
However, we were not able to determine who in the FBI received this
information from the CIA or who edited the January 5 threat update. No one
we interviewed at the FBI said they recalled handling information related to
Mihdhar or the January 5 threat update. The threat update contained no
reference to Mihdhar’s passport information or his U.S. multiple-entry visitor’s
visa.
      The January 5 threat update also was made part of the January 6
7:30 a.m. executive briefing document. This briefing did not contain any
additional information about Mihdhar. The January 5 threat update was the
only official document from this period located by the FBI that referenced the
Malaysia meetings that were discussed in the first CIA Malaysia meetings
cable.




                                      244
                c.   Discussion between CIA and FBI employees about
                     Malaysia meetings
      As noted above, computer records show that James, the CTC employee
detailed to the FBI’s SIOC, read the cables and the draft CIR indicating that
Mihdhar had a U.S. visa. Contemporaneous e-mails show that James discussed
the Malaysia meetings with two FBI Headquarters employees in the SIOC in
the early morning hours of January 6. Below we detail the cables and the
evidence about the discussions that took place between the CIA and FBI
personnel in the SIOC about the Malaysia meetings.
     Contemporaneous e-mail messages among CIA employees show that
during the night of January 5 James briefed the FBI SSA who we call Bob
about Mihdhar’s travel. At the time, Bob was an SSA in the UBL Unit in FBI
Headquarters, which was operating out of the SIOC during this period.
       James wrote an e-mail to several CIA employees in which he stated that
he was detailing “exactly what [he] briefed [the FBI] on” in the event the FBI
later complained that they were not provided with all of the information about
Mihdhar. 176 This e-mail did not discuss Mihdhar’s passport or U.S. visa.
      As previously mentioned, James told the CIA OIG that he had no
recollection of these events. He declined to be interviewed by us.
      Bob told the OIG that he had no independent recollection of any briefing
from a CIA employee regarding the Malaysia meetings. However, he was able
to locate a scant contemporaneous note that confirmed he had been briefed
regarding Mihdhar and his trip to Malaysia. This note contained no details as
to the content of the briefing and no reference to Mihdhar’s U.S. visa.
     Bob told the OIG that he does not believe that he had been told in this
conversation about Mihdhar’s U.S. visa. Bob stated to us that the presence of a



    176
        James wrote these e-mails in response to an e-mail from another CIA employee who
was detailed to the FBI SIOC. That employee reported on the morning of January 6 that he
had been asked by an FBI employee for the latest on Mihdhar. James responded in a series
of e-mails that he had already briefed the FBI. The final e-mail by James sets forth the
details of his briefings.



                                          245
U.S. visa in Mihdhar’s passport would have been extremely important and
would have triggered a more significant response than his minimal notes.
     Bob also told the OIG that he did not know why James chose to brief him
about Mihdhar. Bob said that he was not a designated point of contact for the
CIA while the SIOC was activated, although he also said that he did not know
whether there was a designated point of contact in the SIOC. Bob said that he
knew James because James had previously been detailed from the CTC to FBI
Headquarters and had worked in ITOS with Bob.

              d.   Second cable regarding Mihdhar and the Malaysia
                   meetings
      The day after the CIA employee discussed the Malaysia meetings with
the two FBI SIOC employees, the CIA sent another internal cable providing
new information about the activities of Mihdhar. This cable, “the second
Malaysia meetings cable,” provided information about Mihdhar’s activities
once he left the Kuala Lumpur airport and his meetings with various
individuals.

              e.   Discussion between CTC officer and FBI employee
                   about Malaysia meetings
     Shortly after 7:30 a.m. on January 6, James briefed another FBI SSA –
who we call “Ted” – who was detailed to the SIOC from an FBI field office,
about information contained in the second Malaysia meetings cable. Ted told
the OIG he was working in the SIOC as an “assistant” to the day shift
commander and the UBL Unit Chief, but that he had no specific duties.
Because Bob had left FBI Headquarters on a trip to New York by this time,
James briefed Ted to ensure that someone at FBI Headquarters had the latest
information on Mihdhar.
      In the same e-mail in which he had detailed what he told Bob, James
provided specifics of what he told Ted. The e-mail also stated that the CIA
would “continue to run this down and keep the FBI in the loop.” The e-mail
did not contain any reference to Mihdhar’s passport or U.S. visa.
      Based on this briefing by James, Ted prepared an update for the January
6 afternoon FBI executive briefing. Ted e-mailed the update to the ITOS
Assistant Section Chief at 8:40 a.m. This update reflected the details of the


                                     246
information Ted had received from James. It did not contain any reference to
Mihdhar’s passport or U.S. visa.
      Like Bob, Ted told the OIG that he had no recollection of being briefed
regarding the Malaysia meetings. Although he said he did not recall these
events, Ted asserted he did not believe that he had received Mihdhar’s passport
or U.S. visa information because if he had he would have unquestionably
recognized their significance and documented such information in the update
for the executive briefing.
     Ted told the OIG that he did not know why James briefed him about the
Mihdhar information. Like Bob, Ted stated he was not a designated point of
contact for the CIA while the SIOC was activated. Ted also knew James
because of James’ previous detail to ITOS in FBI Headquarters when Ted
served as an SSA in the RFU.

              f.   Cables updating the Malaysia meetings information,
                   including Mihdhar’s travel to Bangkok
      On January 8, the CIA reported in another internal cable that a new
individual had joined Mihdhar and the others, and that additional surveillance
photographs were taken. The cable did not state how many photographs were
taken or what would be done with the photos.
      In another cable sent five hours later, the CIA reported in an internal
cable that Mihdhar and two of the unidentified men – one of whom turned out
to be Hazmi – departed Malaysia from Kuala Lumpur airport en route to
Bangkok, Thailand.

              g.   Cables regarding Hazmi’s travel to the United States
      On January 9, the CIA’s Bin Laden Unit prepared a cable asking that
Mihdhar and his associates be identified while in Thailand. CIA records show
that on January 13, the CIA was attempting to locate Mihdhar and his traveling
companions. In addition, Mihdhar had been watchlisted at the airport in the
event that he attempted to leave Thailand.
      Several weeks later, CIA officers in Kuala Lumpur followed up with
their Bangkok counterparts for additional information about Mihdhar and his
traveling companions. Approximately two weeks later, Bangkok reported that


                                     247
there was a delay in responding due to difficulties in obtaining the requested
information.
      In early March 2000, officials in Bangkok reported internally that it had
identified one of Mihdhar’s traveling companions as Nawaf al-Hazmi. The
cable reported that Hazmi had traveled to Bangkok on January 8 and had
subsequently traveled on a United Airlines flight to Los Angeles, California on
January 15. The cable also stated that Mihdhar had arrived in Bangkok on
January 8 but that it was unknown if and when he had departed. 177 In addition,
the cable identified the third traveler as Salah Saeed Mohammed Bin Yousaf. 178
     CIA records show that none of the FBI detailees accessed this early
March cable. The OIG found no documents or witnesses indicating that the
information that Hazmi had traveled to Los Angeles on January 15, 2000, was
shared with the FBI at this time. Rather, as we discuss below, this fact was not
shared with the FBI until August 2001.
      We found no indication that CTC personnel took any action with regard
to the important information that Hazmi had traveled to the United States. For
example, he was not placed on any U.S. watchlists. The day after Bangkok
Station reported about Hazmi’s travel to Los Angeles, one office that received
the Bangkok cable sent a cable to the CTC stating the Bangkok cable regarding
Hazmi’s travel had been read “with interest.” Yet, despite this effort to flag the
significance of this information, the cable was not shared with the FBI and did
not result in any specific action by the CIA.
     As we discuss below, it was not until August 2001 that FBI Headquarters
personnel learned that on January 15, 2000, both Mihdhar and Hazmi had left
Thailand and traveled to Los Angeles, California, where they were both



    177
       In fact, Mihdhar had traveled to the U.S. with Hazmi on January 15, 2000. This fact
was not discovered by anyone in the Intelligence Community until August 2001.
    178
        Yousaf left Bangkok on January 20 for Karachi, Pakistan. Some time after
September 11, Yousaf was determined to be Tawfiq Muhammad Salih Bin Rashid al Atash,
a/k/a Khallad, the purported mastermind of the Cole attack. We discuss the FBI’s discovery
of information about Khallad and the Cole attack, and the FBI’s opportunities to connect
Khallad to the Malaysia meetings, in Section III, C below.



                                           248
admitted into the United States on non-immigrant visas and authorized to
remain until July 14, 2000.

           8.    OIG findings regarding FBI’s knowledge about Mihdhar
                 and the Malaysia meetings
       We discuss here our findings regarding the FBI’s knowledge of
information about Mihdhar and the January 2000 Malaysia meetings, including
whether the intelligence information concerning Mihdhar’s valid multiple entry
U.S. visa and Hazmi’s travel to the United States in January 2000 was passed
to the FBI. Several witnesses told the OIG that Mihdhar’s possession of a U.S.
visa provided a clear domestic nexus that should have triggered the passing of
this information from the CIA to the FBI.
      At the outset, we note that the CIA has acknowledged that it obtained
information that Mihdhar had a U.S. visa and that Hazmi had traveled to the
United States, and that the CIA should have placed their names on U.S.
watchlists, but that this did not occur. 179 The CIA OIG is reviewing this matter
to determine why this failure occurred and who is responsible for it.

                 a.   Formal passage of information from the CIA to the FBI
      As noted above, the formal method of communicating intelligence
information between the CIA and the FBI was an intelligence report called a
CIR. CIA records show that between July 1999 and September 10, 2001, the
Bin Laden Unit disseminated over 1,000 CIRs, most of which were sent to the
FBI. CTC employees as well as FBI detailees to Bin Laden Unit had authority
to draft CIRs, and the detailees collectively drafted over 150 CIRs to the FBI
during this period. However, CIRs could only be disseminated by persons with
authority to “release” the CIRs. 180 In the Bin Laden Unit, only supervisors,




    179
       Mihdhar and Hazmi were placed on watchlists by other countries, including
Thailand.
    180
         Once a supervisor approved a CIR for release, it was electronically disseminated by
a unit in the CIA known as the Policy Community Action Staff.



                                            249
including John and Eric as the deputy chiefs of the station, had authority to
release CIRs. 181
      Dwight drafted a CIR in which he summarized the information that had
been disseminated by the NSA about Mihdhar. He also provided detailed
information about Mihdhar’s passport, visa, and visa application indicating that
New York had been his intended destination. According to CIA records, this
CIR never was disseminated to the FBI. A desk officer’s note on the draft CIR
indicated that the Deputy Chief of the Bin Laden Unit, John, had instructed the
draft CIR be put on hold, and Dwight contacted him through an e-mail about
the disposition of the CIR a week later. Despite this e-mail, the evidence
clearly shows that the CIR never was disseminated to the FBI.
      The evidence shows, however, that Dwight acted in accordance with the
system that was in place at the time by drafting the CIR to formally pass the
visa information to the FBI. In accordance with Bin Laden Unit policy,
Dwight was not permitted to pass the CIR to the FBI without permission.
     All of the witnesses stated, however, that they did not recall the CIR or
any communications about it. Other than the note written by the desk officer,
we found no documentary evidence about why the CIR was not disseminated.
Thus, we were unable to determine why it was not sent.
     The information in the CIR, which was documented in the appropriate
format for passage to the FBI, was potentially significant to the FBI and should
have been passed to the FBI. We believe it was a significant failure for the
CIR not to be sent to the FBI.

                   b.   Informal passage of information from CIA to FBI
      We also considered what information that James, a CIA detailee to the
FBI, informally passed to FBI Headquarters and whether he informed anyone
of the visa information about Mihdhar. Based on the contemporaneous e-mails
in which James documented in detail what he told FBI SSAs Bob and Ted, we
concluded that he reported to the FBI the information regarding Mihdhar’s


    181
          CIA records show that Eric released five CIRs during his tenure at the Bin Laden
Unit.



                                              250
transit through Dubai, his arrival in Kuala Lumpur, his activities after his
arrival, and his meeting with other suspected al Qaeda operatives. It is far less
clear, however, whether he provided Mihdhar’s passport and U.S. visa
information to the FBI.
      We do not believe that James briefed either Bob or Ted on Mihdhar’s
passport or U.S. visa information. First, nothing in Bob’s contemporaneous
notes or Ted’s e-mail or briefing update referred to Mihdhar’s passport or visa
information. Bob and Ted also stated forcefully and credibly to us that they
would have recognized the significance of a U.S. visa in the hands of a
suspected al Qaeda operative and at a minimum would have included such
information in their notes or reports.
      Moreover, James wrote a detailed e-mail to document the contents of his
conversations with Bob and Ted. Since the stated purpose of James’ e-mail
was to prevent the FBI from later claiming he had failed to brief them on some
important details, he had every incentive to include all relevant details in that e-
mail. At the time he wrote this e-mail, he had read three of the CIA cables
indicating that Mihdhar had a U.S. visa, as well as the draft CIR. Yet, James’
e-mail contained no mention of Mihdhar’s passport or visa.
      We found only one piece of evidence suggesting that the FBI was made
aware in January 2000 of Mihdhar’s U.S. visa – the early January cable by the
desk officer who we call Michelle which stated that Mihdhar’s travel
documents, including a multiple entry U.S. visa, had been copied and passed
“to the FBI for further investigation.” We could not, however, find any
evidence to corroborate that this information actually had been passed to the
FBI.
      This cable did not state by whom or to whom the documents were passed
or make any other reference to the passage of the documents. The cable was an
internal cable, which means it would not have been forwarded to or accessible
to the FBI. In addition, Michelle, the CIA desk officer who wrote the cable,
had no recollection of who told her that the documents had been passed or how
they had been passed. She said that she would not have been responsible for
passing the information but instead would have been told by someone else that
the documents had been passed.
     We were unable to locate any witness who said they remembered
anything about the documents being passed to the FBI, as Michelle’s cable

                                        251
asserted. Even if her cable was accurate, and she had been told by someone
that the documents had been passed to the FBI, there is no evidence that such
information was correct. The CIA and FBI witnesses we interviewed described
this period as very hectic and said they were flooded with information. Several
witnesses suggested that these hectic circumstances could have created an
environment where unintentional misunderstandings might have occurred
about whether information was actually passed to other Intelligence
Community agencies.
     We also searched ACS for any FBI record of the travel documents having
been provided to the FBI, since this cable indicated that a physical copy of the
documents, not merely information about the documents, was passed. We
found no reference to the documents.
      Aside from this cable, we found no other evidence that the information or
documents about Mihdhar’s passport or visa information was in fact provided
to the FBI during this time period.

                 c.   FBI detailees’ handling of information on Mihdhar
       As discussed above, five FBI employees were detailed to the CTC to
work on Bin Laden matters during 2000 and 2001, and all had access at their
desks to CIA internal cable traffic. Four of those employees – the supervisor
who we call Eric, the IOS who we call Mary, and the agents who we call
Dwight and Malcolm – were at the Bin Laden Unit in January 2000 when the
Malaysia meetings occurred. 182 We considered how each handled the
intelligence information concerning Mihdhar during this period.
      After reading two of the cables indicating that Mihdhar had a U.S. visa,
Dwight prepared a draft CIR to officially notify the FBI about that information,
since the U.S. visa presented a nexus between Mihdhar and the United States.
But the CIR was not provided to the FBI. However, we also examined whether
any of the detailees took any other action to notify FBI Headquarters or, in
Malcolm’s case, the New York Field Office, about the information concerning
Mihdhar.

    182
       The fifth detailee – the manager who we call Craig – did not arrive at the CTC until
July 2000.



                                            252
      The evidence shows that each FBI detailee reviewed some of the cables
about Mihdhar’s U.S. visa. Dwight accessed several of the cables that
indicated Mihdhar had a U.S. visa, such as the cables stating that Mihdhar had
transited through Dubai and had a U.S. visa, the cable stating that Mihdhar’s
visa application listed New York as his intended destination in May 1999, and
the cable stating that based on a review of Mihdhar’s visa, it did not appear that
he had actually traveled to the United States.
       Malcolm also accessed the cable stating that Mihdhar’s visa application
listed New York as his intended destination in May 1999, and the cable stating
that it did not appear that Mihdhar had actually traveled to the United States.
Malcolm also accessed the two cables stating that Mihdhar had arrived in
Kuala Lumpur and that surveillance photos showed him meeting with others in
Malaysia. Malcolm also accessed Dwight’s draft CIR indicating passage of the
visa information to the FBI, including the New York Field Office.
      Mary accessed the January cable stating that Mihdhar’s travel documents,
including a multiple-entry U.S. visa, had been passed to the FBI, but she did
not access the previous cables reflecting the visa information or Dwight’s CIR.
She also accessed the two cables stating that Mihdhar had arrived in Kuala
Lumpur and that surveillance photos showed him meeting with others in
Malaysia.
     Eric did not access these cables, but he accessed Dwight’s draft CIR
which detailed Mihdhar’s visa information and which summarized the NSA
information.
       However, Dwight, Malcolm, Mary, and Eric all told the OIG that they
did not recall anyone from the CIA bringing to their attention the fact that
Mihdhar had a U.S. visa. In addition, despite the records of their access to the
cable traffic or the CIR, they all told the OIG that they did not recall
discovering at the time – such as by reading a cable – that Mihdhar had a U.S.
visa. 183 As discussed above, Dwight told the OIG that he did not even recall

    183
       The detailees also told the OIG that they did not necessarily read all of the cables
they accessed. They explained that they often skimmed cables to determine if any action
was required on their part or to find specific information in connection with a particular
assignment or issue.



                                             253
writing the CIR or even being aware of the Malaysia meetings or of the fact
that Mihdhar had a U.S. visa. Eric told the OIG that his CIA counterpart –
John, the CIA Bin Laden Unit Deputy Chief – mentioned the Malaysia
meetings and that surveillance photos had been taken, but Eric did not recall
ever hearing anything about Mihdhar having a U.S. visa. Mary told the OIG
that she did not recall even being contemporaneously aware of the Malaysia
meetings. 184 Mary explained that she did not have reason to be made aware of
the Malaysia meetings at the time because the matter had been assigned to
another CIA desk officer – Michelle (the one who wrote the cable indicating
that Mihdhar’s travel documents had been passed to the FBI).
       Malcolm said he was not aware of the fact that Mihdhar had a U.S. visa
until after September 11. He stated that he recalled being shown the Kuala
Lumpur photos, but he could not remember whether that was before or after
September 11. He said that it was not until he was shown the Kuala Lumpur
photos that he became aware of the Malaysia meetings.
      Yet, the evidence shows that all had accessed contemporaneously cables
indicating that Mihdhar had a U.S. visa, which was important intelligence
information that was never provided to FBI Headquarters. They did not violate
any specific policy or procedure in their handling of the information, and they
did not have the authority to unilaterally pass CTC information to the FBI
without permission. This restriction included any informal passage of the
information, such as by telephone call or in-person discussions. However,
none of them, particularly Dwight, ensured that the information was provided
to the FBI. Dwight drafted a CIR that would have provided the FBI with the
important information about Mihdhar, but the CIR was not released by the
CIA. Although Dwight followed up a few days later to ask whether the cable
was going to be sent or whether he should remake it in some other way, there is
no record of a response to his request, and no one could explain why the cable
was not sent. We believe it was critical that the information be sent. We found
no indication that this ever happened.


    184
        When we showed Mary copies of an e-mail written by the CTC officer who had
briefed SSA Bob and Ted, which indicated that she was copied on the e-mail, she said that
she did not recall having read the e-mail.



                                           254
      This failure to send the information to the FBI, in our view, was also
attributable to problems in how the detailees were instructed and supervised,
and that these problems significantly impeded the flow of information between
the CIA and the FBI. We discuss these systemic problems in detail in our
analysis section later in this chapter.

              d.   OIG conclusion
     In sum, the evidence shows that in January and March 2000, the CIA
uncovered important intelligence information about Mihdhar and Hazmi:
    • They were al Qaeda operatives who had traveled to Malaysia, where
        they were photographed meeting with other suspected al Qaeda
        operatives;
    • They traveled to Bangkok with a third person;
    • Mihdhar had a valid, multiple-entry U.S. visa; and
    • Hazmi had traveled to Los Angeles in January 2000.
      Yet, we found that the CIA did not share significant pieces of this
information with the FBI – that Mihdhar had a U.S. visa and that Hazmi had
traveled to Los Angeles. An FBI detailee at the CIA drafted a CIR to share this
information with the FBI, but that information was not released by the CIA to
the FBI. We were unable to determine why this did not occur. No one we
interviewed said they remembered the CIR or why it was not sent to the FBI.
We consider it a significant failure for this CIR not to be sent to the FBI.
      In addition, the evidence shows that the limited information that was
provided to FBI Headquarters – that Mihdhar traveled to Malaysia and met
with other suspected al Qaeda operatives – was never documented by the FBI
in any system that was retrievable or searchable, thus limiting the usefulness of
the information that was shared. The FBI’s only official record of having
received this information was in the hard copies of the January 5 threat update,
which was attached to the January 6 executive briefing, and Ted’s e-mail
summarizing information from his discussion with the CIA employee. We
discuss this and other systemic problems in our analysis section below.




                                      255
     B.      Hazmi and Mihdhar in San Diego

             1.   Introduction
      The second set of events that may have led the FBI to discover Mihdhar
and Hazmi’s presence in the United States related to their stay in San Diego.
As noted above, on January 15, 2000, Mihdhar and Hazmi boarded a flight in
Bangkok, Thailand, for Los Angeles. They were admitted to the United States
on non-immigrant visitor visas and authorized to remain in the U.S. until
July 14, 2000. Shortly after arriving in Los Angeles, they traveled to San
Diego, California, where they were aided in finding a place to stay by Omar
al-Bayoumi. Bayoumi had been the subject of an FBI preliminary intelligence
investigation that had been closed.
       In late May 2000, Hazmi and Mihdhar rented a room in the residence of
an FBI asset. 185 Mihdhar remained in San Diego until June 10, 2000, when he
left the United States. 186 Hazmi remained in the San Diego area until
approximately December 2000, when he moved to the Phoenix, Arizona area.
In Phoenix, Hazmi lived for approximately three months with another
September 11 hijacker, Hani Hanjour. In April 2001, Hazmi and Hanjour
moved to New Jersey and remained on the East Coast until September 11.
       While residing in San Diego in 2000, Mihdhar and Hazmi did not act in
an unusual manner that would draw attention, but they did not attempt to hide
their identities. Using the same names contained in their travel documents and
known to at least some in the Intelligence Community, they rented an
apartment, obtained driver’s licenses from the state of California Department
of Motor Vehicles, opened bank accounts and received bank credit cards,
purchased a used vehicle and automotive insurance, took flying lessons at a
local flying school, and obtained local phone service that included Hazmi’s
listing in the local telephone directory.



    185
       This kind of individual is often referred to as an “informant” - the common
vernacular for an individual providing information to an investigative agency. Within the
FBI’s foreign intelligence program, they are known as assets.
    186
          Mihdhar departed from Los Angeles on Lufthansa Airlines.



                                            256
      Although Hazmi and Mihdhar were in San Diego for a significant period
of time, the FBI did not learn of their presence there until after September 11,
2001. After September 11, much would be learned about Hazmi and
Mihdhar’s time in San Diego and the Intelligence Community’s missed
opportunities to find and investigate them before the terrorist attacks in which
they participated. In this section, we describe the facts surrounding Hazmi and
Mihdhar’s residence in San Diego, including their associations with two
persons known to the FBI.

          2.    Hazmi and Mihdhar’s association with Bayoumi
      Omar al-Bayoumi is a Saudi Arabian national who came to the United
States in 1993. In early 2000 he had been living with his wife and four
children in San Diego for at least four years. Although he described himself to
others in San Diego as a graduate student in business administration, he took
classes intermittently and was not enrolled in a program of study. He did not
work in the United States and received a monthly stipend of $4,000 plus “other
allowances,” ranging from $465 to $3,800 each month, from Dallah/Avco, a
Saudi contractor to the Presidency of Civil Aviation. 187 Bayoumi was active in
the San Diego Muslim community and was involved in the establishment of
several mosques in the United States.
      In September 1998, the FBI’s San Diego Field Office opened a
preliminary inquiry on Bayoumi based on allegations raised by the manager in
the apartment complex where he was living at the time. The manager alleged
that Bayoumi had received a suspicious package from the Middle East, and the
maintenance worker for the apartment complex had noted strange wires in
Bayoumi’s bathroom. In addition, the manager reported frequent gatherings of
young Middle Eastern males at Bayoumi’s apartment on weekend nights.
      The FBI case agent conducted a limited investigation of Bayoumi, but the
preliminary inquiry was closed in June 1999 and was not converted to a full




    187
       Bayoumi was employed by the Saudi Presidency of Civil Aviation from 1975 until
1995 and became a contractor for the organization beginning in 1995.



                                         257
field investigation.188 As a result, the FBI was no longer investigating
Bayoumi at the time that Hazmi and Mihdhar met Bayoumi in February 2000.
However, the following paragraphs describe what was later learned about
Bayoumi’s interactions with Hazmi and Mihdhar.
      On February 1, 2000, Bayoumi traveled by car from San Diego to Los
Angeles, to resolve a visa issue at the Saudi consulate. Bayoumi invited an
associate, Isamu Dyson, to accompany him. 189 Dyson provided the following
account to the FBI of the trip with Bayoumi. 190
      Dyson said that at the time of the invitation, Bayoumi mentioned a Los
Angeles restaurant serving halal food where they could eat lunch after
Bayoumi’s meeting at the consulate. 191 After Bayoumi spent approximately
one hour at the Saudi consulate, he and Dyson went to the restaurant but
discovered it had been converted to a butcher shop. The butcher shop
employees recommended another nearby halal restaurant, the “Mediterranean
Gourmet.” Bayoumi and Dyson walked to that restaurant. While they were
eating there, Hazmi and Mihdhar entered the restaurant and the four talked in
Arabic. Although Dyson had limited Arabic language skills, he said that
Bayoumi kept him apprised of the content of the conversation. Hazmi and
Mihdhar told Bayoumi that they were in the United States to study English, but
they did not like living in Los Angeles. Bayoumi invited the men to visit San
Diego and offered to assist them. Bayoumi provided the men with his phone
number. Bayoumi and Dyson left the restaurant, and after stopping at a nearby
mosque for sunset prayers, returned to San Diego. Dyson asserted that the
encounter with Hazmi and Mihdhar seemed to be a coincidental meeting.
    Within several days of the meeting, Hazmi and Mihdhar accepted
Bayoumi’s invitation and traveled to San Diego. In San Diego, Bayoumi

    188
        In Section IV B 1 of this chapter, we examine the investigative steps taken by the
FBI in this preliminary inquiry and assess the appropriateness of the decision to close the
inquiry.
    189
       Dyson is an American Caucasian who converted to Islam. He has since changed his
name to Caysan Bin Don.
    190
          Dyson provided the information to the FBI in an interview after September 11.
    191
          Halal is an Arabic word meaning “lawful” or “permitted.”



                                             258
arranged for Hazmi and Mihdhar to rent an apartment on Mount Ada road in
the same apartment complex where Bayoumi lived. Bayoumi also co-signed
their lease. Shortly after Hazmi and Mihdhar moved into the apartment,
Bayoumi hosted a party to introduce them to the local Muslim community.
       Within a few weeks of moving into the apartment, Hazmi and Mihdhar
filed a 30-day notice to vacate the apartment, apparently to move to another
apartment. However, they later rescinded the vacate notice and continued to
lease the apartment until June 2, 2000. 192
      The apartment manager told the FBI that Bayoumi paid Hazmi and
Mihdhar’s first month’s rent and security deposit because they had not yet
established a local bank account and the apartment complex would not accept
cash. A review of Bayoumi and Mihdhar’s financial records after September
11, 2001, indicate that Bayoumi was reimbursed for this expense on the same
day it was paid. 193

           3.    Hazmi and Mihdhar’s communications
      On March 20, 2000, a long distance telephone call was placed from
Mihdhar and Hazmi’s Mount Ada apartment to a suspected terrorist facility in
the Middle East linked to al Qaeda activities. (See section III, A, 2 above.) A
record of the call was captured in the toll records. After the September 11
attacks, the call was identified through a record check.




    192
        Bayoumi left the United States for some of the time Hazmi and Mihdhar lived in the
apartment. INS records do not indicate when Bayoumi left the country, but the records
indicate that he obtained a United States visa in Jeddah on May 10, 2000, and returned to the
United States on May 31, 2000. Bayoumi left the United States permanently in July 2001
and was living in England on September 11, 2001.
    193
        Bayoumi’s bank records show a cash deposit in the exact amount of the rent and
security deposit ($1,558). Mihdhar’s financial records also indicate that he opened an
account with a deposit of $9,900 in cash within seven minutes of Bayoumi’s cash deposit,
which suggests that they were in the bank together.



                                            259
           4.    Hazmi and Mihdhar’s association with an FBI asset
                 beginning in May 2000
      Sometime in May 2000, Hazmi and Mihdhar moved out of the apartment
Bayoumi had found for them on Mount Ada Road and moved as boarders into
the home of an asset of the FBI’s San Diego Field Office. 194 Hazmi and
Mihdhar met the asset at the mosque they attended. 195 Mihdhar stayed at the
asset’s residence until June 10, 2000, when he left the United States. Hazmi
resided in the asset’s house until December 10, 2000, when he moved to
Arizona.

                 a.   Background on the FBI asset
      In 1994, the asset was recruited by San Diego FBI Special Agent who we
call “Stan.” The FBI had interviewed the asset in connection with a bombing
investigation several years before. Stan remained the asset’s handling agent –
or “control agent” – until Stan retired in February 2002. 196
      The asset was opened as an asset on May 14, 1994.197 He worked as an
informational source, providing to the FBI information acquired in his normal
daily routine. He normally was questioned about specific individuals who
were under investigation by the FBI, although he occasionally volunteered
information that he thought might be relevant. According to Stan, during some

    194
        The OIG was not able to interview the asset. The Joint Intelligence Committee
Inquiry had attempted to interview the asset without success. The Committee then
submitted interrogatories that the asset declined to answer, asserting his Fifth Amendment
privilege. The asset indicated through his attorney that if subpoenaed by the Committee, he
would not testify without a grant of immunity.
    195
        There is some dispute about whether Hazmi and Mihdhar actually responded to an
advertisement for boarders posted by the asset or whether they were introduced to the asset.
The OIG did not have access to the witnesses who could address this issue.
    196
        Stan was interviewed twice by the JICI staff, and he testified before the Joint
Intelligence Committee. After his retirement from the FBI, Stan declined repeated requests
for an OIG interview. The OIG does not have authority to subpoena individuals and cannot
compel former Department of Justice employees to submit to an interview.
    197
      Initially the asset was not paid. In July 2003, the asset was given a $100,000
payment and closed as an asset.



                                            260
periods, he would talk to the asset several times per day, but there were periods
in which he did not talk to him for several weeks or months. Stan said that
many of their conversations were about family matters, the informational
asset’s health, and other non-substantive issues.
     In 1996, the asset began renting out rooms in his home. Prior to
September 11, 2001, he had 14 different boarders in his house, including
Hazmi and Mihdhar. When Hazmi and Mihdhar rented rooms from the asset in
2000, two other persons also were renting rooms there.

                b.    Information from asset on Hazmi and Mihdhar
    It is not clear what information the asset provided to the FBI about
Hazmi and Mihdhar before the September 11 attacks.
      After the September 11 attacks, the FBI interviewed the asset and asked
about the conduct and activities of Hazmi and Mihdhar while they were living
with the asset. In those interviews, the asset described them as quiet tenants
who paid their rent. He said they were good Muslims who regularly prayed at
the mosque. The asset said that Hazmi and Mihdhar often would go outside
when using their cellular telephones. The asset insisted that he noted no
indicators of nefarious activity by Hazmi or Mihdhar that should have resulted
in his reporting their identities to the FBI. 198
      The asset was asked what information he provided to Stan about Hazmi
and Mihdhar before September 11. In these interviews, the asset provided
conflicting accounts regarding the information on Hazmi and Mihdhar that he
had disclosed to Stan. The agent who interviewed the asset - this agent had
taken over as the asset’s control agent after Stan’s retirement from the FBI -
told us that the asset said he told Stan about his boarders in general terms,
although he had not fully identified Hazmi and Mihdhar. The control agent
said that the asset later said that he had not told Stan about the boarders at all.


    198
        The FBI opened an investigation after September 11 to determine whether the asset
was involved in the attack. The asset has consistently maintained after September 11 that he
had no suspicions about Hazmi and Mihdhar. The results of a polygraph examination on his
potential role were inconclusive. Based on its investigation, however, the San Diego FBI
concluded that the informational asset had not been complicit in plotting the attacks.



                                           261
       Although Stan declined to be interviewed by the OIG, after
September 11, his FBI supervisors had interviewed him about the asset. Stan
also had discussed the asset with co-workers and was interviewed by, and
subsequently testified in, a closed session before the Joint Intelligence
Committee. 199 Stan reported that the asset had told him contemporaneously
that two Saudi national visitors were residing in a room at his residence. Stan
said that the asset merely provided the first names of the boarders, Nawaf and
Khalid. Stan contended that he had asked the asset for the boarders’ last names
but never received them and did not follow up. He said that the asset told him
that his boarders were in the U.S. on valid visitors’ visas, and they planned to
visit and to study while they were in the country. In addition, Stan said that the
asset told him that he believed that the two boarders were good Muslims
because of the amount of time that they spent at the mosque. Stan stated that
he did not recall the asset ever telling him that either of the boarders had
moved out. According to Stan, the asset did not describe his boarders as
suspicious or otherwise worthy of further scrutiny. Stan reported that he never
obtained Hazmi and Mihdhar’s full identities from the asset and that he did not
conduct any investigation of them.

           5.    OIG conclusion
      In sum, the FBI did not obtain information about Mihdhar’s and Hazmi’s
time in San Diego, either as a result of the Bayoumi preliminary inquiry or
from the asset. In the analysis section of this chapter, we evaluate Stan’s
actions with regard to Hazmi and Mihdhar and whether he should have pursued
additional information about who was living with one of his assets.

     C. Mihdhar’s association with Khallad, the purported mastermind
        of the Cole attack
      The third potential opportunity for the FBI to acquire information about
Hazmi and Mihdhar occurred in January 2001, when a joint FBI/CIA source
identified an al Qaeda operative in photographs of the January 2000 Malaysia
meetings that Hazmi and Mihdhar had attended. However, the FBI has

    199
        The OIG was permitted to review the transcripts of Stan’s testimony before the Joint
Intelligence Committee’s Inquiry.



                                            262
asserted that it did not learn of the source’s identification of the al Qaeda
operative at the Malaysia meetings until much later in 2001, just before the
September 11 attacks. This section of the report describes the events
surrounding this third opportunity for the FBI to focus on Hazmi and Mihdhar.

           1.   Background
      In 2000, the CIA and the FBI began debriefing a source who provided
significant information on operatives and operations related to Usama Bin
Laden. The source gave the CIA and the FBI information about an al Qaeda
operative known as “Khallad” and described him as being involved with the
East African embassy bombings in August 1998. Shortly after the U.S.S. Cole
was attacked in October 2000, the CIA and the FBI received a photograph and
information that a man named “Khallad” was the purported mastermind behind
the attack on the Cole. In December 2000, the CIA and the FBI showed the
source the photograph of Khallad, and the source identified the person in the
photograph as the same Khallad he had described as involved with the East
African bombings. As part of the Cole investigation, the FBI sought to find
Khallad.
     In January 2001, the source was shown photographs from the Malaysia
meetings in an effort to determine whether Khallad was in the photographs.
The source identified Khallad in one of the photographs, thus connecting the
purported mastermind of the attack on the Cole with the Malaysia meetings
known to have been attended by Mihdhar and others. 200
      FBI officials told the OIG, however, that the FBI was not aware of the
identification of Khallad in the Kuala Lumpur photographs. The FBI officials
said that if they had known that Khallad – the purported mastermind of the
Cole attack who they were seeking to find – was identified in the Kuala
Lumpur photographs, they would have aggressively pursued information on the
circumstances of the Malaysia meetings and the other participants, including
Mihdhar. As a result, they said, they may have uncovered earlier the CIA’s


    200
       Information developed after September 11, 2001, revealed this was a
misidentification, and the person identified as Khallad was actually Hazmi. We discuss this
misidentification in detail below.



                                           263
information about Mihdhar and Hazmi and found them in the United States
well before the summer of 2001.
      On the other hand, the CIA has contended the FBI in fact was aware in
January 2001 of the source’s identification of Khallad from the Kuala Lumpur
surveillance photographs. For example, on September 26, 2002, Cofer Black,
who served as Director of the CIA’s CTC from 1999 until May 2002, testified
before the Joint Intelligence Committee:
            FBI agents and analysts had full access to information [the
      CIA] acquired about the Cole attack. For example, we ran a
      joint operation with the FBI to determine if a Cole suspect was
      in a Kuala Lumpur surveillance photo. I want to repeat – it was
      a joint operation. The FBI had access to that information from
      the beginning. More specifically, our records establish that the
      Special Agents from the FBI’s New York Field Office who were
      investigating the USS Cole attack reviewed the information
      about the Kuala Lumpur photo in late January 2001.
     We therefore examine in detail the evidence relating to whether the FBI
was aware of the identification of Khallad in the photographs of the Malaysia
meetings.

           2.    Source’s identification of Khallad

                 a.   The source
      In mid-2000, Drug Enforcement Administration (DEA) personnel
arranged for FBI Legal Attaché (Legat) Office personnel overseas to meet a
source who had substantial information on Bin Laden and his operatives and
operations. This particular FBI Legat office was staffed by the Legal Attaché
(the “Legat”) and the Assistant Legal Attaché (the ALAT), who were FBI
Special Agents. 201


    201
        The primary mission of FBI Legat Offices is to establish liaison with foreign law
enforcement agencies to support the FBI’s investigative activities overseas. While Legat
staff may become involved in specific investigations, they have no law enforcement
authority in foreign countries. For a description of the role and responsibilities of FBI
(continued)

                                            264
       Because of the FBI Legat personnel’s inability to converse in any of the
source’s languages, limits on the FBI’s authority to conduct unilateral
intelligence activities overseas, and the source’s potential value as a source of
intelligence information relevant to the CIA, the FBI contacted the CIA for
assistance with the source. The source was subsequently handled as a joint
FBI/CIA source. Even though the FBI ALAT – who we call “Max” – was
unable to directly communicate with the source due to the lack of a common
language, he was designated as the FBI control agent for the source.
      Because the source had significant information about Bin Laden and his
operatives and operations, the FBI New York Field Office – the office that was
leading the investigations on the East African embassy bombings, the Cole
attack, and other Bin Laden-related investigations – also became involved with
the source. This joint handling of the source created concerns within the CIA.
The CIA’s most significant concern was the FBI’s desire to use the source for
the criminal investigations involving Bin Laden conducted by the FBI’s New
York Field Office. The CIA believed that the source should not face possible
exposure in criminal proceedings.
       CIA Headquarters was asked to work with FBI Headquarters to convert
the source to purely an intelligence role, solely under CIA control. According
to CIA documents, the CIA and the Legat had discussed the FBI’s “wall”
whereby separate but concurrent intelligence and criminal investigations were
conducted within the FBI, but the CIA expressed concerns about the CIA’s
ability to continue clandestine handling of the source if the FBI was involved.
Although the CIA acknowledged that the source had value to the FBI’s
criminal case, the CIA argued that the source’s potential as an intelligence
asset was more important then his potential assistance in the criminal case.
Despite the CIA’s concerns, the source remained a joint FBI/CIA asset.

                 b.   Debriefings of the source
      Beginning in 2000, the CIA and FBI began to debrief the source on a
regular basis. Over the course of several months, the source frequently was

(continued)
Legats, see the OIG report entitled, “Federal Bureau of Investigation Legal Attaché
Program” (March 2004).



                                            265
shown photographs and asked to identify people in them. Although Max was
the source’s designated control agent, a CIA officer who spoke one of the
source’s languages conducted the debriefings. Max was present for some of
these debriefings, but not all. Some of the debriefings were unilateral CIA
interviews. The time spent with the source was kept short because of issues of
travel and security.
       According to Max, during the debriefings the CIA officer usually did not
immediately translate the source’s statements for the benefit of Max. He said
that the CIA case officer would only immediately translate something when
Max had specific questions for the CIA officer to ask the source. The CIA case
officer told the OIG he recalled translating for Max things that the source said,
but he did this only when he recognized the significance of the information to
Max or an FBI operation.
      In an effort not to duplicate the reporting of information received from
the source, the CIA and the FBI agreed that the CIA would be responsible for
reporting the information from the debriefings. However, in instances where
the source was solely being shown FBI photographs or questioned based on an
FBI lead, Max would document the source’s information, either in an EC or an
FBI FD-302 form, and the CIA would not document the same information.
      After the debriefings, the CIA officer would write internal cables
covering the debriefings and forward them to the CTC and other appropriate
offices. These cables were internal CIA communications and were not
provided to or shared with Max or other FBI personnel. 202 Instead, Max and
FBI Headquarters would be informed of the debriefings when the information
was reported by the CIA in a TD. As previously discussed, TDs were prepared
by CIA reports officers who reviewed the internal cables and determined what
information needed to be disseminated and to which agencies. Based on our
review of internal cables reporting the source’s debriefings and the TD
reporting of the same interviews, it is clear the TDs often contained only a part
of the information obtained during the source debriefings. As a result, either


    202
       As discussed above, FBI detailees to the CTC had access to these CIA cables, but the
review and dissemination of source information to the FBI was not considered their
responsibility.



                                           266
through direct knowledge or through the TDs, Max had access to only some of
the information obtained from the source during the debriefings.
      In addition to the debriefings of the source by the CIA case officer, FBI
agents from the New York Field Office working Bin Laden-related criminal
investigations also interviewed the source with the CIA case officer present.
Max occasionally was present for these interviews. After each of these
interviews, the New York agents documented the source’s information in detail
in an FD-302 that was entered into ACS and retrievable by all FBI personnel
working on the Bin Laden cases. 203 These FD-302s were routinely shared with
CIA personnel in the field and at the CTC.

                 c.   Source identifies Khallad from Yemeni-provided
                      photograph
      Over a 3-month period in 2000, FBI New York Field Office personnel
interviewed the source overseas four times. During one of these interviews, the
source described an individual known as “Khallad” as a trusted senior Bin
Laden operative with potential connections to the East African embassy
bombings.
      As noted above, on October 12, 2000, two terrorists in a boat laden with
explosives committed a suicide attack on the U.S.S. Cole, a U.S. naval
destroyer, during its brief refueling stop in the port in Aden, Yemen. The
FBI’s investigation into the attack was led by the FBI’s New York Field
Office.
     After the attack on October 12, the Yemenis provided the FBI and the
CIA with information on the Bin Laden operative known as “Khallad.”
According to this information, Khallad had been described as the purported
mastermind of the Cole attack. U.S. intelligence agencies had already

    203
        When a witness is interviewed as part of a criminal investigation, the FBI prepares
an FD-302 to document what was said in the interview. When information is being obtained
as part of an intelligence investigation, the FBI documents the information in an EC. There
was often a significant lag time between the interview and the completion of the
documentation due to a variety of factors, including the intensity of investigative activity,
the agents’ extensive travel, and the required review of the documentation by FBI
supervisors before dissemination.



                                            267
connected Khallad to the East African embassy bombings. The Yemenis also
identified “Khallad” as Tawfiq Muhammad Salih Bin Rashid al Atash. On
November 22, 2000, the Yeminis provided the FBI with a photograph of
Khallad (“the Yemeni-provided photograph”). Around this same time, the
Yemenis provided the FBI with several photographs of other Cole suspects.
      The New York FBI agents investigating the Cole bombing wanted to
determine whether the Khallad identified by the Yemenis was the same
Khallad who had been previously described by the source. At the same time, a
CIA internal cable to was sent to several CIA offices suggesting that the
photographs of the Cole suspects that the FBI had obtained from the Yemenis,
including the Khallad photograph, be shown to the source. Because the FBI
did not have the technological capability to easily transmit the Khallad
photograph from Yemen to the ALAT who was handling the source and who
we call Max, the photograph was forwarded through CIA channels to the
nearby CIA office in order to show the photograph to the source. 204
      CIA documents show that on December 16, 2000, the CIA officer
conducted a debriefing of the source. Max was present for the debriefing. 205
During the debriefing, the CIA case officer showed the source many photos of
Cole bombing suspects and other suspected Arab terrorists, including the
Yemeni-provided photograph of Khallad. The source immediately identified
the individual in the Yemeni-provided photograph as the same Khallad he had
previously described as a trusted senior Bin Laden operative with potential
connections to the East African embassy bombings.
     The CIA officer prepared a cable documenting the debriefing, which was
addressed to several CIA offices. The CIA officer wrote in the cable that the
source was shown the many photographs and “quickly” identified Khallad in

    204
       Max told the OIG that at the time he and the CIA case officer believed that this
photograph had come from the FBI’s New York Field Office. Max added that it was not
uncommon for him not to know the source of photographs that were shown to the source
and that the source was shown hundreds of photographs.
    205
        Although FBI agents from New York had traveled overseas several times in 2000 to
interview the source, in December 2000 the agents with the appropriate language abilities
were tied up in Yemen after the Cole attack and were unable to travel to debrief the source.
Therefore, the FBI relied on the CIA to conduct this debriefing.



                                            268
the Yemeni-provided photograph. Notably, the CIA cable stated that the CIA
officer had the source repeat the identification specifically for the benefit of
Max. In addition, the cable stated that before the debriefing ended, the CIA
officer again showed the photographs to the source and asked the source to
verify the Khallad identification.
      Max acknowledged to the OIG that he was contemporaneously aware of
the identification of Khallad in the Yemeni-provided photograph by the source
on December 16. Max stated that he recalled specific circumstances of the
debriefing and recounted them to us. Max told us that he recalled the source
immediately identifying Khallad in the photograph.

                d.    CIA suspects that Khallad may be Mihdhar in Kuala
                      Lumpur surveillance photographs
      Around this same time, CIA personnel were beginning to connect
Khallad with Mihdhar and the January 2000 Malaysia meetings. In a
December 2000 cable, CIA personnel overseas asked for copies of the January
2000 Kuala Lumpur surveillance photographs of Mihdhar. The cable noted
that further connections had been made between Mihdhar and Al Qaeda. As a
result of these further connections, the CIA believed there might be a
connection between Mihdhar and the Cole perpetrators.
       The CIA office reported in the December 2000 cable that the it had
learned that Fahd al Quso, who was in Yemeni custody for his participation in
the Cole attack, had received $7,000 from someone named Ibrahim, which
Quso had taken to Bangkok, Thailand, on January 6, 2000, to deliver to
“Khallad,” a friend of Ibrahim’s. It was noted in the cable that because
Mihdhar had departed Kuala Lumpur around that same time to travel to
Bangkok, the CIA suspected that the “Khallad” mentioned by Quso could
actually be Khalid al Mihdhar or one of his associates. 206 It was noted further
that this information had “added significance” because Khallad had been



    206
        As previously discussed, the CIA had reported previously in an internal March 2000
cable that Mihdhar, Hazmi, and another individual had left Malaysia on January 8, 2000,
and traveled together to Bangkok.



                                           269
identified as a “key operative likely serving as an intermediary between Usama
Bin Laden and the [Cole] perpetrators.”
      In another December 2000, cable the CTC concurred with the overseas
CIA office’s theory and forwarded a Kuala Lumpur surveillance photo of
Mihdhar to the CIA case officer to show to the source. According to the cable,
the purpose was “to confirm/rule out this particular Khalid [Mihdhar] as a
match for [Khallad].” 207 The next day, the CIA officer received permission to
show the Kuala Lumpur surveillance photographs to the source.
      Max told the OIG, however, that he was not aware of the CIA cables or
the theory that Khallad was actually Mihdhar. We found no other evidence
that Max knew about the information that Mihdhar was at the Malaysia
meetings, or the CIA’s theory that Khallad was actually Mihdhar. 208

                 e.    Source identifies Khallad from Kuala Lumpur
                       photograph
     The CIA case officer debriefed the source again in early January 2001.
At some point, the CIA case officer showed the source photographs, including
two of the surveillance photographs taken during the January 2000 Malaysia
meetings. One of the photographs from the Malaysia meetings, which we call

    207
        The CIA cable referred to its forwarding of only one Kuala Lumpur surveillance
photograph, although subsequent cables showed that the receiving office received two Kuala
Lumpur photographs to show the source. It is unclear why the sending office sent only two
of the photographs instead of all three of the Kuala Lumpur photographs it had.
    208
        In fact, CIA cables suggest this information was not shared with the FBI. We saw
several CIA cables during this time that discussed working with the FBI in relation to the
FBI’s investigation of the Cole attack. For example, we saw a December 2000 cable stating
that the FBI had provided an update on its investigation of the location associated with
telephone numbers the CIA had provided to the FBI in connection with an investigation, and
the office that drafted the cable asked to be advised of whether the two offices to whom the
cable was addressed were aware of additional information that could assist the FBI.
However, we saw another December 2000 cable, which discusses Khallad and other
information not related to Khallad, which specifically instructed two CIA offices to share
with the FBI the other information in the cable that was not related to Khallad, but it did not
instruct the offices to share the information regarding the possible connection of the
Malaysia meetings and Khallad.



                                             270
“Photo No. 1” included an unknown subject. The source identified one of the
individuals in this photograph as Khallad. According to a January 2001, cable
written by the CIA case officer, the source was asked if he was sure, and he
replied that he was “ninety percent” certain.209
     The second photograph from the Malaysia meetings, which we call
“Photo No. 2,” contained a picture of the person the CIA knew to be Mihdhar.
The source could not identify the person in the photograph. 210
      However, the source’s identification of Khallad in the first photograph
was significant. First, the source previously provided information that Khallad
was a Bin Laden operative who was connected to the Cole attack and the East
African embassy bombings. Second, as a result of the identification, it was
suspected that Khallad was at the Malaysia meetings along with other
suspected al Qaeda operatives. From other information, it also was known that
Mihdhar was at the meetings, and it was suspected that Hazmi was there also.
Thus, the source’s identification of Khallad at the Malaysia meetings raised the
question whether Mihdhar and Hazmi also were linked to the Cole attack.
      We tried to determine if the FBI’s ALAT learned of the source’s
identification of Khallad in the photograph. Max told the OIG that he did not
specifically recall the early January 2001 debriefing of the source. He stated he
also did not recall being aware of any early January 2001 identification of
Khallad from the Kuala Lumpur surveillance photographs. In addition, Max
asserted he was not aware of the Malaysia meetings and the photographs until
he was questioned about them by the JICI staff on June 27, 2002.
      The CIA case officer told the OIG that he had no independent
recollection of any particular meeting with the source, including the meeting in
early January 2001.




    209
       As noted above, information developed after September 11, 2001, revealed this was
a misidentification, and the person identified as Khallad was actually Hazmi.
    210
       This failure to identify Khallad in the photograph known to be of Mihdhar should
have ended the theory that Mihdhar and Khallad were the same person.



                                           271
                 f.    Documentation regarding the source’s identification of
                       Khallad in the early January 2001 debriefing

                       (1) CIA cables
      To examine whether the FBI learned of the source’s identification of
Khallad in the Kuala Lumpur photographs, we reviewed the CIA
documentation concerning the meeting with the source in early January 2001.
In an internal cable written the day after the debriefing, the CIA case officer
reported that the source had identified Khallad in one of the Kuala Lumpur
photographs with a “ninety percent” certainty. However, unlike in the
December 2000 CIA cable, which stated that the CIA officer had the source
repeat the identification of Khallad in the Yemeni-provided photograph to
Max, the January 2001 cable did not suggest the identification was repeated for
Max or was brought to the attention of Max. The January 2001 cable did not
provide any other details about the debriefing, such as where the meeting took
place, when exactly during the debriefing the photographs were shown to the
source, who was present when the photographs were shown to the source, or
what other topics were discussed with the source.
      We also reviewed a detailed January 2001 CIA TD to the Intelligence
Community regarding the early January 2001 debriefing. The TD reported
specifics about what the source discussed and that he had provided a stack of
documents to his CIA and FBI handlers. The TD made no mention of any
photographs being shown to the source or any identification of Khallad. 211
      A few days later, the CIA case officer wrote another cable describing the
logistics of the early January 2001 meeting with the source. In addition, the
cable summarized what was discussed during the meeting. This cable also did
not mention the photographs being shown to or discussed with the source, but
the CIA case officer told the OIG that these kinds of cables were not always
comprehensive with respect to the information obtained from the source.


    211
        Although no witness can recall the details of this particular debriefing, it is possible
that Max, who lacked the appropriate language skills for a debriefing, either photocopied or
hand wrote the information from the documents thus explaining his absence at the time that
the photographs were shown to the source.



                                              272
                   (2) FBI documents
      We also reviewed FBI documents from this period relating to the source.
On January 9, 2001, a New York FBI agent who was the FBI’s lead case agent
on the Cole investigation sent Max an e-mail stating that he and his co-case
agent wanted to meet with the source to talk about some of the Cole suspects,
including Khallad. The New York agent wrote that he was “specially [sic]
interested in all [the source] knows about Khallad and his associates.” The
agent noted that the source previously had given the agents important
information regarding Khallad and the Cole attack.
      In a January 10 e-mail response, Max referred to the December 16
meeting with the source in which the source had been shown many
photographs and had immediately identified the Yemeni-provided photograph
as Khallad. Max also mentioned the early January 2001 meeting, summarizing
specific information provided by the source in the debriefing. Max wrote that,
due to the lack of technological capabilities in the Legat Office, he promised to
make the CIA TD numbers relating to the source available to the case agent
within a few days so the agent could read them before his trip to interview the
source. However, Max made no mention of any identification of photographs
by the source in the early January 2001 debriefing.
      Around the same time as this e-mail exchange, Max was criticized by the
head of the FBI’s UBL Unit at Headquarters for insufficient reporting
regarding the source’s information. The UBL Unit chief wanted to know from
Max what information the source was providing. She also was concerned
because Max was not producing any reports regarding the source.
       In response, on January 16, 2001, Max wrote a 34-page EC summarizing
the source’s debriefings and other information obtained from the source since
mid-2000, most of which was based on the information that had been
disseminated in the TDs by the CIA. Max explained in the EC that he merely
was repeating what the CIA had previously reported in TDs, which had already
been forwarded to FBI Headquarters. He noted the agreement with the CIA
that there would not be duplicative reporting on the source’s information. He
explained the CIA was doing the primary reporting on the source debriefings
Max noted that the interview was conducted in the foreign language, and he
would read the CIA’s report of the interview (the TD) once it was completed.



                                      273
Max then listed all of the CIA’s TDs that summarized what the source had
said.
      On page 29 of this January 16 EC, Max summarized the CIA’s reporting
of what had occurred at the December 16, 2000, meeting with the source. The
EC stated the source was handed a stack of many photographs and immediately
identified the top photograph as a photograph of Khallad, the person the source
had previously implicated in the attack on the Cole. The EC stated, “At that
time it was the clear impression of [the Legat] and [the CIA officer] that both
FBIHQ CTD and NYO were receiving all of the reporting above from CIA
liaison in the U.S., as soon as it was being filed.”
      In the next paragraph of the EC, Max summarized what the CIA had
reported in the TD about the early January 2001 debriefing of the source. This
summary is contained on pages 29 through 33 of the EC. Max reported at
length about the source’s information, and the EC provided a lengthy
description of the documents provided by the source. Again, there was no
mention of any photographs from the Malaysia meetings or the identification
of Khallad.
      Max discussed with the CIA case officer the complaint from FBI
Headquarters about Max’s reporting on the source. As a result, the CIA case
officer provided Max with a report of the next debriefing of the source in late
January 2001. The day after this debriefing, Max prepared a lengthy EC
summarizing this debriefing. He noted in the EC that the report was based on
the CIA’s report of an interview conducted by a CIA officer and, although Max
was present for the debriefing, he only became aware of what was said after the
CIA officer provided the report. 212




    212
        Around the same time, the CIA officer sent a cable to CIA Headquarters that
described the FBI’s need for reporting directly through FBI channels, as opposed to CIA
channels. The CIA office then asked permission to provide electronic copies of TDs to Max
so that Max could send the same reporting through FBI channels.



                                          274
                 g.    New York FBI agents’ interview of source on February
                       1, 2001
      Around the same time, Max was preparing for the arrival of the Cole case
agent from the FBI’s New York Field Office. The Cole case agent was
traveling to interview the source about Khallad, along with another FBI agent
who spoke one of the languages of the source and was going to assist in the
preparation of the FD-302 for the criminal investigation. Max had received a
January 17 e-mail from one of the Cole agents stating that the information
being provided by the source was very important to the FBI’s criminal
investigation of the Cole attack and discussing the arrangements for the
upcoming interview of the source by the Cole agents.
      The New York Cole agents also asked Max to prepare an FD-302
documenting Max’s personal knowledge of the source’s identification of
Khallad from the Yemeni-provided photograph on December 16. On January
24, 2001, Max sent an EC to the New York Field Office and FBI Headquarters
with an attached FD-302 regarding the source’s December 16, 2000,
identification of Khallad.
      On February 1, 2001, the New York Cole case agent and another agent
who spoke one of the source’s languages interviewed the source overseas. 213
The CIA case officer who had shown the Kuala Lumpur photographs to the
source in early January was also present at the interview. During the interview,
they showed the source the Yemeni-provided photograph of Khallad, which
previously had been shown to the source by the CIA officer on December 16,
2000. The source again identified Khallad in the photograph.
      As discussed above, the agents had received information indicating that
Quso, who was in custody for his participation in the Cole attack, had traveled
to Bangkok and met Khallad in January 2000. The New York agents were
investigating the circumstances of that trip. The agents knew that Quso
previously had claimed that he had intended to meet Khallad in Malaysia. The

    213
        In anticipation of the Cole agents’ interview of the source, the CIA case officer had
sent a cable asking the Bin Laden Unit to touch base with FBI Headquarters regarding the
case status and the planned trip of the New York FBI agents. The CIA case officer noted
that the source was “currently of very high interest to our [FBI] colleagues.”



                                             275
agents were concerned about Quso’s veracity and whether Quso, as well as
Khallad, had actually traveled to Malaysia. Therefore, an identification of
Khallad in Malaysia during this period would have been very significant to the
agents.
      Both FBI agents who participated in the February 1 debriefing of the
source told the OIG that they were not informed about surveillance
photographs of the Malaysia meetings, that they did not know such
photographs existed, and that they did not show any such Kuala Lumpur
photographs to the source. They stated that they were not told that the source
had identified Khallad from a Kuala Lumpur surveillance photograph in early
January. They added that if they had been aware of any such identification of
Khallad, they would have wanted to have the source repeat the identification
for them since Khallad was a subject in the Cole criminal investigation.214
However, they stated that they were never informed of such an identification.

           3.   OIG conclusions regarding whether the FBI was aware of
                the source’s identification of Khallad in the Kuala Lumpur
                photograph
       We concluded that the evidence shows that the FBI was not made aware
that during the early January 2001 debriefing the source identified Khallad in
the photographs of the Malaysia meetings. Max insisted in his interviews with
us that he was unaware of this identification of Khallad and that he was not
even aware of the existence of the Kuala Lumpur surveillance photographs
until after the September 11 attacks. Neither Max nor the CIA case officer
specifically recalled the early January debriefing, but the documentary
evidence supports this conclusion. In numerous CIA and FBI documents
discussing the source and the early January debriefing, other important
information from the source is described, but the source’s identification of
Khallad in the Kuala Lumpur photograph is never mentioned. Given the
importance of that identification and the other details reported in the

    214
         The CIA’s Review Group has also asserted that the FBI may have received the
Kuala Lumpur photographs from another source. The CIA did not refer to any witnesses for
this claim but instead referred to a series of CIA cables and FBI documents. Our review of
the cables and other documentary evidence did not support this claim.



                                           276
documents, we believe such information would have been included had the FBI
been made aware of the identification.
      For example, as described above, in the CIA case officer’s cable
reporting the December 16 debriefing of the source during which the source
had identified Khallad in the Yemeni photograph, the CIA officer specifically
noted that ALAT heard the identification and that the identification was
repeated for the benefit of him. Max said he recalled this debriefing and the
identification of Khallad being brought to his attention by the CIA case officer.
      By contrast, in his cable reporting the early January source debriefing,
the CIA case officer did not state that he brought to the attention of Max the
identification of Khallad in the Kuala Lumpur photographs. Likewise in his
cable describing the logistics of the debriefing, the CIA case officer provided a
description of what was discussed with the source and stated that Max was
present for a significant portion of the meeting with the source, but did not
mention any Kuala Lumpur photographs or that the CIA case officer had
brought the identification of Khallad to the attention of Max.
      The documents prepared at the time by Max about the early January
debriefing also suggest that Max was not aware of the identification of Khallad
in the Kuala Lumpur photographs. For example, in response to the Cole case
agent’s January 9 e-mail specifically requesting “all [the source] knows about
Khallad,” Max did not include any information about the Khallad identification
from the Kuala Lumpur photographs. This was shortly after the early January
debriefing, and the case agent had specifically indicated his interest in any
information about Khallad.
      Max’s January 16 EC to FBI Headquarters in which he described at
length what the source had reported in the early January meeting also did not
mention the identification of Khallad or that any Kuala Lumpur photographs
were shown to the source. In addition, Max prepared an FD-302 to document
the source’s identification of Khallad from the Yemeni photograph to provide
documentation for the criminal investigation. We believe that if Max had
known of the source’s identification of Khallad in the Kuala Lumpur photos,
he likely would have prepared a similar FD-302 of that identification as well.
       We also found that the New York Field Office agents who interviewed
the source overseas in February 2001 were not made aware of the early January
identification of Khallad. The agents insisted that they were completely

                                      277
unaware that any Kuala Lumpur surveillance photographs had been shown to
the source or that the source had identified Khallad in any photographs other
than the Yemeni-provided photograph. In addition, we found no documentary
evidence that the New York FBI agents were even aware of the Malaysia
meetings or the resulting surveillance photographs at the time they interviewed
the source. Because the agents were keenly interested in Khallad and had
asked the source to confirm his identification of Khallad from the Yemeni
photograph, we believe the agents would have noted, remembered, and acted
upon any information regarding another Khallad identification. We also
believe that had the FBI known about the identification of Khallad in the Kuala
Lumpur photographs, they would likely have sought information about the
other participants in the meeting, including Mihdhar and Hazmi, which could
have increased the FBI’s chances of locating them before the September 11
attacks.
      Due to the OIG’s lack of complete access to CIA employees and
documents, we were unable to fully examine why the CIA did not inform Max
or the New York agents that the source had identified Khallad in the Kuala
Lumpur photographs at the early January debriefing. We believe the FBI
should have been made aware that the joint FBI/CIA source had provided such
significant information about the person purported to be the mastermind behind
the Cole attack. This failure demonstrated significant problems in
communication between the FBI and the CIA. However, the FBI employees’
inaccurate belief that CIA reporting in TDs was comprehensive contributed to
the FBI’s failure to obtain this critical piece of information. We discuss this
and other systemic problems that this case revealed in the analysis section of
this chapter.

     D. FBI and CIA discussions about the Cole investigation in May and
        June 2001
      The fourth opportunity for the FBI to have acquired intelligence
information about Hazmi and Mihdhar – including Mihdhar’s possession of a
U.S. visa, Hazmi’s travel to the United States, and the source’s identification of
Khallad from the Kuala Lumpur photographs – occurred in May and June 2001
when the CIA and FBI Headquarters discussed the status of their information
concerning the Cole attack. Once again, these discussions could have caused
the FBI and the CIA to focus on the other persons attending the Malaysia


                                       278
meetings with Khallad, and thereby led the FBI to search for Mihdhar and
Hazmi earlier than it did. But, as we describe below, the FBI did not obtain the
critical information about the identification of Khallad at the Malaysia
meetings, despite several interactions in May and June 2001 between the FBI
and the CIA about Khallad.

           1.   Background

                a.    The Cole investigation
      As discussed above, the FBI’s investigation on the Cole attack was led by
the FBI’s New York Field Office. 215 One of the case agents investigating the
Cole attack was an agent who we call “Scott,” and who was assigned to the
New York FBI’s counterterrorism squad that handled only al Qaeda
investigations (the “Bin Laden squad”). 216 After serving eight years in the U.S.
Navy as a fighter pilot, in April 1996 Scott became a special agent in the FBI’s
New York Office. In July 1996 he was assigned to the TWA Flight 800
investigation because of his experience as a military pilot. Shortly after the
East African embassy bombings in August 1998, he was transferred to the New
York’s Bin Laden squad to assist with the embassy bombings investigation,
and then was assigned as one of the case agents on the investigation the Cole
attack.
       The New York FBI was assisted on the Cole investigation by several
Intelligence Operations Specialists (IOS) assigned to the UBL Unit and the
Radical Fundamentalist Unit (RFU) at FBI Headquarters.
      One of the primary IOSs who worked on the Cole investigation was an
IOS who we call “Donna.” She had joined the FBI in 1988 as a clerk while she
completed her college education. After graduating from college in 1995, she
entered the FBI’s language training program and became a Russian language

    215
       Through their work on the 1993 attack on the World Trade Center and the
subsequent discovery of the terrorist plot to attack New York landmarks, the New York FBI
became the primary office for the investigation of al Qaeda, eventually leading to the
indictment of Bin Laden in the Southern District of New York in November 1998.
    216
       The other primary case agent on the Cole investigation was out of the country during
the events discussed in this section of the report.



                                           279
specialist working on foreign counterintelligence matters. In November 1997,
she became an Intelligence Research Specialist (IRS), and a year later was
assigned to assist the RFU on the East African embassy bombings
investigation. In 2000 she was permanently assigned as an IOS in the UBL
Unit and was assigned to work on the Cole investigation in October 2000.
      With regard to Donna’s work on the Cole investigation, she stated that
she and the other UBL Unit IOSs conducted the investigation as directed by the
New York Field Office, sent out requests for information to other law
enforcement and intelligence agencies, obtained budget enhancements to
support the investigation, and performed other duties in support of the
investigation. She and the other UBL IOSs often traveled to New York where
they met with the Cole agents and worked on the investigation.

              b.   The wall and the caveat on NSA information
       The information relevant to this section of the report includes NSA
information disseminated about Mihdhar in late 1999 and early 2000. As noted
in Chapter Two, by the summer of 2001 NSA counterterrorism intelligence
information could not be disseminated within the FBI without adhering to
certain procedures and protocols. At this time, the FBI was required by the
Department and the FISA Court to keep criminal investigations separate from
intelligence investigations, a policy which was commonly referred to as “the
wall.” Information obtained from FISA intercepts and search warrants had to
be screened by someone not involved in the criminal investigation and then
“passed over the wall” from the intelligence investigation to the criminal
investigation. The FISA Court became the screening mechanism for FISA
information obtained from al Qaeda intelligence investigations that the FBI
wanted to pass to criminal investigators.
      As described in Chapter Two, in response to notification that there had
been many errors in FISA applications approved by the FISA Court, the Court
imposed additional restrictions before information could be shared. First,
based on the FISA Court’s concerns about the errors in the FISA applications,
the FBI directed that only intelligence agents were permitted to review FISA
intercepts and materials seized pursuant to a FISA warrant (called “FISA-
obtained material”) or any CIA and NSA intelligence provided to the FBI
based on information obtained through FISA search or intercept (called “FISA-
derived” material) without further Court approval. The Court required anyone

                                     280
who reviewed the FISA-obtained or FISA-derived intelligence to sign a
certification acknowledging that the Court’s approval was required for
dissemination to criminal investigators.
       Because FISA-obtained information often was passed from the FBI to the
NSA and the CIA, the question was raised to the FISA Court whether the FBI
was required to obtain certifications from all NSA or CIA employees who
reviewed the FISA-obtained material. The Court exempted the NSA and CIA
from the certification but required that the two agencies note on any
intelligence shared with the FBI if it was FISA-derived. This was referred to
as “a caveat.”
      When made aware of this requirement, the NSA reported to the
Department of Justice that for the NSA to determine in real-time which
counterterrorism intelligence that it had acquired was FISA-derived would
delay dissemination of the information. As a result, the NSA decided to
indicate on all its counterterrorism intelligence provided to the FBI as being
FISA-derived so that it could not be disseminated to criminal agents or
prosecutors without approval from the NSA. 217 Therefore, when the FBI
wanted to pass this NSA intelligence to criminal investigators, it had to contact
the NSA General Counsel’s Office to determine whether the information was
in fact FISA-derived before it could be passed. 218

           2.    Discussions in May 2001
     In May 2001, the potential connection of Khallad to the Malaysia
meetings was again discussed by CIA personnel. FBI personnel also discussed
Khallad in reference to his nexus to the Cole attack. There were also

    217
       According to the NSA, its average response time to FBI requests for approval to pass
information to criminal investigators was one to five business days.
    218
       The NSA information concerning Hazmi and Mihdhar was from late 1999 and early
2000, and contained the initial caveat stating that information could not be disseminated to
law enforcement officials without approval from OIPR. By the time FBI Headquarters was
dealing with this information in the summer of 2001, the new caveat was being placed on
NSA reporting, and FBI Headquarters was operating under the understanding that the NSA
General Counsel had to approve dissemination of NSA counterterrorism information to
criminal investigators.



                                            281
discussions between the CIA and FBI in reference to the Kuala Lumpur
photographs. But, as described below, the identification of Khallad in the
Kuala Lumpur photographs and Khallad’s connection to other suspects, such as
Hazmi and Mihdhar, were not addressed during these May discussions between
the FBI and the CIA.

                 a.    John’s inquiries about Khallad
    Between the early January 2001 debriefing of the source and May 2001,
the CIA’s focus on whether Khallad, the suspected mastermind behind the Cole
attack, had attended the Malaysia meetings appears to have subsided. In May
2001, John, a former Deputy Chief of the Bin Laden Unit, who by that time
was detailed to ITOS in FBI Headquarters, had continuing concerns about the
Malaysia meetings, especially whether they had any nexus to the Cole
attack. 219 John also noted to the OIG that during this period there were
heightened concerns in the Intelligence Community about the threat of an
imminent terrorist attack in Southeast Asia.
      CIA records show that on May 15, 2001, John accessed the March 2000
cable stating that Mihdhar, Hazmi, and another person had traveled to Bangkok
from Malaysia on January 8, 2000. The cable also stated that Hazmi had left
Bangkok on January 15, 2000, flying from Bangkok to Hong Kong and then to
Los Angeles.
      Around this same time in May, John began inquiring about the Malaysia
meetings with a CTC analyst, who we call “Peter,” at CIA Headquarters. John
said he knew that Peter had been “down in the weeds” and knew the “nuts and
bolts” of the Cole investigation because Peter had been assigned to prepare a
CTC report on who was responsible for the Cole attack.
     Peter told the OIG that his area of expertise and focus since August 1999
was the Arabian Peninsula. He said that because the Cole attack took place in
Yemen, he was assigned to develop an intelligence report on who was


    219
         John told the OIG that in this detail to the FBI he acted as the CIA’s chief
intelligence representative to ITOS Section Chief Michael Rolince. John stated that he did
not have line authority over anyone at the FBI and that his primary role was to assist the FBI
in exploiting information for intelligence purposes.



                                            282
responsible for the Cole attack. He completed his report in January 2001,
finding that UBL/al Qaeda was circumstantially tied to the attack. 220 Peter
stated that while working on the Cole report he regularly interacted with the
IOSs in the FBI’s UBL Unit. By the spring 2001, he was no longer working
directly on the Cole attack, and had moved on to potential threats in Saudi
Arabia and Yemen. However, Peter said he had a continued interest in the
Cole information and continued to gather information on an ad hoc basis.
      According to John, he and Peter discussed the Malaysia meetings, and
Peter provided him with a copy of the timeline of events related to the Cole
investigation that Peter had compiled as part of his work on the Cole attack. 221
In addition, John said they discussed Quso, a Cole perpetrator in Yemeni
custody, and any connections Quso may have had with the individuals in
Malaysia. John and Peter were aware that Quso had stated that he was
supposed to take money to a person named “Khallad” in Malaysia but had met
him in Bangkok instead in January 2000. John told the OIG that Peter had
posited that perhaps Quso had gone to Malaysia and met with the others who
had been observed there in January 2000, and therefore Quso might have been
in one of the Kuala Lumpur photographs.
      In an e-mail to Peter in mid-May 2001, John noted that Mihdhar had
arranged his travel to Malaysia and was associated with “[another terrorist
organization] courier travel at the same time.” John also noted in the e-mail
that Quso, who was believed to be a courier since he had stated he had traveled
to take money to Khallad, had traveled a few days earlier than Mihdhar.222 In
addition, John wrote that he was interested because Mihdhar was traveling with
two “companions” who had left Malaysia and gone to Bangkok, Los Angeles,
and Hong Kong and “also were couriers of a sort.” John noted in the e-mail

    220
       The report did not mention Mihdhar’s visa, Hazmi’s travel to the United States or the
Khallad identification from the Kuala Lumpur photographs.
    221
      The timeline did not mention the Kuala Lumpur photographs, Mihdhar’s U.S. visa,
or Hazmi’s subsequent travel to the United States.
    222
       As previously discussed, after Quso was detained in Yemen, he acknowledged that
he had received $7,000 from someone named Ibrahim, which Quso asserted he took to
Bangkok, Thailand on January 6, 2000, to deliver to “Khallad,” a friend of Ibrahim’s.
Mihdhar had traveled to Bangkok on January 8.



                                           283
that “something bad was definitely up.” Peter replied in an e-mail dated May
18, “My head is spinning over this East Asia travel. Do you know if anyone in
[the CIA’s Bin Laden Unit] or FBI mapped this?”

              b.   Discussions among FBI and CIA employees
       Around this same time, FBI IOS Donna and other FBI IOSs working on
the Cole investigation were focusing on Quso’s connection to Bangkok and his
trip to deliver money to Khallad. The FBI, like the CIA, was aware that in
January 2000 Quso had planned to travel to Malaysia to take money to
Khallad. According to an FBI document drafted by Donna in May 2001, Quso
had claimed that on January 6, 2000, he and Ibrahim Al-Nibras went to
Bangkok first but were unable to travel on to Kuala Lumpur because of
problems with their travel documents, and Khallad had traveled to Bangkok to
meet them there instead. The FBI began researching telephone numbers that
appeared to be connected to Quso’s trip and requested that several Legat
Offices contact local law enforcement authorities to obtain subscriber
information.
      Donna told the OIG that she and others were tracking the information
related to the telephone numbers associated with Quso in an attempt to
determine the truth of his statements. In addition, she said that she was focused
on the identity and whereabouts of Khallad, since he was the purported
mastermind of the Cole attack.
      At some point before the end of May 2001, John discussed with Donna
the East Asian travel of Quso. In response to Peter’s May 18 e-mail that asked
whether anyone had “mapped” the East Asia travel, John replied in an undated
e-mail that “key travel still needs to be mapped” and stated “[Donna] sounds
really interested in comparing notes in a small forum expert to expert so both
sides can shake this thing and see what gaps are common.”
      In addition to reviewing the East Asia travel of several Bin Laden
operatives in January 2000, John also began looking in CIA records for the
Kuala Lumpur photographs. John obtained three of them. John told the OIG
that he had not read the cable stating that the joint source had identified
Khallad in the photographs, but he was aware that an identification of Khallad
in the photographs had been made. At the end of his e-mail to Peter, John
stated that he had obtained three surveillance photographs of Mihdhar in


                                      284
Malaysia, but he did not see “Khallad” in any of the photographs, and he
believed he was “missing something” or “someone saw something that wasn’t
there.” John also questioned whether there was a cable somewhere that
documented the identification of Khallad. 223
      In response to John’s e-mail, Peter wrote in an e-mail dated May 24 that
he had thought one of the Kuala Lumpur photos was of Khallad. Peter added
that Donna and another FBI IOS in the UBL Unit, who we call “Kathy,” were
meeting with Peter on May 29 to discuss the Cole investigation. Peter
suggested that he could raise the issue of the Kuala Lumpur photographs and
the possible identification of Khallad with the FBI IOSs. Peter told the OIG
that he had learned about the source’s identification of Khallad in the Kuala
Lumpur photographs when it had occurred, but by May of 2001 it had been
several months since he had worked on the Cole matter and he could not recall
whether Khallad had been identified in the photographs.
     On May 24, Donna sent John an e-mail stating that a meeting with Peter
and others was “tentatively scheduled” for May 29 for “an in depth discussion
about the Cole.”
      We were unable to determine with certainty whether a meeting with
Peter, Donna, and Kathy actually took place on May 29. None of the witnesses
had notes of any such meeting, nor were there any e-mails discussing the
meeting after it would have taken place. The witnesses told the OIG that they
could not recall whether a meeting took place on May 29. For example, when
asked whether she knew Peter, Kathy told the OIG that his name sounded
familiar and that she may have met him, but she did not recall a meeting on
May 29, 2001, about the Cole investigation. A May 29 e-mail from Peter to
Mary indicates that he met with Mary earlier in the day, but it does not identify
the other participants or what was discussed.



    223
        As noted above, John was correct – Khallad was not in any of these three
photographs. After September 11 it was learned that the person the source had identified as
Khallad was actually Hazmi. It was also learned after September 11, however, that Khallad
was in another Kuala Lumpur surveillance photograph that had not been shown to the
source.



                                           285
      However, it is clear that at some point before the end of May 2001,
Donna became aware of the existence of the Kuala Lumpur photographs in
January 2000. Donna told the OIG that she recalled John printing one of the
CIA photographs on the printer in his office at FBI Headquarters, and Donna
acknowledged that she obtained two other Kuala Lumpur photographs from
him. According to Donna, Peter had raised the photographs in a discussion
with her prior to her obtaining the photographs from John, although she said
that she did not recall the details of their discussion about the photographs.
Donna said she did recall that, at the time, Peter had posited that one of the
photographs could relate to Quso, which if true would contradict Quso’s
statements about going only to Bangkok and not going to Malaysia. According
to Donna, the FBI was attempting to determine the veracity of Quso’s
information, so the photographs potentially were connected to the Cole
investigation. She stated, however, that outside of this potential connection,
the photographs were “another piece of a thousand things coming in” at the
time. She said that if Quso were determined to be in the photographs, then the
photographs would have become significant to the Cole investigation.
      Donna also told the OIG that she did not recall a “substantive
conversation” with John about the photographs or the Malaysia meetings.
Donna told the OIG that she wrote on the back of the photographs what John
told her about the photographs, which included that “Khalid Al-Midar”
traveled from Sana, Yemen, via Dubai, to Kuala Lumpur on January 5, 2000,
and he was in Kuala Lumpur between January 6 and 8. She also wrote Khalid
Mihdhar’s name on the back of the photograph in which he had been identified.
      According to Donna, neither John nor Peter discussed with her the fact
that Khallad had been identified in these photographs. Donna told the OIG that
she believes she would have noted being told that Khallad was in the
photographs because she was interested in identifying Khallad and because it
would have meant that the photographs had a definite connection to the Cole
investigation. Donna also said that no one told her that Mihdhar had a U.S.
visa or that Hazmi had traveled to the United States.
      John told the OIG that he did not recall anything about his discussion
with Donna when he printed the Kuala Lumpur photographs for her. John said
he recalled that at the time the FBI was trying to “nail down Quso’s story.”
He said that he did not recall ever discussing the Khallad identification from
the Kuala Lumpur photographs with Donna or anyone else at the FBI.

                                     286
      John emphasized that the FBI was focused on the Cole investigation, not
the Malaysia meetings. He stated that while he had begun to theorize that
Khallad had been in Malaysia, it was only “speculative” and he had not
confirmed any of the information about a source identifying Khallad in the
Kuala Lumpur photographs. Therefore, according to John, he would not have
discussed the identification of Khallad with Donna. John emphasized that a
significant impetus for the CIA’s interest in Khallad’s activities revolved
around concerns that Khallad was planning a future terrorist operation in
Malaysia.
     Peter told the OIG that he recalled talking to FBI IOSs, including Donna,
about mapping the telephone number information based on information
provided by Quso. But he said that he did not recall discussions with Donna
about the Kuala Lumpur photographs or the Khallad identification.

         3.   June 11, 2001, meeting

              a.   Planning for the meeting
      Around the same time that Donna was discussing Quso and the Cole
investigation with Peter and John, she also was planning a meeting at the New
York FBI Office to discuss the Cole investigation. The planned participants
for the New York meeting included personnel from FBI Headquarters, the
CIA’s CTC, and the New York FBI agents working on the Cole investigation.
FBI documents show that Donna began organizing the meeting as early as
May 24.
      There was no record of an agenda for the meeting, and no supervisors
were involved in the preparation for this meeting or were consulted regarding
what should be accomplished at the meeting. Donna told the OIG that she
organized the meeting in an effort to consolidate information and determine
what further action was warranted on the Cole investigation. She stated that
the purpose of the meeting at the New York FBI Office was to address
unresolved issues and produce additional leads or other activities focusing on




                                      287
the Cole investigation. According to a May 24 e-mail by Donna, the meeting
was “to discuss our direction, particularly as it relates to Nashiri.” 224
       Donna stated that she planned to take the Kuala Lumpur photographs
with her to New York to find out whether the New York FBI Cole agents, who
had met and debriefed Quso, could identify him in the photographs. She said
that if Quso was in the photographs, the FBI would have reason to question
Quso’s statement that he had not gone to Malaysia but had met Khallad in
Bangkok instead.
      Sometime after obtaining the Kuala Lumpur photographs from John,
Donna queried CTLink for the name Khalid al-Midhar [sic], which John had
provided to her and which she had noted on the back of one of the
photographs. 225 In CTLink she discovered the NSA information from late 1999
and early 2000 referencing Mihdhar’s planned travel to Malaysia and
Mihdhar’s association with a suspected terrorist facility in the Middle East
linked to al Qaeda activities. She also queried ACS about Mihdhar but did
not obtain any additional information about him.
      Mary, an FBI detailee to the Bin Laden Unit who worked as a CTC desk
officer, also attended the June 11 meeting, as did Peter, the CTC analyst.
According to Mary, Donna invited her to the meeting and told her the meeting
was intended for information sharing and as a “brainstorming session”
concerning the Cole investigation. Mary told the OIG she had recently been
given the assignment by CTC management of “getting up to speed” in her
spare time on the Malaysia meetings and determining any potential connections
between the Malaysia meetings and the Cole attack. Mary said that she had not
yet begun reviewing the Malaysia meetings at the time of Donna’s invitation.



    224
        Abdul Rahim al-Nashiri was al Qaeda’s chief of operations in the Persian Gulf and
was suspected to have been involved in the attack on the Cole. According to Donna, at the
time he was believed to be the “on-scene commander” for the Cole attack, and the IOSs had
been assigned the task of trying to locate him based on the intelligence reporting on him. He
has since been arrested outside the United States.
    225
        CTLink is a database administered by the CIA and used to disseminate information
within the Intelligence Community.



                                            288
      According to Peter, the meeting was also described to him as an
“information sharing and brainstorming session” to determine whether any
further leads should be pursued. Peter said that he heard about the meeting
from Mary and contacted Donna about attending because he was interested in
learning what the New York FBI agents had uncovered in their investigation of
the Cole attack.
      According to FBI personnel in New York, Donna told them that FBI
Headquarters and CIA personnel had indicated they had “information to share”
regarding the Cole investigation. The FBI New York personnel anticipated the
meeting would be a mutual exchange of information. Scott, one of the New
York case agents on the Cole investigation, said he was told that the CIA
representatives who would be attending the meeting wanted a briefing on the
Cole investigation. On his own initiative, Scott arranged for David Kelley, an
AUSA from the SDNY who was assigned to the Cole matter, to discuss with
the CIA representatives other issues related to the Cole investigation, one of
which was the impact on the prosecution if some of the targets of the Cole
investigation were captured or detained outside the United States.

               b.   The June 11 meeting
      On June 11, the meeting was held in a conference room at the FBI’s New
York Field Office. We could not determine with certainty all the participants
at the meeting. There was no list of attendees, and the witnesses could not
recall exactly who was there. However, we confirmed that Donna, Mary,
Peter, Scott, and another New York agent assigned to the Cole investigation
who we call “Randall,” attended. AUSA Kelley attended for part of the
meeting. Although it was unclear exactly how long the meeting lasted, the
witnesses said it lasted between two and four hours.
      In interviews with the OIG, the attendees said they did not recall the
specifics of what was discussed at the meeting. The only contemporaneous
notes from the meeting that we were able to obtain were Donna’s. Her notes
indicate that the latest developments in the Cole investigation were discussed.
The second page of the notes is labeled “to do” and referenced several items.
       Randall said he recalled that at the beginning of the meeting, Scott gave
an update of the results and status of the investigation. Mary said she recalled
that the attendees “brainstormed” various issues, but she did not recall any


                                      289
significant ideas being developed during the meeting. Peter said he recalled
that the New York agents “railed” about the U.S. Ambassador to Yemen and
the lack of cooperation they believed they were receiving from the Yemeni
government. At some point during the meeting, AUSA Kelley discussed the
feasibility of prosecution in the Cole case.
      Toward the end of the meeting, Donna produced the three Kuala Lumpur
surveillance photographs and asked the agents if they recognized Quso in any
of the photographs. Donna said she told the agents that the photographs had
been taken in Malaysia around the Millennium. Donna said she provided
Khalid al Mihdhar’s name to at least some of the agents present. A New York
agent tentatively identified one of the pictured individuals as Quso, but he
could not make a definitive identification. 226 The witnesses’ accounts of what
happened next differ.
      Scott told the OIG that after reviewing the Kuala Lumpur photographs,
the FBI agents began to ask questions, such as whether there were additional
photographs or information concerning the background on the photographs,
including questions about Mihdhar, who was in the photographs. According to
Scott, he pressed Donna and Peter for details of the Malaysia meetings. Scott
told the OIG he was interested in the fact that the photographs were from
Malaysia because from the Quso’s debriefings he knew that Khallad had
planned to meet Quso in Malaysia, and any information linking Khallad to
Malaysia was “directly related” to the Cole investigation.
      Scott contended that Donna “refused” to provide any further information
about the photographs or the Malaysia meetings due to “the wall.” Scott told
the OIG that he previously had numerous conversations about the wall with
Donna, which had been an issue between them. He stated that during this June
11 meeting, he disputed that the wall was applicable to the information at hand
because the photographs had not been obtained as the result of a FISA Court
order, and he continued to press Donna for more information. Scott said the
meeting degenerated into an argument about the wall.



      226
          Only a limited number of New York agents had actually met Quso. The others
had only seen photographs of him.



                                         290
      In his initial OIG interview, Scott described the meeting as very
contentious and combative. 227 In a second OIG interview, although Scott did
not characterize the meeting as having the same level of combativeness, he
contended that he pressed Donna for more information but none was
forthcoming. Scott stated he had heated telephone conversations and e-mail
exchanges with Donna over this issue after the June 11 meeting.
      Donna, Mary, and Peter described the showing of the Kuala Lumpur
photographs as a sidebar to the main meeting and generally inconsequential.
All three asserted that neither the display of the surveillance photographs nor
the meeting overall was contentious. Although Donna agreed that the FBI
agents asked further questions regarding the origin of the photographs and
asked for additional information regarding the Malaysia meetings, she
contended that she responded simply by saying she did not know anything
further. She told the OIG that these questions made sense to her when they
were asked, but she did not know the answers. She stated that someone asked
what kind of passport Mihdhar was traveling on, and Peter responded that it
was a Saudi passport. 228 According to Donna, she had not known this
information prior to Peter stating it. Donna told us that this was the only
information volunteered by Peter, and she believed he would have provided
additional information if he knew it.
      Peter told the OIG that he was not asked any questions at the June 11
meeting, he had no formal role, and he did not brief anyone on anything at the
June 11 meeting. Peter explained that it is not within his purview or authority
as an analyst to share CIA information. He said he did not recall the meeting
becoming heated or contentious. He said he did not recall any time during the



    227
        When we asked Scott whether an intelligence-designated agent could have been
provided the information outside the presence of the criminal agents, Scott agreed that could
have been done, but he did not think of it at the time and no one else suggested it. During
his subsequent testimony before the Joint Intelligence Committee, however, Scott said that
the wall must not have been at issue because the criminal agents could have just left the
room and any information could have been related to an intelligence agent.
    228
        Donna’s contemporaneous notes reflect this information. It appears as the last entry
on the notes, indicating that this was discussed at the end of the meeting.



                                            291
meeting where Donna said, “I can’t answer that question” or directly refused to
answer a question. 229
      Mary stated that she had not been “up to speed” on the case at this time,
so she was not in a position to provide information at the meeting. She stated
that she and Peter were not asked any questions during the meeting. She said
that she did not recall any serious disagreements arising during the meeting.
      According to Donna, she remained in New York after the meeting,
without Peter and Mary, and she continued the discussions with the New York
agents regarding the photographs after the meeting. She said that these
subsequent conversations became fairly “heated,” as the agents pressed her
with questions such as whether there were additional photographs and any
documentation about the photographs. 230
      Donna told the OIG she had provided to the agents all the information
she had received from the CIA regarding the photographs. She told us that all
she knew was that these three photographs were taken in Malaysia around the
Millennium, and one of the persons in the photographs was someone named
Khalid al Mihdhar. Donna stated she advised the agents of this and told them
that efforts would be made to obtain the requested information. She said she
was not aware that there would have been additional information to provide.
She added that she recalled having the impression that the agents did not
believe her when she said that she did not have the information about the
photographs that the agents were requesting.
       As discussed earlier, however, Donna had additional NSA information
about Mihdhar that she had discovered through her CTLink query. The
information related to the planned travel to Malaysia of several members of an
“operational cadre” and Mihdhar’s association with a suspected terrorist
facility in the Middle East linked to al Qaeda activities. Donna told us that she

    229
        As described earlier, Peter and John had exchanged several e-mails about the
Malaysia meetings and the photographs. However, it is unclear based upon the information
available to us exactly what Peter knew at this point. He said he was unable to remember
exactly what additional information he had on June 11, 2001.
    230
       We believe it likely that the agents were confusing the post-meeting discussions with
the showing of the photographs at the meeting.



                                           292
could not provide this information directly to the agents working the Cole
criminal investigation due to the caveat, which prevented all NSA
counterterrorism-related intelligence information from being provided to FBI
criminal agents without approval from the NSA. 231
      Donna told us that the New York FBI primarily worked criminal
terrorism investigations and the sharing of intelligence information with the
criminal agents was often an issue. She said that some of the New York agents
had become “overly sensitive” about a perceived lack of information sharing.
Donna emphasized that any information could be shared but often a process
had to be followed before certain intelligence information could be shared with
agents working criminal investigations. She added that it was not her job to
keep information from the agents but instead to ensure they had the tools
necessary to do their job.
      According to Donna, the only issue regarding the Kuala Lumpur
photographs would have been obtaining permission from the CIA to allow
individuals outside of the FBI to see the photographs in furtherance of the Cole
investigation, such as in interviews conducted in Yemen. 232 Donna said at
some point while she was in New York, she and the agents discussed providing
the photographs to the agents working in Yemen in order to get a positive
identification of Quso in the photographs and to conduct further
investigation. 233 She stated that she told the agents that she would attempt to
obtain the requisite permission to provide the photographs to the agents
working the Cole investigation in Yemen.

    231
        It is important to note, however, that this NSA information originally had been
routed not only to FBI Headquarters but also to the New York FBI Office in late 1999 and
early 2000.
    232
       A policy in the Intelligence Community, which is designed to protect intelligence
sources and methods, is that the originator of intelligence information controls the further
dissemination of the information. This policy is described as originator controlled, or
“ORCON.” Dissemination of ORCON information requires permission from the originating
agency to further disseminate the information outside the receiving agency.
    233
        Apparently unbeknownst to the involved FBI and CIA personnel, the Yemeni
authorities already had been given the photographs on January 3, 2001, six months before
anyone at the FBI received the photographs.



                                           293
      Although she had no explicit discussion with John regarding the use of
the photographs, Donna stated she understood that the photographs were “not
formally passed” to the FBI when John gave them to her, but only provided for
limited use in the meeting. Therefore, Donna said she did not believe that she
could leave the photographs with the New York agents until the requisite
permission to show the photographs outside of the FBI had been obtained.
      However, John told the OIG that that since the photographs had been
given to Donna, an FBI employee, they could be further distributed within the
FBI. John agreed that the photographs could not be used by the FBI in any
manner where they would be disclosed to a foreign government. For example,
he said that without approval from the CIA, the FBI agents could not keep the
photographs and show them to Quso, who was in Yemeni custody, because
Yemeni officials also would see the photographs.

              c.   Follow-up after the June 11 meeting
      We looked for evidence as to whether Donna or the New York agents
conducted any follow-up efforts about the Kuala Lumpur photographs or
obtaining permission from the NSA to pass the intelligence information to the
New York agents. Donna said that she “probably” had follow-up
conversations with John, Peter, and Mary about the photographs, but she did
not specifically recall the conversations or obtaining additional information.
Mary told the OIG that she recalled conversations with Donna about obtaining
permission for the FBI to use the photographs of the Malaysia meetings in their
investigation.
     Donna stated she was not contacted by Scott after the meeting, although
she was working with another agent on the squad, who we call “Glenn,” in
connection with tracking telephone toll records. Those records related to the
Cole participants, the travel of Quso to Bangkok, and Quso’s potential travel to
Malaysia.
      According to Scott, over the course of the summer, he had several more
conversations with FBI Headquarters asking about any additional information
on the Kuala Lumpur photographs, but he was not provided any additional
information. He stated that he did not seek assistance from any supervisor in
obtaining additional information. He told us that he and the rest of the New
York Field Office had been fighting a battle with FBI Headquarters over


                                      294
information sharing for months, and he was “dumbfounded” that he could not
obtain the information about the Kuala Lumpur photographs. He stated that in
hindsight he probably should have sought the intervention of a supervisor.
     Documentary evidence shows that, as a result of the June 11 meeting,
Donna and the New York agents discussed the Kuala Lumpur photographs in
several follow-up conversations. In an e-mail dated August 22 from Donna to
Glenn, she wrote that there were additional photographs of the Malaysia
meetings and that the reason that Mihdhar was of interest at the time was
because of some threat information that led to the CIA looking at all persons
named “Khalid.” In addition, she wrote that she had received assurances that
the FBI would be able to use the Kuala Lumpur photographs outside the FBI.
We discuss this e-mail in further detail in the next section.
      Documents also show that on August 27 Donna requested permission
from the NSA to provide the intelligence information about Mihdhar to the
New York Cole criminal agents. However, this request came after the FBI had
discovered on August 22 that Mihdhar might be in the United States and had
opened an investigation to determine whether he was in the country. We
discuss the events that led to that investigation and the investigative efforts of
the FBI in the next section of the report.

          4.   OIG conclusions on May and June discussions
      While there were several interactions between FBI and CIA personnel in
May and June 2001 that could have resulted in the FBI learning more about the
Kuala Lumpur photographs and Mihdhar, the FBI personnel did not become
aware of significant intelligence information about Mihdhar and Mihdhar’s
connections to Khallad. The fact that Mihdhar had possessed a United States
visa was not disclosed at this time by the CIA to Donna or the FBI. The fact
that Hazmi had been at the Malaysia meeting and then traveled to Los Angeles
also was not disclosed by the CIA. In addition, the fact that the source had
identified Khallad, the purported mastermind of the Cole bombing, from the
Kuala Lumpur surveillance photographs was not disclosed during these
interactions.
      Although Donna knew about the Kuala Lumpur surveillance
photographs, we do not believe that she was informed that Mihdhar had a U.S.
visa or that Khallad had been identified in the photographs. Donna’s


                                       295
contemporaneous notes on the back of the Kuala Lumpur photographs reflect
the limited information that she had obtained about the photographs and the
Malaysia meetings. The notes do not mention anything about Mihdhar’s
possession of a U.S. visa. In addition, Donna stated that she was aware of the
significance of Khallad to the Cole investigation, but the notes on the
photographs also do not mention Khallad. Moreover, John, who provided the
photographs to Donna, told the OIG he did not recall discussing the Kuala
Lumpur photographs with her, and he did not believe that he would have
discussed with Donna that Khallad had been identified in the photographs,
because at the time he was not sure that this was true and he thought the
information was “speculative.” Although an e-mail message indicated that
Peter was planning to discuss the Khallad identification with Donna in a
meeting on May 29, we were unable to determine that this meeting actually
occurred.
     It was impossible for us to determine exactly what happened at the
June 11 meeting with respect to the Kuala Lumpur photographs because the
witnesses cannot recall the specifics of the discussions and there is little
documentary evidence. It is clear, however, that the information regarding
Mihdhar’s U.S. visa and the fact that Khallad had been identified in the Kuala
Lumpur photographs was not discussed at the June 11 meeting.
      Donna told the agents about the photographs and provided them limited
information that she had obtained from the CIA about the photographs. Most
of the questioning about the photographs took place after the meeting, when
Peter and Mary had left. We believe those interactions after the meeting
became very contentious, with the New York FBI wanting more information.
Donna did not provide the New York agents with the NSA intelligence
information about the Mihdhar’s association with a suspected terrorist facility
in the Middle East linked with al Qaeda activities, which she obtained through
her research. She said she did not because of the restrictions placed on sharing
such NSA information. As we discuss further in the next section, Donna
subsequently contacted the NSA in reference to having the NSA information
passed to the agents, but this did not occur until much later, on August 27,
2001.
       We found little attempt by either the FBI agents or Donna after June 11
to follow up on the information about the photographs that was discussed at the
meeting. There is little evidence of follow-up until some time in August 2001,

                                      296
when, as we discuss in the next section, the FBI learned that Mihdhar had
recently entered the United States, and the FBI opened an investigation to
locate him.
      The interaction between the CIA and the FBI in May and June 2001 was
another failed opportunity for the FBI to obtain the critical information about
Mihdhar and Khallad. The failure of the FBI to learn about Mihdhar, his
connection to Khallad, and his travel to the United States at that time
demonstrated significant problems in the flow of information between the CIA
and the FBI. We discuss these deficiencies in the analysis section of this
chapter.

    E.   The FBI’s efforts to locate Mihdhar in August and September
         2001
      The fifth and final opportunity for the FBI to locate Mihdhar and Hazmi
occurred in late August 2001, when it was informed that Mihdhar and Hazmi
had traveled to the United States. The FBI learned in August 2001 that
Mihdhar had entered the United States in July 2001 and that Mihdhar and
Hazmi had previously traveled together to the United States in January 2000.
On August 29, the FBI began an investigation to locate Mihdhar, but it did not
assign great urgency or priority to the investigation. The New York FBI
criminal agents who wanted to participate in the investigation were specifically
prohibited from doing so because of concerns about the wall and the
procedures to keep criminal and intelligence investigations separate. The FBI
did not locate Mihdhar before the September 11 attacks.
     We review the facts surrounding the FBI’s discovery of this information
about Mihdhar and Hazmi and what the FBI did with this information in
August. We also examine the FBI’s unsuccessful efforts to locate Mihdhar
before the September 11 attacks.

         1.   Continuing review of the Malaysia meetings in July and
              August 2001
      As discussed above, John, the CIA Bin Laden Unit Deputy Chief, was
detailed to the FBI’s ITOS in May 2001. Shortly before assuming his duties at
the FBI, John had asked CTC management to assign a CTC desk officer with
“getting up to speed” on the Malaysia meetings and determining any potential


                                      297
connections between the Malaysia meetings and the Cole attack. This
assignment was given to Mary. She told the OIG that “getting up to speed”
meant she would have to research and read the pertinent cable traffic as her
schedule permitted. She emphasized that her priority assignment during this
period was the credible threats of an imminent attack on U.S. personnel in
Yemen, and she said that she worked the Malaysia meetings connections to the
Cole attack whenever she had an opportunity.
      In early July 2001, based on recent intelligence information, the CIA had
concerns about the possibility of a terrorist attack in Southeast Asia. On July 5,
2001, John sent an e-mail to managers at the CTC’s Bin Laden Unit noting
“how bad things look in Malaysia.” He wrote that there was a potential
connection between the recent threat information and information developed
about the Malaysia meetings in January 2000. In addition, he noted that in
January 2000 when Mihdhar was traveling to Malaysia, key figures in the
failed attack against the U.S.S. The Sullivans and the subsequent successful
attack against the U.S.S. Cole also were attempting to meet in Malaysia, and
that one or more of these persons could have been in Malaysia at that time.
Therefore, he recommended that the Cole and Malaysia meetings be re-
examined for potential connections to the current threat information involving
Malaysia. He wrote, “I know your resources are strained, but if we can prevent
something in SE Asia, this would seem to be a productive place to start.” He
ended the e-mail by stating that “all the indicators are of a massively bad
infrastructure being readily completed with just one purpose in mind.”
      On July 13, John wrote another e-mail to CTC managers stating that he
had discovered the CIA cable relating to the source’s identification of
“Khallad” from the Kuala Lumpur surveillance photographs in early January
2001. John began the e-mail by announcing “OK. This is important.” He then
described Khallad as a “major league killer who orchestrated the Cole attack
and possibly the Africa bombings.” The e-mail recommended revisiting the
Malaysia meetings, especially in relation to any potential information on
Khallad. Significantly, John ended the e-mail asking, “can this [information]
be sent via CIR to [the FBI]?”
     Despite John’s recommendation that this information be forwarded to the
FBI in a CIR, we found no evidence indicating that the CIA provided this
information to the FBI until August 30, 2001, which, as we describe below,
was after the FBI learned about Mihdhar’s presence in the United States.

                                       298
      In a response e-mail dated July 13, 2001, a CTC Bin Laden Unit
supervisor stated that Mary had been assigned to handle the request for
additional information on the Malaysia meetings. In addition, the e-mail stated
that another FBI detailee to the CTC, Dwight, who was out of the office at the
time, would be assigned to assist Mary upon his return.
      Later in July, Mary drafted a cable to another CIA office requesting
follow-up information about the Malaysia meetings. The cable included a
reference to the source’s identification of Khallad in one of the Kuala Lumpur
photographs and that Khallad and Mihdhar had been in Malaysia at the same
time, possibly together. A week later, the CTC supervisor forwarded the cable
to John for his review prior to release, and the cable was sent to the office to
which it was addressed three days after that.
      On the same day she drafted the cable referencing the source’s
identification of Khallad, Mary located one of the CIA cables referencing
Mihdhar’s possession of a U.S. visa. On the same date, Mary also reviewed
the CIA cable that stated this visa information had been passed to the FBI in
January 2000. 234
       In early August, Mary and Donna continued to discuss the Kuala Lumpur
photographs. In an e-mail on August 7 from Donna to Mary, Donna requested
a copy of the flight manifest for Mihdhar’s January 2000 trip to Malaysia in
order to determine whether Quso had traveled with Mihdhar. She also asked,
“if we could get the pictures cleared to show Al-Quso.” 235 She continued, “the
reasoning behind this would be that first, we do not have a concensous [sic]
that the individual with Midhar [sic] is in fact Al-Quso . . . [second] to
determine if Al-Quso can identify Midher by an other [sic] name.” Donna then
discussed her continuing efforts to track telephone number information
developed in the investigation. At the close of the e-mail, Donna wrote, “I plan
to write something up, but perhaps we should schedule another sit down to
compare notes on both sides. Let me know.”

    234
       As discussed above, we found no evidence that this information had, in fact, been
provided to the FBI.
    235
       Apparently the desk officer was unaware that clearance had been received and that
the photographs had been shared with Yemeni officials.



                                           299
      In a response e-mail on the same date, Mary wrote, “okay, all sounds
good.” Mary also wrote that she thought Donna had Mihdhar’s flight manifest
because John had mentioned it, but Mary indicated she would find the
manifest. She wrote, “I think we will be able to clear the pictures, they are for
passage to Quso, right?” Mary also asked whether the FBI would be able to
meet with Quso again. Mary ended the e-mail, “I think a sit down again would
be great” and mentioned the potential logistics of arranging the meeting.
      In another e-mail exchange on August 7, Donna thanked Mary and
advised her that the FBI would again have access to Quso. Donna continued
by stating that the Kuala Lumpur photographs also would be passed to a
foreign government because Quso was currently in its custody. She stated that
John could call if he had any questions. Donna tentatively scheduled a meeting
with Mary at FBI Headquarters on August 15, 2001. However, it appears that
the meeting did not take place. 236

           2.   Discovery of Mihdhar’s entry into the United States
      On August 21, Mary located the CIA cables referencing Hazmi’s travel
to the United States on January 15, 2000. 237 Mary checked with a U.S.
Customs Service representative to the CTC about Hazmi’s and Mihdhar’s
travel. She discovered that Mihdhar had entered the United States on July 4,
2001, and had not departed. In addition, she confirmed that Hazmi had
traveled to the United States in January 2000.
     Mary immediately relayed to Donna in a voicemail message on
August 21 that Mary had something important to discuss with her. Donna was
on annual leave on August 21. Mary told the OIG she did not have an

    236
        Mary told the OIG that she took a week of annual leave during August, which she
thought was during that week, and she thought that the meeting therefore had not occurred.
Although the e-mail references a meeting, Mary and Donna both told us that they had no
recollection of any meeting on August 15 or any one prior to August 22.
    237
        Mary was copied on an e-mail from John to Peter in mid-May, 2001, in which John
discussed the travel of Mihdhar and others who appeared to be “couriers on a sort.” In this
e-mail John stated, among other things, that “Nawaf” [Hazmi] had traveled with someone
from Bangkok to Los Angeles to Hong Kong. Mary stated to the OIG that she received this
e-mail before she was “up to speed” on the Malaysia meetings.



                                           300
opportunity to focus on the Malaysia meetings until August, but upon
discovering on August 21 that Hazmi had traveled to the United States “it [the
importance of the information] all clicks for me.”
      On August 22, Mary met with Donna at FBI Headquarters and informed
her of Mihdhar’s July 4 entry and Hazmi’s travel to the United States in March
2000.238 Donna verified in INS indices Mihdhar’s recent entry. She also
learned that both Mihdhar and Hazmi had entered the United States on January
15, 2000, and that they were allegedly destined for the Sheraton Hotel in Los
Angeles, California. The INS records showed Mihdhar had departed the
United States from Los Angeles on June 10, 2000, on Lufthansa Airlines. No
departure record could be located for Hazmi. An INS representative advised
Donna that departure information often was not captured in INS indices. 239
Therefore, she incorrectly surmised Hazmi had also departed on June 10,
2000.240
      Further INS indices checks confirmed Mihdhar had re-entered the U.S.
on July 4, 2001, at the JFK Airport in New York, allegedly destined for the
“Marriott hotel” in New York City. By the terms of his entry, Mihdhar was
authorized to remain in the United States until October 3, 2001. The INS had
no record indicating Mihdhar had departed the United States as of August 22,
2001.
     Mary and Donna met with John on August 22 in his office at FBI
Headquarters to discuss their discovery that Mihdhar recently had entered the
United States and there was no record of his departure. All of them said they
could not recall the specifics of the conversation, but all agreed that they



    238
        There is some discrepancy in witness statements on whether this meeting occurred
on August 22 or August 23. Although it is unclear on which date this meeting occurred, we
believe the meeting occurred on August 22, 2001.
    239
      The problem of INS departure records not being complete or accurate is described in
an August 2001 OIG report entitled “The Immigration and Naturalization Service’s
Automated I-94 System.”
    240
       Investigation conducted after September 11 found that Hazmi had remained in the
United States.



                                          301
realized it was important to initiate an investigation to determine whether
Mihdhar was still in the United States and locate him if he was.
      On August 22, 2001, Donna sent an e-mail to the New York FBI Special
Agent who we call “Glenn.” He was one of the agents assigned to the Cole
investigation. In the e-mail, Donna advised Glenn that she had obtained
Mihdhar’s flight manifest. Donna also wrote, “the reason they [the intelligence
community] were looking at Midhar [sic] is relatively general – basically they
were looking at all individuals using the name Khalid because of some threat
information.” Significantly, the e-mail also advised that the CIA had
additional surveillance photographs beyond those she had taken to New York,
and the source had identified one of the individuals in these additional
photographs as Khallad. Donna said that she was “requesting the details on
that [Khallad’s identification].” Donna also stated in her e-mail that the
clearance to show the Kuala Lumpur surveillance photographs to Quso should
not be a problem. 241
      This e-mail was the first reference we identified that the FBI had been
informed of additional Kuala Lumpur surveillance photographs in the CIA’s
possession. It is also the first reference in any FBI document to the
identification of Khallad in the Kuala Lumpur photographs.
     After her meeting with Donna on August 22, 2001, Mary asked another
CTC officer to draft a CIR to the State Department, INS, U.S. Customs
Service, and FBI requesting the placement of Mihdhar and his travel
companions, Hazmi and Salah Saeed Muhammed bin Yousaf, on U.S.
watchlists. 242 The CIR briefly outlined Mihdhar’s attendance at the Malaysia
meetings and his subsequent travel to the U.S. in January 2000 and July 2001.
On August 24, the State Department placed Mihdhar and his travel companions


    241
        Donna was unable to recall how she first discovered the information on the Khallad
identification. We were unable to find any documents or other evidence clarifying this
issue.
    242
        At this time, several agencies maintained separate watchlists. The State Department
watchlist was the VISA/VIPER system. Within VISA/VIPER, the TIPOFF system focused
on suspected terrorists. The INS maintained the LOOKOUT system, which was also
available to the Customs Service through TECS.



                                           302
on its terrorism watchlist. This is the first record of the placement of Mihdhar
or Hazmi on any U.S. watchlist.
     On August 23, 2001, Donna contacted the State Department and
requested a copy of Mihdhar’s most recent visa application from the U.S.
Consulate in Jeddah, Saudi Arabia.

            3.    The FBI’s intelligence investigation on Mihdhar

                  a.   Steps to open the investigation
      On August 23, Donna contacted her supervisor, an SSA who we call
“Rob,” regarding the information about Mihdhar’s travel to the United States.
As discussed in Chapter Three, Rob was the acting Unit Chief of the UBLU at
the time. 243
     After reviewing the information, Rob concurred with Donna that the
appropriate course of action would be to open an intelligence investigation in
New York, Mihdhar’s last known destination in the United States, to locate
Mihdhar.
      To expedite the investigative process and provide a “heads up [alert]” to
the New York Field Office that the information was coming, on August 23
Donna telephoned an agent on the Bin Laden squad in the New York Field
Office who we call “Chad.” To comply with the wall, the New York Field
Office had designated agents as either “criminal” or “intelligence,” and Chad
was an intelligence agent. Donna discussed with Chad Mihdhar’s most recent
entry into the United States and FBI Headquarters’ request for the New York
office to open a full field intelligence investigation to locate Mihdhar. Donna
told the OIG that she did not normally telephonically contact the field on these
types of issues, but there was some urgency to her request because the FBI did
not want to lose the opportunity to locate Mihdhar before he left the United
States. She told us, however, that Mihdhar’s significance continued to be his
potential connection to Khallad and the Cole attack – not that he was
operational in the U.S.

   243
         He was the acting Unit Chief of the UBL from June 28, 2001, until September 10,
2001.



                                            303
       Chad told the OIG that although he routinely worked with Donna, this
was the first time that Donna had relayed a need for urgency in an intelligence
investigation. Chad told us, however, that he questioned both the urgency and
the need for a separate intelligence investigation. Chad explained that the
attempt to locate Mihdhar seemed to relate to the criminal investigation of the
Cole attack, and efforts to locate an individual normally would be handled
through a sub-file to the main investigation and not as a separate full field
investigation. Nevertheless, he told Donna that New York would open an
intelligence investigation.
       On August 23, Donna sent an e-mail to John concerning her telephone
conversation with Chad. She advised in the e-mail that “[Chad] will open an
intel[ligence] case.” In the e-mail she also discussed a connection that had
been made between Mihdhar in Malaysia to another suspect in the Cole attack.
She wrote, “I am still looking at intel, but I think we have more of a definitive
connection to the Cole here than we thought.” She ended by stating that she
was working on the EC requesting a full field investigation, but doubted that it
would be completed that day.
       On August 27, Donna requested permission through the NSA
representative to the FBI to pass to the FBI agents working on the Cole
investigation the information associating Mihdhar with a suspected terrorist
facility in the Middle East linked to al Qaeda activities. Donna told the OIG
that she thought that the NSA information on Mihdhar could be useful to the
Cole criminal investigators, even if the Mihdhar search remained an
intelligence investigation.
      On the morning of August 28, Donna sent Chad a draft copy of an EC
requesting the intelligence investigation to locate Mihdhar. In the cover e-
mail, Donna stated, “here is a draft” and that the EC had not been uploaded due
to some tear line information that was not yet approved for passage. 244 She
concluded, “I do want to get this going as soon as possible.”
      The EC, entitled “Khalid M. Al-Mihdhar” with various aliases, stated in
the synopsis, “Request to open an intelligence investigation.” The EC outlined
Mihdhar’s travel to the United States in July 2001, his previous travel to the

   244
         According to the NSA, the request was approved later that same day.



                                            304
United States with Hazmi in January 2000, the background on and his
attendance at the Malaysia meetings, his association with a suspected terrorist
facility in the Middle East linked to al Qaeda activities, and similarities
between Mihdhar’s travel and that of Cole suspects Quso, Ibrahim Nibras, and
Khallad. As to the identification of Khallad in the Kuala Lumpur photographs
by the source, Donna told the OIG that she did not include this information
because it had not yet been officially passed to the FBI, although she had
requested the passage from a CTC Representative to the FBI. 245
      While Donna had relayed urgency to opening the investigation in her
telephone conversation with Chad and in her cover e-mail, she designated the
EC precedence as “routine,” the lowest precedence level. 246 She explained this
by saying this case was “no bigger” than any other intelligence case. She also
told us, however, that there was a time consideration because Mihdhar could be
leaving the United States at any time and that is why she had personally
contacted Chad.

                   b.   The FBI opens the intelligence investigation
     On August 28, Chad forwarded Donna’s draft EC to his immediate
supervisor, a Supervisory Special Agent who we call “Jason.” Jason became a
supervisor on the JTTF in the New York Field Office in 1996. He had been on
the New York JTTF since 1985.
      At approximately 2:00 p.m. on August 28, Jason forwarded the EC to
various agents on the Bin Laden squad, including the Cole criminal case agent
who we call “Scott.” In the cover e-mail, Jason directed the Relief Supervisor,
who we call “Jay,” to open an intelligence investigation and assign it to a
Special Agent who we call “Richard.” Jason also directed another agent to




    245
          This information officially was passed to the FBI in a CIR on August 30, 2001.
    246
        As discussed in Chapter Three, ECs are marked with a precedence level based on an
escalating scale beginning at “routine;” “priority,” connoting some urgency; and
“immediate,” connoting the highest level of urgency.



                                              305
check on an investigative lead related to Mihdhar while the agent was in
Malaysia. 247
      Scott received the EC on August 28. Scott, who had been at the June 11
meeting and had discussions with Donna about the Kuala Lumpur photographs,
contacted Donna to discuss the appropriateness of opening an intelligence
investigation as opposed to a criminal investigation. Donna told the OIG that
when she realized that the EC had been disseminated to Scott, she asked Scott
to delete it because it contained NSA information and therefore required
approval for review by criminal agents. Scott told the OIG that he deleted the
EC as she requested.
       Shortly thereafter, Scott, Donna, and Rob engaged in a conference call to
discuss whether the case should be opened as a criminal instead of an
intelligence investigation. Scott told the OIG that he argued that the
investigation should be opened as a criminal investigation due to the nexus to
the Cole investigation and the greater investigative resources that could be
brought to bear in a criminal investigation. Scott explained that more agents
could be assigned to a criminal investigation due to the squad designations. He
also asserted that criminal investigation tools, such as grand jury subpoenas,
were far quicker and easier to obtain than the tools available in an intelligence
investigation, such as a national security letter.
       Donna told the OIG that the information on Mihdhar was received
through intelligence channels and, because of restrictions on using intelligence
information, could not be provided directly to the criminal agents working the
Cole investigation. The only information that could be provided directly to
them was the limited INS information. She stated that without the intelligence
information on Mihdhar, there would have been no potential nexus to the Cole
investigation and no basis for a criminal investigation. Rob told the OIG he
had concurred with Donna’s assessment that the matter should be an
intelligence investigation. He added that there was also a process through



    247
        Jason told the OIG that he did not specifically recall this e-mail. He said he was out
of the office the majority of the time from June until September 11, 2001, due to a serious
medical condition, and he did not return to work full-time until September 11, 2001.



                                             306
which the information could potentially be shared with the criminal agents in
the future. 248
      Scott was not satisfied with that response, and he asked for a legal
opinion from the FBI’s National Security Law Unit (NSLU) whether the
investigation should be opened as a criminal matter relating to the Cole
criminal investigation. Additionally, Scott wanted a legal opinion on whether a
criminal agent could accompany an intelligence agent to interview Mihdhar if
he was located.
       According to Donna, she subsequently contacted the NSLU attorney who
we call “Susan” on August 28, and she and Rob discussed the issue with Susan.
It is unclear how she presented the matter to Susan because there were no
documents about the conversation and she and Susan had little or no
recollection of the specific conversation. Donna told the OIG that she provided
the EC to Susan. According to Donna, Susan agreed with her that the matter
should be opened as an intelligence investigation. Donna said Susan also
advised that a criminal agent should not be present for an interview of Mihdhar
if he was located. During an OIG interview, Susan said she could not
specifically recall this matter or the advice she gave. Rob told the OIG that he
did not recall the specifics of this consultation, but he stated that the NSLU
opinion was supportive of FBI Headquarters’ determination that the case
should be opened as an intelligence investigation.
     At approximately 7:30 a.m. on August 29, Donna sent an e-mail to Jason,
which stated:
      I think I might have caused some unnecessary confusion. I sent
      the EC on Al-Midhar [sic] to [Chad] via email marking it as
      DRAFT so he could read it before he went on vacation. There is
      material in the EC…which is not cleared for criminal
      investigators. [Scott] called and [Rob] and I spoke with him
      and tried to explain why this case had to stay on the intel. side of
      the house…In order to be confident…for this case to be a 199,

    248
       Rob told the OIG that the squad’s Supervisory Special Agent acted as “the wall”
between intelligence and criminal investigations during this period, and Jason could
subsequently open a criminal investigation if warranted.



                                           307
      and to answer some questions that [Scott] had, [Rob] and I
      spoke with the NSLU yesterday afternoon 249 …The opinion is as
      follows: Al-Mihdar [sic] can be opened directly as a FFI [Full
      Field Investigation]…The EC is still not cleared for criminal
      investigators…Per NSLU, if Al-Mihdar [sic] is located the
      interview must be conducted by an intel agent. A criminal agent
      CAN NOT be present at the interview. This case, in its entirety,
      is based on intel. If…information is developed indicating the
      existence of a substantial federal crime, that information will be
      passed over the wall according to the proper procedures and
      turned over for follow-up criminal investigation. 250
      Approximately 15 minutes after sending the e-mail to Jason, Donna sent
an e-mail to Scott with the same language advising that the NSLU agreed the
investigation should be an intelligence investigation and a criminal agent could
not attend the interview if Mihdhar was located. That same morning, Scott
responded in an e-mail to Donna stating:
      …where is the wall defined? Isn’t it dealing with FISA
      information? I think everyone is still confusing this
      issue…someday someone will die – and wall or not – the public
      will not understand why we were not more effective and
      throwing every resource we had at certain ‘problems.’ Let’s
      hope the National Security Law Unit will stand by their
      decisions then, especially since the biggest threat to us now,
      UBL, is getting the most ‘protection’.
      Later that morning, Donna replied in an e-mail:
      I don’t think you understand that we (FBIHQ) are all frustrated
      with this issue. I don’t know what to tell you. I don’t know
      how many other ways I can tell this to you. These are the rules.

    249
     Rob told the OIG that he could not recall whether he had talked to anyone from the
NSLU about this issue.
    250
        Rob told the OIG that the New York Field Office technically could have ignored
Headquarters’ recommendation and opened a criminal investigation. However as a practical
matter, the field would not normally ignore Headquarters’ decision.



                                          308
      NSLU does not make them up and neither does UBLU. They
      are in the MIOG 251 and ordered by the [FISA] Court and every
      office of the FBI is required to follow them including FBINY…

           4.   The New York Field Office’s investigation
       On August 29, 2001, the FBI’s New York Field Office opened a full field
intelligence investigation to locate Mihdhar. The investigation was assigned to
a Special Agent who we call “Richard.” Richard was a relatively
inexperienced agent, who had recently been transferred to the Bin Laden
squad. 252 This was Richard’s first intelligence investigation.
       On August 29, Donna received Mihdhar’s visa application from the U.S.
Consulate in Jeddah. The application indicated that Mihdhar planned to travel
as a tourist to the United States on July 1, 2001, for a purported month long
stay. On the application, Mihdhar falsely claimed that he had not previously
applied for a U.S. non-immigrant visa or been in the United States. 253
      On August 30, 2001, Donna sent an e-mail to Richard. After a paragraph
introducing herself, Donna advised she was attaching Mihdhar’s visa
application form, which included Mihdhar’s photograph, and that she would be
faxing the remaining documents. Donna stated she would send a couple of
pages from the Attorney General Guidelines “which apply to your case” and
then she would mail the documents.
      Richard told the OIG that on August 30, he received a telephone call
from Donna in reference to the investigation. He said that Donna said the goal
of the intelligence investigation was to locate and identify Mihdhar for a


    251
       The MIOG is the FBI operational manual - Manual of Investigative Operations and
Guidelines. Donna asserted this reference actually related to the Attorney General’s FCI
Guidelines that are contained in the MIOG.
    252
        Richard began working in the New York Field Office after graduating from the FBI
Academy in June 2000. After serving briefly on an applicant squad, a drug squad, and a
surveillance squad, Richard was assigned to the UBL squad in July 2001.
    253
     Donna said she did not notice this discrepancy. As we discuss below, neither did the
New York FBI.



                                          309
potential interview. According to Richard, Donna did not indicate the
investigation was an emergency or identify any other exigent circumstance.
      On August 30, 2001, the CIA sent a CIR to the FBI outlining the
identification of “Khallad” from one of the Kuala Lumpur surveillance
photographs in January 2001 by the source. The first line of the text stated the
information should be passed to Rob. The CIA cable stated the FBI should
advise the CIA if the FBI did not have the Kuala Lumpur photographs so they
may be provided. This is the first record documenting that the source’s
identification of Khallad in the Kuala Lumpur photographs was provided by
the CIA to the FBI.
      Richard told the OIG that he began to work on locating Mihdhar on
September 4. He stated that he had received the assignment on Thursday,
August 30, but he worked all weekend and Monday on another exigent
investigative matter involving a Canadian hijacking. As a result, he said he did
not have the opportunity to begin work on the Mihdhar investigation until
Tuesday, September 4.
      On September 4, Richard completed a lookout request for the INS,
identifying Mihdhar as a potential witness in a terrorist investigation. Due to
his unfamiliarity with completing the lookout form, Richard contacted an INS
Special Agent who was assigned to the FBI’s JTTF in New York. We call this
Special Agent “Patrick.” The INS lookout form has a box indicating whether
the individual was wanted for “security/terrorism” reasons. Richard did not
check this box. He said that he thought Patrick told him to identify the subject
on the form as a witness, not a potential terrorist, to prevent overzealous
immigration officials from overreacting. By contrast, Patrick, who was
assigned to the JTTF since September 1996, told us that he did not provide this
advice to Richard and he always checked the security/terrorism box whenever
he completed the lookout form for a potential witness in a terrorism
investigation.
    However, Richard asked Patrick to review the lookout request form for
completeness, and Patrick sent the form to INS Inspections for inclusion in the




                                      310
INS lookout system, without making any changes. 254 During his initial
interview with the OIG, Richard asserted that he also asked Patrick to review
and explain Mihdhar’s travel documents, including the INS indices printouts
and the visa application. In a follow-up interview, Richard said he could not
definitively recall whether he had actually provided the predicating materials to
Patrick or whether he merely had Patrick review the INS lookout request form.
       Patrick told the OIG that he recalled this request because it was the first
one from Richard and because of Mihdhar’s subsequent involvement in the
September 11 attacks. Patrick stated that he had not reviewed the predicating
materials, but had only checked the request form for completeness. He added
that if he had been shown any of the predicating materials on Mihdhar’s travel,
the review would only have been cursory. Patrick and Richard both
acknowledged that they did not notice the false statements on Mihdhar’s visa
application.
      Richard also contacted a U.S. Customs Service representative assigned to
the JTTF and verified that a TECS lookout was in place for Mihdhar. Richard
conducted other administrative tasks such as uploading the initial information
about Mihdhar into ACS.
      On September 4, Richard requested a local criminal history check on
Mihdhar through the New York City Police Department. Richard told the OIG
that he initially focused on Mihdhar, since he was captioned as the subject of
the investigation in the predicating EC. After reviewing the EC several times,
Richard noted the connection to Hazmi, so he conducted the same record
checks on Hazmi as he had on Mihdhar. On September 5, Richard requested
an NCIC criminal history check, credit checks, and motor vehicle records be
searched in reference to Mihdhar and Hazmi.
      On September 5, Richard and another JTTF agent contacted the loss
prevention personnel for the New York area Marriott hotels, since Mihdhar had
indicated when he entered the United States in July 2001 that his destination


    254
        Patrick explained that agents often provided just the information and he completed
the lookout form, but “new” agents often completed the form themselves. Patrick estimated
he received approximately 10 lookout requests each month.



                                           311
was the Marriott hotel in New York. Richard learned that Mihdhar had not
registered as a guest at six New York City Marriotts.
      Richard stated he also conducted Choicepoint™ searches on Hazmi and
Mihdhar. 255 Richard said he recalled he had another JTTF officer assist him
with the searches because he was not familiar with the system. Richard did not
locate any records on either Hazmi or Mihdhar in Choicepoint™. 256 Richard
told the OIG that it was not uncommon not to find a record because of
variations in spelling of names or other identifying information.
       Hazmi and Mihdhar had traveled to Los Angeles, California on January
1, 2000, via United Airlines, and INS records indicated that they claimed to be
destined for a “Sheraton hotel” in Los Angeles. Therefore, on September 10,
2001, Richard drafted an investigative lead for the FBI Los Angeles Field
Office. He asked that office to request a search of the Sheraton hotel records
concerning any stays by Mihdhar and Hazmi in early 2000. He also requested
that the Los Angeles office check United Airlines and Lufthansa Airlines
records for any payment or other information concerning Mihdhar and Hazmi.
However, the lead was not transmitted to Los Angeles until the next day,
September 11, 2001.
      By the morning of September 11, when the American Airlines flight 77
that Mihdhar and Hazmi hijacked and crashed into the Pentagon, Richard had
not uncovered any information regarding Mihdhar’s or Hazmi’s location in the
United States.

           5.   OIG conclusions on the intelligence investigation
     Although FBI and CIA personnel had many discussions throughout July
and August 2001 about the Cole attacks and the Malaysia meetings, the CIA


    255
        Choicepoint™ is a commercial service that mines information such as names,
addresses, phone numbers, and other identifying information from public sources (such as
telephone directories, local taxing authorities, and court records), as well as purchase
information from merchants or other companies. The information is then consolidated into a
large database and is accessible to law enforcement and other subscribers for a fee.
    256
       After September 11, however, the FBI located records on Hazmi in this commercial
database.



                                          312
did not provide and the FBI did not become aware of the significant
intelligence information about Mihdhar’s U.S. visa, the Malaysian matter, and
the identification of Khallad in the Kuala Lumpur photographs until August 22,
2001. In May 2001, one detailee to the CTC was assigned to “get up to speed”
on the Malaysian matter in her spare time but said she had been unable to focus
on the matter until August 2001. On July 13, even after John had suggested in
an e-mail to the CTC that the Khallad identification from the Kuala Lumpur
photographs be passed to the FBI via CIR, this was not done for several weeks.
The CIR was not sent to the FBI until August 30, after the FBI learned of
Mihdhar’s presence in the United States.
       The CIA also did not provide to the FBI the information about Hazmi’s
travel to the United States in January 2000 until August 22. Donna stated that
she did not receive this information until August 22, and her actions upon
receipt of the information clearly indicate that she understood the significance
of this information when she received it. She took immediate steps to open an
intelligence investigation when she learned of this information.
       On August 22, once the FBI was aware of the intelligence information
about Mihdhar and that he was in the United States, the FBI took steps to open
an intelligence investigation to locate him. Yet, the FBI did not pursue this as
an urgent matter or assign many resources to it. It was given to a single,
inexperienced agent without any particular priority. Moreover, the dispute
within the FBI about whether to allow a criminal investigation to be opened
again demonstrated the problems with the wall between criminal and
intelligence investigations. The FBI was not close to locating Mihdhar or
Hazmi when they participated in the terrorist attacks on September 11, 2001.
In the analysis section of this chapter, we address in more detail the FBI’s
decision to open the matter as an intelligence investigation instead of a criminal
investigation, and the inadequacy of the FBI’s efforts to investigate Mihdhar in
late August and early September 2001.

     F.   Summary of the five opportunities for the FBI to learn about
          Mihdhar and Hazmi
      In summary, there were at least five opportunities for the FBI to have
learned about Mihdhar and Hazmi, including their connection to the purported
mastermind of the Cole attack and their presence in the United States, well
before the September 11 attacks. First, in early 2000, the FBI received the

                                       313
NSA information about Mihdhar’s planned travel to Malaysia. Although the
CIA informed the FBI of the Malaysia meetings in January 2000, the existence
of Mihdhar’s U.S. visa and the surveillance photographs was not disclosed to
the FBI. FBI detailees at the CTC read the pertinent CIA cable traffic with this
information and drafted a CIR to pass this information to the FBI. But the CIR
was not released to the FBI, purportedly at the direction of a CIA supervisor,
and the FBI did not learn of this critical information until August 2001. In
addition, in March 2000 a CIA office discovered that Hazmi had traveled to the
United States in January 2000, but no one from the CIA shared this information
with the FBI.
      Second, in February 2000, Mihdhar and Hazmi moved to San Diego,
where they were aided in finding a place to live by the former subject of an FBI
preliminary inquiry. In May 2000, Hazmi and Mihdhar moved in with an FBI
asset in San Diego, California. However, the FBI did not learn of this
information until after the September 11 attacks.
      Third, in early January 2001, the CIA showed the Kuala Lumpur
surveillance photographs to a joint CIA/FBI source, and the source stated that
“Khallad” was in one of the photographs. This identification could have led
the FBI to focus on who else was at the Malaysia meetings with Khallad, the
purported mastermind of the Cole attacks, which could have led the FBI to
identify and locate Mihdhar. However, we concluded that, despite the CIA’s
assertions, the source’s identification of Khallad in these photographs was not
known by the FBI.
       Fourth, in May and June 2001, due to concerns about possible terrorist
activities, CIA employees were again examining the Kuala Lumpur
photographs, Hazmi’s and Mihdhar’s travel (including Hazmi’s travel to Los
Angeles), and the identification of Khallad in the Kuala Lumpur photographs.
At the same time, these CIA employees were discussing with FBI employees
the Cole investigation and the Kuala Lumpur photographs. Yet, despite these
interactions between the two agencies on the telephone, in e-mails, and in a
June 11 meeting in New York, the FBI never was informed of the critical
intelligence information that Khallad was identified in the Kuala Lumpur
photographs with Mihdhar, and that Hazmi had traveled to the United States.
Again, this information could have led the FBI to initiate a search for Hazmi
and Mihdhar earlier than it eventually did.


                                      314
       Fifth, in July 2001 a former Bin Laden Unit Deputy Chief who was
working in ITOS in FBI Headquarters confirmed that Khallad had been
identified in the Kuala Lumpur photographs and wrote in an e-mail to CTC
managers that this information needed to be sent in a CIR to the FBI.
However, this information was not sent in a CIR to the FBI until several weeks
later. On August 22, an FBI employee detailed to the CTC notified the FBI
that Mihdhar had entered the United States on July 4, 2001. The FBI began an
intelligence investigation to locate Mihdhar and Hazmi. However, the FBI
assigned few resources to the investigation and little urgency was given to the
investigation. The FBI was not close to locating Mihdhar and Hazmi before
they participated in the September 11 attacks.

IV. OIG’s analysis of the FBI’s handling of the intelligence information
    concerning Hazmi and Mihdhar
      We found systemic and individual failings in the FBI’s handling of the
Hazmi and Mihdhar matter. As a result of these failings, there were at least
five opportunities for the FBI to connect information that could have led to an
earlier investigation of Hazmi and Mihdhar and their activities in the United
States.
       In this analysis section, we first discuss the systemic problems involving
the breakdowns in the gathering or passing of information about Hazmi and
Mihdhar between the FBI and CIA. We then turn to the problems in handling
intelligence information within the FBI. Finally, we discuss the actions of
individual FBI employees in handling information about Hazmi and Mihdhar
information.
      In this section, we do not make recommendations regarding the actions of
the CIA and its employees. We believe the CIA shares a significant
responsibility for the breakdowns in the Hazmi and Mihdhar case, and that
several of its employees did not provide the intelligence information to the FBI
as they should have. We leave it to the CIA OIG, the entity with oversight
jurisdiction over the CIA and its employees, to reach conclusions and make
recommendations on the actions of the CIA and its employees.




                                       315
     A. Systemic impediments that hindered the sharing of information
        between the CIA and the FBI
      The most critical breakdown in the Hazmi and Mihdhar case was the
failure of the FBI to learn from the CIA critical information about them; their
travel to the United States; and their association with Khallad, the purported
mastermind of the Cole attack. These breakdowns reflected serious problems
in the process before the September 11 attacks for sharing information between
the FBI and the CIA.
       The FBI failed to receive from the CIA three critical pieces of
intelligence about Mihdhar and Hazmi in a timely manner:
     • Mihdhar’s possession of a valid, multiple-entry U.S. visa;
     • Hazmi’s travel to the United States; and
     • The identification of Khallad in a surveillance photograph of the
        Malaysia meetings attended by Hazmi and Mihdhar and other al Qaeda
        operatives in January 2000.
      The CIA became aware of these three pieces of intelligence in January
2000, March 2000, and January 2001. Despite claims to the contrary, we
found that none of this information was passed from the CIA to the FBI until
August 2001. Although the CIA failed to timely pass this information to the
FBI, there were several opportunities for the FBI to have obtained this
information in other ways. But significant systemic problems, which we
describe below, hindered the flow of information between the CIA and the FBI.
          1.   Use of detailees
       One of the most significant opportunities for the FBI to have obtained the
intelligence information relating to Hazmi and Mihdhar was through the FBI
detailees at the CTC. As discussed above, the FBI detailees to the CTC had
access to CIA cable traffic and could read the cables that discussed Mihdhar’s
U.S. visa, the surveillance of the meetings of al Qaeda operatives in Malaysia,
Hazmi’s subsequent travel to the United States, and the Khallad identification
from the Kuala Lumpur photographs. Several of the FBI detailees accessed
and read some of these cables. Significantly, in January 2000, one detailee,
Dwight, prepared a draft CIR to pass to the FBI the information about
Mihdhar’s visa, his al Qaeda connections, and his travel to Malaysia. The FBI


                                       316
should have been informed of this information because of its clear domestic
nexus.
      However, the CIR was never sent to the FBI. According to a note on the
CIR, John, a Deputy Chief of the Bin Laden Unit, directed that the CIR be
placed on hold, and FBI detailees did not have authority to disseminate CTC
information without approval from the CIA. Eight days later, Dwight inquired
about the disposition of the CIR through an e-mail to John asking whether
anything needed to be changed on the cable. However, this e-mail failed to
prompt further action on this CIR. The witnesses we interviewed had no
recollection of the CIR and why it was not sent. We found no further record
that anything was done with regard to the CIR.
      In our view, the CIA should have sent the CIR to the FBI because of the
important information it contained, and the FBI detailee should have followed
up to ensure that it was sent. While we found evidence that Dwight inquired
about its status at least once, there is no evidence that he took any other action
to ensure that the information was sent to the FBI, including inquiring with
other CTC supervisors about the need to send the cable to the FBI.
      In reviewing the actions of the detailees, we found that the FBI lacked
clear guidance on the role and responsibilities of FBI detailees to the CTC’s
Bin Laden Unit. This led to inconsistent expectations about what they were
supposed to be doing at the CTC. Our review of the documents and interviews
with the five FBI detailees to the CTC’s Bin Laden Unit found that none of
them had defined duties that were clearly understood, either by them or FBI
managers. Nor were there any memoranda of understanding (MOU) between
the FBI and the CIA setting out the job duties and responsibilities of any of the
detailees. 257
      Moreover, we asked the FBI for the performance appraisals for all five of
the detailees to the Bin Laden Unit during this period, and we received


    257
       We asked both the FBI and the CIA for any memoranda of understanding between
the agencies specifying the job duties of any of the detailees. The only MOUs we received,
which were provided by the CIA, related to the administrative nature of the details, such as
time and attendance reports, travel and training expenses, security clearances, and medical
coverage. The MOUs did not address their substantive duties or responsibilities.



                                            317
appraisals for three of them. They revealed that the FBI detailees were
evaluated based on the elements for their positions at the FBI, not based on
whatever they were supposed to be doing while working at the CTC. 258 The
FBI was unable to provide any other documents defining or outlining the roles
or responsibilities of these detailees.
      We also interviewed the detailees about their understanding of their roles
and responsibilities at the CTC. They stated that they were not given any
specific instructions about their job duties. They described their details at the
CTC as ill-defined and with little direction. As a result, each detailee defined
the job at the CIA as he or she determined it to be, and there was significant
variation in their conceptions of the job.
      For example, Dwight told the OIG that he focused on leads that were
related to financial components of terrorism, which he developed from various
sources, such as from reviewing cable traffic, from his supervisors at the CTC,
and from referrals from CIA officers at the CTC. By contrast, Malcolm told
the OIG that he thought he was the “eyes and ears” of the New York Field
Office, and that his role was “to monitor” cases being worked jointly by the
CIA and the New York Field Office, such as the East African embassy
bombings investigation. He said that he also would follow up on requests for
information from the FBI to the CIA. Moreover, Mary said she was not given
any specific instructions about her role at the CIA, but she was eventually
trained to be a CTC desk officer and that was how she operated – like other
CTC desk officers with specific assignments or “accounts.”
      Eric, who was a Bin Laden Unit Deputy Chief, said that he was told “to
fix” the relationship between the Bin Laden Unit and the FBI, but he was not
given any specific instructions about how to go about accomplishing this
objective. He said that he assisted in the running of the Bin Laden Unit by
directly overseeing CTC operations and that he also functioned in a liaison role
between the CIA and the FBI. He supervised the FBI detailees like he did
other Bin Laden Unit employees. He was not given any other supervisory

    258
       For a fourth detailee, Mary, the FBI produced only a performance plan but no
appraisal reports. The performance plan was related to her duties as an FBI IOS. Mary told
the OIG that she was directed by CTC management based on her work as a CIA desk officer
and was not evaluated by FBI personnel.



                                           318
oversight particular to the detailees. He said that on his own initiative he tried
to stay abreast of matters that might be of interest to the FBI by reading the
CTC cable traffic. However, he explained that determining what might be of
interest to the FBI was very subjective because there were no criteria defining
what should be brought to the attention of the FBI.
       We also interviewed the highest-ranking FBI employee detailed to the
CTC, who was a Deputy Chief of the CTC from 1999 through 2002. We call
him “Evan.” Evan believed that one of the FBI detailees’ functions would
have been to review CIA cable traffic for information of potential relevance to
the FBI. Yet, the detailees told the OIG that while reviewing CIA cable traffic
was part of their jobs, it was not their function to review cable traffic for items
of interest to the FBI, and they did not review all of the cable traffic on a daily
basis. They said they did not think they were acting as backstops to ensure that
anything that might be relevant to the FBI was brought to the FBI’s
attention. 259 The detailees asserted emphatically that their function did not
entail scouring CIA cable traffic for the FBI, and their efficacy would be
limited if they were perceived by CIA personnel merely as moles for the
FBI. 260 They also explained that even if this had been their role, it would have
been difficult to do because of the volume of cables, especially during the
chaotic Millennium period.
      The two FBI employees who held similar supervisory positions – one as
a deputy chief in the Bin Laden Unit and the other as a deputy chief in another
unit that later housed the Bin Laden Unit – also had differing views on their
responsibility for reviewing cable traffic. Both agreed that their role was not
merely to review cable traffic for items of interest to the FBI. Eric told the


    259
        We also interviewed the first FBI employee detailed in March 1996 to Bin Laden
Unit soon after it was created. This detailee was an agent from the FBI’s New York Field
Office, and he remained at the CTC until August 1998. He said that he did not attempt to
review all of the cable traffic. He indicated, however, that when he did locate information of
interest to the FBI, he did not encounter problems obtaining the CIA’s permission to share
this information with the FBI.
    260
        Some CIA employees we interviewed stated that they, by contrast, believed that this
was the function of the New York Field Office detailee. We discuss this further in the next
section.



                                            319
OIG that while he tried to review the traffic in order to stay abreast of the
information in the CTC, it was too much for one person to manage effectively.
By contrast, Craig, who followed Eric as a manager detailed to the CTC, told
the OIG that he did not even attempt to review the cable traffic but only
focused on those cables that required action on his part.
      In addition to failing to clearly define the roles and responsibilities of the
detailees, the FBI did not provide oversight of the detailees. Eric acted as one
of two deputy chiefs within the Bin Laden Unit. After Eric left the CTC, Craig
was a deputy chief in a much larger unit that included the Bin Laden Unit.
Both said that they performed day-to-day supervision of the detailees in the
same manner in which they supervised the other CTC employees assigned to
their groups. 261 According to Eric and Craig, they did not focus specifically on
the role of FBI detailees.
      Evan told the OIG that he did not supervise any of the detailees, and he
had no authority to oversee their duties or direct their activities, except by
virtue of his position as a senior manager within the FBI. He said that they
were evaluated by their chain of command in the FBI office from which they
had been assigned, which is supported by the limited documents we reviewed.
We found that there was no oversight by the FBI of the detailees based on their
function as detailees.
       The FBI’s failure to adequately oversee the detailees is illustrated by the
role of Mary, the only FBI analyst detailed to the Bin Laden Unit. She has
been detailed to the CIA since 1998. Mary had the opportunity to learn
valuable analyst skills by working alongside CTC personnel and then use those
skills at the FBI. Additionally, the detail provided an opportunity to learn
about the CIA infrastructure and establish liaison contacts at the CIA.
      Mary told us that she operated as a full-fledged CIA desk officer, and that
she has worked with FBI personnel during her detail but from the position of a
CIA employee, not an FBI employee. We believe there needs to be a review of
the duration of these details to ensure the value of these details is maximized.

    261
       Eric left the CTC in mid-January 2000, and Craig did not arrive at the CTC until July
2000. Thus, between mid-January and July 2000 the FBI had no supervisory presence for
the FBI employees detailed to work Bin Laden matters at the CTC.



                                           320
At a time when the FBI is concerned about the shortage of qualified analysts to
do the work it has, a 5-year detail of an FBI analyst working as a CTC
employee warrants review by the FBI. 262
      The same lack of oversight and direction was evident regarding the work
of Malcolm, the FBI New York Field office detailee to the CTC. He had been
traveling to the CTC from New York on a weekly basis for four years, until
January 2003. On Mondays he traveled from New York to the CTC, stopping
by FBI Headquarters. On Fridays he stopped by FBI Headquarters on his way
back to New York. After the bombing of the Cole, he spent at least half of his
days in Washington, D.C. at FBI Headquarters. Thus, he was frequently away
from the CTC and not in a position to maximize his potential for obtaining
information at the CTC. This also left the perception with other CTC
employees that he was not fully integrated into the CTC.
      We found that that the FBI lacked a systematic approach to its use of
detailees at CTC’s Bin Laden Unit. The detailees could have functioned in one
of three ways – as fully integrated members of the CTC working unilaterally
on CTC matters, as backstops ensuring all pertinent CTC information was
forwarded to the FBI, or in some combination thereof. While there are
potential benefits to using the detailees in any of these functions, the potential
benefits were not maximized because there was no clear understanding of the
detailees’ roles and no system to ensure that any objectives were met. The lack
of oversight over FBI detailees to the CTC resulted in squandering critical
opportunities for information sharing between the CIA and FBI.
       We also found significant misunderstandings between employees of these
two agencies regarding their respective responsibilities for information sharing.
First, as noted above, we found that some CIA employees believed that FBI
detailees had more responsibility for reviewing the CIA cable traffic than the
FBI detailees believed that they had. One CIA Bin Laden Unit employee told
the OIG that the CIA was not going to “spoon feed” information to the FBI and
that the FBI personnel at the Bin Laden Unit had access to all of the CIA cable
traffic. She stated that while the CTC provided to the FBI intelligence


    262
       The OIG is in the process of completing a comprehensive review of FBI’s analyst
program.



                                          321
information that contained a domestic nexus, she did not believe it was the
CIA’s responsibility to provide all of the predicating material, since the FBI
detailees also had access to the same cables. In addition, CIA personnel
described FBI detailee Malcolm as a “mole” for the FBI’s New York Office,
suggesting they thought he was reading CIA cables for the express purpose of
reporting back to the New York Field Office on what he found.
      In addition, we found that a similar misunderstanding existed among FBI
employees in New York with respect to the role of the CIA employee detailed
to the FBI’s New York Field Office. A CIA employee assigned to the JTTF in
the New York Field Office had a desk in that office’s sensitive compartmented
information facility (SCIF). 263 FBI agents in the New York Field Office
asserted to the OIG that this individual was knowledgeable regarding their
investigations and that he was responsible for reviewing CIA traffic, finding
items of interest to the FBI, and bringing this information to the attention of
appropriate New York agents.
       The CIA employee, however, denied that this was his role. He told the
OIG that he had been sent to the New York Office to “improve the relationship
between the CIA and the FBI” and that he provided the FBI with CIA
intelligence that was designated for the FBI New York Field Office’s review.
He stated, however, his job was not to “spoon feed” information but only to
make it accessible to the agents in New York. This meant that he would print
information obtained from CIA databases that was of potential interest to the
FBI New York Field Office and make that information available for review in
the SCIF if FBI agents decided to come and review it. But, apparently
unknown to many New York FBI agents, he believed the onus was on FBI
personnel to come into the SCIF and see if any new, relevant information had
arrived, rather than to alert them to that information. He also said that while he
generally knows what the various FBI squads are investigating, the New York
JTTF has over 300 members and he could not reasonably be expected to have
knowledge of all their investigative interests. He said that if he spent his time

    263
        The FBI agents do not routinely work in a SCIF area. The computers on which they
access ACS do not contain sensitive compartmented information or materials classified
above Secret. Because a high percentage of CIA traffic contains this information, the CIA
detailee must work in a separate area.



                                          322
solely looking for information of interest to the FBI, he would never get any
work done.
      As a result, FBI agents in New York believed they were receiving from
this CIA employee assigned to the JTTF all of the CIA information of interest
to the FBI, when in fact they were not. Therefore, the New York agents could
have received information on Hazmi and Mihdhar directly through their own
CIA employee, but they misunderstood the process.

          2.   FBI employees’ lack of understanding of CIA reporting
               process
      These gaps in the information sharing process were exacerbated by FBI
personnel’s lack of understanding of the CIA’s reporting process. This
problem is clearly illustrated by the failure of the FBI to obtain the information
on the identification in January 2001 of Khallad in the Kuala Lumpur
photographs by the joint FBI/CIA joint source.
      As detailed above, we concluded that the FBI’s ALAT was not made
aware of the source’s identification of Khallad in the Malaysia meetings
photographs. Although the ALAT attended the debriefing of the source, the
ALAT did not immediately receive the information that the source had
identified Khallad. We were unable to ascertain the reasons for this significant
omission. However, our review found that there were later opportunities for
the ALAT to have obtained information about the identification from CIA
documents. In addition, we found that the New York FBI agents working the
Cole attack investigation did not learn of this significant information, despite
interviewing the source on several occasions. We believe this was due in part
to the fact that the FBI personnel were not familiar with the CIA’s process for
reporting intelligence information.
       As discussed previously, the CIA primarily relies on cable traffic to share
intelligence among its personnel who are stationed around the world. None of
these cables are available for FBI review, except by the limited number of FBI
personnel with direct access to CIA computer systems, such as the detailees at
the CTC.
      The CIA uses a certain type of cable called a TD to disseminate CIA
information outside of the CIA to other U.S. government agencies. These
cables are created by CIA reports officers based on their review of the internal


                                       323
CIA cable traffic. The reports officers were described to us as “editors” who
remove references to sources and methods contained in the cables and
determine what information should be further disseminated in the TDs. As a
result, TDs did not necessarily include all the substantive information
contained in the internal cable traffic.
      Our review found the ALAT did not understand that the TDs did not
necessarily contain all of the intelligence gathered by the CIA from a particular
source or on a particular event. The ALAT had been keenly aware of the
significance of Khallad to the FBI, and contemporaneous FBI documents
outline his efforts in mid-January 2001 to try to ensure that all the information
obtained from the joint source was provided to the UBL Unit at FBI
Headquarters and the Bin Laden Squad in the New York Field Office.
However, he relied on the TDs concerning the source’s reporting to ensure the
completeness of the information that he had provided to his FBI colleagues.
The ALAT erroneously believed he had obtained all the source reporting
through the TDs. This was not the case. The January 2001 Khallad
identification was only reported in an internal CIA cable and was never
included in a TD.
      In addition to the ALAT, New York FBI agents working on the Cole
investigation told us that when they read a TD regarding a particular subject
(which they could access through CTLink), they mistakenly believed that it
contained all relevant information from the source debriefings. The primary
Cole case agent told us that he believed that the CIA operational cables dealt
with techniques and methods, but he did not know that these cables also
contained the details of debriefings. He said that he had “assumed” all the
substantive reporting would be contained in the TDs, so he never asked the
CIA to allow him to review the underlying cable traffic.
      If these FBI employees had a more thorough knowledge of the
information flow within the CIA, they could have ensured that they received all
the relevant information from the joint source. This was especially significant
in the case of Hazmi and Mihdhar because the CIA and FBI had decided the
majority of the joint source’s reporting would be handled through CIA
channels, and the ALAT did not independently report in FBI documents most
of the source’s information. For example, in this case, the FBI could have
requested to review the CIA’s internal cables or asked the interviewing CIA
officer to review the TDs and the FBI documentation to ensure all the

                                      324
information had been captured. However, the lack of understanding by FBI
personnel of the CIA reporting process and its procedures for sharing
intelligence contributed to the FBI not learning of significant information in
CIA cables about Khallad – which would have tied an al Qaeda operative to the
Malaysia meetings attended by Mihdhar and potentially resulted in the FBI
focusing on Mihdhar much earlier.

         3.   Inadequate procedures for documenting receipt of CIA
              information
      We also found that the FBI lacked consistent policies or procedures for
the receipt and documentation of intelligence information received from the
CIA. In addition, structural impediments within the FBI undermined the
appropriate documentation of information received from the CIA.
     As we detailed above, the information concerning the surveillance of
suspected al Qaeda operatives at the Malaysia meetings, including Mihdhar,
was verbally conveyed in January 2000 by a CIA officer to two FBI employees
who were working in the FBI’s Strategic Information Operations Center
(SIOC). But this important information was not documented in any retrievable
form at the FBI.
      The FBI was able to provide only three documents regarding the briefing
on this information. First, one FBI e-mail message was recovered through a
painstaking review of messages on an FBI server that the FBI searched in
connection with a request from the JICI. Although this written record survived
from that time, no analyst or agent would have had access to the information,
learned of its existence, or been able to conduct the type of search that led to
the discovery of this document. Second, information regarding the briefing
was also located in one of the FBI Director’s daily briefing documents
prepared in response to the Millennium threats. These briefing documents,
however, were not electronically archived in a searchable database that
analysts or agents in the field could access. Third, a brief handwritten note
about the information he received from the CIA was contained in the personal
daily calendar of one of the FBI employees briefed by the CIA officer in the
SIOC.
    We found there were no clear procedures for documenting intelligence
communicated by the CIA to the FBI in an informal manner, such as the verbal


                                      325
briefings on Mihdhar in the SIOC. Although the SIOC had been activated
during the Millennium for the express purpose of handling threat information
from various sources, FBI personnel assigned to the SIOC during this period
told us that there were no procedures for the receipt and handling of
interagency information communicated informally unless it related to an
ongoing FBI investigation. Although one witness suggested that some type of
log might have existed to record incoming physical information, such as
documents, the FBI found no such log. Moreover, FBI witnesses told us that
the log would not have been used to document verbal briefings. Therefore, any
documentation of information received informally would have been at the
discretion of the recipient.
       We are not suggesting that every informal communication from the CIA
to the FBI should be documented. We also recognize it is difficult to know the
significance of any individual piece of information when it is received. Yet,
we believe that the FBI should attempt to establish criteria or guidance for
determining what information from informal briefings should be documented,
and how it should be documented. The information received in the SIOC on
Mihdhar was recorded only in a briefing provided to the Director and executive
staff, which is not available to others throughout the FBI. Clearly, the authors
of the Director’s daily briefing believed there was some import to this
information. Because the Mihdhar information was never documented in an
accessible format, only those individuals personally informed about the CIA’s
information on the Malaysia meetings or those present for the Director’s
briefings were made aware of the Mihdhar information. In effect, it was lost to
everyone else because no analysts or field agents would be able to search for or
locate this information. An effective analytical program requires that analysts
have access to all available information, and that pertinent information is not
contained solely in the personal memories of selected individuals.
       This was particularly significant because the information on Mihdhar
initially did not appear to be important. But it subsequently became very
significant. In the summer of 2001, FBI personnel eventually recognized the
significance of the Malaysia meetings. At this time, the e-mail and the
information from the Director’s briefing in January 2000 were not available to
the FBI personnel. Without mechanisms to maintain information in which the
significance is not immediately apparent, the FBI will not be able to fully
connect and analyze disparate pieces of information for their significance.


                                      326
       In addition, even if the agents who received the information in the SIOC
had wanted to document it in a form that was available throughout the FBI, the
FBI lacks an information technology system capable of adequately handling
this type of information. As discussed previously, the FBI’s primary electronic
information storage system is the Automated Case Support (ACS) System.
ACS is a case management system designed to capture information related to
specific investigations and not for this type of general intelligence information.
There was no FBI system that would allow this type of information to have
been maintained so that it would be available for directed searches or other
subsequent data mining. It is also important to note that ACS is not approved
for storage of information classified above the Secret level and is not approved
for storage of any sensitive compartmented information. Thus, it is not
available for storage of the majority of the relevant Intelligence Community
information, including the information on Hazmi and Mihdhar.
      In the absence of effective methods for recording and retrieving
information obtained from other intelligence agencies, the benefits of increased
information sharing among the agencies will remain of limited use. Based on
the system in effect during this period, the value of the information was
minimal, unless the information was relayed to an individual who could
immediately use the information or the information related to an ongoing FBI
investigation. When, as here, subsequent additional information increases the
significance of the prior information, the absence of an effective information
retrieval system effectively precludes any meaningful effort by the FBI to
analyze the disparate pieces of information over time.
      In sum, despite the fact that some personnel at the FBI were aware in
January 2000 that Mihdhar was possibly linked to al Qaeda operations and
traveled to Malaysia to meet with other suspected al Qaeda operatives, this
information was unavailable for further analysis or use once the SIOC closed
down in late January or early February 2000. Because no one was assigned to
document, follow up, or track the information on Mihdhar, the FBI’s
opportunity to discover Mihdhar’s valid U.S. visa during this period and
therefore try to locate him was lost.

          4.   Lack of appropriate infrastructure in FBI field offices
       Information sharing with the FBI also was impeded by the inadequate
facilities for the handling of intelligence information in the two field offices

                                        327
most directly involved in the Hazmi/Mihdhar matter. Intelligence information
from the CIA is often classified at a high level. As a result, safeguards must be
taken in handling the information, while still allowing appropriate FBI
employees the ability to access and use the information. Unfortunately, the
FBI’s field offices generally lacked both the necessary physical infrastructure
and information technology to readily use this type of information. Without
the appropriate physical infrastructure, the FBI will not be able to handle
sensitive information in an effective manner.
       To handle SCI classified material, employees must store and review such
information in a SCIF. Access to the SCIF is limited to individuals with the
appropriate clearance level and the need to know the information in the SCIF.
Adequate security measures must be implemented to prevent unauthorized
individuals from gaining access to the spaces containing such materials. The
type of equipment that may be brought into the space is also strictly limited.
For example, cellular telephones, two-way pagers, and other unsecured
communication devices are prohibited. Telephones in SCIFs must be
designated for secure transmissions. Computer networks also must be secured
for transmission of information.
      During our review, we observed the workspaces in the FBI New York
and San Diego Field Offices and found that they were not set up to adequately
handle the type of information involved in the Hazmi and Mihdhar cases.
These workspaces were not adequately secured to permit FBI personnel to
handle CIA and NSA information at their own desks, even if they had been
given the information. Nor were the SCIFs suitable to permit agents to
regularly access or handle such information. In the New York Field Office, for
example, the SCIF we were shown was extremely small. The CIA detailee to
the JTTF worked in this SCIF, but there was little room for any other personnel
to enter, let alone use it as a workspace. In the San Diego Field Office, a small
SCIF was used as a secure communications center for the entire office. The
San Diego office lacked a separate SCIF for the JTTF, 264 including the CIA


    264
       We were informed that a separate SCIF for the JTTF is under construction in the San
Diego Field Office. However, this SCIF will only be large enough to accommodate three or
four employees at any one time.



                                           328
representative assigned to the task force. As a result, the San Diego agents
were hampered in their ability to access CIA information.
       We also found that New York and San Diego FBI agents did not have
sufficient access to secure telephones, known as Secure Telephone Unit third
generation or STU III telephones. The limited STU III phones available had to
be shared among numerous agents. Again, this made communications
involving classified material within the FBI or with other members of the
Intelligence Community more difficult. An entire squad comprising as many
as 25 individuals shared one or two STU III phones.
      In addition, as noted above, the FBI agents did not have access to
computer systems that could store much of the information received from the
CIA. The computers at each agent’s desk in the New York and San Diego
Field Offices only provided access to ACS. This system does not permit
storage or access to any information classified above the Secret level or any
information deemed sensitive compartmented information. Therefore, even if
the FBI recipients of the CIA information regarding Hazmi and Mihdhar had
wanted to document and store such information in a retrievable fashion, they
could not have stored it on the system that FBI agents use. The FBI had no
internal system in New York and San Diego that allowed them to use the type
of information involved in the Hazmi and Mihdhar case.
      In addition, most FBI agents in the field did not have direct access to
CTLink, the shared Intelligence Community database that did contain some of
the information on Hazmi and Mihdhar, such as the NSA information. Field
agents could not access, let alone conduct research, on this system. As a result,
even if the New York and San Diego agents wanted to search for relevant
information about Hazmi and Mihdhar, any sensitive or highly classified
information obtained from the NSA and CIA could not be stored in the one
system that they used.
      In contrast, we observed that the CIA’s workspaces permitted their
employees to access highly classified information on computers in their
personal workstations. Each CIA employee had their own secure computer on
which they could receive and research highly classified material. They had
several secure telephones that could be used to discuss Top Secret information
with others. The difference in CIA and FBI workspaces was particularly stark
in the FBI’s San Diego Field Office where, due to the lack of access to an


                                      329
appropriate SCIF, the CIA employee co-located with the FBI’s San Diego
Field Office could not access CIA systems. To access CIA systems, he had to
travel to a domestic CIA station.

         5.   OIG conclusion on impediments to information sharing
       In sum, significant and systemic problems that were evident in the FBI’s
handling of the Hazmi and Mihdhar case inhibited information sharing between
the FBI and CIA. The FBI failed to define the roles and responsibilities of the
FBI detailees to the CTC’s Bin Laden Unit. The FBI failed to ensure effective
oversight of the detailees at the CTC. The FBI and the CIA failed to develop a
clear understanding of the function of detailees from each other’s agencies.
The FBI failed to understand the CIA’s reporting process. The FBI lacked an
adequate computer system and appropriate infrastructure for handling
intelligence information not directly related to a specific investigation.
      Although these systemic problems affected the flow of information
between the FBI and CIA, we do not believe they fully explain the FBI’s
failure to obtain the critical information on Hazmi and Mihdhar. Employees at
both the CIA and the FBI failed to provide or seek important information about
Hazmi and Mihdhar, despite numerous interactions between them on issues
related to Hazmi and Mihdhar from January 2000 through August 2001. We
found these interactions were substantive and that much of the information
about Mihdhar and Hazmi was exchanged through these ongoing efforts.
Unfortunately, the critical pieces of information relating to Hazmi and Mihdhar
did not become known to the FBI until shortly prior to September 11. As a
former CTC Bin Laden Unit Deputy Chief aptly summarized it to us,
“information that should have been shared was not, repeatedly.”

    B.   The actions of the San Diego FBI
      In addition to issues that affected information sharing between the FBI
and the CIA, the FBI had other opportunities to find information about Hazmi
and Mihdhar before the September 11 attacks. The time that Hazmi and
Mihdhar spent in San Diego was an opportunity during which the FBI could
have obtained information about them but did not. As discussed above, Hazmi
and Mihdhar entered the United States in January 2000 and moved to San
Diego in February 2000, where they resided unbeknownst to the FBI. While in
San Diego, Hazmi and Mihdhar associated with Omar al-Bayoumi, a person


                                     330
whom the FBI had previously investigated, and they also lived with an active,
FBI informational asset. Yet, the FBI did not become aware of their presence
in San Diego until after September 11, 2001.
       Because Bayoumi spent a significant amount of time with Hazmi and
Mihdhar in early 2000, it is possible that – had a full field investigation of
Bayoumi been open at the time – the FBI could have discovered Mihdhar and
Hazmi’s presence in San Diego and also uncovered the CIA information about
their attendance at the Malaysia meetings. Because Hazmi and Mihdhar lived
with an FBI asset, it is also possible that if the FBI had documented their
presence in San Diego, it would have provided additional investigative leads
that could have aided the New York FBI in locating them in August 2001. We
therefore evaluated the San Diego FBI’s investigation of Bayoumi and the
decision to close its preliminary inquiry on him in June 1999. We also
examined the San Diego FBI control agent’s decision not to obtain or
document information from his information asset about Hazmi and Mihdhar,
who were boarders in the asset’s house.
       In examining the San Diego Field Office’s handling of the Bayoumi
investigation and the informational asset, we also found that, despite the fact
that FBI Headquarters had established counterterrorism as a top priority of the
FBI in 1998, the San Diego Field Office was continuing to pursue drug
trafficking as its top priority in 2001. While the FBI made counterterrorism its
top priority on paper, the FBI took few steps to ensure that field offices
complied with this directive. We discuss this issue at the end of this section.

         1.   The San Diego FBI’s preliminary investigation of Bayoumi
      As discussed above, Bayoumi is a Saudi national who in January 2000
had been living in the United States for approximately six years, was well-paid
by a Saudi company that contracted with the Saudi government, and was
involved in setting up mosques in the San Diego area. Hazmi and Mihdhar met
Bayoumi in Los Angeles approximately two weeks after entering the United
States in January 2000. A few days later they moved to San Diego, where
Bayoumi assisted them in obtaining an apartment in the complex where he
lived. They lived in this complex for four months.
      Bayoumi’s name had first surfaced at the FBI in 1995 in connection with
other investigations. Bayoumi’s name resurfaced at the FBI on August 31,


                                      331
1998, when his apartment manager contacted the FBI to report her suspicions
regarding Bayoumi’s activities. The manager reported that she had been
notified by the U.S. Postal Inspection Service in March 1998 that Bayoumi had
been sent a “suspicious” package from the Middle East. According to the
manager, the package had broken open and had a number of wires protruding
from it. She reported further that the apartment complex maintenance man had
noticed a number of wires protruding beneath the bathroom sink in Bayoumi’s
master bedroom. She reported that there had been large meetings of men, who
based upon their dress appeared to be Middle Eastern, gathering in Bayoumi’s
apartment on weekend evenings. She also complained that several parking
spots were being illegally used by the people gathering at Bayoumi’s
apartment.
     On September 8, 1998, the San Diego FBI opened a preliminary inquiry
on Bayoumi. 265 The assigned agent checked FBI indices for further
information regarding Bayoumi and conducted other investigative steps.
      The agent contacted the U.S. Postal Inspection Service in reference to the
alleged “suspicious” package sent to Bayoumi. A postal inspector advised the
FBI agent that “suspicious” did not necessarily mean “nefarious,” and the vast
majority of suspicious packages were benign. The postal inspector reviewed
the report relating to the Bayoumi package and told the agent that the package
had been deemed “suspicious” because it had no customs papers or appropriate
postage and originated in Saudi Arabia. According to the report, there was no
record of any wires protruding from the package, Bayoumi had retrieved the
package, and it was no longer called a “suspect parcel.”
      According to the FBI agent, the apartment manager agreed to record the
license plate numbers of the meeting participants. However, the manager later
advised the agent that meetings had dwindled to a few participants and then
stopped all together.

    265
        In accordance with the Attorney General’s Foreign Counterintelligence Guidelines, a
preliminary inquiry could be opened when there was information or allegations indicating
that an individual is or may have been an international terrorist or a recruitment target of an
international terrorist organization. Preliminary inquiries were permitted to remain open for
120 days and had to be closed unless the FBI obtained sufficient evidence to open a full field
investigation.



                                             332
     The agent asked fellow FBI agents to ask their “logical sources” for
information regarding Bayoumi. The sources related the following concerning
Bayoumi:
           • Bayoumi was married with small children and had recently
             completed a master’s degree program and he was looking for a
             Ph. D. program, but his test scores were too low. He was
             approximately 30 years old and unemployed.
           • Bayoumi was a Saudi who regularly attended the ICSD (Islamic
             Center of San Diego). He was married with children and was
             working on a master’s or other advanced degree.
           • Bayoumi reportedly delivered $400,000 to the Islamic Kurdish
             community in El Cajon, California in order to build a mosque.
             Source opined Bayoumi “must be an agent of a foreign power or
             an agent of Saudi Arabia.”
           • Bayoumi was in the U.S. on a student visa but was applying for a
             green card. Bayoumi claimed to have a master’s degree and was
             working on a Ph. D. His father was sending him $3,000 a month
             for support while he was in school.
      The FBI agent also contacted the INS in reference to Bayoumi’s
immigration status. An INS special agent advised that Bayoumi was in the
U.S. on an F-1 student visa, but his work visa had expired. However, the INS
reported that his visa could be renewed.
      The FBI agent received no further substantive information in response to
various information checks. According to the agent, the only remaining option
was to conduct an interview of Bayoumi. After her supervisor consulted with
fellow FBI agents who were working on a large, sensitive counterterrorism
investigation involving an alleged terrorist organization, the supervisor
instructed the agent not to conduct the subject interview of Bayoumi. 266 The
agent told the OIG that she did not believe the decision was inappropriate

    266
        The file indicates that the decision not to conduct an interview was due to an
investigation that included a proposed proactive element. The FBI believed that the benefits
of interviewing Bayoumi did not justify the risk to the proposed operation.



                                            333
based on the potential effect of such an interview on the other sensitive
investigation.
     On June 7, 1999, the FBI closed its preliminary inquiry on Bayoumi, and
he was no longer actively under investigation by the FBI.
      The FBI case agent told the OIG that she had no concrete information
linking Bayoumi to any terrorist activities. She stated that the allegations that
gave rise to the preliminary investigation were not substantiated. With respect
to the source reporting that Bayoumi had received large sums of money from
overseas, the case agent explained it was not unusual for foreign students,
especially from Saudi Arabia, to regularly receive money, even large sums of
money. Therefore, the case agent did not consider this to be inherently
suspicious. The agent’s squad supervisor at the time and other agents on the
squad also told the OIG that it was not unusual or suspicious for Saudi students
to have received large sums of money from Saudi Arabia.
      As stated above, one source had provided unverified information that
Bayoumi could potentially be a Saudi intelligence operative or source.
According to the agent, Bayoumi was allegedly very involved and interested in
Saudi affairs in San Diego, and this probably led to the suspicions about
Bayoumi’s connection to the Saudi government. However, the agent told the
OIG that Saudi Arabia was not listed as a threat country and the Saudis were
considered allies of the United States. 267 Therefore, Bayoumi’s potential
involvement with the Saudi Arabian government would not have affected the
FBI’s decision to close the preliminary inquiry.
      The squad supervisor at the time of our investigation, who had been an
agent on the squad for several years, told the OIG that before September 11,
the Saudi Arabian government was considered an ally of the United States and
that a report of an individual being an agent of the Saudi government would not
have been considered a priority. Other agents on the squad also said that a
source reporting that an individual was an agent of the Saudi government

    267
         Country threats are defined by the FBI as foreign governments or entities whose
intelligence activities are so hostile, or of such concern, to the national security of the United
States that counterintelligence or monitoring activities directed against such countries are
warranted.



                                              334
would not have been cause for concern because the Saudi government was
considered an ally of the United States.
      In addition, the case agent explained that more intrusive investigative
techniques could not be conducted because of the restrictions of the Attorney
General FCI Guidelines in effect at the time. No meaningful surveillance
could be conducted, no bank records or other financial records could be sought,
and very little investigative activity beyond fully identifying the individual
could be done.
      In sum, we do not believe that the FBI’s actions with regard to Bayoumi
and its decision to close the preliminary inquiry were inappropriate. The agent
conducted logical investigative steps that were permitted under the Attorney
General Guidelines in effect at the time, such as checking FBI records for
information, asking other intelligence agencies for information about the
subject, and asking agents to query their sources about the subject, but the
agent did not uncover any information to support the allegations. The
Guidelines did not permit the case agent to engage in more intrusive
investigative techniques, such as a clandestine search of Bayoumi’s property,
obtaining his telephone or financial records, or secretly recording his
conversations.
      Although the Attorney General Guidelines would have permitted a
subject interview of Bayoumi prior to closing the preliminary inquiry, the
decision not to conduct an interview appeared warranted, given its possible
effect on an ongoing significant investigation.

         2.   The FBI’s handling of the informational asset
      As described above, in May 2000 Hazmi and Mihdhar began renting a
room in the home of an FBI informational asset. An FBI San Diego Special
Agent who we call “Stan” was the asset’s control agent since the asset was
opened in 1994. The asset had provided the FBI with significant information
over the years and was considered a reliable source. He was well known in the
Muslim community. He often rented rooms in his house to Muslim men in the
community who needed temporary housing. At the time that Hazmi and
Mihdhar moved in with him, he had two other individuals renting rooms in his
house. Mihdhar lived with the asset until June 10, 2000, when he left the



                                     335
United States, and Hazmi remained as a boarder at the asset’s home until
December 2000.
      According to Stan, the asset told Stan that two young Saudis who had
recently come to the United States to visit and study had moved in as boarders.
The asset described them as good Muslims who often went to the mosque and
prayed. The asset provided Stan with their first names but little other
identifying information. Stan did not obtain any additional information from
the asset about the boarders, such as their last names, and he did not conduct
any investigation of them.
      Had Stan pursued information about Hazmi and Mihdhar, he might have
uncovered the CIA information about them. In addition, he might have created
a record in FBI computer systems about Hazmi and Mihdhar’s presence in San
Diego, which would have provided the FBI with additional information and
avenues of investigation when it began to search for them in August 2001. For
these reasons, we examined Stan’s actions with regard to the asset.
      In interviews with the JICI staff and in congressional testimony, Stan
stated that the informational asset primarily provided information about the
activities and identities of persons in the Muslim community in San Diego who
were the subjects of FBI preliminary inquiries or full field investigations. 268
Stan said that the asset volunteered some information about other individuals
as well. He said he thought that the asset had good judgment about which
individuals might pose a threat and that his reporting had been “consistent”
over the years. We reviewed the asset’s file and noted the asset provided
information on a regular basis on a variety of different individuals and topics.
Although we could not evaluate the asset’s judgment from the file, we consider
Stan’s description of the asset’s reporting to be apt.
      Stan also stated that he was aware that the asset had boarders in his house
over the years, and the fact that two new boarders had moved in with the asset
did not arouse suspicion. He noted that the asset volunteered that the two
boarders were living with him soon after they moved in, but the asset provided
the information about his boarders as part of a personal conversation and not

   268
         As noted above, Stan has retired from the FBI and declined to be interviewed by the
OIG.



                                             336
because the asset believed that it had any significance. Stan stated the
information provided from the asset was that the two boarders were from Saudi
Arabia, which, according to Stan, was not a country that the United States had
placed on the list as a threat to national security. Stan said that the asset did not
describe his boarders as suspicious or otherwise worthy of further scrutiny. He
also asserted that he was prohibited from further pursuing the information
about Hazmi and Mihdhar, including documenting the information that he had
obtained, because of the Attorney General Guidelines in effect at the time.
      In examining Stan’s actions, we first considered whether the Attorney
General’s FCI Guidelines were applicable to the situation involving Hazmi and
Mihdhar. As suggested by Stan, the Attorney General’s FCI Guidelines were
designed to ensure that the FBI opened preliminary inquiries and conducted
investigations only if the required predicating information was present.
Because there were no allegations or information provided to Stan that Hazmi
and Mihdhar were terrorists or agents of a foreign power, we agree that Stan
did not have sufficient information to open a preliminary inquiry and actively
investigate Hazmi and Mihdhar.
      We also considered whether, at a minimum, Stan could have attempted to
obtain additional information about people who were living with his
informational asset, such as their full names, and whether he was required to
document the information on Hazmi and Mihdhar that he had received from his
asset. First, we reviewed FBI policies and procedures for handling assets.
Those policies did not require Stan to obtain information from an informational
asset about people living in the asset’s house or to conduct record checks to
obtain this information. In addition, the policies do not appear to require Stan
to have documented information received from the asset about anyone living
with him, or to even document their full identities if he had obtained that
information.
      We also interviewed several FBI agents who were on Stan’s
counterterrorism squad and asked them whether it would have been their
practice to seek additional information about boarders living with an
informational asset and what, if anything, they would have done with this
information. We found no consensus among them about whether information
on boarders like Hazmi and Mihdhar who lived with an informational asset
should have been obtained and documented. Some agents stated that they
would have pursued more information about boarders living with an

                                        337
informational asset, while others stated that they would not have. Some of the
agents stated that they would have noted the fact of the informational asset
having boarders in his file. Some agents stated that they would have
documented the identities of the roommates in an EC that would have been
uploaded to ACS. However, former San Diego Division Special Agent in
Charge William Gore told the OIG that he “did not believe anything had been
done wrong” in the handling of the informational asset and he did not fault
Stan for not obtaining the information.
      While we recognize that no FBI policy addressed this issue and there was
a lack of consensus on what should have been done in a situation like this, we
believe that it would have been a better practice for Stan to have questioned the
informational asset about his boarders and obtained their full identities. Stan
was aware that Hazmi and Mihdhar were relative strangers to the informational
asset, and that they were not friends, family, or long-time associates of the
asset. Stan also was aware that the asset had no direct knowledge of Hazmi
and Mihdhar’s backgrounds and could not vouch for their character.
Moreover, the boarders in the asset’s home were in a position to put the asset
and the information he supplied to the FBI in jeopardy. Therefore, prudence
and operational security would suggest that information about persons living
with the asset should have been sought, at least to the extent of learning and
documenting their names, and perhaps running a records check on them.
      If Stan had asked more questions about the asset’s boarders, he also may
have acquired enough information to pursue further inquiry. For example, the
asset has stated after the September 11 attacks that Hazmi and Mihdhar did not
make telephone calls from his house, and that in retrospect he found this
behavior to be suspicious. The asset also stated after September 11 that he had
told Hazmi to stay away from Bayoumi because of his alleged association with
the Saudi government. Therefore, if Stan had asked the asset a few more
questions about Hazmi and Mihdhar and acquired this kind of information, it
may have led Stan to conduct further inquiries, particularly since Bayoumi had
been the subject of an FBI investigation.
      Moreover, while no specific FBI policy required agents to obtain
information about persons living in a house with an informational asset, FBI
policies required control agents to continuously evaluate the credibility of their
informational assets. Before informational assets are approved, they are
required to undergo a background investigation to assess their suitability,

                                       338
credibility, and “bona fides.” 269 Certain minimum checks were required, such
as a check of FBI indices, local criminal checks, and CIA traces. The policy
provided that additional checks “may be deemed necessary,” such as querying
other assets and running indices checks on immediate family members. In
addition, FBI policy provided that an asset’s bona fides “should be continually
addressed,” even after the initial assessment was completed.
      More specifically, the FBI field office is required to conduct a yearly
evaluation of each informational asset and provide the evaluation report to FBI
Headquarters. This report is required to contain, among other things, the FBI’s
number of contacts with the informational asset during the reporting period, a
summary of the most significant information furnished by the informational
asset, the number of preliminary inquiries and full investigations that were
opened based on information provided by the informational asset, and “steps
that have been taken to establish asset bona fides since last evaluation.”
Although Stan would not have been required to obtain additional information
about his informational asset’s boarders to complete this report, the FBI’s
policy of continually vetting the credibility of its assets permitted Stan to seek
more information about Hazmi and Mihdhar and the other boarders from his
asset and run indices checks on any persons living with his informational asset.
      We reviewed the informational asset’s file, Stan’s yearly evaluation of
the asset, and Stan’s reporting on the bona fides checks conducted on the
informational asset. Based on our review, we were concerned by the lack of
information included in the file in support of the bona fides checks conducted
by Stan each year. In each of the documents provided to FBI Headquarters
about the informational asset that we reviewed, Stan wrote the following
perfunctory paragraph: “Asset bona fides have been established through
independently received reliable asset reporting, [redacted] and physical
surveillance.”
     Stan maintained no predicating information in the file on these bona fides
checks. The file did not disclose which checks or surveillance had been

    269
        The FBI defines “bona fides” to mean that the asset or informational asset “is who
he/she says he/she is;” that the asset “has the position or access the asset claims to have;”
and that the asset “is not working for or reporting to a foreign intelligence service or
international terrorist organization without the knowledge of the FBI.”



                                             339
conducted, by whom, when, or the results. Without that material, the
informational asset’s bona fides were merely verified through the attestation of
Stan. It is possible that Stan conducted numerous indices checks and
conducted an exhaustive bona fides check on the informational asset each year.
It also is possible that he conducted minimal or no checks and merely attested
to the informational asset’s credibility based on their personal history and
relationship. Because we were unable to interview Stan, we could not
determine which was more likely.
       However, no FBI policy described the level of detail to be contained in
an asset file. We believe the policy should require an asset file to contain at
least minimal information to allow a reviewer to independently verify that an
adequate background check has been conducted. This information is necessary
to allow FBI managers to determine whether the control agent is continuing to
assess each informational asset’s credibility. This information would also help
ensure that the control agent has not become too comfortable with the
informational asset and thus vulnerable to being misled or failing to obtain
adequate information about the asset.
      We also were concerned by the lack of policy or practice specifying what
information from the asset must be documented. The Hazmi and Mihdhar case
clearly demonstrates that information must be documented to be useful. Even
if Stan had obtained the full names of Hazmi and Mihdhar from the
informational asset, he would not have been required to document it in any
retrievable format. Without the requirement to document such information, the
information would not have been accessible to other FBI personnel. For
information to be useful, it must be documented in a retrievable form and it
must be available for consideration and analysis.
      In sum, we believe that Hazmi and Mihdhar’s presence in San Diego
should have drawn some scrutiny from the FBI. Although unknown at the
time, documenting their presence in San Diego in a searchable and retrievable
manner would have provided an opportunity for the FBI to connect information
in the future. If Hazmi and Mihdhar’s presence in San Diego in 2000 had been
documented, an FBI indices record check in August 2001, when the FBI
received information from the CIA that Hazmi and Mihdhar had entered the




                                      340
United States, might have led the FBI to the San Diego information. This
connection would have provided substantive leads for the New York FBI’s
effort to locate Mihdhar in August 2001. 270

           3.    San Diego FBI’s failure to prioritize counterterrorism
                 investigations
      As discussed in Chapter Two, in 1998 the FBI adopted a 5-year strategic
plan that established the FBI investigative priorities in a 3-tier system. Tier I
priorities were “foreign intelligence, terrorist, and criminal activities that
directly threaten the National or Economic Security of the United States.”
Tier II priorities were “crimes that affect the public safety or undermine the
integrity of American society: drugs, organized crime, civil rights, and public
corruption.” Tier III priorities were “crimes that affect individuals and
property such as violent crime, car theft, and telemarketing scams…”
      On March 15, 1999, shortly after Director of Central Intelligence George
Tenet asserted the U.S. Intelligence Community was declaring war on Usama
Bin Laden and al Qaeda, FBI Headquarters established national level priorities
within its Counterterrorism Program. Bin Laden and al Qaeda, along with the
Bin Laden-allied Egyptian Islamic Jihad (EIJ) and al Gama’at al Islamiyya
(IG), were designated as “priority group one” for the FBI’s counterterrorism
efforts.
       Our review of the Hazmi/Mihdhar chronology revealed no appreciable
shift in resources by the FBI’s San Diego Field Office in response to these
changed priorities. We found that prior to September 11, 2001, the actual
investigative priority for the San Diego Field Office was drug trafficking.
According to former San Diego Special Agent in Charge William Gore, the
highest concentration of FBI agents and resources in San Diego was directed at
combating drug trafficking based on the FBI’s process and procedures used
each year to set priorities in its field offices. He said that white-collar crime
was the office’s second priority, and violent crime was its third priority.


    270
        As noted, Mihdhar and Hazmi used their own names to open bank accounts, conduct
financial transactions, obtain state identification cards, purchase a vehicle, obtain telephone
service, take flying lessons, and rent an apartment while residing in San Diego.



                                             341
Counterterrorism was only the fourth priority for the San Diego FBI office.
The counterterrorism efforts in San Diego were directed primarily at another
terrorist organization and related groups not connected to Al Qaeda, and the
majority of San Diego’s counterterrorism investigations targeted activities
related to the indirect support of terrorism conducted by those groups.
       We found that the San Diego FBI focused little to no investigative
activity on al Qaeda prior to September 11. San Diego FBI personnel stated to
us that they had believed there was no significant al Qaeda activity in San
Diego based on information from their sources and investigative activities.
The former supervisor of the San Diego counterterrorism squad explained their
job at the field office level was to “shake the tree and see what fell out” in
relation to potential terrorism activities in their area. Although San Diego
agents assigned to counterterrorism conceded they had received little to no
specific training concerning Bin Laden or al Qaeda, they asserted that al Qaeda
did not have a significant presence in San Diego prior to September 11.
      Yet, al Qaeda was present in San Diego, unbeknownst to the FBI. Hazmi
and Mihdhar resided in San Diego. Unfortunately, the San Diego agents were
not focusing on al Qaeda. Even though FBI Headquarters had designated al
Qaeda as the number one counterterrorism priority, the San Diego FBI was not
attempting to identify individuals that were associated with al Qaeda.
      Since September 11, many San Diego agents have been moved from
other squads and assigned to counterterrorism. Significantly, the San Diego
office opened a large number of intelligence investigations on potential al
Qaeda subjects immediately after September 11. Obviously, the focus and
priorities dramatically changed after September 11. But there is no reason to
believe the al Qaeda presence in San Diego began only after September 11. If
San Diego’s focus on counterterrorism and al Qaeda had occurred earlier in
San Diego, there would have been a greater possibility, though no guarantee,
that Hazmi’s and Mihdhar’s presence in San Diego may have come to the
attention of the FBI before September 11.
      However, it is important to note that San Diego’s allocation of resources
before September 11 and the lower priority it gave to the Counterterrorism
Program were not atypical of FBI field offices before September 11. In an
OIG September 2002 audit report entitled “A Review of the Federal Bureau of
Investigation’s Counterterrorism Program: Threat Assessment, Strategic


                                      342
Planning, and Resource Management,” we found that “Although the FBI has
developed an elaborate, multi-layered strategic planning system over the past
decade, the system has not adequately established priorities or effectively
allocated resources to the Counterterrorism Program.”
      Furthermore, the OIG report found that resources were not allocated
consistent with the FBI’s priorities – particularly at the field office level –
because of the lack of “management controls” in the FBI’s “complicated and
paper-intensive strategic planning process.” Instead of allocating resources
based on FBI priorities, field offices allocated resources primarily based on
previous caseloads in the field office. According to the report, prior to
September 11, “the Bureau devoted significantly more special agent resources
to traditional law enforcement activities such as white collar crime, organized
crime, drug, and violent crime investigations than to domestic and international
terrorism investigations.” For example, in 2000 twice as many FBI agents
were assigned to drug enforcement than to counterterrorism. Thus, the San
Diego’s office allocation of resources was not different from many other FBI
field offices, despite the stated priorities of the FBI.

    C. Events in the spring and summer of 2001
      As described in the factual chronology, the FBI had several opportunities
in the spring and summer of 2001 to obtain critical intelligence about Mihdhar
and Hazmi. Although the FBI and the CIA were discussing Mihdhar, Khallad,
and the Cole investigation throughout the spring and summer of 2001, the FBI
did not become aware of the critical intelligence involving Mihdhar’s U.S. visa
and subsequent travel to the U.S. until late August 2001. As we discussed
above, we believe that systemic problems regarding information sharing
between the two agencies contributed to the FBI’s failure to obtain this
information earlier. But restrictions within the FBI also contributed to the
FBI’s failure to acquire critical information about Hazmi and Mihdhar before
September 11. In this section, we discuss those problems.

         1.   Restrictions on the flow of information within the FBI
      By the summer of 2001, the effect of the various restrictions within the
FBI on information sharing – commonly referred to as “the wall” – had
resulted in a nearly complete separation of intelligence and criminal
investigations within the FBI. This separation greatly hampered the flow of


                                      343
information between FBI personnel working criminal and intelligence
investigations, including information concerning Hazmi and Mihdhar in the
summer of 2001.
       As discussed in Chapter Two, in late 1999 the FISA Court had become
the “wall” for purposes of passing FISA information on targets of a particular
terrorist organization from FBI intelligence investigations to criminal
investigations. Any information that intelligence agents wanted to give to
criminal agents had to be provided to the FBI’s NSLU, which then provided it
to OIPR, which then provided it to the FISA Court, which then had to approve
the passage of the information to criminal agents. In addition, after the FISA
Court was notified in the fall 2000 about errors in approximately 100 FISA
applications, a significant portion of which related to the FBI’s representations
about the “wall” procedures in al Qaeda cases, the FISA Court imposed new
restrictions on the FBI’s handling of FISA information. The FISA Court
required a certification from all individuals who received FISA information
stating that they understood this requirement.
      The FISA Court exempted CIA and NSA personnel, who often received
FISA information from the FBI, from this certification requirement. But the
FISA Court required that the CIA and NSA indicate on the information they
provided to the FBI whether the information had been obtained based on FISA
information previously provided to them by the FBI (called “FISA-derived
information”). In response, the NSA decided that it was more efficient not to
delay dissemination of intelligence while checking to see if it was derived from
FISA, and it therefore placed a caveat on all NSA counterterrorism reports to
the FBI stating that before information could be considered for dissemination
to criminal personnel, the FBI had to check with the NSA General Counsel
about whether the intelligence was FISA-derived. Once the NSA determined
whether the information was FISA-derived, the FBI had to comply with the
wall procedures for passing FISA-derived information to criminal agents or
prosecutors. If the information was not FISA-derived, it could be passed
directly.
     FBI Headquarters personnel became wary that any involvement of
criminal agents in intelligence investigations could present problems for the
FBI with the FISA Court. A former ITOS unit chief described the FISA
Court’s certification requirement as a “contempt letter” and said that it “shut
down” the flow of information in the FBI. He further stated that FBI

                                       344
Headquarters employees became worried that any misstep in handling FISA
information could result in harm to their careers because an FBI agent was
banned from appearing before the FISA Court and OPR began an investigation
on him. These three factors – the Court had become the screener in al Qaeda
cases, the certification requirement imposed by the FISA Court, and concerns
about violating the Court’s rules – combined to stifle the flow of intelligence
information within the FBI. FBI employees described this to the OIG as the
walls within the FBI becoming “higher” over time. New York FBI agents told
the OIG that the walls were viewed as a “maze” that no one really understood
or could easily navigate.
      As we discuss below, these walls affected the FBI personnel’s
discussions about the Mihdhar information at the June 11, 2001, meeting in
New York and the FBI’s decision to open an investigation to locate Mihdhar in
August 2001.

           2.   Problems at the June 11 meeting
      At the June 11, 2001, meeting, FBI Headquarters and CIA CTC
personnel discussed with New York FBI investigators issues relating to the
Cole investigation. At the time of this meeting, the FBI analyst who we call
Donna had received information from the CIA concerning travel in January
2000 of an al Qaeda operative named Khalid al-Mihdhar to Malaysia through
Dubai. Donna also had received surveillance photographs from the CIA
showing Mihdhar meeting with other unidentified al Qaeda operatives in
Malaysia. 271
       After receiving the information from the CIA, Donna had conducted her
own record check on Mihdhar in CTLink and discovered the NSA information
from late 1999 and early 2000 associating Mihdhar with a suspected terrorist
facility in the Middle East linked to al Qaeda activities and his plans to travel
to Malaysia in January 2000.


    271
        Although not shared with Donna or known to anyone else in the FBI, the CIA also
knew in June 2001 that Mihdhar had a U.S. visa, that Mihdhar’s associate -- Hazmi -- had
traveled to the United States in January 2000, and that the Cole mastermind Khallad had
been identified in one of the Kuala Lumpur surveillance photographs.



                                           345
      This NSA intelligence about Mihdhar would have been important to the
FBI agents conducting a criminal investigation of the Cole attacks. However,
Donna did not share this information with the criminal agents at the June 11
meeting because of concerns about the wall. By this time, the FBI was
operating under the requirement that all NSA counterterrorism information had
to be reviewed by the NSA’s General Counsel’s Office for a determination of
whether it was FISA-derived before it could be considered for dissemination to
criminal agents. Because she had not yet asked the NSA whether the
information could be passed, Donna did not provide the New York agents with
any of the NSA information. That information would have been important to
the New York agents who were working the Cole investigation because they
specialized in al Qaeda operations and at the June 11 meeting showed great
interest in the Malaysia meetings and Mihdhar. That information may also
have provided the criminal agents with additional leads and could have led to
the information that Mihdhar and Hazmi had traveled to the United States in
January 2000.
      We recognize that the caveat on sharing any NSA counterterrorism
information did not mean that the criminal agents were prohibited from ever
obtaining access to the NSA information on Mihdhar. But if the information
was FISA-derived, the caveat created a delay in the criminal agents receiving
the information because of the lengthy procedures that had to be followed to
share the information with them.
      With respect to the information Donna had received from the CIA about
the Malaysia meetings, Donna showed the photographs to New York agents
and asked whether they could identify Cole participant Fahd al Quso in the
photographs. After one of the agents made a tentative identification, the agents
asked questions about Mihdhar and the photographs. The agents continued to
ask Donna questions about Mihdhar, the Malaysia meetings, and the
photographs on June 11 after the meeting. As we discussed above, it is unclear
how much questioning occurred during the actual meeting and how much
occurred after the meeting. Donna was unable to answer most of the agents’
questions because she had not obtained the information from the CIA. This, in
our view, was not because of the wall, but was because of Donna’s failure to
plan the meeting adequately or ask sufficient questions from the CIA in
advance of the meeting.



                                      346
      First, we believe the planning for the June 11 meeting was flawed.
Although Donna and other IOSs frequently traveled to New York to work on
the Cole investigation, she told the OIG that this was the first time that she had
arranged for a meeting involving CTC personnel in New York. Yet, according
to what the meeting participants told the OIG, the purpose and the agenda of
the meeting were not clear. The participants agreed that they knew there was
going to be a discussion of the investigative results on the Cole attack. The
New York agents believed that the CTC and FBI Headquarters had information
to share with New York. Donna and the CTC participants, however, described
the meeting as a “brainstorming” session to determine what new leads could be
pursued and what FBI Headquarters could do to assist New York.
      No agenda was prepared and no supervisors were consulted for their
input about the meeting. Even though Donna said that she called the meeting
to explore further leads or avenues of investigation in the Cole case, she
apparently did not ask the CTC participants to be prepared to present
information or answer questions. Mary and Peter told the OIG they were not in
a position to discuss the Cole investigation. Mary said she was not up to speed
about the Cole investigation or the Malaysia meetings. Peter told the OIG that
as an analyst at the CIA, he did not have authority to discuss CIA information
at the meeting and he was merely “tagging along.”
      Donna told the OIG that she considered Mary to be another FBI
employee at the meeting, and for this reason did not provide her with any
specific instructions in preparation for the meeting. Donna also said that she
had not invited Peter and because she was not in his chain of command, she did
not ask him to be prepared. However, the New York agents we interviewed
told the OIG that they believed that CTC personnel were coming to the
meeting in part to share information with them. The fact that all the
participants we interviewed described the meeting as unproductive and a
“waste of time” highlighted that a more useful exchange of information could
have occurred.
      With respect to the Kuala Lumpur photographs, Donna had obtained only
limited information from CIA employee John about the photos when she
received them. She did not ask general background questions such as whether
anyone else in the photographs had been identified, or what else was known
from the Malaysia meetings. Donna told the OIG that because she believed the
CIA provided her with everything she was entitled to know, she did not have

                                       347
an in-depth discussion about the photographs. John said he did not recall
anything about his discussions with Donna regarding the Kuala Lumpur
photographs.
      Donna told the OIG that when the New York agents asked her questions
about Mihdhar, the Malaysia meetings, and the photographs, she thought that
they were reasonable questions, but she did not know the answers. She stated
that at the time she obtained the Kuala Lumpur photographs from the CIA, she
believed that they were only potentially related to Quso and their significance
to the Cole would hinge on whether Quso was in the photographs.
      We believe Donna should have asked the CIA additional questions about
the photographs. She had reason to believe Quso, a key individual in the Cole
investigation, may have attended the Malaysia meetings. Given her interest in
whether Quso had attended the meetings, she should have wanted to ascertain,
and asked the CIA, what, if anything, was known about the purpose of the
Malaysia meetings, who were the other participants at the meetings, what was
known about the participants, and any other available information.
      Donna also did not ask the CIA whether there were additional photos or
documentation. Donna told the OIG she was unaware that there could have
been additional photographs or other relevant information available. We
believe that someone in her position should have known or at least asked for
additional information about the subject of the photographs in preparation for
the meeting.
      We also were troubled by Donna’s inadequate efforts to obtain additional
information after the June 11 meeting, particularly information about the
Malaysia meetings, since it had been the subject of a dispute between Donna
and Scott. Although Donna told the New York agents that she would check
with the CIA about additional information regarding the photographs and the
Malaysia meetings, Donna made little effort to obtain this information until
two months later, in August 2001. Donna told the OIG that she believes that
she made some unsuccessful follow-up phone calls to Peter and John about the
photographs. It is not clear from the documentary evidence how much Donna
did before August to obtain the information, but she did not provide additional
information to the New York agents about the photographs for at least two
months. We recognize that FBI analysts were overwhelmed with assignments
and had to juggle many responsibilities, however, given the possible


                                      348
connections of this information to the Cole investigation, we believe Donna
should have made more aggressive and timely efforts to obtain this information
soon after the June 11 meeting and to keep the New York agents informed
about what her follow-up efforts were.
      By the same token, Scott, the New York Cole case agent, did little to
follow up after the June 11 meeting to obtain information he requested about
the Malaysia meeting. Scott told the OIG he “often” asked Donna about the
status of the information, but he was not provided any such information.
Donna contended that Scott did not follow up on his June 11 requests. We
found no evidence such as e-mails or other documents to support Scott’s claim
that he raised the issue often with Donna. We believe that neither Donna nor
Scott made significant efforts after the meeting to obtain the information.

         3.   The FBI’s investigation in August 2001 to find Mihdhar and
              Hazmi
      As discussed above, on August 22, 2001, the FBI learned that Mihdhar
and Hazmi had entered the United States in January 2000, that Mihdhar had
again flown to New York on July 4, 2001, and that there was no record of
either of them leaving the country. The FBI also learned that Khallad had been
identified in the Kuala Lumpur photographs. Upon discovery of this
information, the FBI opened an intelligence investigation in New York in an
effort to locate Mihdhar.
      Once again, however, the separation between intelligence and criminal
information affected who could receive access to the information about Hazmi
and Mihdhar. This interpretation of the wall also hampered the ability of the
FBI New York agents working on the Cole investigation to participate in the
search for Hazmi and Mihdhar. In addition, we found that the FBI’s efforts to
locate Hazmi and Mihdhar were not extensive. We do not fault the case agent
assigned to locate them. He was new and not instructed to give the case any
priority. Rather, we found that the FBI New York did not pursue this as an
urgent matter or assign many resources to it.




                                     349
              a.   The effect of the wall on the FBI’s attempts to locate
                   Mihdhar
      As discussed above, Donna drafted an EC to the New York FBI
requesting it open an investigation to locate Mihdhar. She also called Chad,
the FBI New York agent who primarily handled intelligence investigations for
the Bin Laden squad, to give him a “heads up” about the matter, and she
subsequently sent the EC to him. She wrote in the e-mail that she wanted to
get the intelligence investigation going and the EC could not be shared with
any of the agents working the Cole criminal case. Chad forwarded the EC to
his squad supervisor, Jason, who nevertheless disseminated the EC via e-mail
within the Bin Laden squad, including to the criminal agents assigned to the
Cole investigation.
       Scott read the EC and contacted Donna regarding it. Donna informed
Scott that he was not supposed to have read the EC because it contained NSA
information that had not been cleared to be passed to criminal agents. Donna
told Scott that he needed to destroy his copy. Scott responded that the effort to
locate Mihdhar should be part of the Cole criminal investigation, and he argued
with Donna regarding the designation of the investigation as an intelligence
matter. Donna asserted that, because of the wall, criminal agents were not yet
entitled to the underlying intelligence provided by the NSA, and without that
predicating material, the FBI could not establish any connection between
Mihdhar and the Cole criminal investigation.
      Scott, Donna, and acting UBL Unit Chief Rob then spoke via conference
call. Scott argued that the investigation should be opened as a criminal
investigation and that more resources and agents could be assigned to a
criminal investigation by New York. He also argued that criminal investigative
tools, such as grand jury subpoenas, were far quicker in obtaining information
than the tools available in intelligence investigations.
      Donna consulted with an NSLU attorney, Susan. According to Donna,
Susan concurred that the matter should be handled as an intelligence
investigation and that because of the wall, a criminal agent could not




                                      350
participate in the search for or any interview of Mihdhar. 272 When Donna
advised Scott of Susan’s opinion in an e-mail message, Scott responded by e-
mail that he believed the wall was inapplicable. Scott ended his message by
suggesting that because of the NSLU’s position, people were going to die and
that he hoped that NSLU would stand by its position then.
      The way that FBI Headquarters handled the Mihdhar information
reflected its interpretation of the requirements of the wall prior to September
11. First, because the predication for the search for Mihdhar originated from
the NSA reports, this information could not be immediately shared with
criminal agents. Instead, it first had to be cleared for dissemination by the
NSA, which would determine whether the intelligence was based on FISA
information. If so, the information had to be cleared for passage to the criminal
agents – the information had to be provided to the NSLU, which then provided
the information to OIPR, which then provided it to the FISA Court, which then
had to approve the passage of this information to criminal agents. In fact, the
limited INS information concerning Mihdhar’s and Hazmi’s entries into the
United States was the only unrestricted information in the EC immediately
available to the criminal investigators.
      As in the Moussaoui case, the decision to open an intelligence
investigation resulted in certain restrictions. FBI Headquarters employees
understood that they needed to ensure that they avoided any activities that the
FISA Court or OIPR could later deem “too criminal” and could use as a basis
to deny a FISA application. This included preventing a criminal agent from
participating in a subject interview in an intelligence investigation. While
Scott was correct that the wall had been created to deal with the handling of
only FISA information and that there was no legal barrier to a criminal agent
being present for an interview with Mihdhar if it occurred in the intelligence
investigation, FBI Headquarters and NSLU believed that the original wall had
been extended by the FISA Court and OIPR to cover such an interview.
      Scott’s frustration over the wall was similar to Henry’s in the Moussaoui
investigation, when Henry was told by Don that seeking prosecutor


   272
         As discussed above, Susan told the OIG that she did not recall this discussion with
Donna.



                                             351
involvement prematurely could potentially harm any FISA request. Scott, like
Henry, wanted to pursue a criminal investigation and became frustrated when
he was advised by FBI Headquarters that he could not proceed in the manner
he deemed appropriate. Scott’s perception was that FBI Headquarters had
misconstrued “the wall” and the wall had been inappropriately expanded. He
told the OIG that he believed the wall should only relate to FISA or FISA-
derived information. Like the Minneapolis FBI, Scott believed that he was
being “handcuffed” in the performance of his job and that FBI Headquarters
“erred on the side of caution” in its approach to intelligence information.
      FBI Headquarters, on the other hand, acted in accordance with its
experience with OIPR and the FISA Court. FBI Headquarters believed that
OIPR and the FISA Court required strict adherence to the procedures for the
passage of intelligence information to criminal investigations and required
separating criminal and intelligence investigations. Donna explained that the
FISA Court’s mandates resulted in the need for the FBI to create a near
complete separation between intelligence and criminal investigations in order
to effectively use intelligence information. Rob also told the OIG that there
were “land mines” in dealing with intelligence versus criminal information,
and it was difficult to appropriately straddle the two sides.
      Our review of this case showed that the wall had been expanded to create
a system that was complex and had made it increasingly difficult to effectively
use intelligence information within the FBI. The wall – or “maze of walls” as
one witness described it – significantly slowed the flow of intelligence
information to criminal investigations. The unintended consequence of the
wall was to hamper the FBI’s ability to conduct effective counterterrorism
investigations because the FBI’s efforts were sharply divided in two, and only
one side had immediate and complete access to the available information.
      The wall was not, however, the only impediment in the FBI’s handling of
the investigation to find Mihdhar and Hazmi. We found there were also other
problems in how the search for Mihdhar and Hazmi was handled.

              b.   Allocation of investigative resources
       We found that prior to the September 11 attacks, the New York Field
Office focused its al Qaeda counterterrorism efforts on criminal investigations,
but it did not expend a similar effort on intelligence investigations or the


                                      352
development of intelligence information. New York agents told the OIG they
believed that criminal prosecution was the most effective tool in combating
terrorism. They asserted that criminal investigations are also a preventive
activity and the FBI had always focused on preventing terrorism, even before
September 11. They pointed to the TERRSTOP investigation in 1993, an
investigation to uncover a terrorist plot to attack New York City landmarks,
and the criminal investigation into the East African embassy bombings.
       Prosecutors also argued that criminal investigations and prosecutions are
an effective preventive measure against terrorism. Testifying before the Joint
Intelligence Committee, Mary Jo White, the former U.S. Attorney for the
Southern District of New York (SDNY), stated, “[W]e viewed the terrorist
investigations and prosecutions we did from 1993-2002 as a prevention tool.”
Patrick Fitzgerald, currently the U.S. Attorney for the Northern District of
Illinois and formerly an Assistant U.S. Attorney in the SDNY, told us that it is
a misconception that there has to be a difference between prosecution and
gathering intelligence. He added that the SDNY prosecutions produced a
“treasure trove of [intelligence] information.”
      However, prosecutors also realized criminal investigation and
prosecution were not the only means of countering terrorism. White stated,
“the counterterrorism strategy of our country in the 1990s was not, as I have
read in the media, criminal prosecutions.” She further stated, “none of us
considered prosecutions to be the country’s counterterrorism strategy, or even a
major part of it.” As Fitzgerald told us, “in order to connect the dots, you need
people to gather the dots.”
      Although we agree criminal investigations are a highly effective
counterterrorism tool, intelligence investigations were not given nearly the
same level of resources and attention in the FBI’s New York Field Office
before September 11, 2001. This criminal focus was clear in the assignment of
personnel on the New York Bin Laden squad. From October 2000 to June
2001, only one agent on the Bin Laden squad was designated as the
“intelligence” agent – the agent we call “Chad.” The remainder were
designated as “criminal” agents. 273 Chad told us that he was inundated with

   273
         One criminal agent worked on intelligence matters on a part-time basis.



                                             353
intelligence investigations and information, and he rarely had enough time
even to review all the incoming Bin Laden intelligence information, let alone
to digest, analyze, or initiate the procedures to pass the information to the
criminal agents where applicable. Chad also told us that the “intelligence”
agent designation was “not a desirable position” within the Bin Laden squad.
He described himself as the “leper” on the squad due to “the wall.”
Furthermore, Chad stated that the intelligence side of the squad received far
less and lower quality resources.
       The handling of the investigation to locate Mihdhar provides a clear
indication of the primacy of the criminal over intelligence investigations in the
New York office. On August 28, 2001, the New York Field Office opened an
intelligence investigation to locate Mihdhar based upon Donna’s EC. Donna
told the OIG that she believed there was some urgency to the Mihdhar
investigation, not because of any evidence that he was operational, but because
he could leave the United States at any time and the opportunity to find out as
much as possible about him would be lost. She said she therefore called Chad
about the EC in advance, which she did not normally do.
      However, when she sent the EC to New York, she assigned the matter
“routine” precedence, the lowest precedence level. When asked about this
discrepancy, Donna told the OIG that the Mihdhar investigation was “no
bigger” than any other intelligence investigation that the FBI was pursuing at
the time.
       The New York Bin Laden squad relief supervisors, who we call “Jay”
and “David,” told the OIG that they recognized that there was some urgency to
the Mihdhar investigation. Yet, the FBI in New York did not treat it like an
urgent matter. The investigation was given to an inexperienced agent –
”Richard” – who had only recently been assigned to the Bin Laden squad. This
was his first intelligence investigation. As one of the largest field offices in the
FBI, with over 300 agents assigned to the JTTF, the New York Field Office
could have assigned additional or more experienced agents who were not
involved in the Cole criminal investigation to assist Richard. However, the
New York Field Office Bin Laden Squad was focused on criminal
investigations. As a result, the designation of the Mihdhar matter as an
intelligence investigation, as opposed to a criminal investigation, undermined
the priority of any effort to locate Mihdhar.


                                        354
       Finally, we also noted that there was a clear predicate for a criminal
investigation that no one appeared to notice at the time. In her EC, Donna
noted that Mihdhar had previously traveled to the United States, according to
information she had obtained from the INS. After the FBI’s intelligence
investigation was opened, she obtained and forwarded to Richard a copy of
Mihdhar’s June 2001 visa application on which he stated that he had not
previously been issued a visa and had never traveled to the United States.
Thus, there was a clear basis to charge Mihdhar criminally with false
statements or visa fraud. Significantly, this information had been provided to
the FBI without the restrictive caveats placed on NSA reports and other
intelligence information. As a result, if Mihdhar had been found, he could
have been arrested and charged with a criminal violation based on the false
statements on his visa application. However, the FBI did not seem to notice
this when deciding whether to use criminal or intelligence resources to locate
Mihdhar.

    D. Individual performance
      This section summarizes the performance of individual FBI employees in
the Hazmi and Mihdhar matter. While none of them committed misconduct,
we believe that several FBI employees did not perform their duties as well as
they could have and should have. We address in turn the FBI employees
involved in each of the five lost opportunities.
      In this section, we do not discuss the performance of individual CIA
employees. However, we believe that a significant cause of the failures in the
sharing of information regarding the Hazmi and Mihdhar case is attributable to
the actions of the CIA employees. It is the responsibility of the CIA OIG to
assess the accountability of the actions of CIA employees.

         1.   Dwight
      In January 2000, intelligence information was developed about Hazmi,
Mihdhar, and other al Qaeda operatives meeting in Malaysia. Dwight, an FBI
detailee to the CTC’s Bin Laden Unit, read the CIA cables about the Malaysia
meeting. The cables indicated that Mihdhar had a U.S. visa and that he listed
New York on the visa application as his intended destination. Dwight
recognized the significance of this information to the FBI and drafted a CIR to
pass this information to the FBI.


                                      355
      Unfortunately, his draft CIR was never sent. A notation added to the CIR
suggested that it was held at the request of the CIA’s Deputy Chief of the Bin
Laden Unit. Several FBI detailees accessed the CIR, and Dwight inquired
about it again five days later, asking the Deputy Chief in an e-mail whether it
was going to be sent or whether he needed to “remake” it in some way. We
found no response to his e-mail, and none of the participants, including Dwight
and the Deputy Chief, said they remembered this CIR at all.
       We believe the primary responsibility for the failure to pass this
information rests with the CIA. The evidence indicates that the CIA did not
provide permission for the CIR to be sent. 274 However, we also believe that
Dwight should have followed up as much as necessary to ensure that the
information was sent to the FBI. Although we found evidence that he inquired
once about the disposition of the CIR, we found no additional evidence that he
continued to follow up to ensure that the information was sent. If Dwight was
stymied in his attempt to learn about the disposition of the cable, or if the CIA
gave no reasonable explanation for why the information was not being sent, he
could have brought this issue to the attention of another supervisor in the CTC.
In our view, Dwight took the commendable initiative to draft the CIR to share
the information with the FBI, but did not follow through adequately to ensure
that it was sent, and the information in the CIR was not provided to the FBI
until shortly before the September 11 attacks.

           2.   Malcolm
      Malcolm was a New York FBI agent detailed for several years to the
CTC. He told the OIG that he understood his role at the CTC was, among
other things, to be the “eyes and ears” of the New York Field Office. We do
not believe that he performed this role sufficiently. He acknowledged to the
OIG that one of his duties was “to monitor” New York Field Office cases, but
he said he read only the cables that he thought were “interesting,” generally


    274
        The CIA has asserted that the information in the CIR was sent to the FBI through
another cable, which may be why the CIR was not sent. A CIA cable stated that Mihdhar’s
travel documents, including a multiple entry U.S. visa, had been copied and passed “to the
FBI for further investigation.” As discussed above, however, we found no evidence that this
cable was correct and that this information had actually been provided to the FBI.



                                           356
based solely on his review of the cable subject line. In addition, while he said
his role was to “facilitate inquiries of mutual interest,” the only example he
could provide was his acting as a liaison for FBI offices around the country by
following up on tracing requests and reporting on their status. This was not
very onerous or substantive. We believe that FBI management is primarily
responsible for failing to provide the FBI detailees to the CTC, including
Malcolm, with clear duties, direction, and supervision. But we believe
Malcolm should have done more and taken more initiative in performing his
duties at the CTC.

         3.   Stan
       For several months in 2000, Hazmi and Mihdhar lived as boarders in the
house of an FBI informational asset. The asset briefly mentioned the two
boarders to his FBI control agent, who we call “Stan.” Stan did not document
this information, seek to learn the boarders’ full identities, or conduct any
checks on them.
      No FBI policy required Stan to seek or document this type of information
from the asset, and we found differences among the other FBI agents who we
interviewed about whether they would have sought such information from an
asset. While Stan did not violate any specific FBI policy, we believe it would
have been a better and more prudent practice for him to have sought at least
minimal information from his asset about the boarders living with him. The
asset knew little about the boarders, and the boarders could have compromised
information provided by the asset to the FBI.
      Moreover, FBI policy required Stan to continually evaluate the asset’s
credibility and provide a yearly evaluation report on the asset. Stan’s yearly
report on this asset was minimal, with a bare attestation of the asset’s bona
fides. It contained no indication of what evidence Stan had used to make these
attestations. While we do not suggest that Stan had to conduct extensive
reviews of everyone living with the asset, Stan’s actions in following up on this
information were not particularly thorough or aggressive.

         4.   Max
     In January 2001, a joint FBI/CIA source identified Khallad in
photographs of the Malaysia meetings. Because the FBI ALAT who was


                                      357
involved in the handling of the source, Max, was unable to speak any of the
joint source’s languages, a CIA employee conducted the debriefings of the
source, including the debriefing in which the source identified Khallad. We
concluded that Max was not informed of the source’s identification of Khallad
from the Kuala Lumpur surveillance photograph, either at the time of the
identification or afterwards. Although CIA cables covering the debriefing
described the identification of Khallad, these were not shared with Max.
Instead, he saw CIA TDs that did not contain the information about the
identification.
       CIA documents do not indicate that the ALAT was informed of the
identification, and no other evidence indicates that the ALAT knew. We found
that the ALAT included detailed descriptions in his reports of other
information from the source, which indicates he was not provided the
information about the identification of Khallad. We also found that the New
York FBI agents who interviewed the source in February 2001 were not
informed of the identification of Khallad. In sum, we believe the ALAT did
not learn about the source’s identification, not that he knew about identification
but failed to share this information with others.
      We believe that, as the ALAT, Max should have been more familiar with
the CIA’s reporting process. He was not aware that the CIA’s TDs contained
only a part of the information obtained during the source debriefings.
Although our review revealed that many FBI employees operated with
misunderstandings about the ways the CIA recorded and reported intelligence
information, a significant function of the ALAT position is to interact with the
CIA. Had he recognized that he could not rely on TDs for full reporting about
the source’s information, he could have asked his CIA counterpart directly for
any additional information from the source, and the ALAT may have learned
about the identification of Khallad. In addition, given Max’s concern that he
provide FBI Headquarters with all of the information reported by the source, it
would have been prudent for him to consult with the CIA case officer and ask
sufficient questions to ensure that he had received all of the information. We
found no indication that he did so.

          5.   Donna
    Donna, the FBI analyst who worked on the investigation of the Cole
attacks, planned a June 11, 2001, meeting with the Cole investigators and CIA

                                       358
employees to discuss information relating to the Cole investigation. She
deserves credit for organizing this meeting and seeking to share intelligence
information with the Cole investigators. However, we fault her performance in
two respects. First, we found that the meeting was poorly planned, and Donna
did not clearly communicate the purpose of the meeting to the participants.
Donna also failed to obtain significant information prior to the meeting that
could have been shared with the investigators about the Malaysia meetings.
After the meeting, although Donna devoted a significant amount of time to the
Cole investigations, she did little specific follow-up to provide answers to the
investigators about their logical questions regarding the Malaysia meetings.
We believe she did not do all she could have to acquire that information for the
New York agents, even though she had said that she would as a result of their
discussion at the June 11 meeting. As a result, the FBI missed another
opportunity to focus on Mihdhar and Hazmi earlier than it did.
       When Donna finally learned from Mary on August 22, 2001, that Hazmi
and Mihdhar were in the United States, Donna quickly and appropriately took
steps to have the FBI open an investigation to locate them. She personally
called the New York Bin Laden intelligence agent and told him about the
matter. This was an unusual step to call the agent directly, and it suggested
that the investigation should be given some priority. However, when she sent
the EC to New York, she designated the EC as having a routine precedence.
Donna’s actions indicated some urgency in the need for the investigation yet
the subsequent EC did not convey any urgency. The New York Field Office
assigned the case immediately, and the agent began working on the case within
two business days of the assignment. If the EC had conveyed urgency, the FBI
New York Field Office might have assigned additional or more experienced
agents to locate Mihdhar and Hazmi and initiated the search sooner.

          6.   Rob
      We believe that Rob, as Donna’s supervisor, is also responsible for
Donna’s failures. While the FBI at the time permitted IOSs to make significant
decisions, often with little supervisory input, we believe that as a supervisor, he
should have ensured that she was handling the June 11 meeting appropriately
and, if necessary, become involved with the planning or execution of the
meeting. Although Donna often traveled to New York to work on the Cole
investigation, the June 11 meeting involved the CIA and an AUSA, which


                                       359
should have led to more supervisory involvement in the purpose, agenda, and
outcome of the meeting. But Rob had little supervisory involvement with it,
either before or after the meeting. In addition, although Donna drafted the EC
requesting the investigation of Mihdhar, the EC was ultimately approved and
sent by Rob. Therefore, we believe he also bears some responsibility for
failing to ensure that the appropriate precedence level was used on the EC.

         7.   Richard
      We do not fault Richard for his limited investigation, which was still in
the nascent stages by the time of the September 11 attacks. As we described
above, Richard took logical steps to try to locate Mihdhar and Hazmi, such as
completing a lookout for Mihdhar with the INS, requesting local criminal
history checks, checking with New York hotels about Hazmi and Mihdhar, and
conducting commercial database checks on them. However, there were many
more investigative steps that could have been pursued, in New York and
elsewhere, had the investigation been assigned greater priority and had the FBI
provided more resources to this investigation. The FBI was not close to
locating Hazmi and Mihdhar when they participated in the September 11
attacks. We believe that the FBI in New York should have assigned the matter
more priority than it did.

         8.   Mary
       Mary was assigned by her CIA managers in May 2001 with finding and
reviewing the CIA cables relating to the Malaysia meetings and their potential
connection to the Cole attack. Mary did not find the relevant CIA cable traffic
until late July and mid-August 2001. She told the OIG that she did not have
time to focus on this assignment until then. Upon discovering on August 21
that Hazmi and Mihdhar had traveled to the United States, she immediately
passed this information to the FBI.
      We recognize that the disparate pieces of information about the Malaysia
meetings were not easy to connect and that the task of developing patterns
from seemingly unrelated information was complex. Yet we question the
amount of time that elapsed between Mary’s assignment and her discovery of
the important information. As we discussed previously, however, Mary’s
assignments were directed and controlled by her managers in the CTC. We,
therefore, leave this issue to the CIA OIG for its consideration.


                                      360
V. OIG conclusions
      In sum, we found individual and systemic failings in the FBI’s handling
of information regarding the Hazmi and Mihdhar matter. The FBI had at least
five opportunities to learn about their presence in the United States and to seek
to find them before September 11, 2001. Much of the cause for these lost
opportunities involved systemic problems. We found information sharing
problems between the CIA and the FBI and systemic problems within the FBI
related to counterterrorism investigations. The systemic problems included
inadequate oversight and guidance provided to FBI detailees at the CIA, the
FBI employees’ lack of understanding of CIA procedures, the inconsistent
documentation of intelligence information received informally by the FBI, the
lack of priority given to counterterrorism investigations by the FBI before
September 11, and the effect of the wall on FBI criminal investigations.
      Our review also found that the CIA did not provide information to the
FBI about Hazmi and Mihdhar when it should have and we believe the CIA
shares significant responsibility for the breakdown in the Hazmi and Mihdhar
case. However, the FBI also failed to fully exploit the information that was
made available to them. In addition, the FBI did not assign sufficient priority
to the investigation when it learned in August 2001 that Hazmi and Mihdhar
were in the in the United States. While we do not know what would have
happened had the FBI learned sooner or pursued its investigation more
aggressively, the FBI lost several important opportunities to find Hazmi and
Mihdhar before the September 11 attacks.




                                       361
362
                         CHAPTER SIX
                RECOMMENDATIONS AND CONCLUSIONS
       Our review found many deficiencies in the FBI’s handling of intelligence
information related to the September 11 attacks. In addition to individual
failures, which we detail at the end of each chapter, we found significant
systemic problems that undermined the FBI’s Counterterrorism Program. For
example, before the September 11 attacks the FBI lacked an effective
analytical program, failed to use the FISA statute fully, and was inadequately
organized to disseminate timely and sufficient information within the
Intelligence Community. As we detailed in this report, these systemic
problems significantly affected the FBI’s handling of the Phoenix Electronic
Communication (EC), the Moussaoui investigation, and the pursuit of
intelligence information relating to Hazmi and Mihdhar, two of the September
11 terrorists.
      Since September 11, 2001, the FBI has taken numerous steps to
reorganize and strengthen its Counterterrorism Program. In this report, we
have not analyzed each of these changes, many of which are substantial,
ongoing, and evolving. The National Commission on Terrorist Attacks Upon
the United States (9/11 Commission), as well as other OIG and GAO reviews,
is assessing the impact of the changes in the FBI since September 11, 2001.
       In this chapter, we make broad systemic recommendations to address the
specific problems examined in our review that we believe the FBI must address
as it continues to change its Counterterrorism Program. Our recommendations
flow from the analysis of the deficiencies that we found in the way the FBI
handled information related to the September 11 attacks. 275




    275
      Attached in the Appendix is the FBI’s response to this report and our
recommendations.



                                           363
I.    Recommendations

      A. Recommendations related to the FBI’s analytical program
       Recommendation No. 1: Improve the hiring, training, and
       retention of intelligence analysts.
       As discussed in Chapter Two, the FBI acknowledged shortly after the
September 11 attacks that its analytical program was inadequate and in need of
improvement. Since then the FBI has made important changes to attempt to
address this deficiency. For example, the FBI has established the Office of
Intelligence with separate management and career tracks for analysts. In
addition, the FBI has created an analytical branch in the Counterterrorism
Division and has established the College of Analytical Studies at the FBI
Academy in Quantico, Virginia, with a 6-week training program for all
analysts.
      In addition to these important changes, the FBI must ensure that it hires,
trains, and retains a sufficient number of skilled analysts. Hiring sufficient
numbers of qualified analysts is a challenging task. As part of this effort,
training for analysts must be improved. For example, we found that training
for analysts prior to September 11 was infrequent and often did not occur until
months after they began working in their analyst positions. While training for
analysts has improved since September 11, the FBI needs to ensure that it
provides comprehensive and timely training for all its analysts. 276
      To retain analysts, the FBI must ensure that it creates an attractive career
path for analysts, with sufficient benefits and stature within the FBI. Analysts
should have the opportunity to receive promotions to senior positions, such as
assistant directors or deputy assistant directors, rather than being supervised
solely by special agents who have risen to management positions within the
FBI. Prior to September 11, 2001, the FBI did not sufficiently value or support
the critical work of its analysts. The FBI must ensure that it elevates the
importance of analysts and their work within the FBI.


     276
         The OIG is currently conducting an audit examining the FBI’s efforts to hire and
train intelligence analysts.



                                            364
     Recommendation No. 2: Ensure effective management of
     analysts.
      Our review revealed problems in the management of analysts within the
FBI, particularly the Intelligence Operations Specialists (IOSs) in the
International Terrorism Operations Section (ITOS) at FBI Headquarters. Our
review revealed that supervisory special agents in FBI Headquarters failed to
provide consistent oversight and supervision of these analysts. Part of the
problem was that the analysts were long-time FBI Headquarters employees
with substantive expertise in terrorism matters, while their supervisors were
agents who often lacked analytical expertise and rotated through FBI
Headquarters on short assignments.
      Moreover, prior to September 11, 2001, ITOS worked in crisis mode,
with insufficient resources to respond its many tasks. Consequently,
overwhelmed analysts had to respond to the emergency of the moment. They
did not have sufficient time to conduct comprehensive, proactive analysis to
assess the significance or the relationship of disparate pieces of intelligence
information. Supervisors also allowed the analysts to make critical decisions
independently, without requiring any supervisory consultation even on
significant matters.
      The FBI must ensure effective management of analysts. It must identify
the priorities for analysts and ensure that their workload is reasonable enough
for them to adequately perform the tasks assigned to them. The FBI should
more clearly define supervisors’ responsibilities in managing its analytical
programs. On important decisions, including determination of the priority to
assign analytical requests, analysts should be required to consult their
supervisors. In addition, analysts should not be able to close leads by simply
reassigning them, which also occurred with regard to the Phoenix EC.
       We also believe that the analysts’ supervisors must have greater
experience and broader knowledge of the activities under their area of
supervision. Moving supervisors rapidly through critical units dealing with
counterterrorism undermines the management of the program and the FBI’s
critical need for continuity and expertise in these important units. Supervisory
positions that oversee analysts should be filled by experienced and permanent
personnel, not analysts in acting capacities or agents who rotate through the
units for short periods of time.


                                      365
      Recommendation No. 3: Require greater coordination and
      consultation between the operational and analytical units.
       Various FBI analysts and managers told us that, in the past, operational
managers in the FBI frequently overruled the conclusions of analytical work
products. Before information could be disseminated to the field, ECs
containing the analytical information had to be approved by the operational
unit with responsibility for the area. The witnesses stated that the job of
operational personnel is to verify that the facts cited by analysts are correct, but
that the expertise and judgment of analysts normally should be relied upon in
deciding the conclusions to be drawn from those facts.
      We agree that operational personnel generally should not alter or veto the
conclusions of an analyst in an analytical product. At the same time, analytical
products need the input and expertise of operational personnel. The FBI
therefore should take steps to institutionalize the operational components’
involvement in developing and reviewing analytical products and set up a
process for ensuring that these products reflect the consensus of the FBI’s
analytical and operational components.
       Because the FBI combines intelligence and law enforcement
components, disputes inevitably will arise between the operational unit and the
analytical unit over, among other things, whether certain information should be
distributed to the field or should appear in a briefing document because of
concerns that it could jeopardize a pending investigation or prosecution. We
believe that the FBI should establish a more defined and efficient process for
handling these types of conflicts. The process should involve discussions
between the disagreeing components and the input of the FBI’s Office of
General Counsel in appropriate circumstances, with a decision resting with
upper-level FBI management.

     B.   Recommendations related to the FISA process
      Recommendation No. 4: Ensure adequate training of FBI
      employees involved in the FISA process and
      counterterrorism matters.
     We found that many FBI employees who were assigned to
counterterrorism work – whether analysts, special agents in field offices, or
FBI Headquarters supervisory special agents – received little formal training


                                        366
about counterterrorism matters in general or FISA in particular. Even in
complicated matters, such as the intricacies of terrorist organizations such as al
Qaeda, these FBI employees primarily received on-the-job training.
      We found, in particular, that FBI employees’ knowledge about FISA was
limited and uneven. FBI Headquarters employees we interviewed generally
were not even familiar with the 1995 Procedures. Although they were
knowledgeable about basic steps required for obtaining a FISA warrant, they
were not well versed in the requirements of the FISA statute, particularly when
the facts of the case did not fit within a standard pattern. We also found that
special agents in FBI field offices were not well informed about the FISA
process, such as the steps needed to finalize a FISA request, or the types of
information needed to meet the requirements for a FISA warrant.
       After the September 11 attacks, the 1995 Procedures and other
restrictions regarding FISA and the dissemination of intelligence information
have dramatically changed. By many accounts, the FBI and the Office of
Intelligence and Policy Review (OIPR) are now much more aggressive in their
approach to obtaining FISA warrants than before September 11. In addition,
we were informed that in the spring and summer of 2003, many FISA training
sessions were provided for FBI and OIPR employees, as well as employees
from other Department of Justice components and intelligence agencies
working on counterterrorism matters. This type of training, in our view, should
be expanded and provided regularly.
      In addition, the FBI must ensure that its employees understand the
requirements for opening intelligence and criminal investigations that relate to
counterterrorism and the tools available to them to conduct these
investigations. This training should include detailed information on FISA and
how it can be used, even when the case does not fit a standard fact pattern.
      FBI agents also should receive training about the restrictions on the use
of information acquired in intelligence investigations. Formal training should
be provided at all levels in FBI Headquarters and for all field office employees
who are involved with counterterrorism investigations, including the Chief
Division Counsels (CDC) in the field. Widespread and continual training on
FISA and other counterterrorism issues is especially important given the
increase in the number of FBI employees who, since September 11, 2001, have
been reassigned to counterterrorism matters from other programs.


                                       367
     Recommendation No. 5: FBI attorneys should be better
     integrated into counterterrorism investigations.
      Our review found that the FBI lacked an effective system for ensuring
that FBI lawyers were sufficiently integrated into the FISA process or other
legal issues arising in counterterrorism investigations. For example, the FBI
Headquarters supervisor most involved with the Moussaoui case had to consult
with four different National Security Law Unit (NSLU) attorneys about the
Moussaoui FISA request because FISA requests were not assigned to a single
NSLU attorney who was responsible for seeing it through the process. In
addition, none of the NSLU attorneys consulted with anyone from OIPR about
the Moussaoui FISA request, despite its unusual nature, partly because one
NSLU attorney never was completely responsible for the matter.
      We believe that one NSLU attorney normally should be assigned to
handle a particular FISA request or other legal matter arising in a
counterterrorism investigation. This would ensure that an NSLU attorney is
familiar with the facts and legal issues from beginning to end of the case, and it
would give the attorney greater responsibility for a particular matter. In
addition, we believe that NSLU attorneys should have more contact with field
agents in important cases. None of the NSLU attorneys in the Moussaoui case
spoke with the field agents, or even were provided the underlying documents
drafted by the field agents.
      On the other hand, we found that the Minneapolis field agents in the
Moussaoui case did not consult fully with their CDC about what was needed to
support their FISA request, despite their frustration and disagreement with the
advice they received from FBI Headquarters. Field agents should be
encouraged to consult with CDCs about FISA requests or other legal issues that
arise out of counterterrorism investigations. CDCs also should be more
involved in the FISA process and better trained to be in a position to provide
useful guidance to field agents and represent the field office on a particular
FISA request.
     Recommendation No. 6: Ensure closer consultation between
     the FBI and OIPR, particularly on important or unusual
     cases.
      In the Moussaoui case, the FBI never consulted OIPR about the
possibility of obtaining a FISA warrant, despite the strong disagreements about

                                       368
the case between FBI Headquarters and the field office. The chief of the
NSLU told us that he had never seen a supervisory special agent in
Headquarters so adamant that a FISA warrant could not be obtained and at the
same time a field office so adamant that it could. We believe that in unusual
cases, like in the Moussaoui case where the evidence did not fit a standard fact
pattern for FISA and strong disagreement existed within the FBI about the
strength of the evidence, FBI lawyers should consult with OIPR about the
issues involved in the case. OIPR is responsible for implementing FISA and is
the Department’s expert on the requirements of the statute, and the FBI should
discuss with it the important and contentious issues involved in such a FISA
request.
      Since the September 11 attacks, much has changed about the
requirements and use of FISA, including the legal framework and the way the
Department uses the statute. We also understand that OIPR and the FBI now
consult more closely on the use of FISAs in particular cases, as well as on the
requirements of the statute. We recommend that this closer consultation be
enhanced and promoted, and that the FBI be encouraged to seek assistance and
advice from OIPR at early stages of investigations involving the use of FISA.

    C. Recommendations related to the FBI’s interactions with the
       Intelligence Community
     Recommendation No. 7: Ensure effective management of
     FBI detailees.
      Our review found that the FBI detailees to the CIA’s Counterterrorist
Center (CTC) lacked defined responsibilities. The detailees told us they were
not given specific instructions about their responsibilities and each detailee
defined the job individually. As a result, they, as well as the FBI and the CIA,
had significant misperceptions and inconsistent expectations about their roles.
For example, the detailees did not believe they were to act as “backstops” to
ensure that CIA information was passed to the FBI, and they did not scour CIA
cable traffic for this purpose. Yet CIA employees believed that at least one of
the FBI detailees had been assigned to the CTC specifically for this purpose.
      The FBI and the CIA did not have any memoranda of understanding
describing the detailees’ functions. Moreover, the detailees were not even
evaluated based upon what they did at the CTC. Instead, their performance


                                      369
appraisals were based on what they did as FBI employees, not as detailees to
the CTC.
      The FBI needs to formally describe the roles and responsibilities of
detailees and communicate this to the detailees and to the CIA. To avoid
misunderstandings and ensure continuity in the program, the FBI should
document these responsibilities in a formal memorandum of understanding
with the CIA. In addition, the performance work plan of each detailee should
be revised to reflect the critical elements of the job being performed by the
detailee at the CIA, and someone who oversees their daily work should
evaluate them.
     Recommendation No. 8: Ensure FBI employees who
     interact with other intelligence agencies better understand
     their reporting processes.
       As we discussed in Chapter Five of this report on the Hazmi and Mihdhar
matter, FBI employees we interviewed did not fully understand the CIA’s
system for reporting intelligence information. For example, the FBI’s
Assistant Legal Attaché (ALAT) who dealt with the source mistakenly
believed that the CIA’s TDs he received contained all source reporting that was
available from the CIA. In fact, other operational cables contained significant
CIA information about the source, including that the source had identified
Mihdhar in the Malaysian meeting photographs. We found that other
experienced FBI agents who interacted frequently with the CIA also were
unaware of CIA procedures and important ways to obtain additional
intelligence information from the CIA.
       We believe that FBI employees who interact with the CIA should be
more familiar with CIA and other intelligence agencies’ processes for reporting
intelligence information. Even if FBI employees do not have full access to the
reports of other intelligence agencies or the systems from which these
intelligence reports are produced, the FBI employees should be aware of the
processes and reporting by other intelligence agencies to avoid the
misunderstandings that occurred in the Mihdhar matter.
     Recommendation No. 9: Provide guidance for how and
     when to document intelligence information received from
     informal briefings by other intelligence agencies.



                                     370
       The FBI lacked clear policies and procedures for how and when to
document intelligence information received from the CIA, particularly
intelligence communicated in an informal manner. For example, FBI
employees received verbal briefings on Mihdhar from CIA employees in the
FBI’s Strategic Information Operations Center (SIOC) around the time of the
Millennium threat. One of the reasons the SIOC was activated during this
period was to obtain and coordinate the response to threat information from
various sources. Yet, the information the FBI received about Mihdhar in the
SIOC was never documented in a way that was accessible to other FBI
employees.
      We are not suggesting that every informal communication from the CIA
to the FBI must be documented. However, the FBI should establish better
guidance for its employees as to how and when such information from such
informal briefings should be documented.
      Recommendation No. 10: Ensure that the FBI’s information
      technology systems allow FBI employees to more readily
      receive, use, and disseminate highly classified information.
     The FBI has acknowledged for several years that its information
technology systems are not adequate. The FBI is in the process of
implementing widespread changes to its systems, and the upgrading of its
information technology systems is one of the highest priorities of the FBI. The
OIG and others have monitored and reported extensively on the progress of the
upgrade to the FBI’s systems, particularly the FBI’s Trilogy project. 277
      In this review, we found many examples of how the FBI’s poor
information technology systems hindered the handling and use of intelligence
information. For example, most of the persons listed on the attention line of
the Phoenix EC never saw it. Unless a lead is “set” for a specific person in the


    277
        The Trilogy project is the largest FBI information technology project, and has been
recognized as essential to upgrading the FBI’s archaic and inadequate computer systems.
Trilogy’s three main components involve upgrading the FBI’s hardware and software;
upgrading the FBI’s communications networks; and upgrading the FBI’s most important
investigative applications, including its Automated Case Support (ACS) system and the
introduction of the Virtual Case File system.



                                            371
FBI’s ACS system, the system does not notify the person that a document is
addressed to them. While it was possible for the addressees to access the
document in ACS by searching for documents containing their names, the
system was so cumbersome that FBI employees usually did not do this.
       As the FBI moves forward in upgrading its information technology
systems, it must ensure that it is able to disseminate electronically throughout
the FBI intelligence information, regardless of the classification level. Agents
and analysts at FBI Headquarters and in the field should be able to access
intelligence information readily to enable them to adequately perform their
jobs. They should also be able to communicate electronically with their
counterparts at other intelligence agencies. The FBI’s upgrade of information
technology must take into account the needs for access and use of highly
classified information.
     Recommendation No. 11: Ensure appropriate physical
     infrastructure in FBI field offices to handle highly classified
     information.
      In our review, we found that the FBI’s field offices generally lacked the
necessary physical infrastructure to readily use highly classified intelligence
information from the CIA and NSA. For example, the workspaces in the FBI’s
New York and San Diego Field Offices did not permit FBI personnel to handle
SCI information at their desks. In addition, the FBI’s sensitive compartmented
information facilities (SCIFs) in those offices were not large enough or
adequate enough to permit agents to regularly access or handle highly
classified information. In addition, many field agents did not have sufficient
access to secure telephones. For example, in the New York Field Office, the
office most responsible for counterterrorism investigations before the
September 11 attacks, an entire squad with as many as 25 individuals shared
one secure phone. In order to successfully carry out its counterterrorism
functions, the FBI must provide its personnel with adequate infrastructure to
handle highly classified information.
     Recommendation No. 12: Improve dissemination of threat
     information.
     Prior to September 11, 2001, the FBI provided little guidance to its
employees about what information constituted a “threat” and what threat
information should be disseminated in the FBI, to the Intelligence Community,

                                      372
or more widely. FBI employees told us that it was left to the judgment of the
supervisory special agent or analyst in FBI Headquarters to decide what
constituted threat information and what should be disseminated. For example,
in the Moussaoui case the Minneapolis special agent drafted a detailed
memorandum providing the facts of the Moussaoui case and an assessment of
the threat the agent believed Moussaoui posed, including that his actions were
“consistent with facilitating the violent takeover of a commercial aircraft.”
One of the purposes of the memorandum was to ensure that other agencies,
such as the Federal Aviation Administration, were made aware of concerns
about Moussaoui. However, the FBI Headquarters supervisory special agent
who prepared a teletype to the Intelligence Community about Moussaoui did
not include any assessment of whether he posed a threat, and the teletype
omitted significant facts about the Moussaoui case. The teletype was not
distributed to all FBI field offices or even to all Intelligence Community
agencies.
      We recognize that threat assessments require judgments, and not every
piece of information suggesting some kind of harm should be disseminated
throughout the FBI and the Intelligence Community. By necessity, FBI
employees must exercise discretion in evaluating potential threat information.
However, we believe the FBI should issue clear guidance for evaluating what
type of threat information should be disseminated, within and outside the FBI,
and how it should be disseminated.

    D. Other recommendations
     Recommendation No. 13: Evaluate the effectiveness of the
     rapid rotation of supervisory special agents through the FBI
     Headquarters’ Counterterrorism Program.
     Many FBI supervisory special agents rotate through important FBI
Headquarters supervisory positions for a short time, often two years or less.
Because of the rapid turnover, the supervisory positions can remain unfilled for
months at a time. We believe this turnover of managers in the FBI
Counterterrorism Program can harm the operation and management of the
program. For example, we found that analysts, often long-time FBI
Headquarters employees, were more knowledgeable than their supervisors
about the operation of the unit and the substantive subject matter. Brief stints
at FBI Headquarters can make it difficult for managers to become fully

                                      373
conversant with the subject matter and procedures in the Counterterrorism
Program at FBI Headquarters before they are sent to a new assignment.
      Part of the job of a manager is to understand the context with respect to a
particular terrorist organization or part of the world, and to use this knowledge
when advising field offices about their various investigations. The rotation of
special agents through supervisory positions in FBI Headquarters is so frequent
and rapid that managers often do not have the time, ability, or incentive to
acquire the expert knowledge related to their functions. As a result, we believe
the FBI should evaluate the effectiveness of rotating supervisory special agents
and unit chiefs so rapidly through FBI Headquarters.
     Recommendation No. 14: Provide guidance on the type of
     information that agents should obtain for evaluating assets
     and for documenting the yearly check on assets.
      In assessing the FBI’s handling of an asset in San Diego with whom
Hazmi and Mihdhar lived in 2000, we determined that the FBI control agent
who handled the asset did not inquire about the individuals who the asset said
was living with him. The asset told the control agent that two young men who
recently came to the United States had moved in with him as boarders but the
FBI agent did not obtain any additional information about the boarders, other
than their first names. Had the control agent pursued information about the
asset’s boarders, he might have learned about the CIA information regarding
Hazmi and Mihdhar and documented their presence in the United States.
     We found little FBI guidance about what information the control agent
should have obtained from an asset in circumstances such as this. We also
found no consensus among the FBI agents we interviewed as to whether they
would have requested additional information from an asset in these
circumstances.
      The FBI’s policy at the time was that the FBI agent was required to
“continually address” the asset’s “bona fides” and provide a yearly evaluation
report to FBI Headquarters. However, the policy did not specify how to assess
the bona fides of the asset or what information should be contained in the
yearly evaluation. The control agent’s report on the San Diego asset used the
same boilerplate language each year, with no substantive information provided
about the asset or the checks done on the asset.



                                      374
      We believe the FBI should evaluate its policies regarding evaluation of
assets and determine if agents are collecting and documenting sufficient
information about its assets. For example, the FBI should consider the
circumstances when FBI employees should seek information about persons
living with or otherwise closely associating with an FBI asset. In addition, the
FBI should consider detailing the minimum information an asset file must
contain to verify that an adequate background check has been conducted. This
information is necessary to allow the FBI to determine whether the control
agent is continuing to assess each informational asset’s credibility, as required.
Moreover, information from an asset is only accessible and useful if
documented. The FBI should evaluate its asset policies and consider what
information it should require control agents to obtain and document about
assets.
      Recommendation No. 15: Improve the flow of intelligence
      information within the FBI and the dissemination of
      intelligence information to other intelligence agencies.
      Prior to the September 11 attacks, sharing of intelligence information
within and outside the FBI was piecemeal and ad hoc rather than systematic.
The FBI’s normal process for disseminating intelligence information was to
route it primarily to analysts, who then used their judgment and experience to
decide what needed to be disseminated further, and to whom. However, the
analysts were overwhelmed and had to address crises and emergencies as they
arose, with little time to conduct systemic evaluations or carefully consider
what information should be provided throughout the FBI. As a result,
information that did not demand immediate attention, such as the Phoenix EC,
was not addressed thoroughly or timely.
      Moreover, the FBI lacked clear priorities or requirements for the
dissemination of information once it was collected. There was little guidance
regarding the types of information that had to be disseminated or included in
reports to other intelligence agencies. In addition, FBI procedures for
disseminating intelligence information were cumbersome, requiring many
levels of review just to distribute information, even within the FBI.




                                       375
       Since September 11, the FBI has made significant changes as to how
intelligence is routed and shared, both within and outside the FBI, and we have
not examined in detail each of these changes. 278 But the FBI’s evolution is a
difficult and ongoing process. We believe that, as part of this process, the FBI
should continue to examine its policies to ensure that it has clear guidance for
its employees to identify what kind of intelligence information must be shared
and how it must be shared, both within and outside the FBI.
      Recommendation No. 16: Ensure that field offices allocate
      resources consistent with FBI priorities.
      In 1998, the FBI elevated counterterrorism to a top agency priority.
However, the FBI failed to ensure that resources in field offices were
redirected to counterterrorism to reflect this change in priority. For example, in
our review of the Hazmi and Mihdhar matter, we found that the San Diego
Field Office did not shift its resources in response to changed priorities. As a
result, the San Diego Field Office focused little attention on counterterrorism in
general and al Qaeda in particular. The relatively low priority the San Diego
FBI gave to the Counterterrorism Program was not atypical of FBI field offices
before September 11.
       After September 11, the FBI refocused its traditional crime-fighting
orientation and placed its highest priority on terrorism prevention, dramatically
shifting resources to the Counterterrorism Program. We believe the FBI must
ensure that it systematically evaluates the allocation of resources by field
offices to ensure that each field office directs its resources in accord with the
FBI’s priorities. 279

II. Conclusions
       Our review found significant deficiencies in the FBI’s handling of
intelligence information relating to the September 11 attacks. Shortly after the

    278
        For example, see the OIG report entitled “The Federal Bureau of Investigation’s
Efforts to Improve the Sharing of Intelligence and Other Information” (December 2003).
    279
        For an evaluation of the changes that the FBI has made in the allocation of its
investigation resources, see the OIG report entitled “Federal Bureau of Investigation
Casework and Human Resource Allocation” (September 2003).



                                             376
attacks, the FBI indicated that it did not have any information warning of the
attacks. However, information was soon discovered that had been in the
possession of the FBI and the Intelligence Community before September 11
that related to the hijacking of airplanes by extremists or that involved the
terrorists who committed the September 11 attacks.
     At the request of the FBI Director, we examined what the FBI knew
before September 11 that was potentially related to the terrorist attacks. We
focused on the FBI’s handling of the Phoenix EC, the Moussaoui case, and the
information about Hazmi and Mihdhar, two of the September 11 terrorists.
      Our review found that the FBI had failed to fully evaluate, investigate,
exploit, and disseminate information related to the Phoenix EC, the Moussaoui
case, and the Hazmi and Mihdhar matter. The causes for these failures were
widespread and varied, ranging from poor individual performance to more
substantial systemic deficiencies that undermined the FBI’s efforts to detect
and prevent terrorism.
      By describing the action and inaction of individual FBI employees in this
report, particularly the lower-level employees whose conduct we discuss in
detail, we do not suggest that they committed intentional misconduct. Nor do
we think that they are responsible individually for the FBI’s deficiencies in
handling the information related to the September 11 attacks. We believe it
would be unfair to blame these individuals, who often worked with insufficient
resources and with overwhelming impediments. Many pursued their duties in
good faith, making difficult judgments about where to focus their efforts.
Some performed aggressively and well. Others did not do all they could have
and should have to respond to the information they received. While the FBI
should examine the performance of the individuals who we describe in this
report, we do not believe they are personally responsible for not preventing the
attacks or should be blamed for the tragedy that occurred.
      Rather, we believe that widespread and long-standing deficiencies in the
FBI’s operations and Counterterrorism Program caused the problems we
described in this report. For example, the FBI did not handle the Phoenix EC
appropriately or give it the attention it deserved. The FBI did little with the
Phoenix EC before the September 11 attacks because of the FBI’s inadequate
analytical program, insufficient supervision of analysts in the program, the
focus on operational priorities at the expense of strategic analysis, the failure to


                                        377
adequately share intelligence information, and the lack of adequate tools to
facilitate information sharing within and outside the FBI.
       With regard to the Moussaoui case, the Minneapolis FBI agents deserve
credit for their tenacity and instincts regarding Moussaoui’s suspicious actions.
These agents did not receive adequate support, either from field office
managers or from FBI Headquarters. Although it is not clear that even if the
FBI had pursued the case more aggressively it would have succeeded in
obtaining a warrant to search Moussaoui’s possessions before the September
11 attacks, the handling of this case illustrated systemic deficiencies in how the
FBI handled intelligence cases. These deficiencies included a narrow and
conservative interpretation of FISA, inadequate analysis of whether to proceed
as a criminal or intelligence investigation, adversarial relations between the
field and FBI Headquarters, and a disjointed and inadequate review of potential
FISA requests by FBI attorneys.
       With regard to Hazmi and Mihdhar, the FBI had at least five
opportunities to uncover information that could have informed the FBI about
these two terrorists’ presence in the United States and led the FBI to seek to
find them before September 11, 2001. But the FBI did not uncover this
information until shortly before the September 11 attacks. The FBI’s
investigation then was conducted without much urgency or priority, and the
FBI failed to locate Hazmi and Mihdhar before they participated in the attacks.
Our examination of the five lost opportunities found significant systemic
problems with information sharing between the CIA and the FBI, and systemic
problems within the FBI related to its Counterterrorism Program. These
problems included inadequate oversight and guidance provided to FBI
detailees at the CIA, FBI employees’ lack of understanding of CIA procedures,
inconsistent documentation of intelligence information received informally by
the FBI, the lack of priority given to counterterrorism investigations by the FBI
before September 11, and the impact of the “wall” between criminal and
intelligence investigations.
      In evaluating the FBI’s actions in the three matters examined in this
report, we cannot say whether the FBI would have prevented the attacks had
they handled these matters differently. Such a judgment would be speculative
and beyond the scope of our inquiry. But while we cannot say what would
have happened had the FBI handled the information differently or if the FBI
had pursued these investigations more aggressively, the way the FBI handled

                                       378
                                                               .




these matters was asignificant failure that hindered the FBI's chances of being
able to detect and prevent the September 11 attacks.
       In this chapter, we make 16 recommendations to the FBI to address the
problems we found in our review. In providing these recommendations; we
recognize that the FBI has made significant changes since the September 11
attacks, and it is already addressing many of the matters that we describe in this
report. But we believe that the FBI should know exactly what happene d with
regard to.the PhoenixEC, the Moussaoui case, and the Hazmi and Mihdhar
matter to ensure that it fully addresses the systemic failures we found in these
matters. We believe that our detailed descriptions of the FBI's actions;,
together with our recommendations, can help the FBI improve its
counterterrorism operations as it transforms itself to better address the threat of
terrorism.




                                        Glenn A. Fine
                                        Inspector General




                                       379
    ACS - Autamated Cme Support System
    ADPC - Assistant Director in Charge
    AG Guidelines - Attorney General Guidelines
    AGRT - Attorney General:$ Review Team
                                        -
    ALAT - Assistant Legal Attwhe
    ASAC - Assistant Special Agent in Charge
    AUSA - Assistant United States Attorney .

    CDC - ChiefDivision Counsel
    CEA - Central Intelligence Agency
    CIR - Centmdl Intelligence Report (CIA)
    CIRG - Critical Incidents Response Grc~up
    CZ'C - Counter Terrorist Center (CIA)
    CTD - Coun~tertemrismDivision (FBI)
    M3I - Direetcor of Central Intelligence
    DEA - Drug Enforcement Adnmi8isbra~m
    DTOS - Domestic Terrorism Operations Seetion
I




    EC - Electronic Corrmunication
    IFAA - Feded Aviation Administration
    FBI - Federal Bureau d Investigation
    FCIt - Foreign Counterintelligence
    FFI - Full Field Investigation
    FISA - Foreign Intelligence Surveillarnce Act
    FISC - Foreign Intelligence Surveillance Court
    FTO - Foreign Terrojrist Orrgamimtion
    GAO - General Accounting Office
    IIIA - Integrated Intelligence Information Application
    INS - Immigration and Naturalization Service.
    10s - Intelligence Operations Specialist
    IRS - ~ntelpi~enck Research Specialist
    ISD - Investigative Services Divi-sion
ITOS - Intemtational Terrorism Operations Section

JICI -Joint Intelligence Committee Inquiry
JTTF - Joint Terrorism Task Force
LEGAT - Legal Attache                                      .   .


LHM - Lettdhead Memorandm
M O P - Manual of Administrative Operationsand Pkooedi&m
MIOG - Manual of Investigative 0perati.onsandGuidel.ines

NSA - National Security Agency         I




NDPO - National Domestic Prep8pedness Office
NIPC - Nationd ~~~e            R O ~ CProgram
                                          ~OI~
N m p - N8~tior~a.l
                Foreign Intelligence Pnu~gam
NSD - Natiod Security Division
NSL - National Security Letter
NSLU - National Security Eaw Unit

OGC - Office of General C o w e l
OIG - Oflice of the Inspector Gened
OIPR - Offiw, of Intelligence Policy and Review
OLC - Office of Legal Counsel
OPR - Office of Professional RespomibiPity
ORCON'- miginator controlldl



RRI - W c a d Fundamentallist Unit
SAC - Special Agent in Charge
SCI - Sensitive compartmented infomation
SCIF - Sensitive Compa.rtmented Information Facility
SDNY - Southern District of New York
SIOC - Strategic Information Bc Operations Center
SSA - Supervisory Special Agent
STeT 111 - Secure Telephone Unit third generation

TAOG - Threat Assessment On,eratiom Group         .
TD - Te~egraphicDissemination (CIA)
        TECS - Treasury Enforcement C o ~ ~ m i c a t i oSystem
                                                          n

        UBL-Us-       Bin Laden
,
I       UBLU - Usama Bin Laden Unit
        USA0 - Un.itedStates Attorney's O d c e
i
1
    .   USIC - U;S. Intelligence Community

i
        WTC - World Trade Center
                                       FEDERAL BUREAU OF INVESTIGATION


Precedence:                         ROUT1 NE                                      .       Bate:   67/10/2001
                        )' .,   .                 \


TO:, Countert6rrorisrn
 .        ,




ISE ,a-
      aa.~i3
     ..
              ,-                           .e-\tm              (JJb
                                                                 ..
                                                                                                                    .        -
                                                                                                                             :.   .
                                          \   .
               H e w Yor k



From :.                Phbeni:x
                                Squad16
                                Contact:              SA   Kenneth 9 . Williams
Approved By:
Dref t e d B ~ .: ~ i l l i a r n sKenneth
                                   . .     J


Title:                  81
                                81
~ b o ~ s: i s UBL and AL-MUHAJIROZPN supporters attending civil
avi.at ion unive~rsitiea/collegesin the S t a t e ! of Arizona.
                   .                                                                  .    .

                        8 ) .                         ~etiv@d.'rhom: 0 - 3
                                                      Declassify OR: X I .
                                                                             ,



1-11'                           ~ i e l dInvestigation.Instituted:                    04./$7/2bl10. (NONVSPER) -'




Details:
Bureau an
                          fl
                         The purpose of t h i s ccmunicrtion is to advise the
                       w York of the possibility of - a coordinated.ef fort by
                                                                                                                        *-




USAMA-BEN-U~IXN [UBL) t o - send studentsl to the United S t a t e s to attend
c i v i l aviation universities and colleges. Phoernix has observed an
inordinate number of individuals of l n v e s t i g a t ive i n t e r e s t who are
at tending or who have attended c i v i l a v i a t i o n universities and
co-ges           i n the S t a t e of Arizona. The inordinale number of these
i n d i v i d u a l s att(ending these type of schools and fatwas issued by AL-
                                                               rom:   ,'   Phoenix
                                                               07/10/2602


             MUHJ I ROUIl spi r i tua l 1eader SHEIKH 0JU.R BAKRI HOHiUfl4ED FOSTOK, an
             ' a r d e n t supporter of UBb, g i v e s reason to believe that a coordinated
             e f f o r t , is underway to e s t a b l i s h a cadre of i n d i v i d u a l s who will one
             day b e .working i n the civi 1 .@viation community around the world.
             These i n d i v i d u a l s w i l l be i n a position i n the future to conduct
             terror a c t i v i t y a g a i n s t civil aviation t i r g e t s .
. ..,.
         ,
               .
         ,. .. .
                                       Phoenix believes t h a t t h e FBI s h ~ u l daccumuiate a
              'lls t i n g ,0 : c ~ w L 1'aviation universities/college!3 around the country.
             . F B I f i e l d o f . i k 6 s .with these types of schools '$n their area should
              es tab'l'ish h h o p r i a t q liaison. fBlHQ should discqss this matter with
              other elernent.8bf tfie U.S.: .intelligence comm~nn!.ty and task the
 ..           comnuni t y for,.        any intormat i o n t h a t support;' l?hoenfx@ s suspicions.
              fBIHQ should ;c,ms:idergeeking' the necessary authority to obtain v i s a
              inf o m & tioh I;$;kmthe USDOS on individuals obtaining visas t o a t tend
              chese r*es of 'schools and n o t i f y the appropriate FBI f i e l d office
              when these iridividuals are scheduled to arrive in their area of                                      .   .
              re-sponsibiliry.
                 -.              . .      ,
                            .   '   i..   .   '   <.   .   ,




                           hoenix nix' 'has qraw
             Phoenix investigati
                                                                            the a&vi;conslhggion
                                                                                 . _ . !.. .     -:fram, several




         w
                           Phoenix has i g e n t i f ied several. arsociates of                                at
                 who arrived a t the u             y around the same
               ese individuals are Su              ims who have t h e
             fundamentalists views as                 They come from
                                                    .
                              om:    Phoenix                ,




                              07/10/2001




                                                        ,
                 The above indivia~ansare invoi                 and
regularly p a r t i c i p a t e in meetings with him in         na   .


           'w                     which in English means THE
                The. AL-MUHAJ~ROUN~
EMIGRANTS, is a -Sunni Muslim fundamentalist organization based in the
     e d Kingdom. he orge~ization's spiritual leader is SHEIKH OMAR .
~ nt i                                                  ,


BAKRI MOHAMMED FOSTOK. The .organization is dedicated to the overthrow
                                                                                        om:                  Phoenix               ,        .   , ,.   .

          Re t                                                                              07/10/2001
                                                                            .       .


          of western society. British off l c i e l s have !reported t h a t FOSTOK f i r s t
          came t o their e.ttentlon,during t h e Gulf War after calling for the
          a s s a s s i n a t i o n of Brit l s h Prime Minister John Major. FOSTOK has
          connect ions t o O p t , JAjllUT .AL-*IJIUSLIBbIhIJ (JM) , HAMPSI*..       .. . and
                                                                              HIZBALLAH.
          t h e ALGERIAN SALVATIO~~'
                   .      C .
                                                FROIR                                                   .                                                                               -.t




                                    FOSTOK has made severel contrbverr~iel statements ta
          t h e press. For example; he st,q.fed la public interviews that the
          bomb$nga.cf the United $tateat Embassies in Africg were "legitimate
          targets.
                     ..   .                                                                                                        (   :.                                                             .   .       .         . .
             .   -
                                                                FosWx,
                                      whl Le eepresent~n. M O : d h ~ - ~ ~ ~ i ~&ned        Q U .,a
                                                                                                  l l ,                                                                                           .


    :,   -faiwa(r ,:,g o u a . ? 3 ~ r e ed) u r i n g ' February. 199 8 wh9clh s t b ted the,          ..   .                                                                                                ,
                                                                                                                                                                                                                            ,



         fol'~owih~:;.
    '




                     .        .
                               .
                                  ,09.'. >.    .
                                                   "



                                                                    .   .
                                                                                .



                                      The Fatwa ,is j ihad 'akatrnr th& tl s;~.and ~ r t ii s h
                                                                                                .
                                                                                                                                                                .   .   .

                                                                                                                                                                        .
                                                                                                                                                                            .
                                                                                                                                                                                .   .
                                                                                                                                                                                    .                         .,
               ...

           crbver.rke.ht, nnies, ipte.rests, -ad,cperts( e ~ n p h i ~ ~ $ . ~ ' . ' aby                         d d FBI
                                                                                                                     ed
           ~hoenixi).    , and: i n s t r u r t i ons,'and i.t'''hesbeen given Because of the U .S .
           a n d Q r it i s h affgiess3on a g a i n s t ~usl$ms,                  and t h e MhlSlim land o f
         . Iraq.         .                ..
                                           '



                      .we. con$i r m that the :only::I.sl,amiq                         :Fa..tya,ag~i~stijth3.s.,'expli~it
                                                                                                          .iciShh ' " to'
                                                                          trices sa~@i?~f.alf!'bk~e~~~~id.&:
             gg re,^ c,ioh 4 J f had,. :Pherefore..        ',                                                                                                                                 '


                                           ~ p y sl g ~ v ~ ~ nonrMvslirn.
          g . o v r ~ ~ n t s i . ~ o r :ather                                    ~ n ~ : , .q&d~t:ries.:-*
                                                                                                     ~ f
           stay.8way~'~from...I~sq,         lalestdne, Pakistan.,:.,.:#~~abi.a,,~tc.:.:.~r                          face f u l l
           s c a l e w a t - ' o f Jihad s-hich it is -the..,              respons$:bil.$ly'and             t h e duty of                                                                                             .,,         .

          every Muslim around the . k * ~ r l d , .t@                   o a r t k i p a t e',in.:. iKe. ., ..c@11:
.                     .
          upon. .Mbslims. ciroubd the- vg.r~d."i~ncluding::~l~~~~ms:                                "I                       , c ' h. d
                                                                                                       : l t h 6 . ; ' ~ ~ ~ ,:in                                                                                                     '




          Br:it Ian.t o .-c~n$rori      t '.by k i ' l $eiieans.-:*hether -:vekbail:~,               f inancially ,                                                         .


          politlcall~or m i l i t a r i l y the ~;~.:.~a,,nd:+f)r$t.%.sh~~~~~~$gies!&'i6~jand                            do .
          t h e i r Islamic .gutty in.reliavihg,,:thk':                       $da.gi..-pe'ogle,$
                                                                                         . ..       rorn    the..,unjust,'
                                                                        .
          s a n c t ionsf...! . .                      '
                                                        . .
                                                                ,
                                                                  ..:
                                                           . . . .. . .
                                                                   .
                                                                            a         .
                                                                                  . . . I
                                                                                          . .       ;
                                                                                                             '
                                                                                                                 '.
                                                                                                                      ..
                                                                                                                           .
                                                                                                                               '
                                                                                                                                                       ,   ..
                              rems 'Phoenix
                                o7/no/zoo1   .




     .   .                                                        . .

                   o n 06#200l;      the
                   ,.arres e , two irndli
                    to being members of W3L:s AL-QAtIDA organization.
    Evidence was developed demons tra t.i.ny that 'these indBviduals were
    planning an operation,to          a U;S. E              U.S. Milifary
.   forces' in Saudif Arabia.         passport               in the name of
                                                                        . . ..- . ..
             . . . .. .. , ..
              :"
             . .
             . . . .. .
             -:       ,
                                .
                                    ':aO,'
                                         ,   ..            .   .   ..

                                   6ddlievas th&l;t"'%s,more than-d =oin~idence
                                        &.enik:
                                                                                       .       .
                                                                                                   -. .   :
                                                                                                               .
                                                                                                                 ,
                                                                                                                   . . . ..
                                                                                                              ....(.              .   .


        that"".subj ects who hze .Irsllppog-tees :of. UBL,         i b t tj.en@$ngd i v i P *viati-.
        uni've,ssit.,ie~./ct$l&eges,in tha s t a t e of ~ri'zonla..:As'.receiv'ng           ..offices
        are -aware, Phoen.ix'hasis h a d siqj'n3.fie@n.t : l O ~ tasscic%iites/operatiyes '.                                  .

        living in the State off Arizona and'ebndpcting alctliv'lty i n s u p p o r t of
              .
        UBL WWIH EL-I,#GE, ga - UBL ldeutena,nt recently convicted:for his role
                  .

        in. the 19918 bo~nbingsaf-u.S. .-$sles--,$n
                                                                                           '



                                                                A f r i c a , lived i n Tucson,
                                                                                                                                          '




.       Arizona f o r severel.' yearg .:.'during,khk 138.08..ESSiM',A L - R ~ D X , a personal
        pilo.t<"f6rUBLiekav@aed.t.o.'lPuci~n~,       ~kizonB:di$r$n,g,1993.a$' the                 . . . . . .




    '   established sulpport network in place in Arizlone. This network was
        most l i k e l y e s t i b l i s h e d during the time periled t h a t EL-HAGE l i v e d in
        Arizona.
    To:   Coun                r     : Phoeoix
'   Re:   Q                       07/10,/2001


                     This information, is being prcvided t o receiving
    offices f o r information , analysis a n d comments..
     To:         Countert            rom:    Phoenix
     Re:                              0711 0/20.01




     LEAD (s):
        0   .




     Set        Lead 1:




                Ob The RFU/UBLU is requested t o c a s s i d e r implementing'
     the. suggested a c t i o n s put forth by Phoenix a t the beginning of this
     c'ornmunieation. .
..   s e t Lead     2:

                PEId WORK

                     &T IdFw YORX, R?EW YORy
                     8      Read and Clear
The Honorable elam A. Fine
Oflice of the I[nfp~&r &and
United Statce Dbjputmeat of Justice     .
Rsom 4322
950 Penwylvmia venue^. N.W.                                                  .   .
Wmhingt~n,D.C.-20530
Deer ~ rF h. :
                                                       -
                 ]Re: OIG DRAFT AUDIT REPORT A R3BVII3W OF THE FBI's
                      HANDLING)OF mumCE nlFOIwA.oNRELATED -TO
                      TEE SBPTBMBER 11 AmACKS
               R - e f i c eis made to ur.aemomrrm~,date~lMay 2#, 2004               amd June 10,
2004, r e q u d g the PBI d m the     EL     five olhagtem arad ths r ~ m ~ e n W 0 pofl sthe
subject draA andit report for fitdud muracy andl for whdha anythine:ixn the                '
recmmenWon~*is       c~~         or too s d t i v e for public m1euw. L dLditi01a the
memorandum sought our ccmmmb ss to whether g not the FBI belicwd the                                b.



r e c o ~ o aend    s co~cfusio1[18  waa bitha i.nmamteor mwmmed, Thb document
is the PBrs fomd r a p o ~ b   e the          insccraaCmuhioh is &achRd and the report's
ncormnealWonm. The c l a 9 f l d m a d sdtisrity r d a v . ~ a npr'oviciedl
                                                                       l       mder separate
                                                                                . .
cover.
                Onbehdfofthe~~r,Iwantbthankyuumd                      our:staEforthisreprt
Office of the Idspsdor h d ' a input as a m]m~)rehensive
                                                                    &
and for the wuntlIcm hours of hadl work that it required. As you low, the FBI values the
                                                             iu2dq~egdent.$sswsmmt  of our
opemti011~
stmqthen our
revim shortly
                   3 " idmT
           andas a cans f
                       *om.~ his w
                           I
                                       g waknnes~esthat re&3 mmxtive action to
                                   t y thc ~r       r e q u c x ~your ~ffiwtoanduct this
                     the 9/11 tragedy Based upon our revimv, your h(B3(md     'i
                                                                                           .


recomenMons apre wmi8&entwith the F'Ws internal ~~~s idwith those of other
oversight entities. I am pleasd.toMom you tPnaa the FBI haa nnad~eigpifica9.tprogress
not only on th6 m~mmenb~ions E d in y ~ ureport            but om,all the iasuss covered
by our own intend aa8cssmants.     E                 r


         Before responding to the individual nmmmendatiam, the GIGand the
American public n~eedto be made aware of dhc progrew madle by tha P e c i d Bureau of
InvestigEbtim       gin@ tihe h o d c atbclf$of September 11,2(Y01. Ifw e only
responded to the rmmmmdatiom in the report, madmw6uld               an incornplate .                     I



picture ofthe progress we h v e made and pdup8 have a ~ E o u l time
                                                                 ~ t piedng together
    the i n f o d m under sixteen di~81~mb  mm~endtiom.W~rpr           Mhebr hae
    implemented a oomprehmive plan tmat thadammtally tranefo:mthe FBI to enharice
    our ability to p d c t and p e n t fitwe atts of tcmorim. W e havo ov(huld-wt
    0 0 u n M s m qeratiomsq m d d our intelligence capmbilitie~~       m d w our
    bkinegs pmticm and technology, and hpmvwd coordimtion with our partnm. (U)
              -tor     Mueller replaoed a priority system whioll allt~wedsupenieors a great
    deal bf flexibility with a set of 10 priadtim tbat Wtrictly'gvvamthe allcsation ofpersome1
    qnd ~ O U T W h &cay FBI program and field ofFloe. Coum~tertemdsm,iie now the
    overriding priofi~ty~and e v q t a m o h lead io addressed, avee if it requires a ctivmion
    o l m o u r &om~ other priority areas. 0
             To hpl~meat   thesenew prioritiesOwe increased ths number d S p d a l Agate'
    adgned to tanotiemmattsra'andW additionad intelli&mcetmndlrni end t n m s m .
    We also estabW~dr number off o p d o d e         t ahd mtitiea ithat provide n m or
                                                     a
    b p m v d .@i]litia to address the terroristtkmt. Thme hc11ade tPle 2447
    C h m & @ m o h ~Watch (CTWatch) and the National Joint Tsmih Tssk FOICC
    0to rrmaulga' d dmre thrarat M d o q the Tanxima Fimmciq optmtion
    S d o n Crpos).to c e n t d h e s r b to stop terrorist kmcw,docmsntrneditn
    exploitasionequads to exploit mateaidfound both domdlcally d ovemeaz3 hr ita          -
    intelligencexPlae; deployable "Ply T W :fo4atd w     ~       ~eaq-ama
                                                                       ~       r                  itn
 ie d e d ; tho Terrarist.SareomingWer          o.
                                              d F a j l ~ r . T ( m 3h~kir~g
                                                                    m       Task
.Force(FITIF) to help identify tcxmkta anal keep them out of#e United States; the

    ~~~the'do$lmaed                 Uhe Mcabrn of tamrid$ d ~ v i t apdnd:
                                                                    y     the U.S. fixxq a
    &'8b@~P C ~ X S ~ ~ ~CU)
                         V~B.

             We cent-         f a a a a ~ &ofour -rim                 I k g r m a~t Headqnartgs to
    Wt "s&ovqpipiaag"ofigfodoom, b egma mmistmcy ~~f~foa,~:cxtemW
                                                              @&ties
    and drategy m I wthe orgaahtiofn,to integrate oo~lflterka~~rirm
                                                                 copaations here and
    ovemwas, to improve &dimation with other qpnciea aod p v t m n a b , and to make
    senior ~~1&1-e            for tho o v d duweloprnent end sanaws of our
    oouRm*          emnts.@J)
          -, Tha m I b bdw m&@S43-Wiide ilIbfigC%lCe PKD- ahat has .
    mibsbntiaUy impbved our ability to &ntte@dydirect our in6(~Iligme              cblleotion and to
    &,analyze, an(! disc our tm*-mMd inteIligena3. Aftsr pwsag6 of the
    USA PATRIUI?Act, related Attorney &mad GuidelinaDand tho eoeuing aphion by thc
    Fodgn Intelligence $UI'V-C~Court of Review i'e~novodthe,badw to shsting
    idomtion betweem intelligence and criminal hvestigatio~w,we qkickly implemented a
    plan to integrate all our c q a b f i h to better pmvr&t tmri'lprt attach. I f h Q o f Muellla
    elevated intelligence t6 p r n ~ l e w l .pubclng   ~ , in place e fad dmctunm and
    ooncglpb ofopm~om        to govern FBI-widle hbU1"um.eb . & o ~ r n a , md ~wtablidiqg    Field
*   %tat~IIligaceGmutp~@          inIway
                                      &)    field office. (U)                                    -7
                                                                                                        I.
                   ~ n r tthattwe ~           ornot
                                                  ~ defeat terrorism 1wiC~uta t m partndps,
                                                                                          ~~~       we
          have t x b n o e j the ldvet of OOO&~OIR amd hfbmatio~u~        b n h g with etete md muicipd
          1~ d0I'WIBM%ltp6~~0fptn61.       WWBqmdl0d thb INllIlba 0fJ0ht Tmd8&lT& PoIUW
          (JTTFa), Pnm~medtech010~caImmdvity with our parhors, andl impl8mented new'
          way of &&I$ ~&IPI&OII            ~ U @ ~ I~ h b l s0 u8 ~ h
                                                                    a~ tho PE)II n t ~ I l i ~Bdl&,
                                                                                              g a ~ ths
          Alext $yetem, md the TeProrist S d g CkntweaTo      hyprr,v~sw o r d i o n with other
          f e d d sgencius and m m b m of bhe ItiteIligme Com~~unity~       we joimed with our federal
          prtnem.toestrblishthe TermfisQTheat htegmtion Calk, excrlmnged pmom01,
                         &Mwp
      '


          institutedjoint         BDd &utd wing saouae networks to abum iaiformation. We dso
                                                              by bddhqj on ths ovemea$ .
                                                                                                           I




                                                       by offkiag i n v t b d g a t i v 4 , and forensic
                                                       on task fo~cesandjoint 6 p d q n e . Finally,
                                                                  andl hqmbved c o o W a with
                              .   '
                                                            .
                 ?he WI is making ab&imtidpmpea~in uppuling(ouri p l f o n technology
          to &earnhe aa businas proosrrws sad to improve our 8bfityto sesroh for aad analyze         '
          i n f o d q . d r m w cotltldom, dpnd.sBare     itboth inside ths Bmmu amd out. We have
          d e p 1 0 a~saoura high-speed nefm& gut nsw or upgraded e~qmte~rs          on desktops, and
          ~IliM            terrorist i n f b d o n in a s ~ l centrale database. W3 developed, and am
                                                                                  4
          pii$sring to launch, the V i CPss IPib armqpment tystaa tbsd win revolutionize
          haw:the . FBI
                     .     dew b a r n . 0

                   Rwmgin-eB*                                          :y mom cfi~5entand mon
          r@@onsiveto q d o d needs.                                   to st~rntegiclplmmhgpand we
          r6ficused our r e d t i n g and hiriag to ettrarotWviduals with dkilI,~critical t~ our     ..
          wunterterrohl and intellii~wathiom. FYe have devalbped a more'con;lpfehmivc
          training program ad Wtarded now l&&p               Mtidvtx to keep our worlborcs flm'ble.
          We am r n o d k n k the ~ storage and                of FBI ruoonls. We nlso bdt, md
          continao to hpr~ve,an sxted\~e        d % y p g r a mwith c c m h k d lad-,
          professional security permme&more rigomus seourlty 1~8m              ad ~  ihqpmvd
                                                                                       ~       security
          e d m t i o b l a n d m ~0
                                   .
ki                 These i~tnpmvemmtshave ptoducedtangible end rneas&]Ie 1xm.lts.We
          signiflcantly incrcasbd the hukber of human s o m and We amount dsurvdmce
ii.       coverage to support our e      o       m c&rOsr.,We.dev6bped
                                                        ~
          briefing daily threat Momtion, ead O c ~ d d l h-edy
                                                                        aad mimed aprocess for
                                                                    tfnb nnrmbtr of PBI
          intelligence reparts produced and dheanioated Berheps most ifirqorkiint, since September
1:        11,2001, we have participated in dkqpting hams of tmdat op&am by developing
          donab16 htefige21ce and be- 000-              our count~#rOrTim~  affotta. 0
[[                 Prior to ~epiember11,2001, the Bureau had no cathWw1stnucture for the
 4
          national rm~nagmemtof its C o u n t ~ r i Program,
                                                       m        and t m h oasm were routinely
          managed out of h~dlividualfield offices. An d-Qa9ida&q j6pr ~:mnple,,
                                                                              might have been
          mout          New   YO* I P ~ ~O M~  W 8 a
                                                   ;       ~t~egh,~  ha~et~m
          Wdhgton Held OftimeTlnie                    hctjPonedfor y w q , md
          of impwsive prosecutiom. Once c o u n t a m r i m beoame om overddix~gpriority,
howws, it became clear that UMa                       a t had a ndbsp of fhiliqpe in that it 1)
"ertove=pipd"h~rdgativeintelli                        mna~hlonm a g field offlow; 2) clifbd
respm'billty and mmtability bdwem c m m n m h l of]EiidaIsat PBI H a d q m
and tho SACSwhb had pnImcpy rqpodbWity.for the individwd ternmi invatigtttiomq
3) allowed floldl a ~ f l i i c kto ais~igtnvarying pfidti.a and fe8Iome lweb~totendig p u p a
md threats; 4) impeded ovmfght by FBI l d a p , sad 5) co~pltioatadm a o n
with other federal agaeciea and emtitiw involved in the war a g k t Qer:mrisllo.For d
thee@rsaeom, it l~~eoams          apparent that ths Co~%1tatemohn    ~pcigpbm  m ~ d e dcm-
leadcrshp. 0
      In Deca110ezl2001;theDimcbr mrg-        and !qanded&e Corn.
DivMon (CIP)id&the p o ~ ~ o n . o f ' ~ ~A: e~ av k: Q e&dm (BAD) foo .
                                            8istmth-r ofC'IDrep0r$ tosthe
   .                                       .~tonrma~~rm~md~~-to
oooralmPteoo~~rmrop
ovawss; b d l u d Wanwith other agedm and gov~rne~l~ts;     lmdl to establish clear
ha o f a o c o foi~ fhs~ o~ v ~d b 8 1 ~ e g t . irmd-1  ofour corn--


   JiVe.di*Mtho                              CXnmMkm&n.Di.vis:imIntolxttmhq                .
    b&a1b9eaoh
.WOIW,

hvdtaap- wlho work clo
acJms campal&& lines. 1
                      'w
i g l f e i o n d qdclk
0
         The Bpn.esn is dedgnd, mdhos dwap opeimbd, m a1 law e d o ~ p c a n e6ndt   im
intelligence agea~cy.It has the dualm i d o x 1) to iavdig~deamd anwt p             of
mnpleted h a s (the law ~ o r c e mmMd)   ~t       and 2) tab     ietelligenm tbat will
help prevent futuw crimes aad assistpolicy &em in 4hdr decision qdiing (the             .
htdigencemidon). Hiwry has &own that we rrs most effective in p m t w the U.S.
whsn W e pd01llldthese tW0 & I ~ W ~ O Mh           (U)
                                 .   .
          The FBI[mm       that iarvdgatiom could pn!oduce inbfligpce benefits
                                                                                           '    '




beyond amstrnnd prosecution. S      m witlb the Ku Khu #fmc cmes in Uhe 1960'a and             the
M a oases of the 1970t~,our        began to vim crimhlal ir~v&gartiom not only as a
meme of axreat&& amul P ~ K marime) ~ ~faua complated
                                                   ~      o h e , bat also as a mazms
of obtabhg W o d m to prevent fibre mime. Tha palwaal not &ply to erregt
i n d i i w memlm of the Klan or the Mafia, batt to pm&rateand hnmtle the whole
~        o     ~    o(Up r        ~       .

                          ~ h ndopted, tha PBI M
         h fhb i a ~ f ) mww                     ar developed the intelligence t ~ -~ b
euoh I&.eleabdo anwillm~      dthe dti.Won of h m m kirooea-#thatara mitical to
~~        md p~mmtingcfbdd d~ty            w.
                                            e also learned to think 8tmtedcally before
                     d d n g arrwts1, sometinn88 opting to &hy 8 tmqwtt'eelrest to dowr more oppmbdty for
                     eMOiiia~        d
                                     u might dlis,01O~eOthar 0o~batot8or      C ~ pleae. Wwe have Ueed
                     tslis app~roachto'greataEeotinorg         odme casw and qpionage)hwstigatiione, man8
I!                   mabeera of our Safe Stm& Taak Farm we it in their !fight againsd etrsst gange. (0)
                             Thie is the approah that ie needed to prevent ternfitmeRior to September.
I
 I

 L                   11th, howeverywe wem ]handcappedin our ability to implenaent this approach in the
                     comtatmrrirnq ark for two primary r w o r ~(U)  .
I!                           Firsf judicial nillea and DOJ irntamI p d m m 1 1prohibittxt ow t o u n t e r t d
                     agcnts woddn~   htelligmw oases Born cwdmtiq snd e h i q ;j i a f ~ ~ ~with   odt

I!           -
                     crhhd agents who o h wcp.0

                     f'hd0nhgi n l b 3 ~ a~p m  6b & We
                                               ~U
                                                                   sandp-~lM-wforefolly
                                                                b ad&wt381 eaoh 0 f t f i ~ %m,bkm
                                                                                            ~e
Ii                   iqmgidiately a h the s q w e r nn, 2001 tlmGk8. (U)
                              . By &£hition, inveeti-     of-Onal          Qnvrislnam both %teIligmceyD
 I'                   and "crimbd'' irnvdguticms. They am intelligence investigertio~wbtm-usethair objective,
                      pursnent to Executive Order 12333, is 'Wle detection mdoountezhg ofinternational
                     '-& wgvitim," dbeoauss thsy q 1 o y the ~ I i e s - - rhvd&atiive
                                                                                     d          too18 -
 I'
4. .
                      sub-asFod@lb t 6 I l i g &UVdhM
                                                  ~               - '       - thrd designed #or the
                                           of pWUbg the U.S. ig&t W k rn althw k m by iomign entities: "-.
                      ht&@nw                                                                                     p*

                      m y gl3criminal W d f l m arinw iInWd tfzm1h !agai$stthe U.8. d m
ir       -
                      a uioILaticmof the f d d criminalcode.-(U)
                      '$   -     /   . .
                               ~ t h e p ~ t w c d e c a d ~ o m ~ e o f o o u r t r u l o s d & ~ d ~ ~
ir
                      ,-.#...-


                 •
                     beloped #    tx m
                                     l )o m    wthe use ofPISA wanam$ that barred FBI agea altar. dother
                     Intelligence Community peasomel woddng hbllligenm c& that mployedtbe FIBA
                     tool h m o o o r r d a      ~n
                                                  da ww  6np l& with ageids w~;bdckl   c:Mndlcases. As a
li                   result of thie lq,d   %w
                     k m i s t target mad to PF&
                                                   %kIlipwn agents rml ''criminal" agents woadng on a.
                                                      without h o w i q what the otha may h v e been b i a g
                     h u t Mm e targot. In &or&we ware fighting intematisonal~karmriarnwith one arm
ff                   tied behind our bade. (U)

                                The USA PATIHOT Act, emadd on October 26,2001 eliqbtd this '%dl"
II                   d avthoM c o o r ~ o among     n      qmta working crhhtal m&km and tho88 working
                     intellipm invtdgatiom. On Maroh 6,2002 dhe Attorney G a ~ iseud     d new
                     hblligenoe Sharing Rocsdurss for Fomign~Intdigenmand Foreign C o m ~ ~ U ~ c e
[I           .
                     hvestigations Conduihxi by the FBI (Intelligence Sharing Procdm:) to capitalize on
                     this legblative change. The new prod- speoifically ar;~thm,'iI    rgtm&sworking
     I               intelligence oases to disseminate to cdminalpmswutom and h v ~ ~ o all       r dwmt
                                                                                                    a
 i                   fforeiign intelligence infom8tion, including inf~nmtionobtainad fbm l[lISA, in.
                     acoot-0       with-applicableminimhation &unBaada and otha specific n ~ c t i 0 n s
                     (originator controb):                            i t h o w pmecutors and oriminal
I'
~b                   agt?ntS @mdvh BB    'I                            Q888610b d €l@W&! of &It€@
                     intelligence inveatigtltlm, heludhg the use of PISA. 0
 r
iaeued am apinio]r~-qpVipS tho hblligeaa~Slbarbq Prwedarq &meby authdzhqthe
FBI b       inlf8&0&   hcl-        mkdbd~@            d
                                                  iDfOI"m&OaD  b&Wa8~1,
                                                                      OW Cllhhd and
htelligmca iwaig8atiom, With thb ophiom, we wem h d l y able to oonduot rn
tamrim hvashigationsd t l h the Atll use amd CXM-Q~I,     of our cxidnd and
htelligam tooh and pemm~l.
         To formdim tbi8 merger ofht'e.llligenceand arbdnal optd~om,we have
d m i o n d the asepmat4 csee clwific&(bm~far %imhd* intamdoma bmrh~
hvdgptiom (with the o M & o a aunib80r265)and O)i~mtdlj!~~~eelC
tarroriem invdgatraas ( G ~ ~ C IXUI&Z     ~ I P199), and Jtmye c o n s o ~thami itlr6 s
ah@@ehsdfWim for mb&mpulid'm*IB (nbw oifd(2adonsn~umk315). TMs
I u 3 G h ~ o ~ o n@ a y              pn              temoRism.hd,*           ae om thrt
orn a n p l o y ~ 1 l i ~Wls
                          c e crs walp ils ~i~~              mdpmdun#.In hrly20(n9
we f f
     mP          h approach in ollr-M&l.&m~HirmInverMgartiive Strategy
                t1
(Mcns), which w& b m d to rrll ffield afSices aprd has bemi the aubjecftoff ~     V fidd Q
        0
         With thed i m a d n g oftbe legal ''W'!snd t h e w S ~ ' i oofam
                                                                      n ctiminal and
b t e I l i ~ - ~ o r nee ff m d I w    l now
                                            ~~ -hh;~ve*the
                                                 ~ ~ labit~tL6~Ioo~~-
~~ *         and          h d & a . . m d b hse the .mtampofb
                                                                  1b      om . -
                                                                                        &el
                                             ~ idmfi4rpo&ktddmw
amspscted tmxiht to learn abut hicr t n o v and ~               im

                                                          ~ 0 xQle
                                                                1c   l t g w   aide, we have

                                                        ty to &veRop i n t d l i u ~
                                                        na~~~0UthieGaodst
 plans. This htegmtdqpmmh has @Mom.qd611~3           aadl wn h i e snocsgsfUny
foilad t e m n i a a e W q d o m md tlimpM calls fimn Sa&JleOW-n,          to W i t ,
 Michigaq Q L a c b NmY&      ~        (U)

         Illthoun,ghwe are now able towardirontc our hte~Bligeaccecollection and
criamiaal law mhrcmmt o p d o t u Owe oan only make our MIpoitentid lus a
WTO&
   III     p m n t a by      ~ d~enqing
                                 ~         uhe inteIlipee sb-         capabilities, end
prowses to &led those opdm.                  an effdvet intelPligmec3 c$paeity, we

                                      mm;Uhe B-
        For a variety o f l ~ h r i c d            had ncO dwel~opdthis intelligcmw
capacity prior to Sqtemba 11. While tlae PBI Bas almy beea one of the world's best
~011ector~ofM)&ora, we nwa e&bBirslhdthe infmtmkmb arploit tbat
information Wly for it8 intel&pwd v h ;hdvidual FBI ageakl havd               amfyzed
the d h o in their parti& casss, and thbn wed that :dy~inP    to guide tbi4ir
inMgatiw. 'TheFBI bn brdwo&ho7AP$(rer,had not blmabd lhat d y t i d                   .
                                                                    td y m
p m s above the individual owe or invdgdion to an o ~ i l l . e f M%o
                                                                                                    '
                           The a t w b of S q W e a 11,2001 highlighted lthe n~eedlto develop an
                  iatefigm66pmeee for the ~ulllmmrigm        hograp and the I& ofthe hmau. Since
                  then, we have umbrtakm to build the capacity to fi\se, adyze, ~Rhddiaemhate our
                  tmfism-mMedl intelligence, d and direct tnvdgativs acti~itifwrba~edon cpur analysis
                  of gaps in our collection a@mt mti~ndhblEgmce q h n ~ l l brhat      .   effort haei
                  p d d in.fi)~)r"   #&gee.
                                                                        .   .
                   Our fir&stcg wae to hcztmm the number of d t y s t s working on
          c o m m a Irmmdately.PftotSeptmba 11, we t a ~ o ~ ~taisigaed       d y    d y  &
          from ths            ~~~v&gativ. Mvidoa an@ ~lountmintt'r~~m~     ~ 7 ~ to0 6
          Utlits h&el Cot               W M a In July 2002,25 amtdyttta wan, M dfixmi the
          ab tKl& 01It CQ-                  ~ffbl'bJ*
                                                    w ~ y  of              pVid0d b&d
          inkIligence milyie;o&em PTOv&xl atmtegio "big pictumnad1rais. All ofthem wodked
          &aptionally hard cand h e w pe d y m the mass of &i gea~eratdii&e rrffeamaSh of
          tha fsnprist a # a ~ bThese
                                .     dqdoyanmts wtas a tempmq mwmm, but the progrew
          msdc, the contiderrce gained, ad the lessone leatned during lhia @od s$rted us down
      -,. & b q d b dd ~ f i m c t i ~ ~ dmy sti seo g~ ~~i c m'We      . aha)establkhedthe
          &-nee   ofhdytiod SQadie8to be@%'ahtlpd dtWd0p O W              C&\   ddm.
      ".*,
      %   -
        .--        gil
                                                                                                              --   ---

                            On D a : m k 3,2001,the Dhctor establishd the 01EceofInteIligenoe (00
                  within the C o l m F f         iM0 91 ,The 02was reBp0mQle boa esteblishiagand
                  executing st&&&       f id
                                           ~ t    @        mi
                                                     biting,
                                                      ,               d ~bvelq3hgthe h&uim~
                  analtitlo workfo~xx,and egsming thnt d y & am asdgml to c p a d l d d field
                  & a mbasad on Wlligeaux priofitke. Reoog~uMngthat intdi-e           and   dm   'cm
                  integral to dl of the Bureau's program, in P & m 2003, Din=* Mheller movsd the
                  01out ofthe C o m m b Division and mated a stand-alone Oh headed by an
                  Bxecutive Assistant Dirador os          Oo p v i C o d d support tmd guidance for
                  the Bureau's htc.,IllivIimtim*(U)
                          Tlhe next &ep in our inbfi~c6   inkgnationwas to elewto Intelligmcefimctions
                  to program-level &hu, instituting Crm-dnnwemg;nt         and implmmoting s.dWed
              .   bluepint for the Intelligence hogranno(UP
                           The Wctoi articulated a clear mission for the Int~lligmce     Program -to
                  position the FBI to meet ournnt and emegging Wonal s d t y and c s i i i a l tbm& by 1)
                  aiming invdgalivc work pma~tiv~ly              threats; 2) hrildirng and mutabiq
                  enteqriare-wide intelligence policies and capa&%ties; a d 3) p~w~vidimg  usemappropriate,
                  and timely infom~ationand d y s i e to the natiomal aecuriltyBhomeland securityBand law
                  dofcment communiti~.We then set out to.mbedintelligence plmoessea into the day-
                  today work of the FBI,b a a the idtitttion.ofa pm-            inve@igEstioato the
                  development of FBI-widedrategia. (U)




ti.
       Now thst the Intemgmce h g a m ie wbbb&@dand d8nf81qphgs&8                b         '

moving on to t h e next a g e oftramfomiq the aureau into cm in~teIlitgenoeagency-     '


refonnulahg pcmogel and                   prooedm to insti withiin our w o M m an
expeathe h tbb ]   w e t   g md objdvw o f h l b ~ g mlrork.   ~) .
                                                        ~ ~ ~(U)
        A major.olomcatof the Bmlgzl0atrmufo&on b our im~ws~isbg       integration cndl
m w o n wilL our parhem in the U.S. md htmmtiond l m emfazmmt end
hteUigatx o o ~ m d t i e aMore
                           .    than my other type of mibrnbmmtmieeion,
oountarttxroriam~quhs the pdcipation of every level o f I ~ @ ~ ~d ot ae a~l , and -
htemliod pvammeat. A g o d emmpfer is the cam o f b Imlkawmm taroris0 cell
o d & Baalo,,Nsw YodL Ram the polEaw officem w h b~ 4 ? dto iidcmtlfy md conduct
e n r v m ~-~     wll                                  a pmddled hfimmt3rn.W
                                                       d h t drotmP eff- with
w@ev=
invdption la
           Wem
fiwN!x-0
h&rmation sharing an a mgdar d - b d ybab, we ml ow partnam cannot expect to
align our opa&mal efkts to bsst auxmmpw owshred ddm.~ h m h g l ywe    ; hthn
takan-&q.mto.a&d4i&unified~ ~ [ ~ ~ e p o l i c&ring-inSimlat90n
                                                i~-ior           md Wlligmw.
-0
       To easm a                      ds appm~h,Ihs*M- recaltly .
ddgnatad (bs IW-I'to                 ']FBIoffid&firirmfmnafi&anad
inte-.*w        policy. h mtqpdty,,fhe BAD-f 6          ae tm.    to the
                                                                     g e am
  ~ r ~ f l l ~ d d e s p o l i ~ ~ ~ o n ~ ~ ~ m d * t n l a t l i within i do s '
  outside them with tfsa law emfbmmmt andl inteIliwcm w~m11tia,ib well as
. fbreiga govmnmss. (U)

        On Fdbmary20,2004 we hmd tm i.mfbmatkn.&hg policy grwp,
comprised of Executive AsskUmU M m OAPsistant D*&om and other d o r
exehiv6 managers. Under the lkedionoff tPlo BAa-I, lthh i pup is mt&Whg PBI
Mdion anrl inmgmw l?!hmhgplicies.(U)

         On Fdb-      11,2004 tha Attorney General atmoun~edt h e , d o nof the DOJ
Intelligence C h o w Camd. The ComcliP is comprised1ofthe haads off DOJ
ageaciw with iabIligemx mspm~~tim,           ennd h ~ 1 l t l y ~tlyc the
                                                                        J FBI's
                                                                          ~     BAD-I.
The Council w f l wo& to improveW o d m sharing vvithiln DOJ rlndto snsum that
DOJmeeb the hMligmca aaeede of o W i h cwtomm and acts in um*a                with
inblligenw priorities. It will also ideati@ m m o n c W l ~ (sw h 88 electronic
connectivity, o c ~ r a ~ dv yct i o tools, and htelligm~:e.skillsb.aiw)and dablish
                                              '

policies and pmgpants.90 address than.

coonhadonwith our stab, f-          and h ~ o n a I p a E t n a aan a numb& of b n b . (U)
                ..
         We have estsbfiehedmnofn atmngmworfdng rt~lationshipbwith the -CIAand ,
otha mmiblm~of the hteItigmce ComdtyO         F'rom tPLs Director's M y me&@ wit$
the Rimtor olT C h U d Intel&pnco a d CIA.brief=# t~iourrqpdar e1xdmng0of
pe%80&el among ttge!aici&#to ourjoint efforb in spboifio invdgatiok and'intPls
Tanorkt Thrat I n t e ~ c m CenterBthe T d s t Scresning CenterBmd othar mdtiagency
entities*the WP and i$ pmtnm in the Intelligence Commdty are now integp&xl at
viaually QVwlevel ofoulrop~om.(Ur
                                                                                               '

          Ths T m & TI.nwat btegmtion Cat& ia a good ezrlmpP6 of our coUlaborative
rda.ti&p with the CU and 0lPlcir fkdmiil partnere. lktsbli&ed aa May 1,2003 at the
direction ofhddeat Bush, TTIC coonllnrntes m g i c i d * of threats bawd on
intelligent& ffom tho FBI,CICh, DM,and MID.Adywts fhnq each ageaoy work sida
bydde in one location to lpi'm togder the big pi-     ofttareats to the US.a& om
!inbmmd*mrc anal* $ynth& p-a-dh                     M      ~       m      g    * . ~ ~
~ ~ ~ a m i p t o a w l e t t S e ~ ~ a l ~ ~ ~ ~ ~ ' ~. r t f o r
Tho FBIpemtmncl rt TIT<: am part dthe Office ofImtslig9ince d wo* clomly W&
d y s b at PBIHBadquarterrirncod~domestic mdtintemationalmriatn
          iu to a coqmhamive d y s i s &terroristysis-.
dmlop~lmtar                                                        In d t i m to the
analysis developed by FBI d y ~ detailed
                                      @   to TIIC,RBI[d y s t s at HerPdqasm
r s " & . h ~~onl3"i'~bu~e
              ~        d d e f 3 tha Mdmtt'8@hlll)r&mb'&            CU)

        The FBI olmrerUy1haa &eR@      and ws$de&iied to CLA aiives,iaan*
the M ' e Counter Tmriam Cmt&(CTC). We also bvtfFBI agents snd intdIigmce
adpts detailed to tha NSA, IheNational Security Cognkil, DIA,the D e f a e i ~ ~ c o s
&my, DOD'r Regional C a m & , the IhprtmeLlf oflBnergy, aind otha f               W and        .
&&agencies.
                      ea
        C?A~ a ~ o aare l h wdchg inkey positions 1bmughout the B m a T~ho
   ~ ~ ~ r ~ t ~ ~ ~ ~ o o 8 i n t h c C o ~ ~ D i u -' r i S i                                    '



   CIA dl&dm. (CIA offiaxa ars d d e d C the S d t y D i v b i c incIdng
                                                                 ~       the Adistant
,-.         the CM4:f offhe P m m e 1 SecuritySection,and I ~ ~ ~ wo&hg
                                                                     B L B with the
   Secret C0mpartfm.d h h n d m (SCI) pmgam clod the PBX PoGw*An experienced
   manager fbm he)CIA'SDireotcorata of Science md Teohnologynow haads the
  .InvestigativeTalhologia IXvMon and a S d o n Chiefi n 1 that diddon is on rowon
 hrnC!IA.(U)

         This atdmge off permme1 is taking place in out ileldl offibes ae wdt 1m  . 33 field
locatiom, the CIA laas offieem 00-located with FBI agents ilt JTTF aitss, and thae rnra
plans to add CIA officaa to several a d d i t i d sites. The NSA Bae malyete detailed to
FBI Headq-,,,     the Wuhington Field Officq the New Yo& Field Office,a@ the
Baltimore Field OBIioe. 0

        && mhg,in addition to           &ie$ the Dktxtor is brieffbd by a    brief=
The Diaeotor ofCeu&al InUelHgendd and the PBI Dimtop &mi jointly brief the Rkident
on cment ~ o l k tbm8b.
                      m       h blddkitio~'CIA aad Dm pemmef attend the D~mtor9e
internal krmrienl briefltnga every w         mmingand 1 h o o a (Ur
                                                                                                        II
                                                                                                            [I
                                    I




          f i e PBILls now Usang swuw sptenu~to dbsdtlato olasaified htelligmw
 reporb and andydealprod~notsto tha htbIliggwce Com~dty       and otbm fedmad sgemiwm
 The PBl hoete a' web site rn~the Top--Sea@%rpWJoMWmld-Wide htelligace
'&mIU&y $ J ! ' ~ Q ~ B I P ~ 'fhlly-~wbd
                                  (~C~),       8~-   dhldtt ~Illlt3CbY&mtham 100
                                                                                                        /
 Daparhncmt of'Def$mse,CIA, 4other PflteUgmc!Ormrmdty eitsa. We atsa,host a
 web site on SIPRMTOct shdw e y l h m wed by DOD for sharing U o d m lass if id
 at the Secret MI.In addi@(on,n new TS/SCI network him ae "SCNIW9ie-€I
                   d
                   a
                   t
 pilow in I B W ~ oflcq,                   conmsctFBIl6t-            & fielid'6fIBwta .
                                                                                                            I1
 the-
op-tia
          dother tnembae of 8h4 I'nblligqCbimdtysand will h m m e
               fior iolbI'-=8~tmcy
                       ,        c ~ t l a b O ~ O(U)
                                                  l?~                                                       II
         m   v~
              ia g
In~~OdCam~tywillinarsare~speSdaed~o m
                                       &&idon te~b
                    t i ~ ei~mpatiiilil~                               timu-
                                                                          eb
                                                                                the
                                                                            tand'
                                                                                                            ['   1




c o M d a n . A.cwrdingIisthe IFBIfrbfkmmlirnWholtlagy team hPs wgricedl dWly                   .
with the Wef U-on
agencies, to ~ ~ I I ourb p&t
                              .      .(CICh)of DIIS md:dhar I[nteUgmceColx-
                                rmLd ongoing Ib&qolo~  1~~)gmdw. This C O O ~ ~basO      I  P                    .:


aff8ctd-ouid s c i r b om.q w d key ~ ~ 1 0 g y , 1 <uiS.
         To E a c : ~ i h-tlner
                        B                 tho ]PBIcIo
                               ooordiuationq               on the lihteUg-
                                                        eits                             I.         -
Comrm@q CIO tr@e@iw           @uwilL T h e . . a ddenrelo@errndremmmmds technical

intempabilityo ~ l ~ m ~ I s V o ~ , ~ ~ ~ & e , : h t r eIt U ~ e k mI:d
zlx#mnep1&     pQIicne8 amag!zwmdww aardoooFdinatas.~~W~es       to iIllpmve-ana :




was establishedl' t r i m r ~atn6ralhtdigeaux dhoti~reamd ie.chairsdby CIA'S
                              of                                           tRe
CIO.(U)    '   .
                                                                                         I                       -'




         Dm plays dtid role in assessing and
                     a                        pro@ctin,g     vuheaabilitiw in
                                                                        our
national
haw WOIM
         idbstmm         mid om budemornad inovem&o
              cloeblywithDlEB to aukre that have the
                                          @
                                                            om
                                                           ~xzqpnae
                                                      minkgation
                                                                         mpabiliiies. We
                                                                      amlcmmpmhde        I.
i n f d o n dmkw betwam~omttgmciw tldras vital to Xbs eaooees off our miresiw.
The PBI a d DYiSl share tlatahs~,&CW at Tl"ICsin fhe.Nl&mal JTTF at PBI
Headquuta, i n (ha FTTTF and tb TSC, and inlocal JTTFs h om field officeri mmd
                                                                                                             t
the country. We aronked olomtj~bgt&erto get the new Tatmrbt Bamxmhqb b r up
and mdng. f e hold weekly briefhis in which our CIlD d y e t s brief their D m
oountaperts on cuwnt t e m o h developme. We o c o d i all FBI waning with
                                                                                                    -        I.
Dm,and we nowro o o ~ ~wmhgs         o ~ ht u g hths M.orn~hdSeomity Ad
System to addrag our owto~~ners' oa~rnccwsabut multiple and dupI.icativswarn
designated an expziend a@ve h m the .-M(D~S - t y M d d o n                        to
                                                                                                                 I.
run the TSC and d t W & a eenior DltIS akuUive to the FBI's Office of Melligimee to
ensure coordinade~nand ttanspmcy b&wem the agencia~.(U)                                                          I
        On Madl 4,2003, the Attorney bdthq $mStaryof Homeland seourity,
andthe Mreotol. dmM I n t e ~ o e
                     ewtab-
                                             o mxqxehagvpMemom*          of
                                  poIlicim snd procedm~hr infixmation aharin&
                                                                                                                 I
Un-
handling, and we. Pmauant b that NfOUDinfixmation mnated to tam& threats and            .
                                                                                                                 I.
                v u b n d i E t i ~is\ pmvideef to DHB mbdlody wlthond DHS b    * to rqw it
            .   C o n s h t with Uls pmtsetiolon d emidve IBOUIWS clrad :metho& and the probtion of
                privacy ti@, we now sham ne a M e Pand withhold by 8xcbption. (U)
                         With tem,figb trrtveUng, c c f m m u n id  ~ ~p~l d g m    ker all 8t~)umdthc
                world, ccordip&n IV& OW fbfipp~~ h a b e m ~ more          ~ 8 critical than ever before.
                We havp steadily inemas& movereeas pwmce and IUOWmutinely deploy age@ md
                crime soeplb axpate to asgist ithe hvtxtigatiion of ovmeew akcImp8UOb tw the May
                2003 bombi~qpin S d A;rabia rand M m m . AD d       J 81t
                                                                        tw7,2004.4i3 FBI ~ ~ X B O I U I ~ I
                were awlgad I D V V X S ~o, m 200 ofwhom spa p ~ ~ ~ m ~assigddn l i y Their eEorb.)and
                themlatio-~e that grow b m thea~,     havs played a ctbtioa% role h the ~tlocesfid
                i n t d d q ~ d o n e we r have c m d w ova the pael 3 t moriths. (U)
                                                         in nume~ouvlinvdgatiolllsoftmmrist
                         Bumat pexso3me1 have plan%icipakd
                & k ~ in fwlpl o o u a ~ e sovw t~tmpast 33 wntiu. OW 8~~)mach      to awe invaiigatim
                diffim fkom.tBu qpmzwh we Witionally havo takmAiohto September'1lW, our
                ovsnoas i n v d ~ d bprimarilywae
                                       l~~                     mbfldhg cases fiwpnvps8~~oa        in thc
                U.S. Today,ow Fbau hu bmdemdto provide our Wg             i npubam with inv&@ve,            '

                fimmsicSand gtulQ typm o f suppart which eabnoe oupjoint efforts tb p & i andjiisrupt
                tem&t attaab. Our pm&s~ h v e ~    anbracad tfiis q q m a u * d it ie paying & ~ v i h &
                with greeter r~i@ocal ampenttio~~  aad mare             jo*& investigations. (U)
                                                                                        ' .

                         The ibursnUonof a.mtrcWedmdl effective coun-h                      aperaticon is ths
                capability to mst-b,     -hilab, md                investigidim and opWonr%
                ifi&mti~fl   both intermally and with fellow intdigame tad ~ I W  emfbmeapent agenoics.
                 his 'capability requires hfb&ioo technology 0.-           makes inhmmtion easily
                aocassible andl wable by elX p ~ nwhile    ~ protectkg
                                                               l       t b e security ~ f t t u dinfo~mation
                0
                         Prior to Sqmh 1lth, the Buremfa infodo11~ 0 1 1 o g y       was inad~eq&
                q o z t its o o u & ~ ~      h W Ohap&oua
                                                        I L yeare,substantialinvestments were
                made to upgrade -tedmBogitethat c k t l y mpeporced hv~stiflon~~   qwh as ww&mce
.fi     -       equipment.mdf e n d c mxuices like the Integrated A a e d Fingerprint cation
                system. hmffiicient aUmbion wss plaid, howe~&~
                fimdamental tasks of rm& mation,~            ~
                                                                 to tsChh~logyrekted to the mora
                                                                  c~ ~e f f , i and      n , In 2001, ,
                                                                                  ~ ordrievdl                   '
                many anploytees still used vintage 1987 386 dtaldop canputem. Some reddent sgencim
                cwld only accms!Bata in heitfield office via s slow dial-p1rp m a d m Many Burm
                programs were us* m1~71pU.h     eysteagS that-olxmtdh w e t v and did mt             a



                interopaate with systsms in other programs Or other parb (ofthe Bureau; (U)

                          The FBI also had a (deficienth f o d o a managanmeat system. The I W s legacy
                investigative infomation W ~ M         ,
                                                   the Automated  Case Sqqport (ACS), was not very
                effec'tive in identifiying Mmnation or supporting invdptiom. Users navigatedl with the
I   r           hction keya iasbsgd ofthe "point and ogcE'm&od oomnon to wthbmed appUdom.                       '


    !           Shq1d tasks, mwt~r     ses
                                         .towan s1w1tPonicvsision of a tba1111~flt,required a w a to .
                perform 12 sepmite b d 0 m itla "gpxmsomawenviromcat.Aleo,.the system lacked
    multimedia fhac~ldhdityto allow for the Wmge of infrnostion in its ori-
    ~ ~ e q0bul
             t e dn01;store     ~ Q P ! didtan hd-          e1c-
                                                                               :km,
                                                                        fdnnat, iaete9cn
                                                                                                 '
                                                                                                                   [I
                        e evidonw end Mate whem the ai~idmoewas stored in k mtmf
    having to d s d k ~the
    mama (v)                                                                                                       li
            W  c s to the chactmr and rssolve of its pawtmd, &elFBIwee aeie to achieve
    nwntmus bv&i@ve ~ c w e e e in
    ll,lasweves,.that we       an ht
                                      , qiboftbae.obm!letii. It w a e . o k as of Sqtermbsr
                                             IT hnhstmomre to manage ow infcmmticm
                                                                                                                   li
                                                                                       .-
    ~ e b u g h.on-Qloatd
                t        a MgMy .$killledteam ofparospte aad)met out to meate an lT
    idbtm&m~,r$a& is fibst and secunq and thpt ties togdba!the capg1lcdofls & daEabaees                            1:
    used ~&&@o'II% the.        We        ddpedl~86~&iduy,       w&&aaed mWars .
    applieatim.to nd-ycem h m w,papa raootdr cOLd :bd m d h e ~        ~ ow.v
    Thdso impmvmimte &'-oing     our ability to colleot, &ms
                                                           m  h d y z o , and sluae
                                                                ,
                                                                                                                 ~
                                                                                                                   li
.   inf-(m)                       I

                                                                                                                  I!

              The dhet aep ha~emJ'q                                iR the M1ogy:hgran1,a mdki-                    I;
    yaar-em eml-                                  ,khIW@
                                 o ye f f ~ ~ 3 l W  8     techrm0161fl8~that d o w w-to
    aceam, oqpdm,,and ~~~&~                           Tho Trilogylhmgam h bedc i t p r ~ ~ ~ a l l
    FBI dB&, i n o h m d i s g o v k hpl Attach6 otBcaDw i l h m d fpetkotk
    m m i n ~ c q t i o & ,a -al       4a              ofoffim  ~ b&         Qole, & d . \ ~ s e t - & i d ~ -
-   Web-baseti ap@Eariaro. Wogyup                    also              wnttrob to pllovide an                     I
    egihaxl laval off r d t y for FBI infwmatioa CU)
                                  .    . .      .I'   '
                                                                                  8




              ~   ~ u ~ o g s ~ b & . i i , ~ ~ s g. w ~ ~ ~                                                     t
    inv-m       amdl $matysrS yvitb       sasy uxasrrto*fi bm&&&-6f       mati ion
    reldqtotsrrorhgaWa~~r                          plsnthaDwomldpmvi& i&nnxdi*
    supportto~counit   '       . a d thm i m m m ~idcfegse
                                                       y      Qe mjge mil effe*e8sv
    0fth.tsllppa( f i r *             bidwa             pbgLtiamitions us      hm
    separate qmtemi m m b h h g separate Bats, towads mhvdgatlve Database ~ W ~ O U ~ Q
    @IW)fhato0nb~-rlldatatluat0l~1~flyb~bo~&~~                     ThefIDWmi&Wb
    Bmwu with a dagle access point to wed dorta soprossthat were jywiow1y adbible                    '


    only 4hpugh ~rqmab,dovk$ped aytame~yprovidiqcommli& a x h to the data, .
    forQe~timed~dtoobormBe~~~daQsoiuws~~~~eamoia
                                                     e dthe B m u 0
                           ~the i d o h m 1 p o ~ ~ sby
    c 0 ~ 1 e t e ' v i sglff

              Thq imiltid &ep toymdqt3beIbw wee the imp1-don          ofthe Seom3
    Cow@ertmdlst@ d o , d .btotypeIhvhmn8flf (SCOPE) program. Under the
    SCOPE pfogmm we quioklly w m l i w c a m t a t d m bdbmatioa &om dou us data
     SO^^ prnvi,ulimganal*     at Heah-         with subsCemlially grater m    s to mom
                in GW 1- b e than wiah ~ t h m a imreatigttti~e~yatcans. SCOPB
    database also gave us an o m ' I t y to tat new capab%lim in a controldl anhnunata
    This prototype en-mt        has now been qW by the IDW. 0
                                                                   ..
            The        d d v d h ib first phaoe bo the 0fic'aoff 1nblli8mcein Jim-
    2004, now proviidb analysts with f
                                     W acoass to inved@ive hhmatiom within YBI ma,
    inclu~dingACS t n d VGTelF &@, open rrome nowr Ms,rmd the fUesof oth(%f M
agmcim suoh ae Dm.TfieXDW9pmvidm physical:alagge fbz Pr d aliow~usm fo
access that &b without needin8 to know ite physloal bation or fbmmt. The)data in the.
IDW i s at the Beard lavel, md q e addition of TS/SCI level Wa is in the phnning stagwt
0
         Latea tlhis yew, we ppletl to a b n c e &0 IDW by adhg additional data soumw,
such as Sus~)io.ioue Activity Repallte, end by making itoasier to s m h . When the IDWt
complete, agan~teand analysts using n m dytioal toohi will be able to scardh napidy fop
pictures of knom tmIri8ts and n u W or oompars the piotutes with o h i n d i v i u b
minutee mtElsip than day.They win be abfe to axtraot subjoote' t ~ i & e s 8 ~pbm~
                                                                               ,  numbezs,
and otha dala En            rather than ssmm for it mu1Wy. Thsy will haw the ability
to identify rehtionahipps across caw. They will be able to search up to I00 laemonpages
of international tamh-1t'6latedd o c u n n a in s m & * 0'
         Ul-teb,    wwa plan to tnrn tha IDW into a Masts Data Wmhowe 0that
will include the uhinhtdve data required by the FBI to manage ite i n t a d bwinem
prooessaa in addition Q tha h v ~ ~ data.  v MDW
                                               e     will grow to e v m W y p v i ~ e
physid.&a dxxqge fix9Pnd became tha ry&m of rtxm~rdfoP, all FBI ePm1aic tila. (U)
          We are h M w dvmcedl d y t i d tools to lhelp'h make fhe moa*afthe
datr &oralin tPie IDW*These tooh &OW F+ agents a d d mto look ~UXOSBmultiple
casee and multiple data mums to jldatify m            ~ and otheropieces of~M d n   ~ --
that were not ~:adilyavdbls wdn8 older FBI      -.            task 1) make &r4abase
                                                        ?o:'b~s
S      ~ &@KcS i d          2)give d y e Q ntw v b d i d,&-B~ ~               Jhkc~ht
caprbgitMs and r q o ~up&iEties;
                          ~         md 3) tiillow d y $ s to recpuest automatic q&bs
to their qnay mdts whmever nsw, nRamt            is domiunloaded mto the cbtabm*(U)
          As the first part of our I
                                   Tm n m o n e&rb near c o m a , 1 & ~FBI agents,
aaalys$,and support m o m e l era already eqioying naw caprabilitfim Pnd applying those
capabilities to the& co-L             mhdak 'Theyhw6qpbdats de&opq fist d
secm connd~tgr,a u s s r - ~ d intaf"y     to the ACS awe artmagpa( system,the
ability to accccls and a&      ~orisoIiMkmxbm-reld idah, and new oapabilities'for
sharing.infodq9minside end outside the Burean. (U)
         While hqm is still muoh to be hndpthese effotts me starting to &liver    the'
                                                                                   .
tecfatology we sad to stay ahead off evolving &mats. Vpgdng our tecb~~ology'wlll
remain an FBI pribtity for the f o i w d l e fbm, a d our mnn I'H' management will
guntre that we cx)~~tinSue
                        b impnmre our   $ma
         With th~airecent h t i v a in~lmating        the inielbi~gemeagsat ~areertraok a
                                                                                        d
the administrativerefom dated to b~~              an intelligme~~ workfbrce, we have inplace
the essential a t r w b d el&ents of atu intelligeneadriveg counterternrim o p d o n . The
challenge now i~ refine ahdl cocontinue    to develop that opmation - mn e&rt that will
require additional I W O continued
                                ~ ~        attention by FBI lmclmlhitp, ad constant kaining
of FBI pmonndI in htelligaoe ptocmses'andobjeotiva. 0
             m e ws              clady     dataatid prom ova the         33 months, it ie
    dif&dtfowm~lo~,wi&aa'erx&a                      of thq mmt @ffdsnee@.of     ow
    oouatertmmd~gnefbrta. ~baid&            ahd abeam of etucooaef~rttacks on the homeland
    aim sepmb~         I nth, thasis eingtd m-0      that ~mpltttdy~apturmthe pmgmge
    we hcva made.Thgps am several ymdkicbBhowevar, &t daupondrab the effc#:tivenme
    of the core h ~ t i c ~ of
                             n sca Count-*      Program. Thed~oymMc!w include tha
    folb*:
      D&dopmem1;;dhuman asseta
     NdardFlLAe

    Bff&vmw q P o o ~ ~ i i B Pqr nd o m
     ~ontind'prot#:t&&      dcia h i d a         I .
    An application dlt these pvbtielb    the p p a s we have mhiwd &C8
    Sqt€mbw11, X01.(LTP

                      lo~m~thatbmaan~~info~~meoffhemost
            ~heFJ31'hrs
    impolZant wap'tcsbvdga@.u$daP1  activity. We h m m l t m g @w   ~ ~       in ,
    teading a d wibg human 8oma1,'md  we have wed thaw ekille to gaset effect m a a -
    wide rsngs of.h~rd@vcpmgnmwPiracludiq organizedl crime, hg,public
    oomption, d la&ite wlkr oiime. 0       .  *




            ~ e w o a l s ~ ~ a v e ~ e ~ ~ p e d ~ ~ o v a t h. s. ~cn      oxnam
                                                                                 ir s i n ~ t h e ~
    ProgmqSepemba ~           I      ~     ~     ~      ~    ~     ~     c     .     ~    e    o
    alQa'i68 both ia tha US. and &ha&    Wn& tho Q.s. golprcm.qitkving.mlativefyfiw
    asseta who were &le to pmetrtih and report mal-~a'iddsp b , we were V u f ~ ~to~ l e
    8uq&e.-k.      QrJ)' ..

             The Ban= b plaotd 'a pWty on develop& bumam intelligence som         i es
    repatineon Ioltawitiod teaorb. We have ndsed our l r e i n i n g p om      ~
    permme1m ~ t i ~w           ~d Ouru c p m ,t i o d prioQitia~.to
                                                                  fixus on rwnrce
    b e l q p m d Wtile we Va to pow fhb o~paoi,ty,wokve ahadgr mena mduked
    in-      in thb amumber o f h u m s n *m~ ~~~heL8la       ~~~                Program,
    Bestween Al?gu&30,2001, amd Selptmhx 30,2003,the m d a r of aouroas related to
    i n ~ o n a l ~ ~ ~ i n o I Pbymnomlhsn60pemmt0,8edthe~udmrof
                                    aeed                                         scmces
    related-todamiMic tmm* in-            by more than 39 pmemt. (U)
            PISA covaag'e has also hcmisd sign@~ant%~~    r~3fleotiqboth our i n c m e ~
    focus on c o u n t a d m h and munt&blligmw            ations and impaovenxmt in the
    opemtion of the I'ISA p r m . Prom 2001 to 2003, the nunmbsl of FLSA ~licationsfiled
    ~~y      with ffne~Foreign htelligenm Survdrtflce Cow increased by 85 pmmt. We
    have seen a an
                 id alir hmwe'in the nss of tho emergency PISA procwt3 that peer& us to
                    la
    obtain iman9di1a1  covmge inmeagemy eiWons. In 9032, h r erwamplei5the
.   Depadment of Justice obtailmd r total of 170 onnagency W;r][SAaubdzatiuns, which irs
    mom than threetimas the rmmbqrof mtqpncy p n ~ wheb obtabd hi the 23 yam             .
    betwem the 1978 machat of .lFISA and sqptmber'l.l,21001.(U)
         In lhe~    pB    the FBI prod& idre than 3,000in~~~mcqs~E$odwti,,
~ C ~'taw"  U W rnm, ~ n t e u i g 6 1 l l ~ ~ i 1 indepth
                                                   ~1110~          d~~ m a b ,
special evmt threat aaeammtsr, d fmd Prddantial brlehnge. Wc ate0 mnductd
nmmu8 in~bl~genc~      brie'linge to manbeas of Congra13~o&ez gov-md   a~gmcia,and
the law d o ~ a n e aand
                      t ht~~Uigace                        ~ w mark a n& beginniw
                                       commdtiee. I l ~ e efforts
for the PBI'Bhltelligmc8 operation. 0
         Prim to Sqtsmbca 11,2001, tlhe FBI produced vsry few raw inteluig~ceiegom.
'InPY 2003,WIDproSuod and digs*                  2,425 ItBbUigenw Itnfma Rqporta (we)
o o n raw~ itatdigumce derived &an PBI invdg&ions and intellligmce caU&m
'Ihe majoririty amtaiad i n t e 1~11ted    ~ ~to i~ n t d o ~ tedrm-,      ths next peatwt
n&m.mnt&td fi,~~@ InblUiv aad w W B X W U                          hfhmatiq
                                                                       ~ ~ ~ i d the
~     ~     .    o   ooriminal
                            ,                ~ c y k c b a ITh-is IIRs weas diw-
                                d~ v i tdl q aad
to r wide custuxnar mt ifl FBI ffie1d ofl&, lPle Intefliigmce CMmndty, D e f e
Community, c~tlh&fsdsnt law d o ~ m t                     onil U.S. policy entities. 0

        . h additionto W e raw i     rab       '
 d y t i o iasskt~ab     on s par witlibom offhe InteIligcmce Clmummity. The m    P
                                                                                  BlI
 developed        issued, in January 2003,~claWied compmhdve iseeeemmt J the
 terrorist tbreai to the U.S.This wsessme~tfixus88 on tha tbmat~that the F'BI sees
 k I o p i o g OM. tPld nixt two year^; 0mbd0a pn WWJ& ofiamf-ion          ~6gadling  the
 motivatioiu*o b ~ d v m    q&&,      andl q & B t i of ~ d t h g teraiStgroups and.&- .
 potential Iot..th6mergence of sew tarorlstgmups and tBPdaEe hugbout the ~ w d This      .
thieat-ass-krd        ts wed rs a guide in the dlllwaticmofinv-ve        ~   9    ~ a ,
                                                                                  as       ,
 useful wmpMIonof tfmaat i s & d ~ o nfor hvesti-             and inten-    personnel
 within end evithc)w.t the PBI,and ts a reso- for deciia~~-&mah-               in1the
 governmait. Ths 2004 threat .ssesm& was m l d in Apri12Q04. PBI anallysib have
 produced over l(Li0in-depth d y s e s snd several hunchdl cnmznt intelligence articles in
 addition to the wro& they do saaistbng FBI i n v ~ o a d p{IU).
                                                                       -

           We lure pr%p*    to produce, in Ohe heat futcao, the FBIDaUy Report and the
FBIMatlonal Rqvott to provide daily inBeIligm~8briefhqps to permnkel h,the fiad and
 exteml cwtoinek. One willl be ptodnced at the c M d l d en8 .hied in distxi'tiurtion
'to upper-level field managem. the^ other v@ be uncIm*[d and uidcly distri'bW to
 field office personnel and our partaQs ip (he law enfbnm~ato o m d t y . (U)
   .     A g d IBX-1e of OUR ability to exploit & h c e fw L intelligence valve and
share that htelfi8:enceia 0u.r urn ofthe d-Qdibt e m h handbook A tmrislm
bandbook s&xd a m m al-Qasidalocation ovsrseas in Dlns mid-1990's was d e c b a e d       '


and releaad by DOJ shortly afferthe wmts of September 11,2001. We dketmmhed that
intelligence glm~edfrom .tho handbook could provide wef'i.guidasfde about al-(Qa'ida's
interests end capabilities. A m f i @ y Owe produced and ~ B S -       a seria of
intelligence products to sham thls interllipnw With our pa,g~cnmelin the field add with'bur-
law dmma ~pwtnem.Mine hblligmee Bull-                 w m baed in whole or in patt on
this hblligenm.h addition, we ueed ~              ~deriid'fmm~ths d-Qa'ida  ~ Hamlbook  t      l
to updab our coua-h                      in01-    the 1nn~~IMgmc8  A d y s t~ a s i 'oC o k e
at the College of.hwlytid SWa,the &t&ldon 00 CgiunWaroh Course at ths
                                                                                                                  li
National Academipa d 8~851im T~~               Wow laPd Qfi9om Ssfsty in ow
SLATT tddqg,'Thamqbsifbd vmion a f b hm&oalk b now &M~ I Ba
refaehce in the FBI LIibrsry and i s soomdble to dl the et~idemtsat the Academy. It also is
                                                                                                                  I1
inoltadd in the mf-ce . . r m m d C23-R.mdi&i%utedss part of ~ ' Mhhing.     '        (U).                        It
        Onc t e d l i q me-  of ow irmgmvd oounteatam~rismo p d o m is tbs
develogrpmt ofour o~&ili,tyto bfleftlp M y tam& tlmat idbmdat Tiw
              ~ tl&
~ 1 0 B ) r nof  t oapabiliity1r&ts   the &8    ofovut ~ 6 1 ~ - c!ornmdm
                                                                I

%P=(U). -.                                           . .
                                                  . .       .. . -
                                           .. .                      .   . .
    .Ri&to ikptenib~1ith,                   h k e d the capacityto provide a c t ~ q r e h d v e
w-'b                                            i l a h ~ t o d W ~ ~ e w .h a t
rtcqre was^*                                      mt a     @-,of ~ l h   ~ h                         '

~mdthsBUNXUIP? I                                  oior=mi6he     &ttamep~ ..
G e n a ~d othew in thb khhhbhdon who make aparmtid and policy dsl.,Mm.
With sc b e a r d i d - p vim which i i t r M mwars nm by WVid0181fidd offim,
t h e - ~ a a v ~ h a d t o ~ e l q t h i s s p . akill.Withtbelleed.&mmM

            hthcQ8        oftb            m3
                                           W@W W ~i&dOD
                                                  O            b@B8dingb the .             '


ll!%&~ouae s a o l h r n ~ ~ ~ W $ on.co-b*w
                                          !$!~ts                  wmts. We badno
medyniam'inlplnoef o P g tha          ~dM ~mu~ tbn,sa ~                   ~ wee                                   p
initially~ h            $thq,
                      hninrg    paat 33 r n ~ : w i t h ; t n e r ~ ~ :hm o Ethev ~            a '




IntdQmw CommunityOm h e 6stabWedthn idhwdxa-                d the cadrs of
pro-W        top d u w e f f i p e aIdybri~5gsa d to dhere briefingmateddls mare
widely within.f i e ! emmi and with om pwtnem*(U)
      .     I .
                                   .    .
        b l 2 0 ( ~ 2 ~ ~ a ~ ~ d ~ ~ b ~ s ~ s , ~ ~ o ~ p ~ t h i n
Co-            IDivbion to prepam dainy Eefifigmatmiale. In the summer o f 2003,this
group .wasrtmmad the Strategic Andy& Wt and m w ~ to  d thd OfEd off Ink;Ugence.                         ,,


Be&miq.ln A q m 2003, the S-gic      Aadpis UnIt bgaoprodndng Uho Dimotor'e
                          ~     ~   e briefing ~ h:ludw
                                          ~ that   c    e M o d o n on
                          tamximn threatssand infbmatioa r e W to all m m of FBI


         TOpllUdl~pc8the DD& tha S-@C      h d y ~ i UIN~I~
                                                     S    ~0~~~      and r0fbWS
'infixmation           itl a aldmdhd&matby infdigmcepm-el in each divisioa
 Each modq,i p & d o n h u t n m thm& is add& md irnfodomebout-f                  tbat
 have 6aen thoro~1..$dyvettad dmhg the night ie removd The DDR is alktri'butd to
 executive8 in all :FBIo p o d o d divhiom.The Director usss the DDR to brief'the .
Rsaident n a y i    ~wdd   q a y m o w . 'Iha PBIaleo.pudwcssthe         ~~~~ '
~nteligence~sl~a'u~tlmt~a iinidwdPBI h a m e pmd~wtooredng tapim a          f              p              ~   ~
in-    to the lhddent,, and ae iobdearlia, mqpemom%~sl  at TITC and at PBI.
        .         .
                                        H@a&pwt& ~ X h ~ bt0~ the
                                                               t 8 f0IllIUhblon0f.thedraify 15midimt'8 ~ m o & t?%reat.
                                                                                                             I

                                        R q o ? t (U)
                                    >




    li*                                         ~ h 1 ' 0 hhtiilep
                                                          r        holde h t t t briefings twice a [iacan htelligtmcd brieding in .
                                        the morning an~da oasesrimbdbrie5g in the evmhg. At thee@ briebgp, a brief= and
                                        the qeratiod executive maamgem provide r eummary of the o m t tbraatsnnd our           '




    II     -        .
                                        operations. With CIA and DHS repmsaMva in atkmdmcq,these meetiags atso ~ o v e
                                        to ~m that all threat i n f o d o n hi qpqriably pwad to thorn agenaiee. (U)

    II
                                        --
                                                The dfwdopm&t of (hle deify brie@ opadof~is ie tmgib~erneamureof the
                                    1
                                        pmgess we have mode clime the day when Utzrorlmisnregtl@m wem rimby
                                        individual field oJB[Ic68md little s&rt was mode to ctzr&aUy ditaol or coodin- them
    [ I.                                hugbout the :bm8umd withthe o h oga& i1nv011rsdin pmbding thsUS.against
                                                       (U)
                                                                                                                                      .



    II                                       ..   .   T ~B~~
                                                          B    h i k o r i ~ @emred
                                                                             a~~    it$ pafbmmue tq a        extent, by tho
                                        nmimba of c r i m i it dWhile weN for traclitioal law donxmmt,~Nhemthe
                                        @my objtxtiivo is awstand p d m this &UIM                is under-inchdive aa applied to
    1              . -
                                        00-=L              arh- the primary objective is to neub&e tam* thrats*It only
                                        caphnas lhat d b w t oflbamdd thaeatsthat are n e t 1 by anesting tezmris~beurd
                                        prose&ng -1        with dmgea ufrriminnt gxrwism.It fails to apUum (he termrist threats
    11                   .-..
                         I      ,       wnneutnlizetkmu&rm~o t b g ~ ~ d ~ ~ p r o ~ 1 1 ~ 8 - s l -a o- h u r
                                        depmWon, d&don, arest on n a h m chorgea, e b of                          ass[*,- and the
                                        s w ' . o fi n f o n d n with foreign jpv-        ioP I&&use intaking d o n -I
    I1         '
                             ..         ~ ~ w i ~ t h s i i b o ~ ~ c u )
                                           , . A more wefirl measure is one we bve,usedinm            m &Q     oases --the
    [I
                                         ,

                                        number of& y ? ~ m      and dimmtl=ae This meaauaa counts evaybime we ~eitbex
                                        by oursalvcs CDI with QUP partnem'inthe km laweaforommtamd i n ~ ~ g e n gomudties
                                                                                                                 ce        -
                                        cadact an opim~on     wbich~disables, pmventa, or intempt8         fi
                                                                                                            m   d dw
      1.                                d & g , ~
                                        pdcipatd indozens of
                                                            ~or op ~       g      ,             beill. 2001, the FBI[ has
                                        iotcrnationslm o * m d a ~0; -
I   U
                                                        the number dtiimptiom is siguiscabt, the most t e w m a m qfour
                                                                                                                      ~
                                        progress is the m.ankef'inwhich we have oonducted indiwi~dtaalo     p consirsbxnt
                                                                                                                      ~ with ~
                                        ourpvention mission. The axteat'ofow-00                L most olmly seen in the
                                        aqqmaoh we take,whan Fdnhnthg ~pecificterrorist ~         bOur qpnwh
                                                                                                        .       to these
                                        operatiom d e m o ~ the  w extent to which tmdhtion a    d pwmtion through the
                                        development of a~ctiodleintelligence have'bmmeour guidingo p d d pdnciples.
                                        0'
                                             . The Sep~hber      11,2001, tenmist attach awakenod all of us to the d a y threat
                                        of modem ttmdm atld to the naad for bold action. We im thn FBI havi undatakenthat
                                        bold action ova the past 33 mm*. While them3 is still m h work to be done, we have
                                        made ~leca1h8   IpI.v~. With these a&&, mdwith ths tmmv-              q o r t ofthe
                                        h e r i m people, vie are oonfidmt lhat we will prevail in our war ~~    txxrmriem
        .. .

    mdysQ.0
    -is@:           The lPBIhae Mtem a b m b a o f t a d l o h wto @IWO                  the Pliring,
    trainimg, and retantion of d m &OD the Septembcl 1li attmb. 0
                   The rni'jl offim                  (OQ- nlad by aa E K ~ ~@ W M W E a
                    2e o atma:intelligence mdyst in the U.9. PntelIIigtmceCmmidtyIhas ckwislqped
               .. a + d & ~ p l ato    n      OhaD the FBI d v e l y r n d f a cadi- 4
                                                                                     th
                    critical s l t j n   v b pro* wm11d-chs imattjflgapc8 d y h for tluo FJ3h
                   d o m In     ~ Sqptmhet 2003,the k t o r qqmvcd t       bFBI's Hmnen 1?denfor
                                                                                             t
                 .                 ~ i c Wm t of Opemtlw-(CIDNOPS), wldch ~~on the
                   lxsmitmera hirhng,4 l e V d M . dtlrahhg ofimmm rnaIpsts:(lf)
                                            to tho q q m d ofthe EIurmrn Tdmt CON0:PS'the FBI
                                            stlrort q d i l o tti the WbEgcmiic a@ytposildc+ AB
                                           . m zmot~ mutbdy par( o f e a m t U ~ W * b'bn
                                           pmpamdto rmeataraqipg'dtrrha(ladbw                          .
                                                              oakstdl imelligsaoe a ~ I y s t ~(RBIIIQ
                                                                                              s
                                                              &ml. Tho intblligencis mdyd           '*



                   r0cnmi~~deveruts                                    r, t s w e ~ a s ~ ~ k i '
                                                                                              -
                                                                                                '

                   ~o-e~rnd-                                           y. RVIIR  Ootob~2003 April
                   m,   ah
                         tePBI p d * W in maabfhan 10 m*lthaev%lxtad p h s to
                   patidpatein at lea@fin, W i t i d wmt~        tbmugh Sqtsmber   %M4. (U)

               .
                                                                             . .                         *




    '
                A maicc~iimgphwes ~ISO i n ~ to~           ~ I m     L ~~
                &- e&rbOOn F&wy 8; 2004, an advathermamSnt bpedic to the
                                                                          thdOMeUigmce
                                                                                 ~ ~ Q~          y   t               ~
                                                                                                                         I
                ~ ~ o d ~ y SafhsPBIwaa       s t ~pMI'mtPlq     ~ ~ WaddqbnPost,
                                                                               ~ n                 .
                          on Tiunm, imdtheNew Yo& T'itne~~~    d l has dm6 been re-dvriiSe8
                          nes. chn F~rruary9,2004, t* firstgBl%%flpl-addmsing ir:~bflipw                                 t
               -'tidyitredtammt a t thePBI'wasm f ~ ~ by    e dt h 3 PBI.NatbdPrese Office
                ,kickingoff an
                 17,2004, the 8
                                                                    ~g.qigp,       And, kt P e m
                                                                    btmiog r m h ~ e w v k i t h
                                                                                                                         1
                for W1E,gemaManraea A. B             arqd two         Intelligence Analms. (U)

                   In 2004, the FBI rcwised its hiring p d u r c w for IntelligenceAnalysts to mom
                                                                                                                         1
                   effdvety ramit and hire cmdidatm with neoesaary critical t U . T ~ Inew     B
                   system is a remime and weighted questioe-basd tgmtm. Tha weighted questions
                   were dwt:l@ by a group bfsamim inateIli-w amalyste and inbUigcmoe d . y s t
                                                                                                                         I
                   mamgeiy urndmthe drmtiori.ofthe BAD for In~1:I@oes a d wsn, designed t~                   .

t
                   idapaiest the m08t hi#dy-d
                   direct r@Olt%rf&m        dh
                                           dl8
                                                      cm&dab$ at dl entry grade iweb. ~dde
                                               hbl&3h~0
                                                'b         &@ ~8id081,the 01
                                                                                                 hm              .       L
                                                                                                                         I
                                    dUGd0n 000~&8d~@      pIK)@tW~IhtWdIlCOIlf@&t!8 b d h l b ~ 0 d have
                                                                                                    d W
ir                                  m ~ e m ak,t wsrlr tPle FBI and a r i a~ Eouim:yemd@gme; S b d a t a may
                                    alW~69e  m  -     of'work wlth ~~~e study or may work in the w-m in.
                                    tnwhqgo for tuition aeai&moe.~The.pmgmm taurge$               who inW to             ,


i 1.                                complete a four-y~azdegree in dledplinw n d e d for PBI IntdUgqnoe~M y a t
                                    work ta ~luc%uxbbmatiolnap Studlee; F d g n Languagm; $tudisr patbmt ta
                                    sp~a~   g ~ m h i - c8 1 ~ mi^ dm    ,~ i ~ t ~I Er CyO; ~ O ~ BW~RWS;
                                                                                                   ~~S;      ~olitioal
li         .
                                    Scis~a~; Public M d m t i ~ o nWydeal
                                                                     ;      Soime(* and J o d m . In addition to
                                    fhnci,ailqsei&c4, studmta~wouM bemefit by o t ~ h i d significant
                                                                                               q          wQtk
                                    t~xpdam8,and the PBI wduld beaeffit h u g h i a -mi            by the st\~dmttd
 (1                             .
                                    contimua working for the FBI fix a p&& of tima npamb 6mpfdmofibb
                                    educ&~l& (U)

                                     Cohtg~of&dyti~Studim Shoe F i d YEBp 21002, the CbUege ofk-c
                                     S U m I[W)     h~deli~am    '13ditemtiom of tbe Bash 1n.U-w AnaJ.)wls
                                     Course fop nWly hired anal@. In addifion, h1ugh hte~gmce       commd@
                                     partnemllipa and private v a h , thc @AS has *(oc       e p b c i W bahhg for           .
                                    .mviq!a d carpdadFBI ErabB-              AtM4yBts1; 0
                                                                   I


                                    264 PBI ansJyr& have           'bona the Colleg;els&-week BGc In~teUgeace
                                    .Wyt43nnse         its e a t a b b e (U)



                -
 11    -                            1,389 FBI field and             pewbanel (Amla@ts    and Agents) hava attended
               ,' f
                                    &dhd wun-w                   oomaea offsred in WI j W o I P with CIAUaidity.
                        -           (v)         %




                                    A-     X: Thc Basic InteUgence Analyst Come cimm41y offered b y . bCAS'is
                                    boing r e v i ~ - W    Upon eoqletim of this effort Ohc oourse will be m-ti41d
                                    Adytioal cadre 13duWion&mbgy I (ACES I) aa outlined in the HWtn Taleat
                                    Conq. The ACES L cpme will incopnite 8evdn1 core-elmetor inteIligence
                                    training for new agm$ andnew d y e t s . Addi~~~nallythe new c o r n
                                    &eulma bachw advmd analytic tndd oraA             practice, thinking and
                                    writing &ills,r m o m , and field ddb. -Anintmmd* come entitled ACBS II
                                    b mddfs8tdh the fimae that wodd           m m ~~d-t!d                 (U)

                            i       Mentoring:P I D ~ $ ~ P Z : he OIis matag a C&  mfmtoring~ T O ~ I I UtoI Ip1.3vib
  li :.                             g u i amd advice to Ithtelligenoe Analysts on the andytid oaaear in the PBI.
                                        w
                                    Once jmplegld~nteQ,all new IrntelligemceAnalysts (new to thd position or law to
                                    the FBI)will have a mentor to assist them. This pn~grhmwill be imp1emmMin'
  1I                                calenuiar yaat2004. (U)
                                 No. 2: E1tl8ure@ffdveInmMgemeRnd tot 81tldy8b. (U)
                      Rec6me1~da~011
                                          . ,
                                .    I
                                      ..                           '

                                    thetitmwt'dodthaiitomtoe m u m t h a t ~ d d o ~
                                                  ~ 0 ~ c n d S~ b0 &
                                                   phoe to impmv6 tb6.mhrtgmmt
    ofMIligmw A d y s b OllheBAB3[d@ 01have h
    teeponsbility Ror qw &I'e d y d o d fh&msnd p d -       for the
                                                                    n
                                                                       ~ I B e,
                                                                                    ~          p   I!
                                 aPtIre             The
    oomprehapeive a W g y for
    PBI W0 k~ypk~BI'$
                                        &ytid arena      htelR%ge~~lw
                        h &* tho mI%S I ~ T $ ) ~ V ~ h&&$ltl~6
                                                      ~VCB
                                                          i
                                                                      M a g t e at the
                                                                     mte&jr. 0                     Ii
                                                         don g a i h e e &I aU TntdUgmce
                                                          am, qdmthZ8 s g e aad
                                                         a ~ i n ~ n d f o l n I y t 0.,

                                                         keep mpxvbom hfbmed as to
                                                         odtiak   :mo1Eh-
                                                                   .   .


                                                                  ~~
                                                                                   I




                                       ~conBoltor rIl ~ ~ l l oni BC&~ary~ 1,
                                     fb* d ' edc
             2009. The01ia l%wpom'b1le                 me
                                                        m w 8Eenbrds for
             ~~m            bnhhg, rnai d m l q h g the PBh.htdHmd y t i c
           wcddbew3. i s well as fix emmbg -mLm~sfmda-@&                a d field
           divkiom based on inbum pdodtim. Opaatic~dmd field divisioms are
          .-ib        fw d         n    y       -       ~   ~   ~      ~        ~          ~   t
           to f&la&I* fm'd*hlopmeprt dmd#lyhOL
                                              \




          .This new m a n a g a d mp&l wros impfme8Wbyplgoing &a section cIhiefb at
         .     mass d        Y p d ~ ~ ~ ~ g ~ ~ i . f i ~ odp e-mdi d & .. b
            m'tm1&the OL %hose section chiefi;;mrated by the eppaopriadt oB.eidin 01
            and reviawed by the         investigative division into which they are
          . w1.0




    pSs~onse:~ 'PI~ s P B I a ~ ~ a n ~ i o n o f t h e 6 ~ ~ ~ m ~ t h s
                                  a ncadbba iqmvement.$ the -amdhWionbetscwm
%   Sqtcmiber 1l a
    operatiom a
                 .@Eadb
               d &dytiio d t s . W c b e ~ w ~ o o o ~ ~ . ; has      m ddr w~c ~
    itnpmved, Consistent with the l3imcbfs May 2002 mounmmt of the FBI Stratedc
                                                                                a l l(y ~ f f       L
    Fww, the Count-              DiMoo was m r m ' 0 oinSplmmta that-tem
    a~lpmachto better dim the FBh effh to pawent tem01kamThs &al apprnwh
    m o m away froin i traditiolnal ld&Gd sfnmtmand ~cparatlonbetween analytic and'
                                                                                                    I
    q d 0 d hot'ronsmd employ mat&-~gementt.ec)ncqta
    bwinasae and private o r g ~ 0 1and
                            ,
                                                               wed in mccasefhl
                                         1 ~ govmmt agencies. (Up                              I
          The goal dtha raotgmhtion wae imp18~1paQI~onn   ofan a~qmhtionat
    @ntctumand concept of opdona that empowem Pad snablm the FBI to $chitwe the                     I
                        t hUdtd
    phrity of p ~ ~ t ~ths                        atMk by M t & g the flow of
                            g S.Eetds ~ I Ite~mri8t
                                            I


                                              I     .
                                                                                                    I-
      omd don befwm o p dUdtB
                         ~a   and 6heir 4uapio m u m & *        The PlBg
                 the -t                               hdhmsie,oi~bat~d~
                               thraat OHO OWE ~ a d l ~
     aad Domdo Tcolwiste. M t i o d y , ~aarose-ouMqg&erst h'ebh of&eso m m is the
     tamrid acqpddtionof wqone of mass dedructfon (WMD) md the m i m e o f U.S. and
                          ~ andl proceduree. 0
     intmiWionaJ.m n o n yurles
               Usiq ithis threat-based &mm4)*the FBI s h t M ths qaations ofthe (3TD
      along a --teaon         ooraoept that wt&d the bulk of H!b h v d g d v e , fhmc& reporb
      and req&matll@Band d y t i a d m e o m iato three L ~ ateaam.    t    TBg c o ~ o ~ toft a
      e'acIh threat teavn ers ~          1 do .&am
                                                 0 day-to*
                                                        ~     itl-lans
                                                                    ~       and creata~ ~ 8 )      F
     -betweenthe hvdgtttive a        d intelHgmce dsciplinae. IhaCTD .hsdatant Dinetor and
      Deputy As&ta~nIt Dimatsr~(IPADQ)jointly ihtig.the invdgativi add analytic
      prioriti~~  astrab)Piehintegrated q 4 o d Pnd analytical objsotivw, @ allocnb CIp .
      m m o w fm a d teesn based an thow pd&t%mmd &jd-.               '   Tha opmdd~@
      ~@ega~d~ponfarwhtPllootteamhavebesnQ$rw~torllPBIfield                                .
      offices wharr, tfwy will gwido field q40d8ctivitia. The ccmponenta o f e h threat
      team are co-loeatad to hilitat8 day-to&y " m a ~ sad              ~ synergy between the-
                                                                   o crwts
      hvd@ivs snd htelUgmc6 &uiplina. (U)                                            .-

          The Office of bblligq meambiteshas e&&Mghe'dprinciplea within the
     Be~egltest h @ d o nbs1-.   btbre B
                                       -     rather thn a dngh ficld ofhoe a
     h       m m ~ o n e nand
                           t willbe &wed with .IIthwe with a l e @ mndI-@how.
                                                            R m m m s i d n to

        .. Since the Septmnbar 11sttacks, the FBI's Offim a~fhtdigmw hes pubbhed o
     ckmpt of ftstints    b o r b B B i v Mdiopl -aaBU&O*     'Phis po13bIicationg u i h ths
         hthe & ' a 0 8 off~ W - Q                   h @lths    dd, e of the q   -
     compme~bbcam@mmcommeaa on the aclclaraoy of b       1'8 snd the pmtediop to be
     a£hdd                           Tho IEhacnrtiw As&@art Director for MeIligleacp iB
     the &Ill                        etwm o p d o n s laQ inteIligenc6 oomponenb in the
     pmdwtion imd ~        s   s   ~ of ointelligence
                                              n       ghduds. (U)
          The PBI has put into place a nmba of other m w h m thaf hava vastl.y
     impmved ooordinrdionbetween o p d o m and malytic oo~qmnenti.'H'h-0 indude: 0
         Q   Twioedaily inblligmce and operations briefinga'ohairsdby the Dimtor end
             a d d b;y msxetivq l ~ w ~ - l m l ~ k g eand   r slib
                                                                 , d g g t s ftom both the
             o p d w and inbIligen& components d the invmtigative &visionsDas well as
             the ExwUivivs.Assistant Direct& for hQeIligencs@dD-I) and.othsr01 mamagem.
             Coordindkon*huesan b w dmd directions an,given fot both o p d o f l and       ~
             inteBlipnaou issues in cx)mectionwith tPle pio4ty heab and important
             inveatig~cms.     *o
             A daily Zintc~lligenw onB o d (IPB)was ~rbli&edin August 2003. .The
II
                                                                                                       *

                                                                                                   ,

             WB met&?&dly end is ohaired by the W-I.RqmamWvw incBu.de s d m
                   .   i


I
       a     The Direcbr has him'the BAD-I as the FBI's chief policy official for
             Inbllipnce                              city, the EAI34 bas policy
           '.&thodtty to                             . &as i a d d tekefica, md she
             hesimthdcdaad~o          ea thathuve*dgmifimtryirnpmvd ' c, - c ~ a a g n
       .     aqd'ooasuW01). h-w
                                                                               C




    oftho FBrs nqx~nseto Uhe threat of tumxirhq both domc;SticaUy andAnmad, ~rthioh
    b uinmati.d-Upw                      dm.mutltri8&3   efib-     d o q d c m-
    wsapona~flllrrmsf i e m l d i tern*.
                                   ~                        qJ!bm&nhmpa. -              '

    SllRsillanoe Ad,,Natiod Smnity                          %,'mumdivdbpna&
    M e p y and hmkmrogatm   i tdmiqym, rapid dsp10ymem4 and digital and e 1 6 d c
    exploiWiq. The ~ . h p . ~ d a pthis   edtraialag ~ ~ n ~idsati6dcmofb~ed
                                                                  t l m
    mait$?R.~& &>mwithiq ffis m&.                        Ag8~1eiwand private ob-ra.
    m~o~tlnistrainitlgtoWI                             Ime ibdyais &om both the field aed
    h c d q m ag v v d as to thw tmfbmmmt pemomeI assigned to the Joint Teeladm
    Task Forws,(PF9~tbm@n@hoomtry. CTD hna m~rtri'lpubd            d ~ c ~the ~ ~           t   o
    comes deveIoped by @ College of Wfld S M a ad the CantranTmntBIligmce
    Agency Wvemity for FBI-.             flheae oomm ah 1.0 improve a  d &a
    analytical capabilityto quickly amxtdnOhe mlbbility, incpliddnae,     detail$ of
    t%m,rist M g s tlnd Bow tbeat-re1latsdWmation is &II*           to local, &&qand
    fddagencicrs. (U)           .

           CfD's p  'm  f
                        o c o ais Uo      s the most bmadliatetmhhg nee& oft@ F      E
                                                                                     Bh
    WOWC        ~ lD  ~ b m ~011kh.g
                   @hes               withetheTrainingM~tlrPi~~   Oflice of Thhhg
    Deve1opment, b '&reab c d c d 8 which d h s e s the needs of Agmb, M y s t $ and Task
    Force Officers r~aignedto &un&atemW       related matte9.s. T b curriculumb w d
.   approach begim with a baaia u d m t a b g ofthe fioumbtiora of both domestic and
r,.          being condu&don a bphr b@b iu01:ude:htenndmat T ~ ~ m . BOpdomS
                                                                           ~ i c
             Internatonal T m * $ o m Dwdo~ant,and Intarvimand Intawgatio~nof IeWo
                                                                                      .


             I B ~TIraee     , hiinins && w being dweloped'tome@ the needs'ofthe PBPo
[1
                                                          .                     ,
             &er dunging corn-          ~ ~ B ~ O (Up
                                                  I L , .


                      (;TD has dwelopd the course,          "&pugl=h:          A Strategic a d Tactical
              Appr~~h'",   b 1-8       ths ~ v d d m h ag         d for Orathhg of -6 d looid law
              enfbrcemmt oiBosn e      nw ed in o o m m W m W a d invedgatiom tbou.ghthe
              The comopntamt ofthis t a d h g e m p m mud&*                         o      t     ~     ~ andv         e
              opkDtiod rqphmmbin c o - m h                          i n v ~ g a t i o 1 1 8 ' ~ o p ~ o rhi ri rm. e
              psrtioipante ase bpiefsdon o variety ofh-cmal            Umadst o r m o w , Middle Bae(
              ooltare spd @ad est;,and unr eaposad uoooincepte inv~lviagt l e s ~ a n m amemitmemt
                                                                                                 i~              ~IMB
                        Q ~ S ~ , U WW
                                     ~    ~ ~~     U ~ ~C MX W I Oia!wid~rimM01;1
                                                                   IQW,                        p;obh~,
            ' itechiqqa inhareat i   n h M M l tfzrlm- d;                ad-case    k-                ?his oomee
              ie presented m g i o d y end h v i h . t h o law d m m ~oSoeb,
                                             '
                                                                                t        assigned to wqnk bn
             'thcfirP,abQttsl -                   of 8bsir.vitalrole in the PBPI oomtertmh mission.
              Twennty five i t x z d x u r ~ mee Phndfor && ;par*              , RI)
                  \
                                           , pwticipatt~in designimg a nevi q i p i o d to tew-
                      L g t r o u t F Y ~CID
             N    '         ~     i   n fourgmontb
                                                ~ of~New Agent Training            at dtae FBI m                y    .
             ~%D~~2002,a~bwas~@dbin~dlarmm~h(~md
             qntaktelli~m  (0  i m & u & i d lblooli hb.fhe M I ?do include 110 bum ofmandl
                        cuxrkd- .Tinedew b w t m t i . 4 bloakc is m qpmach~oinvestigative
             ~l%~~estigative
             tniniqgwhi&.awesrMddIe~GPhniaalBn~see(MBCE)escanWWngh                                  !

             thlgmtire se8Sjiom~ofNew Agent T k d h g * Th6 new CT mnd CI h s t n d d blolck begins
             with %asic in~mtiBptivekdmiquwnand cmlminatcs in "a&.anca kestigative
                           Etaahblsio rmd .dm&~ o d i o n abl l ~ i  knmm
             i n f e w a d v e w i t a d m s a be]Bqpm& as well i w . h W i n . i v e
             techniques. (U)
                                                              I




              . - Codmc;as that have been co*                 by CTD have targeted SACS,ASACs,
            -SS& SAs, M y s b aa8 JTTP Officers and havd included Suicide B m k Awamness,
             WarlriPg Together in C o u a m h ( F B V a amdinadorn),m            dstPb43ing,
             Domestic T m ~ p mWeqotlg
                                    ,        of Maw Dastrwtion, lTlTh u a l Comfbence, mdl
             Special Bvent hdeoagement M d d anme oantsat is apecificallpdesigned $0 a d d m 6
u       ,
             andmeet tho n d l s of a'group'e activities. Additional oonf'mces rn lbejng schdded to
             address reomring issum on a M rights, eco-dmrism, black sepmW, domer~c
             ~~fi@&R%cl d hkXll&~d                                P U P 8 of ink&     suoh     Hth&3
li           QaW   CTD contirnw to support count+aterroiistainb~onal'traiaiagbuglh the

[   '
    j
             htead008f Law lEhfbnmt Acaddw (ILEA) and b v i d m btmction by the
             Terrorist F h c i q g Opmtions S d o n to the har~~
             0
             ',
                                                              law ed0rcana.tpartnm world wid&.

                  The FBra (Officeof Thinbg md Development, h coo-on     with the
It           Counteainte~ceIDiMoS @ Q U Mvisia        ~ ~ isid W the .N&omlSccuhity Law
,I
             Btm& 0,     OBlceofthe O a n d el(OW), hm prepwed and'--
    I
~ m - w B d eePIISMmiphQ6W                                g$a~'Co~~rl'd101~
intawtive ' O D ~ & ~ G Lemrhg
                         B        hmm       for Naw Agmb anQ all 0 t h PBIpdsoand
d p e d PCMT 1wmflitf8..Th           sl. m r n t ~apltitld'llrISA
                                                   l~~~             and WO-m Sharing
Th&'Impaot om ~[nvdgdocwe*         and mvm tme fb1lowing topias: lbndhgChmedE
I n f b d b n ; Shaahg hvestlgative M o d mwith tlbs l ~ ~ t e ~ gComUlbii.ty;
                                                                            m~e        HSA
RsqW-            midlP I U O ~md; $h&tig h68lli$&o~~witIh    ~ S W U & KBS  S p~ tho Ahch 6,
2002 P m d m . ~h;,        mum?pvidea the helnee~with afamhtioa on'iafbrmation dmhg
                                    u , ,h & g md safew&jp ofobMeci matmial, r;ad
and its impact on h v e s t i ~ h ~ tho
the  -A admSairdve8pm.All &mb~cmd a d y @*syoddq& b ~ r n f i i e mdt
OO&wgm
                                                              dis-l-counre.               Itie
aecebarnlle to .dUi                                          thePBh-                   '

.wme~~i         $p                                           ~g ad~ m ~ o p i n m  b~ ta~atso
                                                                                         e
                                                                                         . .-
W-        w ~ ftpe~mrs
                 h         y mw e e ~ n y p g Q     p deveEopm
                                                       ~~~
                                                        . - ,
                                                                     eer=ma     .-
             the psltriot kot. (U)
                                                                          I


                            a




                                                            tb56 field divWoris bveq            '



                                                            nalteamsm,wbMbyb
                                                            loonsistofrm~mdu~
                                                            C), r sqaad s u p ~ z pand
                                                                                    , ar
                                                            -%lai     -*of     hdelli-
                                                            m d P & I E Q ~ l ~ i
                                                            OhlPncai~~e~PISA
                                                            zatm
                                                               il -i              anidthe
                                                            M3, end -tinued           thmrrgh

      Additio~m~y, MLB assigned twp hwym Q t ~ q i p 1 the.a-ripm
                                                       )~
Mvi.don'r Natiial Soanrity Pro-           'Ihddng Uiiit (On])afthe PBI
Academy* OTU lhas carpadled 9N m              to include Foreign              '   '



C c a e U ~ r and  n C h u n m h imhdion. Thlt training is ~m,vid&1by OTU
IUUXINSLB~I~~~~(U)              * , .



        NSLB slso ~       Wjo&--.ari~h
                                     I      OIPR, DOJ, h selected fidd di~idonsat
least once a month. In add@onto e     hwofdassimm i i i m m d .&ay'sia
                                       r
                                       -
spentmvi*       c&t     @,c108td fISh'ciues with the assigned cub agcmts lmld &&
sup-m*       0.
        NSU &&sir    pmvidle~FISA imtmchn for all Fo~dgnC o m . t % l l i g m d ~
Coa~tat&fiw,m (     C  m  M   i
                              o t
                                u P1 Tamxhm 0 h-8lWce cl(a8aeaeonduc~tedat the
PBIAcadhy. Thie tmhdq is                ~~
                                        fot mord c a p h e n o d FBI p e ~ o m e 1 ' ( i i c l ~
ASACs, Chief Di.vbion &Jow%~ll,Spwial 'Agmts,JnteUigtmce O p d o m Spacialiste,
Intelligence Ragearch Specidli* and other w o r t pmommel) who an,now aasigned
FcI/CI/IT matten$ and for persome1 who ars tmdtioning to baa assigtunmb~.0
      . NSLB   - p ~ g s ePJJSA
                           s            MA
                                    tdd FBIHQ!a p d o anni$ ad~itiod
                                 l -8m k 1 y a i b d ~ a t i o ~&md~r
          r&ornmam tladgnd ~ L Bha8                             ~ a l Poky
                                     end        ~!awU& vdd&f, when                    I ~ mb 6
                                                                                             o d lrdn@j
                                     mqomibilities for both PBMQ and field division trwi ioI@A end mlatcd mathm.'
                                     0
                                                 /   #




                                              The C'lDmd Ohb FBI%Wioe of bdCoua~el,National Security Law
                                     Bmoh, have vvofkd 0provide national munrity t m h i q to field Sup&on~ and ASAC
                             .       a at Departman@of JwUiw National Security 9ek.abhg ~onfbrmce8held at the Department
                                     of Jwtice'e National Advooaoy Ceanter. Ths NSLB asdgned sevcaal attorney?ae
                                     hstmtom to wgpoft the codmow which wem cbnd~1ictedat the N & W Advocacy
                                     Gentes (NACpsDQJ, in C o b b i 4 SC. Tins dix-tqwswwae four days in lapeth. 'XI&
                                                   c s &e~o~)ed!
                                     o o ~ ~ e g a WUI            to oddn#re the o v d e -   nnnmmc         e       g       ~to '   ~   ~
                                     ths N a t i d S e d t y Imesfi-      Wdehm add i m p l e m ~ o l of~ zthe Fomign
                                     PnteUgmce S U U Y * ~ Act (PISA). The Tha cooonf$rencc was held beginning on May 6,
                                     2003. Atotal of& m h d - a               were coadwkd a t h N A C dwhg ihe tNhnner
                         .           month, mdtwu 'dm- wge bldl at ~ o r~t e I w ) i p ~ 'in~SrePr p~t a n .2003, The
                                     attslldees wae !SAG, ChitlfMm - ~ 8 &Spscial A&!atB, Ae*                  P F n i a St*..
                                     Attenmey, m    e
                                                    ndthe a t t o m d p d to tha 08Bcs dInQcdUigmc6Policy and M e w ,
                                     WJ, who wac rtso paridhag imtmclim TBe ~ d u m ' ~ 1 u imbmtioe       d d          on fbe
                                     &m md 0 = d Z & h of&@Inbu@lllC$alIlIlld&                aQ V ~ W      oftha F(3reip    '



                                     htdligeace ~ v d m Act,      ~ ied b d o n s h h g , di1oqWm'inte11'i- Pnd
             .
           , *       *               G-             v,                                          c011~xtion
                                                           fodgn ..jnteIligmceamtiw~~~WI~~b]utgenc~
             4:.             -
                                     Q@, the h e of.mSAidimdain'kpprt offoriminalIlitiMm andl pmctkid
           ..-                       &cal     decision-      memnf-w         nlso tncludod 8 day-lmg, pmbItm-saI~
                                     exemise, qonduetdl in W v i d d "br%&outn satiom, Q rehfbxce the teaching objectives
                                     of lfic cOaferer1cc:. 0

                                                                                    dbrtmce'with the DOJ to train ;both
                 "                   Gmta and An6dlysUs on infbd011                   o o o m i o n bmm Pho InteIjligmce
                                 .   Community and raw c      m  hw xnw PIS& foreign inteUiga~ceand f d g n .
                                     c o ~ t e l l i g invdgatio~ps
                                                             ~ a          mdBPS~Uectimtools; andl the Patriot Ad. Based UXQtfno
                                     su!qcssof both ad--            Clp 5mp1egrmmW and deMe1c)ped a mpional tmbhg mume
            .                        to guide all 56 1Pit;ldlbivhiofls on .bAttorney General Onridekes for National Security
                                     Inv-om         encl the PCTA .pmxm. (U) '
,_I
                                             The Comlgistelligence Law M U in NSLB routhelypd~ipatesincountry-

1     ..
                                     pirfic confm~cathat Chmtexhtdgaace Division d b u 'spansor(mually on ;a p l y
                                     basis). The topics taught byNSU3 include thi National Set:urQ auideliws aad the FISA
                                     process. (U) '
 1

 1                                           Before 09/11; NSLB (then the N d d S d t y           Unit) pmidsd extensive
                                     training at PBI wmferencaa held rannually fot Cmief Diviaio11CQmel(PBI Agemt
 1     .                             attorney in the field'didsiom),hcldng one m h eesoion @ioh was funded by the
 J                                   Couatertemrim Section and devoted entirely to inteIligmce law iumes. Additiotdy,
                                     NSLU provided iPlteUigence law training Pbr Chief Division Come1 at tfaree regi4ntd
  T                                  training confmow in 1996 a d 199.7which fioeued dtfWIyon inbfigmw lew h m .
  i
  t

  I                                                      I
    NsLU afso mutir~dl[~
                     pmvidfed hblligtmoe frwv.hhhg at m d i a spomored by the
    Counmr9maS d a0                                                                 >   0




                                              I




               NSLB l o p r o v i h PLSA     and @~uE@pario&c 00rr~muSnicaQio~
    diesemxhated to all dvisiom: e.g., NSLB guidance entifled '             ~S M w ~                             ~   (i
    Prowdm for otordgn I&e~ligme                  &untarhntemiigehoe h v ~ e ; s r 9 ~
    Crr)
                                                  to all fidkd divisionti in Novmba2002.                             ll
    ~
          N S L B - ~maintains
           t
           '   ~
                       ~O
                    q idofwild
                         g
                                 tbe WC hfrm$[&tti.labb:to
                              1 spbcifi~
                                   ~
                                                              HQ and all 6eld diPvbim).
                                       guidance on infotmabblan sharitlg. Thb'NS:LB.-
                                                                                                                     II
    . w M babo fakes on-lineD& d o W l @6.'broobmp'entitledl 'Wow Do I Get a .
.
    FI$A3m(U)- .           .
                                                                                                         '

                                                                                                                     11
                                                                        o heloplad implanmt
                                                                        ~detate'andlooalisw
                                                                             ofimtrochtcsng, with the
                                                                        ~olbsaion0fCIP~t
                                                                        I. T h e R 4 p o r n M d
                                                                        3-mmin                               -
                                                                        maammgqe.**             to
                                                                        intolligrPoe;diesemidmof
    i n t e r n ~ * # ~ W ~ , .
                    '   iIl&mda   llxp9*o.(U)         '
                                                                                                     -


            CTD brPs wel loped a CQmtcztamhTraiaing Traok to ttdckes8 the most
-
          . . . edua~dional
    immsdiats
    co-lreM-
                           needs ofAgenb@                     ~~
                                              aad DTlrPO ~ c a m  aadgned to
                                                              withabpsiod~ofpsnwis(t~
                                  hg -h           '       8

    @W              d n ~ ~ d . y OR^                            m e 4~hm&1 d 8(U)
    Spcoific C      O rWgnd
                          ~    for @e Basic lml oftraining fobage at^^ Analyts,rmdl llTP                             I
    Ofeoasb%Ud8r([T) .                                            .    .
       e Intematio~d      Tmrism WC                               -
                                          Q d o m apprndimdely850 trained
                                                                                                                      I
       e I n ~ i ~ n~      a l mSome    h D m l ~ e n-tq~m-ly            300 trained (U)
       a C           ommhm   ~ A S W~@ c and Tactical Appmach- ~               ~2110 plus 50 l                       y
           lla&u&m?.*d
               '8

                                (lu)
           D O P E P ~ G~ Q ~ T O W 39 -W~CL             ~ 0 ~) I   ~
                                                                                                                     1
           Middle ~        t C h l hW L A M 101 - online amma (U)
           CT W g for $tats Pad Local Law Eldbrcmmt- 130 Agents tminedl as
           instrum1f     a 26,880 isw              officem;(er]~
                                                                                                                      I
                College of ~ ~ c d S t u d ioeEm s a mriw ol?come8for andm that
                                          -
           support the CT mitsion a p p m h b l y 250 trai~aL(ZP)                           I                         I
    Co-         designed for ths httamdiats level blud8t (0)
               IT Interd~wand hmgatrm-dee~ini-dm                        GOm8 for summer 2004 for 40
                                                                                             .       ..




                                                                                                 .   I
                                                                                                     I..
                                                                    LP.*Wd*
                                                                       with ComqWxwies




F'utum Comm in DevePopmefhO:
       Ovarseau Deployment - Survival Tmbhg for &fenreas Deployments in hostile
       envirQM1mtsCU)
   r   Analysts Trainirng - Suppod R q 0 r t ~Offica Training at least once pea quuter/2.5
       ~ y s W.
                             -
       ASAC/$SA 'I'raiining PIBYCIA P a t h d i p #Spodh~T q i ~ O
                                                                 a ~p M o f l ~rmd
                                                                                 ~       .
       ~ m p n & tOut&
                    ,     S p d m for HQs once/matth.
[1                                      -
                        'Or&ui,~ouises1deeatif~which come infmttia ahpm eesilyto oditm
                        Virtual Acdmy sponsored by the 'hhing W~tigion.
                                                                                        I   '


                                                                                                      *   ,




                                 No.5: PBf AtOomeyr ~houldbe b4~tterfntegrrded into
                 Rec6mendldlaition
11               co~ntetcrmo~Cm invatlgatlo~~0                                                    I




                 IFBE Re8v)onsc; Aftar 9111, th6 N a t i d Security Low B v c h (WLB) wps mtdruc-
[I               SO SW b IIlhlDll the op&~~lld
                 didonbetvv~cnthe ~m~~
                                               S&U&llM 0f.mH 0 d & ~ d ~b     kfl0dt@  the ( ~ d 0 I d
                                                        DivMon (C"jDIDtha Coqte1int0Mgcanc~mvhioa
                                                                                  NSLB - two tb haidle
II               (CD), end thcCzrt,~D i v b i ~t ~l ,~ ~ u d b &tbMdaPi&
                 colPltateorairrm ma#eps (Comtxntamb Lrw Unib (CILU) 1 d II).'d ane unit 80
                 hsDdle ~ - m ~ g and         ~ cybm
                                                   c ma#are
                                                       ~      (Counteih~tellji~w  Law Unit (ClLv)); (A
It               fEp~unitheerso~tlylbssa~wto~rrpompoliGyandtraininglewnaa.)
                 W~tbheachof'tb threa -pfmd                    NSLB d b , thb atkmeys are nsbignedto
                 ppticulardb or s d o m wiW CTZ),CD ar Cybesr* Fmthga, with re@ to
li               htwmtbd T t m h S'ectioms I od IIofCPP, NSEB hna ksdgnd.twoattcmmoy to be
                 c o - l o c d m client spaceem                        I




                          Tbw, wit&tP)ep&gnm~t of an abbacy to each of the @od                 units or
     -       .   s d a n s , them ie mutho contact b&wm agent, analyst and attcmh rn.lb&al~i&mtsthat
                 dm. With 1sgm3to rwicerw.dFE3h9NSLB atbmm1bvesp o d £bawd
                 htowledga of tt~6targets far wlhieh their rmit.oraecticm h beking to initiate or mew
                 covaag8. At'& pint of hitidethe attorney M respfrsibf~for rdewjng and
         '
                 approving the hitistion submilied to him by his clieat, &a o p b m t i d unit. Any
                 subscqusbt ismor w a d n g that PISA which come to tihe attention of the operational
                 unit with respaasifi@forthe pa&@ is thQl muted to the attorney assigned that Mit.
                 The long~termn d t of= athqgmdis ro increased             ffimw       between client andl .
                 come& and ini-vd           wod@ mlrntimship. A seam oftroet and purpose d~816p6.
                 between tha parties which lgegtly in-ear     the litrelitnd that legal ast&ance1m in faot -
                 be sought when it is necessary8and it iol-m      the e-vmms        of the attorney in
                 rqmdngto rap- for legal assist~~~e.          P'wtbzmors, the bistori~knowledge that the
                 attorney gains bjr being sad@ to a pdcollq unit cJso i11-            his.effi@ivaams,
                 re hasha b u s both pmamt h d past M%iari€y            not amly with the particular
                 invdgation tltus~tis the mbject of the legal quest, but with related invdgatiationa Pnd
                 the errbjeut matter in genml. 0
                         The matiion of new rmi$ within NSLB prrhlch havo s p e d 0 respbmibilitim for
                 CTD,CD &d Q&Pd t a md ~ B O I ~ O IhPIl   M also.inmasdccoabct with the ffi.e16 N$LB
                 attorneys havd this opportunity for i n c m d interaction with th6 field agents who ate
                 handling the investigations thatare being wrpemked by tht; mhbntivb wits to ~wlaichthe
                 attorney8 a& assigned R . m ethat it is often the field o f k e that will haw
                 questions fequipisc~gan h d a t e r q o m e or Mb&m ~idd             by the NSLB attorney,
                 parbicdtulyif the Pssw ia thr, atftici-y oq w m l m a a o)fa             for PLSA iniM011,   '


                 tha NSLB altcxney and ths field agents have mhed their w o w relatinehip, whereby
the NSLB attcmy how68 wham to tun to get -ma     to hie quxdoruLaad th(s field
agents know wham to sssk out fn orda to mdve legd iawO-(U)

Countat&n&tai         on   o p d d wnits d b to the planned move to mew offloe s-paw
in Tysom Comer, Virginia The FBI,CIA,DOJ, and onhtn agmoiw!ofthe U.Se
Intelligence Community will bq oo-looabed fot the hrst hme in Isge wmb& in a dngle
hilitye At p e n t , a Uotd of 20 NSLB attorneys are      ~~~ to movsto ths maw
h W y in Virginis. We expect that thie move will m d t in the total inteption~of NSW
attcnneya into cormtcatmwd~m.ipVdgatiom~      (U)
                                              3
                                                      .
            .    .
                       6~
                     mi-  ' ~i*       i comation b f : t w a tbe m~and OIFR,
                              n a i rdwer
                     ~  .. o.or ~ggmsui~p    . t0
                                      ~. crsaq.

                m i P ~ ~ i s i o ~ ~ w i t h , ~ ~
                'dhiclet&~gts,~@.~t@tthisia~~~@&&&              Inmid.2003,tfLe
'CTD's &&smtiad     T d m @emtiom S d o p I (IlT'OiS I) initiated bi-weekly
 opastidaslBldeeti                  h . D O JQPIEL and WJ            to earn tihat
 tnepnslm                           f(n)         c d i-ON                ha aemd
 rmd(2)~ongoingiiblttgemm qmdiom*oc          though OF& wme in s p . . .
 A t t e at fha w d y m*    hc0& Dhe m   s I SwQii~31hCbiefoa   AssisEPnt sbotion
%hiof; ceoh of uht                   - 0 K . @ M h ~-av@8             ~ ~ d
fmmrnagldo1                            pm dw-fipubr s d . a a l m w ,ccm*
m w t i r w a e s i n t h ~ ;wid
                             ~                    ofM@--ty         invdgatiw
m ltlre-field,dm        otp$d]~d&g                tbsstotusofDOJ~~
a     ~       ~           ~ W
                   ~ m'tbosi   M nndez
                                   d tWh 3 ~. pau
                                                ~~ ~         ofrras~'(ar) .
                                                                                     .
       WOS 1 . q p m d v e swem h hfljt invbld~'ih.the      ~t;itbg6f the-IPISA
Tiaing.eystemwhich pBni&s ov&isle ~ r ~ ~ piid-n     3 P R of FISA
8ppHcrdiw await@ prmqWonto Ohe             In light o f m $ I% largs pensentage of
o d U S I C : PISA app@&,     S a $ i m . m h hold r d & o f experitsice$IPISA
            . . able to mm*
ma#ers and wara                               0 -
        IaM.y,2004~CIPl~$I~~dd.and~tirbedbo~ofiw~y
meding with CDEDRSttictly fbr O p d o n on the           ofpsllding a  d adim.PISA
applid0818. This m*          doe8 nit dlimasa o p d d . & l r g u a d is Baldsepamb.d
dwmt b n the weekly cqxabtid                    ~s of J U ~2 Im  ,sll PBI a-hnr~lwd
with Ina8entingFSA q p l i d ~ m                were in rorth6 attadmce and tho F]rO$ I
tracking aytan wed intanally h r the s d o n was modidd and adloptd for overall FBI
wee'Atthis m d h g OPR amd the FBI bdancb the liet of p d h g PISC applio~atiom
                    r nthe lawtweek's dock& my anergm@ymSAeMeenp CO~urtbut rrct
t r U o u g h ~ ~ aof
yet inc1udd-inany datdhse, and PLSA withdraw&. T$iR c o m b ~ o ofwdkly    n
m,-       the FHA Tier Systann, end the FCPA Tracking Slystemb v p mmlted i i closa
c o o ~ o bahvem.tbe
              n            FBI and OPR (U)
                                      .   a       .




  . . InaddMop, thmk is 1~6gdar
        '                       and dgdfimt . d t ~ obebv68~1
                                                           n    tho FBI and the
0iPR an-1     iesues that arise with m@to the initiation and mmmd of Pomign
                      ht&&&W      ~1rn-A G      UE t (mSc)-$u&&d 0kWtd0 -eill~u%68 asld ~hyld6d
                      eeimh,pwh~ekp    StandardIkWdWion h m d u r a , inlmpxMioon ofthe        &&dmB
                      mdl myriad dthca matters. Mom qwis*,          qm aaq biw&,           bckm OIPR
                      mpervhom and National S d t y Law BmOh (NSL3B) eupewbomOincluding ths
                      &nerd CouyeI, and tt;b CIA IIhmara also biweekly rnmtiqp an PPSA hsws
                      between OPR, NSLB, and the-Officeof the Deputy AGtomey &ad.      b. ri'~)~~,
                      impromptu meetings between supervbom of OIPR and INSLB, as will aa.rneathqip
                      betwem line attorney, ars held idmoat ddy. At p e n 4 there i8mguh and mwh6
                      dialogus betwc:a
                                . .    the FBI andl OIPR, at all lamla, on i
                                                                           b w tmdtmWcwm.
1    T
                       .,     O n ~ l i l ~ , ~ ~ , t h e ~ # ~ ~ ~ ~ d ~ ~ ~ ~ . d t h
[I                     c&     ohan@! inth4 PLSA p11'0tm8.Thie hcludpd the 118dmmt
                       &mmep.to    bei* finu-he o r n ; c ~ * d -      b'mtxmwi~d
                                                                    to t
                                                                                  of five NSLB
                                                                                      T d m
                       ~ ~ ~ 4 d ~ 1 P I S A ~ a s l t ~ 0 ~ ~ r t m ~ t q . a a i ~ b p. a a d i n
                                                , of 10 motc FSLB atbiaoyswill be rssigned oms have
I1 .                   eowrage. ~dditim      s~
                                              total
                       already begun the hcpmaaa) to wwodt,m-heon thc Ii'JSApiocess within 0PRr8chain
                       ofoonrmendamdnndaOlPR~m~otpejrid~fomoycar.                 Thisasg@rmentof
[I       -
             ! +
                     - athneyss hasbmhefid ia ~
                       o p ~ o n( sa B d d h rac0mmUon#5). O
                      @gtmerat ofIW1 a#ome%gwillnot only allcdab
                                                                    v
                                                                        ~r@meys ~ t o o ~o m m h
                                                                     w WSLB befievm..that thle
                                                                                                      ~
                                                                                     OIPR s t d b g ataortagas,
li           -, i.
                      but will.olso $ayeto &m@hen cloyr wo&
                            -                                            mlPti&i between the FBI dlOPR' Co)


n            b L
                      C Reakme~dhtiommIlatd to the FlBP*innbradone with the ~ntxdligke
                      t 2 d- i l m e : Q I D ) . -
                       b




                      Recommendaoliom NO* Ensure &&be
                                                     .


                                                         .z          mnnagemmeg~toff*FBIdetailem. 0

                              The FBI is m ageemeat thot the W ' s ~xymme~~datiion   to pde effmtive
                      management to lthe emplomea detailed to tha CIA% Cubter-Tentob Chi- (CTC).
                      Tha PBra Corn.-             19iivbiam t l y hrs one $;EBnavpl m      gea .Q a r GS-15
                                                                                                      ~
                      SppgpiSOrS, & 0s-14 Snpdsoxk mdthrm ~ I l i ~ M           cy ~& o deta3d.bfive CLA
                      cieprtmats, hadhgths Clmsnt M m StafE Ut the C'r'D d~~                are s u p u
                      through both tha FBI Prnd CXA chain ofccmmmd for the g p d c depment &ey are
                      detailad, with the SBS apanqex bzling their dth& mthg offidal. Baoh dWlm has
                      been ma& a m e oftheir d   deg.andxqpmiiatie~     within the& specified madf
                      opaation and tfLi has been d&edllttd ~                        y alt CtD detail-
                                                                        ~ In addition,         .
                      assigned to tho CTC meet daily with the SBS maanagex, and the GS-15 Supenviaom meet
                                             n the 9BS manager to prepare for the DCTa evening brio
                      again in the ~ p 1 m with

                               The PBX Ylas detemhedl tbet the eummt 'pd-~ce             p b for the GS-15
                       Supavisor, OS-I14 Supdwiaor snd the htelMgmce Analpte are suffidently inc1Iusive to
                       d e t p b l y reflect the critical elements ofthejob being parformed by the individual
                      .detailmeAs stat~dabove, Hhe FBI SBS manager d d d to C'YX swe~as tha rating or
                       reviewing offich9 as qpropriato. CIA menaga input is also solicitad fin the mud
                       P & m c e &aieal a n d l s , d - ~ uPdo-08     d          Update. It should be noted thst the
                       SBS manager rb CTC doos not havb W Q           report authority tothose PBI anployoea      .
.    debitedto CIAL-F~IE~O.   These d~~  P P mpmbed
                                             ~           by the T-          IFirmcb
     OpdmS d c m ('I'F08) wWII'W.          Tfra FEE! mm~cp      do= qmreBhowpva,
                                                  p i o d h j rosoessary g u i h c e lvhd
     h p p n t while tbay aas W i e d to

                     ym Noe88             employees who idiract witb other hellMgemm
     agencies better aademand.tbclr ' r e p ~ ~ g ~ p r o c e(U)
                                                              a~w~
                   fib P B 8-~ w                      m~dbad i ~bb#er
                                                                  i                -ag
                                                                                     &the .
                 cass~es.snd mpabilitib ofsthes U;S. Inte~g~rnCe'Connmtdti&,       and it hae
     bhl,and wifl C C > I ~ ~a We O-8     b IWhid~efhle lllldi-            UZO@! the       '1Eh6 :mE.
     FBI does belime, how~a,'that  U.S.                    me
                                                      Cmmimity qpnciea htqacRiplg with
     the PBI hPvb an !pbU@m rb i m b p M i . s n s t a e tlnaa ihs FBI ie'#idlyW0rm.dh u t
                   sbmanm rad 911of the t h a i h l b b M d ~      that    po&~.&ogt'
                                  iarrmee BIbd i#v&@m.      (U)
    .,        '.           S i n o e S q ~ ~ e ~ ~ I l , ~ l , t 6 s P B I ~ ~ W 5 a ~ 1 ~ o. f f p d ~ s P
                             ~~~60 instill sbs#a umth m t m of US.~eUgence~Coiqm,pnitjr
                                                        m
                             p c a m . Thme itlchk'(Up
                                                     - .      '   '




                   '
                                                            f o r b o t h ~ & d & t esad Iatelligeme
                           Iddditioq,the tcsini4g ~ d @ u u w
                           Andm b being nwhdto impmveUhe knod~gethst mployexs have
                           2ib0utU.B;l h t d i g m k 'agencies,
                                                            ~ ~ their r 0 1 aparbadca,
                                                                                    ~            andl b&c
                           plxmmc%l.(U)    ,
                       1     .



                           .mew,ceo    t h ~ n i ihas
                                                    i~     8 g l o w oftha varim              of
                           i n k w e reparb prcxUuosd by t
                                                         bU.S. l n t e l E g s n c e . C o ~on
                                                                                             . ~it8 FBI
                           intlallelt
                                . - sv&SiQe. (U)

               6 Aad~rCIA~ffi~idbb~detaadbtottaelrs~-hi~&~nt~
         .
         ''      anhanc,e 4the          knowledgp of CIA w m m v 3 b operatiow and i i i w
                                    n. O B C
                 o o ~ d h @ k ~ i oThie       -dS ~ hdaily bl'i6flwde8Cd   . d i 0 & whac~
                                                                            W         ,    he
                                                                                                            I
                 cliscmwa~key           reporthg stream and coom%tultesnqm*   exchange between
                 the two aqgmcies. 0                                                                        I
                                        ... .
                                        '

                to tha inblMg~eand b m e e ~d t y ~ o m d ~ atj ths       & SEWT        .,
level ie provided via D,qarhomtofDef=e SBCREE Wamd Pmtoeol Rmm
NBtBVorlr:(SIPRNlBT) M6h pm8oe ths &~mmmhdom~                b w m , bINTBLd[NIG             ';


Swmt, Olrr god b to provide 8 m - L I N K - s t m ~            acaeee though s&m .
dynamic virtuat privatb nehr& to alU PBI w o m m in theneat fWm, Today you
o ~ t d i r e o t l y ~ ~ ~ ~ y ~ ~ o ~ ~ m t h b ~ 1 P T S T e n d ~ y W ~ d b
tramadions tbr~,$~~gPlsacire        ate pormi#ed Ths Autti-Drug Network (AIM'B'T)
ridsa the SIPRNE$ ccmndc&ione bis;o&me &d prvvida tcaminalrr @ aootxk aess
V~MCIQ   fw the domestic a o h a h g e , p f i n t e m on.sndi+w o B a h SE=,ie     rtso
wed to twppmt ti10 Teanriat ~aq,~ddvtj    Ddviw Anal@%C W , the N & Qwp&-       ~
m1~1- &ti&%,         md the 1~;irqpT m * ~ k i q g 1 rm~~        d               '.   .


        . III the                                  fm di1~~~:610madi
                                                               ). .
inf-m          mid$
                                                   mi a\ the De*      ME-@'
System (DM$). :Phe FBI is the fmt civilian agency to q $ r a bfhe ctesei6ed DM8.
FAMS rrrillpviide an-             czwali~a  lwim, dc.mwMtiaSi~                m-e
camrscZad to PIB~CNW:              ~lp(hs capability to.pndandm d v e &tied
                                                                                     '




~o~            msiqpifmftia to aiyof t@e~,OQWaddrum oa DM$ or ibtmmtd
Digital Nembtk (:AWODIN)a.Th6 TSISd=L,wmionof?AMS i s isclaaDdlyinbaing lind
will provide the samb capWty toiehyme o~)~S~3&mr4SNEEby~~-..end              (&ftMsyear.
                       BUS wilP provide writm-bmade s e a m amlain ta
Tha RBP~it~491m1dani+of&                                                                          .


 drlILteIlilgaoce1
8eome 8    -d  ays
off the & a . w h
wm. Tho-
endsdty.0
                                                                *


                                                                             3
                                                                             .@tyg                ::
                                                                             a~~                  .,
 web sites @omm                                          BI         xc~ a t Mart
                                                                            a
 (ICDM) is ounaultly in development and ahould be on limp by the and of 2004 Tba WI
 Chidf J n f o d o a 'OfBwii also woddqj with the DqrlhbnmQof J ' c e oa intdbm
 betweeh ICSIS am3 the Law l3dbmmmtW d o m Shmrbg initiative and with the PBI
 CriminalI&A       'bflmna&~dSd~     (a)    Divisio~~ to dinpasetha sharing of
 inteEpnce related hfbm&on fbm and to atate and l d owale. (U) .

        Ths mI is cumenfly dqloylng the SElCRBT versions of PM, which uses DM$
 and secure Outlook like 0 - d for o]rgahtioeal rnm~qg~38, so-thatour aslalysts a d
 reporb ofticem om aend and rsoaiva timely htelligetwb adth othaagaadm in near red
 time. The PBI il alao woddng on a digital prodhtion oeqpabUty for IIRe ~.~~
 mrdrop 1-ge      (XML) taslt d l '        with FAUF'md q p o r t on-line di@M
                                                                                                            -       '



Ii
            c

                                   p h d o n of ~tellilgmo@                   prpliiappryhg&dabretandardeimdrn*
                                                                           ofidbrmationwith &e hteUigcu~'oom&ty~
                                   T h e ~ ~ I i e & ~ $ ~ ~ l y b g o s wtew b ~ o g to
                                                                                      y +ploy a htecticm h v e 3~bats
1:                                 Mat capability with ilbardom aocese oontrola end :PublieKey hfhutqudm
                                   dfi'cates in.1mppOrt d ofosed Corn&@ sf Int-           whioh will p ~ same
                                                                                                          t . &win8
                                   d o u r most eaylitive data with trustea mmbm of o&ar agemi=. Tho FBI is also
II
[. 1
[i.                                C   O   ~   O   ~k d    ~ l ~ WO
                                                      I l Lsuoh  r   W d Spa~ewhich is th~f~m&bnfix a
                                   c o ~ t y ~ I ~ & n ~ o r t l mcrwseinfem*ca
                                                                 i~to                       GO~Had0&
                                                                                                    the InbIuigmm

Ii                                     TIW FBI p~nmto lnre   &id   system as the adation for sdditiaial a mat ion
                                   tiharhq with fho E,Fcnbrl Stab cmd Ladmtitia. (er]

[i                                                   o p d ~d
                                                            a n u n i n m e of sew@       M-d           FT md- a
                            .i
                                                                  h01-                           .a wm.
                                                                                            maw@'W)
[I                                 ThaNDBxis~beaqd~ofdolaalMmmdaip~~&
                                                                                                                '




                                   8 & d ~ ~ e 8Ild    % hd  kI'-pW&3tlIl€%    h
                                                                               &dd0-6[1t   4-%.     The-mEIL also
                                   be.a fixion poiab for lfie ookl.ektionoff Woally-basada
                                                                                         -                      with
                                                                                                j d c e M~maticni
D.                  .       .
                                   c c ; s s i n d o d l~&Ulity.d?xta
                                                                    CU)      .


II                                         Low E n f i ~ m a~t
                                    parthipate in p ~ f m s i o pd i d hi-
                                                                                 ~ web-based
                                                                          Oprovides    e              to the law
                                                                                             m~mmuniWns
                                 . enfomaqedls coglrnuni@ to exchange i n f o d m F O ~ ~ U FOSPL*: $ edwtibn p ~ a g mand  ~,
                                                                                aad topically fow-addialog. The system has baaa
II                                  o p d d since! 1995 laadprwmtIyeeaViqg &out 30,Wius&. LBO hea scaam
                                    coltlnectivity bo thb Regiohal m m mtaming Systemal nm&-(rlssaet). 'IbPBI
                                    Intea$eflceprodm are di98cminatcd w d y via LBO to over 17B000inw & m m t
 ti                                 agencies and tb 60 federal agencies, cnad providing infhm~;Btion
                                   'oyber thrsa$to patrol o i 3 l q anbd other l d law &&m&
                                                                                                     about temdsm, oriminal and
                                                                                                     peamanel who haw dinst
                                    dailyoonttwts wi'Xh(ha gmdp&lic. 'I'hePBPplens to ihhance~LBO forrobwt, high-
 U.                                 svsilahility opm,tion.The PrSi wiPl h e the b c c d
                                    s d ~ v r but'mc1!as%ed
                                               e
                                                                                                as dhe primany chann~dfot
                                                                umnmddom with d t k fcded, .slatean4 local agencies. LEO
                                    and the Depar6mrmt of Homeld Securities Joint RegidI MxmaUbn Bxchaqge System
 li .                               (mEs)will be iI1md1a.
                                          The Invwitigative Data Warehouse OW)  is fillowing 'a mu.ltiPlephased $f)~maoh  to
 II             I
                        .
                                   quickly provide m w r t to FBI hvdgat~rs,and Task Fomob m&m Ipthe form of a
                                   s p ~ y d g y e l6~ pi d d ptotrpe eystaq, the Secpnte C b u n t w t m o ~qperatlotltll
     I TI                          Pmtotpe Mro~tm&(;ent(SICC)PQ.Ths emtQpphe sy&m wihiohbuilds upon SCOPE is the
     A                             1DWsystam; tha 1W deployment of IDW 'ie scheduled for Dwmber 2004. The LIDW will
     help msat the law do~cementand tOle ICnesd f*r rapid, BI =#   d c p ~ lipbxed
                                                                             s
                 ~      data d h g t ~ ~ 1 'P t Bo I ~ ~ ~ ~ fha
     t t d ' w l ptbviip~                                    & V CU)
                                                                 B

       . .   '            he ~ ~ l t l ~ ~ ~~ ngfdo lml ~o o~f p
                                                % n i ~ vtreiptenw'tod i e ~ da se,
     and 100ai hw edomment                                           f51wend prc)vi&pow~t
     tooh for o w ) ~ = b l ae d p i .                m~                    ~     Wad
                                                                   ~ in St;.Louit~;  a       y
     demonstration eitm am ti&                             ~mieto[l)~~tPle
     valae of d m h g irivdgdve ,datawhich cso bb amlynx1by m d q p .titoffwarp toole; d(2)
     help dehe tsobniod and oqgq&ationd apphwhes for m @ o d ~M6tytems.P&m,l
     dmM&.hut dqbymnaart bftb'MtSWI be based on d b d h orthe dm-                          end
     the m W wid* p~ fbr irw c;Pfoampt iafdzxmatiaa]~        aIuwing bsing hqwe~!opextby the
     Deparhndidof~ueti'bd0 . "                             '




     amta slad &~taip.the                        FBI's btdigeme W.auwidbin tbe PBI. ElCd
                                                                               have                                                      '


     r ~ ~ ~ r c c e a ~ t o ~ c m d S ~ ~ ~ ~ ~ ~ a b y w i t f b o a b l e t a W
     m]pl~d   sharing tbis h f b d r n wifh eae~e8w & h f b a8 w d as our custom-
.    r n d Ip ~ m w i t h h B n a h ~ ~ r m d h w d ~ : ~ d t i a.. ( U )           \




                         X8grees lfltltl t     h e . ~ a a i ~ 0 1 1 1 . @ N. ~  b p.to
                                                                                      ~m     thelsmlc To
                          0 0 B&~&sm                 h demahd fix mw'toSauiitfvS Comprtmimted
     Mimation ($.C4[)                     ~~      Ithe f01110wiq actions haw been taken: (U) .
                                                                                                             .   .
             1) ~atgs
                    ~ ~       8 and~ inmqmitsd
                                        ' ~ g @to   n new
                                                     ~  e FB~.~&ities.
                                                            d       '       .  .    ~
    . T b will
          ..        invd,@w.md
               do+ d i d o&                     elementq &.hehighl:y
                                    inte,lligaam~            loceted$n.srrras,
     thsta,mi
         6 to th6~h.as
                     f l @ w , o f h b ~ande cmpmm -,.to             classifiiqd
                                                     .,.       .            .   .
     ~ o n ~ m . ( U ) ~                                   .            .                   '   . I                  .   .




            ..




                                                                                 ~Vidsd~.hJ'W4X>~8  to .
                     '

                                '   'Queetionsfor the ~kndwhich followed .hui-theMaroh 3 4 2004 kwtimony.
                                    of D~WS  Hmkgtorn end Ford w n c d g the bunt-*          bud* for FY
                                                                             bdeqtmderat on the FBI
                                                                                                                             .   .




.     ,
                                                                                                      dhm to ths Natiod $wwity       :
                                                                                    .                 fepked with STBs by 22005
      ..-.,.             -. . . .         ..                       ..                   .
                 .          .
       I.
                                                 .     .
il                                                               that, like other inteUpo8 and law ~     ~      t agencim,
                                    it needed to htpmve in 0vay way poasible tlne pmcmsea wed to dieeemidstc threat
                                                                                                                      m    t

                                    M o d o n . . Sines Sqtmbar 11,2001, the FBI haa bawd olear g u i b c e far tPld
II
                    I


                                    diesemhatiiond k 8 M o ~ o n n~ O i polby         o dmlopmsnt
                                                                                         ~           and traiw
                                    idti@ivemam in pmgresa to flmrthastrengthen the Fprr h a t hhmatie)ndiw-on
                                    prumw6[oaBelow am ths'etsp~the .IF331has taka: od
1-1     .
                                         o    As hndl.i~sMacprlica, tb FBI's lBAD4, a edor 1~1te11u~anod
                                                                                                      Comuniity oareg
                                              profd.od,hae'atablbhed amcqltar of opdom, plicitw, and procd&
I1.                                           mhtd (to the B s w
                                                  0
                                                                                bbmally a d c m y , ofilrae31 $ & d m


[I                                                h Decnmba 2003,m BC ma       to all.lE?ieldOffices and Leg&, entitled, . .
                                                        ' Raw WIliv." ThSs BC pmviddI guIcbmm, reportingj-oP&
                                                  YRqmrbw
                                     -
                                                                    fwmw intemii:genceWIvedlhm PBI hyestigationg and
                                                  md ~uthgaiaspivc&mm
[I              .                                                 and smpbuized threat M d c m repdingand.
                                                  tabIligem COB~CMO~,
                                                  d i s s d L a t i ~ r ] r ~ - a
                             '*I'




I                                            -'   Ths FBI hae p m p d and db&iiut& md& md d o h offj.nteQpnce
                                              rer~uhmanhrCmateIli-            m81&orn ahd mpd&g guidance) br qpnay-*de we.
ir      - . -           .
                        .1
                             2




                                     -
                                                  'Ihose. m ~ ~ . a r s pt!bo ~ intmad:a$d available to all e q 1 0 p s .
                                                  The reqi1immtntts p v i d e ~ ~ c ~ ~and wePTdefined
                                                  h&    001belXd@   the'-
                                                                                                              e v eintdligence
                                                                               t Z l . . l U l l ' ~The ~ @ l l X i~ l ~
                                                                                                                           l ~
                                                                                                                         ~ (md o
                                                                                                                             '      &   ~

li      .
                                                  fbimjd h1~1udadetailed m p t i q tlmosholda, tbno &aanm, and rqprtiqg
                                                  i n s t m & ~ t o ~ W ~ ~ ~ ~ s n d b w W ~ a t s l t h e
                                                  idbm.d.onshould lbe mported (U)
r                                                                                 .       I
    1
                                                   -.
11'                                      0        The FBIlhas dev@lOpaaatbd @Bemedtltd a two-week ~gcdalizedtreining come
                                                  for amalp* and agaata in reportingand dkmdnad* raw htellligenceaThis
[I                                                comse tmilches the evaldon of collectad intelligence fix dissemhatioa,,lls well
                                                  as reporting and dm
                                                                    -i         W e onrft using dhn motit q-bdate FBI bwiness
                                                  procams, fbnna&$andpoliciw. (W)
II
11          .
                                                   he PBI is nearing completion ddfia ~wel~pmemt   ofa new wab-bmcxi
                                         .        Intelligm~wI n f o e n Report (IDK) qplicatior$which will senvs to vastly
li          -                                     iolprov~Plhe efficiency and ~ffdarenmssof reporthgand tikmhnating &reat
                                                  infbdon The ww application will contain a hlgle W format fbr use
                                                             dl of the PB19eprograms, and will hv4: a number of advan~xl
                                                  througbc~u~t
I!                                                fbahm, asuh As electronic appro*    datb and timt~&amping, work now tracking,
                                                  amd&ar.&td & a e o n bb. The application w i l l be suppor3ea by a
                                                  co-Iha&&re IW handbook which will be didribz~tedthmughout the P13I in
 1,                                               June 2W.(u)'
                                                                 .



                The Natic~md'fhPaat                            Corn--1          DiivMon'e
        (m)    f d pip$for thp re                              d as s m
                                                                      i 8
                                                                        11&r
                                                                          1t  i m r t ~ l d b.
        action of all ema:ging h w d Taron& 0 mdlDmdc T m h 0thmb.
        The NTCS d i n s t e e &we &utwbwith a m d sapSltiw r  d ag~bloim,to inclub the              '

        Tenoriet 'I;hreat l i i t e g m t i o n ,0,
                                                 ~        S m e Cemtm 0idthe
                                                   I['&~~)rist
.       F O ~ S ~ ~ ~ T * mw~aek~ar~em.
                            I&                          (u)
              The WC!                                                        hbUc A a a d r w a ~ t a
        UnB(PAW);     Sh                                            1
                                                                    -       T m & Watch and
        W a r n i n g U n i t O , a n b T B r e a t M d ~ U n i t ~ I v ) *TMUmdCIWm
        mpmiblo ~ O IE: L O h@dbhg
                              ~          d t h mc, 4'$c,and NqITPi(U)




                   h&fd\~n 0f        h f!lU@Ofi &@   m  8 I d @i~&',&hldhg    ihe     w&d
        hnthsthtesjt o:itam&mbydv&
        thrsat idbmabtl~and              wtivity h ooojdmwith FBHQ, FBIFlsld Offices,
        Legal Attache$ and tine U.S. E n ~ g e m oe O U t f i t y ~ ~ J I c0
                                                                           )O

               Baob rn~@.TJhhU&va             q p m ~ y t , ~ l ~ m d a :v i ~
                                                                             ty i W
        ~ ~ ~ v e d ~ ~ 8 f ~ ~ ~ ' % Q o a l ~ v ~ ~ c
        EuhOf-tfaes8k e f d , h the fbrb ofbPnail
        pedrsooneet TMUr inmn-1ym         the rppropziatemIWlt,mamd t s , Jc>a
        T       d Tesk I?ome(JTlF) agdqs, or ~        ~       g    ~        ~ t i o ' w l y~
                                                                            V                i             ~
    -   ~oftheol~infonsatian,d~arsoondof.W~.Mdtm&d
        ~dlditio~y,~~~brurebimmite& srs me&,these tbteptamdl qicicms.tstiPrity npcab tk
        assigned ta Twb~cal M ~ O &dali&i
                                        T I      who him the threat i d d o o n ie
        ===Ched.=narized,6ll~                andm&mdhthe~habla1[UUtW
        database*0
                 '
                D m i q f i d year 2003,TMU & v d and ilesm~sd             appruxhUe11ely 11,000 threat
        a d mspi~i~us.attivity   r e f d . TMU mibs@y           tana~~oriidizd    more than5700
        individual ttrreat andlor euapidous activity reports in the 'Wdetabase. TI&J
    .   disiwmhbd tha threat and mpicioud activity i n f d ~ to           mthe orgtxnbatims and
        entities that had oardpaight repm'bi%iity
        or incident. 'I'MUrohely pmvidwd                             ~b  baeliae criteria to the
        Tenaim W q m ~ t and s R q , W m$ d o n -1                       diasaminatae the informaton
        in the form.ofam1 htelllieence Worn&o~tlReper(             t r ~multiple oouReatear0dsm
        owtamem, including TaaC. Bebm the FBI became t~Ai~r0ly             involired in tfie pubIication
        of IlRs, TMU had d i d contact with I T I C on a daily basis. (U)

               Over 300 h d i v i d u W searches of tha TMU      ~~~
                                                                database ware queabd of;
        thd oonduckd by, TMW to fkditate theat trend analyda by FBI mi@,  tha Deptutmmt of
                                                             amm, lind0 t h agmcim
                                                                            ~      of
                                                           Also, in2003, oysr 200
                                                            puQfie&on in Ghe joint
                                                            W d Q nwarn &en
 didbuted to the Prmidenttaarwell 0s rnultiplle f d d . ugmdesaTMU also ieogival
 requests for, and conduct& mom tba Wmty epeoidix& b t t t database eemhes for
 major wen@O.e.. Sqpeabowl World               and fa.16@~btdata m h crs tho88
 cbmspondinng with mILigiow oe1ebdlone.         . .

 @ouuttiv$morhWdck

       W 'FTIC p~~~~ wit31 soowls toP'.BIhtemsl cbman have begl p ~ t c d
                                                                        proxy
 ai@s to the m.& CT.Watcha d fbldefdt mdthc %f WUoh Daily Log. Many nsw
 issUesandqdsteeprareporbdOoCTWbyed Allactimsbken,h~telephone
 ~ k ~ , b e l s t y p e s d ~ m a i l e m ~ ~ & i n & ~ h t h e ~ aW i P~yg~bo g .
 thir~~~heurosse~bothi&bamailaablog.d~on~~todT
 W&b is also al-le          to TLPC. l?whxmma CTW ~malyatie-physicallya d @ to
 m C whm thsy senre in a &&?rn             emukg i,nfbmdmir sSlared between the FBI
 and m C *Cb~ivtmelly,CI'W pmomel lol have a m a s to TITC Chhe Mum TIZC
 mo& all n m theat M o d m a            d ppvide8 npdatesr on amat tfrreat inve,&gatiaau.           I




 ~ihelatesuam-toeaf~f.lfo~~,~willbadl~toanewb~,ing~ss
 smbr,
   . ..*. w i l l b e p ~ l ~ d y o o - ~ m c * (U) ,
                                                                                  -
                       Id0nnam~0111
                       .p
                                      wkth the TemrbQ-
                                 Shuia~
  ,Gj$k$$,L   .-
      . he TSCiaitia~~
     . .:                     receiva an inqnay itiwn a darw drcemmt ngw ~ . u ~ s q y & t
  ~ ~ 0 1-      m8t and T8mr0& O r g d d o n Pile               record match, Tha TSC
 -rmi-.1dth             the hq*      law &men:t rga:yto pmvide M o n imd
  comfinn a ma06h~on the mbject(s). - Ifa possible match imade, the TSC genaatw a
  report 0 0 a U . g all psthent biogqhid data md a ~h~gcltlht    sfaay.meamhconducted
- The TSC &en ~~ dimat confactwith tho CTW &a bllkphane ad/ox ireare hMlc
  to pmYide the i i a f o d ~ rsgsrding
                               n        the po&ble mafch,.~(U)
         Upon meipt of the telephonic notificlptionfmm th6 TSC, an analyst h ~ m        the -
 CIW will d a v dl idat@hg W o d o n regarding thepogsible temriat ajPject and .
 oonfinn my iIatab8~se-b M y w n d d bytheTSC, swh as NationaJ Ckhhal
 htmt Baqkgm'~md'Chw&ACS and Tip-OfE If nwmmry, ths mdy3twill initiate
 dcli~d       &hllse semlies to hcl*. a am detailed ikC8 search, .Telephona
 Applications, Msgratsd hteUigmce l d b d o n Appliation, Trsseury Enfbmtment
 Chmtmi&on Systan, WatchM, D q m m f o f SClrte, ~lmmipxtiomand Nahudhtion                      .
 S e r v i c e , ~ ~ r t s l t i oSwrority
                                   n       Administration,B m u of Wsoe, INTERPOX, and
 pertinent public ctabsbases such as ChoimPoirat, Auto-19,         and LaxisiMexis. (U)
                   I


                                                                                      .
        The CTW d y e t p v i d m a Mef eynqsis to a @IN
                                                       m     ,who theq
                                                             t
 coordhta &ive imd hvestigatiw d o n with ,$hefield vir the FBI J'T'ITB,.
 FieldEEC3AT BfEe88, PBI case agen$;Wox FBI Aiqm~tLiaiamAgmbaThe CTW
        disseminafes the :                                       (ro-        find -idmv
        tlimtrfywiththe,                                                                                I


    '   hmtbeJTTP, U1e                                     mmluatea in the CTW/TSIC@up
        Daily LO&B. Wha5e TSC gAoup Daily            m@iaconhib:qmh               mob as llwnwO
        looathasidm~ffiim,d - b i c k illlaanbaq; mir W p t i o x i of how the m a t h v m .                1:
        r8801vd. 'Ibe lojg sntpiw;am raad f n ' d ti& by     pcmmdat the TSC m ~@jmta,l
        City, Virginia, auld used tp hmat a fitrsl wltudon for the encounter and wcloseths
        loop:' The TSC'dthabfyrepo* all pedmnt invdptive a d o r i91blUligemm                               11
        Mnanatiionbaok.b the respective agemy W nomhtsd thb tmmfist-mM subjwt for
        inchdon into the,VaTOF databass (TIlC or FBI). (U)\                                                 I:
                                                                               .   .
                 ~     '     ~   e& ITTI'F
                                      ~ haev been &gmd'm-he.to
                                                  e    ~      ~     CTW.
        Ad4t$mdlys    unrk
                         thenasw CTD       4o    w FlPrrPhas bsar.phcm3 nasdar.&e
        wnbmh of tho PllES. Tbi.m u d mof fmtuqebwill fbilit,abthe flow of
-             .. mrm ths
        ildimwiag                ma.
                                   ,mdm    L   ,
                                               ( C  1  )                . .




        teqPiPes that tlheiy s u k a y compete hd g n m a gmsuhnt to the dem8m~di.s

             S W t o otha inb11Bigmw agdaq,tha FBI '8 gpwtng oadra ofexp~dmodl
             .
        mppok htenipm d y s ( e atnd other     sptxdalb p v i d e a &@ant portion.
         ma& t      b @~ ~ c p - t l-1h e taam. HOW-$ it is not P-          h mt  bP ~ W         off W
        the FBI to otunractmka a two-par comnhamft to hn PBIHQpodtion as a 'krqpidl
        mtgti0fzuhnplyiii fhat S S h on -0 Uwo-year aecigrmnmta contribute at.alass-then
        optimum l  d 61,the FBFs oounteptarraismmisisiod due to their length off service* The
        intention of amice at PBIWQ is Q provide                  rs, selected on the basis oftheir
        dmondmbd ac~briwmm               S a wries o
                                         with                             doufmly d € ! l m d q
        clbdle9iga. T&e~'d-m.pdde                                          an a d 0 n a l - dglobal
        scale4 Pimt lins manqgm, w o w wifh tLWrmore sxlpedeand--dm ant1mqqmtd

                                                                                           I


                                                                                               40   '
[-I
  k
            .
                    A
                        by a l m w b d ~ijiate~igtwe
                                               ~e~~
                        prioritia, dw~eIopm81~10
                                                           play a vitaI rn~ein the idtm&io~ntiOllofqaationd
                                                agd Drnplem&~e'nof ag63~6y1wideinitiativrsb, the aeeeeamend of
                        the effecdvm#reofttnosel Wdvm; and the p r e p d m ofprodve ntspo~~wa~       to
I1                      addrsge ~ w g i t l trmdk
                                            g          PBMQ SSAe subsqumtIy utilize thie gabtxit
                        knowledge atld eatpaimc0 in tha domatie field and ovmeu in i k h r m c e ofthe PBH'k
                                                                                                               :




                        mission. (UJ,
II
                                If the EvBI L to foetcl th6 belopmmt of true ladq to h w ib.r]c~mggle                     '


                        cadra, it is i m p d y e       all      line and mid-twet ri~mgas.  d v e l y ~d M y avail
                        theanselves ofthe i h s t possible mp of ledemhip cl!~allmgm,          most parti~ly,those
                        available in lPBIWQ SSA,]godtio~.The PBrs atwdv(3Dwelqrnent @ S ~ W O ~
                        Pfc>pmhas'mughtto atdke the appropi& b a c e b s t w k prdding.fhst lline .
                        ~~          with o nuqe of (devdopmentdqqmhmitiesS~tmd & m y adchm
                        hccessim~~m~~           w t i b still prod- cmmlin-      irm the numag-        of priority
                        P m PB@=~Y                                   &ompmgrmm with tbe. nsw  . ~ e o t i i v anb
                                                                                                               d
                        approachesofmlsw Grst &me mmagm.
                        ~mflsmendsnBhI?nNO.14: Pplodde
                        should obtain ilar mahatfng.r~r&                              g the ydyIy deck on me&
                    0      ,*..
i-1                        f .;
                                  r*
                                   1


                .


dJ*                                                                                                                           I




                        step to vtdidaQ6iha assit ars c o n d u d by the handliqg agent and are asod to cletennine
 II                     repoaing l a d th-eIva t6 the          .      .
                        the wet's'reliability rndv d v of the..informata they
                                                                         facet
                                                                                   ~pmvided.
                                                                               of wset        Them and
                                                                                       developme&   aqms of
                                                                                                         operation.
                        0
 li                               W i t h ous yeat o f q a h g md way 18 months t h e , the handliq~agent is
                    '
                        required to mbdt a case agent w m m t to tolHQ. I[t$i wsesment is a Wf
 11     .               n d v e based on the handler's obsm&m of and inm$m with the asset, -amd
                        ~ I C iasight D ~ into~ H         &otiwionand mtrol,bnilefs, Mita laad my 6gniiicant
 [i                     behadoral ohaqga TI& time teble do- not pmlu(tethe agcart ttom mM#in;~
                        mised case agat assesmat in the h e if the assat8 behavibr c b q p sipoicantly.
                                                                                                                a

                        Additionally, a revbed v d o n of the NFPM section 27 iR cumentry in the draft a g e .
 1I                     Thenew NmPM will inclmde language that direota agents-tonot@ Qheir*m&e'
                        supervisor if they idlaw a dpdficmt change inthe asset. The SSA will #hend k a m h e
  r f
                        if t h & ~ ~ ~ s ebelhwvid
                                           ts      chaqe rises to a l d which wdclq r a q P l i r e l@llKQ nothEica$ioa
                .                                         ftom assmwhich; altp16ua aimitl~imiiva
                          it contmt, rgem rectiv~,iiomation
    I
               - in nature, cmd depomding onatheinfmaddb b & ~ on thtt i~vb)stia&~tive
                                                                                  pnim,                                             .

          . rogllur followup. 'W1e8e ~ e ofsrepa             tbemselv~to1h e                 17ea!!of .
            ossd developmepi%a d opetodon FutohepOthir f b t ofamp~tdcvdopnn8nt.hndq d o n
            are dictatsd by t l n ~logical pmgmsipn ifthe iivmtigativeproass snd ' o a ~ ois
                                                                                           t limited
        . to or defined in adnnlhistiativa poilcy.

               ~ a i n l n e n d ~ t ~ ~ a n 'Improvetbe h w of ~ntellfgemwtnfformitlon'w~hlm,                           ~c
               lFBI a d tbadbki                of .brtell~~edk     inloneraw c lother bteUl&acr                    rgbem'eIw;'.
                                                                                                                     . , . . ,. . . .
                                ...
                                                                                 . . . .: . . .. . .. .. - . .
             . 0'.
                                                       I .
                           .. . . . ..*
                                     .            . .                                                                   . . . ..
                                                      . -... ...- . .
                     .                 , - ,        . .                   . .
                 . . .. . :.. . .. .                                     . . .
                                                                       1 . .   .
                                                                                   ;. . . .  . . . . .. . . . . : . . . . . .
                                                                                                  "?
                                                                                                         * .




                 . i ' ~ e P B I ~ y ~ r ~ q d b i l i i t y t o . ~ a s d o o , ~ ~ , F d .'m ~:.S ~ 6 ~ ~ ~ t
               eaforcaneat.tod f & d t d hhmtio~ ta dsso is aa h h tp ~of-t it^^ lhisrrla
               $h&&mlh b 1 ~ 1 M             ~U t lthe ~ 1 ~tahg.the
                                              01b8         %          bfbhk!Uda bs ths & w o n ,    .
                        ~ b i a idq$py
                                 g          0 r p q ~ -6.1 ~           The !B?)f  rrrll dclivq its.
               i n f b ~ n . Q h t o & gdhe
                                         hq  mmt the FBI a d its imtorncm i 0 j ~partners
                                                                                  I       u~t;--(U)

                       be FBI is c ~ f i s ? a tt~t ~the
                                                      ~ M t , ~ f O f t h a a sha t e l i l i ~ C&Q
                                                                                                a           ( ~ a t Tw
                                                                                                                    t --            .
              &re% ~]Scniitiiwa& m i e t ~011lpt40n          ~                                 : l tha pew SCI
                                                                               ( $ ~ ~ ) . k dvia                   ":
                                                                                                                                .
              O p d r i a 1 NWon'lr(SCION]).TBe S C m project wrb M~lstcdl                        in S q t ~ B ,2001,
                                                                                                                  ~,
        '   - od has met d r o h s a e , budget and - M M & i W ~ U a                                    W-        to dhe




                                                             .   .                                             .-                                  L
                      SCION ip cywktly ' ~ l l e - i o ovq 1000 ausen & IF431~ & ~ w u and     t t tlhdml
                                                                                                    ~
                                                                                                                                             . ,
              has initiated r pilot d I ~ 1 ~ p mpmjeot
                                                  l t to the fallowhg FitBd OfiEu%%'~sw'fork, IMon,
              and KaPses City*'%he' plan b to deewx SCION io dl .FBIFidld Offices, as fimding
              becoma availabre. lLMtd access to Itntclidk fromother Field Oflfim is available .
                                                                                                                                                   i
                                                                                                             .
              through the old FBI lhttlligeece I&-09        System Nktwo&:(nsNBT). Mpk of the

        .
              Field'Offia-Rirvetwo w 6 h 0 a d owhich
              wo-OW
                                                      ~ ~ havo a conwctiomi to PBl hcadq-.
                            M~ I ' q & 6md difficult tc~usq and they mlocated in &all ~ecm
                                                                                                     'IIbese . '                                   I-
                                                                                                            .
              CompsrbnentdM~~numatiomu        Fmilitim       that are not Ita theageast or ordyat work
              meas. An irnpdjmemlt to field expydmoCSClQNis the blc ot'$CIF qace fbt the Reld
                                                                                                                                        '.
                                                                                                                                                   I-
I             Intelligqce Gt6ups.(m0s)'andthe Joint Tmrim Task P m % (J'MF8) pei1mnne1. (U) . .
                .. Accesa to'dhe intelligence and homeland securitycm~muniitig.Y the SECRET
              level is provided via ithe Depmtmernt of Defencs SBCRBT htemet h t c h l Router
              htwofk (SIPIWBT) which provida thc o o m d m d ~ nbac1'cb.o1[1e
                                                                      s        todlN'IBHdINKm                             '

              Secnt, Olu god L t a p provide'S ~ l P ~ ~ ~ L ~ -acme     S e through
                                                                               c r dssixas -
              dynamic virtual pivats nepvo&a to 1FBI w o ~ t i o n in
                                                                    s the nmr f i r ~ e .Today jrou                                 .
omnot &#att m w                     mtwo& 'M    ths IB'INBTd ' o d ylibitad batoh
tmmmtiom thou@                      m.p d W 'The k d - h g Network (,M3T)
     the $I@'lmT~ U J d O ~ O lbl ~Bk b l Mmd      ~~~'~          and 8M2&8a:W 8 .
vebiole for tho &m&c 8xclmge ofinbllig-e on mItf&g dEorta. SERMT le sleo
used to $uppartthe ~ e a ' r ~o I~o d v H)dw
                                        d    & U @ ~ ~ Ihb,
                                                        I  the
                           I




                             am (FM)        whloh is brae& on the Defwre Mesaqjhg
Sygtsm (DM).        Ths PBX b the firsd clvlMmagency to opeads tI40~~1$8flec?   Dm.
p m will pov'ide on-he mewbge o p d o a , ~6~~~ $nd s m h capabilltiei~to everyone
                          PAM$ gives ua ths capability to eead imd&ve critid
                          W a to any ~fths'&~fMO+~a$cb&            w DMS or Automat&
Digital N ~ k ~ A ~ D I Tho         N TS/SQ
                                        ) . &an          cfl~M    is anix&tly in        and
willprouide.~~     camo cqabdityta e1veaym6on saob!in!'-               by dhe d6d of tbis par.
The FBra implLmdon of the DMS will p v i d e W f i t w + ~ secure e M to
internaatsdmU-.               ~~lbintfsep~en?,~&~will~b~~~tnd
&wase m     y ofemail ttystam qmmaly in use thto@(rnrt PineDdpmant oi!Deq@m
aad Intelligenoe Ageaim. In its final form. DMS will Bmme the p v h a d 1 global      ~
        e-dB system. It will provide d e d intempexability o f ~ o w cornmeaoialy
                                                                             a
off t h e & ~ m ~ m p d ~ d c o m r s c t o o r r r 2 ~ o n o i ~ & ~ , y
&. The isydm                    rndd+in* at@chmab     . .  ta mnmmgws andlgnbviii adto:
a n d s d t y . (ell
  I,\.
         .   *

        In the axit of conndvity for.dUaprodu&, the IBI ie juet begirming tto
    +2* .
hg&maat our idti4 p m ~ m afor   s BaLa marts -part of $bhtellipnw Comthrmity
                             ling @a@)m
SJBkiIllf0r I r $ ~ d ~ slbias           ). t mI b      dbB  W   C@
                                                                  P    U G b hi &tB f0X3ll
                                                                    l dl
ofWIligernee               IP~Wgnee  Assam-, and IIBs are being publish~don PBI
web sites ~ e o to S     dHPRNBT d JWICS. The bret PBI TS/SCI IC PlatsE M
(1CZ)M) is oux~e~dy   ind 6 v e l ~ mPnd
                                     t shouldbs am %("J  by the m d of 2004. The PBI
ChidW~ooa           Offioa b aPso wodkhg with the'Dqarltm81tlUof Justice on intafhm
b 0 W m ~CSISttrsd tlme hvv3bfbmm& I a f d O n : &wing initiative-endwith the PBI
crhllbd hl.&OB h4&0d80n$&~e8 (a)             fiViSioI¶b h mthe d d f l g a&
intelligence related i n f o d m b m mdto stab.and lootal offi*.    0.
        TheFBI is currently deploying the SlKRBT.vd~m        of FAMS, whbh a    ss DMS
and secure Qutll~bk  like amail ibr a-d           messag@~*eo  that om a m dm tiad
reparts officem omsend lILd &ve , h o l y irablligmcewith other agencies in near teal
time, The FBI L also worline; on a digitalproduction aap&iUity for IIRsusing'sxtended
markup bgugg: (l(haL) tbnt d       lht-e     with F M caKd sllpport on-line digitdl
pmduction of intelligence reports. The FBI h qpfying XhL data sQan&&        and meta-
data tagging to facilitate the 8xc-     of idbmatioa with the intelligence oommtlmity.
Tha FBI is also kpplying new security tabnology to deploy a b ~ m U v e l Data   3
Mart capabilityaith diecrationerymessomtrgle and PnloYio Key hfbtmdm .
                                              -   I                                                                 .   .
                                                  .. .
                                          I   .       .




     ofour moet s d ~ v data
                         e with                                       ofotha r m m O.*IbsFBI b aha
     invd-       the                                                  -to~ V Q W O @ QbIw Dm awdty
     aamaineandtog                                                d    ~   t nbe
                                                                              i   afa-gmtim
     comm*.Hi@                                                               mVi& hl!fhe two mTI
                                                                                               'tmsfi
     ondedea~                                                           rwimle comdvity and
     Virtaal PtiWLt6 N                                    lmkd at to pdide inatwed acmw to
     intslligence to deployed pckormel. The PBI is also startibrngto use On-line*d 8 s h p
     colhboradantoo:le Buah ee It& Work,Spww-          in the ~OUIDWOB    fat the h1'elUgmw
     Coqndty Cc~fihorationPortal to in-e       inteUigmm~x)h0                ~a                e                            ,
                  \




       .~haPBIpkia
     SharhrgwIthtbdl                                                                               I




       ThoCJISN~idData
       .                                                                      Fqk W b - 8rystcm
     OPparOpto tbe o p d m                                                 iartcaoolslsotedrT-ads-
     tel-amidt                                                                .*nine (LBO) cnad W.WAN;
     neNDBxistot                                                              Ni
                                                                               n e-
                                                                                  &                    I



     -@-                                                                      a d m . TheWBrwriUadfK,
     Gbrhsimpint
     c e d d , d t y h ( u ) ,

            ~aw.w      .1.ma
                           , ot n Z ~ 3 n O ~ w                       l sifrs.kw
                                              d h~ d * C a O d d o l to
      fldhw~a    ~ ~ m p to ~ ~ . i t & d o n , = ~ w ~ : ~ ~ t sad                   i ~- o n
    . pdcipatu b p i 6                                   w s d d i ~ T h e s y 6 ~ h a s- k
      @@&w                                                u~cer8.m0 ha8 s ~ G U ~ W
      ct3ImaiViV t0.a                                    ~      ~   ~       .!~
                                                                              I ~ ( Q  ~    ~                                       d
      Inblllim prod1                                          .lT@OO:m~d~a    r    d   ~   ~




      agda mdta 60 fwnin agmdw n n d f # o V i ~ . ~ r n ~ ~ ~
                                            I ~td milumce
     daily ambwts @tb.fie generalpublic. The ~      p l LBO
                                                          ~ h tow high-
-    a ~ U i t y ~ f i o a T h e P B I w i U ~ t h b ~ s d W D m b ~ .e W l f . h
                                       with othsf d e a
     d d v e but r m o l w d w m t ~ d W                   and loo&agmcies* LBO
     d& mm~lt
           0fB[WXk8hllldS                 d ~ f J0h.t
                                                 S w  WJ
                                                       5l
                                                        fb&XEUbdian;-ge                                    SySkIQ
     (JlWS) will ba b i m W 1 l s . (U)


     @&IYPM)~~@J                                  Tat& Force m m h in the fim of a
     $piranydwe@pbdo p d o d pro                 the Sam~        ~      ~ qpmtksnal
                                                                               P                                    F           o
     P m ~ E i w i r (SCOPE). o ~                 sy&em&ohbuilh upon SCOlPB Is&
     I D W ' ~fie    ; fw1deplop- O ~ D Wie soheduld aha24304.~ h ~ollw
     help maet fba law cmibremat and the I@mxdl.fbrrapid, am, dependable i n d d data
     and will            -.mining was to PBIhvdgaliv6'EiIIwQ(U)
           .. .provide {data                              )   -




            The Mtllltiiwagancylrnf-on
                                    Sharing IKnitiativ~ intaxhi to amble Fd- atate,
     and l o d law db-mt cngmdes to Bhffe m g i d inwdgativc fHss aid p ~ v i ~ p o w a f u l
     to6b fmmmfUi d p w . A ~       P        ~effWf 18f~ l r n~ hiny St.~Louie; tWtiohanl.
                                                                                                                                    .   I
dtmomtralflolrn gitm b d g p m d TII~  god         de~h~mmtiow.it~ to (ij      (he
vahw of s W m @ v e deta wgd~hcan'be d y w dby modan ~~oftw~m            too& md (2)
helpdeb ~oM& orgardmtid spproachea Be regional eharsd eyetcmoe. Find
cieoi~ioae&ont deploy~nentofthe MIS will be based aa the d t s ofthe d e n a o ~ o m . ~ u d
tho dspma~t     wide plan for hw dolacmat Wormtion ahwing being de~vdopedby the
Dwarhnmt!o;fJwtice.0

        With tlhe.creationof the Oftice bfht~lliganosid the FBI,each PBI field office Plas
attbhhed a ITield ][rrtpIli:genceGroup 0.     It is the r~eqmnsiblityof'thme mOS to
                  e mgintain the FBI%intdigence ibtlcdam within the PBI. m0
manage, ~ t s t t and
pmmel havo muthi~m c w g to TS and SCI i n f o d ~ so      n they will be able to receive,
d y z q d e w and racome4nd dmhg thie M o d o n with ~ ~ t i t witbin   3 s   thb PBI m
well as our matornem and pafbnm within the InbIli$emn~;eand Law tmfiman&
u3olmwee. (U)

                              that fiie~uta& a~ocateresources consisteut with
                i o n E~ma~urue
~ m m e n ~ ~ iNO.
m priodtia:
        The FBI1 egnts with the g a n d concept thit the recorn-on        ia baaed upon
sad hasin fact i i M w h fieid ofice to addre86 Wher priority ma#as bofm Iowa .
ows. .Tile Dhwc@rhas instructed the field omc861 to we w.lmwam m am
necersery to h ~ d e - a Co-h
                            ll            lcada0 Howam, it must be pointed cut that&@
l e d dresoumw d d to eachpriority is not b u d r p n be rslatvi ranlr oftha
prioritybut u p o l m the level andl aim& of thc tbraot in a ~ piiority
                                                                 h      arso and the
em&mt;to h i o h the he1 has sobj ~ c t i dver o ~the matter. Thw,.tsdetamtne that uhe
appropriate lewd of resom*mis pllocatcd (o a@ priority, a simplq formula&mot be
usdL & detailwl d y s i 8 of tfna thoat d . w d o a d ia awry FBI division must ba
CQ-


        This analysis of the fhreatand workload is con-by       each PBIprog~mas part
of the FBI's resource adPwSion pnmess. In addition, the IPBI has developed and
implemented sad-annd program review to snsure ac1R11field office is appropriately
addassing &'I331 and the national program pridties. IfIeedqParta'sprogram m;anagas
are required to review w h o f f i ~ *p&)gram
                                       s     d e w sllbmbsion and maike apprqwiate
managemept decjkiom. In addition, the FBI's ~nsp&tionD i ~ o will  n use the remi-
annual TeYim Imlbdssi~m      8s a some d&\amat of oo~~d~soting tha field office
        .                                                                                                                                                                 .   .
               iqspettions. If field1 officesrn not rtdhyfn%priod@.matta:mappmpriately, the
                                       i s ~wrrik's
               i k p d ~ ~ ~ D i \ iwill     ~ n "flsdisg".andmq&e a & N ! ~ t i ~ ~ be o n . The
                                                                                      ~ takeq~..
             . lnqmtion Division will 3scr h w the d o n s of the ntgio~nd.pd~gmmmanager to. -
               ensure that approPdiak instruction and d o n s werp a m O
                 .\




                                                                                                    sh&ly yours;      ....




                      . . . . . . . . . . . . .

                           -       .. .:.                        .   .
                                                                         .       .
                                                                                 .   -   .    .
                                                                                                    &W,j.. K)W.;f . :.. .. . . . ..
                                                                                                     &pn&ofi'.~~aibnd
                                                                                                                .a
                                                                                                                         .                  . . . . .. .. .
                                                                                                                                            . .... .. . . .
                                                                                                                                                          I       -   .



                               -
                                                                                                                                                     aI   . I .




.   -       . .
                       .
                                            I   .   '
                                                        '<   .   -   :       '
                                                                                             ...   .                                        .     .!:                 .
                                                                                                                                .   .   a
